U.S. DEPARTMENT     OF   COMMERCE
   F Y 2009 PERFORMANCE &
    ACCOUNTABILIT Y REPORT


   AMERICAN JOBS, AMERICAN VALUES
                                             D E PA R T M E N T O F C O M M E R C E W E B A D D R E S S E S

                                                       FOR PLANNING AND PERFORMANCE

Department of Commerce                                    Bureau of Economic Analysis                                         National Technical Information Service
http://www.commerce.gov/                                  http://www.bea.gov                                                  http://www.ntis.gov/

Department of Commerce Strategic Plan, Performance        ◆◆   BEA’s Mission, Vision, Values, and Role                        ◆◆   Annual Report
Reports and Performance Plans                                  http://bea.gov/about/mission.htm                                    http://www.ntis.gov/pdf/annrpt2008.pdf
http://www.osec.doc.gov/bmi/budget/budgetsub_perf_
strategicplans.htm                                        ◆◆   BEA Strategic Plan for FY 2009-FY 2013                         U.S. Patent and Trademark Office
                                                               http://bea.gov/about/pdf/strategic_plan_matrix_2009-2013.pdf   http://www.uspto.gov
Economic Development Administration Annual Reports
http://www.eda.gov/AboutEDA/Annualreport.xml              ◆◆   Release Dates for 2009                                         ◆◆   Performance and Accountability Report
                                                               http://www.bea.gov/newsreleases/2009rd.htm                          http://www.uspto.gov/web/offices/com/annual/
International Trade Administration Strategic Plan
http://trade.gov/ITA_stratplan2007.pdf                    National Institute of Standards and Technology                      ◆◆   President’s Budget and Strategic Plan
                                                                                                                                   http://www.uspto.gov/web/offices/ac/comp/budg/
Minority Business Development Agency                      ◆◆   NIST Performance Evaluation                                         index.html
Portal/Annual Report                                           http://www.nist.gov/director/planning/impact_assessment.htm
http://www.mbda.gov                                                                                                           National Telecommunications and Information
                                                          ◆◆   NIST Technology Innovation Program                             Administration
Bureau of Industry and Security Annual Report                  http://www.nist.gov/tip/
http://www.bis.doc.gov/                                                                                                       ◆◆   Annual Reports
                                                          ◆◆   NIST Manufacturing Extension Partnership – MEP Impacts              http://www.ntia.doc.gov/ntiahome/annreports.html
Census Bureau                                                  http://www.mep.nist.gov/impacts/index.htm
http://www.census.gov                                                                                                         National Oceanic and Atmospheric Administration
                                                          ◆◆   NIST Baldrige National Quality Program – Program Information   Strategic Planning and Performance
Economics and Statistics Administration                        and Award Statistics                                           http://www.ppi.noaa.gov/
http://www.esa.doc.gov/                                        http://www.quality.nist.gov/
                                                                                                                              Office of Inspector General
                                                                                                                              http://www.oig.doc.gov/




                                                    B U D G E T A N D P E R F O R M A N C E C O N TA C T S

Departmental Management                                   Economics and Statistics Administration/                            U.S. Patent and Trademark Office
   Bill Tatter, btatter@doc.gov,                          Bureau of Economic Analysis                                             Joan Bolton, joan.bolton@uspto.gov,
   	 202-482-5979                                         	 Joanne Buenzli, jbuenzli@doc.gov,                                     	 571-272-6290
   Steve Shapiro, sshapiro@doc.gov,                           	 202-482-3038
   	 202-482-3700                                                                                                             National Institute of Standards and Technology
                                                          International Trade Administration                                      Francisco Balicao, francisco.balicao@nist.gov,
Office of Inspector General                                   Dondi Ojeda, dondi_ojeda@ita.doc.gov,                               	 301-975-5510
    John Webb, jwebb@oig.gov,                                 	 202-482-5204                                                      Jason Boehm, jason.boehm@nist.gov,
    	 202-482-1719                                                                                                                	 301-975-9678
                                                          Bureau of Industry and Security
Economic Development Administration                           Gay Shrum, gshrum@bis.doc.gov,                                  National Technical Information Service
   John Thompson, jthompson@eda.doc.gov,                      	 202-482-1058                                                      Teresa Grant, tgrant@ntis.gov,
   	 202-482-4924                                             Brad Burke, bburke@bis.doc.gov,                                     	 703-605-6472
   William Kittredge, wkittredge@eda.doc.gov,                 	 202-482-6006                                                      Mary Houff, mhouff@ntis.gov,
   	 202-482-5442                                                                                                                 	 703-605-6611
                                                          Minority Business Development Agency
Census Bureau                                                Ron Marin, rmarin@mbda.gov,                                      National Telecommunications and Information
   Camelia Carter, camelia.m.carter@census.gov,              	 202-482-3341                                                   Administration
   	 301-763-3874                                            Edith McCloud, emccloud@mbda.gov,                                	 Charles Franz, cfranz@ntia.doc.gov,
   Sheryl Williams, sheryl.a.williams@census.gov,            	 202-482-6224                                                       	 202-482-1826
   	 301-763-3571
                                                          National Oceanic and Atmospheric Administration
                                                              Mary Choi, mary.choi@noaa.gov,
                                                              	 202-482-2621
                                                              Heidi Keller, heidi.keller@noaa.gov,
                                                              	 202-482-2855




                              For additional copies of the FY 2009 Performance and Accountability Report, please contact
             the Department of Commerce, Office of Budget, 202-482-4648, or refer to the people noted above under Departmental Management.
U.S. DEPARTMENT     OF   COMMERCE
   F Y 2009 PERFORMANCE &
    ACCOUNTABILIT Y REPORT


   AMERICAN JOBS, AMERICAN VALUES
                                    T H E D E PA RT M E N T AT A G L A N C E


History and Enabling Legislation                                  Strategic Goals

The Department of Commerce was originally established by          Goal 1: Maximize U.S. competitiveness and enable economic
Congressional Act on February 14, 1903 as the Department          growth for American industries, workers, and consumers




                                                                                                                              Mik
of Commerce and Labor (32 Stat. 826; 5 U.S.C. 591) and was
subsequently renamed the U.S. Department of Commerce by           Goal 2: Promote U.S. innovation and industrial competitiveness
President William H. Taft on March 4, 1913 (15 U.S.C. Section     Goal 3: Promote environmental stewardship
1512). The defined role of the new Department was “to foster,



                                                                                                                               Fi
promote, and develop the foreign and domestic commerce,           Management Integration Goal: Achieve organizational and
the mining, manufacturing, and fishery industries of the          management excellence
United States.”
                                                                  Location
Mission
                                                                  The Department is headquartered in Washington, D.C., at the
The Department of Commerce creates the conditions for             Herbert Clark Hoover Building, which is located on eight acres
economic growth and opportunity by promoting innovation,          of land covering three city blocks. The Department also has
entrepreneurship, competitiveness, and stewardship.               field offices in all states and territories and maintains offices
                                                                  in more than 70 countries worldwide.

                       Program Bureaus                            Employees

  ■	     Economic Development Administration (EDA)                As of September 30, 2009, the Department had approximately
  ■	     Economics and Statistics Administration (ESA)            54,400 employees. The size of the Department will fluctuate
         ●	 Bureau of Economic Analysis (BEA)                     in the next three years depending on the needs of the Census
         ●	 Census Bureau                                         Bureau, growing to more than 140,000 employees in FY 2010.
  ■	     International Trade Administration (ITA)
  ■	     Bureau of Industry and Security (BIS)                    Financial Resources
  ■	     Minority Business Development Agency (MBDA)
  ■	     U.S. Patent and Trademark Office (USPTO)                 The Department’s FY 2008 and FY 2009 budgets were
  ■	     National Institute of Standards and Technology           approximately $7.7 billion and $17.4 billion (budget authority),
         (NIST)                                                   respectively.
         ●	 National Technical Information Service (NTIS)

  ■	     National Telecommunications and Information
                                                                  Internet
         Administration (NTIA)
  ■	     National Oceanic and Atmospheric                         The Department’s Internet address is www.commerce.gov.
         Administration (NOAA)



    II                                         F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
k e -
ix




   F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                               III
     Table of Contents
     Statement from the Secretary	                                                                                          VI
     How to Use this Report	                                                                                                 X

     Management’s Discussion and Analysis 	                                                                                  1

     Mission and Organization	                                                                                              2
     FY 2009 Performance and Financial Highlights	                                                                          3
     The Department of Commerce Process for Strategic Planning and Performance Reporting	                                   7
     Most Important Results 	                                                                                              16
     Management Controls 	                                                                                                 29
        Federal Managers’ Financial Integrity Act (FMFIA) of 1982 	                                                        30
        Federal Financial Management Improvement Act (FFMIA) of 1996 	                                                     36
        Report on Audit Follow-up 	                                                                                        36
        Biennial Review of Fees	                                                                                           36
     American Recovery and Reinvestment Act (ARRA) of 2009 Programs	                                                       37
     High Risk Issue/2010 Decennial Census	                                                                                48
     Economic and Financial Uncertainty at USPTO	                                                                          49

     FY 2009 Performance Section	                                                                                           51

     Introduction to the Performance Section	                                                                              52
     Strategic Goal 1 - Maximize U.S. competitiveness and enable economic growth
     for American industries, workers, and consumers 	                                                                     53
        Objective 1.1 –	 Foster domestic economic development as well as export opportunities (EDA, ITA, MBDA) 	           57
        Objective 1.2 –	 Advance responsible economic growth and trade while protecting American security
                         (ITA, BIS)	                                                                                       65
        Objective 1.3 –	 Advance key economic and demographic data that support effective decision-making
                          of policymakers, businesses, and the American public (ESA/Census, ESA/BEA) 	                     72
        Objective 1.4 – Position manufacturers to compete in a global economy (NIST)	                                      79


     Strategic Goal 2 – Promote U.S. innovation and industrial competitiveness	                                            83
        Objective 2.1 – Advance measurement science and standards that drive technological change (NIST, NTIS) 	           87
        Objective 2.2 – Protect intellectual property and improve the patent and trademark system (USPTO) 	                94
        Objective 2.3 – Advance global e-commerce as well as telecommunications and information services (NTIA) 	          98




IV                                       F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
   Strategic Goal 3 – Promote environmental stewardship 	                                                105
      Objective 3.1 – Protect, restore, and manage the use of coastal and ocean resources (NOAA)	        109
      Objective 3.2 – Advance understanding of climate variability and change (NOAA)	                    114
      Objective 3.3 – Provide accurate and timely weather and water information (NOAA)	                  117
      Objective 3.4 – Support safe, efficient, and environmentally sound commercial navigation (NOAA)	   123


   Management Integration Goal – Achieve organizational and management excellence (DM, OIG)	             131

   FY 2009 Financial Section	                                                                            139

   Message from the Chief Financial Officer	                                                             140
   Financial Management and Analysis 	                                                                   141
   Debt Management 	                                                                                     150
   Payment Practices 	                                                                                   151
   Analysis of FY 2009 Financial Condition and Results 	                                                 153
   Limitations of the Financial Statements 	                                                             157
   Principal Financial Statements 	                                                                      159
      Consolidated Balance Sheets 	                                                                      161
      Consolidated Statements of Net Cost 	                                                              162
      Consolidated Statements of Changes in Net Position 	                                               163
      Combined Statements of Budgetary Resources 	                                                       164
   Notes to the Financial Statements 	                                                                   165
   Consolidating Balance Sheet 	                                                                         225
   Required Supplementary Information 	                                                                  229
   Required Supplementary Stewardship Information 	                                                      237
   Independent Auditors’ Report 	                                                                        251

   Appendices	                                                                                           265

   Appendix A: Performance and Resource Tables	                                                          267
   Appendix B: Stakeholders and Crosscutting Programs	                                                   317
   Appendix C: Top Management Challenges Facing the Department	                                          318
   Appendix D: Improper Payments Information Act (IPIA) of 2002 Reporting Details 	                      337
   Appendix E: Summary of Financial Statement Audit and Management Assurance 	                           341
   Appendix F: Glossary of Key Acronyms 	                                                                342




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                               V
S tatement from the S ecretar y




      Statement from the Secretary
      I 
             am pleased to present the Department of Commerce’s (Department) fiscal year
            (FY) 2009 Performance and Accountability Report (PAR). The PAR describes our
            accomplishments and challenges in maximizing U.S. competitiveness, enabling
      economic growth, fostering U.S. leadership in science and technology, and promoting
      environmental stewardship. It also provides information on our financial management
      and performance.

      Trade, Competitiveness, and Economic Growth

      The U.S. trade deficit in goods and services for January through August 2009 was less than
      half of the deficit during those same months in 2008. Not only did U.S. exports fall more
      slowly than imports as the global recession worsened early in the year, but U.S. exports
      recovered more quickly than imports as worldwide demand began to grow. One in five U.S.
      manufacturing jobs is supported by trade.

      The Department, through its International Trade Administration (ITA), has made strong progress toward improving trade,
      particularly in the areas of ensuring a level playing field and in increasing exports by small and medium-sized firms. During
      FY 2009, 56 percent of market access and compliance cases—totaling over $25 billion in value—were successfully resolved,
      compared with 39 percent in FY 2008. Similarly, 30 percent of industry-specific trade barriers addressed by ITA during FY 2009
      were removed or prevented. The number of U.S. small and medium-sized firms that export increased by 4.7 percent in FY 2009.
      ITA assisted 15 percent of the small and medium-sized firms that began exporting in FY 2009, compared with 12 percent of such
      firms during FY 2008. We remain focused on achieving further progress in these and other critical trade areas for U.S. businesses
      and workers.

      The Economics and Statistics Administration’s (ESA) Bureau of Economic Analysis (BEA) and Census Bureau continued to upgrade
      the quality and availability of critical economic and demographic information for policymakers, business leaders, and the public.
      The Census Bureau began field operations for the 2010 Decennial Census, the largest non-military activity undertaken by the U.S.
      government. Population data from the census, which is mandated by the Constitution, support the reapportionment of Congress
      as well as state and local legislative bodies, and are also used to allocate over $400 billion in annual federal program funds. The
      Decennial program completed the opening of early local census offices as well as the Address Canvassing operation, verifying
      over 140 million household addresses across the country. The Census Bureau received $1 billion in American Recovery and
      Reinvestment Act (Recovery Act) funding to hire new personnel for partnership and outreach efforts to minority communities and
      hard-to-reach populations, increase targeted media purchases, and ensure proper management of operational and programmatic
      risks. We will focus on effectively managing these risks as census operations proceed.

      BEA further developed a health satellite account that will enable better assessment of the returns of various medical treatments as
      well as the sources of changes in health care costs. BEA also resumed development of statistics for its research and development
      satellite account to support their integration into the gross domestic product, highlighting the link between innovation and
      growth. Additionally, BEA further integrated its accounts with other federal economic statistics.

      The Department, through the Economic Development Administration (EDA), assists U.S. industries, communities, and workers
      through investments in public infrastructure and technology, which in turn attract private capital investment and create new jobs.
      As of FY 2009, EDA investments of $268 million made in FY 2000 had generated $2.2 billion in private investment and nearly
      46,000 jobs. In addition, EDA funded 68 Recovery Act grants through its existing program structure in FY 2009. Consistent with
      the intent of the act, EDA’s Recovery Act investments focused on infrastructure projects that will promote immediate job growth
      and retention.


 VI                                             F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                       S tatement from the S ecretar y




The Minority Business Development Agency (MBDA) promotes the ability of minority businesses to succeed in the local, national,
and global economies. MBDA supported clients who obtained $2.9 billion in contract and financial awards during FY 2009,
compared with $2.1 billion in FY 2008.

The Bureau of Industry and Security (BIS) administers and enforces the dual-use export control system, which regulates exports of
sensitive goods and technology that have legitimate civilian uses, but could also have military or terrorism-related uses. During
FY 2009, General Electric India became the first Indian company to qualify as a Validated End-User (VEU), allowing it to more
expeditiously receive such exports. The number of VEUs in the People’s Republic of China increased to six. We are determined to
make exports of dual-use items to foreign customers more efficient, while ensuring requisite U.S. security.

Finally, the National Institute of Standards and Technology’s (NIST) Hollings Manufacturing Extension Partnership (MEP) supported
its clients—primarily small manufacturers—in generating $3.3 billion in increased sales, $1.4 billion in capital investment, and
$1.2 billion in cost savings during FY 2008 (MEP results have a one-year time lag).

Last month, I was pleased to open CommerceConnect near Detroit, MI. This office is a “one-stop shop” that is designed to help
local businesses to access multiple federal programs from one location.

Innovation and Intellectual Property Protection

A vigorous, flexible, and efficient intellectual property (IP) protection system is critical to encouraging investments that build our
industries, businesses, and jobs. The Department is committed to ensuring that the United States has a first-class IP protection
system to support innovation throughout the 21st century.

The U.S. Patent and Trademark Office (USPTO) maintained a strong focus on quality in FY 2009 , with an allowance compliance
rate near 97 percent. However, many challenges remain to achieve significant sustainable reductions in patent pendency­—now
over 25 months for first action and 34 months for total pendency—to levels that fully enable and reward entrepreneurship and
innovation. We are committed to effectively meeting these challenges in the shortest possible time frame, through both internal
reforms as well as through ongoing engagement with our customers, Congress, and other stakeholders.

A slowdown in filings this year allowed the Patent Office to make some headway on its backlog. However, the slowdown posed
some additional challenges due to the commensurate reduction in fees, on which USPTO depends for operations. Congress
authorized the use of trademark fees to fund patent operations in limited circumstances. However, USPTO implemented cost
savings that avoided use of this authority in FY 2009. For the longer-term, we will work to ensure that USPTO has an adequately
stable and sustainable financial structure.

The Trademark Office continued to streamline processes, reduce costs, and lower pendency. Trademark first-action pendency
improved from 3.0 months in FY 2008 to 2.7 months in FY 2009, and total pendency improved from 11.8 months in FY 2008 to
11.2 months in FY 2009.

NIST programs support the nation’s innovative capacity and promote markets for new technological applications through its sound,
science-based measurements and standards. For example, NIST is coordinating the development of interoperability standards for
the Smart Grid. In FY 2009, NIST appointed a senior executive to serve as National Coordinator for Smart Grid Interoperability.
NIST recently released its Smart Grid Interoperability Standards Framework after significant stakeholder engagement. In the
area of cyber security, NIST, in partnership with the Department of Defense (DOD) and the United States Intelligence Community,
issued Publication 800-53, Revision 3, the most state-of-the-art set of safeguards and countermeasures ever developed to protect
federal information systems. NIST also continued to conduct innovative scientific measurement research as part of the President’s
Plan for Science and Innovation.




F Y   2 0 0 9   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                         VII
S tatement from the S ecretar y




        The NIST Technology Innovation Program (TIP) supports high-risk, high-reward research in areas of critical national need at
        U.S. businesses, universities, national laboratories, and nonprofit research institutions. In January 2009, TIP announced its first
        set of awards, totaling $42.5 million to promote innovative advanced sensing technologies in the area of civil infrastructure
        monitoring.

        NIST received $580 million in Recovery Act funds during FY 2009 to encourage innovation through research grants, contracts,
        and fellowships, as well as through procurement of advanced measurement equipment and improved information technology (IT)
        infrastructure; to support key upgrades to NIST research facilities; and to provide competitive construction grants for research
        science buildings. The Recovery Act also provided $20 million to support Health Information Technology and $10 million for
        Smart Grid standards.

        The National Telecommunications and Information Administration (NTIA) continued its key activities in radio spectrum
        management and in implementing programs under the Digital Television Transition and Public Safety Fund, such as the Digital-
        to-Analog Converter Box Coupon Program. The digital television (DTV) transition occurred with minimal disruption and maximum
        preparedness due to the DTV Delay Act and additional funding in the Recovery Act. As of July 2009, NTIA distributed 63.2 million
        coupons to more than 34 million households, over 33 million of which were redeemed. The last coupons expired November 9, 2009.
        We are gratified by the high level of participation and cooperation by converter box manufacturers and consumer electronics
        retailers. Finally, NTIA received $4.7 billion in Recovery Act funding for the Broadband Technology Opportunities Program (BTOP),
        to provide grants enabling consumers in unserved and underserved areas of the United States to better access broadband services.
        NTIA will make an initial series of grants in December 2009, with the remainder completed by the end of FY 2010. Ensuring the
        efficient and effective administration of BTOP is one of the Department’s highest priorities.

        Environmental Stewardship

        The National Oceanic and Atmospheric Administration (NOAA) continued to improve the fish stock sustainability index (FSSI), its
        comprehensive measure for sustainability of 230 U.S. fish stocks selected for their importance to commercial and recreational fisheries.
        In FY 2009, four stocks—Atlantic bluefish, Gulf of Mexico king mackerel, and two stocks of monkfish in the Atlantic—were declared
        rebuilt, the largest number in a single year since NOAA declared the first stock successfully rebuilt in 2001. NOAA continues to work
        with the eight Fishery Management Councils to implement statutory annual catch limits.

        NOAA is also working with the New England Fishery Management Council to develop a new groundfish management regime that will
        implement fishing sectors—a group of vessel permit holders who agree to fishing restrictions and procedures in exchange for a share
        of the total catch allocated to the industry. For those vessels that opt to join a sector, this catch share system will provide operational
        efficiencies over the current method of modifying fishing effort through days at sea.

        In June 2009, the U.S. Global Change Research Program released the NOAA-led study, “Global Climate Change Impacts in the United
        States,” a state-of-the-knowledge report about the observed and projected consequences of climate change for our Nation. The
        report is an authoritative scientific assessment of national and regional impacts written to better inform public and private decision-
        making at all levels.

        During the spring of 2009, NOAA coordinated the largest and most ambitious study of tornadoes in history, with the support of more
        than 50 scientists and 40 research vehicles. Scientists sampled supercell thunderstorms, which are capable of producing damaging
        winds, large hail, and tornadoes.

        NOAA satellites provided key support in the rescues of 184 persons throughout and near the United States during FY 2009, providing
        their locations to first responders. In December 2008, NOAA and the National Aeronautics and Space Administration (NASA) selected
        Lockheed Martin Space Systems to build two spacecraft to launch the next generation Geostationary Operational Environmental




 VIII                                                F Y   2 0 0 9   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y    R E P O R T
                                                                                        S tatement from the S ecretar y




Satellite-R series (GOES-R) weather satellites, beginning in 2015. GOES-R will incorporate advanced capabilities to support more
timely and accurate forecasts of hurricanes, tornadoes, air quality, and geomagnetic storms. In February 2009, NOAA-19 was launched
to provide a range of weather, climate, fire, and vegetation data, and to further support search and rescue operations. In June 2009,
GOES-14 was launched to provide critical severe and tropical weather data. Ensuring future timely and cost-effective satellite data
is of great importance to the Nation. We are mindful of the management challenges that have resulted in overruns and delays in the
National Polar-orbiting Operational Environmental Satellite System (NPOESS), the next-generation polar satellite program. While
significant steps to mitigate risk have been taken, the Department is committed to making further improvements to optimally manage
environmental satellite acquisitions over the next decade.

NOAA received $830 million from Recovery Act to assist key sectors of the U.S. economy. Examples include: (1) reducing the
hydrographic survey backlog to facilitate shipping transportation; (2) habitat restoration projects that benefit marine fisheries and
endangered species; (3) supporting critical development activities of the NPOESS program, to provide essential data for weather
prediction and climate monitoring; and (4) completing construction work on various facilities and vessels to meet mission needs and
provide jobs.

Program Data, Department-wide Management, and Financial Performance

The Department’s financial data and performance results for FY 2009 are provided together in this report in response to the Reports
Consolidation Act of 2000. This information is crucial in helping us to effectively administer our programs, determine their success,
and make adjustments that may be necessary to improve the quality of program operation and service delivery.

For the eleventh year in a row, the independent auditors tasked with reviewing our financial statements have provided an unqualified
opinion. Our financial management systems have been found to be in substantial compliance with the Federal Financial Management
Improvement Act (FFMIA) of 1996, and, in accordance with Office of Management and Budget (OMB) Circulars A-136 and A-11, the
financial and performance data published in this report are substantially complete and reliable.

The Federal Managers’ Financial Integrity Act (FMFIA) of 1982 and OMB Circular A-123 provide the framework within which
Departmental and operating unit managers may determine whether adequate internal controls are in place and are operating as they
should. We rely on a wide range of studies conducted by programmatic and administrative managers, the Office of Inspector General
(OIG), the Government Accountability Office (GAO), and others to assist in this effort. Based on activities undertaken during FY 2009,
the Department’s system of internal controls, taken as a whole, are consistent with FMFIA, with the exception of one material
weakness. Since it was initially identified as a material weakness, the need to strengthen IT security has been an area of considerable
focus across the Department. While significant progress has been made, we believe that additional enhancements are needed before
this material weakness may be considered fully resolved. Further information on actions being taken to address this critical area may
be found in the report under Management’s Discussion and Analysis.

In Conclusion

Again, I am proud to submit this report on the FY 2009 performance of the Department of Commerce, and I hope that it provides
a useful summary of the results of the Department and its 54,000 employees.




                                                                                  Gary Locke
                                                                                  Secretary of Commerce
                                                                                  November 16, 2009




F Y   2 0 0 9   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                          IX
                                                       How to use this report
                                                       T
                                                              his Performance and Accountability Report (PAR) for FY 2009 provides the
                                                              Department of Commerce’s financial and performance information, enabling
                                                              the President, Congress, and the American people to assess the Department’s
                                                       performance as provided by the requirements of the:

                                                       ●●         Reports Consolidation Act of 2000 and other laws
                                                       ●●         Government Management Reform Act of 1994
                                                       ●●         Government Performance and Results Act (GPRA) of 1993
                                                       ●●         Chief Financial Officers (CFO) Act of 1990
                                                       ●●         Federal Managers’ Financial Integrity Act (FMFIA) of 1982.

                                               The assessment of the Department’s performance contained in this report compares
                                               performance results to the Department’s strategic goals and performance goals.
                                               The Department’s Strategic Plan, Performance Plan, and annual PARs are available on
the Department’s Web site at http://www.osec.doc.gov/bmi/budget/budgetsub_perf_strategicplans.htm. The Department welcomes
feedback on the form and content of this report.

This report is organized into the following major components:

Statement from the Secretary of Commerce
The Secretary’s statement includes an assessment of the reliability and completeness of the financial and performance information
presented in the report and a statement of assurance on the Department’s management controls as required by the FMFIA.

Management’s Discussion and Analysis (MD&A)
This section provides an overview of the financial and performance information contained in the Performance Section, Financial Section,
and Appendices. The MD&A includes an overview of the Department’s organization, highlights of the Department’s most important
performance goals and results, current status of systems and internal control weaknesses, and Department programs under the American
Recovery and Reinvestment Act (ARRA) of 2009.

Performance Section
This section provides the annual performance information as required by Office of Management and Budget (OMB) Circular A-11 and
GPRA. Included in this section is a detailed discussion and analysis of the Department’s performance in FY 2009. For each service and
major office, the results are presented by each performance outcome or objective within the four Department strategic goals.

Financial Section
This section contains the details of the Department’s finances in FY 2009 including information on the Department’s financial
management, debt management, payments management, audited financial statements, other supplemental financial information, and
the independent auditors’ report.
	
Appendices
This section provides summary charts of performance information, a listing of key stakeholders, a discussion of key management
challenges identified by the Office of Inspector General (OIG) including actions taken to address them, financial information, and a
glossary of acronyms. A discussion of measure and outcome changes from the FY 2008 PAR, and of the data sources of performance
measures, appears at the end of the Web site version of the PAR located at http://www.osec.doc.gov/bmi/budget/FY09PAR.htm.

For additional copies of this report, please call the Department of Commerce, Office of Budget, at 202-482-4648 or email either Bill Tatter at BTatter@doc.gov
or Steve Shapiro at SShapiro@doc.gov. A listing of Web addresses and email addresses of other Departmental and bureau staff appears on the inside front
cover.
      M anag ement ’ s
D i scuss i on & A na lys i s
             MISSION AND ORGANIZATION



                            Mis s ion

      The Department of Commerce creates the conditions for
    economic growth and opportunity by promoting innovation,
        entrepreneurship, competitiveness, and stewardship.




2                    F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                   M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S



                         F Y  2 0 0 9 P erformance and F inancial H ighlights

                                                    P erformance H I G H L I G H T S




I  
      n FY 2009, the Department met or exceeded 84 percent of its
      123 performance targets. The Department has maintained a
      steady rate of performance from FY 2002 onward ranging from
a low of 79 percent in FY 2003 to a high of 93 percent in FY 2007.
Below are the funding amounts by strategic goal and financial
highlights. Achieving results in each of the strategic goals furthers
the Department’s mission. This summary provides a snapshot of the
targeted achievements. Discussions and highlights of successes are in
the performance discussions of each performance goal.




                                                                                 Percentage
 (Dollars in Millions)1                                                           Change                FY 2009       FY 2008

  For the Years Ended September 30, 2009 and 2008
 Obligations by Strategic Goal:
 Strategic Goal 1: Maximize U.S. Competitiveness and Enable Economic
 Growth for American Industries, Workers, and Consumers2                              +72.4%        $	 4,555.2    $	 2,642.4
 Strategic Goal 2: Promote U.S. Innovation and Industrial Competitiveness              +3.8%        	 3,840.9     	 3,701.2
 Strategic Goal 3: Promote Environmental Stewardship                                  +20.3%        	 5,094.1     	 4,234.4
 Management Integration Goal: Achieve Organizational and Management
 Excellence                                                                          + 17.1%        	      79.3   	      67.7

 TOTAL OBLIGATIONS                                                                    +27.4%        $13,569.5     $	10,645.7

 Full Time Equivalents (FTEs) by Strategic Goal:
 Strategic Goal 1: Maximize U.S. competitiveness and enable economic
 growth for American industries, workers, and consumers2                             +141.8%            29,266        12,103
 Strategic Goal 2: Promote U.S. innovation and industrial competitiveness              +5.8%            12,798        12,096
 Strategic Goal 3: Promote environmental stewardship                                   -4.8%            12,031        12,637
 Management Integration Goal: Achieve Organizational and Management
 Excellence                                                                            +2.1%              297           291

 TOTAL FTEs                                                                           +46.5%            54,392        37,127

 1Performance   obligations may differ from obligations shown in financial reports because they do not include one-time funds for unexpected events
 (e.g., Hurricane Katrina) or reimbursable work that cannot be planned. In these cases, these obligations are not factored into bureau performance amounts.
 2For   Strategic Goal 1, the funding and FTE rose significantly in FY 2009 as a result of the Census Bureau’s ramp up for the Decennial Census in 2010.




F Y   2 0 0 9      P E R F O R M A N C E         A N D    A C C O U N T A B I L I T Y        R E P O R T
                                                                                                                                                           3
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                                                    F inancial H ighlights

                                                                        Percentage
(Dollars in Thousands)                                                   Change         FY 2009         FY 2008

 As of September 30, 2009 and 2008
 Condensed Balance Sheets:

 ASSETS:
 Fund Balance with Treasury                                                 -4%       $	 25,671,762   $	 26,633,414
 General Property, Plant, and Equipment, Net                                +9%           6,758,827       6,190,408
 Direct Loans and Loan Guarantees, Net                                       0%             511,092         511,009
 Other                                                                    +166%           1,015,104         381,974

 TOTAL ASSETS                                                              +1%        $	 33,956,785    $33,716,805

 LIABILITIES:
 Unearned Revenue                                                           -8%       $	 1,311,270    $	 1,418,367
 Spectrum Auction Proceeds Liability to Federal Communications
    Commission                                                            -98%             400,451      17,177,707
 Federal Employee Benefits                                                 +3%             687,434         666,563
 Accounts Payable                                                         +11%             505,944         455,146
 Accrued Grants                                                           +19%             446,207         373,525
 Debt to Treasury                                                          +2%             487,275         476,653
 Accrued Payroll and Annual Leave                                         +19%             540,082         452,073
 Other                                                                    -50%             242,102         480,934

 TOTAL LIABILITIES                                                         -79%       $	 4,620,765    $	 21,500,968

 NET POSITION:
 Unexpended Appropriations                                                +154%       $	 13,136,522   $	 5,180,387
 Cumulative Results of Operations                                         +130%          16,199,498      7,035,450

 TOTAL NET POSITION                                                       +140%       $	 29,336,020   $	 12,215,837

 TOTAL LIABILITIES AND NET POSITION                                        +1%        $	 33,956,785   $	 33,716,805



 For the Years Ended September 30, 2009 and 2008

 Condensed Statements of Net Cost:

 Strategic Goal 1: Maximize U.S. Competitiveness and Enable
 Economic Growth for American Industries, Workers, and Consumers          +73%        $	 3,794,414    $	 2,198,131
 Strategic Goal 2: Promote U.S. Innovation and Industrial
 Competitiveness                                                          +32%           1,880,001        1,422,763
 Strategic Goal 3: Promote Environmental Stewardship                       +2%           4,152,324        4,077,919

 TOTAL NET COST OF OPERATIONS                                             +28%        $	 9,826,739    $	 7,698,813

 Total Gross Costs                                                        +21%        $	 12,540,517 $	 10,330,098
 Less: Total Earned Revenue                                                +3%           (2,713,778) 	 (2,631,285)

 Total Net Cost Of Operations                                                         $	 9,826,739    $	 7,698,813




  4                                                     F Y   2 0 0 9    P E R F O R M A N C E    A N D     A C C O U N T A B I L I T Y   R E P O R T
                                                                     M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                      re v iew of financial position and R E S U L T S



                                                                                            Assets

                                                                                            The Department had total assets of
                                                                                            $34.0 billion as of September 30, 2009.
                                                                                            This represents an increase of $240
                                                                                            million or 1 percent over total assets
                                                                                            of $33.7 billion at September 30, 2008.
                                                                                            Fund Balance with Treasury decreased
                                                                                            $962 million or 4 percent, which primarily
                                                                                            resulted from an increase in Advances
                                                                                            and Prepayments of $583 million, and
                                                                                            an increase in Construction-in-progress
                                                                                            of $401 million, primarily related to
                                                                                            satellites/weather systems personal
                                                                                            property. General Property, Plant, and
                                                                                            Equipment, Net increased $568 million
                                                                                            or 9 percent, mainly due to the increase
                                                                                            in Construction-in-progress. Other Assets
                                                                                            increased $633 million, primarily due to
                                                                                            a significant increase in Advances and
                                                                                            Prepayments to other federal agencies
                                                                                            for the National Telecommunications and
                                                                                            Information Administration’s (NTIA) Public
                                                                                            Safety Interoperable Communications
                                                                                            grant program and for work on the
                                                                                            National Oceanic and Atmospheric
                                                                                            Administration’s (NOAA) Pacific Regional
                                                                                            Center in Hawaii. 			
                                                                                            			


Liabilities

The Department had total liabilities of $4.6 billion as of September 30, 2009. This represents a decrease of $16.7 billion or
79 percent as compared to total liabilities of $21.5 billion at September 30, 2008. This decrease is mainly due to the large
decrease of $16.9 billion in NTIA’s Spectrum Auction Proceeds Liability to the Federal Communications Commission (FCC). This
liability represents FCC auction proceeds for which licenses have not yet been granted by FCC. During FY 2009, the liability was
primarily reduced by net auction proceeds for which licenses have been granted of $16.69 billion, and these net auction proceeds
were recognized as a financing source on the FY 2009 Consolidated Statement of Changes in Net Position. Unearned Revenue
decreased $107 million or 8 percent, mainly due to fewer patent filings and trademark applications received in FY 2009. Other
Liabilities decreased $239 million or 50 percent, as a result of a large decrease of $141 million for accrued coupons for NTIA’s
Digital-to-Analog Converter Box Program, due to a significant decrease in the number of coupons issued during the third quarter
of 2009 versus the third quarter of 2008.		



F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                         5
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




         Net Cost of Operations

         In FY 2009, Net Cost of Operations amounted to $9.8 billion, which consists of Gross Costs of $12.5 billion less Earned
         Revenue of $2.7 billion. Strategic Goal 1 includes Gross Costs of $4.1 billion related to maximizing U.S. competitiveness
         and enabling economic growth for American industries, workers, and consumers. Strategic Goal 2 includes Gross Costs of
         $4.0 billion related to promoting U.S. innovation and industrial competitiveness. Strategic Goal 3 includes Gross Costs of
         $4.4 billion related to promoting environmental stewardship. The Strategic Goal 1 increase in FY 2009 Net Cost of Operations
         over FY 2008 of $1.6 billion or 73 percent is primarily due to an increase in Gross Costs of $1.4 billion for Census Bureau’s
         Decennial and Periodic Censuses major program. The Strategic Goal 2 increase in FY 2009 Net Cost of Operations over
         FY 2008 of $457 million or 32 percent is primarily due an increase in Gross Costs of $100 million for NTIA’s Digital Television
         and Transition Public Safety Fund, which reflects increased costs primarily for the Digital-to-Analog Converter Box Program,
         and increased Gross Costs of $351 million provided by additional American Recovery and Reinvestment Act (ARRA) of 2009
         funding for the Digital-to-Analog Converter Box Program.




  6                                              F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                     M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                      T he D epartment of C ommerce P rocess for

                S trategic P lanning and P erformance R eporting



Management Strategic Framework, Performance Planning and Reporting at a Glance




      Performance Management Process

      An overall performance management process ensures
      that performance feedback, accountability, performance
      results, corrective action, and performance planning
      occur.




  
T
          he Department’s Strategic Plan provides a comprehensive vision for fostering the conditions that create jobs; increasing
          the productivity of the U.S. economy; encouraging the economic growth that benefits all U.S. industries, workers, and
          consumers; enhancing technological leadership and environmental stewardship; and supporting market growth strategies.
The plan puts forth broad objectives, targets specific outcomes, and identifies key challenges. The Department issued its Strategic
Plan for FY 2007-FY 2012 in June 2007. It can be found at http://www.osec.doc.gov/bmi/budget/07strplan/DOC07strplan.pdf.
The Department will issue a revised plan by April 1, 2010. It will be available at http://www.osec.doc.gov/bmi/budget/10strplan/
DOCstrplan.pdf.

The Department’s goal structure has three levels. Strategic goals describe outcomes that emerge from the Department’s mission.
Each of these goals in turn has outcome objectives that define the results that the bureaus aim to achieve. These are long-term
objectives that often involve more than one Department bureau. Within each objective are performance outcomes tied to specific
bureaus that support each outcome goal and provide program-level clarity of purpose. Each has associated indicators and targets
to measure the Department’s impact on a continuous basis. Because Strategic Goal 3 is entirely one bureau (National Oceanic
and Atmospheric Administration [NOAA]), and does not cross bureaus, only performance objectives (and not outcomes) appear.
Likewise, because the Management Integration Goal is so small (representing one percent of the budget), and refers only to
Departmental Management (DM) and the Office of Inspector General (OIG), only objectives appear.




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      7
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




      The Strategic Plan and bureau Annual Performance Plans (APP) provide the Department’s bureau-specific performance goals and
      measures that align with the Department’s strategic goals and objectives. These performance goals are linked with the resource
      requirements for the past, current, and upcoming fiscal years. Each plan is integrated with the President’s budget submission to
      Congress, at the bureau level. Bureau FY 2010 APPs can be found at http://www.osec.doc.gov/bmi/budget/.

      This Performance and Accountability Report (PAR) provides a public accounting of the Department’s FY 2009 performance results
      and completes the Department’s performance management process. The Web address of the FY 2009 PAR is http://www.osec.
      doc.gov/bmi/budget/fy09par.htm. Appendix A of the FY 2009 PAR provides historical results of the Department’s performance,
      matching targets against actuals.

      How the Department Selects Its Performance Outcomes and Measures

      Performance outcomes articulated in the introductory material for each goal in the Strategic Plan and APP are aimed at achieving
      one or more strategic outcomes, and convey a sense of how the Department creates value for the U.S. public. Performance measures
      depict tangible progress by Department program activities toward these goals. The Department has tailored performance measures
      to be more outcome-oriented (described in the next section). When considered along with external factors and information
      provided in program evaluations, these measurements give valuable insight into the performance of Department programs, and are
      meant to broadly illustrate how the Department adds value to the U.S. economy. The FY 2009 PAR depicts a top-level, integrated
      system for managing for results within the Department, but is not an exhaustive treatment of all Department programs and
      activities. This report must also be read with each Department bureau’s own performance results to gain a comprehensive picture
      of the Department’s accomplishments in FY 2009. More in-depth performance results for FY 2009 and prior years are available in
      Appendix A, and other information about the bureaus can be found on individual bureau Web sites. The directory of Web sites is
      located on the inside front cover of this report and provides a good foundation for researching additional information. Descriptions
      of any changes between FY 2008 and FY 2009 as well as descriptions including validation and verification information of each
      measure can be found on the Department’s Web si9e at www.osec.doc.gov/bmi/budget/fy08par.htm. This Web site provides all
      measure descriptions for each bureau as part of the FY 2010 annual budgets for each bureau incorporated as Exhibit 3A (APP) of
      each bureau’s budget submission.

      Performance Validation and Verification

      The Department uses a broad range of performance outcomes and measures to make reporting useful and reliable. It is imperative
      to demonstrate that performance measures are backed by accurate and reliable data; valid data are important to support
      management decisions on a day-to-day basis. The data and the means to validate and verify the measures are also diverse.
      As in the measures descriptions above, validation and verification tables appear in the APPs of each bureau’s FY 2010 budget
      submissions. These tables identify each measure, and the following information: (1) data source, (2) frequency, (3) data storage,
      (4) internal control procedures, (5) data limitations, and (6) any actions to be taken. This information is available at www.osec.
      doc.gov/bmi/budget/fy09par.htm.

      Currently, the Department reviews its performance validation and verification processes to ensure that the performance data
      are accurate. The Department maintains a quarterly monitoring process that reviews performance measurement data as well as
      the measures themselves. This process includes selecting specific performance measures for review each quarter, requiring that
      the bureaus provide all the data used for determining these measures, reviewing the measures for validity, and then developing
      recommendations for improving the measures.




  8                                             F Y   2 0 0 9   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                     M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




Performance Controls and Procedures

Leadership: In the past, the Department has conducted quarterly performance reviews, during which bureau heads report to
the Deputy Secretary on the current status of bureau performance. While the change in administration has limited the amount
of reviews that have occurred, the Department anticipates that these reviews will continue in the foreseeable future. Progress
towards Government Performance and Results Act (GPRA) measures appear in this report.

Performance Data: The Department’s performance measurement data are collected by its 13 bureaus, each with systems to
manage their data validation and verification processes. Some of these are automated systems and others are manual processes.
Data can be divided into three types: Financial Data, Data Management Methods, and Data from Manual Processes. Some
examples include: jobs created or retained (Economic Development Administration [EDA]), lead time of tornado warnings (NOAA),
and trademark applications filed electronically (U.S. Patent and Trademark Office [USPTO]).

Financial Data: As stated above, the Department has a high degree of confidence in its financial data. Normal audit and
other financial management controls maintain the integrity of these data elements. During the FY 2009 Consolidated Financial
Statement audit, tests and review of the core accounting system and internal controls were conducted as required by the Chief
Financial Officers (CFO) Act. Further, the Department conducted its assessment of the effectiveness of internal control over
financial reporting, which includes safeguarding of assets and compliance with applicable laws and regulations, in accordance
with the requirements of Appendix A of Office of Management and Budget (OMB) Circular A-123, and based on the results of
this evaluation, the Department provided reasonable assurance that its internal control over financial reporting was operating
effectively.

Departmental Performance Structure

The Department focuses on three different, yet inter-related aspects of economic growth and opportunity—growth, innovation, and
environment—with each aspect reflected in each of the Department’s strategic goals. A fourth goal—management integration—is
linked to all three goals, focusing on various aspects of improving the management of the Department. The Department has 13
bureaus, each of which appears in a specific strategic (or management integration) goal, the lone exception being the National
Institute of Standards and Technology (NIST) which appears in both Strategic Goals 1 and 2. This structure and the descriptions
of each goal and corresponding objectives appear below.

                                                                         The Department promotes growth by developing
                                                                         partnerships with state, local, private, and non-profit
                                                                         enterprise so as to encourage economic growth and
                                                                         development (objective 1.1). The Department also
                                                                         encourages trade by promoting U.S. exports (objective
                                                                         1.1) while at the same time monitoring those exports
                                                                         to prevent any export of goods that could be used for
                                                                         any activities against the United States (objective
                                                                         1.2). The Department also develops and publishes
                                                                         economic statistics and indicators (e.g., gross domestic
                                                                         product [GDP]) essential to U.S. business (objective
                                                                         1.3). Finally, the Department promotes the growth and
                                                                         competitiveness of the Nation’s manufacturing industry
                                                                         (objective 1.4).




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                    9
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




       The Department promotes innovation through the provision of measurement science and physical standards that are essential
       components of the technology infrastructure and through cost-shared awards that support innovative, high-risk, high-reward
       research in areas of critical national need (objective 2.1). The Department also encourages the development of new technology
       and the protection of intellectual property (IP) through the issuance of patents and trademarks (objective 2.2). Finally, the
       Department advances the telecommunication sector by making certain that the allocation of the radio spectrum provides the
       greatest benefit to all people as well as promoting new sources of advanced telecommunications (objective 2.3).

       The Department promotes the use of the environment that both assists the American people while maintaining U.S. natural
       resources. The Department monitors the fishing industry and U.S. marine habitats to prevent overfishing and maintain and
       preserve U.S. natural marine habitats (objective 3.1). The Department researches long-term effects of climate change (objective
       3.2). The Department also provides daily weather reports and warnings and tracks the progress of severe storms such as hurricanes
       and tornadoes (objective 3.3). Finally, the Department encourages trade and shipping by providing essential navigation maps to
       the private sector (objective 3.4). The Department also provides mission support activities (e.g., satellites) that support the other
       four objectives within Strategic Goal 3.

       Management Integration promotes greater efficiency within all three strategic goals of the Department through various
       information technology (IT) activities, financial management oversight and administration, and periodic reviews of programs.

       In terms of funding, no strategic goal dominates the other with occasional fluctuations occurring that change the respective
       percentages. For example, in FY 2007 the National Telecommunications and Information Administration (NTIA) received an
       authorization of $2.136 billion for Digital Conversion. Likewise as 2010 approaches, Census Bureau funding will increase to where
       it alone will represent approximately half the Department’s budget.

       Within each strategic goal is a set of performance objectives that cut across bureau programs, and within each objective are
       performance outcomes unique to each bureau. Because NOAA comprises all of Strategic Goal 3, the structure for that goal does
       not go below the performance objective level. Likewise, for the Management Integration Goal, because it is so small (representing
       less than one percent of the budget), the structure goes only to the performance objective level. In previous years, these objectives/
       outcomes were noted as performance goals. Under OMB guidance and in an effort to establish a more outcome orientation to its
       performance, the Department has to a certain extent modified these outcomes and therefore changed the wording.

       Summary Description of Bureaus

       The following are summary descriptions of each bureau in budget appropriation order with applicable strategic goals and objectives
       listed at the end of each description.

       Departmental Management (DM) develops and implements policy affecting U.S. and international activities as well as internal
       goals and operations of the Department. DM serves as the primary liaison with the executive branch and Congressional and private
       sector groups, and acts as the management and administrative control point for the Department. Executive Direction develops
       and implements Departmental policies and coordinates Bureau program activities to accomplish the Department’s mission while
       Departmental Staff Services develops and implements the Department’s internal policies, procedures, and other administrative
       guidelines. Management Integration Goal

       The Office of Inspector General (OIG) ensures that the Department’s employees and others managing federal resources
       comply with applicable laws and regulations, and actively work to prevent fraud, waste, and abuse in program operations. The OIG
       monitors and tracks the use of taxpayer dollars in federally-funded programs with its purpose being to keep Departmental officials




  10                                              F Y   2 0 0 9   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                     M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




and Congress fully and currently informed about issues, problems, and deficiencies relating to the administration of programs and
operations and the need for corrective action. Management Integration Goal

The Economic Development Administration (EDA) directly supports the Department‘s goal to maximize U.S. competitiveness
and enable economic growth for U.S industries, workers, and consumers with the objective to foster domestic economic
development as well as export opportunities. To achieve this objective, EDA promotes a favorable business environment
through strategic investments in public infrastructure. These investments help attract private capital investment and jobs that
address problems of high unemployment, low per capita income, and sudden, severe economic challenges. Strategic Goal 1,
Objective 1.3



The Census Bureau is the leading source of quality data about the Nation’s people and economy. The Census Bureau measures
those trends and segments of the U.S. population and economy most critical to continued U.S. success and prosperity. The Census
Bureau provides benchmark measures of the U.S. population, economy, and governments, and provides current measures of the
U.S. population, economy, and governments. The Census Bureau’s cyclical programs include the Economic Census and the Census
of Governments, conducted every five years, and the Decennial Census program, conducted every ten years. Strategic Goal 1,
Objective 1.3



The Bureau of Economic Analysis (BEA) produces some of the Nation’s most important economic statistics, including GDP and
the balance of payments. BEA promotes a better understanding of the U.S. economy by providing timely, relevant, and accurate
economic accounts data in an objective and cost-effective manner. Although a relatively small agency, BEA’s economic statistics
are among the Nation’s most closely watched. BEA’s statistics influence critical decisions made by policymakers, business leaders,
households, and individuals affecting interest and exchange rates, tax and budget projections, business investment plans, and the
allocation of over $200 billion in federal funds. Strategic Goal 1, Objective 1.3

The International Trade Administration (ITA) works to create prosperity by promoting trade and investment, ensuring fair
trade and compliance with trade laws and agreements, and strengthening the competitiveness of U.S. industry. Within ITA, the
Manufacturing and Services (MAS) unit analyzes the domestic and international aspects of U.S. competitiveness by working with
U.S. industries to evaluate the needs of the MAS sectors, conducting economic and regulatory studies aimed at strengthening
U.S. industry, obtaining input and advice from U.S. industries for trade policy setting, and participating, as appropriate, with
ITA trade policy and negotiation advancement initiatives. The Market Access and Compliance (MAC) unit concentrates on
the development of strategies to overcome market access obstacles faced by U.S. businesses. MAC monitors foreign country
compliance with numerous trade-related agreements and identifies compliance problems and other market access obstacles.
The Import Administration (IA) helps ensure fair trade by administering the U.S. antidumping and countervailing duty (AD/CVD)
laws in a manner consistent with U.S. international obligations. IA works extensively with U.S. businesses on a regular basis to
educate them about U.S. trade laws related to dumping and foreign government subsidies and how to act if they are injured by
those practices. The U.S. and Foreign Commercial Service (US&FCS) broadens and deepens the base of U.S. exports by providing
U.S. companies with reliable advice on the range of public and private assistance available, and knowledgeably supports all other
federal trade promotion services. Strategic Goal 1, Objectives 1.1 and 1.2

The Bureau of Industry and Security (BIS) advances U.S. national security, foreign policy, and economic objectives by ensuring
an effective export control and treaty compliance system and by promoting continued U.S. strategic technology leadership. BIS
(1) regulates the export of sensitive “dual use” goods and technologies in an effective and efficient manner; (2) enforces export
control, antiboycott, and public safety laws; (3) cooperates with and assists other countries on export control and strategic trade
issues; (4) assists U.S. industry in complying with international arms agreements; (5) monitors the viability of the U.S. defense
industrial base; (6) evaluates the effects on national security of foreign investments in U.S. companies; and (7) supports continued
U.S. technology leadership in industries that are essential to national security. Strategic Goal 1, Objective 1.2



F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                       11
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




       The Minority Business Development Agency (MBDA) actively promotes the ability of minority business enterprises (MBE) to
       grow and to participate in the global economy through a range of activities that include funding a network of centers that provide
       MBEs a variety of business assistance services. MBDA (1) fosters the expansion of opportunities for minority-owned business in
       the global marketplace; (2) identifies sources of financial capital for minority owned firms; (3) develops and upgrades electronic
       tools to provide access to growth markets through automated matching of MBEs to public and private sector opportunities;
       (4) provides management and technical assistance to minority-owned businesses; and (5) advocates for the increased use of
       electronic commerce and new technologies by MBEs. Strategic Goal 1, Objective 1.1

       The National Oceanic and Atmospheric Administration (NOAA) promotes environmental stewardship. NOAA encompasses
       all of Strategic Goal 3. Strategic Goal 3

       NOAA is divided into two primary appropriation accounts, Operations, Research, and Facilities; and Procurement, Acquisition, and
       Construction for both of which the following six programs apply:

       ●●   The National Ocean Service (NOS) provides scientific, technical, and management expertise to promote safe navigation;
            protects and restores coastal and marine resources damaged by natural or human-induced threats; and manages and preserves
            coastal and ocean environments.

       ●●   The National Marine Fisheries Service (NMFS) manages and conserves the living marine resources within the 200-
            mile U.S. Exclusive Economic Zone. NMFS is dedicated to the stewardship of living marine resources through science-based
            conservation and management.

       ●●   The Office of Oceanic and Atmospheric Research (OAR) provides the research and technology development necessary to
            improve NOAA climate, weather, coastal, and ocean services. OAR supplies the scientific information to advise national policy
            decisions in such areas as climate change, air quality, coastal resource management, and stratospheric ozone depletion.

       ●●   The National Weather Service (NWS) provides weather, hydrologic, and climate forecasts and warnings for the United
            States, its territories, adjacent waters, and ocean areas, for the protection of life and property and the enhancement of the
            national economy.

       ●●   The National Environmental Satellite, Data and Information Service (NESDIS) operates the polar-orbiting and
            geostationary operational environmental satellites, develops the converged polar-orbiting satellite series with the Department
            of Defense (DOD) and the National Aeronautics and Space Administration (NASA), and manages NOAA’s environmental data
            collections for use in studying long-term environmental change.

       ●●   Program Support provides overall NOAA management, planning, and administrative support for NOAA. Program Support
            promotes environmental literacy and develops and sustains a world-class workforce. Program Support provides for repair,
            restoration, and other construction efforts, along with NOAA-wide environmental compliance and safety issues. With Program
            Support, the Office of Marine and Aviation Operations operates and maintains NOAA’s ships and aircraft and uses them to
            collect data to support NOAA’s mission.

       The U.S. Patent and Trademark Office (USPTO) fosters innovation and competitiveness by providing high quality and timely
       examination of patent and trademark applications, guiding domestic and international IP policy, and delivering IP information
       and education worldwide. Two distinct business lines, Patents and Trademarks, administer the patent and trademark laws which
       provide protection to inventors and businesses for their inventions and corporate and product identifications, and encourage




  12                                              F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                     M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




innovation and scientific and technical advancement of U.S. industry through the preservation, classification, and dissemination
of patent and trademark information. Strategic Goal 2, Objective 2.2

The National Institute of Standards and Technology (NIST) promotes U.S. innovation and industrial competitiveness by
advancing measurement science, standards, and technology in ways that improve economic security and quality of life. NIST develops
and disseminates measurement techniques, reference data, test methods, standards, and other technologies and services needed
by U.S. industry to compete in the 21st century. The NIST laboratories provide the measurement science and physical standards
that are essential components of the technology infrastructure underpinning U.S. innovation. NIST’s Technology Innovation
Program (TIP) supports innovative, high-risk, high-reward research in areas of critical national need where the government has
a clear interest due to the magnitude of the problems and their importance to society. Through federal-state-local and private
sector partnerships, NIST’s Hollings Manufacturing Extension Partnership (MEP) provides technical and business assistance to
manufacturers through a nationwide network of centers in all 50 states and Puerto Rico. The Baldrige National Quality Program
promotes proven quality and performance management practices to strengthen U.S. companies, educational organizations, and
health care providers. Recognized worldwide, the program furthers organizational excellence through education, outreach, and
annual awards. All of NIST’s programs apply to Strategic Goal 2, Objective 2.1, except the MEP program which applies
to Strategic Goal 1, Objective 1.4



The National Technical Information Service (NTIS) collects and preserves scientific, technical, engineering, and other
business-related information from federal and international sources, and disseminates it to the U.S. business and industrial
research community. Strategic Goal 2, Objective 2.1

The National Telecommunications and Information Administration (NTIA) develops domestic and international
telecommunications and information policy for the executive branch; ensures the efficient and effective management and use of
the federal radio spectrum; and performs state-of-the-art telecommunications research, engineering, and planning. Strategic
Goal 2, Objective 2.3



On the following pages is a listing of the key measures of each of the bureaus in the Department. This list is not all-inclusive.
Further information concerning these and other performance measures can be found in Appendix A. The status of a given measure
is either exceeded (more than 125 percent of the target), met (100 to 125 percent of target), slightly below (95 to 99 percent of
the target), or not met (below 95 percent of target).




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                     13
     M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                                                           Key Performance Measures
     Strategic
       Goal                                   Performance Measure                                            Target                  Actual              STATUS
Strategic Goal 1:       Private Investment leveraged1 (EDA)                                                   $2,040M                $2,210M                Met
Maximize U.S.           Jobs created/retained1 (EDA)                                                           56,500                 45,866              Not Met
competitiveness         Commercial diplomacy successes (cases) (annual) (ITA)                                   162                     196                 Met
and enable
economic growth         Annual cost savings resulting from the adoption of Manufacturing                       $350M                  $552M
for American            and Services (MAS) recommendations contained in MAS studies and                                                                   Exceeded
industries,             analysis (ITA)
workers, and            Percent of industry-specific trade barriers addressed that were removed                 20%                     30%
                                                                                                                                                          Exceeded
consumers               or prevented (ITA)
                        Dollar value of contract awards obtained (MBDA)                                        $0.90B                 $2.11B              Exceeded

                        Dollar value of financial awards obtained (MBDA)                                       $0.50B                 $0.81B              Exceeded

                        Percentage of market access and compliance cases resolved successfully                  35%                     56%
                                                                                                                                                          Exceeded
                        (ITA)
                        Value of market access and compliance cases resolved successfully (ITA)                $2.0B                  $25.4B              Exceeded

                        Number of actions that result in a deterrence or prevention of a                        850                     876
                        violation and cases which result in a criminal and/or administrative                                                                Met
                        charge (BIS)
                        Complete key activities for cyclical census programs on time to support          At least 90% of         At least 90% of
                        effective decision-making by policymakers, businesses, and the public           key prep activities     key prep activities         Met
                        and meet constitutional and legislative mandates (ESA/CENSUS)                   completed on time       completed on time
                        Achieve pre-determined collection rates for Census Bureau censuses                At least 90% of               Met
                        and surveys in order to provide statistically reliable data to support           key censuses and           percentages
                        effective decision-making of policymakers, businesses, and the public          surveys meet/exceed                                  Met
                        (ESA/CENSUS)                                                                     collection rates/
                                                                                                        levels of reliability
                        Timeliness: Reliability of delivery of economic data (number of                       57 of 57                56 of 57
                                                                                                                                                       Slightly Below
                        scheduled releases issued on time) (ESA/BEA)
                        Accuracy: Percent of GDP estimates correct (ESA/BEA)                                   > 85%                    88%                 Met

                        Increased sales attributed to Hollings MEP centers receiving federal                $630M from            $3,300M from
                                                                                                                                                          Exceeded
                        funding (NIST)                                                                    FY 2008 funding        FY 2008 funding
                        Cost savings attributed to Hollings MEP centers receiving federal                   $330M from            $1,200M from
                                                                                                                                                          Exceeded
                        funding (NIST)                                                                    FY 2008 funding        FY 2008 funding
Strategic Goal 2:       Qualitative assessment and review of technical quality and merit using           Complete annual            Completed
                                                                                                                                                            Met
Promote U.S.            peer review (NIST)                                                                 peer review
innovation              Cumulative number of TIP projects funded (NIST)                                           9                      9                  Met
and industrial          Patent allowance compliance rate (USPTO)                                               96.5%                   96.9%                Met
competitiveness
                        Patent average total pendency (months) (USPTO)                                          37.9                    34.6                Met

                        Trademark final compliance rate (USPTO)                                                97.0%                   97.6%                Met

                        Trademark average total pendency excluding suspended and inter partes                   13.0                    11.2
                                                                                                                                                            Met
                        proceedings (months) (USPTO)
                        Support new telecom and information technology by advocating                       5 dockets and           12 dockets and
                        Administration views in number of FCC docket filings, and                           proceedings             proceedings
                                                                                                                                                          Exceeded
                        Congressional and other proceedings in which Administration views are
                        advocated (NTIA)
1	   EDA shows private investment leveraged and jobs created/retained at three, six, and nine year levels. The amounts shown here are for the nine year (long-term
     totals). Three and six year totals are available in Appendix A.
                                                                                                                                                        (continued)
       14                                                     F Y   2 0 0 9    P E R F O R M A N C E       A N D       A C C O U N T A B I L I T Y    R E P O R T
                                                                             M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                                               Key Performance Measures (continued)
      Strategic
        Goal                                Performance measure                                            Target                  Actual            STATUS
 Strategic Goal 3:     Fish stock sustainability index (FSSI) (NOAA)                                         548.5                   565.5               Met
 Promote               Percentage of living marine resources (LMR) with adequate population                  42.1%                   43.7%
                                                                                                                                                         Met
 environmental         assessments and forecasts (NOAA)
 stewardship           Number of habitat acres restored (annual/cumulative) (NOAA)                       9,000/58,742             9,232/58,974           Met

                       Annual number of coastal, marine, and Great Lakes habitat acres                       2,000                   2,2431
                                                                                                                                                      Exceeded
                       acquired or designated for long-term protection (NOAA)
                       Error in global measurement of sea surface temperature (NOAA)                         0.50ºC                  0.50ºC              Met

                       Severe weather warnings for tornadoes (storm-based) – Lead time                         12                      121
                                                                                                                                                         Met
                       (minutes) (NOAA)
                       Severe weather warnings for tornadoes (storm-based) – Accuracy (%)                     69%                    66%1
                                                                                                                                                    Slightly Below
                       (NOAA)

                       Hurricane forecast track error (48 hours) (nautical miles) (NOAA)                      108                      86                Met

                       Hurricane forecast intensity error (48 hours) (difference in knots)                     13                      14
                                                                                                                                                    Slightly Below
                       (NOAA)
                       Reduce the hydrographic survey backlog within navigationally                          3,000                   3,2192
                                                                                                                                                         Met
                       significant areas (square nautical miles surveyed per year) (NOAA)
                       Percentage of U.S. counties rated as fully enabled or substantially                    69%                     72%
                                                                                                                                                         Met
                       enabled with accurate positioning capacity (NOAA)
 Management            Provide accurate and timely financial information and conform to               •	 Eliminate any       ●●   Completed
 Integration Goal:     federal standards, laws, and regulations governing accounting and                 significant              FY 2009 A-123
 Achieve               financial management (DM)                                                         deficiency               assessment
 organizational                                                                                          within 1 year of         of internal
 and management                                                                                          determination            controls for
                                                                                                      •	 Complete FY              financial            Not Met
 excellence
                                                                                                         2009 A-123               reporting
                                                                                                         assessment of       ●●   One significant
                                                                                                         internal controls
                                                                                                                                  deficiency was
                                                                                                                                  not eliminated
                       Improve the management of information technology (DM)                          •	 Cost/schedule       ●●   Cost/schedule
                                                                                                         overruns/                overruns and
                                                                                                         performance              performance
                                                                                                         shortfalls less          shortfalls
                                                                                                         than 10%                 averaged under
                                                                                                      •	 All national-            10%
                                                                                                         critical and        ●●   CSAM C&A
                                                                                                         mission-critical
                                                                                                                                  enhancements
                                                                                                         systems certified                               Met
                                                                                                                                  were deployed
                                                                                                         and accredited
                                                                                                         with acceptable,    ●●   IT security
                                                                                                         quality                  compliance in
                                                                                                         documentation in         all operating
                                                                                                         place                    units and five
                                                                                                                                  FISMA systems
                                                                                                                                  in CSAM were
                                                                                                                                  reviewed
                       Dollar value of financial benefits identified by the OIG (OIG)                       $28.0M                  $126.9M           Exceeded
 2	   Estimate.



F Y   2 0 0 9     P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y        R E P O R T
                                                                                                                                                      15
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                                                M ost I mportant R esults


                                                       STRATEGIC GOAL 1

       Maximize U.S. competitiveness and enable economic growth for American industries, workers, and consumers

       Performance Summary




       I  
            n FY 2009, the Department met or exceeded 78 percent
            of the targets it had set for the year. For this goal, as
            a general rule, the Department has improved slightly in
       terms of performance from FY 2002 through FY 2009, having
       met/exceeded 74 percent of the targets in 2002.

       Accomplishments and Benefits

       Some of the significant accomplishments, impacts and
       benefits that the Department had on the U.S. public include
       the following:

       Through programs within the Economic Development
       Administration (EDA), the Department generated by FY 2009
       approximately $2.2 billion in private investment and 45,900
       jobs as a result of approximately $268 million in investments
       made in FY 2000, a 8-to-1 benefit-to-cost ratio. EDA data
       indicate that investments made in FY 2006, FY 2003, and FY
       2000 (three, six, and nine years prior to FY 2009) generated
       $3.5 billion in private investment and created or retained
       79,500 jobs. EDA anticipates that FY 2009 investments of approximately $178 million will generate $437 million by 2012, and
       then continue to increase to $1,093 million by FY 2015, and $2,186 million by FY 2018. EDA expects that those same investments
       will create or retain 11,183 jobs by 2012, 27,958 jobs by FY 2015, and 39,918 jobs by FY 2018.

       Likewise in FY 2009, operations funded by the Minority Business Development Agency (MBDA) supported clients who obtained
       $2.92 billion in contract and financial awards.

       The Department played a leading role in U.S. trade, including efforts to strengthen trade promotion by leveraging strategic
       partnerships, helping U.S. firms make sales in the face of a recession in many key markets, and advancing transformational
       commercial diplomacy. These actions reinforce the Department’s desire to broaden and deepen the export base. To this end,
       4.7 percent of small and medium-sized companies began to export for the first time in 2009 than it did in 2008. In FY 2009, the
       Department continued to expand its outreach to strategic partners, including U.S. cities and states, corporate partners, and trade
       associations. The Commercial Service increased the number of corporate partners from six in 2007 to 12 in 2008 to 19 in 2009,
       including AON Consulting, the Federation of International Trade Associations, Gartner, Lufthansa, Manufacturers and Traders Trust
       Company, Reed Exhibitions, and TuVRheinland. These partners join the Commercial Service’s ongoing partnerships with FedEx,
       UPS, PNC Bank, M&T Bank, Google, TD Commerce Bank, the U.S. Postal Service, City National Bank, Baker & McKenzie, Zions Bank,



  16                                              F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                      M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




and Comerica Bank. In 2009, the Commercial Service maintained active cooperation with the District Export Councils and since
inception, its outreach base has accelerated word-of-mouth from approximately 900 contacts representing 300 associations,
leveling off at approximately 2,800 contacts representing over 650 associations.

The International Trade Administration (ITA), along with other trade policy agencies, has continued to lower trade barriers through
free trade agreements (FTA) during FY 2009. Although countries that the United States has FTAs with only represent 9.4 percent
of world gross domestic product (GDP), they represent 41 percent of U.S. trade. ITA has also maintained a concerted effort to open
up large developing markets like China and India.

Often companies encounter difficult hurdles when trying to do business in other countries. ITA has measured itself by “export
successes” tied to specific export transactions of client companies. Overseas posts also devote time and resources to “commercial
diplomacy,” i.e., working behind the scenes to resolve problems, reduce trade barriers, and cut red tape. Commercial diplomacy
benefits not only current ITA clients, but also all U.S. exporters by opening doors and creating paths to success for other exporters
to follow. For example, in Bulgaria, ITA’s Commercial Service succeeded in having a packaging waste penalty removed that was
costing U.S. companies like Coca-Cola, Kraft, and Procter & Gamble millions of dollars per year. Similar efforts helped to get
Bulgarian legislation passed to better protect intellectual property rights (IPR). In 2009 the Commercial Service had almost $600
million in commercial diplomacy successes.

While the Department seeks to encourage trade, this desire
is balanced by the need to control exports, specifically those
dual-use exports which have both civilian and military
applications.

The Department announced an important step forward in
the strategic partnership between the United States and
India during remarks to the U.S.-India Business Council’s
34th Anniversary “Synergies Summit.” General Electric India
(GE India) has been tapped as the first Indian company to
qualify as a Validated End-User (VEU) in India. After an
extensive background review, the VEU designation will allow
GE India to receive certain controlled items from the United
States, including civilian aircraft technology and explosive detection equipment without an individual license, cutting red tape
and making the flow of trade more efficient between the countries. That the VEU program was opened for India is an indication
of the increased importance of the U.S.-India bilateral and commercial relationship.

In an effort to further streamline the dual-use export control system, the Department launched a review of the Department
Control List of items controlled for export. In addition, the Department announced the results of a study of the sensors and
imaging industry which has formed the basis for proposals to update controls of night vision items consistent with technological
and market developments in the industry.

The Department, through the Census Bureau and the Bureau of Economic Analysis (BEA), provides vital statistical information
on the economy and the demographics of the Nation. Statistics affect all aspects of public and private sectors, including the
distribution of funds to various geographic districts. The Decennial Census, mandated by the Constitution, affects the political
makeup of every state in the union and reflects the shifting political power among the states.




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                        17
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




       In FY 2009, the Census Bureau continued to increase and improve the quality and availability of economic and demographic
       information used as a basis for important decisions by business leaders, policymakers, and the U.S. public. This year, the Census
       Bureau began field operations for the 2010 Decennial Census, the largest non-military activity undertaken by the U.S. government.
       The Census Bureau completed data collection for the 2007 Economic Census and started delivery of some 1,600 data releases
       through the Web-based American FactFinder dissemination system. The 2007 Economic Census Advance Report was released and
       over 91 percent of the industries covered in the industry series report were released in FY 2009.

       In FY 2009, the Census Bureau completed the first full year of data collection for a new panel of the Survey of Income and Program
       Participation (SIPP), which began in September 2008. Progress continued on all four components of the SIPP re-engineering
       project, with the anticipated release of a new re-engineered SIPP Panel in 2013.

       BEA, a partner agency with the Census Bureau within the Economics and Statistics Administration (ESA), promotes a better
       understanding of the U.S. economy by providing timely, relevant, and accurate economic accounts data in an objective and cost-
       effective manner. BEA’s national, industry, regional, and international economic accounts present valuable information on key
       issues such as U.S. economic growth, regional economic development, inter-industry relationships, and the Nation’s position in
       the world economy.

       In 2009, BEA continued to produce its critical statistics, including GDP personal income and outlays, corporate profits, GDP
       by state and by metropolitan area, balance of payments, and GDP by industry. These statistics are used by federal, state, and
       local governments for budget development and projections;
       by the Federal Reserve for monetary policy; by the business
       sector for planning and investment; and by the U.S. public
       to follow and understand the performance of the Nation’s
       economy. In 2009, BEA continued to help the world to
       understand these and other economic measures produced
       by the federal statistical system through its publication, The
       Survey of Current Business, as well as through its Web site,
       www.bea.gov. As businesses, governments, and households
       are provided with better, easier-to-understand economic
       data, their ability to make key investment decisions that
       move the U.S. economy forward are significantly improved.

       ESA turned its efforts toward exploring two different methods of measuring “green business.” One method uses an input-output
       model to measure the relative “greenness” of industries and the other uses the products data in the Census Bureau’s Economic
       Census to identify “green products.”

       BEA moved forward with its development of a health satellite account that will provide a means to better assess the returns to
       various health treatments and the sources of changes in health care costs, by expanding its research and development (R&D)
       satellite account to include other intangibles in order to highlight the importance of innovation to economic growth, and by
       continuing its work to integrate its accounts with other federal economic statistics. BEA also remains devoted to the timeliness
       and accuracy of its statistics; for example, in 2009, BEA expanded the use of its high-performance STATS-II processing system
       and made significant investments in modernizing and streamlining the statistical processing systems underlying the Industry and
       International Accounts.

       The National Institute of Standards and Technology’s (NIST) Hollings Manufacturing Extension Partnership (MEP) provides
       resources to further technological advances within the private sector. MEP transforms thousands of U. S. manufacturers each



  18                                             F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                        M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




year by working one-on-one to implement the best combination of process improvements and growth services for each individual
company. MEP is focused on providing the services that reduce manufacturers’ bottom-line expenses, increase efficiencies, and
build capacity. Process and quality improvements offer reduced expenses while growth services provide the tools to improve
top-line sales with the development of new sales, new markets, and new products along with the adoption of new technologies.
With a suite of service offerings, MEP centers provide the tools to keep manufacturers competing and thriving in today’s global
marketplace.

Summary of P erformance Results

                                                                                                                  targets met
    Strategic objective                                   Performance outcome
                                                                                                                  or exceeded
 Strategic Objective 1.1:            Promote private investment and job creation in economically distressed
                                                                                                                     5 of 6
 Foster domestic economic            communities (EDA)
 development as well as export       Improve community capacity to achieve and sustain economic growth
 opportunities                                                                                                       2 of 6
                                     (EDA)
                                     Strengthen U.S. competitiveness in domestic and international markets
                                                                                                                     3 of 4
                                     (ITA)
                                     Broaden and deepen U.S. exporter base (ITA)                                     4 of 5
                                     Increase access to the marketplace and financing for minority-owned
                                                                                                                     4 of 5
                                     businesses (MBDA)
 Strategic Objective 1.2:            Identify and resolve unfair trade practices (ITA)                               4 of 5
 Advance responsible economic        Maintain and strengthen an adaptable and effective U.S. export control
 growth and trade while                                                                                              7 of 7
                                     and treaty compliance system (BIS)
 protecting American security
                                     Integrate non-U.S. actors to create a more effective global export control
                                                                                                                     0 of 1
                                     and treaty compliance system (BIS)
                                     Ensure continued U.S. technology leadership in industries that are
                                                                                                                     1 of 1
                                     essential to national security (BIS)
 Strategic Objective 1.3:            Provide benchmark measures of the U.S. population, economy, and
                                                                                                                     2 of 3
 Advance key economic and            governments (ESA/CENSUS)
 demographic data that support       Provide current measures of the U.S. population, economy, and
 effective decision-making of                                                                                        2 of 2
                                     governments (ESA/CENSUS)
 policymakers, businesses, and the
 American public                     Provide timely, relevant, and accurate economic statistics (ESA/BEA)            5 of 6
 Strategic Objective 1.4:            Increase the productivity, profitability, and competitiveness of
 Position manufacturers to compete   manufacturers (NIST)                                                            4 of 4
 in a global economy


For Strategic Goal 1, in terms of performance, the Department met nearly all of its targets in FY 2009. EDA met or exceeded all
but one of its targets for increasing private investment and creation of jobs for programs that were funded either in 2000, 2003,
or 2006 (EDA tracks progress on a three, six, and nine-year basis). MBDA met all but one of its targets. Furthermore, historically,
the targets appear to be stable or aggressive.

ITA had three performance outcomes that applied to Strategic Goal 1: “Strengthen U.S. competitiveness in domestic and
international markets,” “Broaden and deepen the U.S. exporter base,” and “Identify and resolve unfair trade practices.” ITA missed
three of 14 targets for all three outcomes. For “Strengthen U.S. competitiveness,” ITA missed the target for “Percent of agreement
milestones completed.” For the “Broaden and deepen the U.S. exporter base” outcome, ITA missed the target for “Number of SME




F Y   2 0 0 9   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                      19
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




       new-to-market firms/number of SME firms exporting to two to nine markets.” For “Identify and resolve unfair trade practices, ITA
       was slightly below the target for “Percentage of AD/CVD determinations issued within statutory and/or regulatory deadlines.”

       One of the Bureau of Industry and Security’s (BIS) key tasks is to either prevent illegal exports or to charge export violators. To
       that end, a key performance measure for BIS is the “Number of actions that results in a deterrence or prevention of a violation and
       cases which result in a criminal and/or administrative charge.” BIS has consistently met its targets while raising the targets from
       year to year. BIS has also consistently maintained an effective export control system, a key to which is the processing of export
       licenses and the timely issuance of regulations regarding export activity. BIS has consistently met its targets in these areas.

       The Census Bureau rarely misses deadlines (it did not this year) for producing data. Unfortunately in FY 2009, the Census Bureau
       was below the federal score of 74 with a score of 67. As a measure of customer satisfaction, the Census Bureau strives to meet or
       exceed the aggregate federal score on the American Customer Satisfaction Index (ACSI). Since 1999, the Bureau has been below
       the aggregate score only twice (2000 and 2001). BEA released nearly all of its 2009 statistics on schedule, and has developed the
       GDP statistics with over 85 percent accuracy for each of the past nine years. For a more detailed description of this accuracy
       measure see www.osec.doc.gov/bmi/budget/08CJB/esa.pdf. Each year BEA also conducts a customer satisfaction survey with a
       goal of achieving greater than a 4.0 (on a five point scale). BEA has consistently exceeded that goal, most recently achieving
       a 4.2.

       The MEP program has a strong history of measurably improving the productivity, profitability, and competitiveness of MEP clients,
       and exceeded the targets for all four measures.




  20                                             F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                     M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                              STRATEGIC GOAL 2STRATEGIC GOAL 2

Promote U.S. innovation and industrial competitiveness

Performance Summary




I  
     n FY 2009, the Department met or exceeded 97 percent
     of the targets it had set for the year. For this Strategic
     Goal, the Department has improved its performance since
FY 2002, having met or exceeded 74 percent of its targets in
2002.

Accomplishments and Benefits

Some of the significant accomplishments, impacts, and
benefits that the Department had on the U.S. public include
the following:

NIST Standard Reference Materials (SRM) are among the
most widely distributed and used products from NIST. The
Agency prepares, analyzes, and distributes more than 1,000
different materials that are used throughout the world to
check the accuracy of instruments and test procedures used in
manufacturing, clinical chemistry, environmental monitoring,
electronics, criminal forensics, and dozens of other fields.

NIST’s Technology Innovation Program (TIP) funded nine new high-risk, innovative projects in FY 2009 in the critical national need
area of civil infrastructure with a focus on advanced sensing technologies. The unique multi-disciplinary approaches and teaming
efforts of the 35 research participants involved in these projects will help to achieve a transformative impact for infrastructural
monitoring and inspection.

People worldwide benefit from innovations, both directly on a personal level, and indirectly through economic growth fueled
by innovation. Continual development of a vigorous, flexible, and efficient intellectual property (IP) system protects individual
                                                                   rights, encourages investment in innovation, and fosters
                                                                   entrepreneurial spirit. The Department promotes the IP
                                                                   system through the protection of inventions or creations via
                                                                   patent, trademark, trade secret, and copyright laws. Under
                                                                   this system of protection, industry in the United States has
                                                                   flourished, creating employment opportunities for millions
                                                                   of Americans.

                                                                      Through the U.S. Patent and Trademark Office (USPTO),
                                                                      the Department provides the examination of patent and
                                                                      trademark applications and dissemination of patent and
                                                                      trademark information. By issuing patents, the Department
                                                                      provides incentives to invent and invest in new technology


F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      21
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




       by allowing innovators the opportunity to benefit from their discoveries. Registration of trademarks assists businesses in protecting
       their investments and safeguards consumers against confusion and deception in the marketplace by providing notice of marks
       in use. Through dissemination of patent and trademark information, the Department promotes a global understanding of IP
       protection and facilitates the development and sharing of new technologies worldwide.

       Telecommunications plays a key role in U.S. society as the economy expands into the digital age. The Department, through the National
       Telecommunications and Information Administration (NTIA), is at the forefront of this expansion. In addition to developing policy for
       the Administration on key issues, NTIA has important operational roles to manage the use of radio spectrum by the federal government,
       to perform cutting-edge communications research and engineering for many federal agencies, to privatize the Internet Domain
       Name System (DNS) and manage key Internet functions, and to administer grant programs to support the expanded deployment of
       communications and information technologies. Collectively, NTIA’s work promotes the development of an advanced communication
       and information infrastructure that efficiently meets the needs of consumers, creates jobs, and enhances the Nation’s competitiveness
       in the global marketplace. As such, NTIA makes an important contribution to the Department’s overall mission to foster, serve, and
       promote the Nation’s economic development and technological advancement.

       The fact that the digital television (DTV) transition occurred with minimal disruption and maximum preparedness is due to the foresight
       and decisiveness of the President and Congress in enacting the DTV Delay Act and providing additional funding via the American
       Recovery and Reinvestment Act (ARRA) of 2009. This legislation extended the final date by which all full-power television stations
       were required to transition from analog to digital from February 17 to June 12, 2009. Efforts by the White House, NTIA, the Federal
       Communications Commission (FCC), and numerous private sector stakeholders made a critical difference in decreasing the number
       of households unprepared for the final transition when June 12 arrived. Nielsen data after the June 12 transition indicated that the
       number of unready households was reduced to less than 2.9 million. Since then, it has dropped even further to less than 1.5 million
       unready households.

       As of July 22, 2009, the Digital-to-Analog Converter Box Coupon Program has distributed 63.2 million coupons to more than 34 million
       households. Of these, 33.5 million coupons have been redeemed at participating retailers. NTIA is extremely gratified by the high level
       of participation and cooperation by converter box manufacturers and consumer electronics retailers in the program.

       The ARRA allocated $4.7 billion to NTIA to administer the
       Broadband Technology Opportunities Program (BTOP) for the
       general purpose of accelerating the deployment and adoption
       of broadband services in the United States. NTIA will award the
       bulk of the dollars to projects to deploy broadband infrastructure
       in unserved and underserved areas in rural and urban areas of
       the United States. In addition, NTIA will provide at least $250
       million to projects that encourage sustainable adoption of
       broadband services, and at least $200 million to expand public
       computer center capacity, including at community colleges and
       public libraries. The ARRA further provides up to $350 million
       to develop and maintain a broadband inventory map.

       In implementing the ARRA’s broadband provisions, NTIA has coordinated closely with other federal agencies and stakeholders, including
       the U.S. Department of Agriculture’s (USDA) Rural Utilities Service (RUS), which received $2.5 billion in ARRA funding to make
       broadband loans and grants to rural and remote areas through its Broadband Initiatives Program, and the FCC, which was directed
       to establish a National Broadband Plan. Ultimately, NTIA believes consumers will be the primary beneficiaries of these extraordinary
       collaborative efforts.



  22                                                 F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                       M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




One of NTIA’s principal operational responsibilities is to manage the radio communications spectrum used by the federal government.
Wireless technologies and services support the missions of 69 federal departments and agencies, which use over 40 radio services
for national and homeland security, critical infrastructure protection, transportation, and law enforcement, among others. NTIA has
been working with the FCC to improve the efficient use of spectrum. For example, the joint Spectrum Sharing Innovation Test Bed
is examining various technical issues involved in the sharing of spectrum between federal and non-federal users. This initiative is
providing an important opportunity for federal agencies to work cooperatively with industry, researchers, and academia to evaluate
objectively new technologies to manage the Nation’s airwaves. NTIA recognizes the potential widespread benefits of more widely
expanded wireless broadband, and it is committed to doing its part to help turn that potential into reality.

In advance of the September 30, 2009 expiration of the Joint Project Agreement with the Internet Corporation for Assigned Names
and Numbers (ICANN), NTIA conducted an inquiry in which it sought public comments regarding the progress of the transition of the
technical coordination and management of the Internet DNS to the private sector, as well as the model of private sector leadership and
bottom-up policy development which ICANN represents.

On September 30, 2009, NTIA and ICANN co-signed an Affirmation of Commitments that completes the transition of the technical
management of the DNS to a multi-stakeholder, private-sector-led model. The affirmation ensures accountability and transparency in
ICANN’s decision-making with the goal of protecting the interests of global Internet users. The affirmation also establishes mechanisms
to address the security, stability, and resiliency of the Internet DNS as well as promote competition, consumer trust, and consumer
choice.

Summary of Performance Results

                                                                                                                   targets met
    Strategic objective                                   Performance outcome
                                                                                                                   or exceeded
 Strategic Objective 2.1:            Promote innovation, facilitate trade, and ensure public safety and security
 Advance measurement science         by strengthening the Nation’s measurements and standards infrastructure            5 of 6
 and standards that drive            (NIST)
 technological change                Promote U.S. competitiveness by directing federal investment and R&D
                                     into areas of critical national need that support, promote, and accelerate
                                                                                                                        1 of 1
                                     high-risk, high-reward research and innovation in the United States
                                     (NIST)
                                     Increase public access to worldwide scientific and technical information
                                                                                                                        3 of 3
                                     through improved acquisition and dissemination activities (NTIS)
 Strategic Objective 2.2:            Optimize patent quality and timeliness (USPTO)                                     5 of 5
 Protect intellectual property       Optimize trademark quality and timeliness (USPTO)                                  5 of 5
 and improve the patent and
 trademark system                    Improve intellectual property and enforcement domestically and abroad
                                                                                                                        2 of 2
                                     (USPTO)
 Strategic Objective 2.3:            Ensure that the allocation of radio spectrum provides the greatest benefit
                                                                                                                        5 of 5
 Advance global e-commerce as        to all people (NTIA)
 well as telecommunications and      Promote the availability, and support new sources, of advanced
 information services                                                                                                   2 of 2
                                     telecommunications and information services (NTIA)


For Strategic Goal 2, the Department met nearly all of its targets while providing essential services to the U.S. public. As in
previous years, NIST did well in the National Research Council (NRC) assessment, performing up to the past standards it has
set. SRMs, publications, datasets, and calibrations are a few of the knowledge transfer mechanisms that provide the technical
infrastructure in support of the President’s Plan for Science and Innovation. NIST met all five of its targets for the measures
reflecting these mechanisms.




F Y   2 0 0 9   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                          23
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




       In addition, NIST met the TIP target for funding nine awards during FY 2009 for high-risk, high-reward innovative projects in
       the critical national need area of civil infrastructure, which involve 35 research participants, including industry, universities, and
       public sector entities.

       One other area of technological innovation involves the distribution of scientific and technical information. The National Technical
       Information Service (NTIS) serves as a clearinghouse for this information to the public, private, and non-profit sectors. NTIS
       exceeded all of its 2009 targets, making more than 890,000 updated items available, and disseminating more than 49 million
       information products.

       One way that the Department advances technology and business is through the issuance of patents and trademarks thereby
       protecting IP that serves as a motive to innovate. In this regard, compliance rates (quality) and pendency (timeliness) play a key
       role in evaluating performance. USPTO met all its targets for their three outcomes.

       The Patent organization maintained a strong focus on quality and reduced the backlog of existing applications while meeting or
       exceeding all of its goals for the year though pendency remains an issue, as applications take nearly three years on average to
       conclude. Quality training is the key to quality patent examination, which is a critical part of USPTO’s strategic plan. The Agency
       was proud to announce this year that its Patent Training Academy received a certificate of registration for the International
       Organization for Standardization (ISO) 9001:2008. The ISO 9001 quality standard is the most widely recognized and established
       quality management system framework in the world.

       The successful implementation of the Patent Training Academy has enabled the hiring and training of large numbers of new
       examiners over the last several years. The growth and increasing experience and productivity of our examination workforce,
       combined with a slowdown in filings this year, enabled the Patent organization to begin reducing the size of the application
       backlog and to address growing patent pendency, which ended the year at 25.8 months from filing to first action and 34.6 months
       until issue or abandonment. Unfortunately, due to budget reductions necessitated by reduced fee collections, hiring of patent
       examiners was curtailed this year, which may negatively impact patent pendency in the future. Furthermore, the Department has
       made it a priority to lower the pendency rate to an acceptable level.

       Trademark first action pendency—the length of time between the receipt of a trademark application and when USPTO makes
       a preliminary decision—was consistently maintained under three months every month throughout the fiscal year. This is an
       unprecedented achievement, and the third year in a row that pendency has been maintained at three months or less. Average total
       pendency also showed significant sustained improvement with disposal or registration occurring within 12 months from filing.

       Enhancing telecommunications services is a key to advancing technology in the Nation. The radio frequency spectrum is used in
       a variety of ways, including transportation control and law enforcement. NTIA satisfies the frequency assignment needs of the 63
       federal agencies allowing them to operate radio communications that provide the public with national and homeland security,
       law enforcement, transportation control, natural resource management, and other public safety services during peacetime and
       emergencies. A key to this is making the assignments available as soon as possible after an agency requests a frequency. In
       FY 2005, NTIA sought to reduce this time to 12 business days or less. By 2009, NTIA reduced this time to nine business days or
       fewer. NTIA’s long-term goal is to improve spectrum management processes throughout the federal government so that time for
       spectrum assignments can be reduced from more than 15 days to three days or fewer, and ultimately to near instantaneously,
       supporting long-term goals for efficiency and effectiveness of spectrum use. NTIA has also promoted new sources of advanced
       telecommunications services. In FY 2009, NTIA met the targets for this goal and administered programs established by the Digital
       Television Transition and Public Safety Fund.




  24                                              F Y   2 0 0 9   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                     M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                                                STRATEGIC GOAL 3


Promote environmental stewardship

Performance Summary




I  
     n FY 2009, the Department met or exceeded 84 percent
     of the targets it had set for the year. For this Strategic
     Goal, the Department has improved its performance since
FY 2002, having met or exceeded 76 percent of its targets in
2002.

Accomplishments and Benefits

Through the National Oceanic and Atmospheric Administration
(NOAA), the Department impacts the entire Nation. From the
development and protection of fisheries to the prediction of
severe storms such as hurricanes and tornadoes, all of the
United States depends on NOAA programs. Some of the
significant accomplishments, impacts, and benefits that
NOAA had on the U.S. public include the following:

NOAA continued its efforts to eliminate overfishing and
rebuild stocks important to commercial, recreational, and
subsistence fisheries. In FY 2009, four stocks—Atlantic
bluefish, Gulf of Mexico king mackerel, and two stocks of
monkfish in the Atlantic—were declared rebuilt, the largest number in a single year since NOAA declared the first stock successfully
rebuilt in 2001. NOAA also made significant progress toward ending overfishing through the implementation of annual catch
limits and accountability measures by publishing guidelines for the eight Fishery Management Councils to use in implementing
this mandate. NOAA is working with the councils to amend fishery management plans, and successfully worked with the Gulf of
Mexico Council to define annual catch limits and accountability measures for all stocks classified as subject to overfishing in the
Gulf of Mexico one year in advance of the 2010 deadline. NOAA is also working with the New England Fishery Management Council
                                                                     to develop new groundfish management measures that will
                                                                     implement fishing sectors—a group of vessel permit holders
                                                                     who voluntarily agree to fishing restrictions and procedures
                                                                     in exchange for a share of the total catch allocated to the
                                                                     industry. This system based on catch shares will replace the
                                                                     current method of limiting fishing through days at sea for
                                                                     those vessels that join a sector.

                                                                      A multi-agency report, “Climate Change and Water Resources
                                                                      Management: A Federal Perspective,” was released to the
                                                                      public on February 2, 2009. The study presents the best
                                                                      available science to help water managers prepare for, adapt




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                       25
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




       to, and mitigate the effects of climate change on the Nation’s water resources. NOAA and the U.S. Geological Survey collaborated
       with the U.S. Army Corps of Engineers and the Bureau of Reclamation to explore strategies for improved water management.
       The report suggests processes that will improve tracking, anticipation, and response to climate change effects. A critical goal
       of this report is to develop effective coordinated, cross-agency early warning systems in support of adaptation as the climate
       changes. One such example is the National Integrated Drought Information System (NIDIS). The report serves as an important
       document for guiding the development of NOAA climate services and informing its role as a partner with resource management
       and environmental science agencies.

       A guide is now available to help individuals of all ages understand how climate influences them and how they influence climate.
       “Climate Literacy: The Essential Principles of Climate Science” is a product of the U.S. Global Change Research Program (USGCRP)
       and was compiled by an interagency group led by NOAA; multiple science agencies, several nongovernmental organizations, and
       numerous individuals contributed to this guide. The 13-page guide suggests how people can help reduce climate change and its
       impacts; and defines important climate terms and concepts used regarding climate science, adaptation, and mitigation. The
       Climate Literacy guide supports the development of formal and informal educational materials about climate science as well as
       professional development opportunities for educators. The intent is to integrate the framework into national and state education
       standards, and to support teacher workshops to ensure that educators are proficient in the concepts of climate and related
       sciences. The release of the guide was announced at the National Science Teachers Association’s 2009 National Conference in
       New Orleans, LA.

       In FY 2009, through August 8, the Search and Rescue Satellite-Aided Tracking System (SARSAT) has led to the rescue of 184
       people. Over the years, NOAA’s satellites have helped to save people from potentially life-jeopardizing emergencies throughout
       the United States and its surrounding waters. NOAA currently has over 212,000 406 MHz emergency beacons in their registration
       database and is currently registering record numbers each month.

       Further, new ocean observing data are feeding into U.S. Coast Guard servers to improve environmental observations for the
       Agency’s operational Search and Rescue Optimal Planning System. The data enhance the ability to track the probable paths of
       those lost at sea and are expected to improve search and rescue efforts along the Mid-Atlantic U.S. coastline. The data come
       from an Integrated Ocean Observing System (IOOS) and are part of a joint effort among NOAA, the Mid-Atlantic Coastal Ocean
       Observing Regional Association, the U.S. Coast Guard, and the Department of Homeland Security (DHS). The new data sets include
       surface current maps from high frequency radar systems, technology that measures speed and direction of ocean surface currents
       in near real time. The U.S. Coast Guard can then use the maps to guide its search and rescue operations with greater accuracy.
       The maps can also be used to support other scientific work, such as oil spill response, harmful algal bloom monitoring, and water
       quality assessments. A short term predictive system that allows 24-hour forecasts for sea surface currents based on the most
       recent ocean observations is also now available in the Mid-
       Atlantic region. Surface current data is one of seven IOOS
       variables that are now interoperable as a result of IOOS data
       interoperability efforts.

       The Integrated Ocean and Coastal Observation System
       Act of 2009 authorized a national IOOS and governance
       structure designating NOAA as the lead federal agency
       for implementation and administration of the system in
       consultation with interagency and regional partners. In
       FY 2009, NOAA IOOS awarded $21 million to Regional
       Coastal Ocean Observing Systems (RCOOS) partners and




  26                                             F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                       M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




their managing entities called Regional Associations. IOOS expanded the network of ocean-related observations, data, and
products available; improved regional implementation of NOAA and other federal missions; and met needs for coastal and ocean
information. Regional Associations improved capabilities and ocean monitoring such as the Caribbean Regional Association
that deployed the region’s first buoy in June that collects real-time data on winds, waves, currents, temperature, salinity, and
pressure for tsunami predictions. The Pacific Islands Ocean Observing System (PacIOOS) enhanced ocean observing capabilities by
adding their first High Frequency Radio system, launching water quality sensors and coastal carbon buoys in partnership between
the University of Hawaii and NOAA’s Pacific Marine Environmental Laboratory, and developing ocean education programs for
elementary school children.

Summary of Performance Results

                                                                                                             targets met
                      Strategic objective                                  Performance objective
                                                                                                             or exceeded
 Strategic Objective 3.1:
 Protect, restore, and manage the use of coastal and ocean resources                    N/A                       8 of 8
 (NOAA)
 Strategic Objective 3.2:
                                                                                        N/A                       6 of 6
 Advance understanding of climate variability and change (NOAA)
 Strategic Objective 3.3:
                                                                                        N/A                      7 of 11
 Provide accurate and timely weather and water information (NOAA)
 Strategic Objective 3.4:
 Support safe, efficient, and environmentally sound commercial                          N/A                       5 of 6
 navigation (NOAA)
 Mission Support:
                                                                                        N/A                        N/A
 Provide critical support for NOAA’s mission (NOAA)


Of the 31 performance measures for this strategic goal, NOAA missed five targets. Three of the targets missed: for accuracy of
winter storm warnings, accuracy of aviation forecasts, and hurricane track intensity error; NOAA was off by only one percent.




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                   27
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                                         M anagement I ntegration G oal

       Achieve organizational and management excellence

       Performance Summary




       I  
            n FY 2009, the Department met or exceeded 75 percent
            of the targets it had set for the year. For this Goal,
            performance declined slightly since FY 2002, having met
       or exceeded 81 percent of its targets in 2002.

       Accomplishments and Benefits

       Two organizations are involved in the Management Integration
       goal: Departmental Management (DM) and the Office of
       Inspector General (OIG). Key areas that this goal addresses
       include financial management, contracting, competitive
       sourcing, and human resources (HR) management.

       The Department received an unqualified audit opinion for
       the 11th consecutive year. In the field of HR, the Department
       developed and implemented new competency models for use
       in applicant selections and training in three different mission-
       critical occupations, while exceeding the 45-day hiring goals
       mandated by the Office of Personnel Management (OPM),
       with an average fill time of 31 days for non-senior executive
       service (SES) vacancies.

       Summary of Performance Results

                                                                                                                           targets met
          Strategic objective                                      Performance outcome
                                                                                                                           or exceeded
        Management Integration Goal: Ensure effective resource stewardship in support of the Department’s
                                                                                                                                    1 of 3
        Achieve organizational and   programs (DM)
        management excellence             Ensure retention of highly qualified staff in mission-critical positions (DM)             1 of 1
                                          Acquire and manage the technology resources to support program goals (DM)                 1 of 1
                                          Promote improvements to Department programs and operations by
                                          identifying and completing work that (1) promotes integrity, efficiency, and              3 of 3
                                          effectiveness; and (2) prevents and detects fraud, waste, and abuse (OIG)


       For the Management Integration goal, the primary goal/target was to eliminate two significant deficiencies, which impacted the
       Financial Management measure. DM was not able to fully complete this task in FY 2009, having eliminated the NOAA personal
       property significant deficiency, but not the IT significant deficiency. DM also did not meet the target for the percent of performance-
       based contracts although gains were made for the previous year. A major program, the Commerce Information Technology
       Solutions (COMMITS), which was all performance-based contracts, was transferred to the General Services Administration (GSA)
       and therefore the Department’s base was reduced. The OIG exceeded the target of $28 million for “Cumulative dollar value of
       financial benefits identified” with an actual of $127 million.

  28                                               F Y   2 0 0 9    P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                      M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                                          M anagement C ontrols




    T  
              he Department of Commerce’s (Department) management is responsible for establishing and maintaining effective
              internal control and financial management systems that meet the objectives of the Federal Managers’ Financial
              Integrity Act (FMFIA). The Department is able to provide a qualified statement of assurance that its internal
   controls and financial management systems meet the objectives of FMFIA, with the exception of one material weakness as
   discussed below.

   During FY 2009, the Department assessed its internal control over the effectiveness and efficiency of operations and
   compliance with applicable laws and regulations in accordance with Office of Management and Budget (OMB) Circular
   A-123, Management’s Responsibility for Internal Control. Based on the results of this evaluation, the Department
   identified one material weakness in internal management control as of September 30, 2009. This material weakness
   involves information technology (IT) security concerns and the need to improve the quality of certification and accreditation
   processes and documentation for non-financial IT systems. Other than this exception, internal controls were operating
   effectively and no other material weaknesses were found.

   Supplemental funding received under the American Recovery and Reinvestment Act of 2009 received comprehensive
   programmatic and administrative attention throughout the Department in order to achieve the legislative goals attributable
   to it. Funds were awarded—or otherwise expended for authorized purposes—in as prompt and efficient a manner as
   possible, while safeguarding against fraud, waste, and abuse. Reporting associated with this funding is being performed
   clearly, transparently, and comprehensively. Monitoring has been, and will continue to be, conducted to ensure that the
   recipient is meeting the goals stated in its application and as incorporated into award documents, and monitoring will also
   focus on the effects that funding has had, and will prospectively have, on economic indicators.

   In addition, the Department assessed the effectiveness of internal control over financial reporting, which includes safeguarding
   of assets and compliance with applicable laws and regulations, in accordance with the requirements of Appendix A of OMB
   Circular A-123. Based on the results of this evaluation, the Department can provide reasonable assurance that its internal
   control over financial reporting as of June 30, 2009, was operating effectively and that no material weaknesses were
   found in the design or operation of the internal control over financial reporting. Further, no material weaknesses related to
   internal control over financial reporting were identified between July 1, 2009 and September 30, 2009.

   Based on reviews conducted by the Department, it has been able to determine that its financial systems are in conformance
   with government-wide requirements.




                                                                       Gary Locke
                                                                       Secretary of Commerce
                                                                       November 16, 2009




F Y   2 0 0 9   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      29
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




            F ederal M A N A G E R S ’ F I N A N C I A L I N T E G R i T Y A C T ( F M F I A ) O F 1 9 8 2

       During FY 2009, the Department reviewed its management control system in accordance with the requirements of FMFIA, and
       OMB and Departmental guidelines. The objective of the Department’s management control system is to provide reasonable
       assurance that:

       ●●   obligations and costs are in compliance with applicable laws;

       ●●   assets are safeguarded against waste, loss, and unauthorized use of appropriations;

       ●●   revenues and expenditures applicable to Agency operations are properly recorded and accounted for, permitting accurate
            accounts, reliable financial reports, and full accountability for assets; and

       ●●   programs are efficiently and effectively carried out in accordance with applicable laws and management policy.



        Section 2 of FMFIA – Internal Management Controls

       Section 2 of FMFIA requires that federal agencies report, on the basis of annual assessments, any material weaknesses that have
       been identified in connection with their internal and administrative controls. The efficiency of the Department’s operations is
       continually evaluated using information obtained from reviews conducted by the Government Accountability Office (GAO) and
       the Office of Inspector General (OIG), and specifically requested studies.

       The diverse reviews that took place during FY 2009 relative to non-financial controls provide assurance that Department systems
       and management controls comply with standards established under FMFIA, with the exception of one material weakness. As
       discussed in detail below, this material weakness involves IT security issues and the need to improve the quality of certification
       and accreditation (C&A) processes and documentation for non-financial IT systems.

       The following table reflects the number of material weaknesses reported under Section 2 of FMFIA in recent years by the
       Department. One material weakness was reported for each of the years identified, i.e., non-financial system IT security.


                	                             NUMBER OF MATERIAL WEAKNESSES UNDER SECTION 2
                                                                                                                        Number
                                          Number At
                                                                      Number                                          Remaining At
                                         Beginning Of                                    Number Added
                                                                     Corrected                                        End Of Fiscal
                                          Fiscal Year
                                                                                                                          Year
                      Fy 2006                    1                         0                         0                        1
                      Fy 2007                    1                         0                         0                        1
                      Fy 2008                    1                         0                         0                        1
                      Fy 2009                    1                         0                         0                        1


       Enhancements to Information Technology (IT) Security Continue

       The Department’s Office of the Chief Information Officer (OCIO), following OMB policies and guidelines, oversees and manages
       IT resources by instituting controls to mitigate IT risks. It routinely conducts reviews of IT investments to ensure their efficiency
       and effectiveness in support of the Department’s missions. Since FY 2001, when it was first identified and reported as a material




  30                                                 F Y   2 0 0 9   P E R F O R M A N C E   A N D       A C C O U N T A B I L I T Y   R E P O R T
                                                                     M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




weakness, the Department and operating units have worked assiduously to appropriately address concerns. Given the significant
focus across the federal government, in general, and the Department, specifically, on the need for effective cyber security and the
protection of sensitive information, the Department continued comprehensive efforts to enhance its IT security program during
FY 2009.

Departmental and operating unit managers are committed to working together to improve IT security in the Department. A two-
year corrective action strategy to remediate the C&A weakness was jointly developed by the OCIO and the OIG and is now
being implemented. Implementation of an automated tool to help ensure compliance with the Federal Information Security
Management Act (FISMA), improvements to the C&A process, and initiation of an IT security workforce improvement program are
some of the most significant aspects of this strategy. While there are significant deficiencies that still must be addressed, the
Department is on target in carrying out its corrective action strategy.

FY 2009 Accomplishments

The Department’s roadmap for eliminating the material weakness in non-financial system IT security includes conducting rigorous
C&A compliance reviews at the operating unit level based on FISMA requirements, OMB policy, National Institute of Standards
and Technology (NIST) standards and guidelines, and previous OIG recommendations. As a result of this year’s effort, 94 percent
of the Department’s 306 IT systems are operating with full authorization. The OCIO determined that a majority of the C&A
packages it reviewed follow the Department IT Security Policy Program and NIST guidance on risk management. The OIG reported
a satisfactory quality ranking in its FISMA evaluation of the Department’s C&A process.

The following include highlights of IT security accomplishments for FY 2009:

Cyber Security Assessment and Management (CSAM). The Department completed deployment of the Department of Justice’s
CSAM tool in order to standardize the C&A process and documentation, and to conduct compliance reviews. The Department is
leveraging this software to facilitate risk-based IT security management—balancing critical missions and safeguarding Agency
information resources. In FY 2009, the OCIO also conducted a pilot project to certify and accredit five systems utilizing CSAM.

IT Security Policy and Procedures. TBased on a comprehensive, bottom-up review conducted in FY 2008, the Department
updated its IT Security Program Policy and created a number of interim policies relating to such areas as the Federal Desktop
Core Configuration and continuous monitoring. Several other interim policies relating to foreign travel, mobile media, remote
access, and Bluetooth technology are now under review by stakeholders and will provide for a greater level of protection of the
Department’s information resources.

Trusted Internet Connection (TIC). OMB Memorandum M-08-05, Implementation of Trusted Internet Connections, was issued
to assist in protecting agencies from malicious cyber attacks. An intra-agency TIC technical working group was tasked with
developing an implementation plan for this initiative, which calls for directing all operating unit Internet traffic through one
of the Department’s authorized TIC access provider Internet portals. The majority of operating units will complete this action
by FY 2010; the Census Bureau and the National Oceanic and Atmospheric Administration (NOAA) will complete this action by
FY 2012 and FY 2014, respectively.

IT Security Training. As government networks come under increasing numbers of cyber attacks, the Department has identified
the need for enhancing its IT security workforce. In addition to the continuous effort of promoting general information security
awareness for all staff, the Department has undertaken an effort to increase the competencies and skills of its information
security workforce to aid in protecting its information and systems.




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      31
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




       Internal Control Review. The Department has conducted an internal control review for all of its operating units that combined
       FISMA and FMFIA requirements. The review assessed the effectiveness of IT security controls, configuration management, C&A, IT
       security training, and corrective actions. The review concluded that the operating units generally comply with federal regulations
       and Departmental IT policies. The achievements during FY 2009 have focused on deploying technologies such as the FISMA and
       CSAM tools, and continued building a strong and lasting IT security program.

       Continuous Monitoring. To achieve consistency and compliance with FISMA, the OCIO collaborated with the operating units
       and the OIG in developing a Department-wide IT security continuous monitoring policy and guidance. This policy identifies
       a minimum set of security controls for continuous monitoring of the Department’s information resources. The OIG reviews
       continuous monitoring activities to verify whether appropriate actions are taken.

       Cyber Security. The OCIO coordinates with the Federation of Computer Incident Response Teams (CIRT), the U.S. Computer
       Emergency Readiness Team (US-CERT) at the Department of Homeland Security, to receive timely security alerts and notifications.
       As a result of the collaboration, the Department developed plans to remediate and prevent potential threats and vulnerabilities
       relative to malicious cyber attacks against its network.

       Security Operations Center (SOC). The Department has established a SOC in the Office of the Secretary to safeguard information
       resources against malicious Internet attacks. The SOC is responsible for monitoring the organization’s computer components and
       the network infrastructure. It is responsible for securing the Department’s workstations, servers, and infrastructure, and notifying
       the CIRT when security incidents occur. This cooperation helps to ensure the Department’s essential functions continue regardless
       of the nature of any event or threat, provides situational awareness for the CIRT and SOC, and facilitates effective reporting to
       appropriate executives and external entities.

       Secure Domain Name System (DNS) Standard Deployment. OMB Memorandum M-08-23, Securing the Federal Government’s
       Domain Name System Infrastructure, requires agencies to deploy a secure DNS infrastructure. The Department conducted an
       assessment of its DNS infrastructure and devised a plan scheduled for full deployment by December 2009.

       Perimeter Protection, Critical Infrastructure, and Continuity of Operations

       The Department’s IT infrastructure is composed of a heterogeneous network of networks. To maintain a secure network
       environment, the Department utilizes a Defense-in-Depth strategy which addresses the need for layered security architecture
       where IT components are positioned within security layers with each layer having its own set of security requirements and security
       posture. The Department established CIRT to facilitate open communication between the various operating units. This channel
       of communication allows sharing of information regarding security incidents and current threats to the Department, and utilizes
       industry-standard tools to conduct forensic investigations, detect unauthorized and malicious network intrusions, analyze logs,
       and report security incidents. As security incidents occur, they are investigated, documented, and reported as appropriate. As
       discussed above, the Department’s SOC plays a key role in securing the organization’s IT resources.

       IT Investment Review Process

       Since IT expenditures constitute such a large portion of the Department’s annual budget, i.e.,approximately 20 percent, it is
       imperative that special management attention be given to proposed and continuing IT investments. This is accomplished through
       the Capital Planning and Investment Control Process, which continues to be strengthened to provide broader and deeper analysis
       of proposed investments, projects under development, and projects that are operational, as well as of the overall performance of
       the portfolio.




  32                                              F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                      M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




This process is based on OMB Circular A-11, Exhibit 300, Capital Asset Plan and Business Case Summary, and Exhibit 53, Agency IT
Investment Portfolio, and links to all Department IT planning processes and documents. In a collaborative effort with the Office
of Budget and the Office of Acquisition Management, the OCIO established Exhibit 300 as the documentation for summarizing
the business case for each IT project, and as the foundation for IT budget justifications, IT acquisition approvals, and major system
reviews. This provides the Department with a consistent foundation for monitoring the selection, control, and evaluation of major
IT investments, helping to ensure that proposed investments contribute to the Department’s strategic vision, mission requirements,
and performance goals. It also helps to ensure that the operating units employ sound IT investment methodologies, comply with
Departmental and federal architectures, and provide the highest return on the investment at acceptable project risk.

The OCIO has worked closely with the Office of Budget to establish a framework and schedule for linking the IT investment review
of proposed initiatives with the budget process. As initiatives are developed by operating units for submission to the Department,
those that have a significant IT component are reviewed by the OCIO. Major proposals are reviewed by the Department’s
Investment Review Board (IRB), which is co-chaired by the CIO and the Chief Financial Officer (CFO) and Assistant Secretary
for Administration, and includes the Department’s Budget Officer, Senior Procurement Executive, Director for Human Resources
Management, and representatives from selected operating unit. The IRB evaluates proposals relative to their contribution to
the mission; Agency performance measures; IT security and privacy management; risk management; acquisition strategy; the
viability and appropriateness of the IT solution, including conformance to Department and federal architectures; and overall
project management. Guidance for improving project proposals is provided by the IRB as appropriate. This process results in the
identification of IT investment initiatives that have sound IT management proposals. As a result of this extensive Departmental
review of IT investment proposals, all IT-intensive budget initiatives forwarded to OMB have the best possible IT management
plan associated with them.

The IRB continues to place emphasis on the link between proposed IT investments and top level program performance measures,
IT security and privacy, and the qualifications of the IT project managers and contracting officers who manage Department IT
programs. The IRB ensures that high quality C&A packages, which are critical to the confidentiality, integrity, and availability
of the Department’s IT investments, are in place. By ensuring that qualified managers are available for these programs, the risk
associated with large-scale IT investments is significantly reduced. The OCIO leads a continuing training process for IT project
managers, working together with the Office of Human Resources Management, to ensure that the Department has a pool of well-
qualified IT project managers to be assigned to new or continuing projects.

In the conduct of selection and control reviews, i.e., reviews that address new investments and those under development, The IRB
is supported by detailed analyses from Department staff in the OCIO, the Office of Budget, the Office of Acquisition Management,
and others who provide independent assessment of project status. Further, to provide even more rigorous analysis of cost,
schedule, and performance, the Department systematically uses Earned Value Management (EVM) data for IT investments under
development. This provides regular monitoring of the performance of Department projects and early warning of projects that may
not be meeting cost, schedule, or performance goals, allowing course corrections to bring the development effort back on track,
if needed. The EVM analysis has been supported by focused training sessions on EVM techniques. Additionally, operating unit
CIOs are required to conduct operational analyses to certify that steady-state investments meet cost, schedule, and performance
goals. Operating unit reviews of proposed and continuing projects are also supplemented with formal evaluation or post-
implementation reviews by the IRB. This approach helps ensure that all project managers can benefit from lessons learned from
other implementation efforts.




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                        33
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




       Privacy Impact Assessments (PIA)

       The Department is committed to ensuring that all information that it collects and maintains, relating to both individuals and
       businesses, is afforded proper privacy safeguards as defined in the Privacy Act of 1974, the E-Government Act of 2002, and
       relevant OMB memoranda. The Department’s CIO has been designated as the Department’s Senior Agency Official for Privacy,
       who works closely with the Privacy Act Officer, to ensure that the Department continues to protect all privileged-access personal
       and business information with which it is provided.

       The Department has developed an IT Privacy Policy to ensure that personally identifiable information (PII) stored in its IT systems
       is effectively protected and secured. Policy and guidance have been provided to the operating units on the preparation of Web
       privacy policies, PIAs have been conducted, and privacy policies and PIAs have been posted on Department Web sites that are
       visited by the public. PIAs are conducted to ensure that identifiable information is not collected, processed, or disseminated
       from or about members of the general public that is not needed and authorized. This same level of privacy protection is
       extended to business entities. The OIG has provided a favorable review of the Department’s PIA program and its validation of the
       implementation of Web privacy policies across the Department.

       As another step to ensure personal and other sensitive information is protected, all Department PIAs now include data extract
       log and verification procedures. This provision, which was incorporated in the Department’s IT Security Program Policy and
       Minimum Implementation Standards, requires that operating units “Log all computer-readable data extracts from databases
       holding sensitive information and verify each extract including sensitive data has been erased within 90 days or determine that
       its use is still required.” In FY 2009, the OCIO drafted and posted on the Internet a new policy, Electronic Transmission of PII, to
       better inform Department employees on how to handle sensitive PII electronically.

       Future Efforts

       The Department anticipates fully implementing the corrective action strategy to address the C&A weakness in FY 2010 and is
       actively pressing forward to respond to the demands of an ever changing IT security environment. It is mapping out its future
       goals in the implementation of TIC, increased operational security with the continued development of SOC, additional assessments
       of technical controls as part of the OCIO’s annual reviews of operating units, and deployment of role-based training in FY 2010.
       These measures will continue to strengthen the Department’s overall IT security posture and protection of its IT systems and
       information.

       Section 4 of FMFIA – Internal Controls over Financial Management Systems

       As reflected in the following table, the Department has reported no material weaknesses under FMFIA Section 4 in recent years.


                                        Number Of Material Weaknesses Under Section 4
                                                                                                                       Number
                                         Number At
                                                                     Number                                          Remaining At
                                        Beginning Of                                    Number Added
                                                                    Corrected                                        End Of Fiscal
                                         Fiscal Year
                                                                                                                         Year
                     Fy 2006                    0                         0                         0                        0
                     Fy 2007                    0                         0                         0                        0
                     Fy 2008                    0                         0                         0                        0
                     Fy 2009                    0                         0                         0                        0



  34                                                F Y   2 0 0 9   P E R F O R M A N C E   A N D       A C C O U N T A B I L I T Y   R E P O R T
                                                                       M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




Based on reviews conducted by the Department and its operating units for FY 2009, the financial systems in the Department are
compliant with GAO principles and standards, the requirements of the CFO Act, and OMB requirements


No material weaknesses relative to financial controls were identified for the period July 1, 2008 through June 30, 2009, the
reporting period established by the circular. Further, with limited review and inquiries, no material weaknesses related to internal
control over financial reporting were identified between July 1, 2009 and September 30, 2009.


Other Internal Control Enhancement Activities Continue

The Department’s comprehensive effort to enhance management of internal controls under OMB Circular A-123 continued during
FY 2009. Progress made in implementing Appendix A to the circular, which relates to financial internal controls, included the
following:

●●   The Department continued the OMB A-123, Appendix A process utilizing a three-year rotational testing plan to incorporate
     a risk-based approach based on assessments of the key processes and results of previous audits. Under this approach, high-
     risk cycles are selected for annual testing, and low to moderate-risk cycles are tested every three years with selected test
     procedures performed at specific locations or on specific sub-processes as often as needed based on specifically identified risks.
     A limited controls review assessment survey is utilized for cycles that are not tested in any given year.

●●   Department-wide testing templates were updated for selected key processes and sub-processes, and the Departmental sampling
     plan was modified to include four separate test phases, which included testing requirements for the American Recovery and
     Reinvestment Act (ARRA) of 2009. This work was carried out in coordination with the Department’s Senior Advisor for ARRA
     implementation, who was appointed by the Secretary to oversee the expenditure of funds received by the Department and
     operating units under ARRA. The Senior Advisor has worked collaboratively with operating unit and Departmental managers
     to ensure the timely and effective implementation of the Department’s ARRA responsibilities

●●   The Senior Management Council continued to oversee, direct, and implement the assessment process; and the Senior
     Assessment Team continued to develop planning documentation, administer internal control test plans, and monitor and
     review test work.

●●   Each operating unit completed an entity-level controls assessment as required by OMB Circular A-123, Appendix A.

●●   The Departmental A-123 Workpapers Guide was enhanced to include more in-depth guidance and instruction to the operating
     units in such areas as obtaining populations, sampling, and documenting workpapers. In addition, the guide provides sample
     templates to ensure consistency in workpaper standards and presentation throughout the Department.

●●   The overall effort was analyzed to assess and document the adequacy of the Department’s internal controls in order to develop
     the annual statement of assurance that appears above).

The Department also continued its focus on management of non-financial internal controls under the circular. Through the
Senior Assessment Team, the operating units were tasked with identifying and conducting assessments of programmatic and
administrative activities meriting review in FY 2009. A variety of programs and functions were assessed across the Department.




F Y   2 0 0 9    P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                          35
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




         F ederal F I N A N C I A L M A N A G E M E N T I M P R O V E M E N T A C T ( F F M I A ) O F 1 9 9 6




        U  
                   nder the Federal Financial Management Improvement Act (FFMIA) of 1996, the Department is required to have
                   financial management systems that comply with federal financial management system requirements, federal
                   accounting standards, and the U.S. Government Standard General Ledger (USSGL) at the transaction level. In
       FY 2009, the Department remained in compliance with FFMIA.


                                                 R E P O RT O N AU D I T F O L L OW- U P




        T  
                   he Inspector General Act, as amended, requires that the Secretary report to Congress on the final action taken
                   for Inspector General audits. This report covers the Department’s audit follow-up activities for the period
                   June 1, 2008, through May 31, 2009.


                                               Summary of Activity on Audit Reports
                                                 june 1, 2008 through May 31, 2009
                                                                                   Funds to be Put to                   Nonmonetary
                                        Disallowed Costs1                             Better Use2                         Reports3                  Total
                                  Number of                                  Number of                                     Number of
                                   Reports                Dollars             Reports               Dollars                 Reports               Reports
        Beginning Balance                40             $	 9,837,392                22            $	 40,643,667                   12                   74
        New Reports                      15                  1,850,750               5                   654,963                  16                   36
        Total Reports                    55                11,688,142               27                41,298,630                  28                  110
        Reports Closed                  (34)                (3,780,148)            (15)                (1,616,856)               (17)                  (66)
        Ending Balance                   21             $	 7,907,994                12            $	 39,681,774                   11                   44
        1.	 Disallowed costs are questioned costs that management has sustained or agreed should not be charged to the government.
        2. 	“Funds to be put to better use” refers to any management action to implement recommendations where funds should be applied to a more efficient use.
        3.	 Includes management, contract, grant, loan, and financial statement audits with nonmonetary recommendations.



                                                      BIENNIAL REVIEW OF FEES




        O  
                     MB Circular A-25, User Charges, requires the biennial review of agency programs to determine whether fees should be
                     charged for government goods or services, and to ascertain that existing charges are adjusted to reflect unanticipated
                     changes in costs or market values.

       The Department conducts a review of its programs biennially, with some bureaus conducting annual reviews. In the current
       review, it was noted that the Department, except for one bureau receiving an exemption from Circular A-25, is substantially in
       compliance with the requirement to adjust its fees to meet the Circular A-25 requirement of full-cost recovery for user charges.




  36                                                    F Y   2 0 0 9     P E R F O R M A N C E        A N D     A C C O U N T A B I L I T Y       R E P O R T
                                                                      M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




      A merican R ecov er y and R ein v estment Act ( A R R A ) O F 2 0 0 9 P rograms




I 
     n FY 2009, Congress passed ARRA, providing funds for several agencies including the following within the Department: OIG,
     Census Bureau, BIS, NOAA, NIST, and NTIA. The following section provides tables for each of the agencies that received
     funds. The tables include: program name, funding amount, brief description of what the funds are provided for, performance
measures/results, and comments if provided by the agencies.



   Bureau                                        Office of Inspector General (OIG)
 Program            Office of Inspector General

 Amount             $6.0M

                    These funds are for general oversight of the Department’s ARRA activity. Early OIG uses include emphasis
                    on training of grants and contract officers to alert them to the signs of potentially fraudulent or wasteful
 Description
                    activity by grantees or contractors. Other activities include review of various grant pre-award operations,
                    and an audit of the bureaus’ review of grant and contract recipient reporting.

                                                      Measures                                         FY 2009 Actual

                     Complaints - received                                                                         7

                     Whistleblower reprisal allegations:
                       ●● Received                                                                                 0
                        ●●   Accepted                                                                              0

                     Investigations:
                        ●● Closed without action                                                                   0
                        ●● Accepted for prosecution                                                                0
 Performance            ●● Prosecution denied                                                                      0
 Measures/              ●●   Referred for alternative resolution                                                   0
 Results
                     Audits/Inspections/Evaluations/Reviews:
                       ●● Final published work products                                                            2
                       ●● Interim published work products                                                          0
                       ●● Unpublished work products                                                                0

                     Training/Outreach:
                        ●● Training sessions provided                                                             82
                        ●● Individuals trained                                                                 3,067
                        ●● Hours of training provided                                                          4,429
                        ●● Outreach sessions conducted                                                             0




F Y   2 0 0 9   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                   37
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




         Bureau                          Economic Development Administration (EDA)
        Program         Economic Development Assistance Programs

        Amount          $150.0M

                        EDA funded 68 ARRA grants through its existing program structure in FY 2009. Consistent with the intent of
        Description     the act, EDA’s ARRA investments are primarily focused on infrastructure projects that will promote immediate
                        job growth and retention.

        Performance     In addition to assessing long-term program outcomes, EDA is leveraging the requirements of the act to
        Measures/       assess efficiency measures of ARRA grants. Additionally, EDA is tracking the number of FTEs created and
        Results         retained on a quarterly basis through the life of the project.

                        EDA is working closely with ARRA grantees to ensure full compliance with the requirements of the act.
                        EDA has held face-to-face meetings, conference calls, and Webinars to educate ARRA grantees on recipient
        Comments        reporting requirements and deadlines. Additionally, EDA is developing clarifying guidance on Buy American
                        to ensure compliance on these provisions of the act, and an ARRA post-approval compact disk (CD) is being
                        developed to organize all relevant ARRA guidance and forms for grantees.


         Bureau                                                   Census Bureau
        Program         Periodic Censuses and Programs

        Amount          $1,000.0M

                        To ensure a successful 2010 Decennial Census, the Census Bureau received $1 billion to hire new personnel
        Description     for partnership and outreach efforts to minority communities and hard-to-reach populations, increase
                        targeted media purchases, and ensure proper management of other operational and programmatic risks.

                        Of the $1 billion received, $102.1 million was planned for FY 2009, with the remaining amount planned
                        for FY 2010. FY 2009 activities include the creation of 2,027 partnership jobs to aid in outreach efforts,
                        especially in hard-to-count areas. Other planned actions include the start of targeted media purchases, and
                        the distribution of promotional items via Partnership Program staff.

                        For FY 2010, the Census Bureau ARRA plans include operations such as Group Quarters Enumeration (college
                        dormitories, military quarters, nursing homes, etc.), Update/Enumerate (an enumerator updates residential
                        addresses and conducts an interview of the resident(s) using a paper questionnaire), and an expansion of
        Performance     the Coverage Follow-up Operation (1,250 additional temporary telephone interviewers will be hired to re-
        Measures/
        Results         contact households to verify the information on the census form, make corrections as warranted, and obtain
                        any missing demographic information—based on specific criteria), to name a few.

                        Some of the other ARRA-funded activities for the 2010 Decennial Census include expanded media outreach
                        to hard-to-count communities as well as expanded outreach via the Census in Schools program and the 2010
                        Census Road Tour.

                        For more detailed information about the Census Bureau’s ARRA program plans, visit the following Web sites:
                        www.census.gov/recovery or www.recovery.gov.
                                                                                                                            (continued)




  38                                          F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                     M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




   Bureau                                              Census Bureau (continued)
                    As of July 2009, the Census Bureau exceeded the Partnership Program’s goal by hiring more than 2,200
                    Partnership Program staff for outreach activities.

                    The decennial census is used to provide the official population counts for determining the allocation to
                    states of seats in the U.S. House of Representatives and for determining how the boundaries of districts are
                    defined for those seats. Data collected from the 2010 Census provide comprehensive and useful demographic
 Comments           information about all people living in the United States, Puerto Rico, and the associated Island Areas. Federal
                    agencies need these data to better distribute resources. More than $400 billion a year is distributed to state,
                    local, and tribal governments using formulas that are based on data such as state population and personal
                    income.

                    The Census Bureau’s utilization of ARRA funding provides immediate and long-term benefits to the U.S.
                    public by ensuring that everyone is counted and that communities receive services to meet their needs.




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      39
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




         Bureau               National Oceanic and Atmospheric Administration (NOAA)
        Program         Operations, Research, and Facilities

        Amount          $230.0M

                        $40 million to reduce the critical hydrographic survey backlog by approximately 1,940 square nautical miles.
                        This funding will also support improved ingestion of significant increases of data so that nautical charts can
                        be updated faster.

                        $167 million for mid and large-scale restoration projects addressing coral reef conservation, restoring fish
                        habitats, and helping endangered species such as salmon and sea turtles. The projects will also contribute to
                        the improvement of coastal resiliency in response to sea level rise and natural hazards. NOAA will support
                        projects that will result in on-the-ground restoration of marine and coastal habitat (including Great Lakes
                        habitat) that are aligned with the objectives of the ARRA. Large-scale projects in combination with existing
                        conservation efforts will reduce and eliminate habitat threats (e.g., barriers to fish passage, sedimentation of
                        coral ecosystems, impaired flow of tidal waters) in prioritized areas. The funds augment non-ARRA funds by
                        adding both acres and stream miles to our existing performance measures.
        Description

                        $3 million to conduct any required environmental consultations associated with projects funded by the ARRA
                        and to address the current backlog of Endangered Species Act. More than 800 additional consultations are
                        expected to be conducted, which should in turn enable other economic activities and investments to move
                        forward. NOAA has established a goal of 100 percent completion of all consultations and 70 percent on-time
                        completion, a significant improvement over the current on-time completion rate.

                        $20 million for critical repairs and replacements to NOAA’s fleet of research and exploration vessels, specifically
                        major repairs for RAINIER and OREGON II, as well as accelerating the replacement of hydrographic survey
                        launches on RAINIER and FAIRWEATHER. Funding will make the ships more available for critical science
                        and ensure crew and scientist safety and welfare. These funds will be distributed via competitively awarded
                        contracts to the shipbuilding and repair industries.

                        Performance measures will be based on anticipated benefits noted above.
                                                                                                               FY 2009        FY 2009
                                                           Measures
                                                                                                               Target         Actual
        Performance       Reduce the hydrographic survey backlog within navigationally significant                  1,400          1,459
        Measures/         areas (square nautical miles surveyed per year)
        Results
                          Percentage of ARRA funds obligated                                                         90%             TBD

                          Percentage of consultations performed with ARRA funds completed on                         70%             TBD
                          schedule

                                                                                                                                (continued)




  40                                            F Y   2 0 0 9   P E R F O R M A N C E    A N D    A C C O U N T A B I L I T Y    R E P O R T
                                                                       M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




   Bureau           National Oceanic and Atmospheric Administration (NOAA) (continued)
 Program            Operations, Research, and Facilities (continued)

                    The second measure tracks the percentage of the $167 million ARRA funds for habitat restoration that has
                    been obligated. This measure is intended as an interim metric to track the obligation of the $167 million in
                    ARRA funds allocated for habitat restoration until targets for acres restored can be developed.

                    The RAINIER and OREGON II major repair periods will improve reliability resulting in a reduction of lost
                    operating days due to maintenance or failures by 20 percent within the first year of returning to service.
 Comments           The addition of the third and fourth survey launches aboard NOAA ship FAIRWEATHER will allow the ship to
                    decrease the cost per lineal nautical mile by 50 percent. In 2008, FAIRWEATHER accomplished 11 hours of
                    hydro survey data acquisition per days at sea. The addition of two new, more reliable survey launches should
                    allow the ship to accomplish 16 hours/days at sea (which is the same as RAINIER and THOMAS JEFFERSON in
                    2008), a 68 percent increase in hours of data acquisition/days at sea. Thus, (16 hours/days at sea)*(180 days
                    at sea)*(3 linear nautical miles/hour) = 8,640 linear nautical miles for approximately $7 million. This equates
                    to $813/linear nautical miles—down from $1,928/linear nautical miles in 2008.
 Program            Procurement, Acquisition, and Construction

 Amount             $600.0M

                    $170 million to accelerate and enhance NOAA’s High Performance Computing capabilities to directly improve
                    capabilities for weather and climate modeling and climate change research. NOAA will start two computing
                    systems in separate locations that will improve the accuracy of seasonal climate and global climate change
                    assessments. The two Hydrometeorological Prediction Center sites will create jobs in manufacturing,
                    construction, and software engineering. The ARRA also provides funding to improve the quality and access
                    to climate data records. The climate data records and climate information records provide scientifically
                    authoritative global climate reference sets, used by scientists to detect, assess, model, and predict climate
                    change. Decisionmakers use the records to devise strategies to respond, adapt, and mitigate the effects of
                    climate change.

                    $7.4 million to accelerate the Dual Polarization effort of the next generation Doppler weather radar system
                    that will allow signals to be transmitted and received in two dimensions, resulting in a significant improvement
                    in precipitation estimation; improved ability to discriminate rain, snow, and hail; and a general improvement
 Description
                    in data quality. The new system will improve flash flood warnings, improve precipitation estimates, and
                    severe weather detection, including snow storms and icing conditions for air and ground transportation.

                    $74 million to accelerate development of the National Polar-orbiting Operational Environmental Satellite
                    System (NPOESS) and climate sensors for these satellites. Funding will allow critical development activities
                    and mitigate both cost and schedule risk for this joint Department of Commerce-Department of Defense (DOD)
                    program. Funding will also be spent on developing instruments that monitor the Sun’s energy incident on the
                    Earth and the Earth’s radiation budget, both crucial measurements for monitoring factors that affect climate
                    change. The NPOESS system monitors the entire planet and provides data for long-range weather and climate
                    forecasts, thereby aiding in reducing the potential loss of human life and property by allowing more efficient
                    disaster planning and response to severe weather conditions. Citizens will benefit from the satellite’s data in
                    the areas of general aviation, agriculture, and maritime activities. NPOESS will permit the military to capitalize
                    on favorable weather conditions or avoid harsh weather conditions that could hinder maneuverability.




F Y   2 0 0 9   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                         41
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




         Bureau         National Oceanic and Atmospheric Administration (NOAA) (continued)
        Program         Procurement, Acquisition, and Construction (continued)

                        Facilities and Construction

                        $9 million to upgrade the NOAA Weather Forecast Offices in Barrow and Nome, AK, and repair a number of
                        other local weather offices around the country.

                        $142 million to complete construction of NOAA’s consolidated Pacific Regional Center on Ford Island in
                        Honolulu. This facility consolidates 12 locations in poor shape into one that will improve operations and
                        mission performance, and provide longer-term operational savings and opportunities for greater program
                        collaboration.

                        $102 million to complete the design, construction, and occupancy of the replacement NOAA Southwest
                        Fisheries Science Center in La Jolla, CA. Cliff erosion forced NOAA to abandon two of its four buildings and
                        move into temporary off-site leased facilities.
        Description
        (continued)     $9 million to continue the replacement of the at-risk Fairbanks Operations Building in Fairbanks, AK. This is
                        one of two NOAA satellite operations centers that control NOAA’s polar orbiting environmental satellites and
                        acquire their data. The U.S. Army Corp of Engineers identified the current building as at-risk due to extreme
                        temperatures and seismic activity in the area. The new facility will allow NOAA to support the NOAA polar-
                        orbiting satellites program through de-orbit of the last polar satellite in 2022, and support other ongoing
                        satellite missions through 2026.

                        $8.6 million to fund necessary facility maintenance and repairs to ensure the health and safety of NOAA
                        employees and to protect NOAA’s facility investments. This funding will support asbestos abatement at
                        the NOAA Geophysical Fluid Dynamic Laboratory in Princeton, NJ, repairs to the NOAA Fisheries Galveston
                        Laboratory in Texas, and priority repairs at other NOAA facilities.

                        $78 million to complete the construction of the sixth Fisheries Survey vessel that will support fisheries
                        surveys and related research along the West Coast and Eastern Tropical Pacific Ocean.
        Performance     Performance measures will be based on anticipated benefits noted above. Because of the timeframe of the
        Measures/       funding, NOAA does not yet have results as of September 30, 2009.
        Results

                        The objective of the ARRA-funded projects is to improve reliability of NOAA ships and launches in order to
                        accomplish scheduled science days at sea and increase linear nautical miles accomplished during hydrographic
                        surveys. NOAA will accelerate ship major repair periods for NOAA vessels OREGON II and RAINIER, reduce the
                        existing backlog of deferred maintenance on the NOAA fleet, and replace NOAA hydrographic survey launches
                        that are beyond their service life. The new launches will double the survey capacity of the FAIRWEATHER
                        and improve reliability of the survey launches. These launches will increase the ship’s overall productivity
        Comments
                        and reduce the cost per survey mile for FAIRWEATHER data acquisition. These projects will extend service
                        life, address issues of obsolescence, reduce potential for HAZMAT asbestos exposure to NOAA Wage Mariner
                        employees, and reduce the backlog of deferred maintenance work on the NOAA fleet. Reducing the backlog
                        will address the highest priority repair items whose likelihood of consequences will directly affect ships’
                        ability to meet mission requirements. NOAA anticipates that these projects will create work for small business
                        shipyards from New England to the Gulf Coast, West Coast, and Hawaii, and suppliers nationwide.


  42                                           F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                     M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




   Bureau                   National Institute of Standards and Technology (NIST)
 Program            Scientific and Technical Research and Services (STRS)

 Amount             $220.0M

                    The ARRA includes $220 million in STRS funding for “research, competitive grants, additional research
                    fellowships and advanced research and measurement equipment and supplies,” as stipulated in the
                    conference report to P.L. 111-5. The ARRA also provides for NIST $20 million from the Department of Health
                    and Human Services (HHS) for health information technology (IT) and $10 million from the Department of
                    Energy (DOE) for Smart Grid.

                    The following is a summary of the NIST activities funded in STRS appropriation by the ARRA: Advanced
                    Scientific Equipment ($108 million) to procure advanced research and measurement equipment to
                    strengthen its measurement, standards, and technology programs; Measurement Science and Engineering
                    Grants ($35 million) to conduct a competitive grants program to support research to advance NIST
                    measurements and standards research efforts; Postdoctoral Research Fellowships ($22 million) to expand
 Description        the NIST Postdoctoral Fellowship program to create up to 80 postdoctoral fellowships for recent Ph.D.s and
                    retain up to 35 NIST National Research Council (NRC) postdoctoral fellows through the end of FY 2010
                    following the end of their tenure; Measurement Science and Engineering Fellowship Program ($20 million)
                    to establish a program for awarding a grant to organizations, which may include but are not limited to
                    universities, non-for-profit research organizations, or scientific societies, who will provide fellowships for
                    scientists and engineers to work at NIST; Research Contracts ($15 million) to award competitive research
                    contracts to small businesses under the Small Business Innovation Research (SBIR) program to develop new
                    technologies supporting NIST’s measurement and research mission; IT Infrastructure Contracts ($9 million)
                    to competitively procure critical new information systems and components to improve its IT infrastructure;
                    and, Management and Oversight ($11 million) to support critical staff such as contracts specialists, grants
                    specialists, internal control specialists, and an ARRA Project Management Office to ensure that transparency,
                    monitoring and evaluation, and accountability responsibilities under ARRA are implemented and followed.

                    Use of NIST ARRA funding is targeted to have maximum impact on meeting the goals of the ARRA, including:
 Performance        creating jobs; promoting economic recovery; providing investments needed to increase economic efficiency
 Measures/          by spurring technological advances in science; and, making investments in areas of research that will provide
 Results
                    long-term economic benefits.

                                                                                                                      (continued)




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                     43
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




         Bureau         National Institute of Standards and Technology (NIST) (continued)

                                                                                                           FY 2009        FY 2009
                                                         Measures
                                                                                                           Target         Actual
                          Advanced Scientific Equipment:
                             ●● Dollars obligated                                                           $20,000K     $22,458.5K
                             ●● Number of equipment purchased                                                     15             17

                          Measurement Science and Engineering Grants program:
                            ●● Dollars obligated                                                              $0.00 K        $0.00 K
                            ●● Number of awards                                                                     0              0
                            ●● Number of patent applications (lagging/outyear measure)                              0              0
                            ●● Number of peer-reviewed technical publications (lagging/outyear                      0              0
        Performance            measure)
        Measures/
                            ●● Number of licenses (lagging/outyear measure)                                         0              0
        Results
        (continued)
                          Postdoctoral Fellowships:
                             ●● Number of Postdoctoral Fellows                                                     48             52
                             ●● Number of Postdoctoral Fellows retained after completion of tenure                 23             19

                          Measurement Science and Engineering Fellowship program:
                            ●● Dollars obligated                                                              $0.00K          $0.00K

                          Research Contracts:
                             ●● Dollars obligated                                                           $10,500K      $7,536.4K
                             ●● Number of contracts awarded (SBIR, Smart Grid, Cyber Security)                    34             33

                          Information Technology Infrastructure Contracts:
                             ●● Dollars obligated                                                            $9,000K      $7,588.5K

                        The measurements, standards, and technologies that are the essence of the work done by NIST’s laboratories
                        help U.S. industry and science to invent and manufacture superior products and to provide services
                        reliably. NIST’s programs are driven by six investment priority areas that address national priorities: Energy,
        Comments        Environment, Manufacturing, Health Care, Physical Infrastructure, and Information Technology. Funds
                        provided by the ARRA will enhance NIST’s efforts on the six investment priority areas by providing the
                        “tools” and knowledge base needed to make progress. Focus will be on the eight activities noted in the
                        earlier description section.

                                                                                                                             (continued)




  44                                           F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                      M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




   Bureau           National Institute of Standards and Technology (NIST) (continued)
 Program            Construction of Research Facilities

 Amount             $360.0M

                    The following is a summary of the NIST activities funded in the Construction of Research Facilities
                    appropriation by the ARRA.

                    NIST Construction Projects ($180.0 million): includes complete the funding of the Precision
                    Measurement Laboratory formerly known as the NIST Boulder Building 1 Extension ($43.5 million); enhance
                    the performance of the Precision Measurement Laboratory ($25.0 million); carry out energy-efficient Safety,
                    Capacity, Maintenance, and Major Repairs Program projects ($31.0 million); high-efficiency cooling system,
                    associated support infrastructure for the cooling system, and other support infrastructure for the NIST Center
                    for Neutron Research ($16.0 million); fund the design and construction of a National Structural Fire Resistance
                    Laboratory ($16.0 million); fund the design and construction of new time-code radio broadcast stations in
 Description        separate locations around the country ($15.0 million); relocation and consolidation of advanced robotics and
                    logistics operations from a decommissioned NIKE missile site to the NIST Gaithersburg site ($9.0 million);
                    fund the construction of a Liquid Helium Recovery System for the NIST Gaithersburg site ($5.0 million);
                    fund the construction of a Liquid Helium Recovery System for the NIST Boulder site ($2.5 million); design
                    and construct an Emergency Services Consolidated Facility in Gaithersburg ($7.0 million); a Net-Zero-
                    Energy Residential Test Facility at NIST Gaithersburg ($2.0 million); and in-house oversight and construction
                    management support of NIST construction projects ($8.0 million).

                    Competitive Construction Grants Program ($180.0 million): provides competitively awarded grants
                    to U.S. universities, colleges, and not-for-profit research organizations for research science buildings through
                    the construction of new buildings or expansion of existing buildings.
                                                                                                                        (continued)




F Y   2 0 0 9   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                       45
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




         Bureau         National Institute of Standards and Technology (NIST) (continued)
                        Use of NIST ARRA funding was targeted to have maximal impact on meeting the goals of ARRA, including
                        creating jobs, promoting economic recovery, providing investments needed to increase economic efficiency
                        by spurring technological advances in science, and making investments in areas of research that will provide
                        long-term economic benefits.
                                                                                                         FY 2009        FY 2009
                                                        Measures
                                                                                                         Target         Actual
                          NIST construction projects:
                             ●● Dollars obligated                                                         $26,300K     $10,956.1K
        Performance          ●● Number of facilities renovated                                                   0              0
        Measures/
                             ●● Number of facilities constructed                                                 0              0
        Results
                          Construction Grants (up to $60M):
                            ●● Dollars obligated                                                          $60,000K     $55,537.0K
                            ●● Number of grants awards                                                           5              4
                            ●● Number of research science facilities completed                                   0              0
                          Construction Grants (approximately $120M):
                            ●● Dollars obligated                                                             $0.00K         $0.00K
                            ●● Number of grants awarded                                                           0              0
                            ●● Number of research science facilities completed                                    0              0

                        The measurements, standards, and technologies that are the essence of the work done by NIST’s laboratories
                        help U.S. industry and science to invent and manufacture superior products and to provide services reliably.
                        NIST manages some of the world’s most specialized measurement facilities where cutting-edge research
                        is done in areas such as new and improved materials, advanced fuel cells, and biotechnology. Critically
        Comments        needed research facilities will help keep the Nation at the forefront of cutting-edge research and ensure
                        that U.S. industry has the tools it needs to continually improve products and services. The investment
                        now in these advanced research facilities will be recouped many times over in increased U.S. innovation, a
                        critical ingredient for improved productivity and job creation. The NIST construction projects will use green
                        technologies where possible, and will improve energy efficiency and environmental performance of NIST.




  46                                          F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                      M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                    National Telecommunications and Information Administration
   Bureau
                    (NTIA)
 Program            Broadband Technology Opportunities Program (BTOP)

 Amount             $4,700.0M

                    BTOP will provide grant support to enable consumers in unserved and underserved areas of the United States
 Description
                    to access broadband services.

                    Current and planned performance measures include:
 Performance
 Measures/             Award contract for grants program support  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6-30-2009
 Results               Initial grant awards made . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  12-31-2009
                       All awards to be made . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9-30-2010

                    BTOP provides grants to support the deployment of broadband infrastructure in unserved and underserved
                    areas, to enhance broadband capacity at public computer centers, and to encourage sustainable adoption of
 Comments
                    broadband service. Through this support, BTOP will also advance the ARRA’s objectives to spur job creation
                    and stimulate long-term economic growth and opportunity.
 Program            Digital-To-Analog Converter Box Program

 Amount             $650.0M

                    The TV Converter Box Coupon Program provides up to two coupons valued at $40 each for requesting
 Description
                    households to purchase converter boxes to continue receiving over-the-air broadcasts.

                    Current and planned performance measures include:
 Performance
 Measures/             90 percent of coupon requests mailed within six business days . . . . . . . . . . . . . . . . . . . . . . Met
 Results               100 percent of coupon requests from over-the-air households prioritized . . . . . . . . . . . . . Met
                          for processing

                    Enactment of the DTV Delay Act and the ARRA provided NTIA with the time and funds needed to meet the
 Comments           high demand for coupons experienced in late 2008 and early 2009, as well as to implement other important
                    programmatic reforms. Up to 12.25 million additional coupons will be funded through the ARRA.




F Y   2 0 0 9   P E R F O R M A N C E         A N D      A C C O U N T A B I L I T Y              R E P O R T
                                                                                                                                                                   47
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                                 H igh R is k I ssue / 2 0 1 0 D E C E N N I A L C ensus




         
       A
                   utomation problems and uncertain costs and plans may jeopardize the success of the 2010 Decennial Census, and warrant
                   immediate attention. The decennial census is a Constitutionally-mandated activity that produces critical data used to
                   apportion Congressional seats and to allocate over $200 billion in federal assistance each year.

       Goal

       Strengthen management and oversight, and reduce risks for the 2010 Decennial Census.

       Challenges/Actions

       ●●   Develop an integrated and comprehensive plan to control costs and manage operations

            ◆◆ Continue to improve management practices and communications (both internal and external).

            ◆◆ Continue to manage the schedule with weekly analysis of the activities and milestones contained in the integrated project
               schedule.

       ●●   Strengthen risk management activities and systems testing

            ◆◆ Continue to develop mitigation and contingency plans to accompany the risk management plan.

            ◆◆ Continue to review and update the risk register and ensure ongoing involvement of senior management in risk review.

            ◆◆ Continue development of detailed testing plans, including gap analysis.

            ◆◆ Implement and monitor system testing across the 2010 Decennial Census program.

       ●●   Improve management of the Field Data Collection Automation (FDCA) effort

            ◆◆ Conduct and monitor extensive testing, including coding and unit testing, field testing, production integration testing,
               and operational readiness testing (by the Census Bureau and contractors).

            ◆◆ Successfully completed Address Canvassing ahead of schedule, using automated handheld computers supplied
               by the FDCA contractor.

            ◆◆ Continue to oversee deployment, by the FDCA contractor, of equipment and systems to the local census offices.




  48                                               F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                     M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                ECONOMIC AND FINANCIAL UNCERTAINTY AT USPTO




  
T
         he financial challenge that began last year in the United States has created issues for USPTO as the world economy has
         fallen into a recession. USPTO derives its budgetary resources from user fees and the recent economic downturn impacted
         patent and trademark operations and revealed vulnerability in the method for financing the Agency. The downturn in
patent allowance, maintenance, and application fees stems directly from the financial constraints that even the Nation’s most
innovative companies face.

Patent and Trademark application filings, which historically increase year after year, declined between FY 2008 and FY 2009.
Filing forecasts were lowered in expectation that the downturn in the economy would impact filings and revenues—specifically as
they relate to the gross domestic product (GDP) and financial indicators such as venture capital. Continued uncertainty exists for
the next two to three years in planning and managing staffing and budget requests that are supported by fee revenues, especially
if current fee rates remain unchanged. USPTO sought legislation to enable it to temporarily use Trademark unobligated balances
through June 2010 to forestall the need for a furlough.




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                     49
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




  50                                         F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
P e r fo r m a n ce
    S ec t i o n
                    Introduction to the Performance Section




 I  
       n fiscal year (FY) 2009, the Department accomplished its mission through three strategic goals and an overarching
       management integration goal that articulate long-term goals, as well as performance outcomes and objectives that
       represent shorter-term outcomes and priorities. Performance outcomes include specific targets designed to achieve specific
performance results within a given fiscal year.

The Performance Section of the report comprises subsections for each of the strategic goals and is organized in the following
manner:


   Subsection                       Purpose
   Strategic Goal                   Overall summary of the strategic goal.

   Strategic Objective              Overall summary of outcomes, program obligations, and performance outcomes that
                                    fall under each objective. The information contained in the objective provides the
                                    performance outcomes and the activities associated with them.

   Performance Outcome              Performance Outcome Description, Achievements, and selected Program Evaluations.
                                    The information contained in each performance outcome is designed to provide the
                                    reader with the overall achievements of the performance outcome.


Within each strategic goal section there are summary charts that provide the historical trend data for financial obligations
and full-time equivalents (FTE) resources, and overall performance results. At the beginning of each strategic goal section and
each objective section is a table summarizing the performance outcomes. In the description of each performance outcome is a
performance table (with shaded status cells) that shows the status of the performance measures associated with that outcome:
exceeded (more than 125 percent of target), met (100-124 percent), slightly below target (95-99 percent) and not met (below
95 percent of target). Status cells for exceeded measures are shaded blue; met, green; slightly below, yellow; and not met, red. In
addition, a new category, “improved, but not met,” was added in FY 2008. Status cells for this category are shaded orange, with
this category applying to any year in which the actuals for the given year are better than the previous year, but the target still
was not met. All dollar amounts shown are in millions, unless otherwise indicated.

Historical details on each performance result are located in Appendix A, which provides individual measurement results.

Note that the FY 2009 targets were developed prior to having the FY 2008 actuals. Often the FY 2009 targets were made based
on prior year trends. Therefore, in some cases it may be that the FY 2008 actuals exceed the FY 2009 targets, especially if they
exceeded the original FY 2008 targets.

“Strategies, Plans, and Challenges for the Future” are no longer included in the Performance Section since they are more forward
in nature as opposed to this Performance and Accountability Report (PAR) which reports on FY 2009 performance. Strategies,
Plans, and Challenges for the Future are included in the Annual Performance Plans of the bureaus (part of the Budget Submission)
and the Departmental Strategic Plan.
P e r f o r m a n c e   S e c t i o n




          S t r at eg i c
            G oa l 1
                                                                                           targets met
                          P ERFORMANCE o u t c o m e                                       or exceeded
Promote private investment and job creation in economically distressed communities
                                                                                              5 of 6
(EDA)
Improve community capacity to achieve and sustain economic growth (EDA)                       2 of 6
Strengthen U.S. competitiveness in domestic and international markets (ITA)                   3 of 4
Broaden and deepen U.S. exporter base (ITA)                                                   4 of 5
Increase access to the marketplace and financing for minority-owned businesses (MBDA)         4 of 5
Identify and resolve unfair trade practices (ITA)                                             4 of 5

Maintain and strengthen an adaptable and effective U.S. export control and treaty
                                                                                              7 of 7
compliance system (BIS)
Integrate non-U.S. actors to create a more effective global export control and treaty
                                                                                              0 of 1
compliance system (BIS)
Ensure continued U.S. technology leadership in industries that are essential to national
                                                                                              1 of 1
security (BIS)
Provide benchmark measures of the U.S. population, economy, and governments
                                                                                              2 of 3
(ESA/CENSUS)
Provide current measures of the U.S. population, economy, and governments
                                                                                              2 of 2
(ESA/CENSUS)
Provide timely, relevant, and accurate economic statistics (ESA/BEA)                          5 of 6
Increase the productivity, profitability, and competitiveness of manufacturers (NIST)         4 of 4
                                                                    P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




                                                S TRATEG I C GOA L 1

Maximize U.S. competitiveness and enable economic growth for American industries, workers,
and consumers




      P u b li c B e n e f i t s a n d
    Summary of Performance




 T 
            he Department is committed to opening and
            expanding foreign markets for U.S. goods and
            services and improving the Nation’s export
performance. The International Trade Administration (ITA)
promotes U.S. export growth through the implementation
of the Trade Promotion Coordinating Committee’s (TPCC)
National Export Strategy, ensuring that policies and priorities
are consistent with national security and U.S. foreign policy
objectives. The Department enhances cooperation with its
partnership organizations so that U.S. businesses can benefit
from global business through free market trade negotiations
and through identified priority markets. The Department
continues to focus on fostering a level playing field for
U.S. firms through development of trade policy positions,
advancement of negotiating positions, and through effective
execution of U.S. trade laws intended to curb and combat
predatory trading practices.

F Y   2 0 0 9   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                              55
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




       The Bureau of Industry and Security (BIS) ensures that export controls do not unduly disadvantage U.S. firms in world markets
       by eliminating outdated controls and streamlining the process for obtaining export licenses for products that remain under
       export controls. These continual improvements are being made while being mindful of the dual-use nature of some commercial
       technologies and the national security implications of those technologies.

       The Economics and Statistics Administration (ESA), composed of the Census Bureau and the Bureau of Economic Analysis (BEA),
       provides decisionmakers with timely, relevant, and accurate economic and statistical information related to the U.S. economy and
       population with the Department at the forefront of national efforts to continually improve these statistics.

       In support of disadvantaged individuals and communities, the Economic Development Administration (EDA) promotes private
       enterprise and job creation in economically distressed communities and regions by investing in projects that produce jobs and
       generate private capital investment. Likewise, the Minority Business Development Agency (MBDA) promotes private enterprise
       and investment within minority communities.

       In support of manufacturing against a backdrop of coping with accelerating technological change and global competition,
       the National Institute of Standards and Technology (NIST), through the Hollings Manufacturing Extension Partnership (MEP)
       program’s nationwide network of manufacturing centers, helps firms adopt new and advanced manufacturing and management
       technologies and innovative business practices to position them to compete in the global economy.

       Overall performance within this goal has been fairly strong, meeting or exceeding targets on average 86 percent of the time from
       FY 2002 to FY 2009. Performance improved from FY 2002 to FY 2009 with 74 percent of targets met or exceeded in FY 2002 to
       78 percent met or exceeded in FY 2009.




  56                                            F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




                                         Strategic Objective 1.1

Foster domestic economic development as well as export opportunities




      P u b li c B e n e f i t s a n d
    Summary of Performance




 T 
            his objective focuses on increasing private
            enterprise and job creation in economically
            distressed communities and regions, improving
community capacity to achieve and sustain economic growth,
increasing trade opportunities for U.S. firms to advance U.S.
international commercial and strategic interests, expanding
the U.S. exporter base, improving the U.S. competitive
advantage through global e-commerce, and increasing
opportunities and access for minority-owned businesses to the
marketplace and financing. EDA, ITA, and MBDA all support
this objective. Overall performance within this objective has
been fairly strong, meeting or exceeding targets on average
83 percent of the time from FY 2002 to FY 2009. Performance
improved slightly from FY 2002 to FY 2009 with 64 percent
of targets met or exceeded in FY 2002 to 69 percent met or
exceeded in FY 2009.




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                             57
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




          Performance Outcome: Promote private investment and job creation in economically distressed
          communities (EDA)
          FY 2009 Funding Level                                                                                            $203.9M


       EDA tracks the amount of private investment generated and jobs created or retained as a result of EDA investments at three,
       six, and nine-year intervals. Preliminary data collected through the Government Performance and Results Act (GPRA) process
       for investments made in FY 2000, FY 2003, and FY 2006 indicate that these EDA investments have helped generate more than
       $3.5 billion in private sector investment and create and retain 79,536 jobs.

       The following table shows the targets and actuals for the amount of private investment generated and jobs created or retained
       for funding provided in FY 2000, FY 2003, and FY 2006.


                            Performance Measure                                    Target                 Actual               Status
        EDA FY 2000 Funding
        Private investment leveraged – 9 year totals (in millions)                 $2,040                 $2,210                 Met

        Jobs created/retained – 9 year totals                                      56,500                 45,866               Not Met

        EDA FY 2003 Funding
        Private investment leveraged – 6 year totals (in millions)                  $810                   $855                  Met

        Jobs created/retained – 6 year totals                                      22,900                 24,533                 Met

        EDA FY 2006 Funding
        Private investment leveraged – 3 year totals (in millions)                  $265                   $484                Exceeded

        Jobs created/retained – 3 year totals                                       7,019                  9,137               Exceeded




       FY 2 0 0 9 Miss e d T a r g e t s

          Measure        Jobs created/retained – 9 year totals
                         The low jobs created/retained figure appears to be an anomaly for this year. EDA met the 3-year and
                         6-year targets for these investments, in addition to meeting this year’s private-investment-leveraged
        Explanation      target, indicating that this target was possibly missed for reasons outside of EDA’s control. More
                         information as to why EDA did not meet this target will not be available until EDA conducts a review
                         of investments made in the year 2000 to determine possible causes.
                         EDA will conduct a review of investments made in the year 2000 and apply any lessons learned to
        Action
                         its review and approval of future investments.



       His t o r i c a l T r e n d s

       EDA consistently exceeds its 3-year targets for private investment leveraged and jobs created/retained. These targets are currently
       equal to 20 percent of the 9 year targets set for EDA investments. Future targets could possibly be set higher.




  58                                             F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                    P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




Achievements

A series of EDA planning and implementation investments are assisting the development of North Dakota State University’s
Research and Technology Park in Fargo, ND. The park hosts a wide range of innovative firms. In the incubator, Appareo Systems
develops solutions that build on innovation in augmented reality and advanced electronics. Pedigree Technologies is a leader in
the field of intelligent asset management systems that enable organizations to deliver remote, real-time product performance
information, and post-sale support for serviceable machinery and equipment worldwide. The park also hosts the North Dakota
State University’s Center for Nanoscale Science and Engineering where 70 scientists, engineers, and support staff work in an
environment that brings entrepreneurs and university researchers together to create globally competitive products and companies.
The research park provides competitive positions and business opportunities that are stemming the exodus of young, educated
people from the state.

In Flint, MI, EDA’s investments are helping Kettering University’s Fuel Cell Systems and Powertrain Integration Center build on
the university’s research and engineering assets to develop new products and services in the alternative energy market. The EDA
investment is an example of federal-state-academic partnership; EDA’s funds were matched by the state and Kettering University.
The center is incubating three fuel-cell companies and is developing an agreement to commercially license technology developed
in the center.



  Performance Outcome: Improve community capacity to achieve and sustain economic growth
  (EDA)
   FY 2009 Funding Level                                                                                                 $75.0M


EDA continues to build upon partnerships with local development officials: economic development districts (EDD); University
Centers; faith-based and community-based organizations; and local, state, and federal agencies. Through these partnerships, EDA
supports local planning and long-term partnerships with state and regional organizations that can assist distressed communities
with strategic planning and investment activities. This process helps communities set priorities, determine the viability of projects,
and leverage outside resources to improve the local economy to sustain long-term economic growth. EDD funding supports local
officials to develop or revise and implement their comprehensive economic development strategy (CEDS). The CEDS is a long-term
strategic plan for the economic growth of the region, and communities therein, that identifies projects that will attract private
investment, and create and retain higher-skill, higher-wage jobs, particularly for the unemployed and underemployed in the
Nation’s most economically distressed regions. EDA’s 11 Trade Adjustment Assistance Centers (TAAC) provide technical assistance
to manufacturers and producers that have lost employment, sales, or production due to increased imports of competitive goods.
The goal of the technical assistance is to assist these U.S. companies to become more competitive in the global economy.




F Y   2 0 0 9   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                         59
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




                            Performance Measure                                    Target                 Actual               Status
        Percentage of economic development districts (EDD) and
        Indian tribes implementing economic development projects
                                                                                    95%                    93%             Slightly Below
        from the comprehensive economic development strategy
        (CEDS) that lead to private investment and jobs
        Percentage of sub-state jurisdiction members actively
        participating in the economic development district (EDD)                  89-93%                   92%                  Met
        program
        Percentage of University Center clients taking action as a
                                                                                    75%                    70%                 Not Met
        result of the assistance facilitated by the University Center
        Percentage of those actions taken by University Center clients
                                                                                    80%                    92%                  Met
        that achieved the expected results
        Percentage of Trade Adjustment Assistance Center (TAAC)
        clients taking action as a result of the assistance facilitated by          90%                    88%             Slightly Below
        the TAACs
        Percentage of those actions taken by Trade Adjustment
                                                                                    95%                    93%             Slightly Below
        Assistance Center clients that achieved the expected results



       FY 2 0 0 9 Miss e d T a r g e t s

          Measure       Percentage of EDDs and Indian tribes implementing economic development projects from the CEDS
                        that lead to private investment and jobs
                        The performance target was set at an approximate target level, and the deviation from that level is
        Explanation
                        slight. There was no effect on the overall program or activity performance.
        Action          See above. No remedial action taken.
          Measure       Percentage of University Center clients taking action as a result of the assistance facilitated by
                        the University Center
                        The annual target for University Center clients taking action as a result of the assistance facilitated
                        by the University Center were impacted by four University Centers who each served more than four
        Explanation     times the average number of clients served by other University Centers. Though these centers did not
                        successfully get the same percentage of clients to take action, they did get significantly more clients
                        to take action than other centers.
                        EDA will work with these University Centers to determine if they need additional assistance to help
        Action
                        them with the higher volume of clients coming to their centers.
          Measure       Percentage of TAAC clients taking action as a result of the assistance facilitated by the TAACs
                        The performance target was set at an approximate target level, and the deviation from that level is
        Explanation
                        slight. There was no effect on the overall program or activity performance.
        Action          See above. No remedial action taken.
          Measure       Percentage of those actions taken by TAAC clients that achieved expected results
                        The performance target was set at an approximate target level, and the deviation from that level is
        Explanation
                        slight. There was no effect on the overall program or activity performance.
        Action          See above. No remedial action taken.




  60                                             F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




His t o r i c a l T r e n d s

Over several years, EDA has consistently met the targets for these measures.



Achievements

Confronted with a significant decline in its traditional manufacturing and commodity-based industries over past decades, Maine’s
Governor Baldacci turned to the six EDA EDDs to facilitate and coordinate the state’s response. Governor Baldacci believes
that their leadership will “enable our distinctive regions to be proactive and to prepare and execute their own comprehensive
development activities” and build a strong, growing, and sustainable knowledge-based economy for all of Maine.



  Performance Outcome: Strengthen U.S. competitiveness in domestic and international markets
  (ITA)
   FY 2009 Funding Level                                                                                           $51.7M


ITA’s Manufacturing and Services (MAS) program provides the Administration, Congress, and U.S. businesses the data
and analysis needed to make informed decisions on issues impinging on U.S. competitiveness and employment. The data
program is especially valuable to policymakers who require trade information at sub-national (state and metropolitan) and
the small and medium exporters levels. By making these unique data sources available online to both the public and private
sectors through user-friendly systems, MAS is also a key contributor to the Administration’s data accessibility initiative.
Information is power and MAS’s data program continually strives to empower those interested in issues affecting U.S.
business competitiveness in the ever-changing global market.

To be competitive in today’s global economy, U.S. companies need to be able to move products and services securely, quickly,
and efficiently within U.S. borders and beyond. MAS launched a national dialogue to explore supply chain infrastructure
issues that cut across the broad range of national priorities. MAS is framing the issues and prioritizing what needs to be
done to improve U.S. competitiveness, especially through developing a national intermodal/freight policy. The goal is to
achieve a faster, safer, more environmentally sound, more efficient national intermodal network that will meet the needs
of the Nation in the 21st century.

                      Performance Measure                                     Target             Actual             Status
 Annual cost savings resulting from the adoption of
 Manufacturing and Services (MAS) recommendations                             $350M              $552M              Exceeded
 contained in MAS studies and analysis
 Percent of industry-specific trade barriers addressed that were
                                                                               20%                30%               Exceeded
 removed or prevented
 Percent of industry-specific trade barrier milestones
                                                                               55%                72%               Exceeded
 completed
 Percent of agreement milestones completed                                    100%                23%                Not Met




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                   61
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




       FY 2 0 0 9 Miss e d T a r g e t s

          Measure        Percent of agreement milestones completed
                         MAS has completed fewer milestones due to external factors, which have placed a decreased
        Explanation
                         emphasis on eliminating trade barriers.
        Action           To be determined.



       Achievements

       The MAS program expanded its key initiative on sustainable manufacturing to include sustainable supply chains. Sustainable
       manufacturing practices and supply chains, including energy sources, transportation, and components, have become increasingly
       important as companies look for ways to reduce operational costs while limiting greenhouse gas emissions and changing behaviors
       that negatively impact the environment. As the trend toward sustainable practices grows, so does its implications for U.S. global
       competitiveness and firm profitability.

       In order to provide effective support to U.S. companies in their sustainable manufacturing and supply chain efforts, MAS expanded
       a Sustainable Manufacturing Initiative and Public-Private Dialogue that coordinates public and private sector efforts to address
       these challenges and provides tools for U.S. companies to identify and adopt sustainable and competitive practices.

       MAS is focused on identifying domestic and export opportunities in the clean energy technology sector (smart grid, renewable,
       nuclear, clean coal). New more sustainable and efficient technologies will have a significant impact on the100-year-old system by
       which energy is produced, transmitted, and consumed in the United States. Also there will be increasing export opportunities for
       U.S. technologies as other countries shift to greater reliance on clean energy. MAS is also examining the impact of various climate
       change policy options on energy-intensive, export-exposed industries. MAS is uniquely positioned to act as a clearinghouse for
       U.S. industry input into climate change policy and international negotiations.



         Performance Outcome: Broaden and deepen U.S. exporter base (ITA)
          FY 2009 Funding Level                                                                                               $286.0M


       The health of the U.S. economy depends on U.S. small and medium-sized enterprises (SME). ITA continues to focus on this base
       because 97 percent of all U.S. exporters are SMEs. Many of these firms have also been successful in doing business in countries
       that have recently negotiated free trade agreements (FTA) with the United States. The Commercial Service program seeks to
       create a supporting environment in which all U.S. firms, including SMEs, can flourish. In order to achieve this, the Commercial
       Service seeks to increase export opportunity awareness among U.S. companies by identifying potential exporters who need
       assistance; leveraging electronic and traditional media; enhancing relationships with customers; and developing alliances and
       partnerships with state, local, and private partners to deliver export assistance. The Commercial Service helps U.S. companies
       take advantage of world market conditions to find new buyers around the world. A growing list of FTAs provides price and market
       access benefits. ITA offers four ways to help U.S. firms grow their international sales by: (1) providing world-class market research,
       (2) organizing trade events that promote products or services to qualified overseas buyers, (3) arranging introduction to qualified
       buyers and distributors, and (4) offering counseling through every step of the export process.




  62                                              F Y   2 0 0 9   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                     P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




                      Performance Measure                                      Target                  Actual              Status
 Export success firms/active client firms (annual)                             10.50%                  23.3%              Exceeded

 US&FCS small and medium-sized enterprises (SME) new-
                                                                               12.37%                 15.22%              Exceeded
 to-export (NTE)/total change in SME exporters (annual)
 Number of SME new-to-market (NTM) firms/number of
                                                                               3.81%                   3.49%               Not Met
 SME firms exporting to two to nine markets (annual)
 Commercial diplomacy success (cases) (annual)                                  162                     196                  Met

 Increase in the percent of small and medium-sized firms
                                                                               2.75%                   4.69%              Exceeded
 that export



FY 2 0 0 9 Miss e d T a r g e t s

   Measure        Number of SME NTM firms/number of SME firms exporting to two to nine foreign markets
                  Performance was close to the target. The global economic recession—credit crisis, market contractions,
                  increased foreign competition for fewer opportunities—depressed NTM export opportunities. The
 Explanation
                  Commercial Service increased the number of SME NTM firms by 31 percent (2,197 to 2,870)
                  compared to FY 2008 even though the Commercial Service was not able to reach its target.
 Action           To be determined.



Achievements

The U.S. and Foreign Commercial Service (US&FCS) continues to help U.S businesses maximize their export potential, enabling
them to diversify their customer base, remain globally competitive, and maintain jobs for Americans. In 2009, US&FCS helped
generate over 11,000 export successes worth billions of dollars in U.S. export sales, including firms that exported for the first time,
entered a new market, or increased their market share in an existing market.

The focus of the US&FCS is on small businesses and so it continued its efforts to work with corporate and non-profit export
promotion organizations to leverage more support for small business exporting. In 2009, US&FCS increased the number of
corporate partners from 12 in 2008 to 19 in 2009, including AON Consulting, FITA Online, Gartner, Lufthansa, REED Exhibitions,
ThinkGlobal Inc., Trade Center Management Associates, and TÜVRheinland. These partners join US&FCS’s ongoing partnerships
with Baker & McKenzie, City National Bank, Comerica Incorporated, Federal Express Corporation, Google, Inc., M&T Bank, PNC
Bank, TD Bank, United Parcel Service, Inc., U.S. Postal Service, and Zions First National Bank.




F Y   2 0 0 9   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                          63
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




         Performance Outcome: Increase access to the marketplace and financing for minority-owned
         businesses (MBDA)
          FY 2009 Funding Level                                                                                                 $29.8M


       MBDA’s strategic programs and management objectives have been aligned to successfully execute its tasks and assignments.
       A large measure of its continued success has been a result of the performance of its national network of funded projects and the
       support provided by its regional staff.


                             Performance Measure                                    Target                 Actual               Status
        Dollar value of contract awards obtained (billions)                         $0.90                   $2.11               Exceeded

        Dollar value of financial awards obtained (billions)                        $0.50                   $0.81               Exceeded

        Number of new job opportunities created                                     3,000                   3,024                 Met

        Percent increase in client gross receipts                                    6.0%                   6.0%                  Met

        Satisfaction rating for the American Customer Satisfaction
                                                                                     75%                     67%                Not Met
        Index (ACSI)



       FY 2 0 0 9 Miss e d T a r g e t s

          Measure        Satisfaction rating for the American Customer Satisfaction Index (ACSI)
        Explanation      The ACSI survey occurs every other year.
                         MBDA is working with its federal partner, the Federal Consulting Group, to focus efforts on improved
        Action           customer satisfaction. Specific focus will be paid to electronic tools; however, ratings associated
                         with centers and direct client services were over 75 percent.



       His t o r i c a l T r e n d s

       Over several years, MBDA has consistently met or exceeded the targets for the “Number of new job opportunities created”
       measure. Historically, the targets appear to be stable or aggressive.



       Achievements

       During the past year, MBDA was focused on ensuring minority business enterprises (MBE) had access to opportunities associated
       with the American Recovery and Reinvestment Act (ARRA) of 2009. MBDA immediately directed resources toward this effort and
       ensured that its funded network of centers and regional offices were working to assist MBEs in obtaining ARRA contracts. These
       entities met with state and local officials to discuss potential projects and matches with qualified and skilled MBEs in their area.
       MBDA also actively engaged with other Department bureaus and federal agencies, including Office of Small and Disadvantaged
       Business Utilization representatives to identify and potentially match ARRA opportunities with MBEs.




  64                                              F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                                         P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




                                                          Strategic Objective 1.2

Advance responsible economic growth and trade while protecting American security
                S T R AT E G I C O B J E C T I V E 1 . 2 TOTA L R E S O U R C E S
                S T R AT E G I C O B J E C T I V E 1 . 2 TOTA L R E S O U R C E S
                                  Fiscal Dollars                                                                                    FTE1 Resources
                               (Dollars in Millions)
                                 Fiscal Dollars                                                                                     FTE1 Resources
                               (Dollars in Millions)
                                                                                                                                    975    998       986
                                                                                                                     929    940                                 910                  914
                                                   $204.1   $197.8     $198.7   $208.2                                                                                     841
                                          $192.6                                                                                           998
                                                                                                                            940     975              986
             $157.4   $164.9     $168.5                                                                              929                                       910                   914
                                                   $204.1   $197.8     $198.7   $208.2                                                                                    841
                                          $192.6
             $157.4   $164.9    $168.5




                                                                                                                 2002      2003    2004   2005   2006          2007       2008       2009
             2002     2003       2004     2005     2006     2007       2008     2009                                                      Fiscal Year
                                                                                                                 2002      2003    2004   2005   2006          2007       2008       2009
             2002     2003      2004      Fiscal
                                          2005 Year
                                                 2006       2007       2008     2009      1
                                                                                              FTE—Full-Time Equivalent                    Fiscal Year
                                          Fiscal Year                                     1
                                                                                              FTE—Full-Time Equivalent




        P u b li c B e n e f i t s a n d                                                               S T R AT E G I C O B J E C T I V E 1 . 2
      Summary of Performance                                                                           S TPRE A
                                                                                                              R TF EOGRIM
                                                                                                                        C AO
                                                                                                                           N BCJEE CR TE ISVUEL T1S. 2
                                                                                                              P E R F O R M A N C E R E S U LT S


 S 
         upported by ITA and BIS, this objective focuses on
         the following tasks:
                                                                                                           Results
                                                                                                          of of
                                                                                                        Results
                                                                                                     Number
                                                                                                  Reported




     Ensuring fair competition in international trade;
                                                                                                  Number




●●
                                                                                               Reported




●●   Advancing U.S. national security and economic
     interests by enhancing the efficiency of the export
     control system;                                                                                                        2002 2003 2004 2005 2006 2007 2008 2009
                                                                                                  Exceeded                    4 2003
                                                                                                                            2002  6 2004
                                                                                                                                      4 2005
                                                                                                                                          5 2006
                                                                                                                                              4 2007
                                                                                                                                                  4 2008
                                                                                                                                                      4 2009
                                                                                                                                                          5
●●   Preventing illegal exports;
                                                                                                  Met                         6      5    6      7         7          8          9     7
                                                                                                  Exceeded                    4      6    4      5         4          4          4     5
●●   Identifying violators of export prohibitions and                                             Slightly
                                                                                                  Met      Below              6      5    6      7         7          8          9     1
                                                                                                                                                                                       7
     restrictions for prosecution;                                                                Improved
                                                                                                  Slightly Below                                                                       1
                                                                                                  Not Met                     1      2     1               1          1          1     1
                                                                                                  Improved
●●   Enhancing the export and transit control systems of
                                                                                                  Not Met                     1      2    1                1          1          1     1
     nations that lack effective control arrangements;                                         See Appendix A: Performance and Resource Tables for individual reported results.

                                                                                               See Appendix A: Performance and Resource Tables for individual reported results.
●●   Ensuring U.S. industry compliance with the Chemical
     Weapons Convention (CWC) Agreement; and

●●   Undertaking a variety of functions to support the viability of the U.S. defense industrial base.




F Y   2 0 0 9       P E R F O R M A N C E             A N D          A C C O U N T A B I L I T Y                     R E P O R T
                                                                                                                                                                                            65
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




       ITA supports the President’s foreign policy goals to promote freedom and liberty through free and fair trade, while expanding
       profitable markets for U.S. goods and services. ITA works extensively with U.S. businesses on a regular basis to help them
       understand U.S. trade laws related to dumping and foreign government subsidies. The Department takes appropriate actions
       against identified violations. The Unfair Trade Practices Team in ITA’s Import Administration (IA) tracks, detects, and confronts
       unfair competition by monitoring economic data from U.S. global competitors and vigorously investigates evidence of unfair
       subsidization and production distortions.

       Dual-use items, subject to the Department’s regulatory jurisdiction, have predominantly civilian uses, but could also have
       conventional military, weapons of mass destruction (WMD), and terrorism-related applications. BIS administers the dual-use
       export control system by (1) writing and promulgating regulations, (2) processing license applications, (3) enforcing adherence to
       U.S. law and regulations, (4) conducting outreach to exporters, (5) strengthening the export control systems of other countries,
       (6) assessing the viability of key sectors of the defense industrial base, and (7) assuring the timely availability of industrial
       resources to meet national defense and emergency preparedness requirements. Further information on these tasks is available
       at www.bis.doc.gov/news/index.htm#annual. Overall performance within this objective has been strong, meeting or exceeding
       targets on average 91 percent of the time from FY 2002 to FY 2009.


          Performance Outcome: Identify and resolve unfair trade practices (ITA)
          FY 2009 Funding Level                                                                                            $123.6M


       U.S. industries are entitled to the benefits of trade agreements negotiated by the United States. They are also entitled to the
       aggressive investigation of unfair trade practices that undercut those agreements. Two program units in ITA, Market Access and
       Compliance (MAC) and IA, work to ensure that the U.S. firms receive those benefits and obtain prompt relief from unfair trade
       practices. Trade compliance with negotiated trade agreements and access to foreign markets are existing problems faced by U.S.
       businesses that choose to sell their products overseas.

       IA is committed to the vigorous enforcement of U.S. trade laws. IA promotes free and fair trade by administering the U.S.
       antidumping (AD) and countervailing duty (CVD) laws in a transparent and impartial manner and by ensuring compliance by
       foreign governments and exporters with U.S. statutes and trade agreements dealing with trade remedies and unfair trade practices.
       AD/CVD laws provide domestic industries the opportunity to obtain relief from injury caused by imports of foreign products that
       are sold at less than fair value or that benefit from foreign government subsidies.

       MAC seeks to obtain market access for U.S. firms and workers and to achieve full compliance by foreign nations with trade
       agreements they sign with the United States. MAC ensures market access for U.S. businesses; advances the rule of law
       internationally; and creates a fair, open, and predictable trading environment. MAC also conducts critical trade policy analysis
       and negotiation support for the Office of the U.S. Trade Representative (USTR) and represents the Department in trade-related
       dealings with other U.S. government agencies. Based on customer needs, MAC has a sizable caseload from U.S. firms that have
       encountered a trade barrier.




  66                                             F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                    P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




                      Performance Measure                                     Target                 Actual              Status
 Percent reduction in trade distorting foreign subsidy
                                                                               >1%                    1.8%               Exceeded
 programs
 Percentage of AD/CVD determinations issued within
                                                                               90%                    86%              Slightly Below
 statutory and/or regulatory deadlines
 Percent of ministerial errors in IA’s dumping and subsidy
                                                                              < 11%                    7%                Exceeded
 calculations
 Percentage of market access and compliance cases
                                                                               35%                    56%                Exceeded
 resolved successfully
 Value of market access and compliance cases resolved
                                                                              $2.0B                  $25.4B              Exceeded
 successfully



FY 2 0 0 9 Miss e d T a r g e t s

   Measure        Percentage of AD/CVD determinations issued within statutory and/or regulatory deadlines
                  Although overall target was not met, 100 percent of statutory deadlines were met. The primary
 Explanation      contributing factor to the inability to meet this goal pertains to scope determinations, of which IA
                  received over 300 requests in FY 2009, in addition to IA’s AD/CVD casework.
                  Regarding regulatory deadlines, the importance of these deadlines has been communicated to staff
 Action
                  and all efforts will be made to improve performance in FY 2010.



Achievements

Enforcement efforts in FY 2009 include the following: initiation of six CVD cases against China on a variety of products, including
oil country tubular goods (covering several billion dollars in trade, the largest of any case from China to date); issuance of 120
determinations in AD and CVD cases; and application of the CVD law to Vietnam for the first time. IA’s Antidumping Duty
Enforcement Team also provided timely technical expertise and guidance to other agencies in their pursuit of criminal indictments
to combat fraud among exporters and importers of fish fillets from Vietnam and honey from China. IA provided critical support to
a U.S. Customs and Border Protection and Department of Justice (DOJ) investigation of the mislabeling of Vietnamese fish filets,
resulting in a five-year prison sentence for the criminal party and $12 million in duties and penalties. IA also provided specialized
information in DOJ’s May 2009 indictment of a Chinese honey exporter believed to have falsified the country of origin to avoid
paying AD duties. The charges in the May 2009 indictment carry a maximum penalty of five years in prison and a $250,000 fine,
not including any retroactive duties and penalties on the honey imports.

IA actively assisted U.S. companies facing potential unfair trade problems arising from other countries’ use of trade remedies
and unfair trade practices. Working closely with USTR, IA helped resolve the World Trade Organization (WTO) dispute on over
70 prohibited Chinese subsidies. IA also coordinated the Department’s efforts in the Interagency Working Group on Import
Safety and worked closely with the U.S. Food and Drug Administration (FDA) and the U.S. Customs and Border Protection on risk
assessment and trade trend analysis to respond to melamine-tainted dairy products from China.




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                        67
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




       IA was successful in resolving 81 percent of market access and trade compliance issues experienced by U.S. textile and apparel
       exporters. Extension of the highly praised Steel Import Monitoring and Analysis program provided the industry, government, and
       public with early and accurate data on steel imports in this trade-sensitive sector. Foreign-Trade Zones Board Staff processed
       67 applications related to customs free zones, which can help improve U.S. facilities’ international competitiveness.

       MAC proposed, planned, and provided briefing materials for Secretary Locke’s visit to Russia in July 2009 and in support of
       President Obama’s participation in the summit with the Russian president. MAC also coordinated Secretary Locke’s trip to China
       with Secretary of Energy Steven Chu and White House Cabinet Secretary Chris Lu. The joint visit highlighted potential for
       cooperation between China and the United States in clean energy and energy efficient technologies. Secretary Locke also traveled
       to Shanghai to break ground for the U.S. Pavilion at the Shanghai Expo 2010.

       MAC’s Afghanistan and Iraq Reconstruction Task Force is deeply involved with the Strategic Framework Agreement, which lays
       the groundwork for the new U.S.-Iraqi relationship in all non-security fields, including health, education, finance, and agriculture,
       and serves as the foundation for a long-term bilateral relationship. The Department’s role includes promoting the expansion of
       bilateral trade through the U.S.-Iraq Business Dialogue, which the Secretary of Commerce co-chairs with the Iraqi Minister of
       Trade, and facilitating the U.S.-Iraq Business and Investment Conference.

       MAC continued to work toward the elimination of non-tariff barriers in emerging markets, leveraging over $1.1 million through
       partnerships with U.S. government agencies, foreign governments, and the private sector in support of 33 projects across the
       globe. Projects included a clean energy expansion program in Indonesia; a SME technology entrepreneur seminar in Malaysia;
       and an enhanced cooperation on standards, conformity assessment, and trade-related technical measures for the information
       technology sector in Korea and Taiwan. These programs also led to numerous market access and compliance case openings and
       resolutions.



          Performance Outcome: Maintain and strengthen an adaptable and effective U.S. export
          control and treaty compliance system (BIS)
          FY 2009 Funding Level                                                                                                  $73.9M


       The Department administers and enforces controls on exports of dual-use goods and technologies to counter proliferation of
       WMDs, combat terrorism, and pursue other national security policy goals. The Department also serves as the lead agency for
       ensuring U.S. industry compliance with CWC. The Department processes export license applications for controlled commodities
       of U.S. companies engaged in international trade in accordance with Export Administration Regulations (EAR). The Department
       engages in activities to prevent violations before they occur and to investigate and prosecute violators to dismantle illicit
       proliferation networks. Preventive activities include screening license applications for enforcement concerns; conducting end-
       use checks abroad to confirm the bona fides of parties to export transactions, confirm compliance with license conditions,
       and uncover diversions to unauthorized end-users/uses; and reviewing Shippers Export Declarations and foreign visitors’ visa
       applications to identify potential export control issues. Outreach activities include educating U.S. businesses on export control
       requirements and identifying suspicious transactions leading to successful preventative and investigative actions. Investigation
       and prosecution activities involve Department Special Agents conducting cases focused on significant proliferation, terrorism,
       and military end-use export violations, and the vigorous pursuit of criminal and administrative sanctions. Finally, an integral part
       of BIS’s mission is to facilitate compliance with U.S. export controls by keeping U.S. firms informed of export control regulations
       through an extensive domestic and foreign outreach program.




  68                                              F Y   2 0 0 9   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y    R E P O R T
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




                      Performance Measure                                     Target             Actual             Status
 Percent of licenses requiring interagency referral referred
                                                                              95%                 99%                 Met
 within 9 days
 Median processing time for new regime regulations
                                                                               3.0                 2.0              Exceeded
 (months)
 Percent of attendees rating seminars highly                                  85%                 93%                 Met

 Percent of declarations received from U.S. industry
 in accordance with CWC regulations (time lines) that
 are processed, certified, and submitted to the State                         100%                100%                Met
 Department in time so the United States can meet its
 treaty obligations
 Number of actions that result in a deterrence or
 prevention of a violation and cases which result in a                         850                 876                Met
 criminal and/or administrative charge
 Percent of shipped transactions in compliance with the
 licensing requirements of the Export Administration                          95%                 96%                 Met
 Regulations (EAR)
 Percentage of post-shipment verifications completed and
                                                                        260 PSVs/85%         314 PSVs/88%             Met
 categorized above the “unfavorable” classification



His t o r i c a l T r e n d s

BIS has consistently met or exceeded the targets for this outcome.



Achievements

The Department continued to process export license applications in a timely manner, thereby benefiting exporting companies and
industries, while protecting national security and foreign policy interests.

In FY 2009, the Department exceeded its target by completing 876 actions that resulted in a deterrence or prevention of a
violation. The Department also ensured that its investigation case load was targeted on the priority areas of WMDs, terrorism,
and military diversion.

In FY 2009, the Department successfully promulgated regulations that adapted export controls to the evolving national security
and economic situation. Noteworthy regulations published include Federal Register notice modifying the list of approved end-
users and eligible items for the People’s Republic of China (PRC) under Authorization Validated End-User (VEU). This final rule
amends EAR to add a new entity to the list of end-users in the PRC approved to receive exports, re-exports, and transfers of
certain items under Authorization VEU (Section 748.15 of EAR); and adds and revises eligible items and destinations for two
existing VEU authorizations. As a result of this modification, there are six VEUs approved in the PRC and a total of 20 eligible
facilities. Since October 2007, over $19 million of high technology items have been shipped from the United States to the PRC
under Authorization VEU. Additionally, General Electric India (GE India) was tapped in FY 2009 as the first Indian company to
qualify as a VEU in India, allowing the company to enter a pre-approved, export express lane as a trusted end-user. After an




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                   69
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




       extensive background review, the VEU designation will allow GE India to receive certain controlled items from the United States,
       including civilian aircraft technology and explosive detection equipment, making the flow of trade more efficient between the
       countries. That the VEU program was opened for India is an indication of the increased importance of the U.S.-India bilateral and
       commercial relationship.



          Performance Outcome: Integrate non-U.S. actors to create a more effective global export
          control and treaty compliance system (BIS)
          FY 2009 Funding Level                                                                                                $5.1M


       The effectiveness of U.S. export controls is enhanced by strong controls in other nations that export or transship sensitive
       goods and technologies. BIS works to improve the participation and compliance of existing members of the multilateral export
       control regimes and cooperates with other countries to help them establish effective export control programs. The Department
       helps improve the effectiveness of the multilateral export control regimes (Australia Group for chemical and biological weapons
       items; Missile Control Regime, Nuclear Suppliers Group, and Wassenaar Arrangement for dual-use technologies and conventional
       weapons) by participating in U.S. efforts to update and adapt their control lists to the threats facing the United States.


                            Performance Measure                                    Target                 Actual               Status
        Number of end-use checks completed                                          850                     737                Not Met




       FY 2 0 0 9 Miss e d T a r g e t s

          Measure       Number of end-use checks completed
                        FY 2009 total was approximately 87 percent of GPRA goal because of reduced number of Sentinel
        Explanation
                        visits and personnel shortages due to funding constraints and hiring freeze throughout the year.
        Action          To be determined.



       Achievements

       In FY 2009, the Department continued its efforts with India and accelerated contacts with the United Arab Emirates. In addition,
       the Department assists in implementing its international activities by coordinating and managing BIS participation in the U.S.
       government’s Export Control and Related Border Security Assistance (EXBS) program, which provides technical assistance to
       strengthen the export and transit control systems of nations lacking effective export control systems.




  70                                             F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




   Performance Outcome: Ensure continued U.S. technology leadership in industries that are
   essential to national security (BIS)
   FY 2009 Funding Level                                                                                              $5.6M


The Department works to ensure that the United States remains competitive in industry sectors and sub-sectors critical to national
security. To this end, it analyzes the impact of export controls and trade policies—including deemed export policy—on strategic
U.S. industries, studies the impact of defense trade offsets, advocates for U.S. defense companies competing for international
sales opportunities, and evaluates the security impact of certain proposed foreign investments in U.S. companies. The Department
also administers the federal government’s Defense Priorities and Allocations System (DPAS), which assures the timely availability
of industrial resources to meet national defense and emergency preparedness program requirements and provides an operating
system to support rapid industrial response in a national emergency.


                      Performance Measure                                     Target               Actual             Status
 Percent of industry assessments resulting in BIS
 determination, within three months of completion, on                         100%                 100%                 Met
 whether to revise export controls



Achievements

In FY 2009, the Department announced the results of an important study on the Critical Technology Assessment of Five
Axis Simultaneous Control Machine Tools from data collected and analyzed by BIS. In addition, the Department supported
administratively the Secretary’s Deemed Export Advisory Committee, which will continue to provide U.S. industry, academia,
and research institutions with access to talented foreign researchers while ensuring that U.S. security requirements are met.
The Department also issued its annual report on the impact of defense offsets on U.S. industry and actively participated in an
interagency committee to develop and implement policies for mitigating the use of offsets by U.S. trading partners, and issued
the Defense Industrial Base Study of U.S. Industry’s Capability to Design and Fabricate Integrated Circuits.




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                     71
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




                                                Strategic Objective 1.3

       Advance key economic and demographic data to support effective decision-making of policymakers,
       businesses, and the American public




             P u b li c B e n e f i t s a n d
           Summary of Performance




       C
                  urrent and benchmark measures of the U.S.
                  population, economy, and governments play a vital
                  role in the Nation’s economic well being. This
       objective focuses on meeting the needs of policymakers,
       businesses and nonprofit organizations, and the public for
       this information while respecting individual privacy, ensuring
       confidentiality, and reducing respondent burden. The result
       of achieving this objective promotes a better understanding
       of the U.S. economy in that the activities involved provide
       timely, relevant, and accurate economic data in an objective
       and cost-effective manner.

       The Department’s statistical programs and services are widely
       used by policymakers, business leaders, and the U.S. public.
       As a primary source for measures of macroeconomic activity,
       the Department provides the Nation with the picture of its
       economic health.

       The Economics and Statistics Administration (ESA), composed of the Census Bureau and the Bureau of Economic Analysis (BEA),
       provides decisionmakers with timely, relevant, and accurate economic and statistical information related to the U.S. economy and
       population with the Department at the forefront of national efforts to continually improve these statistics.




  72                                             F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




Through investments in the improvement of the accuracy and relevance of the Gross Domestic Product (GDP), international trade
in goods and services, industry economic measures, and regional and metropolitan statistics by BEA, the Department can supply
the economic statistics essential to sound business forecasting and monetary policy.

Overall performance within this objective has been strong, meeting or exceeding targets on average 93 percent of the time from
FY 2002 to FY 2009. The number of performance measures dipped from a high of 22 in FY 2003 to 11 beginning in FY 2007.



   Performance Outcome: Provide benchmark measures of the U.S. population, economy, and
   governments (ESA/CENSUS)
   FY 2009 Funding Level                                                                                          $2,773.4M


The Census Bureau provides benchmark measures of the Nation’s economy and population to help decisionmakers and the public
make informed decisions. The Census Bureau’s cyclical programs provide the foundation for critical national, state, and local data.
These include the Economic Census and Census of Governments, which are conducted every five years, and the Decennial Census
program, the Demographic Surveys Sample Redesign (DSSR) program, and the Intercensal Demographic Estimates program.

The decennial census is used to provide the official population counts for determining the allocation to states of seats in the
U.S. House of Representatives and for determining how the districts are defined for those seats. The Census Bureau provides to
each state the data necessary to determine Congressional, state, and local legislative boundaries. The decennial census provides
comprehensive and useful demographic information about all people living in the United States, Puerto Rico, and the associated
Island Areas. The program also provides data for small geographic areas and population groups that federal agencies need to
implement legally mandated programs. Approximately $300 billion a year is distributed to state and local governments using
formulas that are based on data such as state population and personal income.

The Economic Census provides comprehensive, detailed, and authoritative facts about the structure of the U.S. economy ranging
from the national to the local level. The Economic Census covers nearly 29 million business locations and 84 percent of the
Nation’s economic activity.

The Census of Governments is the only source of comprehensive and uniformly classified data on the economic activities of
state and local governments. The Census of Governments covers about 90,000 local governments, 12 percent of GDP and nearly
16 percent of the U.S. workforce.

The DSSR program designs and selects samples for the major national household surveys. The Intercensal Demographic Estimates
program provides updated estimates of the U.S. population for the country, states, counties, cities, and townships.

The Intercensal Demographic Estimates program provides updated estimates of the U.S. population for the country, states, counties,
cities, and townships in the years between the decennial censuses. Based on population estimates stakeholders’ meetings, the
Census Bureau continued to review alternative population estimate methodologies and alternative data sets during FY 2009.




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      73
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




                            Performance Measure                                    Target                 Actual               Status
        Correct street features in the TIGER (geographic) database               Complete
        (number of counties completed) to more effectively                       updates to
        support Census Bureau censuses and surveys, facilitate               eligible counties
        the geographic partnerships between federal, state, local              in the United            Completed               Met
        and tribal governments, and support the E-Government                   States, Puerto
        initiative in the President’s Management Agenda                      Rico, and Island
                                                                                   Areas
        Complete key activities for cyclical census programs                    At least 90%           At least 90%
        on time to support effective decision-making by                         of key prep            of key prep
        policymakers, businesses, and the public and meet                         activities             activities             Met
        constitutional and legislative mandates                                completed on           completed on
                                                                                  schedule               schedule
        Meet or exceed the overall federal score of customer
        satisfaction on the E-Government American Customer
                                                                                    75.2                   68.0                Not Met
        Satisfaction Index (ACSI) (This measure applies to the
        second performance outcome in this objective as well)



       FY 2 0 0 9 Miss e d T a r g e t s

          Measure       Meet or exceed the overall federal score of customer satisfaction on the E-Government American
                        Customer Satisfaction Index (ACSI)
                        The Census Bureau has worked aggressively to strengthen three of its Web site’s primary elements of
                        customer satisfaction and key performance indicators: search, navigation, and look and feel. Working
        Explanation
                        groups within the Web Governance Council are addressing standards and policies, information
                        architecture, technology, and process improvement.
        Action          The Census Bureau plans to launch a new 2010 Census Web site in late October 2009.



       Achievements

       In FY 2009, the Census Bureau completed updates to street features in the Topologically Integrated Geographic Encoding and
       Referencing System (TIGER) database for eligible counties in the United States, Puerto Rico, and Island Areas.

       The 2010 Decennial Census program completed opening early Local Census Offices, and completed the Address Canvassing
       operation where over 140,000 household addresses were verified across the country. The program began the group quarters
       validation operations, an activity in which Census verifies the type and location of group quarters housing units such as college
       dormitories and residential care facilities. The Census Bureau continued to conduct preparatory activities for the 2010 Decennial
       Census including began opening Local Census Offices to support 2010 field operations, completed integrated system testing, and
       key activities in support of the 2010 Census Communications campaign.




  74                                             F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                    P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




Key accomplishments of the Economic Census during FY 2009 included:

●●   Beginning tabulation and macrodata analysis;

●●   Achieving an 86.7 percent overall unit response rate compared to the target of 86 percent;

●●   Issuing the 2007 Economic Census Advance Report on March 17, 2009; and

●●   Completing Industry Series releases for 494 of 646 covered industries.

During FY 2009, principal activities of the Census of Governments program included the release of the individual state descriptions,
completing the organization phase of the Census of Governments, release of data from the employment phase of the Census
of Governments, release of the state government finances and data on state and local government public employee retirement
systems, and the completion of data collecting and processing activities for the local government finance phase.

The DSSR program released documentation on the results of the final evaluation of the full National Evaluation Sample.
Additionally, documentation on the final recommendation and decision on the acceptability of the Master Address File as the
sampling frame was completed by the end of the fiscal year. This is one of the most crucial decisions for Sample Redesign as it
will move the Census Bureau to a new universe and away from the four-part universe it has used since the 1960s.



     Performance Outcome: Provide current measures of the U.S. population, economy, and
     governments (ESA/Census)
     FY 2009 Funding Level                                                                                             $715.9M


The Census Bureau collects and disseminates a wide range of current demographic and economic information to help
decisionmakers and the public make informed decisions. The Census Bureau’s current economic statistics program (as opposed to
its cyclical programs) provides public and private data users with monthly, quarterly, and annual national statistical profiles of the
U.S. economy. Agencies like the Federal Reserve Board and BEA are two of the major users of these data. These data are used to
develop the GDP, production indexes, and Congressional economic projections. Also, these data allow users to gauge competition,
calculate operating ratios, analyze changes in the Nation’s economic structure, calculate market share, locate business markets,
and design sales territories.

The Census Bureau’s current demographic statistics program provides elected officials and government and business managers
with reliable social and economic data to make informed and cost-effective decisions. Data from these programs are used to
create official U.S. measures of employment, unemployment, and poverty, and widely used measures of income and health
insurance coverage.




F Y   2 0 0 9   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                         75
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




                          Performance Measure                                  Target                    Actual                Status
        Achieve pre-determined collection rates for Census              At least 90% of
        Bureau censuses and surveys in order to provide                 key censuses and
        statistically reliable data to support effective                surveys meet/exceed         Met percentages             Met
        decision-making of policymakers, businesses, and                collection rates/
        the public                                                      levels of reliability
        Release data products for key Census Bureau                     1) 100 of Economic        1) 100 of Economic
        programs on time to support effective decision-                 Indicators released       Indicators released
        making of policymakers, businesses, and the public              on schedule               on schedule

                                                                        2) At least 90% of        2) At least 90% of            Met

                                                                        other key censuses        other key censuses
                                                                        and surveys data          and surveys data
                                                                        released on time          released on time



       His t o r i c a l T r e n d s

       The Census Bureau has consistently met its percentage targets.



       Achievements

       In FY 2009, the Census Bureau released nearly 400 economic reports, including 118 principal economic indicators, providing
       information on retail and wholesale trade and selected service industries, construction activity, quantity and value of industrial
       output, capital expenditure information, e-commerce sales, foreign trade, and state and local government activities. All targeted
       current survey programs achieved their response rate goals for FY 2009.

       During FY 2009, the Census Bureau began the process of expanding the annual and quarterly surveys of service industries. Prior
       to the 2009 services expansion, Service Annual Survey (SAS) coverage accounted for 30 percent of GDP and Quarterly Services
       Survey (QSS) coverage comprised 17 percent of GDP. The SAS and the QSS, as fully expanded, each will achieve matching
       coverage with the services portion of the Economic Census (55 percent of GDP) by early 2011. In FY 2009, the first wave of the
       QSS expansion reduced the gap in quarterly data coverage by 50 percent while, at the same time, the Census Bureau completed
       preparatory steps for completely eliminating the annual data coverage gap with next year’s collection of the 2009 SAS.

       Also, during FY 2009, the Census Bureau completed the first full year of data collection for a new Survey of Income and Program
       Participation (SIPP) Panel, and continued work on all four components of the SIPP re-engineering project.

       The Census Bureau met its targets to achieve at least 90 percent of the planned response rates and dissemination targets for
       Census Bureau surveys. Response rates are a measure of the quality of survey data. Dissemination targets are a measure of
       timeliness of the data. By meeting these targets, the Bureau is providing its users with the high quality and timely data they need
       to make important policy decisions that help improve the Nation’s social and economic conditions.




  76                                             F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                    P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




The American Community Survey (ACS), which collects and tabulates long-form data every year throughout the decade, exceeded
the planned 92 percent weighted response rate by achieving a 98.1 weighted response rate, using three modes of data collection:
mail-out, telephone, and personal interview. The ACS also released social and demographic data for all places with a population
of 20,000 and larger for the third time.



   Performance Outcome: Provide timely, relevant, and accurate economic statistics (ESA/BEA)
   FY 2009 Funding Level                                                                                                 $98.7M


ESA’s BEA produces some of the Nation’s most important and closely-watched economic statistics, including the GDP, the broadest
measure of economic activity. BEA produces economic statistics for four major program areas: National Economic Accounts, Industry
Economic Accounts, Regional Economic Accounts, and International Economic Accounts. Greater descriptions of these accounts
can be found on the BEA Web site at www.bea.gov. To produce the Nation’s economic accounts, BEA draws on the data collection
and analyses conducted by the Census Bureau, Bureau of Labor Statistics (BLS), Internal Revenue Service (IRS), Federal Reserve,
and others to produce over 50 public releases of economic statistics a year. These statistics provide a comprehensive, integrated,
and consistent measure of U.S. economic activity and are used as critical ingredients in budget appropriations and forecasts,
international trade and policy formulation, and business and personal financial strategies. ESA’s economists interpret statistics from
BEA and other sources to assist the Nation’s leaders in formulating monetary and fiscal policy and understanding the recovery and
sustainability of growth in the U.S. economy.


                      Performance Measure                                      Target                 Actual              Status
 Timeliness: Reliability of delivery of economic data
                                                                               57 of 57              56 of 57          Slightly Below
 (number of scheduled releases issued on time)
 Relevance: Customer satisfaction with quality of products
                                                                                > 4.0                   4.2                 Met
 and services (mean rating on a 5-point scale)
 Accuracy: Percent of GDP estimates correct                                    > 85%                   88%                  Met

 Improving GDP and the economic accounts                                  Completion of
                                                                          strategic plan           Completed                Met
                                                                            milestones
 Meeting U.S. international obligations                                   Completion of
                                                                          strategic plan           Completed                Met
                                                                            milestones
 Measuring the knowledge economy                                          Completion of
                                                                          strategic plan           Completed                Met
                                                                            milestones




F Y   2 0 0 9   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                         77
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




       FY 2 0 0 9 Miss e d T a r g e t s

            Measure       Timeliness: Reliability of delivery of economic data (number of scheduled releases issued on time)
                          For the first time in decades, BEA delayed a release because of concerns that the statistics did not
        Explanation
                          meet BEA accuracy and best practices standards.
                          BEA is reviewing the statistics and source data, and is currently taking steps to address the underlying
                          statistical issues. The Regional Directorate staff are revising their best practices for updating
        Action
                          methodologies to assure that any discrepancies are detected and resolved early in the production
                          process. These updated methodologies will be in place by the end of calendar year 2009.



       His t o r i c a l T r e n d s

       BEA has consistently met its strategic plan milestones.



       Achievements

       During FY 2009, BEA achieved a number of important data improvement and availability targets, including:

       ●●   Continued improvement of satellite accounts for innovation, including expansion of its research and development (R&D)
            satellite account to include investments in other intangibles;

       ●●   Continued development of a satellite account for healthcare that will provide a means to better assess the returns to
            various health treatments and the sources of changes in health care costs;

       ●●   Work on a national production account that is integrated with BLS measures of productivity;

       ●●   Improvements to the National Income and Product Accounts (NIPA) as a part of the 2009 Comprehensive Revision,
            including an improved treatment of disasters and a new classification system for personal consumption expenditures;

       ●●   The redesign of surveys of new foreign direct investments to improve their ability to capture important detail that allows
            better analysis of issues such as offshoring; and

       ●●   The expansion of the high-performance STATS-II processing system to further reduce statistical processing times and
            thus maximize the time available for analyzing results.




  78                                             F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                    P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




                                          Strategic Objective 1.4

Position manufacturers to compete in a global economy




      P u b li c B e n e f i t s a n d
    Summary of Performance




 T 
            he Nation’s approximately 330,000 manufacturers
            employ 11 million people in high-paying jobs. U.S.
            manufacturers represent roughly two-thirds of
total U.S. R&D expenditures and account for almost 60 percent
of all U.S. exports. A strong manufacturing base is critical
to the economic strength and stability of the United States.
Increased manufacturing productivity and competitiveness
are essential for the survival of this crucial industrial base.
Manufacturers must focus on improving efficiency, lowering
costs, and implementing a culture of innovation that lead to
new product ideas and opportunities.

Overall performance within this objective has been fairly
strong, meeting or exceeding targets on average 81 percent
of the time from FY 2002 to FY 2009, with the last three
years exceeding the targets for all of the measures. Actual
performance greatly improved from FY 2002 (0 percent of targets met or exceeded) to FY 2009 (100 percent of targets met or
exceeded).




F Y   2 0 0 9   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                              79
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




          Performance Outcome: Increase the productivity, profitability, and competitiveness of
          manufacturers (NIST)
          FY 2009 Funding Level                                                                                                                          $112.6M


       Manufacturers, particularly small and mid-sized firms, are facing new and significant challenges. While efficient shop floor
       operations are necessary to survive in today’s economy, this alone is not enough to succeed in the global marketplace. Technology
       and globalization have fundamentally changed many manufacturing companies and products. The changes have resulted in an
       era of increased cost pressures, shortened product life cycles, rapidly diffusing technology, and production chains that involve a
       network of suppliers. Success in today’s manufacturing environment requires not only an efficient production system but also
       developing business strategies that highlight the unique capabilities of a firm. Manufacturers must master innovative product
       design innovation, understand the benefits of adopting environmentally sustainable processes, invest in human and physical
       capital, leverage a range of financing options, realize international trade opportunities, and forecast future customer demands.

       Through the Hollings Manufacturing Extension Partnership (MEP) program, manufacturers have access to a nationwide network of
       manufacturing experts available to assist in the adoption of new technologies, developing innovative products, and implementing
       process innovations to improve their productivity, profitability, and competitiveness. MEP, in collaboration with partners in all
       levels of the government, university, community college, and the private sector, is working to accelerate manufacturing’s ongoing
       transformation into a more efficient and powerful engine of innovation that drives economic growth and job creation.

       Each year, MEP transforms thousands of U. S. manufacturers by working one-on-one to implement the best combination of
       process improvements and growth services for each individual company. MEP is focused on providing the services that reduce
       manufacturer’s bottom-line expenses, increase efficiencies, and build capacity. While process and quality improvements offer
       reduced expenses, growth services provide the tools to improve top-line sales by adopting new technologies and creating new
       sales, new markets, and new products. MEP centers serve as trusted advisors to their manufacturing clients offering a suite of
       services to keep manufacturers competing and thriving in today’s global marketplace.

       Through an annual client survey, the program obtains quantifiable impacts of MEP services on its clients’ bottom line. MEP
       demonstrates the impact of its services on three key quantitative business indicators that, as a set, suggest the presence of
       business changes that are positively associated with productivity, revenue growth, and improved competitiveness. The measures
       include: (1) increased sales attributed to MEP assistance, (2) increased capital investment attributed to MEP assistance,
       and (3) cost savings attributed to MEP assistance.


                                 Performance Measure                                                   Target                        Actual                  Status
        Number of clients served by Hollings Manufacturing                                         14,500 from                  31,961 from
                                                                                                                                                             Exceeded
        Extension Partnership (MEP) centers receiving federal funding                            FY 2008 funding              FY 2008 funding
        Increased sales attributed to Hollings MEP centers receiving                               $630M from                  $3,300M from
                                                                                                                                                             Exceeded
        federal funding                                                                          FY 2008 funding              FY 2008 funding
        Capital investment attributed to Hollings MEP centers                                      $485M from                  $1,400M from
                                                                                                                                                             Exceeded
        receiving federal funding                                                                FY 2008 funding              FY 2008 funding
        Cost savings attributed to Hollings MEP centers receiving                                  $330M from                  $1,200M from
                                                                                                                                                             Exceeded
        federal funding                                                                          FY 2008 funding              FY 2008 funding
        NOTE: Performance actuals for this outcome lagged at least six months. Therefore, beginning with the FY 2005 PAR, NIST shifted to a format in which NIST reports
        actuals one year later. This date lag, coupled with the time line for producing the PAR, precludes the reporting of actual FY 2009 data. With the exception of the
        number of clients, the data reported in the current year PAR are an estimate based on three-quarters of actual client reported impacts and one-quarter estimated
        client impacts.



  80                                                       F Y   2 0 0 9      P E R F O R M A N C E           A N D     A C C O U N T A B I L I T Y          R E P O R T
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




His t o r i c a l T r e n d s

MEP has consistently exceeded its targets. Performance projections are based in part on past programmatic results but also on
the current operating realities of the MEP centers and their manufacturing clients. The projections reflect a realization that any
sort of forecast must be based on current economic and market conditions and also other contributing factors such as state
funding uncertainties. Simply projecting past results into the future in a linear fashion does not take into account these other
considerations. Data from the Federal Reserve Board, the Institute for Supply Management, BLS, and BEA are monitored and
assessed on a regular basis to inform MEP’s performance targets.



Achievements

●●   New Product Development: Roper Pump, a supplier of industrial pumps, including pumping systems and solutions
     for the industrial, transport, power generation, and oil and gas industries, was interested in improving quality and
     reducing waste. Working with the Georgia MEP, the company adopted lean manufacturing practices that allowed it to
     reduce waste and build capacity. As a result, the company eliminated outsourcing a key heat treatment process, saving
     thousands of dollars. With the success of the continuous improvement work, Roper Pump used Georgia MEP to help
     with its product development program. The current process was resulting in too many projects ideas and lacked criteria
     for evaluating and prioritizing ideas. Working with the Georgia MEP, the company identified more than 150 ideas for
     new products involving new market entry, improved sales distribution channels, upgrading existing products and product
     processes, new technologies, and creative arrangements with potential partners. Decision guidelines were developed and
     more stringent evaluation criteria were adopted. As a result, Roper Pump is now pursuing a major product development
     for its main product line that will provide product sales for decades.

●●   National Innovation Marketplace: MEP, in collaboration with other organizations, is developing the National Innovation
     Marketplace (NIM) to facilitate manufacturers’ connections to technology and business opportunities that can result
     in expansion into new markets and the development of new products necessary for success in the global marketplace.
     Secretary Locke and Vice President Biden announced support for expanding the NIM program in June 2009. NIM
     encourages the translation of emerging technologies first into business applications, second into market opportunities,
     and third into the adoption of new products. NIM provides opportunities for companies to access innovations, financing,
     distributors, or export opportunities. Once fully implemented, NIM combined with the MEP network of thousands of
     innovation experts will assist suppliers in connecting with opportunities and access a range of product development
     and commercialization assistance services to help rapidly move ideas from concept to investment, manufacturing,
     commercialization, and distribution.




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                     81
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




                              Strategic Goal 1 Program Evaluations


             Bureau                        National Institute of Standards and Technology (NIST)

        Program               Hollings Manufacturing Extension Partnership (MEP)

        Strategic Objective   Position manufacturers to compete in a global economy

        Name                  MEP Non-Experimental Net Impact Evaluation
                              An external study is currently underway to evaluate the performance of MEP clients versus
        Findings
                              non-clients.

        Actions as a Result   The study will be completed in early 2010 and MEP will assess the findings and implement any
        of Evaluation         necessary actions.




  82                                          F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
P e r f o r m a n c e   S e c t i o n




          S t r at eg i c
           G oa l 2
                                                                                               targets met
                         P ERFORMANCE o u t c o m e                                            or exceeded
Promote innovation, facilitate trade, and ensure public safety and security by strengthening
                                                                                                  5 of 6
the Nation’s measurements and standards infrastructure (NIST)
Promote U.S. competitiveness by directing federal investment and R&D into areas of
critical national need that support, promote, and accelerate high-risk, high-reward research      1 of 1
and innovation in the United States (NIST)
Increase public access to worldwide scientific and technical information through improved
                                                                                                  3 of 3
acquisition and dissemination activities (NTIS)
Optimize patent quality and timeliness (USPTO)                                                    5 of 5
Optimize trademark quality and timeliness (USPTO)                                                 5 of 5
Improve intellectual property and enforcement domestically and abroad (USPTO)                     2 of 2
Ensure that the allocation of radio spectrum provides the greatest benefit to all people
                                                                                                  5 of 5
(NTIA)
Promote the availability, and support new sources, of advanced telecommunications and
                                                                                                  2 of 2
information services (NTIA)
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




                                                S TRATEG I C GOA L 2

Promote U.S. innovation and industrial competitiveness




      P u b li c B e n e f i t s a n d
    Summary of Performance




 T 
            he Department seeks to promote U.S. innovation
            and industrial competitiveness through three
            primary areas: (1) the continued development
of advanced measurement science and encouragement of
high-risk, high-reward research; (2) the further advancement
of intellectual property through the issuance of patents
and trademarks; and (3) the continued advancement of
telecommunications standards and technology.

Through the measurement science research at the
National Institute of Standards and Technology (NIST), the
Department provides the infrastructure that supports a
modern technology-based economy, from the automotive
to the biotechnology sector, and from basic materials and
manufacturing to information technology. NIST provides the
critical tools for these efforts through the sale of more than



F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                             85
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




       30,000 units of Standard Reference Materials (SRM) and 6,000 units of Standard Reference Databases annually, as well as the
       conduct of over 15,000 calibration tests each year.

       Intellectual property (IP) is a potent force in, and a fundamental component of, the global economy. The Department strives to
       preserve the Nation’s competitive edge by protecting IP and encouraging technological innovation. In market-driven economic
       systems, innovation provides a catalyst for economic prosperity through the accumulation of scientific knowledge; introduction
       of new products and services; and improvements in the productivity levels of land, labor, and capital resources.

       The Department through the National Telecommunications and Information Administration’s (NTIA): (1) serves as the principal
       adviser to the President on domestic and international communications and information policy-making; (2) promotes access to
       telecommunications services for all Americans and competition in domestic and international markets; (3) manages all federal
       use of the electromagnetic spectrum and generally promotes efficient use of spectrum; and (4) conducts telecommunications
       technology research, including standards-setting in partnership with business and other federal agencies.

       Overall performance within this goal has been fairly strong, meeting or exceeding targets on average 87 percent of the time from
       FY 2002 to FY 2009. Performance improved from FY 2002 to FY 2009 with 74 percent of targets met or exceeded in FY 2002 to
       97 percent met or exceeded in FY 2009.




  86                                            F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                    P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




                                          Strategic Objective 2.1

Advance measurement science and standards that drive technological change




      P u b li c B e n e f i t s a n d
    Summary of Performance




 I  
         n its effort to achieve this objective, NIST works with
         U.S. industry and other stakeholders to promote
         U.S. innovation and industrial competitiveness by
advancing measurement science, standards, and technology
in ways that enhance economic security and improve quality
of life. NIST leadership in measurement science research
ensures that U.S. industry and universities will have the tools
they need to remain at the leading edge of innovation and to
secure “first-mover advantage” in bringing new technologies
to market. NIST also invests in high-risk, innovative projects
with the potential to produce transformational results in
areas of critical national need.

As one of the agencies participating in the President’s Plan
for Science and Innovation, NIST programs are recognized as
critical to promoting U.S. innovation and competitiveness.
NIST’s laboratories and programs through their focus on measurement science, standards, and technology provided the tools
and infrastructure critical to enable the innovation, development, and deployment of advanced technologies. The services and
products provided by NIST are important to the manufacturing and service industry, and government institutions.

The Technology Innovation Program (TIP) at NIST supports, promotes, and accelerates innovation in the United States by making
cost-shared awards for high-risk, high-reward research in areas of critical national need. These areas need government attention
because the magnitude of the problem is large and societal challenges are not being sufficiently addressed. TIP complements
and leverages—but does not duplicate—existing research and development (R&D) efforts by making targeted investments that are




F Y   2 0 0 9   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                   87
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




       within NIST’s areas of technical competence but that are not possible by other government agencies or programs. TIP supports
       rich teaming through making awards to individual small or medium companies or to joint ventures that may additionally include
       universities, non-profit research organizations, national laboratories, or other organizations. TIP funds projects that have strong
       potential for advancing the state of the art and contributing significantly to the U.S. scientific and technology knowledge base,
       and that may result in the creation of IP vesting in a U.S. entity.

       The National Technical Information Service (NTIS) seeks to advance measurement science by bringing scientific and technical
       information to U.S. business and industry. NTIS promotes innovation and economic growth for U.S. business by (1) collecting,
       classifying, coordinating, integrating, recording, and cataloging scientific and technical information from a variety of sources,
       foreign and domestic; (2) disseminating this information to the public; and (3) providing information management services to
       other federal agencies that help them interact with and better serve the information needs of their own constituents, and to
       accomplish this without appropriated funds.

       Overall performance within this objective has been strong, meeting or exceeding targets on average 90 percent of the time from
       FY 2002 to FY 2009. Performance improved from FY 2002 (88 percent of targets met or exceeded) to FY 2009 (90 percent of
       targets met or exceeded).



          Performance Outcome: Promote innovation, facilitate trade, and ensure public safety and
          security by strengthening the Nation’s measurements and standards infrastructure (NIST)
          FY 2009 Funding Level                                                                                            $812.3M


       The Nation’s ability to innovate and compete in a global economy depends on a robust scientific and technical infrastructure,
       including research, measurement tools, standards, data, and models. The NIST laboratories develop and disseminate measurement
       techniques, reference data, test methods, standards, and other infrastructural technologies and services required by U.S. industry
       to compete in the 21st century.

       NIST evaluates progress on this outcome using an appropriate mix of specific output tracking and peer review. Together, these
       evaluation tools, combined with continual feedback from customers provide a comprehensive picture of performance toward
       this long-term goal. Additional information on these evaluation methods is available at http://www.nist.gov/director/planning/
       impact_assessment.htm.

       Accomplishments and applicable quantitative data used to evaluate progress on this long-term performance outcome are reviewed
       quarterly. Quantitative data are collected and reported by NIST Technology Services. External and independent evaluation of the
       research and measurement standards work of the NIST laboratory programs is conducted regularly. This type of peer review,
       combined with quantitative evaluation metrics focused on dissemination of NIST’s measurements and standards work, demonstrate
       the laboratories’ contribution to the Nation’s measurement and standards infrastructure.

       In FY 2009, the National Research Council (NRC) continued with the assessment process initiated in FY 2007 in which approximately
       half of the NIST laboratory programs are reviewed each year by separate panels of independent experts. Their assessments attest
       to NIST’s high quality programs, relevance of work in support of measurement science and standards needs, and impressive
       technical merit.




  88                                             F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                     P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




                           Performance Measure                                                    Target          Actual           Status
 Qualitative assessment and review of technical quality and                              Complete annual
                                                                                                                Completed             Met
 merit using peer review                                                                   peer review
 Citation impact of NIST-authored publications                                                     >1.1            >1.11              Met

 Peer-reviewed technical publications produced                                                    1,275            1,463              Met

 Standard Reference Materials (SRM) sold                                                          31,000          29,769         Slightly Below

 NIST-maintained datasets downloaded                                                        200,000,000         226,000,000           Met

 Number of calibration tests performed                                                            15,000          18,609              Met
 1	 Actual for this measure lags nine months.   The actual shown here is based on FY 2008 data.



FY 2 0 0 9 Miss e d T a r g e t s

   Measure            Standard Reference Materials (SRM) sold
                      The performance target was set at an approximate target level, and the deviation from that level is
 Explanation
                      slight. There was no effect on the overall program or activity performance.
 Action               No action required.



Achievements

Development of a Smart Grid Interoperability Standards Framework

Working with industry, government, and other stakeholders, NIST is expediting the identification and development of
interoperability standards critical to achieving a reliable and robust Smart Grid. Accelerating the development of the
Smart Grid is among the top priorities of the Obama Administration. In recognition of this urgency, in March 2009 NIST
identified one of its senior executives to serve as National Coordinator for Smart Grid Interoperability to provide visible
leadership at the national level. In April 2009, NIST launched a three-phase plan to expedite the development and promote
widespread adoption of Smart Grid interoperability standards. This plan includes further engaging stakeholders to achieve
consensus on Smart Grid standards, launching a formal private/public partnership to facilitate development of additional
standards, and developing a plan for testing and certification to ensure that Smart Grid equipment and systems conform
to standards for security and interoperability. To augment NIST staff resources, NIST awarded the Electric Power Research
Institute a short-term contract to engage stakeholders, facilitate public workshops, and provide technical assistance in
assessing standards needs and developing a draft interim standards roadmap. NIST used this report and public input in
drafting Release 1.0 of the NIST Smart Grid Interoperability Standards Framework, released on September 24, 2009. NIST’s
expanded role in Smart Grid interoperability standards is supported by the Energy Independence and Security Act of 2007,
which charges NIST with “primary responsibility to coordinate development of a framework that includes protocols and
model standards for information management to achieve interoperability of Smart Grid devices and systems…”

NIST, DOD, Intelligence Agencies Join Forces to Secure U.S. Cyber Infrastructure

NIST, in partnership with the Department of Defense (DOD), the Intelligence Community, and the Committee on National
Security Systems (CNSS), has released the first installment of a three-year effort to build a unified information security
framework for the entire federal government. Historically, information systems at civilian agencies have operated under




F Y   2 0 0 9     P E R F O R M A N C E             A N D     A C C O U N T A B I L I T Y         R E P O R T
                                                                                                                                                  89
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




       different security controls than military and intelligence information systems. This installment is titled “NIST Special
       Publication 800-53, Revision 3, Recommended Security Controls for Federal Information Systems and Organizations.”
       This revised security control catalog provides the most state-of-the-practice set of safeguards and countermeasures
       for information systems ever developed. The updated security controls—many addressing advanced cyber threats—were
       developed by a joint task force that included NIST, DOD, the Intelligence Community, and CNSS with specific information
       from databases of known cyber attacks and threat information.

       JILA/NIST Scientists Get a Grip on Colliding Fermions to Enhance Atomic Clock Accuracy

       NIST physicists have measured and controlled seemingly forbidden collisions between neutral strontium atoms—a class of
       antisocial atoms known as fermions, which are not supposed to collide when in identical energy states. The advance makes
       possible a significant boost in the accuracy of atomic clocks based on hundreds or thousands of neutral atoms. Beyond
       atomic clocks, the high precision of JILA’s experimental setup is expected to be useful in other applications requiring
       exquisite control of atoms, such as quantum computing—potentially ultra-powerful computers based on quantum physics—
       and simulations to improve understanding of other quantum phenomena such as superconductivity.

       New Building Code Revisions Adopt NIST Recommendations from World Trade Center Study

       Future buildings—especially tall structures—should be increasingly resistant to fire, more easily evacuated in emergencies,
       and safer overall thanks to 23 major and far-reaching building and fire code changes approved recently by the International
       Code Council based on recommendations from NIST. The recommendations were part of NIST’s investigation of the collapses
       of New York City’s World Trade Center towers on September 11, 2001. The new codes address areas such as increasing
       structural resistance to building collapse from fire and other incidents, requiring a third exit stairway for tall buildings,
       increasing the width of all stairways by 50 percent in new high-rises, and ensuring effective coverage throughout a building
       for emergency responder radio communications. NIST also released its final report on the September 11, 2001 collapse of
       the 47-story World Trade Center building 7 in New York City.

       Neutron Researchers Discover Widely Sought Property in Magnetic Semiconductor

       Researchers from NIST, Korea University, and the University of Notre Dame have confirmed theorists’ hopes that thin
       magnetic layers of semiconductor material could exhibit a prized property known as antiferromagnetic coupling—in which
       one layer spontaneously aligns its magnetic pole in the opposite direction as the next magnetic layer. This discovery raises
       hopes for even smaller and faster gadgets that could result from magnetic data storage in a semiconductor material, which
       could then quickly process the data through built-in logic circuits controlled by electric fields. The team conducted their
       studies at the NIST Center for Neutron Research (NCNR) using a technique known as polarized neutron reflectometry.

       Performance Indicators

       NIST measurement services, including calibration services, are critical for ensuring product performance and quality, improving
       production processes, making marketplace transactions fair and efficient, and leveling the playing field for international
       trade. NIST offers more than 500 different types of physical calibrations in areas as diverse as radiance temperature, surface
       finish characterization, and electrical impedance. SRMs are the definitive source of measurement traceability in the United




  90                                            F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




States and are certified in the NIST laboratories for their specific chemical and material properties. Customers use SRMs
to achieve measurement quality and conformance to process requirements that address both national and international
needs for commerce and trade and public safety and health. Technical publications represent one of the major mechanisms
NIST uses to transfer the results of its research to support the Nation’s technical infrastructure and provide measurements
and standards to those in industry, academia, and other government agencies. Each year NIST’s technical staff produces a
total of 2,000 to 2,200 publications with approximately 50 to 60 percent appearing in prestigious scientific peer-reviewed
journals. Citation impact of NIST-authored publications demonstrates that NIST consistently produces relevant scientific
and technical publications. Citation analysis provides an independent and objective validation of peer review findings
as research has shown that high citation rates—the cumulative number of citations per publication—correlate with peer
review judgment in terms of scientific quality and relevance. NIST also provides online access to over 80 critically evaluated
scientific and technical databases to academia, industry, other government agencies, and the general public.



   Performance Outcome: Promote U.S. competitiveness by directing federal investment and
   R&D into areas of critical national need that support, promote, and accelerate high-risk,
   high-reward research and innovation in the United States (NIST)
   FY 2009 Funding Level                                                                                         $50.2M


As established by the America COMPETES Act of 2007, TIP makes cost-shared awards for high-risk, innovative research in
areas of critical national need. TIP makes awards through publicly announced competitive funding opportunities in areas of
critical national need that may be addressed through high-risk, high-reward research. Awards may be made to individual
small or medium businesses, or to joint ventures that additionally may include institutions of higher education, non-
profit research organizations, national laboratories, or other organizations. Awards of up to $3 million total to individual
companies may be made over three years, and of up to $9 million total to joint ventures over five years.

The long-term nature of TIP-funded projects will result in a three to five-year lag from initial project funding to the
generation of four additional measureable outputs and outcomes. These additional measures will cover the number of
publications, patent applications, projects generating continued R&D, and projects with technologies under adoption.
These measures, along with other programmatic accomplishments, will be used to evaluate TIP’s progress toward its long-
term goal of supporting, promoting, and accelerating innovation in the United States in areas of critical national need.

                      Performance Measure                                     Target            Actual            Status
 Cumulative number of TIP projects funded                                       9                  9                Met




His t o r i c a l T r e n d s

This is a new outcome and measure so there are no historical trends.




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                 91
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




       Achievements

       Infrastructure Monitoring and Inspection Techniques

       In January 2009, NIST announced TIP’s first nine new projects selected for cost-shared awards in the critical national
       need area of civil infrastructure. If successful, these awards will generate $88.2 million in new research during the active
       life of the projects (three to five years), $42.5 million of which would be funded by TIP. These awards were made in
       response to TIP’s inaugural solicitation for funding, titled “Advanced Sensing Technologies for the Infrastructure: Roads,
       Highways, Bridges and Water Systems.” The solicitation called for implementable, usable, and accurate sensing systems for
       the effective measurement of infrastructure performance characteristics such as fatigue, corrosion, stress, usage, damage,
       etc. These new sensing technologies could provide increased security and safety of key elements of critical infrastructure.

       Awarded projects from the first competition demonstrated TIP’s commitment to multi-disciplinary approaches and
       to encouraging broad teaming arrangements. Thirty-five research participants are involved in the nine projects. TIP
       emphasized system validation for this competition, and there are 14 public sector entities (e.g., state agencies, water
       authorities, transportation authorities) involved (formally or informally) as testing partners to ensure the usability of the
       resulting systems. This unique involvement helps the projects toward achieving a transformative impact for infrastructure
       monitoring and inspection. Additional details on the first TIP competition are available at http://www.nist.gov/public_
       affairs/releases/20090106_TIP_2008_award_announce.html.



          Performance Outcome: Increase public access to worldwide scientific and technical
          information through improved acquisition and dissemination activities (NTIS)
          FY 2009 Funding Level                                                                                               $31.9M


       NTIS seeks to promote innovation and economic growth for U.S. business by (1) collecting, classifying, coordinating,
       integrating, recording, and cataloging scientific and technical information from a variety of sources, foreign and domestic;
       (2) disseminating this information to the public; and (3) providing information management services to other federal
       agencies that help them interact with and better serve the information needs of their own constituents, and to accomplish
       this without appropriated funds.

                             Performance Measure                                  Target                 Actual               Status
        Number of updated items available (annual)                               745,000                893,138                 Met

        Number of information products disseminated (annual)                   32,850,000             49,430,840              Exceeded

        Customer satisfaction                                                    95-98%                   98%                   Met




       His t o r i c a l T r e n d s

       NTIS has consistently met its targets.




  92                                            F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




Achievements

NTIS deployed the National Technical Reports Library in 2009. The library was deployed as a subscription product with an
advanced search engine and direct access to full abstracts and to full text documents. The National Technical Reports Library
allows advanced search of the NTIS database of more than 2.5 million documents and includes links directly to the full text of
the document, when available. Full text documents are viewable, printable, and may be downloaded by the user. Additionally,
NTIS was asked to develop and host two major applications in support of the American Recovery and Reinvestment Act (ARRA)
of 2009. The Department is a major participant in the ARRA and now NTIS hosts the application providing visibility to the public
regarding where Department ARRA dollars are allocated. The Web site lists communities receiving the benefits and also serves
as an archive for news releases and financial updates. Also, NTIS hosts the Broadband USA effort at www.broadbandusa.gov. The
ARRA appropriated $7.2 billion and directed the U.S. Department of Agriculture’s (USDA) Rural Utilities Service (RUS) and the
Department’s National Telecommunications and Information Administration (NTIA) to expand broadband access to unserved and
underserved communities across the United States, increase jobs, spur investments in technology and infrastructure, and provide
long-term economic benefits.

NTIS also continued its long association with the USDA Team Nutrition and Food Stamp programs by distributing free materials
to states and citizens promoting healthy nutrition. In FY 2009, NTIS distributed more that 10 million brochures, pamphlets, and
kits in both English and Spanish.

NTIS supported the Department of Health and Human Services (HHS) again this year to provide support for the “Health Start,
Grow Smart” program by distributing easily understood information booklets to parents and caregivers about the best practices
in early childhood development. The information pertains to health, safety, nutritional needs, and early cognitive development.
NTIS managed the storage and distribution of over 10 million booklets in FY 2009.




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                   93
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




                                                 Strategic Objective 2.2

       Protect intellectual property and improve the patent and trademark system




             P u b li c B e n e f i t s a n d
           Summary of Performance




        I  
                P contributes to a strong global economy by
                encouraging investment in innovation and fostering
                entrepreneurial spirit. People worldwide benefit from
       innovations, both directly on a personal level, and indirectly
       through economic growth fueled by innovation. Continual
       development of a vigorous, flexible, and efficient IP system
       thereby achieving this objective protects individual rights,
       encourages investment in innovation, and fosters entrepre-
       neurial spirit.

       The Department promotes the IP system through the protection
       of inventions or creations via patent, trademark, trade secret,
       and copyright laws. Under this system of protection, industry
       in the United States has flourished, creating employment
       opportunities for millions of Americans.

       The primary services the Department provides within this objective are the examination of patent and trademark applications
       and dissemination of patent and trademark information. Issuance of patents provides incentives to invent and invest in new
       technology by allowing innovators the opportunity to benefit from their discoveries. Registration of trademarks assists businesses
       in protecting their investments and safeguards consumers against confusion and deception in the marketplace by providing notice
       of marks in use. Through dissemination of patent and trademark information, the Department promotes a global understanding
       of IP protection and facilitates the development and sharing of new technologies worldwide.

       Overall performance within this objective has been good, meeting or exceeding targets on average 77 percent of the time from FY 2002
       to FY 2009. Performance greatly improved from FY 2002 (43 percent of targets met or exceeded) to FY 2009 (100 percent of targets
       met or exceeded). However, pendency remains a concern with patent applications taking on average three years to conclude.

  94                                              F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                      P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




   Performance Outcome: Optimize patent quality and timeliness (USPTO)
   FY 2009 Funding Level                                                                                                $1,633.4M


The most significant activity under this outcome is the examination of an inventor’s application for a patent by comparing the claimed
subject matter of the application to a large body of technological information to determine whether the claimed invention is new, useful,
and non-obvious to someone knowledgeable in that subject matter. To that end, not only is it important that a patent or trademark be
issued in a timely manner, but that it is of high quality. Finally contributing to both timeliness and quality is the patent and trademark
process being fully automated with an ultimate goal of all patents and trademarks being filed and managed electronically.

Providing quality services and products is the U.S. Patent and Trademark Office’s (USPTO) foremost priority. USPTO’s commitment to the
continuous refinement and expansion of quality initiatives is outlined in the Agency’s 2007-2012 Strategic Plan. Patent examinations
are subjected to both end-product allowance and in-process reviews that evaluate the quality of the substantive basis for examiner
decisions, applicability of publications found by the examiner, or the quality reviewer; evidence; and clarity of communications with
applicants. Findings produced by these reviews are shared individually with examiners, are collected in a database for ongoing analysis,
serve as the basis for the development of training programs, and are used to strengthen the review process. USPTO continues its effort
to better define and identify appropriate criteria to gauge quality.


                       Performance Measure                                      Target                   Actual              Status
 Patent allowance compliance rate                                               96.5%                    96.9%                  Met

 Patent in-process examination compliance rate                                  93.0%                    93.2%                  Met

 Patent average first action pendency (months)                                    27.5                    25.8                  Met

 Patent average total pendency (months)                                           37.9                    34.6                  Met

 Patent applications filed electronically                                       80.0%                    82.5%                  Met



Achievements

The patent allowance compliance rate is the percentage of applications allowed by examiners with no errors after being reviewed by
the Office of Patent Quality Assurance. An error is defined as at least one claim within a randomly selected allowed application that
would be held invalid in a court of law if the application were to issue without the required correction. In FY 2009, efforts to improve
quality resulted in an allowance compliance rate of 96.9 percent, slightly better than the target of 96.5 percent. The in-process
examination compliance rate is a ratio derived from the number of office actions void of deficiencies that would significantly impact
the applicant’s ability to advance the prosecution on the merits of the application, divided by the total number of office actions
reviewed. At 93.2 percent in-process examination compliance, USPTO met its goal of 93.0 percent.

The time to process a patent application is measured in two ways: (1) first action pendency—the average time in months from
filing until an examiner’s initial determination is made of the patentability of an invention, and (2) total pendency—the average
time in months from filing until the application issues as a patent, or is abandoned by the applicant. USPTO strives to meet its
goals of reducing pendency through a multi-pronged approach that includes hiring sufficient numbers of new examiners, retention
of experienced staff, employee flexibility regarding when and where work is performed, exploring work-sharing with other patent
offices, training, and electronic tools.

The growth and increasing experience and productivity of USPTO’s examination workforce, combined with a slowdown in filings this
year, enabled the Patent organization to begin reducing the size of the application backlog and to address growing patent pendency,




F Y   2 0 0 9   P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                             95
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




       which ended the year at 25.8 months from filing to first action and 34.6 months until issue or abandonment. Unfortunately, due to
       budget reductions necessitated by reduced fee collections many cost saving measures were implemented, which may negatively impact
       patent pendency in the future if applications growth rebounds strongly in the future. Furthermore, the Department has made it a
       priority to lower the patent pendency rate to an acceptable level. Electronic filings did exceed this year’s goal, reaching 82.5 percent
       of total filings.



          Performance Outcome: Optimize trademark quality and timeliness (USPTO)
          FY 2009 Funding Level                                                                                                 $185.5M


       The process involved in reaching this outcome is the examination of trademark applications by trademark attorneys who determine
       registrability under the provisions of the Trademark Act of 1946, as amended. The examination of trademark applications comprises
       many elements, including the utilization of electronic databases to determine whether the mark in an application is confusingly
       similar to any pending or registered mark, the preparation of an office action to inform applicants of the attorney’s findings, the
       approval of applications to be published for opposition, and the examination of Statements of Use filed under the Intent to Use
       provisions of the Trademark Act.


                             Performance Measure                                      Target                  Actual               Status
        Trademark first action compliance rate                                        95.5%                    96.4%                 Met

        Trademark final compliance rate                                               97.0%                    97.6%                 Met

        Trademark first action pendency (months)                                      2.5-3.5                   2.7                  Met

        Trademark average total pendency excluding suspended
                                                                                       13.0                     11.2                 Met
        and inter partes proceedings (months)
        Trademark applications processed electronically                               62.0%                    62.0%                 Met




       Achievements

       In FY 2009, the trademark first action compliance rate was 96.4 percent, above the 95.5 percent compliance target. Similarly, the
       final compliance rate was 97.6 percent, also better than the 97.0 percent target.

       The two primary measures used to determine trademark application processing time are: (1) first action pendency, which measures
       the average time, in months, from the filing date to when the examiner’s first action is taken; and (2) average total pendency, which
       is based on the average time, in months, from the filing date until the notice of abandonment, notice of allowance, or registration
       for applications based on use excluding cases that were previously suspended or were involved in inter partes proceedings at
       the Trademark Trial and Appeal Board. USPTO met its FY 2009 target of 2.5-3.5 months by achieving a first action pendency of
       2.7 months. Trademark average total pendency results were 11.2 months. USPTO met its FY 2009 target of 13.0 months.

       The Trademark organization has created an electronic trademark application record management process by capturing nearly
       100 percent of the application inventory as an electronic file that includes text and image of the initial application and subsequent
       applicant and office correspondence. Examining attorneys use the electronic record to process and examine applications, manage
       their dockets of pending work, and take action on applications.




  96                                               F Y   2 0 0 9   P E R F O R M A N C E    A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                    P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




A new measure was introduced in 2009 to address the major USPTO strategic challenge to complete full electronic workflow and file
management for receiving and processing trademark applications and related documents. This measure reports the percentage of
trademark applications that were filed, processed, and disposed relying completely on electronic systems and communications. This
measure replaced the electronic filing target which has been achieved.



   Performance Outcome: Improve intellectual property protection and enforcement
   domestically and abroad (USPTO)
   FY 2009 Funding Level                                                                                                $43.6M


USPTO plays a leadership role in promoting effective domestic and international protection and enforcement of intellectual
property rights (IPR) by advocating U.S. government IPR policy, working to develop unified standards for international IPR,
providing policy guidance on domestic IPR issues, and fostering innovation. USPTO advises the President and federal agencies on
national and international IPR policy matters and trade-related aspects of IPR, and conducts technical assistance and capacity-
building programs for foreign governments seeking to develop or improve their IPR regulatory and enforcement mechanisms.


                      Performance Measure                                      Target                 Actual              Status
 Percentage of countries on the USTR 301 list, awaiting
 World Trade Organization (WTO) accession, or targeted by
 the Office of Intellectual Property Policy and Enforcement                    40.0%                  54.0%              Exceeded
 (OIPPE) for improvements that have positively amended or
 improved their IP systems
 Number of countries that implemented at least 75% of
 action steps which improve IP protections in the joint                          4                       5               Exceeded
 cooperation, action, or work plans



Achievements

During FY 2009, USPTO continued to improve the enforcement of IP rights in the United States and around the world. USPTO
supported the Office of the U.S. Trade Representative (USTR), Department of State, and other U.S. government agencies in international
negotiations and consultations throughout the year. USPTO attorneys assisted with the drafting, reviewing, and implementation of
IP obligations in bilateral and multilateral treaties and trade agreements, such as Oman’s implementation of its free trade agreement
(FTA) commitments, and ongoing review of Malaysia’s IP regime. In addition, USPTO also continued to participate in the ongoing
negotiations to establish an Anti-Counterfeiting Trade Agreement, a state-of-the art agreement to combat counterfeiting and
piracy, which is intended to assist in the efforts of governments around the world to more effectively combat the proliferation of
counterfeit and pirated goods.

USPTO’s IP experts and their teams posted at American embassies in key locations around the world continued to develop long-
term and direct working relationships with the foreign government agencies and the private sector. They also delivered targeted
capacity-building programs for foreign officials and continuously pressed for stronger legal frameworks for IPR protection, improved
IPR enforcement, greater certainty for U.S. innovators and creators, and enhanced public awareness and support for IPR.




F Y   2 0 0 9   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                         97
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




                                               Strategic Objective 2.3

       Advance global e-commerce as well as telecommunications and information services




             P u b li c B e n e f i t s a n d
           Summary of Performance




        T  
                    his objective focuses on NTIA’s role in radio
                    frequency (RF) spectrum management and tele-
                    communications standards, and as an advisor
       to the President on communications policy matters; Internet
       domain names, wireless telecommunications standards, and
       technology; and high-speed Internet services.

       The Agency’s expertise encompasses every aspect of telecom-
       munications, including domestic policy, international policy,
       spectrum management, and technical telecommunications
       research and engineering.

       Achievement of this objective will continue to further the
       technological advances for wireless communication, Internet
       services, domain name management issues, and other
       advances in technology.

       NTIA’s responsibilities have expanded considerably with the enactment of the Deficit Reduction Act of 2005. Specifically, the
       act charged NTIA to administer a number of new one-time programs to be funded from anticipated spectrum auction proceeds
       associated with the transition to digital television (DTV) broadcasts through the Digital Television Transition and Public Safety
       Fund. These programs include the (1) Public Safety Interoperable Communications (PSIC) Grant Program, and the Digital-to-
       Analog Converter Box Coupon Program, (2) the Digital-to-Analog Converter Box Program, and (3) the Low-Power Television (LPTV)
       and translator digital conversion and upgrade programs. NTIA also leads Department activities in the areas of next-generation
       Internet Protocols, ultrawideband (UWB) technology, wireless broadband applications, wireless sensor technologies, and Internet
       technical functions.



  98                                             F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




Overall performance within this objective has been very strong, meeting or exceeding targets on average 92 percent of the time
from FY 2002 to FY 2009. Performance improved from FY 2002 (50 percent of targets met or exceeded) to FY 2009 (100 percent
of targets met or exceeded). It should be noted, however, that in FY 2002 there were only two measures with one of the targets
missed, hence the 50 percent.



   Performance Outcome: Ensure that the allocation of radio spectrum provides the greatest
   benefit to all people (NTIA)
   FY 2009 Funding Level                                                                                         $37.3M


NTIA examined an array of spectrum management policy issues in FY 2008 dealing with innovative approaches to spectrum
management and the effectiveness of current processes. The availability of the RF spectrum is key to the development and
implementation of innovative telecommunications technologies.


                   Performance Measure                                  Target                 Actual             Status
 Frequency assignment processing time (days)                          9 or fewer                 9                  Met

 Certification request processing time (months)                       2 or fewer                 2                  Met

 Space system coordination request processing time                90% in 14 days or
                                                                                                98%                 Met
                                                                       fewer
 Spectrum plans and policies processing time                       Comments in 15
                                                                                               11 days            Exceeded
                                                                    days or fewer
 Milestones completed from the implementation plan
                                                                    14 milestones           14 milestones           Met
 of the President’s Spectrum Policy Initiative



Achievements

NTIA coordinated with federal agencies on the Spectrum Reform Initiative implementation plan with 54 milestones to be
completed by FY 2010. This initiative will fundamentally change the business of spectrum management over the next five years.
This initiative promotes the development and implementation of a U.S. spectrum policy that will foster economic growth;
ensure U.S. national and homeland security; maintain U.S. global leadership in communications technology development
and services; and satisfy other vital U.S. needs in areas such as public safety, scientific research, federal transportation
infrastructure, and law enforcement. One result is the first National Strategic Spectrum Plan.

NTIA released the “Second Annual Progress Report on the Relocation of Federal Systems from the 1710-1755 MHz Spectrum
Band,” which details progress from the commencement of relocation activity in March 2007 through December 2008. This is
the first federal spectrum band selected for relocation pursuant to the Commercial Spectrum Enhancement Act. The Federal
Strategic Spectrum Plan, which is a major result of the Spectrum Reform Initiative, provides extensive data on federal
spectrum use and plans, including frequency bands, radiocommunication services, and spectrum-dependent systems. Based
on the plan, within the next five years, NTIA will upgrade the federal spectrum management system, consider possible user
fees for federal use of spectrum, develop improved interference models for optimizing spectrum use, implement methods to
better forecast future requirements, and continue to promote interagency and federal/private sector coordination.




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                 99
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




       NTIA has improved the timeliness of processing frequency assignment requests from a target of 12 business days to nine
       days or fewer. This has been accomplished through business process re-engineering and IT improvements. These frequency
       assignments satisfy the near-term and future spectrum requirements of the 63 federal agencies to operate radiocommunications
       that provide the public with national and homeland security, law enforcement, transportation control, natural resource
       management, and other public safety services during peacetime and emergencies.

       NTIA and the Department of Transportation’s (DOT) National Highway Traffic Safety Administration (NHTSA) issued a joint
       Final Rule implementing the E-911 grant program authorized under the Ensuring Needed Help Arrives Near Callers Employing
       911 (ENHANCE 911) Act of 2004. The act authorizes grants for the implementation and operation of Phase II enhanced 911
       services and for migration to an Internet Protocol-enabled emergency network.

       At the end of FY 2009, NHTSA and NTIA announced more than $40 million in grants to 30 states and U.S. territories to
       help 911 call centers across the country improve the ability to locate people calling from wireless and Internet-connected
       telephones. The funds could be used to implement advanced technologies to deliver 9-1-1 calls with automatic crash location
       information as well as evacuation alerts to people using wireless services, warning them of dangerous situations like a bridge
       being washed out or a toxic spill.



          Performance Outcome: Promote the availability, and support new sources, of advanced
          telecommunications and information services (NTIA)
          FY 2009 Funding Level                                                                                        $1,046.7M


       NTIA participated on behalf of the Administration in Federal Communications Commission (FCC) and Congressional proceedings on
       telecommunications policies, including the development of appropriate regulatory treatment for broadband services deployment.
       NTIA made significant progress in implementation of programs required under the Digital Television Transition and Public Safety
       Fund. A number of Internet related policy issues required NTIA action, including continuing Internet privatization, domain name
       management both domestically and internationally, next generation Internet Protocols, and the combination of Internet and
       telecommunications addressing (ENUM). All of these activities required substantial coordination among NTIA’s program offices,
       as well as interagency coordination to develop the Administration’s positions.


                         Performance Measure                                  Target                    Actual                Status
        Support new telecom and information technology
        by advocating Administration views in number of
                                                                          5 dockets and
        FCC docket filings, and Congressional and other                                                   12                  Exceeded
                                                                           proceedings
        proceedings in which Administration views are
        advocated
        Number of Web site views for research publications                75,000/month             75,000/month                 Met




 100                                            F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




Achievements

NTIA successfully launched the DTV Coupon Program on January 1, 2008. The June 12, 2009 DTV transition is now making
available an improved viewing experience, with enhanced picture and sound quality and more programming choices, for
consumers with over-the-air television service. The fact that the DTV transition occurred with minimal disruption and maximum
preparedness is due to the foresight and decisiveness of the President and Congress in enacting the DTV Delay Act and providing
additional funding via the American Recovery and Reinvestment Act (ARRA) of 2009. This legislation extended the final date by
which all full-power television stations were required to transition from analog to digital from February 17 to June 12, 2009.
Efforts by the White House, NTIA, FCC, and numerous private sector stakeholders made a critical difference in decreasing the
number of households unprepared for the final transition when June 12 arrived. Nielsen data after the June 12 transition
indicated that the number of unready households was reduced to less than 2.9 million. Since then, it has dropped even further
to less than 1.5 million unready households. As of July 22, 2009, the DTV Coupon Program has distributed 63.2 million coupons
to more than 34 million households. Of these, 33.5 million coupons have been redeemed at participating retailers.

ARRA directs NTIA, in consultation with FCC, to establish a grant program designed to increase broadband penetration and
adoption in unserved and underserved areas of the United States; provide broadband training and support to schools, libraries,
healthcare providers, and other organizations; improve broadband access to public safety agencies; and stimulate demand
for broadband and economic growth. In addition, the $4.7 billion in funding provided under the act is intended to create jobs
and stimulate economic growth.

On July 1, NTIA released the first Notice of Funds Availability (NOFA) describing the availability of funds and application
requirements for the Broadband Technology Opportunities Program (BTOP) and the USDA’s Rural Utilities Service (RUS)
Broadband Initiatives Program. The NOFA provides detailed information regarding eligibility, definitions, award terms, application
submission, evaluation and selection, and award administration that will guide the disbursement of BTOP funding in the first
round. Up to $1.6 billion in BTOP funds will be available in the first grant round. NTIA is preparing for subsequent rounds of
BTOP funding before all awards are obligated by September 30, 2010. In response to the NOFA, NTIA and RUS have received
almost 2,200 applications requesting nearly $28 billion in funding for proposed broadband projects reaching all 50 U.S. states
and territories and the District of Columbia. Awards in the first grant round will be made in the first quarter of FY 2010.

NTIA, on behalf of the Department, published a Notice of Inquiry seeking public comment regarding the September 30, 2009,
expiration date of its Joint Project Agreement (JPA) with the Internet Corporation for Assigned Names and Numbers (ICANN).
This JPA extended a Memorandum of Understanding (MOU) between the Department and ICANN regarding transitioning
the technical management of the Domain Name System (DNS) to the private sector. The DNS translates numeric Internet
addresses into words, allowing people to navigate the Internet easier.

On September 30, 2009, NTIA and ICANN co-signed an Affirmation of Commitments that completes the transition of the
technical management of the DNS to a multi-stakeholder, private-sector-led model. The affirmation ensures accountability and
transparency in ICANN’s decision-making with the goal of protecting the interests of global Internet users. The affirmation also
establishes mechanisms to address the security, stability, and resiliency of the Internet DNS as well as promote competition,
consumer trust, and consumer choice.

NTIA awarded $19.95 million in funding from the Public Telecommunications Facilities Program (PTFP) account to assist
public radio, public television, and nonbroadcast (distance learning) projects across the country. Almost $11.5 million of the
$19.95 million awarded by NTIA went to 39 grantees to assist in the digital conversion of public television facilities.




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                     101
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




       Thirty-five grants, totaling almost $4.9 million, were awarded to extend new public radio service. These projects will provide
       first public radio service to over 400,000 people and provide additional service to almost two million people.

       Other awards include 34 projects for almost $2.8 million that will replace urgently needed equipment at public radio and
       television stations. Other grants include an award for digital conversion of repeater stations operated by Spokane Public Radio
       and a distance learning grant to Rowan-Cabarrus Community College in Salisbury, NC. One grant was made to National Public
       Radio for a planning project to determine the feasibility of digital conversion of radio reading services from the sideband
       channels of analog FM radio (Subsidiary Communications Authorization service), using consumer HD radio receivers. Included
       in the 112 awards is one grant awarded to the University of Hawaii for $499,641 for the PEACESAT (Pan-Pacific Educational
       and Cultural Experiments by Satellite) Program.




 102                                            F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                     P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




                        Strategic Goal 2 Program Evaluations


       Bureau                           National Institute of Standards and Technology (NIST)

 Program                 National Measurement and Standards Laboratories

 Strategic Objective     Advance measurement science and standards that drive technological change

 Name                    National Research Council (NRC) FY 2009 Assessments
                         Overall, the 2009 NRC assessments attest to NIST’s high quality programs, relevance of work to the
                         measurement and standards needs, and impressive technical merit, as illustrated by the following quotes:

                         ●● Center for Nanoscale Science and Technology (CNST) – “The more mature parts of the CNST are
                             outstanding, especially in terms of the quality and productivity of the staff, the uniqueness of the
                             capabilities, and the alignment with the overall NIST mission. The vector of the newer parts of CNST
                             is positive, with excellent new staff and outstanding laboratories, but there is still significant work to
                             be done to achieve the same level of impact currently enjoyed by the more established efforts.”

                         ●● Chemical Science and Technology Laboratory (CSTL) – CSTL “is meeting its obligations, objectives and
                             desired impacts, and its priorities are appropriate and aligned with NIST’s mission and priorities.”

                         ●● Electronics and Electrical Engineering Laboratory (EEEL) – “The EEEL, equipped with diverse professional
                             skills and comprehensive technical expertise, has demonstrated significant accomplishments in crucial
 Findings                    programs and is ready to take on challenging national strategic programs.”

                         ●● Information Technology Laboratory (ITL) – “Many ITL activities can be characterized as being a national
                             or international resource. In many cases, ITL staff are the only such resource available. In others,
                             they have established a role as the neutral party that is appropriately charged with evenhanded
                             measurement or evaluation of the quality of products.”

                         ●● NIST Center for Neutron Research (NCNR) – “The NCNR has been an extremely reliable and
                             comprehensive neutron scattering facility and will continue to be a vital resource for meeting the
                             broad spectrum of users’ scientific objectives and needs for neutron scattering in the future. During
                             the past year, the NCNR has continued to sustain a high level of creativity, productivity, and quality
                             in science and research to service in industry, academic and government agency users. Half of U.S.
                             neutron scatterers used the facility during the past year, demonstrating the scientific role that the
                             NCNR plays in the country.”

                         The FY 2009 NRC Assessment Reports are available at http://www.nist.gov/director/nrc/.

 Actions as a Result     The findings and comments by the NRC assessment panels are critical components of the NIST performance
 of Evaluation           evaluation system. NIST values this input and works to assure that any identified issues are addressed.




F Y   2 0 0 9   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                          103
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




             Bureau                 National Telecommunications and Information Administration (NTIA)

        Program               Broadband Technology Opportunities Program (BTOP)

        Strategic Objective   N/A

        Name                  The Office of Inspector General (OIG) Recovery Act Flash Report (ARR-19583)
                              NTIA should apply lessons learned from Public Safety Interoperable Communications (PSIC) Program to
        Findings
                              ensure sound management and timely execution of the $4.7 billion BTOP

        Actions as a Result   As NTIA implements the broadband program, it will consider the lessons learned from its administration
        of Evaluation         of PSIC.




 104                                          F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
P e r f o r m a n c e   S e c t i o n




          S t r at eg i c
           G oa l 3
                                                                                  targets met
                          Strategic Objective                                     or exceeded
Protect, restore, and manage the use of coastal and ocean resources (NOAA)           8 of 8
Advance understanding of climate variability and change (NOAA)                       6 of 6
Provide accurate and timely weather and water information (NOAA)                     7 of 11
Support safe, efficient, and environmentally sound commercial navigation (NOAA)      5 of 6
                                                                     P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




                                                  S TRATEG I C GOA L 3

Promote environmental stewardship




      P u b li c B e n e f i t s a n d
    Summary of Performance




 T  
              he Department has responsibilities for the
              environment, ecosystems, safety, and commerce
              of the Nation that span oceanic, coastal,
and atmospheric domains. Understanding the oceans and
atmosphere is essential to sustaining U.S. environmental
and economic health. The Department provides products and
services that are a critical component of the daily decisions
made across the United States. From hurricane tracking to El
Niño and harmful algal bloom predictions, navigational charts
to fish stock assessments, severe weather forecasts to coastal
zone management—the Department’s future-oriented science,
service, and stewardship missions touch the life of every citizen
in the United States and in much of the world every day.

Together the Department and its partners provide weather and
climate services; conduct atmospheric, climate, and ecosystems



F Y   2 0 0 9   P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                               107
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




       research; manage and protect fisheries and sensitive marine ecosystems; promote efficient and environmentally safe commerce and
       transportation; and provide emergency response and vital information in support of homeland security. The breadth and scope of these
       services require the Department to be responsive to both short-term and long-term societal needs.

       Overall performance within this goal has been fairly strong, meeting or exceeding targets on average 76 percent of the time from
       FY 2002 to FY 2009. Performance remained fairly consistent from FY 2002 to FY 2009 rising from 76 percent of targets met or exceeded
       in FY 2002 to 84 percent met or exceeded in FY 2009.




 108                                              F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                    P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




                                         S TRATEG I C OBJECT I VE 3 . 1

Protect, restore, and manage the use of coastal and ocean resources




      P u b li c B e n e f i t s a n d
    Summary of Performance




 C  
              oastal areas are among the most developed in the
              Nation, with over half the population living on
              less than one-fifth of the land in the contiguous
United States. At over 230 persons per square mile, the
population density of the near shore is three times that of
the Nation as a whole. That portion of the U.S. economy that
depends directly on the ocean is also large, with 2.2 million
people employed and over $197 billion in value added to the
national economy in 2000. Approximately 89 million people
vacation and recreate along U.S. coasts every year. The amount
added annually to the national economy by the commercial
and recreational fishing industry alone is over $43 billion with
an additional $1 billion of marine and freshwater aquaculture
sales. With its Exclusive Economic Zone of 3.4 million square
miles, the United States manages the largest marine territory
of any nation in the world. Within this context, the National
Oceanic and Atmospheric Administration (NOAA) works with its partners to achieve a balance between the use and protection of
these resources to ensure their sustainability, health, and vitality for the benefit of this and future generations and their optimal
contribution to the Nation’s economy and society.

Overall performance within this objective has been fairly strong, meeting or exceeding targets on average 84 percent of the time
from FY 2002 to FY 2009. Performance improved from FY 2002 (71 percent of targets met or exceeded) to FY 2009 (100 percent
of targets met or exceeded).




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                        109
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




                         Performance Measure (NOAA)                                 Target                   Actual               Status
        Fish stock sustainability index (FSSI)                                       548.5                    565.5                Met

        Percentage of living marine resources (LMR) with
                                                                                    42.1%                    43.7%                 Met
        adequate population assessments and forecasts
        Number of protected species designated as threatened,
        endangered, or depleted with stable or increasing                              22                      25                  Met
        population levels
        Number of habitat acres restored (annual/cumulative)                     9,000/58,742            9,232/58,974              Met

        Annual number of coastal, marine, and Great Lakes
                                                                                       50                      50                  Met
        ecological characterizations that meet management needs
        Cumulative number of coastal, marine, and Great Lakes
        issue-based forecasting capabilities developed and used                        41                      41                  Met
        for management
        Percentage of tools, technologies, and information
        services that are used by NOAA partners/customers to                          86%                     86%                  Met
        improve ecosystem-based management
        Annual number of coastal, marine, and Great Lakes
        habitat acres acquired or designated for long-term                           2,000                   2,2431                Met
        protection
        1	 Estimate.




       His t o r i c a l T r e n d s

       For the most part, NOAA has consistently met or exceeded its targets for this outcome.



       Achievements

       NOAA Takes Crucial Steps Toward Sustainable Fisheries

       Working with the regional Fishery Management Councils (FMC), NOAA has made significant progress toward ending overfishing
       through the implementation of annual catch limits and accountability measures. NOAA published guidelines for the FMCs to use
       in implementing annual catch limits and accountability measures, which became effective February 17, 2009. NOAA successfully
       worked with the Gulf of Mexico FMC to define annual catch limits and accountability measures for all stocks classified as
       experiencing overfishing in the Gulf of Mexico one year in advance of the 2010 deadline. NOAA also published a proposed rule
       regarding certification procedures to address illegal, unregulated, and unreported fishing activities and bycatch of protected living
       marine resources; published guidelines and procedures for referenda required to establish Limited Access Privilege programs in
       the Northeast and Gulf of Mexico fisheries; published proposed regulations to govern the requests for determinations of fishery
       resource disasters; and drafted a proposed rule to revise National Standard 2 guidelines that mandate the use of the best available
       science. Overall, 54 of 79 specific tasks (68 percent) required by the Magnuson-Stevens Act have been completed, including
       83 percent with a specific deadline. Just five percent have been delayed, and only five percent have had no action taken.




 110                                              F Y   2 0 0 9   P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




NOAA Assists New England Transition to New Groundfish Management Regime

Beginning May 1, 2009, NOAA implemented interim measures to govern Northeast groundfish fisheries. The interim measures strive
to reduce overfishing, continue rebuilding groundfish stocks, and provide more options for fishing businesses trying to mitigate
the economic effects of the measures. The measures will protect the stocks most in trouble while allowing the fishing industry to
target healthier stocks as the fishery rebuilds. They will remain in place until the Council completes and NOAA implements new
measures for Northeast groundfish fishery management, tentatively expected by May 2010. The Council and NOAA are working
together to develop new groundfish management measures that will implement fishing sectors—a group of vessel permit holders
who voluntarily agree to fishing restrictions and procedures in exchange for a share of the total catch allocated to the industry.
This system based on catch shares will replace the current method of limiting fishing through days at sea for those vessels that
join a sector. NOAA committed $16.7 million to assist the Northeast fishing industry with the transition to management of the
fishery by sectors and catch shares. The funds will be used both to develop data reporting and fishery monitoring systems that
will allow transparent and near real-time management of the fishery, and to sponsor cooperative research, with fishermen and
scientists working together to improve surveys of fish stocks and to develop and test fishing gear.

NOAA Awards 50 Grants to Restore Habitat through the American Recovery and Reinvestment Act

On June 30, 2009, NOAA awarded 50 grants for habitat restoration with funds received from the American Recovery and
Reinvestment Act (ARRA) of 2009. The projects will restore thousands of acres of coastal habitat and help jumpstart the Nation’s
economy by supporting thousands of jobs. When complete, the projects will have restored more than 8,700 acres of habitat and
removed obsolete and unsafe dams that will open more than 700 stream miles where fish migrate and spawn. The projects will
also remove more than 850 metric tons of marine debris, rebuild oyster and other shellfish habitat, and protect 11,750 acres to
reduce threats to coral reefs. These projects are located in 22 states and two territories, many in areas of high unemployment,
including California, Oregon, and Michigan. The selected projects will employ Americans with a range of skills including laborers,
nursery workers, design engineers, restoration ecologists, landscape architects, hydrologists, and specialized botanists, and will
create indirect jobs in industries that supply materials and administrative, clerical, and managerial services.

Four Fish Stocks Declared Fully Rebuilt

NOAA reported to Congress in May that four stocks—Atlantic bluefish, Gulf of Mexico king mackerel, and two stocks of monkfish in
the Atlantic—were rebuilt to allow for continued sustainable fishing. This is the largest number of stocks to be declared rebuilt in
a single year since NOAA declared the first stock successfully rebuilt in 2001. Under the Magnuson-Stevens Fishery Conservation
and Management Act, NOAA and the regional FMCs are required to end overfishing and prevent future overfishing, and to
establish rebuilding schedules for overfished stocks. Federal fishery management plans must establish annual catch limits and
accountability measures by 2010 for stocks subject to overfishing, and by 2011 for all other stocks. Overall, 40 stocks remained
subject to overfishing, and 46 were overfished as of June 30, 2009. These represent 16 percent and 23 percent respectively of
those stocks for which the status is known. There were 519 total stocks and stock complexes.

NOAA Takes Key Actions to Protect Endangered North Atlantic Right Whales from Ship Strikes

NOAA implemented several new measures in FY 2009 to protect highly endangered North Atlantic right whales from ship strikes.
The new ship strike reduction measures combined with existing protective actions, including surveying whale migration routes by
aircraft and mandatory ship reporting systems that provide advisories and information on right whale locations to mariners, form
a comprehensive approach to help right whales recover. With approximately 300 whales in the population, these are among the
most endangered whales in the world. Right whales are slow moving and highly vulnerable to ship collisions, since their migration




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                       111
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




       routes cross major East Coast shipping lanes. Thus, the two changes—requiring large ships to reduce speeds to 10 knots in areas
       where the whales feed and reproduce, and moving shipping lanes into Boston—are estimated to reduce the risk of right whale ship
       strikes by 74 percent during April-July. Approximately 3,500 ships move through the entire Boston shipping lanes area every year,
       and more than half of the world’s North Atlantic right whales are known to be in this area during the spring. NOAA researchers
       used more than 20 years of sighting data to determine the risk of whales being struck by ships in and around the Boston shipping
       lanes to help develop these changes.

       NOAA Works With Partners To Deliver Recommendations for Implementing
       the Executive Order for Chesapeake Bay Protection and Restoration

       NOAA launched three interagency teams in June 2009 to develop strategies and actions to meet the charge of Executive
       Order 13508, Chesapeake Bay Protection and Restoration. The Executive Order calls for greater shared federal leadership and
       acceleration of efforts to restore and protect the Chesapeake Bay. In September 2009, NOAA delivered three reports to the
       Executive Order’s Federal Leadership Committee for integration into a coordinated implementation strategy designed to transform
       the Bay’s restoration activities into a true application of ecosystem-based management for the Nation’s largest estuary. These
       reports emphasized actions to connect timely and accurate science to management decisions via a recommended ecosystem-
       based management framework; established priorities to deliver climate information and adaptation strategies to managers and
       jurisdictions for realistic adaptation planning; and drew the connections between protecting and restoring habitats to promoting
       sustainable resources and communities in the watershed. Three overarching actions include the development of a regional climate
       center, introduction of Bay-wide spatial management, and the implementation of ecological forecasting in the Chesapeake Bay
       watershed. Following interagency comment, the final reports and a draft strategy will be published for public comment in
       November 2009.

       NOAA is Proactive Regarding the Effects of Climate Change on Living Marine Resources

       NOAA and the National Science Foundation commissioned the first comprehensive national study of how carbon dioxide emissions
       may be altering fisheries, marine mammals, coral reefs, and other natural resources by reducing the pH of the oceans. Some of
       the most vulnerable species, like clams, crabs, lobsters, mussels, shrimp, and scallops, represent half of the $4 billion value of fish
       harvested annually in U.S. waters. Decline of these species would also have profound effects on entire ecosystems, as shellfish and
       crustaceans provide food for many other species, and coral provides habitat for fish.

       NOAA has initiated a study in collaboration with Louisiana State University and the Naval Research Laboratory to develop an
       ocean model with the capability of predicting the effects of onshore wind-induced movement of water near the ocean surface on
       the distribution of larval fish and shrimp in the northern Gulf of Mexico. Future uses for the model include an assessment of the
       potential effect of climate change on larval fish and shrimp recruitment in the northern Gulf of Mexico.

       New NOAA Report Offers In-depth Look at Northwestern Hawaiian Islands Marine Life,
       Ecosystems, and New Coral Species

       A new NOAA report on the Northwestern Hawaiian Islands (NWHI), protected by the Papahãnaumokuãkea Marine National
       Monument, provides the sharpest picture yet of the region’s marine life and ecosystems. The report, A Marine Biogeographic
       Assessment of the Northwestern Hawaiian Islands, examines the geographic distribution of the island chain’s marine life and
       habitats, and the conditions that determine where they are found. Significant findings include 80 types of coral and 15 whale
       species. Scientists also identified seven new species of bamboo coral discovered on a NOAA-funded mission in the deep waters of




 112                                              F Y   2 0 0 9   P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




the Papahãnaumokuãkea Marine National Monument, a five-foot tall yellow bamboo coral tree never described before, new beds
of living deepwater coral and sponges, a giant “cauldron sponge, ” and other sponges that may represent new species or genera.

Gulf of Mexico Marine Debris Project

The NOAA Marine Debris Program with the Office of Coast Survey completed the Gulf of Mexico Marine Debris Project—surveys
and maps of over 1,550 square nautical miles from Mobile Bay, AL to the Louisiana/Texas border—that located over 7,000 debris
items in offshore fishing and shrimping grounds impacted by Hurricanes Katrina and Rita. The submerged marine debris posed
a hazard to vessel traffic and could have adversely affected commercially viable fishing grounds. NOAA worked closely with the
U.S. Coast Guard, Federal Emergency Management Agency (FEMA), and Louisiana Department of Natural Resources to survey
offshore areas in Louisiana, map the new sonar contacts, and post them on the project Web site providing static maps and global
positioning system (GPS) coordinates easily downloaded and printed, and an interactive mapping option where users can zoom
into a specific area and point on a contact icon for more information.

NOAA and Public/Private Partners Restored Wetlands in Port Arthur, TX

NOAA, the U.S. Fish and Wildlife Service, Texas Commission on Environmental Quality, Texas Parks and Wildlife Department,
and the Texas General Land Office worked with the Chevron Corporation to restore coastal wetlands in Port Arthur, TX, habitats
injured by releases from refinery operations that took place decades ago. The largest restoration occurred in the Lower Neches
Wildlife Management Area near the Gulf of Mexico, where a project restored historic water flow conditions to coastal wetlands.
Estuarine intertidal marsh and coastal wet prairie were created. At the J.D. Murphree Wildlife Management Area, coastal emergent
marsh plant communities have been restored to historical conditions through the installation of berms and other water control
structures. These habitats were restored to compensate the public for the natural resources that were harmed by historical
releases of hazardous substances from the original Clark Chevron refinery in Port Arthur, TX.

New NOAA Condition Reports Describe Resource Conditions at Four Sites
of the National Marine Sanctuary System

Condition reports were published for Flower Garden Banks, Channel Islands, Cordell Bank national marine sanctuaries and the
Papahãnaumokuãkea Marine National Monument. Condition reports are the latest in a new series of publications by the Office
of National Marine Sanctuaries (ONMS) to provide resource managers and the public with a summary of sanctuary resources,
pressures on those resources, current conditions and trends, and management responses to the pressures that threaten the
integrity of the marine environment. Specifically, the reports include information on the status and trends of water quality,
habitat, living resources and maritime archaeological resources, and the human activities that affect them. The reports serve as a
vital and unique tool to determine if the sanctuaries are achieving their resource protection and improvement goals as reflected in
ONMS performance measures established by OMB during a 2004 Program Assessment Rating Tool (PART) evaluation. Additionally,
the reports help identify gaps in current monitoring efforts and highlights areas where additional information is needed. The
data discussed in the reports enables sanctuary staff to not only acknowledge prior changes in resource status, but also provide
guidance for future management challenges.




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      113
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




                                                  S TRATEG I C OBJECT I VE 3 . 2

       Advance understanding of climate variability and change




             P u b li c B e n e f i t s a n d
           Summary of Performance




        S  
                  ociety exists in a highly variable climate system,
                  with conditions changing over the span of seasons,
                  years, decades, and centuries. Given such stresses as
       population growth, drought, and increasing demand for fresh
       water, it is essential for NOAA to provide reliable observations,
       forecasts, and assessments of climate, water, and ecosystems
       to enhance decisionmakers’ ability to minimize climate risks.
       This information supports decisions regarding community
       planning, business management, and natural resource and
       water planning.

       Overall performance within this objective has been fairly
       strong, meeting or exceeding targets on average 87 percent
       of the time from FY 2002 to FY 2009. Performance improved
       from FY 2002 (86 percent of targets met or exceeded) to
       FY 2009 (100 percent of targets met or exceeded).

       In FY 2009, NOAA continued its efforts to obtain the best science through the U.S. Global Change Research Program (USGCRP,
       formerly the Climate Change Science Program) and NOAA Climate Program. NOAA accomplished this through its continuing role
       as lead agency of the interagency USGCRP. In addition, NOAA increased the production of climate information and services for
       decisions, including completion of the USGCRP Synthesis and Assessment Reports, and implementation of the National Integrated
       Drought Information System (NIDIS).




 114                                               F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




                Performance Measure (NOAA)                               Target                    Actual              Status
 U.S. temperature forecasts (cumulative skill score
                                                                              20                    27.5               Exceeded
 computed over the regions where predictions are made)
 Uncertainty in the magnitude of the North American
                                                                    0.40 GtC/year              0.40 GtC/year1            Met
 carbon uptake
 Uncertainty in model simulations of the influence of
                                                                  20% improvement            20% improvement             Met
 aerosols on climate
 Determine the national explained variance (%) for
 temperature and precipitation for the contiguous                Temperature–98.0%           Temperature–98.3%
                                                                                                                         Met
 United States using U.S. Climate Reference Network              Precipitation–95.0%         Precipitation–95.1%
 (USCRN) stations
 Error in global measurement of sea surface
                                                                        0.50ºC                     0.50ºC                Met
 temperature
 Regionally focused climate impacts and adaptation                 37 assessments/             37 assessments/
                                                                                                                         Met
 studies communicated to decisionmakers                              evaluations                 evaluations
 1	 Estimate.




Achievements

New Authoritative Assessment of National, Regional Impacts of Global Climate Change

On June 16, 2009, the USGCRP released the NOAA-led study, “Global Climate Change Impacts in the United States,” a state-
of-the-knowledge report about the observed and projected consequences of climate change for the Nation and its people. The
document is an authoritative scientific report written so as to better inform public and private decision-making at all levels. The
report draws from a large body of scientific information, including the set of 21 Synthesis and Assessment Products from the
USGCRP and the assessments of the Intergovernmental Panel on Climate Change. This report provides a single coherent analysis
of the current understanding of climate change science and identifies gaps that remain in climate science.

USGCRP Completes Suite of 21 Climate Assessment Reports

In 2009, the USGCRP released four NOAA-led Synthesis and Assessment Products that completed the suite of 21 USGCRP
assessments. These reports are richly illustrated documents that provide climate information useful to policymakers and resource
managers across the United States and its territories. These reports join the large body of scientific information included in the
set of 21 Synthesis and Assessment Products from the USGCRP to which NOAA substantially contributed.

New Observing Network in Indian Ocean to Improve Monsoon Prediction

A new array of moored buoys in the Indian Ocean will provide critical climate and ocean data to help scientists predict the
dramatic variations between seasonal monsoon rains and droughts. NOAA’s Pacific Marine Environmental Laboratory in Seattle,
and nine partners from Australia, China, France, India, Indonesia, Japan, and the United States are deploying the Research Moored
Array for African-Asian-Australian Monsoon Analysis and Prediction (RAMA) program. This effort is part of the implementation
of a memorandum of understanding (MOU) signed in April 2008. By the end of 2008, instruments had been deployed at 22 of the
RAMA mooring sites. Contributing organizations intend to complete the full array of 46 moorings by 2012.




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                      115
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




       The new, multi-national network of buoys sited across the historically data-sparse Indian Ocean is designed to address unresolved
       questions related to Indian Ocean variability and to advance monsoon research and forecasting. The research will offer direct
       benefits to society, as monsoon rain is critical to agricultural production that supports a third of the world’s population.

       Guidance for Water Management in a Changing Climate

       A multi-agency report, “Climate Change and Water Resources Management: A Federal Perspective,” was released to the public
       on February 2, 2009. The study presents the best available science to help water managers prepare for, adapt to, and mitigate
       the effects of climate change on the Nation’s water resources. NOAA and the U.S. Geological Survey collaborated with the U.S.
       Army Corps of Engineers and the Bureau of Reclamation to explore strategies for improved water management. The report
       suggests processes that will improve tracking, anticipation, and response to climate change effects. A critical goal of this report
       is to develop effective coordinated, cross-agency early warning systems in support of adaptation as the climate changes. One
       such example is NIDIS. The report serves as an important document for guiding the development of NOAA climate services and
       informing its role as a partner with resource management and environmental science agencies.

       Adaptation Planning Course Aids International Stakeholders

       NOAA staff members developed and delivered a 10-day training program, Planning for Climate Change in the Coastal and Marine
       Environment, in Vietnam, the Philippines, and the Galapagos Islands. The course was completed by approximately 150 participants
       from local marine protected areas and from national, regional, and local governments. NOAA is adapting the curriculum for U.S.
       communities. Climate change adaptation training programs help build resilient communities by educating local governments
       on climate change and its impacts on the marine environment. Training in the Philippines focused specifically in the area of the
       Verde Island Passage, considered to be the world’s center of marine biodiversity. Participants learned strategies for conducting
       vulnerability and risk assessments and varied methods of adaptation planning.

       NOAA Establishes a New Cooperative Institute for Climate and Satellites

       On May 28, 2009, NOAA scientists teamed up with experts from the University of Maryland and North Carolina State University to
       establish a new Cooperative Institute for Climate and Satellites (CICS). The new institute will use satellite observations to detect,
       monitor, and forecast climate change and its impact on the environment, including ecosystems. The CICS will also create new climate
       data records for the Geostationary Operational Environmental Satellite-R series (GOES-R) and the National Polar-orbiting Operational
       Environmental Satellite System (NPOESS). The institute will have two locations, College Park, MD, (CICS-MD) and NOAA’s National
       Climatic Data Center in Asheville, NC (CICS-NC). Other partners include: Howard University, Princeton University, Duke University, the
       University of California at Irvine, Columbia University, the University of Miami, the University of North Carolina at Chapel Hill, Oregon
       State University, Colorado State University, Remote Sensing Systems in Santa Rosa, CA, and the City University of New York.

       New Guide to Improve Climate Literacy

       A guide is now available to help individuals of all ages understand how climate influences them and how they influence climate.
       “Climate Literacy: The Essential Principles of Climate Science” is a product of the USGCRP and was compiled by an interagency group
       led by NOAA; multiple science agencies, several nongovernmental organizations, and numerous individuals contributed to this guide.
       The Climate Literacy guide supports the development of formal and informal educational materials about climate science as well as
       professional development opportunities for educators. The intent is to integrate the framework into national and state education
       standards, and to support teacher workshops to ensure that educators are proficient in teaching the concepts of climate science. The
       release of the guide was announced at the National Science Teachers Association’s 2009 National Conference in New Orleans, LA.




 116                                               F Y   2 0 0 9   P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




                                         S TRATEG I C OBJECT I VE 3 . 3

Provide accurate and timely weather and water information




      P u b li c B e n e f i t s a n d
    Summary of Performance




 T  
             he Department’s role in understanding, observing,
             forecasting, and warning of weather events is
             expanding. The Department is conducting sound,
scientific research and providing integrated observations,
predictions, and advice for decisionmakers who manage
environmental resources, ranging from fresh water supplies
to coastal ecosystems to air quality.

Realizing that the Department’s information and services
bridge both weather and climate timescales, the Department
will continue to collect and analyze environmental data and
issue forecasts and warnings that help protect life and property
and enhance the U.S. economy. The Department is committed
to excellent customer service and depends on its partners in
the private sector, academia, and government to add value and
help disseminate critical weather and climate information. The
Department will expand services to support evolving national needs, including those associated with space weather, freshwater and
coastal ecosystems, and air quality prediction.

Overall performance within this objective has been good, meeting or exceeding targets on average 79 percent of the time from
FY 2002 to FY 2009. Performance dipped from FY 2002 (80 percent of targets met or exceeded) to FY 2009 (64 percent of targets
met or exceeded).




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                    117
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




                             Performance Measure (NOAA)                                              Target                 Actual               Status
        Cumulative percentage of U.S. shoreline and inland
        areas that have improved ability to reduce coastal hazard                                    32%                     32%                   Met
        impacts
        Severe weather warnings for tornadoes (storm-based) –
                                                                                                      12                      121                  Met
        Lead time (minutes)
        Severe weather warnings for tornadoes (storm-based) –
                                                                                                     69%                     66%1            Slightly Below
        Accuracy (%)
        Severe weather warnings for tornadoes (storm-based) –
                                                                                                     72%                     77%1                Not Met
        False alarm rate (%)
        Severe weather warnings for flash floods – Lead time
                                                                                                      49                      73                 Exceeded
        (minutes)
        Severe weather warnings for flash floods – Accuracy (%)                                      90%                     91%                   Met

        Hurricane forecast track error (48 hours) (nautical miles)                                    108                     862                  Met

        Hurricane forecast intensity error (48 hours) (difference in
                                                                                                      13                      142            Slightly Below
        knots)
        Accuracy (%) (threat score) of day 1 precipitation forecasts                                 29%                     30%                   Met

        Winter storm warnings – Lead time (hours)                                                     16                      18                   Met

        Winter storm warnings – Accuracy (%)                                                         91%                     90%             Slightly Below
       1	 Estimate.
       2	 Reflects 2008 target and actual results. 2009 results not available until February 2010.




       FY 2 0 0 9 Miss e d T a r g e t s

         Measure           Severe weather warnings for tornadoes (storm-based) – Accuracy
                           Accuracy has fallen slightly below the FY 2009 goal. The observed performance is typical of other
                           severe weather seasons similar to 2009. These total numbers for the year are much lower than
                           normal. Even through peak tornado season, the very low number of warnings issued do not provide
                           a representative sample of tornado warning performance. The few tornado events observed generally
        Explanation
                           occurred in marginal tornado environments, with most being brief and weak tornadoes reported.
                           These types of events are generally quite challenging for warning forecasters. The performance target
                           was set at an approximate target level, and the deviation from that level is slight. There was no effect
                           on the overall program or activity performance.
        Action             See above. No remedial action taken.




 118                                                          F Y   2 0 0 9       P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




  Measure        Severe weather warnings for tornadoes (storm-based) – False alarm rate
                 FY 2009 has been characterized by an unusually high proportion of weak, brief tornadoes occurring
                 in marginal environments. The number of tornado events through peak season of FY 2009 is low at
                 1,018 events, compared to the total number of events (1,800) for a typical fiscal year. There have been
 Explanation     some improvements in false alarms, though this statistic is still above the goal of 72 percent. The
                 observed performance is typical of other severe weather seasons similar to 2009. The performance
                 target was set at an approximate target level, and the deviation from that level is slight. There was no
                 effect on the overall program or activity performance.
 Action          See above. No remedial action taken.
  Measure        Hurricane forecast intensity error
                 The performance target was set at an approximate target level, and the deviation from that level is
 Explanation
                 slight. There was no effect on the overall program or activity performance.
 Action          See above. No remedial action taken.
  Measure        Winter storm warnings – Accuracy
                 The performance target was set at an approximate target level, and the deviation from that level is
 Explanation
                 slight. There was no effect on the overall program or activity performance.
 Action          See above. No remedial action taken.



His t o r i c a l T r e n d s

NOAA has either consistently met or been slightly below the targets for nearly all its measures since FY 2002.



Achievements

National Tornado Experiment

In the spring of 2009, a collaborative nationwide project exploring the origins, structure, and evolution of tornadoes occurred. The
project, Verification of Origin of Rotation in Tornadoes EXperiment2 (VORTEX2 or V2), is the largest and most ambitious attempt
to study tornadoes in history and involves more than 50 scientists and 40 research vehicles, including 10 mobile radars. Scientists
sampled (and will do so again in 2010) the environment of supercell thunderstorms—violent thunderstorms capable of producing
damaging winds, large hail, and tornadoes—that form over more than 900 miles of the central Great Plains. Areas of focus include
southern South Dakota, western Iowa, eastern Colorado, Nebraska, Kansas, the Texas panhandle and western Oklahoma. The V2
Operations Center will be at the National Weather Center in Norman, OK.

The VORTEX2 teams will be looking to understand how, when, and why tornadoes form. V2 is a program funded by NOAA, the
National Science Foundation, 10 universities, and three non-profit organizations. The original VORTEX program, operated in the
central Great Plains during 1994 and 1995, documented the entire life cycle of a tornado for the first time in history. Recent
improvements in National Weather Service (NWS) severe weather warning statistics may be partly due to the application of
VORTEX findings. V2 will build on the progress made during VORTEX and further improve tornado warnings and short-term severe
weather forecasts.




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                       119
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




       First Wintertime Observations Find Ozone Soaring near Natural Gas Field

       During the past three winters, ozone—normally linked to hot weather and urban pollution—has soared to health-threatening
       levels near a remote natural gas field in northwestern Wyoming. Scientists at NOAA’s Earth System Research Laboratory have
       solved the problem of how ozone can form in cold weather at levels threatening to human health. Their results, published January
       18 in the journal Nature Geosciences, are forcing researchers to rethink the mechanics of ground-level ozone production. The
       NOAA analysis, the first ever for rapid ozone production in cold temperatures, suggests the problem could be more widespread.
       Among other likely areas are Russia, Kazakhstan, Mongolia, and China. Ozone measurements in most of these regions are limited
       or nonexistent in winter.

       The NOAA team found ozone was rapidly produced on frigid February days in 2008 when three factors converged: ozone-
       forming chemicals from the natural gas field, a strong temperature inversion that trapped the chemicals close to the ground, and
       extensive snow cover, which provided enough reflected sunlight to jump-start the needed chemical reactions. Besides motor
       vehicle exhaust, industrial gases, and other urban emissions, it was previously thought that direct sunlight and hot weather were
       also required for high ozone concentrations to occur. Thus, ozone is routinely monitored only between April and October in the
       United States. But from January to March 2008, instruments near the Jonah and Pinedale Anticline natural gas field showed
       that (in 14 days) ozone exceeded the U.S. Environmental Protection Agency’s (EPA) limit of 75 parts per billion averaged over
       eight hours. At times, single-hour averages topped 140 parts per billion—rivaling peak summertime levels of 150 parts per billion
       measured in highly polluted cities. The state of Wyoming issued its first ever wintertime ozone advisories during those months.

       Hurricane Paloma Provides Opportunity for First Rapid Intensity Experiment

       The Atlantic Oceanographic and Meteorological Laboratory’s (AOML) Hurricane Research Division conducted the first-ever
       coordinated rapid intensity experiment in Hurricane Paloma, the second strongest November Atlantic hurricane on record. Better
       understanding how and why hurricanes undergo rapid intensification is important for improving the ability to better predict these
       storms, especially prior to landfall. Improving prediction of rapidly intensifying hurricanes is also a goal of NOAA’s Hurricane
       Forecast Improvement Project. Three NOAA P-3 missions were flown into the core of Paloma while two G-4 research missions
       were conducted in the near-storm environment, Paloma’s maximum winds increased by 50 knots and the mean sea level pressure
       dropped by 38 milibars over 24 hours while the experiment was being conducted. One hundred fifteen GPS drop wind sondes
       were released and data from most of them were transmitted from the aircraft. Fifty-four airborne expendable bathythermographs
       (water temperature probes) were used to sample the upper ocean beneath Paloma. Fourteen Doppler analyses were performed
       and transmitted during the P-3 flights and multiple sets of Super Obs (observations that are reduced by 90 percent for efficient
       model assimilation) were generated for model initialization. Five real-time runs of the high-resolution research model HRS were
       also completed at AOML.

       Storm Surge Model Improved

       To estimate storm surge heights and winds, NOAA’s NWS forecasters and emergency managers can now call up time series
       graphs and display along with surge information from the Sea, Lake and Overland Surges from Hurricanes (SLOSH) program, a
       computerized model run by NOAA’s National Hurricane Center. Other improvements provide additional Geographic Information
       System (GIS) capabilities and options for displaying roads, populated areas, and city boundaries to assist NWS’s Tropical Prediction
       Center to make better use of the SLOSH display for media briefings. To better support NOAA’s Integrated Ocean Observing System
       (IOOS), NOAA delivered real-time water levels and predictions for the SLOSH enhancements to National Hurricane Center’s Center
       for Operational Oceanographic Products and Services (CO-OPS) also provided the Lowest Astronomical Tide/Highest Astronomical
       Tide values statistical tools which are used in the National Hurricane Center storm surge model and are relied upon by Weather
       Forecast Offices and Emergency Managers for public warnings and evacuations.



 120                                             F Y   2 0 0 9   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                    P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




Tool Bolsters Hawaii’s Capacity to Respond to Floods

The Hawaii Flood Response Tool was installed at the Pacific Disaster Center in August 2009. This application assists emergency
managers by improving the state’s ability to respond to floods and flood threats. The application provides centralized access to
real-time data from multiple sources, such as imagery from satellite and radar and data on precipitation, and streamflow. This
information can be easily paired with local GIS data to help emergency managers and first responders make critical decisions
related to flood events.

Tsunami Program

Tsunamis are infrequent, but high-impact natural hazards that have the potential to cause considerable numbers of fatalities, inflict
major damage to infrastructure, and result in significant social upheaval, economic disruption, and environmental degradation
to large coastal sections of the United States. The cost of the economic disruption as a result of a major tsunami damaging
the ports of Los Angeles and Long Beach, CA is estimated to be $1 billion each day the port is closed. As coastal economic
growth and population density increase, so does the risk of economic damage and harm to people from tsunamis. Specific
2009 accomplishments include: (1) published a Tsunami Data Management Plan, a U.S. Tsunami Hazard Assessment Plan, and a
Tsunami Strategic Plan; and (2) developed nine new Coastal Relief Grids for Adak, AK; Wake Island; Midway Atoll; Taholah, WA;
Shemya, AK; Eureka, CA; Ocean City, MD; Pago Pago; and Arena Cove, CA.

For the first time, NOAA scientists have demonstrated that tsunamis in the open ocean can change sea surface texture in a
way that can be measured by satellite-borne radars. The finding could one day help save lives through improved detection and
forecasting of tsunami intensity and direction at the ocean surface. Large tsunamis crossing the open ocean stir up and darken
the surface waters along the leading edge of the wave, according to the study. The rougher water forms a long, shadow-like strip
parallel to the wave and proportional to the strength of the tsunami. That shadow can be measured by orbiting radars and may
one day help scientists improve early warning systems. The research is published online in the journal, Natural Hazards and Earth
System Sciences.

NOAA Installs Dual Polarization Radar Production Prototype

Following the successful completion of the Integration Test Readiness Review in May 2009, NOAA installed the Dual Polarization
modification production prototype on a development radar system in Norman, OK. The Dual Polarization modification represents
the single most significant improvement in weather radar technology since the completion of the Doppler radar deployment in
the mid 1990s and will significantly improve radar precipitation estimation accuracy; its capability to differentiate hail, snow,
and rain; and the general quality of data the radar produces. These improvements will lead to improved severe weather and flood
forecasts.

NOAA Introduces El Niño-Southern Oscillation Alert System

NOAA rolled out its new El Niño-Southern Oscillation (ENSO) Alert System in February 2009. Issued each month, the Alert System
will succinctly describe the onset and status of the ENSO in order to increase understanding among federal and state agencies,
academia, the private sector, and the general public. Climate watches and advisories are a way to heighten awareness in the user
community that a significant climate anomaly exists or might develop and that preparedness measures should be initiated. Recently
the ENSO Alert System was used to communicate accurate and timely forecasts of the 2009 El Niño conditions a month in advance,
and can provide up to a six-month advance notice under certain circumstances. NOAA issued an El Niño watch in June and an
advisory in July. The information from these products promoted early awareness among NWS personnel, customers, and partners of
potential impacts to the 2009 Atlantic Hurricane season and to the Nation for the upcoming winter season 2009-2010.



F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                        121
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




       NOAA Deploys the Community Hydrologic Prediction System to Four River Forecast Centers

       In February 2009, NOAA deployed the Community Hydrologic Prediction System (CHPS) to the first four River Forecast Centers
       (RFC). This system provides valued science, software, and information, thus helping manage water resources and save lives. As
       part of a risk-reduction activity, four RFCs (in Sacramento, CA (California Nevada RFC), Portland, OR (Northwest RFC), Tulsa, OK
       (Arkansas-Red Basin RFC), and Taunton, MA (Northeast RFC)) were migrated to CHPS one year ahead of the remaining nine RFCs.
       This deployment began the next phase in replacing the existing, aging NWS river forecast modeling software system, which has
       been in use since the 1970s. This modernization will enable all 13 RFCs to provide expanded and improved services to their
       partners and customers.

       NOAA Helps Implement International Flash Flood Guidance System

       NOAA has signed an agreement with the Hydrologic Research Center, the U.S. Agency for International Development (USAID),
       and the World Meteorological Organization to implement an International Flash Flood Guidance System. This system is composed
       of 22 regional servers that collect data, run models, and provide developing National Meteorological and Hydrological Services
       around the world with products needed to issue warnings for very small flash flood prone river basins where communities are at
       risk for potential catastrophic flash flooding. The first regional system was funded by USAID and implemented in Central America.
       The second system implemented was in the Mekong countries in Southeast Asia. Two additional systems have been funded and
       are now in the early stages of development with the third system in southern Africa and the fourth in the Middle East.




 122                                             F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




                                          S TRATEG I C OBJECT I VE 3 . 4

Support safe, efficient, and environmentally sound commercial navigation




      P u b li c B e n e f i t s a n d
    Summary of Performance




 U  
                .S. transportation systems are economic
                lifelines for the Nation. As U.S. dependence on
                surface and air transportation grows over the
next 20 years, and as maritime trade doubles, better navigation
and weather information provided by NOAA will be critical to
protect lives, cargo, and the environment. For example, better
aviation weather information could significantly reduce the
$4 billion lost through economic inefficiencies as a result of
weather-related air traffic delays. Improved surface forecasts
and specific user warnings would likely reduce the 7,000
weather-related fatalities and 800,000 injuries annually from
vehicle crashes.

Overall performance within this objective has been good,
meeting or exceeding targets on average 76 percent of the
time from FY 2002 to FY 2009. Performance improved from
FY 2002 (60 percent of targets met or exceeded) to FY 2009 (83 percent of targets met or exceeded).




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                             123
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




                                 Performance Measure (NOAA)                                       Target        Actual             Status
        Reduce the hydrographic survey backlog within navigationally significant
                                                                                                  3,000         3,2191                Met
        areas (square nautical miles surveyed per year)
        Percentage of U.S. counties rated as fully enabled or substantially enabled
                                                                                                  69.0%         72.0%                 Met
        with accurate positioning capacity
        Marine wind speed accuracy (%)                                                            69%            73%                  Met

        Marine wave height accuracy (%)                                                           74%            77%                  Met

        Aviation forecast accuracy of ceiling/visibility (3 mile/1,000 feet or less) (%)          64%            63%             Slightly Below

        Aviation forecast FAR for ceiling/visibility (3 mile/1,000 feet or less) (%)              43%            38%                  Met
        1	 Estimate.




       FY 2 0 0 9 Miss e d T a r g e t s

           Measure       Aviation forecast accuracy of ceiling/visibility
                         The performance target was set at an approximate target level, and the deviation from that level is
        Explanation
                         slight. There was no effect on the overall program or activity performance.
        Action           See above. No remedial action taken.



       Achievements

       NOAA Satellites Helped Rescue 184 People in 2009

       NOAA satellites were key factors in the rescues of 184 people throughout the United States and its surrounding waters in
       2009 thanks to the Search and Rescue Satellite-Aided Tracking (SARSAT) program. In each incident, NOAA satellites detected
       and located a distress signal from an emergency beacon and relayed the information to first responders on the ground. The
       international SARSAT system, called COSPAS-SARSAT, uses a network of satellites to quickly detect and locate distress signals
       from emergency beacons on board aircraft and boats and from handheld personal locator beacons. When a satellite finds the
       location of a distress signal within the United States or its surrounding waters, it is relayed to the SARSAT Mission Control Center
       at NOAA’s Satellite Operations Facility in Suitland, MD, then to a Rescue Coordination Center, operated by either the U.S. Air
       Force for land rescues, or the U.S. Coast Guard for water rescues. Now in its 27th year, COSPAS-SARSAT has been credited with
       supporting more than 25,000 rescues worldwide, including 6,134 in the United States and its surrounding waters.

       NOAA’s National Geophysical Data Center Supports Safe Navigation

       NOAA Satellites and Information’s National Geophysical Data Center has primary archive and data stewardship responsibility for
       NOAA’s Marine Transportation System (MTS) program. In March 2009, NOAA developed a new, much higher resolution model of
       Earth’s magnetic field. This new model and the resultant grid capture not only the field generated from the interior of Earth’s core,
       but also the anomalous field in the crust, a major source of error when navigating by magnetic compass. The new and improved
       model will lead to more accurate navigational capability for ship and aircraft.




 124                                              F Y   2 0 0 9   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




NOAA Expands International Reference Network Adding 43 GPS Stations

The NOAA Continuously Operating Reference Station (CORS) network now contains over 1,200 sites spanning the United States,
its territories, and several foreign countries. NOAA’s National Geodetic Survey (NGS) incorporated 43 new GPS tracking sites
into the CORS network, including 13 new sites established by the Federal Aviation Administration (FAA) as part of their Wide
Area Augmentation System (WAAS) in Alaska, Canada, and Mexico. WAAS provides differential GPS correctors for safe airline
navigation across North America to help precisely determine a position and enable pilots to determine the three-dimensional
location of their aircraft with an accuracy of a few meters. The WAAS network now contains 38 GPS tracking sites.

The CORS network is a critical NOAA product that helps ensure the consistency and accuracy of the Nation’s spatial reference
system. These additional stations are part of a continuing effort by NOAA’s National Ocean Service (NOS) to improve the
accuracy of the spatial reference system and be on the cutting edge of positioning technology. These new sites significantly
improve the geographic coverage of the CORS network and the accuracy with which CORS users can position things, including
property boundaries, transportation arteries, buildings, and other map-worthy objects. The expanded coverage will also benefit
those organizations that apply CORS data to monitor the distribution of water vapor in the atmosphere and the distribution of
free electrons in the ionosphere. Knowing the distribution of water vapor is critical for accurately forecasting severe weather
such as hurricanes, tornadoes, and thunder storms. An overabundance of free electrons in the ionosphere can disrupt those
communications services that involve satellite links. Alternatively, users can submit their GPS data to the Web-based Online
Positioning User Service (OPUS) utility to have NOAA compute such coordinates automatically.

Study: Economic Value of NOAA’s Geodetic Services at $2.4 Billion

According to a new independent study by Leveson Consulting, Jackson, NJ, the National Spatial Reference System (NSRS), the
official U.S. government source for precise latitude, longitude, and elevation measurements, provides more than $2.4 billion in
potential annual benefits to the U.S. economy. Refining and modernizing the system for measuring elevation has the potential to
net an additional $522 million in annual economic benefits. The study analyzed the total economic value of all revenue generated
from private surveying and mapping as well as from related services in the government and non-profit sectors. It also assessed
the potential cost savings due to improved accuracy of position and elevation data. The study found that NOAA’s CORS network—
part of NSRS—provides an estimated $758 million per year in benefits. This advanced system marries the concept of reference
stations on the ground with GPS technology to provide more precise positioning delivered via the Internet. Scientific, military,
and engineering activities usually require accuracy of a few inches versus typical commercial GPS users requiring accuracy of a
few yards.

New NOAA System Improves Safety and Efficiency of Ships in Lake Charles

Mariners can now get free real-time information on water and weather conditions for the Port of Lake Charles, LA, from a new
NOAA ocean observing system at the port. The NOAA Physical Oceanographic Real-Time System (PORTS®) at Lake Charles
provides observations of tides, currents, water and air temperature, barometric pressure, winds, and bridge clearance. PORTS® can
significantly reduce the risk of vessel groundings and increase the amount of cargo moved through the port by enabling mariners
to safely utilize every inch of dredged channel depth. The system also allows large ships to time their arrivals and departures
more efficiently. Governed by the Lake Charles Harbor and Terminal District, the Port of Lake Charles covers 203 square miles in
Calcasieu Parish and accommodates 58 million tons of cargo annually at its public facilities. The functioning of this port is vital
to the national economy and is responsible for 160,498 jobs, $8 billion in earnings, $17 billion in spending, and $800 million in
taxes statewide.




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      125
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




       NOAA’s Survey Teams Respond Quickly to Keep Marine Transportation Moving Safely

       NOAA Office of Coast Survey’s Navigation Response Teams, survey vessels, and contract surveyors responded to survey requests
       in the Nation’s busiest ports in several high risk situations such as:

       ●●   Locating the wreck of the 71-foot fishing vessel LADY MARY which sank 74 miles from the entrance of the Delaware
            River, tragically losing four crew members;

       ●●   Supporting the search for the missing engine of U.S. Airways Flight 1549, the 155-passenger commercial plane which
            made an emergency water landing on the Hudson River;

       ●●   Conducting surveys in Honolulu Harbor in response to reports of container ships “touching bottom” while docking
            because of uncharted and dangerous shoaling around certain pier faces within the harbor;

       ●●   Locating the submerged oil rig ENSCO, which was toppled by Hurricane Ike near Galveston, TX, and posed a real threat
            to oil tanker lightering operations; and

       ●●   Assisting the U.S. Coast Guard and Army Corps of Engineers with salvage operations of a 175-foot derelict barge in the
            Hylebos Waterway and Commencement Bay.

       Coast Survey responds quickly to hydrographic survey needs which benefit both maritime commerce and environmental protection
       by reducing risk of maritime accident in U.S. ports and waterways.

       NOAA Surveys and Maps Critical Coastal Areas with American Recovery and Reinvestment Act Funds

       As announced by Secretary of Commerce Gary Locke at an event on August 23rd in Norfolk, VA, NOAA’s Navigation Services
       programs awarded $40 million in ARRA funds for critical hydrographic survey projects to eight private sector firms in 2009. The
       contracts are for seafloor mapping data to update nautical charts and provide up-to-date information on eight critical coastal
       areas, some that were last surveyed over 70 years ago. To ensure maritime safety—and to avoid ecological disasters—vessels
       require the high degree of accuracy and complete bottom coverage that modern surveys provide. These surveys will provide the
       data necessary for updating nautical charts along coastlines that are experiencing heavy or hazardous marine transport. The
       data strengthens U.S. maritime commerce and international trade for continuing economic growth, and is also very beneficial for
       other uses like storm surge and emergency planning, marine spatial planning, and coastal zone management. When complete, the
       ARRA-funded projects will have charted nearly 2,000 square nautical miles in the Chesapeake Bay, and in the coastal waters of
       Alaska, Washington, California, Louisiana, Alabama, Florida, and Virginia. This work more than doubles the area that would have
       been covered by NOAA’s survey contractors in 2009 without ARRA funds.

       Office of Coast Survey Works to Reduce Hydrographic Survey Backlog

       The NOS Office of Coast Survey addressed the survey backlog with updated hydrographic surveys of critical areas of the United States,
       such as high traffic port areas, areas with known but unsurveyed changes, and areas never before surveyed which make up about
       four percent of the total navigationally significant areas in need of surveys in the United States. The Office of Coast Survey obligated
       contract funds to address survey backlog to deliver roughly 1,380 square nautical miles. The Office of Coast Survey obligated American
       Recovery and Reinvestment Act (ARRA) funded hydrographic survey task orders by August 1, 2009 for over 1,800 square nautical
       miles of additional survey area. Overall the program has acquired 3,476 square nautical miles meeting its FY 2009 3,000 square
       nautical miles target. Without the surveys, ocean bottom conditions that are hazardous to navigation will not be located, identified,
       and placed on nautical charts to help mariners navigate safely and avoid accidents, spills, loss of life, and cargo, and damage to the
       environment. NOAA’s hydrographic data supports planning, management, and science applications in the coastal zone.



 126                                               F Y   2 0 0 9   P E R F O R M A N C E    A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                      P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




                                          M I S S I ON S U P P ORT OBJECT I VE

Provide critical support for NOAA’s mission




 T  
                here are no Government Performance Results Act (GPRA) measures for the Mission Support objective since the
                activities of this objective support the outcomes of the Mission objectives. NOAA is developing new and improving
                existing internal management performance measures for the Mission Support objective.



Achievements

Launched NOAA Geostationary Operational Environmental Satellite-O Series

On June 27, 2009, the Geostationary Operational Environmental Satellite-O series (GOES-O) Satellite was successfully launched
from the Kennedy Space Center. GOES-O successfully reached orbit, joining three other GOES spacecraft that help NOAA forecasters
track life-threatening weather and solar storms by providing reliable satellite coverage to see severe weather as it develops. With
more than a thousand tornadoes touching down in the United States each year and the serious risk posed by hurricanes to residents
along the Gulf and East coastlines, it is critical that GOES-O is in orbit and ready when needed. GOES-O is the second spacecraft in
the GOES-N/O/P series and features significant improvements in the instruments that capture high-resolution images of weather
patterns and atmospheric measurements. The imagery and data NOAA gets from GOES satellites are key to NOAA’s ability to
continuously monitor and diagnose weather in the tropics. Continued improvements in the type and quality of GOES data will
contribute to improvements in tropical cyclone forecasts. GOES-O also provides expanded measurements for space and solar
environment monitoring using a Solar X-Ray Imager (SXI). The SXI data are improving forecasts and warnings for solar disturbances,
protecting billions of dollars of commercial and government assets in space and on the ground and lessening the effect of power
surges for the satellite-based electronics and communications industry. On July 7, 2009, GOES-O was placed in its final orbit and
renamed GOES-14. GOES-14 also contributes to the emerging Global Earth Observation System of Systems (GEOSS). GEOSS is an
ongoing effort among more than 70 nations to develop a worldwide network to monitor the world’s changing climate.




F Y   2 0 0 9     P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                       127
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




       Launched New Polar-orbiting Satellite

       On February 6, 2009, NOAA-N Prime was successfully launched from the Vandenberg Air Force Base in California aboard a Delta-II
       rocket. The new NOAA polar-orbiting operational environmental satellite circles the globe every 102 minutes taking images and
       measurements to support NOAA’s efforts to forecast and monitor the environment. NOAA-N Prime, renamed NOAA-19 after reaching
       orbit, joins NOAA-18 and a European satellite as environmental satellites already in polar orbit that NOAA uses in its forecasts.
       NOAA-19 carries six scientific instruments, two search and rescue instruments, and a data recording system. Unique to this satellite is
       an advanced data collection system that will relay meteorological and oceanographic data—even track migration patterns of wildlife—
       to help researchers improve their study of Earth’s environment. NOAA-19 will support several NOAA programs, including weather
       analysis and forecasting, climate research and prediction, global sea surface temperature measurements, atmospheric soundings of
       temperature and humidity, ocean dynamics research, volcanic eruption monitoring, forest fire detection, global vegetation analysis,
       and search and rescue operations. NOAA-19 will help NOAA monitor current conditions in the atmosphere and oceans and keep tabs
       on long-term climate trends. These data are increasingly important in polar regions, given the potential effects of climate change on
       the polar ice cap and sea ice extent. NOAA is working closely with the European Organization for the Exploitation of Meteorological
       Satellites (EUMETSAT) to ensure polar seamless satellite coverage. Under an agreement, two of NOAA’s polar-orbiting satellites—
       NOAA-18 and NOAA-19—are carrying a EUMETSAT instrument. In return, through 2020, EUMETSAT is carrying key NOAA instruments
       on board its European-built Metop satellites, which fly in morning orbits. NOAA-19 also contributes to GEOSS.

       NOAA Announces GOES-R Spacecraft Awards

       In December 2008, NOAA and National Aeronautics and Space Administration (NASA) officials announced that they selected
       Lockheed Martin Space Systems to build two spacecraft for NOAA’s next generation GOES series, GOES-R. The advanced spacecraft
       and instrument technology used on the GOES-R series will result in more timely and accurate weather forecasts. It will improve
       support for the detection and observations of meteorological phenomena that directly affect public safety, protection of property,
       and ultimately, economic health and development, and give a greater understanding of the changing climate. The first launch of
       the GOES-R series satellite is scheduled for 2015. The Advanced Baseline Imager (ABI) provides significant advancements over
       the current GOES imaging capabilities with three times the spectral, four times the spatial, and more than five times the temporal
       resolution. NWS forecasters will see detailed rapid update images of potentially deadly hurricanes every 30 seconds, instead of the
       current 7.5 minutes. GOES-R will also carry an instrument called the Geostationary Lightning Mapper, which will quickly locate all
       lightning flashes occurring anytime, anywhere in the Western Hemisphere thus aiding in predicting tornadoes, which often spawn
       from lightning-packed thunderstorms. Other benefits include greater monitoring of surface temperatures in metropolitan areas to
       improve warnings for heat stress and better data to bolster the forecasts for unhealthy air quality days. The GOES-R will feature
       advanced solar monitoring instruments for space weather forecasts and warnings of solar storms. These storms endanger billions
       of dollars worth of commercial and government assets in space and cause power surges for the satellite-based electronics and
       communications industry. Geomagnetic storms caused by energetic streams of particles and fields that originate from the Sun
       impact Earth’s magnetic field, interact with the long wires of the power grid, and cause electrical currents to flow in the grid. These
       currents cause imbalances in electrical equipment, reducing its performance and leading to dangerous overheating.

       NOAA Ships and Aircraft

       NOAA’s Office of Marine and Aviation Operations continues to modernize the Agency’s fleet of ships and aircraft to modernize data
       collection and improve data quality. In June 2009, NOAA took delivery of PISCES, the third of four new fisheries survey vessels. The
       ship will support NOAA’s mission to protect, restore, and manage the use of living marine, coastal, and ocean resources. NOAA ship
       ALBATROSS IV ended 45 years of admirable federal service to NOAA following decommissioning ceremonies in November 2008.
       Since entering service in 1963, this grand ship has logged 453 research cruises and sailed an estimated 655,272 miles. ALBATROSS




 128                                              F Y   2 0 0 9   P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




IV is the last of four vessels sharing the same name sailing from Woods Hole since 1883. The original ALBATROSS was the first
built exclusively for marine research by any government. ALBATROSS IV was replaced by the new fishery survey vessel, HENRY B.
BIGELOW, following fish stock assessment comparisons to ensure time-series data quality and consistency.


                        Strategic Goal 3 Program Evaluations

      Program            Office of Oceanic and Atmospheric Research
                         National Severe Storms Laboratory (NSSL)
                         Norman, OK
                         Enhance performance of programs, encourage innovative and collaborative approaches
                         to address scientific and technical issues related to the environment, articulate research
 Strategic Objective
                         contributions toward achieving the NOAA mission, and deliver evidence to stakeholders of
                         the benefits of NOAA research.
 Name                    External Panel Review of NSSL Science, February 17-19, 2009
 Findings                Final summary report of the review panel expected to be received August 2009.
 Actions as a Result     Findings and recommendations in the final summary report will be addressed and actions
 of Evaluation           taken within 12 months of the receipt of the final report.


       Program           Office of Oceanic and Atmospheric Research
                         Geophysical Fluid Dynamics Laboratory (GFDL)
                         Princeton, NJ
                         Enhance performance of programs, encourage innovative and collaborative approaches
                         to address scientific and technical issues related to the environment, articulate research
 Strategic Objective
                         contributions toward achieving the NOAA mission, and deliver evidence to stakeholders of
                         the benefits of NOAA research.
 Name                    External Panel Review of GFDL Science, June 30 – July 2, 2009
 Findings                Final summary report of the review panel expected to be received October 2009.
 Actions as a Result     Findings and recommendations in the final summary report will be addressed and actions
 of Evaluation           taken within 12 months of the receipt of the final report.


       Program           Climate Goal/Climate Service Development Program
                         The Climate Working Group will review cross-program connections, synergies, and gaps;
                         climate information products and applications strategic planning; and recommendations for
 Strategic Objective
                         the way forward. The Climate Service Development Program review will assist the NOAA
                         Climate Goal in advancing NOAA’s Climate Services.
                         Climate Service Development Program Review (Climate Information Products and
 Name                    Applications),
                         July 13 – July 15, 2009, by the Science Advisory Board Climate Working Group.
 Findings                Final summary report of the review panel, date TBA.
 Actions as a Result
                         Findings and recommendations in the final summary report will be addressed.
 of Evaluation




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                129
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




 130                                        F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
P e r f o r m a n c e   S e c t i o n




         M a n ag e m e n t
    I n t eg r at i o n G oa l
                                                                                               targets met
                         P ERFORMANCE o u t c o m e                                            or exceeded
Ensure effective resource stewardship in support of the Department’s programs (DM)                1 of 3

Ensure retention of highly qualified staff in mission-critical positions (DM)                     1 of 1

Acquire and manage the technology resources to support program goals (DM)                         1 of 1

Promote improvements to Department programs and operations by identifying and
completing work that (1) promotes integrity, efficiency, and effectiveness; and (2) prevents      3 of 3
and detects fraud, waste, and abuse (OIG)
                                          P e r f o r m a n c e S e c t i o n * M a n ag e m e n t I n t e g r at i o n g oa l




                                MANAGEMENT I NTEGRAT I ON GOA L

Achieve organizational and management excellence




      P u b li c B e n e f i t s a n d
    Summary of Performance




 A  
              chieving organizational and management
              excellence is a goal that requires extensive
              interaction and coordination among entities
throughout the Department. Departmental Management
(DM)—consisting of the Offices of the Secretary, Deputy
Secretary, Chief Financial Officer (CFO) and Assistant
Secretary for Administration, Chief Information Officer
(CIO), and General Counsel—provides the policies and
guidelines that support the management infrastructure
the Department needs to carry out its mission. In addition,
the Office of Inspector General (OIG) audit and inspection
programs help promote consistency and integrity throughout
the Department. Most of DM’s and the OIG’s work can be
characterized as “behind-the-scenes,” contributing to
the efficiency with which operating units throughout the
Department administer their programs.



F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                         133
P e r f o r m a n c e S e c t i o n * M a n ag e m e n t I n t e g r at i o n g oa l




       Overall performance within this goal has been fairly good, meeting or exceeding targets on average 79 percent of the time from
       FY 2002 to FY 2009. Performance declined slightly from 81 percent of targets met or exceeded in FY 2002 to 75 percent in
       FY 2009. It should be noted, however, that the number of measures went down sharply in FY 2005 from a total of 24 in FY 2004
       to eight in FY 2009. With fewer measures, even one measure shifting from met to not met can make a major change in the
       percentage met or exceeded.


          Performance Outcome: Ensure effective resource stewardship in support of the Department’s
          programs (DM)
          FY 2009 Funding Level                                                                                                              $43.1M


       The Department must have the capacity to do business with the public and its partner agencies, both as a more than $6 billion
       worldwide enterprise, and as an integrated set of individual programs. This requires that it identify, adopt, and maintain business
       practices essential to successful operations; use its resources wisely; and effectively implement the laws that affect it. In order
       to ensure the accomplishment of its mission, the Department has developed and put into place policies and programs designed
       to enable the successful operation of its units, the effective and efficient use of both material and human resources (HR), and
       the implementation of laws and regulations that govern the use of those resources. This performance outcome represents the
       Department’s commitment to ensuring the wise stewardship of its resources. Because this goal encompasses a wide range of
       administrative and operational tasks, the measures used to assess progress are highly diverse.


                  Performance Measure                                      Target                                 Actual                      Status
        Provide accurate and timely financial               ●●   Eliminate any significant         ●●   Completed FY 2009 A-123
        information and conform to federal standards,            deficiency within 1 year of            assessment of internal controls
        laws, and regulations governing accounting               determination                          for financial reporting                Not Met
        and financial management                            ●●   Complete FY 2009 A-123            ●●   One significant deficiency was
                                                                 assessment of internal controls        not eliminated
        Effectively use commercial services                 Use business process re-               Due to change in Administration,
        management                                          engineering, feasibility studies       all new competitive sourcing
                                                            and/or similar initiatives to          comparisons have been placed on
                                                            identify operational efficiency and    hold. The same is true for the Green          Met
                                                            effectiveness opportunitues            Plan.
                                                                                                   2009 FAIR Act Inventory filed timely
                                                                                                   with OMB.
        Obligate funds through performance-based                                                                                             Improved but
                                                                             50%                                     45%
        contracting (% of eligible service contracting $)                                                                                      Not Met




       FY 2 0 0 9 Miss e d T a r g e t s

          Measure         Provide accurate and timely financial information and conform to federal standards, laws, and
                          regulations governing accounting and financial management
                          The Department completed 71 percent of the outstanding information technology (IT) corrective
                          actions for FY 2009. While many IT vulnerabilities were mitigated, the OIG auditors’ used NIST
                          Special Publication 800-53, Recommended Security Controls for Federal Information Systems, to
        Explanation
                          conduct their review of IT controls in support of the FY 2009 Consolidated Financial Statement and
                          continued to find IT control weaknesses, particularly in the areas of access controls and configuration
                          management.
                          The CIO/CFO team will continue to monitor the progress of financial systems IT plans of action and
        Action
                          milestones (POA&M) via the Cyber Security Assessment and Management tool.

 134                                                   F Y   2 0 0 9     P E R F O R M A N C E     A N D       A C C O U N T A B I L I T Y    R E P O R T
                                          P e r f o r m a n c e S e c t i o n * M a n ag e m e n t I n t e g r at i o n g oa l




     Measure      Obligate funds through performance-based contracting
                  The infusion of ARRA funding (e.g. money obligated in the Decennial Census and the DTV coupon
 Explanation      contracts) was not amenable to performance-based contracting and had the effect of skewing final
                  outcomes. Less than optimal procurement infrastructure also contributed to these results.
                  Performance-based contracting continues to be a primary focus in DM, and will be monitored closely
 Action           in FY 2010. Limitations within the procurement infrastructure, e.g., data accuracy and level of staff
                  expertise, continue to be aggressively addressed within the procurement community.



Achievements

●●   Established a Security Operations Center at the Office of the Secretary to safeguard the Department’s information
     resources against malicious Internet attacks. The Security Operations Center is responsible for monitoring the
     organization’s computer components and the network infrastructure.

●●   Conducted an annual IT internal control review for all 14 Department operating units as part of continuous monitoring of
     security improvements. The review comprised Federal Information Security Management Act (FISMA), Federal Financial
     Management Improvement Act (FFMIA), and Federal Managers’ Financial Integrity Act (FMFIA) control requirements.

●●   Continued to participate in the government-wide initiative to strengthen internal controls. Efforts are underway to
     enhance both financial and non-financial controls. Additional efforts and test of internal controls are also being
     implemented for the American Recovery and Reinvestment Act (ARRA) of 2009. A Senior Management Council and
     a Senior Assessment Team worked together to provide oversight guidance and decision-making for the OMB Circular
     A-123 process.

●●   On its FY 2009 financial statements, the Department achieved an unqualified audit opinion for the 11th consecutive
     year.

●●   Provided proactive and timely guidance to the acquisition and grants community in the Department to ensure smooth
     implementation of the ARRA.



     Performance Outcome: Ensure retention of highly qualified staff in mission-critical
     positions (DM)
     FY 2009 Funding Level                                                                                        $2.1M


The Department continues to refine and develop programs to help train and retain a highly qualified workforce and avoid
disruption in services it provides. Leadership priorities for improvement are based on employee feedback to surveys, various
skills assessments, and comprehensive workforce analyses. While performance management systems are effective in rewarding
high performers, more targeted approaches are necessary to close skill gaps in the entire workforce. Training and development
programs are based on competency assessments for mission-critical occupations such as meteorologist, statistician, contract
specialist, engineer, and chemist.




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                135
P e r f o r m a n c e S e c t i o n * M a n ag e m e n t I n t e g r at i o n g oa l




                  Performance Measure                                   Target                                     Actual                    Status
        Acquire and maintain diverse and                ●●   Have new competency models            ●●   Competency models in place
        highly qualified staff in mission-critical           in place for three mission-critical        for four series including
        occupations                                          occupations for use in applicant           budget analyst, meteorologist,
                                                             selections and training and                oceanographer, and hydrologist
                                                             development decisions                 ●●   Average time to fill of 31 days
                                                        ●●   Meet or exceed the 45-day hiring           for non-SES (senior executive
                                                             goals mandated by OPM                      service) vacancies                   Exceeded
                                                        ●●   Train up to 50-60 participants        ●●   100 trainees graduated from
                                                             on leadership development                  leadership development
                                                             programs via ALDP, ELDP and                programs
                                                             APCP                                  ●●   Department employees
                                                        ●●   Open ALDP to Department                    nationwide applied to ALDP
                                                             employees nationwide



       FY 2 0 0 9 S t a t u s

       DM exceeded the targets for implementing new competency models for three mission-critical occupations for use in workforce
       recruitment, training, and development activities and filling vacancies within the 45-day hiring goals mandated by the Office of
       Personnel Management (OPM). DM exceeded the target for training 50-60 employees in the Executive Leadership Development
       Program (ELDP), Aspiring Leaders Development Program (ALDP), and Administrative Professional Certificate Program (APCP).
       DM met the target to open ALDP to Department employees nationwide.



       His t o r i c a l T r e n d s

       DM has consistently met the targets for this measure.



       Achievements

       ●●   Ranked number 10 (out of 62 agencies) in the Best Places to Work in the federal government rankings—the most
            comprehensive and authoritative rating of employee satisfaction and commitment in the federal government—produced
            by the Partnership for Public Service and American University’s Institute for the Study of Public Policy Implementation.

       ●●   Implemented targeted and expedited recruitment strategies to hire more than 2,260 (95 percent of projected 2,380)
            temporary employees to assist in carrying out the Department’s responsibilities under ARRA. Established an accountability
            system for measuring and reporting hiring results. ARRA allocated $7.9 billion to the Department.

       ●●   Exceeded the required federal government-wide standards for the design, implementation, and results of agency
            performance management programs by earning a score of 85 points from OPM on the Performance Appraisal Assessment
            Tool Report. The Department was one of only 16 federal agencies that received a passing score of 80 points or higher.

       ●●   In conjunction with OPM evaluators, conducted comprehensive human capital assessment and accountability audits
            of five organizational units at the bureau level to determine compliance with merit principles. Findings from the
            accountability audits are being tracked to ensure corrective actions are taken and continuous improvements are made
            to the human capital management systems throughout the Department.




 136                                                 F Y   2 0 0 9      P E R F O R M A N C E       A N D      A C C O U N T A B I L I T Y   R E P O R T
                                           P e r f o r m a n c e S e c t i o n * M a n ag e m e n t I n t e g r at i o n g oa l




     Performance Outcome: Acquire and manage the technology resources to support program
     goals (DM)
     FY 2009 Funding Level                                                                                                            $7.6M


As U.S. society becomes increasingly oriented toward using electronic means of communication and information dissemination,
federal agencies must ensure that they continue to be as responsive as possible to the needs of the public, the private sector, other
levels of government, and other federal agencies. DM must promote leading-edge technologies, collaboration, and technology
transformation across the Department, ensuring alignment with mission requirements, goals, and objectives in order to deploy
and maintain systems able to perform at the highest levels.


          Performance Measure                                    Target                                       Actual                  Status
 Improve the management of information           ●●   Cost/schedule overruns/                  ●●   Cost/schedule overruns and
 technology                                           performance shortfalls less                   performance shortfalls averaged
                                                      than 10%                                      under 10%
                                                 ●●   All national-critical and mission-       ●●   CSAM C&A enhancements were
                                                                                                                                       Met
                                                      critical systems certified and                deployed
                                                      accredited with acceptable,              ●●   IT security compliance in all
                                                      quality documentation in place
                                                                                                    operating units and five FISMA
                                                                                                    systems in CSAM were reviewed



His t o r i c a l T r e n d s

DM has consistently met the targets for this measure.



Achievements

●●   Established the Commerce Investment Review Board to provide holistic programmatic assessment of all major Department
     programs, both IT and non-IT. This new board will ensure that Department investments are well managed and of value
     to the taxpayer. In support of the Commerce Investment Review Board, developed solid business cases for major IT
     investments to ensure that IT funds are managed and invested wisely.

●●   Achieved, on average, within five percent of cost, schedule, and performance targets for the Department’s major IT
     investments undergoing development and enhancement.

●●   Prepared privacy impact assessments, including procedures to log and verify extracts of sensitive information, and
     posted them to the Web. These assessments document for the public the Department’s commitment to IT privacy.

●●   Developed policy concerning electronic transmission of personally identifiable information so that Department employees
     will know how such information should be handled.

●●   Updated the Department IT Security Program Policy and created interim policies governing various programs, including
     federal desktop core configuration, foreign travel, IT continuous monitoring, C&A process and mobile media, process
     overview, remote access, password management, peer-to-peer file sharing, role-based training, Bluetooth use with
     BlackBerry, Web application security, inventory management, and POA&M inventory.




F Y   2 0 0 9   P E R F O R M A N C E    A N D        A C C O U N T A B I L I T Y          R E P O R T
                                                                                                                                               137
P e r f o r m a n c e S e c t i o n * M a n ag e m e n t I n t e g r at i o n g oa l




       ●●   Implemented a cyber intrusion prevention system for monitoring and reporting IT security violations at the Herbert
            C. Hoover Building. As a result of this continuous monitoring, the Department detected malicious cyber attacks and
            implemented corrective actions to mitigate potential threats. Acquired the secure Domain Name System (DNS) capability
            to enhance cyber security at the Office of the Secretary.

       ●●   Developed a Trusted Internet Connection (TIC) implementation approach, which will direct all operating unit Internet
            traffic to run through one of several planned TIC access provider portals.


            Performance Outcome: Promote improvements to Department programs and operations by
            identifying and completing work that (1) promotes integrity, efficiency, and effectiveness; and
            (2) prevents and detects fraud, waste, and abuse (OIG)
            FY 2009 Funding Level                                                                                                   $26.5M


       The OIG’s criminal, civil, and administrative investigations continue to disclose instances of misconduct by employees, contractors,
       and grantees that threaten the integrity of the Department’s programs and operations. In addition, auditors or inspectors frequently
       identify investigative issues, such as fraud and conflicts of interest, and refer such matters to the OIG’s investigators.


                       Performance Measure                                    Target                        Actual                  Status
        Percentage of OIG recommendations accepted by
                                                                                95%                           97%                     Met
        Departmental and bureau management
        Dollar value of financial benefit identified by the OIG               $28.0M                        $126.9M                 Exceeded

        Percentage of criminal and civil matters that are
                                                                                63%                           78%                     Met
        accepted for prosecution



       His t o r i c a l T r e n d s

       The OIG has exceeded its performance targets for several years, particularly the target “Dollar value of financial benefits identified
       by the OIG.” The value of financial benefits can vary widely from year to year, depending on the work the OIG is engaged in. For
       example, most of the financial benefits for the last two years have been the result of a single case, which is now ending.



       Achievements

       Almost all of the OIG’s recommendations made were accepted by senior Agency leadership; implementation of these
       recommendations will result in significant improvements to the Department’s operations. The OIG’s inspections and audits also
       captured significant financial benefits for the Department, including recovery of funds returned to the Department, expenditures
       that were not supported by adequate documentation, recoveries from criminal and civil investigations, future financial benefits
       from recommendations for more efficient use of Department funds, and expenditure of funds that may have been inconsistent
       with applicable laws and regulations.




 138                                                  F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y    R E P O R T
F i n a n ci a l S ec t i o n
M e s s ag e f r o m t h e c h i e f f i na n c i a l o f f i c e r




Message from the Chief Financial Officer

T
             his FY 2009 Performance and Accountability Report provides financial and program performance information to
             enable the Department’s stakeholders to understand and evaluate our achievements relative to its mission and
             the resources with which it is entrusted. The report summarizes highlights of the Department’s performance,
             provides detailed financial information, and fulfills the requirements of the Reports Consolidation Act of 2000,
the Chief Financial Officers Act, the Government Performance and Results Act, the Federal Managers’ Financial Integrity Act,
and the Government Management Reform Act.

We are proud to report that in FY 2009 the Department of Commerce achieved an unqualified audit opinion for the eleventh
consecutive year. A previously identified significant deficiency relating to personal property at the National Oceanic and
Atmospheric Administration (NOAA) has been fully addressed; however, the Department must continue working to resolve a
significant deficiency concerning information technology security controls.

Other highlights from FY 2009 include completing the migration of all operating units from the use of Oracle 9i to Oracle 10g,
and initiating work on the Future Financial and Administrative Planning Business Analysis, which will assist the Department
in determining the long-term viability of its Commerce Business System (CBS) platform, and evaluating CBS against other
options available to support the financial management environment.

During the past fiscal year, the Department also initiated the phased migration of the Office of the Chief Financial Officer
and Assistant Secretary for Administration’s financial and enterprise application systems from the CBS Solutions Center in
Gaithersburg, MD and the Office of Computer Services in Springfield, VA. These systems are being relocated to a dedicated,
certified data center operated by the Department of Transportation’s Enterprise Services Center in Oklahoma City, OK. We
continued pursuing the Modernization Blueprint effort by: updating and analyzing the program inventory, implementing a
central portal to house program inventory, evaluating and enhancing review board processes, and designing and developing a
project management framework to standardize and improve delivery across the organization.

We also continued to participate in the government-wide initiative to strengthen internal controls, and we are currently
engaged in enhancing both financial and non-financial controls. These efforts are a reflection of our commitment to excellence
in managing financial systems, and safeguarding financial resources and investment. The Department’s OMB Circular A-123
assessment for FY 2009 identified no material weaknesses in its financial internal controls.

The Department remains committed to maximizing the effectiveness of its programs and ensuring their efficient delivery
to the American people. During FY 2010, we will continue to support mission-related programs with strong and effective
financial management and internal controls.

	



	                                                                           John F. Charles
	                                                                           Acting Chief Financial Officer
	                                                                           and Assistant Secretary for Administration
	                                                                           November 16, 2009



    140
                                               F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F i n a n ci a l M a n ag e m e n t
         a n d A n a lys i s
                                                                          F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




                        FINANCIAL M ANAGE M ENT AND ANALYSIS




 U 
             nder the Secretary’s leadership, the Department is continuing to give the highest priority to providing accurate financial
             data to its internal and external customers, and to its accountability for all assets. Ensuring that there are strong
             internal controls throughout the Department remains a priority. The Department has created a financial management
environment that complies with federal laws and regulations and that provides its executives with timely, accurate financial and
performance information. This is evidenced with the Department continuing to receive unqualified audit opinions, maintaining
a single integrated financial system, and continuing its compliance with the Federal Financial Management Improvement Act
(FFMIA). Highlights of accomplishments for FY 2009 and future initiatives are discussed further below.



                                         FINANCIAL MANAGEMENT SYSTEMS

The Department maintains an FFMIA-compliant financial management system, the Commerce Business Systems (CBS). CBS replaced
non-compliant legacy financial management systems. The financial information from these systems and CBS is integrated in the
Corporate Database (as discussed further below) for consolidated financial reporting, resulting in a single integrated financial
management system.

CBS provides reliable, timely information within a sophisticated security infrastructure. The system is capable of producing both
financial and budget reports from information generated within the financial management system. CBS consists of a Core Financial
System (CFS), including the Commerce Purchase Card System (CPCS) and the Budget and Execution Data Warehouse. CBS is
interfaced with the Commerce Standard Acquisition and Reporting System (CSTARS), the National Finance Center Payroll System,
and the Automated Standard Application for Payments (ASAP). The Office of Financial Management/CBS Solutions Center (OFM/
CSC) successfully migrated CBS to Web-based software architecture (Oracle 10g). This utilization of the Oracle Portal technology
simplified and consolidated access and password control. During FY 2009, the Census Bureau, National Oceanic and Atmospheric
Administration (NOAA), and the National Institute of Standards and Technology (NIST) successfully migrated their production
instances of CBS from Oracle client-server architecture to a Web-based application built upon Oracle 10g. As a result of this
migration, the life expectancy of CBS may reach to 2020.

The Corporate Database is a commercial, off-the-shelf software package for consolidating financial data and producing financial
reports. The Corporate Database is an integrated solution that provides financial statements and Adjusted Trial Balances reported
at the Department, bureau, and Treasury Appropriation/Fund Group level. It also provides the ability to perform data analysis and
produce the Department’s footnotes, financial analysis reports, and other additional information required for the government-
wide financial statements.

During FY 2009, the Department accomplished the following initiatives:

   l	   Completed bureau migration of production instances from Oracle 9i to Oracle 10g.

   l	   Commenced work on the Future Financial and Administrative Planning Business Analysis that will assist the Department in
        analyzing its current financial and administrative environment, determining the long-term viability of its CBS platform, and
        evaluating CBS against other potential options to support its financial management environment.

   l	   Continued to monitor bureau efforts in implementing standardized processes for identified accounting events, and track and
        measure the bureaus’ performance through performance metric reports.



                                                                                                                                 143
F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




   l		Continued      to support the key areas of the Modernization Blueprint effort. This initiative facilitates a critical review and
        prioritization of the Department’s administrative business systems and provides a framework for managing projects from start
        through operation.

   l		Initiated  phased migration planning and implementation for the Chief Financial Officer/Assistant Secretary for Administration
        (CFO/ASA) Financial and Enterprise Application Systems from the CSC in Gaithersburg, MD, and the Office of Computer
        Services in Springfield, VA, to a dedicated, certified data center operated by the Department of Transportation’s Enterprise
        Services Center (DOT/ESC) in Oklahoma City.

   l	   Conducted an evaluation of the new next generation CBS infrastructure “To-Be” platform in order to standardize the CBS
        across the bureaus.

In FY 2010 and beyond, the Department will continue its efforts to enhance its financial systems. The Department plans to
accomplish the following:

   l	   Complete the Future Financial and Administrative Planning Business Analysis and use this information and data to analyze the
        Department’s financial and administrative environment, determine the long-term viability of its CBS platform, evaluate CBS
        against other potential options to support its financial management environment.

   l	   Continue the Modernization Blueprint program, focus on maintaining a comprehensive inventory of programs, initiatives, and
        systems across the CFO/ASA in order to enable Department managers to prioritize and plan resources, and perform better
        analyses of programs and initiatives that are underway or planned through FY 2012.

   l		Maintain and possibly enhance the OFM/CSC Portal that provides for a unified gateway for access to Department administrative
        applications, including single sign-on and self-service administration, as well as hosting the Modernization Blueprint
        program.

   l		Continue   to monitor bureau efforts in implementing standardized processes for identified accounting events, and track and
        measure the bureaus’ performance through performance metrics reports.

   l		Complete    the phased migration planning and implementation for the CFO/ASA Financial and Enterprise Application Systems
        to a dedicated, certified data center operated by the DOT/ESC in Oklahoma City.

   l		Complete    the upgrade of the Department’s Consolidated Financial Reporting Corporate Database.

   l		Determine deployment timeframe for each bureau to standardize the CBS architecture across bureaus and finalize the standard
        configuration document and blueprint on how the bureaus will implement the standard configuration.


                                                  FINANCIAL REPORTING

The Department is committed to making financial management a priority, and significant efforts are being made to further
improve the management of its financial resources. The Department has received unqualified opinions on its consolidated financial
statements since 1999. The Department met the financial statement submission deadlines for FY 2009. These achievements
resulted from the Department’s commitment to strong management controls and accountability for its resources. One significant
deficiency cited for a bureau’s control over personal property was resolved during FY 2009 and the other significant deficiency
relating to deficiencies in general information technology (IT) controls remained from prior years. The Department has corrective
action plans (CAP) in progress to address these deficiencies. In FY 2009, the Department conducted an assessment of the
effectiveness of internal controls over financial reporting in accordance with Office of Management and Budget (OMB) Circular
A-123, Management’s Responsibility for Internal Control, Appendix A, including adhering to the risk-based three-year rotational




 144
                                                 F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                          F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




testing plan. A Senior Management Council (SMC) and a Senior Assessment Team (SAT) worked together to provide oversight
guidance and decision-making for the A-123 implementation process. The final report, which reported no material weaknesses,
was incorporated into management’s overall assurance statement provided under the requirements of the Financial Managers’
Financial Integrity Act (FMFIA). In addition, the Department conducted an improper payment sample testing; the results revealed
no significant improper payment or internal control deficiencies. Overall, the Department’s assessments demonstrate that the
Department has strong internal controls over the disbursement processes, the amounts of improper payment in the Department are
immaterial, and the risk of improper payment is low. See Appendix D for reporting details of the Improper Payments Information
Act (IPIA) of 2002.

The Department accomplished the following initiatives that resulted in meeting the aforementioned goals:

   l		Held  meetings throughout the fiscal year with the Office of Inspector General (OIG) and independent auditors to ensure timely
        completion of the audit and issuance of the financial statements.

   l	   Prepared and monitored CAPs for the significant deficiency and management letter comments and monitored progress towards
        their completion throughout the year.

   l	   Each of the Department’s bureaus/reporting entities has completed an entity-level controls assessment as required by OMB
        Circular A-123, Appendix A.

   l	   Published guidance on the preparation and submission of financial statements, including a calendar of milestone dates. Each
        quarter, with the participation of all bureaus, guidance was reviewed and updated to reflect lessons learned and to identify
        best practices among the bureaus. When necessary, task forces were formed to resolve issues that could have impeded the
        Department’s ability to produce timely, accurate financial statements.

   l		Each    of the Department’s bureaus/reporting entities have currently completed or are performing, over a one to three-year
        period (depending on the size of the entity), improper payment risk assessments covering all of its programs/activities as
        required by OMB Circular A-123, Appendix C. These improper payment risk assessments of the entity’s programs/activities also
        include assessments of the corporate control, procurement, and grants management environments.

   l	   Held monthly or quarterly meetings led by the Department’s Deputy CFO with individual bureau CFOs to discuss financial
        management issues, including financial statements, OMB Circular A-123, and financial performance metrics. These meetings
        were in addition to the Department’s monthly CFO Council meetings led by the Department’s CFO and the monthly Finance
        Officer meetings led by the Deputy CFO.
   l	   Monthly financial metrics were compiled, analyzed, and reported in the government-wide consolidated CFO measurement
        tracking system. Individual bureaus were provided with a monthly status report comparing and analyzing their results with
        the Department’s goals, and the Department and government-wide results. The results of bureaus’ metrics and any corrective
        actions needed were discussed at the bureau CFOs’ individual monthly meetings.

   l	   Facilitated intragovernmental transaction reconciliations using the Department’s Corporate Database application to collect,
        extract, and report on a quarterly basis its intragovernmental account balances, by trading partner, to the Treasury Department.
        The Department took a proactive approach of initiating contact with all trading partner agencies to reconcile large differences.
        Although the Department has seen an improvement in trading partners’ participation, continued improvement is needed in
        order to reconcile all differences.

Although the Department has accomplished much in the area of financial management, there is still a need to improve upon these
accomplishments to ensure that the Department continues to produce and report accurate, reliable, and timely financial information.




                                                                                                                                  145
F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




In FY 2010 and beyond, the Department plans to accomplish the following:

   l		Continue   to enhance OMB Circular A-123, Management’s Responsibility for Internal Controls, process and monitor the
        implementation of the CAPs for any identified deficiencies as a result of the A-123 and financial statement audit process.

   l		Continue to identify areas that will facilitate the acceleration of providing accurate, reliable financial information to Department
        managers and central agencies. This will be achieved through ongoing meetings and workgroups among the Department’s
        financial managers and participation in government-wide financial management committees and workgroups.

   l		Finalize   proposals for revised capitalization thresholds and new bulk purchase thresholds for property, plant, and equipment
        acquisitions.

   l	   Continue to monitor and minimize improper payments.

   l	   Continue to work with OMB, Treasury Department, and the government-wide Central Reporting Team to improve the intra-
        governmental transactions reconciliation process.


                                                  GRANTS MANAGEMENT

Under the CFO/ASA, the Office of Acquisition Management (OAM) is responsible for the Department’s enterprise-wide grants
management policy, projects, and oversight. The Department’s focus is to standardize policy and procedures for its grant and cooperative
agreement programs in order to strengthen compliance, work towards a single automated grants management system, and enhance/
formalize workforce education. Targeted efforts continue to transform the decentralized Department grants management community
into an effective and efficient partnership. The sharing of resources and responsibilities to accomplish enterprise goals is a recurring
theme throughout the partnership effort.

Integral to the Department’s effort to move aggressively into the world of electronic grants is the continued utilization of NOAA’s
Grants Online system, a back-office solution to the Grants.gov storefront. The system, which went live in January 2005, is designed to
facilitate efficiencies through standardized business processes and provide a direct interface to other Departmental systems and with
grant recipients. It continues to demonstrate significant success in reducing paperwork, increasing accountability, and simplifying
the post award process. The Grants Online system has also been identified as the solution to standardizing grants procedures in the
Department. Grants Online is a paperless electronic grants management system that has gained government-wide recognition for
streamlining and accelerating the grants application process. This standardization effort is successfully aligning internal processes
for the Federal Grants Management Line of Business system consolidation efforts.

During FY 2009, operational grants management responsibilities for grant programs of the International Trade Administration (ITA),
Minority Business Development Administration (MBDA), and the Office of the Secretary were transferred from OAM to NOAA. This
action was taken pursuant to the recommendation of the Optimal Services Delivery Initiative, a Department taskforce charged with
streamlining Departmental operations and introducing new efficiencies into the management of its programs. This reorganization
moves the management of these programs from a manual, paper-driven process to the automated environment of Grants Online.
In FY 2009, these three agencies became fully operational in integrating their grant management functions into the electronic
processes of Grants Online. The Department’s Grants Management Line of Business Implementation Plan calls for the consolidation
of all Department grants management operations to Grants Online by 2011.

With the discontinuation of Public Law (PL) 106-107 in 2007, the Department transmitted its final report to Congress in August,
2008. The OAM Grants Management Division will focus the Department’s work in improving efficiency through continued progress in
implementation of the streamlining and automation goals of PL 106-107. Key to that effort will be the creation of a Department-wide



 146
                                                 F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                          F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




training and certification program for grants staff that will align over time with that being developed by the Grants Policy Committee
(GPC) work group on training and certification.

In FY 2009, an intra-departmental project team acting under the authority of the Departmental Grants Council developed an
interactive Web-based course on cost principles for grants and cooperative agreements in collaboration with the Department Office
of Training and Knowledge Management. The course has been launched on the Commerce Learning Center Web site and is available
to all Department personnel. During FY 2009, the project team continued its workforce development efforts by creating a course on
administrative requirements for grants and cooperative agreements. This course will be available on the Commerce Learning Center
Web site during the second quarter of FY 2010.

OAM coordinates quarterly Departmental Grants Council meetings and works closely with the OIG and the Office of General Counsel
to implement sound policy and ensure consistency for the Department’s financial assistance programs. The Department is committed
to the goal of strengthening its grant operations and improving its business processes to provide better services to its customers in
the federal grant recipient community.

The OAM Director and the Director of the Grants Management Division serve on the Grants Executive Board and the Grants Policy
Committee (GPC), participating in workgroups and pilot activities. The Department is now fully compliant with Grants.gov milestones
and has revised its Grants and Cooperative Agreements Manual and Standard Grants Terms and Conditions to recognize the emerging
growth of electronic government. Continued review and updating of the manual will occur to keep pace with the new requirements
engendered by the transition to Grants.gov as the business process model for federal financial assistance programs.

During FY 2009, the Department made significant progress in meeting the data-reporting requirements of the Federal Funding
Accountability and Transparency Act of 2006 (PL 109-282). Significant technical requirements were presented by this act. The
Department is now virtually up to date with its three grant-making bureaus in providing accepted data to the universal Web site,
USAspending.gov, consistent with the goal established in the FY 2008 PAR.

During FY 2009, OAM has sought to reenergize the Department’s suspension and debarment efforts in both contracts and financial
assistance. An internal review indicates that no contractor or grant recipient has been debarred in 15 years. Accordingly, numerous
steps have been taken to strengthen the Department’s oversight and enforcement activities in this area. The Department believes
that several important actions have been taken during this fiscal year to breathe new life into the administration of this important
responsibility.

   l	   The Department has elevated its representation and attendance at monthly meetings of the Interagency Suspension and
        Debarment Committee (ISDC) to the senior executive service (SES) level. The OAM Deputy Director and the Director for
        Acquisition and Workforce Policy will join a representative from the Department’s Federal Assistance Law Division at the ISDC
        meetings to represent the Department’s interests and views.

   l		The   Office of General Counsel and the OIG have commenced joint efforts with OAM to improve the Department’s suspension
        and debarment program.

   l		In summer 2009, the Department’s OIG conducted a full day of training that was widely attended and facilitated by the former
        Chair of the ISDC.

   l	   As a result of renewed focus on the Department’s responsibilities in this area, debarment actions are under review in both the
        grants and contracts offices.




                                                                                                                                147
F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




The Department has not had a smooth and effective performance in providing updates to the Catalogue of Federal Domestic
Assistance (CFDA) for the past several years. This year the OAM Grants Management Division will serve as the point of contact for
CFDA updates and represent the Department at CFDA User Group meetings. The Grants Management Division will coordinate the
response to annual CFDA data calls.

FY 2009 saw the emergence of a major challenge to Department grants and acquisitions personnel and those in other government
agencies with the passage of the American Reinvestment and Recovery Act (ARRA) of 2009. This legislation placed historic
administrative and reporting burdens on agencies as the Department prepared to award the stimulus funds authorized by this act to
mitigate the damage of the worst national recession in 50 years.

OAM is a central player in Department efforts and has responded by establishing core work groups within the Department and
participating in intergovernmental forums to collaborate with the Department’s federal colleagues in the largest economic stimulus
program ever undertaken by the federal government. OAM has led or teamed with collateral Department units to develop numerous
guidance documents on reporting, internal controls, and award terms and conditions specifically targeted to ARRA awards. Web
sites dedicated to ARRA have been established and significant outreach efforts undertaken to support prospective applicants for
ARRA awards. Oversight processes have been developed to meet the requirements of ARRA and to support the continuing goals of
the Administration and the Congress with respect to transparency and accountability.

Under OMB circulars, organizations receiving federal awards are assigned to a single federal agency (cognizant agency) which acts
on behalf of all federal agencies in approving indirect cost and other rates for that organization. The Department is responsible
for reviewing indirect cost proposals (IDC) submitted by assigned grantee organizations and, based on those reviews, negotiates
appropriate indirect cost rates. OAM’s responsibility for the management of this program continued throughout the fiscal year. New
rate review procedures that were implemented during FY 2007 produced greater levels of financial analysis that resulted in financial
savings to the Department through indirect cost rate adjustments from grantees’ proposed rates. Program focus for the coming year
will include continued implementation of stronger internal controls.

ARRA is expected to present a substantial new burden to the Department through a significant increase in the number submission
of IDC proposals by recipients of the stimulus awards. While the exact number of new proposals cannot be predicted at this time, as
many as 4,000 ARRA applications are expected. An estimated 1,000 ARRA awards could be made generating hundreds of new IDC
proposals. OAM is working actively to modify and develop Department agreements for contractual support to meet these demands.

FY 2010 will expand the demands and challenges of 2009 with new legislative initiatives and continued traditional program
requirements. The Department is optimizing the use of its hiring authorities in addition to new resources made available through
ARRA to meet these requirements successfully.



                                                     HUMAN CAPITAL

The Department’s leadership continues to implement and evaluate programs to ensure succession planning in the area of financial
management and to enhance the current workforce development initiatives. Some of the vehicles for making progress in recruitment
and retention include internship programs and leadership development programs. The internship programs are implemented through
a variety of sources to give finance and accounting majors an opportunity to gain hands-on accounting experience, while introducing
potential future employees to the opportunities that exist at the Department. Ongoing training and development opportunities are
offered as a component of continuous learning in the area of financial management.




 148
                                               F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                          F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




In 2009, the Department continued a two-year career internship program for college-level graduates interested in pursuing a
career in federal accounting. The Federal Career Intern Program (FCIP) was established to assist federal agencies in meeting their
workforce needs and to generate a steady stream of high-potential individuals for possible conversion to permanent appointments
in the competitive service. The FCIP is a two-year program that consists of an initial assignment, rotational assignments, formal
classroom training, and mentoring. Individual Development Plans are prepared by the supervisors, in conjunction with the training
officers and the interns, and designed to ensure that the training experiences contain opportunities to gain knowledge and skills
necessary to perform successfully in the program. During the two-year internship, supervisors closely monitor interns to assess their
fitness for continued employment in the federal government. Following successful completion of program requirements, interns are
noncompetitively converted to career or career-conditional appointments. During FY 2009, a class of interns graduated from the
program and a new class was entered the program to begin the two-year term.

In addition to the FCIP, the Department continued its partnership with the National Academy Foundation (NAF) Academy of Finance
(AOF) by employing 10 AOF high school students for the 2009 summer term. NAF students’ participation in the internship and
finance-related activities allowed them to enhance their individual and collective learning experiences and develop newly-acquired
skills in finance. A high percentage of the supervisors that completed the 2009 NAF Program Supervisor Evaluation reported that they
have asked or will ask their intern(s) to return through an internship program, including the Student Temporary Employment Program
and the Student Career Experience Program.

The accounting and budgeting series have been added to the Department-wide list of mission-critical occupations. Therefore, as
a part of comprehensive succession planning, employees at the GS-7 through GS-15 and equivalent levels in the accounting and
budgeting series are eligible to apply for one of the three major leadership programs: Aspiring Leaders Development Program, Executive
Leadership Development Program, or SES Candidate Development Program. These programs include competency assessments, formal
classroom training, developmental assignments, seminars, action learning task team projects, and mentoring sessions. In FY 2009, a
total of five employees in the financial management workforce participated in the Department’s formal leadership programs.

The government-wide CFO Council endorsed the launch of the National Defense University Information Resources College’s CFO
Academy at Fort Lesley McNair in September 2008. The CFO Leadership Certificate program provides a relevant, dynamic curriculum
which focuses on current and future challenges facing government, best practices, strategies of financial management, and the
changing role of the CFO as an organizational leader in 21st century government. The Department and its bureaus had numerous staff
enroll in the certificate program and in professional development courses during FY 2009. Completion of academy courses and/or
certificate program will help both the Department and other federal agencies with developing future financial management leaders.

More than 200 financial management professionals from all levels in the operating units participated in various training sessions
during the three-day Department 2009 Annual Financial Management Conference. The theme, “The 3 Rs of Transition – Retool,
Reinvent, & Rebuild,” was actualized through interactive training modules in the areas of strategic planning to produce results,
ethics, identifying fraud indicators, teambuilding, and improving technical communication skills. Additionally, special sessions were
held to discuss the major challenges, issues, and results in the 2010 Census operations and ARRA, with emphasis on the impact on
the workloads of the financial management workforce.




                                                                                                                                149
F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




                                            Debt Management


                                    RECEIVABLES AND DEBT MANAGEMENT




 T 
          he Department has incorporated the principles of the Credit Reform Act of 1990 into the operations of its credit and debt
          programs. Prescreening procedures, account-servicing standards, determined collection of delinquent debt, inventory
          management, and asset disposition standards have helped to diminish significantly the amount of risk inherent in credit
programs. These procedures were established to ensure that credit costs are properly identified and controlled, that borrowers’
needs are met, and that costs to the taxpayers are minimized.




The Department’s gross receivables, which include direct loans and defaulted guaranteed loans, and accounts receivable, decreased
1.5 percent, from $541 million at September 30, 2008 to $533 million at September 30, 2009, as reported on the Department’s
Treasury Report on Receivables (TROR). The TROR is the primary means for the Department to provide comprehensive information
on its gross receivables and delinquent debt due from the public. Debt over 180 days delinquent decreased from $45 million at
September 30, 2008 to $41 million at September 30, 2009, representing an 8.9 percent decrease. Total delinquencies as a percentage
of gross receivables increased slightly from 9.1 percent at September 30, 2008 to 9.2 percent at September 30, 2009, due to the
decrease in total gross receivables.




 150
                                               F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                          F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




The Debt Collection Improvement Act of 1996 established the Treasury Department as the collection agency for eligible federal
agency debts that are more than 180 days delinquent. It also established Treasury’s Financial Management Service as the federal
government’s debt collection center. Over $24 million in delinquent debt has been referred to Treasury for cross-servicing since
FY 2002. Currently, over 69 percent of the Department’s overall delinquent debt that is eligible for referral to Treasury is in litigation
with the Department of Justice for enforced collection.

During FY 2001, the issuance of the revised Federal Claims Collection Standards and the revised OMB Circular A-129, Policies for
Federal Credit Programs and Non-Tax Receivables, provided agencies greater latitude to maximize the effectiveness of federal debt
collection procedures. Since then, the Department has utilized all the tools available to improve the management of its debt.


                                                P AY M ENT P RACTICES

Electronic Funds Transfer (EFT)

The Debt Collection Improvement Act of 1996 requires the use of EFT for most federal payments, with the exception of tax refunds.
The Department closely monitors its monthly EFT performance, and submits consolidated monthly EFT activity reports to OMB, as part
of the Department’s Performance Metrics data.

The Department’s vendor EFT percentage increased from 98 percent for FY 2008 to 99 percent for FY 2009. The Department
accomplished this, in large part, by working closely with its bureaus to identify opportunities for new or improved business processes.
This improved performance allowed the Department in FY 2009, on average, to meet OMB’s vendor EFT performance goal of 96
percent. The Department’s overall EFT percentage decreased slightly from 99 percent for FY 2008 to 98 percent for FY 2009. This is
primarily due to the need for non-EFT payroll payments to certain 2010 Decennial Census temporary employees. The Department
believes its continued efforts to implement new or improved business processes will lead to further increases in vendor and overall
EFT percentages.




                                                                                                                                    151
F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




The Department’s achievements in this area are illustrated in the table below:


                                                                                                    Total Volume
                                                                                          (Actual Number of Transactions —
                 Payment Category                          EFT Percentage                         EFT and Non-EFT)
                                                    FY 2009              FY 2008             FY 2009                FY 2008
       Grants                                         100%                  100%                  30,577              26,802
       Payroll                                         98%                  99%              2,471,408             1,256,838
       Retirement Benefits                             99%                  99%                    6,081               5,396
       Vendor                                          99%                  98%                  562,441             431,452
       Overall                                         98%                  99%             3,070,507             1,720,488


The substantial increase in the total volume of payroll transactions from FY 2008 to FY 2009 is due to increased FY 2009 payments
to 2010 Decennial Census temporary employees. The increase from FY 2008 to FY 2009 in the total volume of vendor payments is due
to increased FY 2009 payments as a result of significant funding increases, including funding received under ARRA.

Bankcards

The Department is committed to the use of bankcards (purchase cards) as a means of streamlining Departmental procurements.
Bankcard usage is closely monitored, and those bankcards that are no longer needed are promptly closed. This has resulted in an
overall decrease, over the past eight fiscal years, in the number of bankcards in use, from 6,405 at September 30, 2001 to 5,265 at
September 30, 2009. The Department’s emphasis on EFT-compliant payment methods has contributed to an overall increase over the
past eight fiscal years, in bankcard purchases, from $131.6 million in FY 2001 to $148.9 million in FY 2009. The Department continues
to monitor the internal controls surrounding bankcard purchases to ensure that all such purchases are legal and proper.

Prompt Payment

The Prompt Payment Act of 1982 requires agencies to pay their
bills to vendors on a timely basis, and to pay interest penalties
when payments are made late. The Department closely monitors
its prompt payment performance, and submits consolidated
monthly prompt payment activity reports to OMB as part of the
Department’s Performance Metrics data.

The Department has maintained its prompt payment performance
at 98 percent from FY 2008 to FY 2009. The number of invoices
with late-payment interest penalties increased minimally from
4,810 in FY 2008 to 5,014 in FY 2009. The Department continues
to focus on improving its prompt payment percentage by
working closely with its bureaus to identify opportunities for
new or improved business processes.




 152
                                                 F Y   2 0 0 9   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                            F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




        ANALYSIS OF FY 2 0 0 9 FINANCIAL CONDITION AND RES U LTS


 Composition of Assets and Assets by Responsibility Segment




  T             he composition (by percentage) and distribution (by responsibility segment) of the Department’s assets remained
                consistent from September 30, 2008 to September 30, 2009.



 Total assets amounted to $33.96 billion at September 30, 2009. Fund Balance with Treasury of $25.67 billion is the aggregate
 amount of funds available to make authorized expenditures and pay liabilities. General Property, Plant, and Equipment, Net
 of Accumulated Depreciation (General PP&E) of $6.76 billion includes $4.39 billion of Construction-in-progress, primarily
 of satellites and weather measuring and monitoring systems; $776 million of satellites and weather systems; $863 million
 of structures, facilities, and leasehold improvements; and $730 million of other General PP&E. Direct Loans and Loan
 Guarantees, Net of $511 million primarily relates to NOAA’s direct loan programs. Other Assets of $1.02 billion primarily
 includes Advances and Prepayments of $748 million, Inventory, Materials, and Supplies, Net of $146 million, and Accounts
 Receivable, Net of $110 million.




 Trends in Assets

 Total Assets increased $240 million or 1 percent, from $33.72 billion at September 30, 2008 to $33.96 billion at September
 30, 2009. Fund Balance with Treasury decreased $962 million or 4 percent, from $26.63 billion to $25.67 billion, which
 primarily resulted from an increase in Advances and Prepayments of $583 million, and an increase in Construction-in-progress
 of $401 million. General PP&E, Net increased $568 million or 9 percent, from $6.19 billion to $6.76 billion, mainly due
 to the increase in Construction-in-progress. The increase of $583 million in Advances and Prepayments, included in Other
 Assets, is primarily due to increases in advances to other federal agencies for the National Telecommunications and Information
 Administration’s (NTIA) Public Safety Interoperable Communications grant program and for work on NOAA’s Pacific Regional
 Center in Hawaii.




                                                                                                                               153
F Y   2 0 0 9     P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




            NOTE: The significant fluctuation between FY 2007 and FY 2008 assets is primarily due to proceeds of $18.96 billion from the Federal Communications
            Commission auction of licenses for recovered analog spectrum by NTIA in FY 2008.



 Composition of Liabilities and Liabilities by Responsibility Segment

 The composition (by percentage) and distribution (by responsibility segment) of the Department’s liabilities changed significantly
 from September 30, 2008 to September 30, 2009, mainly due to the large decrease of $16.78 billion in the Spectrum Auction
 Proceeds Liability to the Federal Communications Commission (FCC), from $17.18 billion at September 30, 2008 to $400 million
 at September 30, 2009. This liability represents FCC auction proceeds for which licenses have not yet been granted by FCC.
 During FY 2009, the liability was reduced by net auction proceeds for which licenses have been granted of $16.69 billion, and
 these net auction proceeds were recognized as a financing source on the FY 2009 Consolidated Statement of Changes in Net
 Position. The liability was also reduced during FY 2009 for FCC administrative fees and auction bidding credits.

 Total liabilities amounted to $4.62 billion at September 30, 2009. Unearned Revenue of $1.31 billion represents the portion of
 monies received from customers for which goods and services have not been provided or rendered by the Department. Federal
 Employee Benefits Liability of $687 million is composed of the actuarial present value of projected benefits for the NOAA
 Corps Retirement System ($472 million) and the NOAA Corps Post-retirement Health Benefits ($45 million), and Actuarial
 FECA Liability ($171 million), which represents the actuarial liability for future workers’ compensation benefits. Accrued
 Payroll and Annual Leave of $540 million includes salaries and wages earned by employees, but not disbursed as of September
 30, 2009. Accounts Payable of $506 million consists primarily of amounts owed for goods, services, or capitalized assets
 received, progress on contract performance by others, and other expenses due. Debt to Treasury of $487 million consists of
 monies borrowed primarily for NOAA’s direct loan programs. Accrued Grants of $446 million, which relates to a diverse array
 of financial assistance programs and projects, includes the Economic Development Administration (EDA) accrued grants of
 $279 million for its economic development and assistance funding to state and local governments. Other Liabilities of $242
 million primarily includes Environmental and Disposal Liabilities of $61 million, Accrued FECA Liability of $37 million, Accrued
 Benefits of $37 million, and Accrued Coupons for the Digital-to-Analog Converter Box Program of $24 million.




 154
                                                            F Y   2 0 0 9       P E R F O R M A N C E            A N D      A C C O U N T A B I L I T Y           R E P O R T
                                                                          F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




  Trends in Liabilities

  Total Liabilities decreased $16.88 billion or 79 percent, from $21.50 billion at September 30, 2008 to $4.62 billion at
  September 30, 2009. This decrease is mainly due to the large decrease of $16.78 billion in the Spectrum Auction Proceeds
  Liability to FCC, as previously explained. Accrued Coupons for the Digital-to-Analog Converter Box Program decreased
  $141 million or 85 percent, from $165 million to $24 million, due to a large decrease in the number of coupons issued during
  the third quarter of 2009 versus the third quarter of 2008. Unearned Revenue decreased $107 million or 8 percent, from
  $1.42 billion to $1.31 billion, mainly due to fewer patent filings and trademark applications received in FY 2009.




                                                                                                                             155
F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




Composition of and Trends in Financing Sources

The Department’s Financing Sources, shown on the Consolidated
Statements of Changes in Net Position, are traditionally obtained
primarily from Appropriations Received, Net of Reductions. The
composition (by percentage) and dollar amount of the Department’s                       Other
                                                                                         1%
financing sources changed significantly, however, from FY 2008 to                                                         Appropriations
                                                                                                                         Received, Net of
FY 2009, mainly due to the large increase of $14.91 billion, from                                                          Reductions
$1.78 billion for FY 2008 to $16.69 billion for FY 2009, in the                Transfer Out                                    64%
                                                                               of Spectrum
transfers in of spectrum auction proceeds from FCC from the auction          Auction Proceeds
of licenses for recovered analog spectrum held in March 2008. When              to Treasury
                                                                               General Fund
a license is granted by FCC, a financing source is recognized on the                -27%
Consolidated Statements of Changes in Net Position for the earned
                                                                                 Transfers In of
net auction proceed.                                                           Spectrum Auction
                                                                               Proceeds from FCC
                                                                                      62%
Other typical Financing Sources include net transfers to and from
other federal agencies without reimbursement, and imputed
financing sources from cost absorbed by other federal agencies.

Total Financing Sources increased $17.00 billion or 171 percent, from $9.94 billion for FY 2008 to $26.95 billion for FY 2009.
There was a $14.91 billion increase in transfers of spectrum auction proceeds, as explained above. Appropriations Received, Net of
Reductions, increased by $9.63 billion or 125 percent, from $7.71 billion for FY 2008 to $17.34 billion for FY 2009, primarily due
to new ARRA appropriations received of $7.92 billion in FY 2009. On September 30, 2009, NTIA’s Digital Television and Transition
Public Safety Fund transferred $7.36 billion to the General Fund of the Treasury. This transfer is recognized as a FY 2009 negative
financing source. All other financing sources had a net decrease of $166 million, from $450 million for FY 2008 to $284 million
for FY 2009.



FY 2009 Net Cost of Operations by Strategic Goal

In FY 2009, Net Cost of Operations amounted to $9.83 billion, which
consists of Gross Costs of $12.54 billion less Earned Revenue of $2.71
billion.

Strategic Goal 1, Maximize U.S. Competitiveness and Enable Economic
Growth for American Industries, Workers, and Consumers, includes
Net Program Costs of $2.69 billion (Gross Costs of $2.93 billion less
Earned Revenue of $238 million) for the Census Bureau. The Census
Bureau carries out the Decennial Census, periodic censuses, and
demographic and other surveys, and prepares and releases targeted
data products for economic and other programs. ITA’s programs and
activities also support Strategic Goal 1, with Net Program Costs of
$425 million (Gross Costs of $440 million less Earned Revenue of $15
million). ITA assists the export growth of small and medium-sized
businesses, enforces U.S. trade laws and trade agreements, monitors
and maintains trading relationships with established markets,
promotes new business in emerging markets, and improves access to


 156
                                               F Y   2 0 0 9   P E R F O R M A N C E   A N D       A C C O U N T A B I L I T Y   R E P O R T
                                                                          F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




overseas markets by identifying and pressing for the removal of trade barriers. Strategic Goal 1 also includes Net Program Costs of
$319 million (Gross Costs of $340 million less Earned Revenue of $21 million) for EDA. EDA helps distressed communities address
problems associated with long-term economic distress, as well as sudden and severe economic dislocations including recovering
from the economic impacts of natural disasters, the closure of military installations and other federal facilities changing trade
patterns, and the depletion of natural resources.

Strategic Goal 2, Promote U.S. Innovation and Industrial Competitiveness, includes Net Program Costs of $11 million (Gross Costs
of $1.94 billion less Earned Revenue of $1.93 billion) for the U.S. Patent and Trademark Office’s (USPTO) patents and trademark
programs, which includes processing patent applications and disseminating patent information. Through issuing patents, USPTO
encourages technological advancement by providing incentives to invent, invest in, and disclose new technology. NTIA’s programs
and activities also support Strategic Goal 2, with Net Program Costs of $1.17 billion (Gross Costs of $1.20 billion less Earned
Revenue of $32 million). NTIA serves as the principal adviser to the President on domestic and international communications
and information policy-making, promotes access to telecommunications services for all Americans and competition in domestic
and international markets, manages all federal use of the electromagnetic spectrum and generally promotes efficient use of
spectrum, and conducts telecommunications technology research, including standards-setting in partnership with business and
other federal agencies. Strategic Goal 2 also includes Net Program Costs of $519 million (Gross Costs of $690 million less Earned
Revenue of $171 million) for NIST’s Measurement and Standards Laboratories. These laboratories are the stewards of the Nation’s
measurement infrastructure, and provide measurement methods, reference materials, test procedures, instrument calibrations,
fundamental data, and standards that comprise of essential tools for research, production, and buyer-seller transactions.

Strategic Goal 3, Promote Environmental Stewardship, includes Net Program Costs of $1.57 billion (Gross Costs of $1.70 billion less
Earned Revenue of $136 million) related to NOAA’s stewardship of ecosystems, which reflects NOAA’s mission to conserve, protect,
manage, and restore fisheries and coastal and ocean resources. The Department has a responsibility for stewardship of the marine
ecosystem and for setting standards to protect and manage the shared resources and harvests of the oceans. The Department
strives to balance sustainable development and healthy functioning marine ecosystems, and to conserve, protect, restore, and
better manage resources.




                  LI M ITATIONS OF THE FINANCIAL STATE M ENTS

These financial statements have been prepared to report the overall financial position and results of operations of the Department,
pursuant to the requirements of 31 U.S.C. 3515(b). While the statements have been prepared from the books and records of the
Department in accordance with the form and content prescribed by OMB, the statements are in addition to the financial reports
used to monitor and control budgetary resources that are prepared from the same books and records.

These financial statements should be read with the realization that they are for a component of the U.S. government, a sovereign
entity. One implication of this is that liabilities cannot be liquidated without legislation that provides the resources to do so.




                                                                                                                             157
F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




 158
                                            F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
P r i n ci pa l F i n a n ci a l
       S tat e m e n t s
                                                                                      P RINCI P AL FINANCIAL STATE M ENTS




United States Department of Commerce Consolidated Balance Sheets
As of September 30, 2009 and 2008 (In Thousands)
                                                                                                     FY 2009              FY 2008

 ASSETS
        Intragovernmental:
        Fund Balance with Treasury (Notes 2 and 18)                                            $   25,671,762    $       26,633,414
        Accounts Receivable, Net (Note 3)                                                              78,111                64,963
        Other - Advances and Prepayments                                                              696,068               110,087
        Total Intragovernmental                                                                    26,445,941        26,808,464

        Cash (Note 4)                                                                                   3,572                 5,135
        Accounts Receivable, Net (Note 3)                                                              31,429                38,191
        Direct Loans and Loan Guarantees, Net (Note 5)                                                511,092               511,009
        Inventory, Materials, and Supplies, Net (Note 6)                                              145,903               100,595
        General Property, Plant, and Equipment, Net (Note 7)                                        6,758,827             6,190,408
        Other (Note 8)                                                                                 60,021                63,003
        TOTAL ASSETS                                                                           $   33,956,785    $   33,716,805

 Stewardship Property, Plant, and Equipment (Note 23)

 LIABILITIES
     Intragovernmental:
     Accounts Payable                                                                          $      134,877    $         109,931
     Debt to Treasury (Note 10)                                                                       487,275              476,653
     Other
     	 Spectrum Auction Proceeds Liability to Federal Communications Commission (Note 18)             400,451            17,177,707
     	 Resources Payable to Treasury                                                                   22,689                25,792
     	 Unearned Revenue                                                                               337,255               359,411
     	 Other (Note 11)                                                                                 77,795               135,534
        Total Intragovernmental                                                                     1,460,342        18,285,028

        Accounts Payable                                                                              371,067              345,215
        Loan Guarantee Liabilities (Notes 5 and 16)                                                       589                  621
        Federal Employee Benefits (Note 12)                                                           687,434              666,563
        Environmental and Disposal Liabilities (Note 13)                                               60,995               67,863
        Other
        	 Accrued Payroll and Annual Leave                                                            540,082               452,073
        	 Accrued Grants                                                                              446,207               373,525
        	 Accrued Coupons for Digital-to-Analog Converter Box Program                                  24,489               165,533
        	 Capital Lease Liabilities (Note 14)                                                          12,589                30,881
        	 Unearned Revenue                                                                            974,015             1,058,956
        	 Other (Note 11)                                                                              42,956                54,710
        TOTAL LIABILITIES                                                                      $    4,620,765    $   21,500,968

 Commitments and Contingencies (Notes 5, 14, and 16)

 NET POSITION
      Unexpended Appropriations
      	 Unexpended Appropriations - Earmarked Funds (Note 21)                                  $   	 4,890,417   $   	          462
      	 Unexpended Appropriations - All Other Funds                                                  8,246,105            5,179,925
      Cumulative Results of Operations
      	 Cumulative Results of Operations - Earmarked Funds (Note 21)                               10,155,041             1,646,557
      	 Cumulative Results of Operations - All Other Funds                                          6,044,457             5,388,893
        TOTAL NET POSITION                                                                     $   29,336,020    $   12,215,837
        TOTAL LIABILITIES AND NET POSITION                                                     $   33,956,785    $   33,716,805

The accompanying notes are an integral part of these statements.



                                                                                                                               161
F Y   2 0 0 9   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y   R E P O R T
P RINCI P AL FINANCIAL STATE M ENTS




United States Department of Commerce Consolidated Statements of Net Cost
For the Years Ended September 30, 2009 and 2008 (Note 17) (In Thousands)

                                                                                                   FY 2009                        FY 2008


Strategic Goal 1: Maximize U.S. Competitiveness and Enable Economic Growth for American
Industries, Workers, and Consumers
	 Gross Costs                                                                                 $      4,074,978             $        2,499,703
	 Less: Earned Revenue                                                                             	 (280,564)                    	 (301,572)

	 Net Program Costs                                                                                	 3,794,414                    	 2,198,131


Strategic Goal 2: Promote U.S. Innovation and Industrial Competitiveness
	 Gross Costs                                                                                        4,047,583                      3,494,428
	 Less: Earned Revenue                                                                             	 (2,167,582)                  	 (2,071,665)

	 Net Program Costs                                                                                 1,880,001                      1,422,763


Strategic Goal 3: Promote Environmental Stewardship
	 Gross Costs                                                                                        4,417,956                      4,335,967
	 Less: Earned Revenue                                                                             	 (265,632)                    	 (258,048)

	 Net Program Costs                                                                                 4,152,324                      4,077,919


NET COST OF OPERATIONS                                                                        $     9,826,739              $       7,698,813


The accompanying notes are an integral part of these statements.




  162
                                                   F Y   2 0 0 9   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                                                    P RINCI P AL FINANCIAL STATE M ENTS




United States Department of Commerce Consolidated Statements of Changes in Net Position
For the Years Ended September 30, 2009 and 2008 (In Thousands)

                                                                                  FY 2009                                                          FY 2008

                                                         Earmarked                                                        Earmarked
                                                           Funds              All Other         Consolidated                Funds              All Other         Consolidated
                                                         (Note 21)             Funds               Total                  (Note 21)             Funds               Total
Cumulative Results Of Operations:
	 Beginning Balance                                  $       1,646,557    $        5,388,893    $        7,035,450    $         552,347    $        4,891,375    $       5,443,722

Budgetary Financing Sources:
	 Appropriations Used                                    	     364,718             8,939,344             9,304,062        	       4,870             7,049,980            7,054,850
	 Non-exchange Revenue                                          21,432        	            -                21,432               24,171        	            -               24,171
	 Donations and Forfeitures of Cash and
		 Cash Equivalents                                      	           -                  846                   846         	           -                1,039                   1,039
	 Transfers In of Spectrum Auction Proceeds from
		 Federal Communications Commission (Note 18)           	 16,689,557         	             -           16,689,557        	 1,778,983          	             -           1,778,983
	 Transfer Out of Spectrum Auction Proceeds to
		 Treasury General Fund (Note 18)                       	 (7,363,000)        	           -         	 (7,363,000)         	           -        	           -         	           -
	 Transfers In/(Out) Without Reimbursement, Net          	     15,240         	      83,201         	     98,441                 10,394        	     250,844               261,238
	 Other Budgetary Financing Sources/(Uses), Net          	          -         	       1,540         	      1,540          	           -        	         674         	         674

Other Financing Sources (Non-exchange):
	 Donations and Forfeitures of Property                  	           -        	          55         	          55         	           -        	         228         	           228
	 Transfers In/(Out) Without Reimbursement, Net          	           -        	       4,254         	       4,254         	           -        	       3,301         	         3,301
	 Imputed Financing Sources from Cost Absorbed
		 by Others                                             	        981               234,763               235,744                  922               213,321               214,243
	 Downward Subsidy Reestimates Payable to
		 Treasury                                              	           -        	       (3,509)       	       (3,509)       	           -        	      (68,379)       	     (68,379)
	 Other Financing Sources/(Uses), Net                              (27)                1,392                 1,365               10,269                 9,924               20,193

Total Financing Sources                                      9,728,901            9,261,886         18,990,787                1,829,609            7,460,932             9,290,541

Net Cost of Operations                                   (1,220,417)          (8,606,322)           (9,826,739)               (735,399)        (6,963,414)           (7,698,813)

Net Change                                                   8,508,484              655,564             9,164,048             1,094,210              497,518             1,591,728

Cumulative Results of Operations – Ending Balance        10,155,041               6,044,457         16,199,498                1,646,557            5,388,893             7,035,450

Unexpended Appropriations:
	 Beginning Balance                                      	        462              5,179,925             5,180,387        	           -             4,528,905            4,528,905

Budgetary Financing Sources:
	 Appropriations Received (Note 18)                      	 5,350,000              12,012,359            17,362,359        	           -             7,749,948            7,749,948
	 Appropriations Transferred In/(Out), Net               	     (95,328)       	       39,123        	      (56,205)       	       5,332        	        5,430        	       10,762
	 Other Adjustments (Note 18)                            	           1               (45,958)              (45,957)       	           -               (54,378)              (54,378)
	 Appropriations Used                                    	    (364,718)           (8,939,344)           (9,304,062)       	      (4,870)           (7,049,980)           (7,054,850)

Total Budgetary Financing Sources                        	 4,889,955              3,066,180             7,956,135         	        462               651,020              651,482

Unexpended Appropriations – Ending Balance               	 4,890,417          	 8,246,105           	13,136,522           	        462         	 5,179,925           	 5,180,387

NET POSITION                                         $ 	15,045,458        $ 14,290,562          $ 29,336,020          $ 	 1,647,019        $ 10,568,818          $ 12,215,837

The accompanying notes are an integral part of these statements.




                                                                                                                                                                         163
F Y   2 0 0 9   P E R F O R M A N C E        A N D   A C C O U N T A B I L I T Y            R E P O R T
P RINCI P AL FINANCIAL STATE M ENTS




United States Department of Commerce Combined Statements of Budgetary Resources
For the Years Ended September 30, 2009 and 2008 (Note 18) (In Thousands)
                                                                                             FY 2009                                               FY 2008
                                                                                                Non-budgetary Credit                                  Non-budgetary Credit
                                                                          Budgetary          Program Financing Accounts         Budgetary          Program Financing Accounts

BUDGETARY RESOURCES:
Unobligated Balance, Brought Forward, October 1                       $        2,289,356          $         59,577          $          822,282               $           59,011
Adjustments to Unobligated Balance, Brought Forward                       	           77               	       389              	          (12)                  	            -
Recoveries of Prior-years Unpaid Obligations                                     366,362               	     1,515                     116,481                   	        9,115
Budget Authority
	 Appropriations                                                          	 34,069,220                 	         -              	     9,551,341                  	            -
	 Borrowing Authority                                                     	          -                 	    88,368              	       500,200                  	       56,909
	 Spending Authority From Offsetting Collections
		 Earned
			 Collected                                                                  3,482,685                    53,505                    3,313,100                          77,720
			 Change in Receivables                                                         18,868               	         -                        7,190                  	         (518)
		 Change in Unfilled Customer Orders
			 Advances Received                                                             (87,441)             	          -                     (24,925)                 	            -
			 Without Advances                                                              (42,305)             	          -                      26,570                  	            -
		 Previously Unavailable                                                 	         2,113              	          -                       2,475                  	            -
Total Budget Authority                                                      37,443,140                     141,873                  13,375,951                         134,111
Nonexpenditure Transfers, Net                                                    57,381                	          -                     271,193                  	            -
Temporarily Not Available Pursuant to Public Law                          	           -                	          -                      (1,654)                 	            -
Permanently Not Available                                                    (8,326,575)               	    (27,425)                   (719,836)                 	      (56,134)
TOTAL BUDGETARY RESOURCES                                            $ 31,829,741                 $        175,929          $ 13,864,405                     $         146,103

STATUS OF BUDGETARY RESOURCES:
Obligations Incurred
	 Direct                                                              $       12,089,149          $        117,486          $         8,510,374              $           85,807
	 Reimbursable                                                                 3,147,071               	    56,108                    3,064,675                  	          719
Total Obligations Incurred                                                    15,236,220                   173,594                  11,575,049                          86,526
Unobligated Balance
	 Apportioned                                                                  7,800,617               	          -                    806,243                   	            -
	 Exempt From Apportionment                                                      356,139               	          -                    308,833                   	            -
Total Unobligated Balance                                                      8,156,756               	          -                  1,115,076                   	            -
Unobligated Balance Not Available                                               8,436,765              	      2,335                   1,174,280                  	       59,577
TOTAL STATUS OF BUDGETARY RESOURCES                                  $ 31,829,741                 $        175,929          $ 13,864,405                     $         146,103

CHANGE IN UNPAID OBLIGATED BALANCE, NET:
Unpaid Obligated Balance, Net, Brought Forward, October 1                 	                                                     	
	 Unpaid Obligations, Brought Forward                                 $        7,424,863          $    	   215,703          $         7,007,742              $   	      206,855
	 Less: Uncollected Customer Payments, Brought Forward                          (315,067)                     (735)                    (281,307)                 	       (1,253)
Total Unpaid Obligated Balance, Net, Brought Forward                           7,109,796                   214,968                   6,726,435                         205,602
Adjustments to Unpaid Obligations, Brought Forward                        	             -              	          -             	         1,123                  	            -
Obligations Incurred                                                           15,236,220                   173,594                  11,575,049                          86,526
Less: Gross Outlays                                                           (14,221,354)                 (126,503)                (11,042,570)                 	      (68,563)
Less: Actual Recoveries of Prior-years Unpaid Obligations                        (366,362)             	     (1,515)                   (116,481)                 	       (9,115)
Change in Uncollected Customer Payments                                            23,437              	          -                     (33,760)                            518
TOTAL UNPAID OBLIGATED BALANCE, NET, END OF PERIOD                   $         7,781,737          $        260,544          $        7,109,796                         214,968
Unpaid Obligated Balance, Net, End of Period
	 Unpaid Obligations                                                  $        8,073,367          $        261,279          $         7,424,863              $          215,703
	 Less: Uncollected Customer Payments                                           (291,630)                     (735)                    (315,067)                 	         (735)
TOTAL UNPAID OBLIGATED BALANCE, NET, END OF PERIOD                   $         7,781,737          $        260,544          $        7,109,796               $         214,968

NET OUTLAYS:
Gross Outlays                                                         $     14,221,354            $        126,503          $     11,042,570                 $           68,563
Less: Offsetting Collections                                                (3,395,244)                    (53,505)               (3,288,175)                    	      (77,720)
Less: Distributed Offsetting (Receipts)/Outlays, Net                      	   (101,324)                	         -              	    (20,397)                    	            -
NET OUTLAYS                                                          $ 10,724,786                 $         72,998          $        7,733,998               $   	      (9,157)

The accompanying notes are an integral part of these statements.




 164
                                                            F Y   2 0 0 9        P E R F O R M A N C E         A N D      A C C O U N T A B I L I T Y                R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




Notes to the Financial Statements
(All Tables are Presented in Thousands, Unless Otherwise Noted)


   Note 1. Summary of Significant Accounting Policies



A	 Reporting Entity



 T 
           he Department of Commerce (the Department) is a cabinet-level agency of the Executive Branch of the U.S. government.
           Established in 1903 to promote U.S. business and trade, the Department’s broad range of responsibilities includes predicting
           the weather, granting patents and registering trademarks, measuring economic growth, gathering and disseminating
statistical data, expanding U.S. exports, developing innovative technologies, helping local communities improve their economic
development capabilities, promoting minority entrepreneurial activities, and monitoring the stewardship of national assets.
The Department is composed of 12 bureaus, the Emergency Oil and Gas and Steel Loan Guarantee Programs, the National
Intellectual Property Law Enforcement Coordination Council, and Departmental Management.

For the Consolidating Statements of Net Cost (see Note 17), the Department’s entities have been grouped together as follows:

      l	   National Oceanic and Atmospheric Administration (NOAA)
      l	   U.S. Patent and Trademark Office (USPTO)
      l	   Economics and Statistics Administration (ESA) — based on organizational structure
                l	   Bureau of Economic Analysis (BEA)
                l	   Census Bureau
      l	   National Institute of Standards and Technology (NIST)
      l	   National Telecommunications and Information Administration (NTIA)
      l	   Others
                l	   Bureau of Industry and Security (BIS)
                l	   Economic Development Administration (EDA)
                l	   Emergency Oil and Gas and Steel Loan Guarantee Programs (ELGP)
                l	   International Trade Administration (ITA)
                l	   Minority Business Development Agency (MBDA)
                l	   National Intellectual Property Law Enforcement Coordination Council (NIPLEC)
                l	   National Technical Information Service (NTIS)




                                                                                                                                 165
F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




       l		Departmental    Management (DM)
               l	   Franchise Fund
               l	   Gifts and Bequests (G&B)
               l	   Herbert C. Hoover Building Renovation Project (HCHB)

               l	   Office of Inspector General (OIG)
               l	   Salaries and Expenses (S&E)
               l	   Working Capital Fund (WCF)


B	 Basis of Accounting and Presentation
The Department’s fiscal year ends September 30. These financial statements reflect both accrual and budgetary accounting
transactions. Under the accrual method of accounting, revenues are recognized when earned and expenses are recognized when
incurred, without regard to the receipt or payment of cash. Budgetary accounting is designed to recognize the obligation of funds
according to legal requirements, which in many cases is made prior to the occurrence of an accrual-based transaction. Budgetary
accounting is essential for compliance with legal constraints and controls over the use of federal funds.

These financial statements have been prepared from the accounting records of the Department in conformance with U.S. generally
accepted accounting principles (GAAP) and the form and content for entity financial statements specified by the Office of
Management and Budget (OMB) in Revised Circular No. A-136, Financial Reporting Requirements. GAAP for federal entities are
the standards prescribed by the Federal Accounting Standards Advisory Board, which is the official body for setting the accounting
standards of the U.S. government.

Throughout these financial statements, intragovernmental assets, liabilities, earned revenue, and costs have been classified
according to the type of entity with whom the transactions were made. Intragovernmental assets and liabilities are those from
or to other federal entities. Intragovernmental earned revenue represents collections or accruals of revenue from other federal
entities, and intragovernmental costs are payments or accruals to other federal entities.

The Department is a party to allocation transfers with other federal agencies as both a transferring (parent) entity and/or a
receiving (child) entity. Allocation transfers are legal delegations by one department of its authority to obligate budget authority
and outlay funds to another department. A separate fund account (allocation account) is created in the U.S. Treasury as a
subset of the parent fund account for tracking and reporting purposes. All allocation transfers of balances are credited to this
account, and subsequent obligations and outlays incurred by the child entity are charged to this allocation account as they
execute the delegated activity on behalf of the parent entity. Generally, all financial activity related to these allocation transfers
(e.g. budget authority, obligations, and outlays) is reported in the financial statements of the parent entity, from which the
underlying legislative authority, appropriations, and budget apportionments are derived. EDA allocates funds, as the parent, to
the U.S. Department of Agriculture’s Rural Development Administration. Therefore, all financial activity related to these funds
are reported in the Department’s financial statements. NIST, NOAA, EDA, Census Bureau, BEA, NTIS, and USPTO receive allocation
transfers, as the child, from the General Services Administration, Environmental Protection Agency, Delta Regional Authority,
and Appalachian Regional Commission. Activity relating to these child allocation transfers is not reported in the Department’s
financial statements.




 166
                                                F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




C	 Earmarked Funds
Earmarked funds are financed by specifically identified revenues, often supplemented by other financing sources, which remain
available over time. These specifically identified revenues and other financing sources are required by statute to be used for
designated activities, benefits, or purposes, and must be accounted for separately from the government’s general revenues.
Earmarked funds include a general fund, public enterprise revolving funds (not including credit reform financing funds), special
funds, and a trust fund. (See Note 21, Earmarked Funds.)



D	 Elimination of Intra-entity and Intra-Departmental Transactions and Balances
Transactions and balances within a reporting entity (intra-entity) have been eliminated from the financial statements, except
as noted below. Transactions and balances among the Department’s entities (intra-Departmental) have been eliminated from
the Consolidated Balance Sheets, the Consolidated Statements of Net Cost, and the Consolidated Statements of Changes in Net
Position. The Statements of Budgetary Resources are presented on a combined basis; therefore, intra-Departmental and intra-
entity transactions and balances have not been eliminated from these statements.



E	 Fund Balance with Treasury
Fund Balance with Treasury is the aggregate amount of funds in the Department’s accounts with the U.S. Department of the
Treasury (Treasury). Deposit Funds primarily represent the Spectrum Auction Proceeds Liability to the Federal Communications
Commission (FCC) and amounts held in customer deposit accounts.

Treasury processes cash receipts and disbursements for the Department’s domestic operations. Cash receipts and disbursements
for the Department’s overseas operations are primarily processed by the U.S. Department of State’s financial service centers.



F	 Accounts Receivable, Net
Accounts Receivable are recognized primarily when the Department performs reimbursable services or sells goods. Accounts
Receivable are reduced to net realizable value by an Allowance for Uncollectible Accounts. This allowance is estimated periodically
using methods such as the identification of specific delinquent receivables, and the analysis of aging schedules and historical
trends adjusted for current market conditions.



G	 Advances and Prepayments
Advances are payments the Department has made to cover a part or all of a grant recipient’s anticipated expenses, or are
advance payments for the cost of goods and services to be acquired. For grant awards, the recipient is required to periodically
(monthly or quarterly) report the amount of costs incurred. Prepayments are payments the Department has made to cover certain
periodic expenses before those expenses are incurred, such as subscriptions and rent. Advances and Prepayments are included in
Other Assets.




                                                                                                                             167
F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




H	 Direct Loans and Loan Guarantees
A direct loan is recorded as a receivable after the Department disburses funds to a borrower. The Department also makes loan
guarantees with respect to the payment of all or part of the principal or interest on debt obligations of non-federal borrowers to
non-federal lenders. A borrower-defaulted loan guaranteed by the Department is recorded as a receivable from the borrower after
the Department disburses funds to the lender.

Interest Receivable generally represents uncollected interest income earned on loans. For past-due loans, only up to 180 days of
interest income is generally recorded.

Foreclosed Property is acquired primarily through foreclosure and voluntary conveyance, and is recorded at the fair market value
at the time of acquisition. Foreclosed Property is adjusted to the current fair market value each fiscal year-end.

Direct Loans and Loan Guarantees Obligated before October 1, 1991 (pre-FY 1992): Loans Receivable are reduced by an Allowance for
Loan Losses, which is based on an analysis of each loan’s outstanding balance. The value of each receivable, net of any Allowance
for Loan Losses, is supported by the values of pledged collateral and other assets available for liquidation, and by the Department’s
analysis of financial information of parties against whom the Department has recourse for the collection of these receivables.

The Economic Development Revolving Fund is required to make annual interest payments to Treasury after each fiscal year-end,
based on its outstanding receivables at September 30.

Direct Loans and Loan Guarantees Obligated after September 30, 1991 (post-FY 1991): Post-FY 1991 obligated direct loans and loan
guarantees and the resulting receivables are governed by the Federal Credit Reform Act of 1990.

For a direct or guaranteed loan disbursed during a fiscal year, a subsidy cost is initially recognized. Subsidy costs are intended to
estimate the long-term cost to the U.S. government of its loan programs. The subsidy cost equals the present value of estimated
cash outflows over the life of the loan, minus the present value of estimated cash inflows, discounted at the applicable Treasury
interest rate. Administrative costs such as salaries are not included in the subsidy costs. Subsidy costs can arise from interest rate
differentials, interest subsidies, delinquencies and defaults, loan origination and other fees, and other cash flows. The Department
calculates its subsidy costs based on a model created and provided by OMB.

A Loan Receivable is recorded at the present value of the estimated cash inflows less cash outflows. The difference between the
outstanding principal of the loan and the present value of its net cash inflows is recorded as the Allowance for Subsidy Cost.
A subsidy reestimate is normally performed annually, as of September 30. The subsidy reestimate takes into account all factors
that may have affected the estimated cash flows. Any adjustment resulting from the reestimate is recognized as a subsidy expense
(or a reduction in subsidy expense). The portion of the Allowance for Subsidy Cost related to subsidy modifications and reestimates
is calculated annually, as of September 30.

The amount of any downward subsidy reestimates as of September 30 must be disbursed to Treasury in the subsequent fiscal year.
Appropriations are normally obtained in the following fiscal year for any upward subsidy reestimates.



I	 Inventory, Materials, and Supplies, Net
Inventory, Materials, and Supplies, Net are stated at the lower of cost or net realizable value primarily under the weighted-average
and first-in, first-out methods, and are adjusted for the results of physical inventories. Inventory, Materials, and Supplies are
expensed when consumed. There are no restrictions on their sale, use, or disposition.


 168
                                                F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




J	 General Property, Plant, and Equipment, Net
General Property, Plant, and Equipment, Net (General PP&E) is composed of capital assets used in providing goods or services.
General PP&E is stated at full cost, including all costs related to acquisition, delivery, and installation, less Accumulated Depreciation.
General PP&E also includes assets acquired through capital leases, which are initially recorded at the amount recognized as a
liability for the capital lease at its inception.

Capitalization Thresholds: The Department’s general policy is to capitalize General PP&E if the initial acquisition price is
$25 thousand or more and the useful life is two years or more. NOAA is an exception to this policy, based on a cost vs. benefits
and materiality analysis given the size of NOAA, having a capitalization threshold of $200 thousand. General PP&E with an
acquisition cost less than the capitalization threshold is expensed when purchased. When the purchase of a large quantity of
items, each costing less than the capitalization threshold, would materially distort the amount of costs reported in a given period,
the purchase is capitalized as a group.

Depreciation: Depreciation is expensed on a straight-line basis over the estimated useful life of the asset with the exception of
leasehold improvements, which are depreciated over the remaining life of the lease or over the useful life of the improvement,
whichever is shorter. Land and Construction-in-progress are not depreciated.

Real Property: The U.S. General Services Administration (GSA) provides most of the facilities in which the Department operates,
and generally charges rent based on comparable commercial rental rates. Accordingly, GSA-owned properties are not included
in the Department’s General PP&E. The Department’s real property primarily consists of facilities for NIST and NOAA. Land
Improvements consist of a retaining wall to protect against shoreline erosion.

Construction-in-progress: Costs for the construction, modification, or modernization of General PP&E are initially recorded as
Construction-in-progress. The Department’s construction-in-progress consists primarily of satellites under development for NOAA,
and major laboratory renovations and construction projects under development for NIST. Upon completion of the work, the costs
are transferred to the appropriate General PP&E account.


K	 Notes Receivable
Notes Receivable, included in Other Assets, arise through the NOAA sale of foreclosed property to non-federal parties. The property is
used as collateral, and an Allowance for Uncollectible Amounts is established if the net realizable value of the collateral is less than the
outstanding balance of the Notes Receivable. An analysis of the collectibility of receivables is performed periodically. Any gains realized
through the sale of foreclosed property are initially deferred and recognized in proportion to the percentage of principal repaid.


L	 Non-entity Assets
Non-entity assets are assets held by the Department that are not available for use in its operations. The non-entity Fund Balance
with Treasury primarily represents the amount of the Fund Balance with Treasury which is also a liability to FCC for the spectrum
auction proceeds for which licenses have not yet been granted by FCC. See Note 18, Combined Statements of Budgetary Resources,
for more information. The non-entity Fund Balance with Treasury also includes customer deposits held by the Department until
customer orders are received. Non-entity Loans Receivable and Related Foreclosed Property, Net represents EDA’s Drought Loan
Portfolio. The Portfolio collections are submitted to Treasury monthly.




                                                                                                                                      169
F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




M	 Liabilities
A liability for federal accounting purposes is a probable and measurable future outflow or other sacrifice of resources as a result
of past transactions or events.

Accounts Payable: Accounts Payable are amounts primarily owed for goods, services, or capitalized assets received, progress on
contract performance by others, and other expenses due.

Debt to Treasury: The Department has borrowed funds from Treasury for its various credit programs: Fisheries Finance Traditional,
Tuna Fleet, and Individual Fishing Quota (IFQ) Direct Loans, Fishing Vessel Obligation Guarantee (FVOG) Program, Bering Sea
Pollock Fishery Buyout, Pacific Groundfish Buyback Loans, Crab Buyback Loans, Bering Sea and Aleutian Islands Non-Pollock
Buyback Loans, and Emergency Steel Loan Guarantee Program. To simplify interest calculations, all borrowings are dated
October 1. Interest rates are based on a weighted average of rates during the term of the borrowed funds. The weighted average
rate for each cohort’s borrowing is recalculated at the end of each fiscal year during which disbursements are made. Annual interest
payments on unpaid principal balances as of September 30 are required. Principal repayments are required only at maturity, but are
permitted at any time during the term of the loan. The Department’s primary financing source for repayments of Debt to Treasury is
the collection of principal on the associated Loans Receivable. Balances of any borrowed but undisbursed funds will earn interest at
the same rate used in calculating interest expense. The amount reported for Debt to Treasury includes accrued interest payable.

The Department has also borrowed funds from Treasury for its Digital Television Transition and Public Safety Fund. This NTIA fund,
which was created by the Digital Television Transition and Public Safety Act of 2005, receives proceeds from the auction of licenses
for recovered analog spectrum from discontinued analog television signals, and provides funding for several programs from these
receipts. This Act, as well as the Security and Accountability For Every Port Act of 2006, also provided borrowing authority to the
Department to commence specified programs prior to the availability of earned auction proceeds. As of September 30, 2009, NTIA
has fully reimbursed Treasury for the borrowings, without interest. For more information on certain programs under the Digital
Television Transition and Public Safety Fund, see Note 18.

Spectrum Auction Proceeds Liability to Federal Communications Commission: FCC completed the auction of licenses for recovered
analog spectrum in March 2008. These auction proceeds provide funding for several programs. An auction proceed is considered
a liability to FCC until FCC grants the license. When the license is granted, a budgetary financing source is recognized on the
Consolidated Statement of Changes in Net Position for the earned net auction proceed (auction proceed less FCC administrative
fees due to FCC), and the liability is reduced by the dollar amount of the license granted. See Note 18 for more information on
NTIA’s Digital Television and Transition Public Safety Fund.

Resources Payable to Treasury: Resources Payable to Treasury includes liquidating fund assets in excess of liabilities that are being
held as working capital for the Economic Development Revolving Fund loan programs and the FVOG loan guarantee program.
EDA’s Drought Loan Portfolio is a non-entity asset; therefore, the amount of the Portfolio is also recorded as a liability to the
Treasury General Fund. The Portfolio collections are returned to the Treasury General Fund annually, and the liability is reduced
accordingly.

Unearned Revenue: Unearned Revenue is the portion of monies received for which goods and services have not yet been provided
or rendered by the Department. Revenue is recognized as reimbursable costs are incurred, and the Unearned Revenue balance
is reduced accordingly. Unearned Revenue also includes the balances of customer deposit accounts held by the Department.
The intragovernmental Unearned Revenue primarily relates to monies collected in advance under reimbursable agreements.
The majority of the Unearned Revenue with the public represents patent and trademark application and user fees that are
pending action.




 170
                                                F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




Accrued FECA Liability: The Federal Employees Compensation Act (FECA) provides income and medical cost protection to covered
federal civilian employees injured on the job, to employees who have incurred work-related occupational diseases, and to
beneficiaries of employees whose deaths are attributable to job-related injuries or occupational diseases. The FECA program
is administered by the U.S. Department of Labor (DOL), which pays valid claims against the Department and subsequently seeks
reimbursement from the Department for these paid claims. Accrued FECA Liability, included in Intragovernmental Other Liabilities,
represents amounts due to DOL for claims paid on behalf of the Department.

Loan Guarantee Liabilities: Post-FY 1991 obligated loan guarantees are governed by the Federal Credit Reform Act of 1990. For
a guaranteed loan disbursed during a fiscal year, a subsidy cost is initially recognized. Subsidy costs are intended to estimate the
long-term cost to the U.S. government of its loan programs. The subsidy cost equals the present value of estimated cash outflows
over the lives of the loans, minus the present value of estimated cash inflows, discounted at the applicable Treasury interest rate.
Administrative costs such as salaries are not included in the subsidy costs. Subsidy costs can arise from interest rate differentials,
interest subsidies, delinquencies and defaults, loan origination and other fees, and other cash flows. The Department calculates its
subsidy costs based on a model created and provided by OMB.

For a non-acquired guaranteed loan outstanding, the present value of the estimated cash inflows less cash outflows of the loan
guarantee is recognized as a Loan Guarantee Liability. The Loan Guarantee Liability is normally reestimated annually each year,
as of September 30. The subsidy reestimate takes into account all factors that may have affected the estimated cash flows.
Any adjustment resulting from the reestimate is recognized as a subsidy expense (or a reduction in subsidy expense).

Federal Employee Benefits:

Actuarial FECA Liability: Actuarial FECA Liability represents the liability for future workers’ compensation (FWC) benefits, which
includes the expected liability for death, disability, medical, and miscellaneous costs for approved cases. The liability is determined
by DOL annually, as of September 30, using a method that utilizes historical benefits payment patterns related to a specific
incurred period to predict the ultimate payments related to that period. The projected annual benefit payments are discounted
to present value using OMB’s economic assumptions for ten-year Treasury notes and bonds. To provide more specifically for the
effects of inflation on the liability for FWC benefits, wage inflation factors (Cost of Living Allowance) and medical inflation factors
(Consumer Price Index - Medical) are applied to the calculation of projected future benefits. These factors are also used to adjust
historical payments of benefits by the Department to current-year constant dollars.

The model’s resulting projections are analyzed by DOL to ensure that the amounts are reliable. The analysis is based on two tests:
(1) a comparison of the percentage change in the liability amount by agency to the percentage change in the actual payments;
and (2) a comparison of the ratio of the estimated liability to the actual payment of the beginning year calculated for the current
projection to the liability-payment ratio calculated for the prior projection.

NOAA Corps Retirement System Liability and NOAA Corps Post-retirement Health Benefits Liability: These liabilities are recorded
at the actuarial present value of projected benefits, calculated annually, as of September 30. The actuarial cost method used to
determine these liabilities is the aggregate entry age normal method. Under this method, the actuarial present value of projected
benefits is allocated on a level basis over the earnings or the service of the group between entry age and assumed exit ages. The
portion of this actuarial present value allocated to the valuation year is called the normal cost. Actuarial gains and losses, and prior
and past service costs, if any, are recognized immediately in the year they occur, without amortization. The actuarial calculations
use U.S. Department of Defense Retirement Board of Actuaries economic assumptions (as used by the U.S. Military Retirement
System) for investment earnings on federal securities, annual basic pay increases, and annual inflation. The medical claim rates
used for the NOAA Corps Post-retirement Health Benefits Liability actuarial calculations are based on the claim rates used for the U.S.




                                                                                                                                  171
F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




Department of Defense Medicare-Eligible Retiree Health Care Fund actuarial valuations. Demographic assumptions appropriate to
covered personnel are also used. For background information about these plans, see Note 1.Q, Employee Retirement Benefits.

Environmental and Disposal Liabilities: NIST operates a nuclear reactor licensed by the U.S. Nuclear Regulatory Commission, in
accordance with NIST’s mission of setting standards and examining new technologies. The Department currently estimates the
cost of decommissioning this facility to be $70.3 million. The NIST decommissioning estimate includes an assumption that an
offsite waste disposal facility will become available, when needed, estimated in 2029. Currently, an offsite disposal location has
not been identified, and the NIST environmental liability cost estimate includes an amount approved by the Nuclear Regulatory
Commission for offsite waste disposal. The total estimated decommissioning cost is being accrued on a straight-line basis over the
expected life of the facility. Under current legislation, funds to cover the expense of decommissioning the facility’s nuclear reactor
should be requested in a separate appropriation when the decommissioning date becomes relatively certain.

The Department has incurred cleanup costs related to the costs of removing, containing, and/or disposing of hazardous waste from
facilities used by NOAA. The Department has estimated its liabilities for environmental cleanup costs at all NOAA-used facilities,
including the decommissioning of ships. The largest of NOAA’s environmental liabilities relates to the clean-up of the Pribilof
Island in Alaska, which contains waste from the U.S. Department of Defense’s use during World War II. The Department does not
recognize a liability for environmental cleanup costs for NOAA-used facilities that are less than $25 thousand per project. When
an estimate of cleanup costs includes a range of possible costs, the most likely cost is reported. When no cost is more likely than
another, the lowest estimated cost in the range is reported. The liability is reduced as progress payments are made.

The Department may have liabilities associated with asbestos-containing materials (ACM) and lead-based paints (LBP) at certain
NOAA facilities. The Department has scheduled surveys to assess the potential for liabilities for ACM and LBP contamination.
All known issues, however, are contained, and NOAA facilities meet current environmental standards. No cost estimates are
presently available for facilities that have not yet been assessed for ACM or LBP issues.

Accrued Payroll and Annual Leave: These categories include salaries, wages, and other compensation earned by employees, but not
disbursed as of September 30. Annually, as of September 30, the balances of Accrued Annual Leave are adjusted to reflect current
pay rates. Sick leave and other types of non-vested leave are expensed as taken.

Accrued Grants: The Department administers a diverse array of financial assistance programs and projects concerned with the
entire spectrum of business and economic development efforts that promote activities such as expanding U.S. exports, creating
jobs, contributing to economic growth, developing innovative technologies, promoting minority entrepreneurship, protecting
coastal oceans, providing weather services, managing worldwide environmental data, and using telecommunications and
information technologies to better provide public services. Disbursements of funds under the Department’s grant programs are
generally made when requested by grantees. These drawdown requests may be received and fulfilled before grantees make the
program expenditures. When the Department has disbursed funds but the grant recipient has not yet reported expenditures, these
disbursements are recorded as advances. If a recipient, however, reports program expenditures that have not been advanced by
the Department by September 30, such amounts are recorded as grant expenses and grants payable as of September 30.

Accrued Coupons for Digital-to-Analog Converter Box Program: NTIA’s Digital-to-Analog Converter Box Program provides households
in the U.S. with forty-dollar coupons (two per household maximum) that can be applied toward the purchase of digital-to-analog
converter boxes. This liability represents the projected amount due for coupons issued as of September 30 but not yet redeemed.
See Note 18 for more information on the Digital-to-Analog Converter Box Program.

Capital Lease Liabilities: Capital leases are leases for property, plant, and equipment that transfer substantially all the benefits and
risks of ownership to the Department.



 172
                                                 F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




ITA Foreign Service Nationals’ Voluntary Separation Pay: This liability, included in Other Liabilities, is based on the salaries and
benefit statuses of employees in countries where governing laws require a provision for separation pay.

Contingent Liabilities and Contingencies: A contingency is an existing condition, situation, or set of circumstances involving
uncertainty as to possible gain or loss. The uncertainty will ultimately be resolved when one or more future events occur or fail
to occur. A contingent liability (included in Other Liabilities) and an expense are recognized when a past event has occurred,
and a future outflow or other sacrifice of resources is measurable and probable. A contingency is considered probable when the
future confirming event or events are more likely than not to occur, with the exception of pending or threatened litigation and
unasserted claims. For pending or threatened litigation and unasserted claims, the future confirming event or events are likely
to occur. A contingency is disclosed in the Notes to the Financial Statements if any of the conditions for liability recognition are
not met and there is at least a reasonable possibility that a loss or an additional loss may have been incurred. A contingency is
considered reasonably possible when the chance of the future confirming event or events occurring is more than remote but less
than probable. A contingency is not recognized as a contingent liability and an expense nor disclosed in the Notes to the Financial
Statements when the chance of the future event or events occurring is remote. A contingency is considered remote when the
chance of the future event or events occurring is slight.

Liabilities Not Covered by Budgetary Resources: These are liabilities for which congressional actions are needed before budgetary
resources can be provided. The Department anticipates that liabilities not covered by budgetary resources will be funded from
future budgetary resources when required. These amounts are detailed in Note 15.

Under accrual accounting, the expense for annual leave is recognized when the leave is earned. However, for most of the
Department’s fund groups, appropriations are provided to pay for the leave when it is taken. As a result, budgetary resources do
not cover a large portion of Accrued Annual Leave.

The Department generally receives budgetary resources for Federal Employee Benefits when they are needed for disbursements.


N	 Commitments
Commitments are preliminary actions that will ultimately result in an obligation to the U.S. government if carried through, such
as purchase requisitions, estimated travel orders, or unsigned contracts/grants. Major long-term commitments are disclosed in
Note 16, Commitments and Contingencies.


O	 Net Position
Net Position is the residual difference between assets and liabilities, and is composed of Unexpended Appropriations and Cumulative
Results of Operations.

Unexpended Appropriations represent the total amount of unexpended budget authority, both obligated and unobligated.
Unexpended Appropriations are reduced for Appropriations Used and adjusted for other changes in budgetary resources, such as
transfers and rescissions. Cumulative Results of Operations is the net result of the Department’s operations since inception.




                                                                                                                              173
F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




P	 Revenues and Other Financing Sources
Appropriations Used: Most of the Department’s operating funds are provided by congressional appropriations of budget authority.
The Department receives appropriations on annual, multiple-year, and no-year bases. Upon expiration of an annual or multiple-
year appropriation, the obligated and unobligated balances retain their fiscal year identity, and are maintained separately within
an expired account. The unobligated balances can be used to make legitimate obligation adjustments, but are otherwise not
available for expenditures. Annual and multiple-year appropriations are canceled at the end of the fifth year after expiration.
No-year appropriations do not expire. Appropriations of budget authority are recognized as used when costs are incurred, for
example, when goods and services are received or benefits and grants are provided.

Exchange and Non-exchange Revenue: The Department classifies revenue as either exchange revenue or non-exchange revenue.
Exchange revenue is derived from transactions in which both the government and the other party receive value, including processing
patents and registering trademarks, the sale of weather data, nautical charts, and navigation information, and other sales of
goods and services. This revenue is presented on the Department’s Consolidated Statements of Net Cost, and serves to reduce
the reported cost of operations borne by the taxpayer. Non-exchange revenue is derived from the government’s sovereign right
to demand payment, including fines for violations of fisheries and marine protection laws. Non-exchange revenue is recognized
when a specifically identifiable, legally enforceable claim to resources arises, and to the extent that collection is probable and the
amount is reasonably estimable. This revenue is not considered to reduce the cost of the Department’s operations and is therefore
reported on the Consolidated Statements of Changes in Net Position.

In certain cases, law or regulation sets the prices charged by the Department, and, for program and other reasons, the Department
may not receive full cost (e.g., the processing of patents and registering of trademarks, and the sale of weather data, nautical
charts, and navigation information). Prices set for products and services offered through the Department’s working capital funds
are intended to recover the full costs incurred by these activities.

Imputed Financing Sources from Cost Absorbed by Others (and Related Imputed Costs): In certain cases, operating costs
of the Department are paid for in full or in part by funds appropriated to other federal entities. For example, Civil Service
Retirement System pension benefits for applicable Departmental employees are paid for in part by the U.S. Office of
Personnel Management (OPM), and certain legal judgments against the Department are paid for in full from the Judgment
Fund maintained by Treasury. Through FY 2008, OMB limited Imputed Costs to recognize by federal entities to the following:
(1) employees’ pension benefits; (2) health insurance, life insurance, and other benefits for retired employees; (3) other post-
employment benefits for retired, terminated, and inactive employees, including severance payments, training and counseling,
continued health care, and unemployment and workers’ compensation under FECA; and (4) losses in litigation proceedings.
Effective FY 2009, there is no longer a limitation on Imputed Costs to be recognized by federal entities, and the Department,
accordingly, recognizes all Imputed Costs paid for in full or in part by other federal entities. The additional imputed costs recorded
were not material. The Department includes applicable Imputed Costs on the Consolidated Statements of Net Cost. In addition,
an Imputed Financing Source from Cost Absorbed by Others is recognized on the Consolidated Statements of Changes in Net
Position.

Transfers In/(Out): Intragovernmental transfers of budget authority (i.e., appropriated funds) or of assets without reimbursement
are recorded at book value.




 174
                                                F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




Q	 Employee Retirement Benefits
Civil Service Retirement System (CSRS) and Federal Employees Retirement System (FERS): Most employees of the Department
participate in either the CSRS or FERS defined-benefit pension plans. FERS went into effect on January 1, 1987. FERS and Social
Security automatically cover most employees hired after December 31, 1983. Employees hired prior to January 1, 1984 could elect
to either join FERS and Social Security, or remain in CSRS.

The Department is not responsible for and does not report CSRS or FERS assets, accumulated plan benefits, or liabilities applicable
to its employees. OPM, which administers the plans, is responsible for and reports these amounts.

For CSRS-covered regular employees, the Department was required to make contributions to the plan equal to 7 percent of an
employee’s basic pay. Employees contributed 7 percent of basic pay. For each fiscal year, OPM calculates the U.S. government’s
service cost for covered employees, which is an estimate of the amount of funds, that, if accumulated annually and invested over
an employee’s career, would be enough to pay that employee’s future benefits. Since the U.S. government’s estimated service cost
exceeds contributions made by employer agencies and covered employees, this plan is not fully funded by the Department and its
employees. The Department has recognized an Imputed Cost and an Imputed Financing Source From Cost Absorbed by Others for
the difference between the estimated service cost and the contributions made by the Department and its covered employees.

For FERS-covered regular employees, the Department was required to make contributions of 11.2 percent (since FY 2005) of basic
pay. Employees contributed .8 percent of basic pay. For each fiscal year, OPM calculates the U.S. government’s service cost for
covered employees. For FY 2009, since the U.S. government’s estimated service cost exceeds contributions made by employer
agencies and covered employees, this plan was not fully funded by the Department and its employees. For FY 2009, the Department
has recognized an Imputed Cost and an Imputed Financing Source From Cost Absorbed by Others for the difference between the
estimated service cost and the contributions made by the Department and its covered employees. For FY 2008, this plan was fully
funded by the Department and its employees.

Employees participating in FERS are covered under the Federal Insurance Contributions Act (FICA), for which the Department
contributes a matching amount to the Social Security Administration.

NOAA Corps Retirement System: Active-duty officers of the NOAA Corps are covered by the NOAA Corps Retirement System, an
unfunded, pay-as-you-go, defined-benefit plan administered by the Department. Participants do not contribute to this plan. Plan
benefits are based primarily on years of service and compensation. Participants, as of September 30, 2009, included 301 active
duty officers, 348 nondisability retiree annuitants, 18 disability retiree annuitants, and 47 surviving families. Key provisions include
voluntary nondisability retirement after 20 years of active service, disability retirement, optional survivor benefits, Consumer Price
Index (CPI) optional survivor benefits, and CPI adjustments for benefits.

Foreign Service Retirement and Disability System, and the Foreign Service Pension System: Foreign Commercial Officers are covered
by the Foreign Service Retirement and Disability System and the Foreign Service Pension System. ITA makes contributions to the
systems based on a percentage of an employee’s pay. Both systems are multi-employer plans administered by the U.S. Department
of State. The Department is not responsible for and does not report plan assets, accumulated plan benefits, or liabilities applicable
to its employees. The U.S. Department of State, which administers the plan, is responsible for and reports these amounts.

Thrift Savings Plan (TSP): Employees covered by CSRS and FERS are eligible to contribute to the U.S. government’s TSP, administered
by the Federal Retirement Thrift Investment Board. A TSP account is automatically established for FERS-covered employees, and
the Department makes a mandatory contribution of one percent of basic pay. Beginning in January 2007, FERS and CSRS covered




                                                                                                                                  175
F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




employees have no limit on the percentage of pay contributed to their TSP account. However, the total contribution for 2009
may not exceed the IRS limit of $16.5 thousand. The Department makes no matching contributions for CSRS-covered employees.
TSP participants age 50 or older who are already contributing the maximum amount of contributions for which they are eligible may
also make catch-up contributions, subject to the IRS dollar limit for catch-up contributions.

Federal Employees Health Benefit (FEHB) Program: Most Departmental employees are enrolled in the FEHB Program, which provides
post-retirement health benefits. OPM administers this program and is responsible for the reporting of liabilities. Employer
agencies and covered employees are not required to make any contributions for post-retirement health benefits. OPM calculates
the U.S. government’s service cost for covered employees each fiscal year. The Department has recognized the entire service cost
of these post-retirement health benefits for covered employees as an Imputed Cost and an Imputed Financing Source From Cost
Absorbed by Others.

NOAA Corps Post-retirement Health Benefits: Active-duty officers of the NOAA Corps are covered by the health benefits program for
the NOAA Corps, which provides post-retirement health benefits. This is a pay-as-you-go plan administered by the Department.
Participants do not make any contributions to this plan.

Federal Employees Group Life Insurance (FEGLI) Program: Most Department employees are entitled to participate in the FEGLI
Program. Participating employees can obtain basic term life insurance, with the employee paying two-thirds of the cost and the
Department paying one-third. Additional coverage is optional, to be paid fully by the employee. The basic life coverage may be
continued into retirement if certain requirements are met. OPM administers this program and is responsible for the reporting
of liabilities. For each fiscal year, OPM calculates the U.S. government’s service cost for the post-retirement portion of basic life
coverage. Because the Department’s contributions to the basic life coverage are fully allocated by OPM to the pre-retirement
portion of coverage, the Department has recognized the entire service cost of the post-retirement portion of basic life coverage as
an Imputed Cost and an Imputed Financing Source From Cost Absorbed by Others.



R	 Use of Estimates
The preparation of financial statements requires the Department to make estimates and assumptions that affect these financial
statements. Actual results may differ from those estimates.



S	 Tax Status
The Department is not subject to federal, state, or local income taxes. Accordingly, no provision for income taxes is recorded.



T	 Fiduciary Activities
Fiduciary activities are the collection or receipt, and the management, protection, accounting, and disposition by the U.S.
government of cash or other assets in which non-federal individuals or entities have an ownership interest that the U.S. government
must uphold. Fiduciary cash and other assets are not assets of the U.S. government, and, accordingly, are not recognized in the
accompanying consolidated financial statements.




 176
                                                F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




The Department’s fiduciary activities consists of the following:

The Patent Cooperation Treaty authorizes USPTO to collect patent filing and search fees on behalf of the World Intellectual
Property Organization (WIPO), European Patent Office, Korean Intellectual Property Office, and the Australian Patent Office, from
U.S. citizens requesting an international patent. The Madrid Protocol Implementation Act authorizes USPTO to collect trademark
application fees on behalf of the International Bureau of WIPO from U.S. citizens requesting an international trademark. These
fiduciary activities for FY 2009 are reported in Note 20.



   Note 2. Fund Balance with Treasury

Fund Balance with Treasury, by type, is as follows:
                                                                                      FY 2009              FY 2008
           General Funds                                                            $ 14,878,540       $    7,127,382
           Revolving Funds                                                               730,441              705,489
           Special Funds
           	 Patent and Trademark Surcharge Fund                                           233,529             233,529
           	 Digital Television Transition and Public Safety Fund                        9,230,126           1,204,539
           	 Others                                                                    	    91,440         	    60,861
           Deposit Funds                                                                                       122,490
           	 Spectrum Auction Proceeds Liability to FCC                                	    400,451        	17,177,707
           	 Others                                                                    	    115,738        	 129,149
           Trust Funds                                                                          674                786
           Other Fund Types                                                                  (9,177)            (6,028)
           Total                                                                    $ 25,671,762       $ 226,633,414



Status of Fund Balance with Treasury is as follows:
                                                                                      FY 2009            FY 2008
           Temporarily Precluded From Obligation                                    $    553,954       $    556,087
           Unobligated Balance
             Available                                                                  8,156,433              950,357
             Unavailable                                                                8,439,100            1,233,473
           Obligated Balance Not Yet Disbursed                                          7,781,735            6,359,140
           Non-budgetary                                                               	 740,540           	17,534,357
           Total                                                                    $ 25,671,762       $ 26,633,414

See Note 18 for legal arrangements affecting the Department’s use of Fund Balance with Treasury for FY 2009 and FY 2008.




                                                                                                                           177
F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




   Note 3. Accounts Receivable, Net

                                                              FY 2009
                                                    Accounts                 Allowance for               Accounts
                                                   Receivable,               Uncollectible              Receivable,
                                                      Gross                    Accounts                    Net
                  Intragovernmental            $        78,111           $ 	              -         $         78,111
                  With the Public              $        43,974           $          (12,545)        $         31,429

                                                              FY 2008
                                                    Accounts                 Allowance for               Accounts
                                                   Receivable,               Uncollectible              Receivable,
                                                      Gross                    Accounts                    Net
                  Intragovernmental            $        64,963           $ 	              -         $         64,963
                  With the Public              $        48,851           $          (10,660)        $         38,191


   Note 4. Cash

                                                                                   FY 2009                   FY 2008
          Cash Not Yet Deposited with Treasury                                  $       3,248             $       4,621
          Imprest Funds                                                           	       324               	       514
          Total                                                                 $         3,572           $           5,135


Cash Not Yet Deposited with Treasury primarily represents patent and trademark fees that were not processed as of September 30,
due to the lag time between receipt and initial review. Certain bureaus maintain imprest funds for operational necessity, such as
law enforcement activities, and for environments that do not permit the use of electronic payments.




 178
                                              F Y   2 0 0 9   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




   Note 5. Direct Loans and Loan guarantees, NET

The Department operates the following direct loan and loan guarantee programs:

           Direct Loan Programs:
           EDA                                Drought Loan Portfolio
           EDA                                Economic Development Revolving Fund
           NOAA                               Alaska Purse Seine Fishery Buyback Loans1
           NOAA                               Bering Sea and Aleutian Islands Non-Pollock Buyback Loans
           NOAA                               Bering Sea Pollock Fishery Buyback
           NOAA                               Coastal Energy Impact Program (CEIP)
           NOAA                               Crab Buyback Loans
           NOAA                               Federal Gulf of Mexico Reef Fish Buyback Loans1
           NOAA                               Fisheries Finance Individual Fishing Quota (IFQ) Loans
           NOAA                               Fisheries Finance Traditional Loans
           NOAA                               Fisheries Finance Tuna Fleet Loans
           NOAA                               Fisheries Loan Fund
           NOAA                               New England Groundfish Buyback Loans1
           NOAA                               New England Lobster Buyback Loans1
           NOAA                               Pacific Groundfish Buyback Loans
           1 No loans have been issued under these programs as of September 30, 2009.



           Loan Guarantee Programs:
           EDA                                   Economic Development Revolving Fund
           ELGP-Oil/Gas                          Emergency Oil and Gas Loan Guarantee Program
           ELGP-Steel                            Emergency Steel Loan Guarantee Program
           NOAA                                  Fishing Vessel Obligation Guarantee Program (FVOG Program)


The net assets for the Department’s loan programs consist of:

                                                                                       FY 2009           FY 2008
           Direct Loans Obligated Prior to FY 1992                                  $      27,046     $      31,564
           Direct Loans Obligated After FY 1991                                           481,370           476,005
           Defaulted Guaranteed Loans from Pre-FY 1992 Guarantees                     	         4       	         4
           Defaulted Guaranteed Loans from Post-FY 1991 Guarantees                          2,672             3,436
           Total                                                                    $       511,092   $    511,009




                                                                                                                      179
F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




Direct Loans Obligated Prior to FY 1992 consist of:

                                                      FY 2009
                                     Loans                                                         Value of Assets
            Direct                 Receivable,           Interest          Allowance for              Related to
         Loan Program                 Gross             Receivable          Loan Losses           Direct Loans, Net
 CEIP                            $     20,443         $    4,874           $ (18,780)             $        6,537
 Drought Loan Portfolio                14,104                188                 (158)                   14,134
 Economic Development
    Revolving Fund                      6,405                    46                (76)                    6,375
 Fisheries Loan Fund                      293                    38               (331)               	        -
 Total                           $     41,245         $     5,146          $ (19,345)             $       27,046


                                                      FY 2008
                                     Loans                                                         Value of Assets
            Direct                 Receivable,           Interest          Allowance for              Related to
         Loan Program                 Gross             Receivable          Loan Losses           Direct Loans, Net
 CEIP                            $     20,902         $    4,903           $ (17,380)             $        8,425
 Drought Loan Portfolio                15,620                207                 (158)                   15,669
 Economic Development
    Revolving Fund                      7,488                    58                (76)                    7,470
 Fisheries Loan Fund                      354                    39               (393)               	        -
 Total                           $     44,364         $     5,207          $ (18,007)             $       31,564




 180
                                                 F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                    NOTES TO THE FINANCIAL STATE M ENTS




Direct Loans Obligated After FY 1991 consist of:

                                                                     FY 2009
                                                       Loans                                       Allowance for      Value of Assets
                                                     Receivable,            Interest               Subsidy Cost          Related to
             Direct Loan Program                        Gross              Receivable             (Present Value)    Direct Loans, Net
     Bering Sea and Aleutian Islands
        Non-Pollock Buyback Loans                $      34,500            $ 1,023                 $     8,380        $    43,903
     Bering Sea Pollock Fishery Buyback                 49,970              	 116                       3,558             53,644
     Crab Buyback Loans                                 94,904               3,037                     20,718            118,659
     Fisheries Finance IFQ Loans                        20,149                 203                      2,779             23,131
     Fisheries Finance Traditional Loans              	165,529              	2,256                     21,945            189,730
     Fisheries Finance Tuna Fleet Loans               	 5,769               	 34                      	 671              	 6,474
     Pacific Groundfish Buyback Loans                   34,366              	1,051                     10,412             45,829
     Total                                       $ 405,187                $ 7,720                 $       68,463     $ 481,370


                                                                       FY 2008
                                                           Loans                                   Allowance for      Value of Assets
                                                         Receivable,             Interest          Subsidy Cost          Related to
                Direct Loan Program                         Gross               Receivable        (Present Value)    Direct Loans, Net
       Bering Sea and Aleutian Islands
          Non-Pollock Buyback Loans                  $          35,000      $            1,181    $            194   $      36,375
       Bering Sea Pollock Fishery Buyback                       51,260              	      101               3,644          55,005
       Crab Buyback Loans                                       96,336                   3,107              19,826         119,269
       Fisheries Finance IFQ Loans                              18,693                     197               3,076          21,966
       Fisheries Finance Traditional Loans                   	 162,999              	    1,673              25,597         190,269
       Fisheries Finance Tuna Fleet Loans                    	   6,451              	       60        	        786       	   7,297
       Pacific Groundfish Buyback Loans                         34,727              	    1,046              10,051          45,824
       Total                                         $        405,466       $            7,365    $         63,174   $    476,005


New Disbursements of Direct Loans (Post-FY 1991):

                Direct Loan Program                        FY 2009                FY 2008
       Fisheries Finance IFQ Loans                       $     3,126            $     3,616
       Fisheries Finance Traditional Loans                    19,907                 16,651
       Total                                             $       23,033         $        20,267




                                                                                                                                   181
F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y         R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




Subsidy Expense for Direct Loans by Program and Component:

Subsidy Expense for New Disbursements of Direct Loans:
                                                              FY 2009
                                                                                 Fees and
                                        Interest Rate                              Other
        Direct Loan Program              Differential          Defaults         Collections               Other              Total
Fisheries Finance IFQ Loans             $ 	 (593)             $ 	    14        $ 	      (21)           $ 	    238         $ 	 (362)
Fisheries Finance Traditional Loans         	 (2,718)           	    37           	 (125)                	 1,542            	 (1,264)
Total                                   $      (3,311)        $         51     $ 	     (146)           $      1,780       $     (1,626)

                                                              FY 2008
                                                                                 Fees and
                                        Interest Rate                              Other
        Direct Loan Program              Differential          Defaults         Collections              Other               Total
Fisheries Finance IFQ Loans             $ 	 (662)             $ 	    15        $ 	      (25)          $ 	    310          $ 	 (362)
Fisheries Finance Traditional Loans         	 (2,195)           	    37           	 (113)               	    953            	 (1,318)
Total                                   $      (2,857)        $         52     $ 	     (138)          $       1,263       $     (1,680)

Modifications and Reestimates:
                      FY 2009                                                                              FY 2009
                                           Total                               Interest Rate            Technical             Total
        Direct Loan Program             Modifications                           Reestimates            Reestimates         Reestimates
Bering Sea and Aleutian Islands
   Non-Pollock Buyback Loans            $ 	         -                          $ 	            -       $ 	 (8,801)         $ 	 (8,801)
Bering Sea Pollock Fishery Buyback        	         -                            	            -         	 (472)             	 (472)
Crab Buyback Loans                        	         -                            	            -           (1,037)             (1,037)
Fisheries Finance IFQ Loans               	         -                            	            -         	    491            	    491
Fisheries Finance Traditional Loans       	         -                            	            -            3,854               3,854
Fisheries Finance Tuna Fleet Loans        	         -                            	            -         	    (15)           	    (15)
Pacific Groundfish Buyback Loans          	         -                            	            -         	 (1,110)           	 (1,110)
Total                                   $ 	         -                          $ 	            -       $      (7,090)      $     (7,090)


The primary reason for the favorable reestimates in FY 2009 was because NOAA’s interest rate on borrowings from Treasury
declined, while the interest rate on loans receivable remained steady.
                      FY 2008                                                                              FY 2008
                                           Total                               Interest Rate            Technical             Total
        Direct Loan Program             Modifications                           Reestimates            Reestimates         Reestimates
Bering Sea and Aleutian Islands
   Non-Pollock Buyback Loans            $ 	         -                          $ 	            -       $ 	 8,118           $ 	 8,118
Bering Sea Pollock Fishery Buyback        	         -                            	            -         	    (92)           	    (92)
Crab Buyback Loans                        	         -                            	            -           (8,191)             (8,191)
Fisheries Finance IFQ Loans               	         -                            	            -         	    444            	    444
Fisheries Finance Traditional Loans       	         -                            	            -            6,935               6,935
Fisheries Finance Tuna Fleet Loans        	         -                            	            -         	    (25)           	    (25)
Pacific Groundfish Buyback Loans          	         -                            	            -         	 (1,624)           	 (1,624)
Total                                   $ 	         -                          $ 	            -       $       5,565       $      5,565


 182
                                              F Y   2 0 0 9   P E R F O R M A N C E   A N D       A C C O U N T A B I L I T Y   R E P O R T
                                                                                 NOTES TO THE FINANCIAL STATE M ENTS




Total Direct Loan Subsidy Expense:

                    Direct Loan Program                         FY 2009                        FY 2008
          Bering Sea and Aleutian Islands Non-
             Pollock Buyback Loans                         $ 	         (8,801)           $ 	       8,118
          Bering Sea Pollock Fishery Buyback                    	       (472)                  	     (92)
          Crab Buyback Loans                                    	      (1,037)                 	   (8,191)
          Fisheries Finance IFQ Loans                                    129                           82
          Fisheries Finance Traditional Loans                   	      2,590                   	   5,617
          Fisheries Finance Tuna Fleet Loans                    	        (15)                  	     (25)
          Pacific Groundfish Buyback Loans                      	      (1,110)                 	   (1,624)
          Total                                            $ 	         (8,716)           $ 	       3,885


Subsidy Rates for Direct Loans by Program and Component:

Budget Subsidy Rates for Direct Loans for the Current Fiscal-year’s Cohorts:

                                                                    FY 2009
                                                                                          Fees and
                                                Interest Rate                               Other
           Direct Loan Program                   Differential          Defaults          Collections            Other       Total
 Fisheries Finance IFQ Loans                     (20.11) %              0.39 %          	 (0.69) %           	 7.63 %    	(12.78) %
 Fisheries Finance Traditional Loans             (16.21) %              0.16 %          	 (0.57) %           	 10.19 %   	 (6.43) %


                                                                    FY 2008
                                                                                          Fees and
                                                Interest Rate                               Other
           Direct Loan Program                   Differential          Defaults          Collections            Other       Total
 Fisheries Finance IFQ Loans                      (17.66) %             0.38 %          	 (0.68) %           	 7.38 %    	(10.58) %
 Fisheries Finance Traditional Loans              (13.95) %             0.15 %          	 (0.57) %           	 9.73 %    	 (4.64) %

The budget subsidy rates disclosed pertain only to the reporting period’s cohorts. These rates cannot be applied to the new
disbursements of direct loans during the reporting period to yield the subsidy expense. The subsidy expense for new disbursements
of direct loans for the reporting period could result from disbursements of loans from both the reporting period’s cohorts and prior
fiscal-year(s) cohorts. The subsidy expense for the reporting period may also include modifications and reestimates.




                                                                                                                                    183
F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y      R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




Schedule for Reconciling Allowance for Subsidy Cost (Post-FY 1991 Direct Loans):
                                                                                               FY 2009                       FY 2008
       Beginning Balance of the Allowance for Subsidy Cost                                $ 	 63,174                    $ 	 72,028

       Add Subsidy Expense for Direct Loans Disbursed During the
         Reporting Years by Component:
       		 Interest Rate Differential Costs                                                            3,311                       2,857
       		 Default Costs (Net of Recoveries)                                                             (51)                        (52)
       		 Fees and Other Collections                                                                    146                        138
       		 Other Subsidy Costs                                                                        (1,780)                     (1,263)
       Total of the above Subsidy Expense Components                                                  1,626                       1,680
       Adjustments:
       		 Fees Received                                                                                 (92)                      (155)
       		 Foreclosed Property Acquired                                                                  167                  	         -
       		 Subsidy Allowance Amortization                                                       	 (3,502)                     	 (4,814)
       Ending Balance of the Allowance for Subsidy Cost Before Reestimates                     	 61,373                      	 68,739
       Add or Subtract Subsidy Reestimates by Component:
       		 Technical/Default Reestimates                                                        	      7,090                  	 (5,565)
       Ending Balance of the Allowance for Subsidy Cost                                   $         68,463              $        63,174


Defaulted Guaranteed Loans from Pre-FY 1992 Guarantees:

                                                         FY 2009
                                                                                                             Value of Assets
                                        Defaulted                                                         Related to Defaulted
         Loan Guarantee              Guaranteed Loans           Interest          Allowance for            Guaranteed Loans
            Program                  Receivable, Gross         Receivable          Loan Losses              Receivable, Net
FVOG Program                         $       11,997           $ 	       4        $ 	 (11,997)             $ 	            4

                                                         FY 2008
                                                                                                             Value of Assets
                                        Defaulted                                                         Related to Defaulted
         Loan Guarantee              Guaranteed Loans           Interest          Allowance for            Guaranteed Loans
            Program                  Receivable, Gross         Receivable          Loan Losses              Receivable, Net
FVOG Program	                        $       11,997           $ 	       4        $ 	 (11,997)             $ 	            4




 184
                                              F Y   2 0 0 9    P E R F O R M A N C E   A N D       A C C O U N T A B I L I T Y    R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




Defaulted Guaranteed Loans from Post-FY 1991 Guarantees:

                                                            FY 2009
                                                                                                          Value of Assets
                                           Defaulted                                  Allowance for    Related to Defaulted
          Loan Guarantee                Guaranteed Loans          Interest            Subsidy Cost      Guaranteed Loans
             Program                    Receivable, Gross        Receivable          (Present Value)     Receivable, Net
FVOG Program 	                          $       14,128          $ 	   1,254          $ 	 (12,710)      $          2,672


                                                            FY 2008
                                                                                                          Value of Assets
                                           Defaulted                                  Allowance for    Related to Defaulted
          Loan Guarantee                Guaranteed Loans          Interest            Subsidy Cost      Guaranteed Loans
             Program                    Receivable, Gross        Receivable          (Present Value)     Receivable, Net
FVOG Program 	                          $       14,128          $ 	   1,254          $ 	 (11,946)      $          3,436



Loan Guarantees:

Guaranteed Loans Outstanding:

Outstanding non-acquired guaranteed loans as of September 30, 2009 and 2008, which are not reflected in the financial
statements, are as follows:

                                                           FY 2009                                         FY 2008
                                              Outstanding               Amount of              Outstanding             Amount of
                                               Principal of            Outstanding              Principal of          Outstanding
          Loan Guarantee                    Guaranteed Loans,            Principal           Guaranteed Loans,          Principal
             Program                           Face Value              Guaranteed               Face Value            Guaranteed
FVOG Program                             $ 	           4,331          $ 	      4,331        $ 	        9,353         $ 	      9,353




                                                                                                                                185
F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




New Guaranteed Loans Disbursed:

        There were no new guaranteed loans disbursed during FY 2009 and FY 2008.

Loan Guarantee Liabilities:
                                                                                  FY 2009                                   FY 2008
                                                                               Loan Guarantee                          Loan Guarantee
                                                                             Liabilities for Post-                   Liabilities for Post-
                                                                            FY 1991 Guarantees,                     FY 1991 Guarantees,
                        Loan Guarantee Program                                  Present Value                           Present Value
         FVOG Program                                                   $                 589                   $                     621


Subsidy Expense for Loan Guarantees by Program and Component:

Subsidy Expense for New Loan Guarantees Disbursed:

        As there were no new loan guarantees disbursed during FY 2009 and FY 2008, there is not any related subsidy expense.

Modifications and Reestimates:
                              FY 2009                                                                      FY 2009
               Loan Guarantee              Total                                 Interest Rate            Technical               Total
                  Program               Modifications                             Reestimates            Reestimates           Reestimates
       FVOG Program                     $ 	          -                           $ 	            -       $ 	         451       $ 	           451


                              FY 2008                                                                      FY 2008
               Loan Guarantee              Total                                 Interest Rate            Technical               Total
                  Program               Modifications                             Reestimates            Reestimates           Reestimates
       Emergency Steel Loan
         Guarantee Program                	    1,152                               	            -       $ 	 (56,105)          $ 	 (56,105)
       FVOG Program                       	          -                             	            -          	        (281)         	         (281)
       Total                            $ 	    1,152                             $ 	            -       $ 	 (56,386)          $ 	 (56,386)


Total Loan Guarantee Subsidy Expense:

                        Loan Guarantee Program                                  FY 2009                        FY 2008
         Emergency Steel Loan Guarantee Program                         $ 	               -             $ 	      (54,953)
         FVOG Program                                                       	          451                 	          (281)
         Total                                                          $ 	            451              $ 	      (55,234)


        The most significant portion of the FY 2008 technical reestimates resulted from the early repayment of the remaining
        Emergency Steel Loan Program loans that had been guaranteed. As a result, the remaining balance in the related
        subsidy financing account was returned to the Treasury General Fund.



 186
                                              F Y   2 0 0 9   P E R F O R M A N C E    A N D        A C C O U N T A B I L I T Y        R E P O R T
                                                                                   NOTES TO THE FINANCIAL STATE M ENTS




Subsidy Rates for Loan Guarantees by Program and Component:

Budget Subsidy Rates for Loan Guarantees for the Current Fiscal-year’s Cohorts:
         There were no new cohorts of guaranteed loans during FY 2009 and FY 2008.


Schedule for Reconciling Loan Guarantee Liabilities (Post-FY 1991 Loan Guarantees):

                                                                                                      FY 2009                FY 2008
          Beginning Balance of Loan Guarantee Liabilities                                         $ 	        621         $ 	 55,732
          Adjustments:
          	 Loan Guarantee Modifications                                                              	        -             	    1,152
          	 Fees Received                                                                                     29                    33
          	 Interest Accumulation on the Liabilities Balance                                          	      (57)            	     478
          	 Other                                                                                     	       (4)            	    (388)
          Ending Balance of Loan Guarantee Liabilities Before Reestimates                                    589                 57,007
          Add or Subtract Subsidy Reestimates by Component:
          	 Technical/Default Reestimates                                                             	        -             	 (56,386)
          Total of the above Reestimate Components                                                    	        -             	 (56,386)
          Ending Balance of Loan Guarantee Liabilities                                            $          589         $         621


Administrative Expenses:

Administrative expenses in support of the Department’s direct loan and loan guarantee programs consist of:

                          Direct Loan Program                                      FY 2009                FY 2008
         Drought Loan Portfolio and
            Economic Development Revolving Fund                          $              1,091     $             932
         NOAA Direct Loan Programs                                                      3,169                 2,776
         Total                                                           $              4,260     $           3,708

                        Loan Guarantee Program                                     FY 2009                FY 2008
         Emergency Oil and Gas Loan Guarantee Program                    $ 	                 17   $ 	               41
         Emergency Steel Loan Guarantee Program                                	          134         	         249
         FVOG Program                                                          	          262         	         245
         Total                                                           $                413     $             535




                                                                                                                                       187
F Y   2 0 0 9    P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y       R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




  Note 6. Inventory, Materials, and Supplies, Net

                             Category                           Cost Flow Assumption              FY 2009               FY 2008
        Inventory
        Items Held for Current Sale
        	 NIST Standard Reference Materials                     First-in, first-out           $     22,200          $        21,220
        	 Other                                                 Various                                198                     212
        Allowance for Excess, Obsolete, and
           Unserviceable Items                                                                        (155)                    (108)
        Total Inventory, Net                                                                        22,243                   21,324

        Materials and Supplies
        Items Held for Use
        	 NOAA’s National Logistics Support Center              Weighted-average                    54,632                   50,505
        	 NOAA’s National Reconditioning Center                 Weighted-average                    38,548                   39,027
        	 Census Bureau’s Decennial Census                      First-in, first-out                 50,269                     334
        	 Other                                                 Various                              4,820                    4,388
        Allowance for Excess, Obsolete, and
           Unserviceable Items                                                                     (24,609)                 (14,983)
        Total Materials and Supplies, Net                                                          123,660                   79,271
        Total                                                                                 $    145,903          $       100,595


NIST’s Standard Reference Materials Program provides reference materials for quality assurance of measurements, while NOAA’s
Materials and Supplies are primarily repair parts for weather forecasting equipment.




 188
                                              F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                               NOTES TO THE FINANCIAL STATE M ENTS




   Note 7. General Property, Plant, and Equipment, Net

                                                                     FY 2009
                                                     Useful Life                               Accumulated
                       Category                       (Years)                  Cost            Depreciation        Net Book Value
         Land                                           N/A           $ 	        16,787      $ 	              -   $ 	     16,787
         Land Improvements                             30-40                       2,996               (1,194)             1,802
         Structures, Facilities, and
            Leasehold Improvements                      2-60                   1,338,090            (475,533)            862,557
         Satellites/Weather Systems
            Personal Property                           3-20                   4,522,903           (3,747,384)           775,519
         Other Personal Property                        2-30                   2,083,682           (1,379,468)           704,214
         Assets Under Capital Lease                     3-40             	       25,407        	     (18,437)       	      6,970
         Construction-in-progress                       N/A              	     4,390,978       	              -     	   4,390,978
         Total                                   	                    $ 	 12,380,843         $ 	 (5,622,016)      $ 	   6,758,827


                                                                     FY 2008
                                                     Useful Life                               Accumulated
                       Category                       (Years)                  Cost            Depreciation        Net Book Value
         Land                                           N/A           $ 	        16,771      $ 	              -   $ 	     16,771
         Land Improvements                             30-40                       2,996               (1,102)             1,894
         Structures, Facilities, and
            Leasehold Improvements                      2-60                   1,252,509            (434,930)            817,579
         Satellites/Weather Systems
            Personal Property                           3-20                   4,281,431           (3,589,625)           691,806
         Other Personal Property                        2-30                   1,893,641           (1,245,621)           648,020
         Assets Under Capital Lease                     3-40                     51,348              (27,248)             24,100
         Construction-in-progress                       N/A              	     3,990,238       	              -     	   3,990,238
         Total                                   	                    $ 	 11,488,934         $ 	 (5,298,526)      $ 	   6,190,408




                                                                                                                              189
F Y   2 0 0 9    P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




   Note 8. Other Assets

                                                               FY 2009                     FY 2008
         With the Public                                       	                           	
         Advances and Prepayments                        $           52,061           $        55,439
         Notes Receivable                                              1,853                    1,849
         Bibliographic Database                                        6,103                    5,711
         Other                                                 	           4               	         4
         Total                                           $           60,021           $        63,003


As of September 30, 2009 and 2008, there is one Note Receivable with a maturity date of July 2024 and an interest rate
of 7.0 percent. The balances include accrued interest. This note is considered fully collectible.

The bibliographic database relates to NTIS’s scientific and technical information used to prepare products and services for sale.
The database is stated at capitalized costs of $59.5 million and $56.4 million, less accumulated amortization of $53.4 million and
$50.7 million, at September 30, 2009 and 2008, respectively.



   Note 9. Non-entity Assets

The assets that are not available for use in the Department’s operations are summarized below:

                                                               FY 2009                     FY 2008
         Intragovernmental                                     	                           	
         Fund Balance with Treasury                      $ 	 506,015                  $ 	17,301,365
         Total Intragovernmental                                    506,015                17,301,365

         With the Public
         Cash                                                  	         971               	    1,029
         Accounts Receivable, Net                                        706                       557
         Direct Loans and Loan
            Guarantees, Net                                    	     14,134                    15,669
         Total                                           $          521,826           $ 17,318,620




 190
                                               F Y   2 0 0 9       P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                  NOTES TO THE FINANCIAL STATE M ENTS




   Note 10. Debt to Treasury

                                                                  FY 2009
                                                                      Beginning               Net Borrowings            Ending
                           Loan Program                                Balance                 (Repayments)             Balance
         Direct Loan Program
         Fisheries Finance, Financing Account                 $          465,095          $          17,310     $         482,405

         Loan Guarantee Program
         FVOG Program                                             	         6,831                     (1,961)                4,870

         Digital Television Transition and
            Public Safety Fund                                    	         4,727               	     (4,727)       	             -
         Total                                                $ 	        476,653          $          10,622     $         487,275


For the Direct Loan and Loan Guarantee Programs, maturity dates range from September 2010 to September 2038, and interest
rates range from 3.65 to 6.97 percent.




                                                                  FY 2008
                                                                      Beginning               Net Borrowings            Ending
                           Loan Program                                Balance                 (Repayments)             Balance
         Direct Loan Program
         Fisheries Finance, Financing Account                 $          469,526          $           (4,431)   $         465,095

         Loan Guarantee Program
         Emergency Steel Loan Guarantee Program                   	         2,551                     (2,551)       	             -
         FVOG Program                                             	         9,431                     (2,600)                6,831
         Digital Television Transition and
            Public Safety Fund                                    	      164,489                	   (159,762)                4,727
         Total                                                $ 	        645,997          $         (169,344)   $         476,653




                                                                                                                                      191
F Y   2 0 0 9    P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y      R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




  Note 11. Other Liabilities

                                                                           FY 2009                                           FY 2008
                                                                       Non-current
                                             Current Portion             Portion                     Total                     Total
        Intragovernmental
        Accrued FECA Liability              $        26,728        $          10,296         $         37,024        $            33,839
        Accrued Benefits                             36,642            	             -                 36,642                     32,358
        Downward Subsidy Reestimates
          Payable to Treasury                         3,509            	             -                  3,509                     68,379
        Other                                            620           	             -                       620         	             958
        Total                               $        67,499        $          10,296         $         77,795        $          135,534


        With the Public
        ITA Foreign Service Nationals’
           Voluntary Separation Pay         $         2,207        $           7,486         $          9,693        $             9,714
        Contingent Liabilities                       13,450                     512                    13,962                     29,229
        Employment-related                           10,018            	             -                 10,018                      6,821
        Other                                         9,283            	             -                  9,283                      8,946
        Total                               $        34,958        $           7,998         $         42,956        $            54,710



The Current Portion represents liabilities expected to be paid by September 30, 2010, while the Non-current Portion represents
liabilities expected to be paid after September 30, 2010.




 192
                                             F Y   2 0 0 9   P E R F O R M A N C E       A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




   Note 12. Federal Employee Benefits

These liabilities consist of:

                                                                                            FY 2009            FY 2008
          Actuarial FECA Liability                                                   $ 	 171,234        $ 	 169,463
          NOAA Corps Retirement System Liability                                        	 471,600          	 448,100
          NOAA Corps Post-retirement Health Benefits Liability                          	     44,600       	     49,000
          Total                                                                      $ 	 687,434        $ 	 666,563


Actuarial FECA Liability:

Actuarial FECA liability is calculated annually, as of September 30. For discounting projected annual future benefit payments to
present value, the interest rate assumptions used by DOL were as follows:

                                                                                            FY 2009            FY 2008
          Year 1                                                                        	     4.22%        	     4.37%
          Year 2 and Thereafter                                                         	     4.72%        	     4.77%


The wage inflation factors (Cost of Living Allowance) and medical inflation factors (Consumer Price Index - Medical) applied to the
calculation of projected future benefits, and also used to adjust the methodology’s historical payments to current year constant
dollars, were as follows:

                                                    FY 2009
                                                             Cost of Living           Consumer Price
                         Fiscal Year                           Allowance              Index - Medical
          2010                                                    0.47%                      3.42%
          2011                                                    1.40%                      3.29%
          2012                                                    1.50%                      3.48%
          2013                                                    1.80%                      3.71%
          2014                                                    2.00%                      3.71%

                                                    FY 2008
                                                             Cost of Living           Consumer Price
                         Fiscal Year                           Allowance              Index - Medical
          2009                                                    3.87%                      4.00%
          2010                                                    2.73%                      3.86%
          2011                                                    2.20%                      3.87%
          2012                                                    2.23%                      3.93%
          2013                                                    2.30%                      3.93%




                                                                                                                             193
F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




NOAA Corps Retirement System Liability:

This liability represents the unfunded actuarial present value of projected plan benefits. The actuarial calculation is performed
annually, as of September 30. The September 30, 2009 and 2008 actuarial calculations used the following U.S. Department of
Defense Retirement Board of Actuaries economic assumptions:

                                                                            FY 2009                     FY 2008
         Investment Earnings on Federal Securities                      	       5.75%              	       5.75%
         Annual Basic Pay Scale Increases                               	       3.75%              	       3.75%
         Annual Inflation                                                       3.00%              	       3.00%


The related pension costs included in the Consolidated Statements of Net Cost are as follows:

                                                                            FY 2009                     FY 2008
         Normal Cost                                                    $        6,600             $          5,600
         Interest on the Unfunded Liability                                 	   25,200                      25,400
         Actuarial (Gains)/Losses, Net
         	 Impact of New Investment Return                                  	   11,200                      14,900
         	 Impact of Updated Data for Active Duty 		
           	 Members, Retirees, and Survivors                               	    (3,700)                      5,300
         	 Impact of New Demographic Assumptions                            	    5,000                          700
         Total Pension Costs                                            $       44,300             $        51,900


NOAA Corps Post-retirement Health Benefits Liability:

This liability represents the unfunded actuarial present value of projected post-retirement plan benefits. The actuarial calculation
is performed annually, as of September 30. The actuarial calculations used the same U.S. Department of Defense Retirement Board
of Actuaries economic assumptions as used for the NOAA Corps Retirement System actuarial calculations.

The related post-retirement health benefits costs included in the Consolidated Statements of Net Cost are as follows:

                                                                            FY 2009                     FY 2008
         Normal Cost                                                    $ 	        1,300           $          1,400
         Interest on the Unfunded Liability                                 	      2,700               	      2,500
         Actuarial (Gains)/Losses, Net                                      	     (5,100)              	      2,700
         Total Post-retirement Health Benefits Costs                    $ 	       (1,100)          $          6,600




 194
                                               F Y   2 0 0 9   P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




    Note 13. Environmental and Disposal Liabilities

                                                                               FY 2009             FY 2008
          Pribilof Island Cleanup                                         $ 	       10,030     $ 	     10,586
          Nuclear Reactor                                                      	    48,039         	   52,228
          Other                                                                	     2,926         	     5,049
          Total                                                           $         60,995     $       67,863




   Note 14. Leases

Capital Leases:

Assets under capital leases are as follows:

                                                                               FY 2009             FY 2008
          Structures, Facilities, and Leasehold Improvements              $ 	       22,860     $ 	     28,852
          Equipment                                                            	     2,547         	   22,496
          Less: Accumulated Depreciation                                       	   (18,437)        	   (27,248)
          Net Assets Under Capital Leases                                 $          6,970     $       24,100


Capital Lease Liabilities are primarily related to NOAA. NOAA has real property capital leases covering both land and buildings.
The majority of these leases are for weather forecasting offices, but the leases are also for radar system sites, river forecasting
centers, and National Weather Service enforcement centers. NOAA’s real property capital leases range from 10 to 40 years.




                                                                                                                             195
F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




Capital Lease Liabilities:

Future payments due under capital leases are as follows:

                                                        FY 2009
                                                       General PP&E Category
                     Fiscal Year                 Real Property        Personal Property                Total
                2010                         $          3,973         $ 	             10       $          3,983
                2011                                    4,008             	            -                  4,008
                2012                                    3,790             	            -                  3,790
                2013                                    3,647             	            -                  3,647
                2014                                    2,971             	            -                  2,971
                Thereafter                             12,831             	            -                 12,831
         Total Future Lease Payments                   31,220             	           10           	     31,230
         Less: Imputed Interest                       (13,149)            	            -                (13,149)
         Less: Executory Costs                         (5,492)            	            -                 (5,492)
         Net Capital Lease Liabilities       $         12,579         $               10       $ 	       12,589


                                                        FY 2008
                                                       General PP&E Category
                     Fiscal Year                 Real Property        Personal Property                Total
                2009                         $          4,205         $ 	      19,391          $ 	       23,596
                2010                                    3,984             	           10           	      3,994
                2011                                    4,010             	            -           	      4,010
                2012                                    3,791             	            -           	      3,791
                2013                                    3,648             	            -           	      3,648
                Thereafter                             16,010             	            -                 16,010
         Total Future Lease Payments                   35,648             	    19,401              	     55,049
         Less: Imputed Interest                       (15,104)                   (887)                  (15,991)
         Less: Executory Costs                         (6,504)                 (1,673)                   (8,177)
         Net Capital Lease Liabilities       $         14,040         $        16,841          $ 	       30,881




 196
                                              F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                               NOTES TO THE FINANCIAL STATE M ENTS




Operating Leases:

Most of the Department’s facilities are rented from GSA, which generally charges rent that is intended to approximate commercial
rental rates. For federally owned property rented from GSA, the Department generally does not execute an agreement with GSA;
the Department, however, is normally required to give 120 to 180 days notice to vacate. For non-federally owned property rented
from GSA, an occupancy agreement is generally executed, and the Department may normally cancel these agreements with 120
days notice.

The Department’s (1) estimated real property rent payments to GSA for FY 2010 through FY 2014; and (2) future payments due
under noncancellable operating leases (non-GSA real property) are as follows:

                                                                     FY 2009
                                                                                  General PP&E Category
                                                                                 GSA                 Non-GSA
                                            Fiscal Year                     Real Property          Real Property
                                        2010                            $       257,435        $         16,681
                                        2011                                    268,664                  17,117
                                        2012                                    263,004                  17,000
                                        2013                                    257,126                  15,790
                                        2014                                    257,231                  10,912
                                        Thereafter                                      1                80,449
                               Total Future Lease Payments                        N/A          $       157,949

                               1	   Not estimated.




                                                                                                                          197
F Y   2 0 0 9   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




   Note 15. Liabilities Not Covered by Budgetary Resources

                                                                                   FY 2009                 FY 2008
         Intragovernmental
         Debt to Treasury - Digital Television and
           Transition Public Safety Fund                                   $ 	               -       $ 	        4,727
         Accrued FECA Liability                                                       35,616                  33,059
         Total Intragovernmental                                                      35,616                  37,786

         Accrued Payroll                                                       	      26,987                  31,510
         Accrued Annual Leave                                                        253,347                 233,682
         Federal Employee Benefits                                                   687,434                 666,563
         Environmental and Disposal Liabilities                                       60,995                  67,863
         Contingent Liabilities                                                       13,962                  29,229
         Unearned Revenue                                                            681,032                 774,832
         ITA Foreign Service Nationals’ Voluntary Separation Pay                        9,693                   9,714
         Other                                                                           578                    1,644
         Total                                                             $       1,769,644         $     1,852,823


Due to USPTO’s funding structure, budgetary resources do not cover a portion of its Unearned Revenue. The Unearned Revenue
reported above is the portion of USPTO’s Unearned Revenue that is considered not covered by budgetary resources. USPTO’s
Unearned Revenue is a liability for revenue received before the patent or trademark work has been completed. Budgetary resources
derived from the current reporting period’s revenue have been partially used to cover the current reporting period’s costs associated
with unearned revenue from a prior reporting period. In addition, the current patent fee structure sets low initial application fees
that are followed by income from maintenance fees as a supplement in later years to cover the full cost of the patent examination
and issuance processes. The combination of these funding circumstances requires USPTO to obtain additional budgetary resources
to cover its liability for unearned revenue.




 198
                                                F Y   2 0 0 9   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                     NOTES TO THE FINANCIAL STATE M ENTS




   Note 16. Commitments and Contingencies

Commitments:

The Department has entered into long-term contracts for the purchase, construction, and modernization of environmental satellites
and weather measuring and monitoring systems. A summary of major long-term commitments as of September 30, 2009 is shown
below.

Major Long-term Commitments:
                                                                    FY 2009
Description                          FY 2010          FY 2011         FY 2012            FY 2013        FY 2014       Thereafter   Total
Geostationary Operational
  Environmental Satellites       $       794,600 $        897,500 $       871,900 $         855,200 $       873,600 $ 2,278,400 $ 6,571,200
Convergence Satellites                   382,200          428,800         383,900           413,800         501,700    2,340,000   4,450,400
Polar Operational
   Environmental Satellites               43,100           40,900          40,900            40,900          40,900       66,800    273,500
Other Weather Service                    135,250          131,020         119,453       	 108,534       	    74,097   	   75,209    643,563
Other                                	     1,207      	         -     	          -      	          -    	         -   	        -      1,207
Total                            $ 1,356,357 $ 1,498,220 $ 1,416,153 $ 1,418,434 $ 1,490,297 $ 4,760,409 $ 11,939,870

Legal Contingencies:

The Department is subject to potential liabilities in various administrative proceedings, legal actions, environmental suits, and
claims brought against it. In the opinion of the Department’s management and legal counsel, the ultimate resolution of these
proceedings, actions, suits, and claims will not materially affect the financial position or net costs of the Department.

Probable Likelihood of an Adverse Outcome:

The Department is subject to potential liabilities where adverse outcomes are probable, and claims are approximately $14.0 million
and $29.2 million as of September 30, 2009 and 2008, respectively. Accordingly, $14.0 million and $29.2 million of contingent
liabilities were included in Other Liabilities on the Consolidated Balance Sheets as of September 30, 2009 and 2008, respectively.
For a majority of these claims, any amounts ultimately due will be paid out of Treasury’s Judgment Fund. For the claims to be paid
by Treasury’s Judgment Fund, once the claims are settled or court judgments are assessed relative to the Department, the liability
will be removed and an Imputed Financing Source From Cost Absorbed by Others will be recognized.

Reasonably Possible Likelihood of an Adverse Outcome:

The Department and other federal agencies are subject to potential liabilities for a variety of environmental cleanup costs, many of
which are associated with the Second World War, at various sites within the U.S. Since some of the potential liabilities represent
claims with no stated amount, the exact amount of total potential liabilities is unknown, but may exceed $89.8 million as of
September 30, 2009. For these potential liabilities, it is reasonably possible that an adverse outcome will result. It is not possible,
however, to speculate as to a range of loss. In the absence of a settlement agreement, decree, or judgment, there is neither an
allocation of response costs between the U.S. government and other potentially responsible parties, nor is there an attribution of
such costs to or among the federal agencies implicated in the claims. Although the Department has been implicated as a responsible




                                                                                                                                     199
F Y   2 0 0 9   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y       R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




party, the U.S. Department of Justice was unable to provide an amount for these potential liabilities that is attributable to the
Department. Of these potential liabilities, all will be funded by Treasury’s Judgment Fund, if any amounts are ultimately due.

The Department and other federal agencies are subject to other potential liabilities. Since some of the potential liabilities
represent claims with no stated amount, the exact amount of total potential liabilities is unknown, but may exceed $153.4 million
as of September 30, 2009. For these potential liabilities, it is reasonably possible that an adverse outcome will result. It is not
possible, however, to speculate as to a range of loss. Of these potential liabilities, most will be funded by Treasury’s Judgment
Fund, if any amounts are ultimately due.

Guaranteed Loan Contingencies:

Fishing Vessels Obligation Guarantee Program: This loan guarantee program has outstanding non-acquired guaranteed loans (fully
guaranteed by the Department) as of September 30, 2009 and 2008, with outstanding principal balances totaling $4.3 million
and $9.4 million, respectively. A loan guarantee liability of $589 thousand and $621 thousand is recorded for the outstanding
guarantees at September 30, 2009 and 2008, respectively.




 200
                                               F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                   NOTES TO THE FINANCIAL STATE M ENTS




    Note 17. Consolidated Statements of Net Cost

FY 2009 Consolidating Statement of Net Cost:

                                                                                                                                                                                    Intra-
                                                                                                                                              Departmental        Combining      Departmental   Consolidating
                                          NOAA              USPTO                ESA             NIST               NTIA         Others       Management            Total        Eliminations      Total

Strategic Goal 1: Maximize U.S.
Competitiveness and Enable
Economic Growth for American
Industries, Workers, and
Consumers
    Intragovernmental Gross Costs $ 	            - $ 	              -   $        547,708 $              11   $ 	           - $ 227,060 $             76,704   $     851,483 $ 	 (84,380) $            767,103
    Gross Costs With the Public      	           -     	            -           2,478,857        121,300       	           -     672,145             35,573        3,307,875      	        -         3,307,875
        Total Gross Costs            	           -     	            -           3,026,565        121,311       	           -     899,205            112,277        4,159,358      	 (84,380)         4,074,978
    Intragovernmental Earned
         Revenue                     	           -     	            -       	 (237,357)      	           -     	           -   	 (29,831)       	 (81,588)        	 (348,776)         84,380     	 (264,396)
    Earned Revenue From the
        Public                       	           -     	            -       	      (6,878)   	           -     	           -   	 (9,266)        	      (24)       	 (16,168)      	        -     	     (16,168)
        Total Earned Revenue         	           -     	            -       	 (244,235)      	           -     	           -   	 (39,097)       	 (81,612)        	 (364,944)         84,380     	 (280,564)
    Net Program Costs                	           -     	            -       2,782,330        121,311           	           -   860,108              30,665        3,794,414       	        -      3,794,414
Strategic Goal 2: Promote
U.S. Innovation and Industrial
Competitiveness
    Intragovernmental Gross Costs    	           -          404,786         	           -        129,844            202,327         6,530            76,704         820,191       	 (97,949)          722,242
    Gross Costs With the Public      	           -         1,577,154        	           -        694,433            996,539        21,640            35,575        3,325,341      	        -         3,325,341
        Total Gross Costs            	           -         1,981,940        	           -        824,277           1,198,866       28,170           112,279        4,145,532      	 (97,949)         4,047,583
    Intragovernmental Earned
         Revenue                     	           -     	      (7,443)       	           -    	(127,114)        	 (32,216)      	 (14,914)       	 (81,591)        	 (263,278)         97,949     	 (165,329)
    Earned Revenue From the
        Public                       	           -     	(1,919,687)         	           -    	 (71,177)        	       (209)   	 (11,158)       	      (22)       	(2,002,253)    	        -     	(2,002,253)
        Total Earned Revenue         	           -     	(1,927,130)         	           -    	(198,291)        	 (32,425)      	 (26,072)       	 (81,613)        	(2,265,531)        97,949     	(2,167,582)
    Net Program Costs                	           -           54,810         	           -    625,986           1,166,441           2,098            30,666        1,880,001       	        -      1,880,001
Strategic Goal 3: Promote
Environmental Stewardship
    Intragovernmental Gross Costs         677,895      	            -       	           -    	           -     	           -   	          -          76,727         754,622       	 (82,650)          671,972
    Gross Costs With the Public          3,710,398     	            -       	           -    	           -     	           -   	          -          35,586        3,745,984      	        -         3,745,984
        Total Gross Costs                4,388,293     	            -       	           -    	           -     	           -   	          -         112,313        4,500,606      	 (82,650)         4,417,956
    Intragovernmental Earned
         Revenue                     	 (184,643)       	            -       	           -    	           -     	           -   	          -     	 (81,615)        	 (266,258)         82,650     	 (183,608)
    Earned Revenue From the
        Public                       	     (82,001)    	            -       	           -    	           -     	           -   	          -     	      (23)       	 (82,024)      	        -     	     (82,024)
        Total Earned Revenue         	 (266,644)       	            -       	           -    	           -     	           -   	          -     	 (81,638)        	 (348,282)         82,650     	 (265,632)
	   Net Program Costs                 4,121,649        	            -       	           -    	           -     	           -   	          -         30,675        4,152,324       	        -      4,152,324
NET COST OF OPERATIONS              $ 4,121,649 $            54,810     $ 2,782,330 $ 747,297                $ 1,166,441 $ 862,206 $                92,006    $ 9,826,739 $ 	              -    $ 9,826,739




                                                                                                                                                                                                201
F Y   2 0 0 9       P E R F O R M A N C E             A N D         A C C O U N T A B I L I T Y                    R E P O R T
         NOTES TO THE FINANCIAL STATE M ENTS




FY 2008 Consolidating Statement of Net Cost:

                                                                                                                                                                                    Intra-
                                                                                                                                               Departmental       Combining      Departmental      Consolidating
                                                       NOAA             USPTO                 ESA               TA                Others       Management           Total        Eliminations         Total

Strategic Goal 1: Maximize U.S.
Competitiveness and Enable Economic
Growth for American Industries, Workers, and
Consumers
    Intragovernmental Gross Costs               $ 	           - $ 	              -   $        370,872 $ 	            -    $       209,606 $           74,640 $       655,118 $ 	      (79,520) $       575,598
    Gross Costs With the Public                   	           -    	             -           1,193,020         108,440            576,239             46,406       1,924,105      	         -       1,924,105
        Total Gross Costs                         	           -    	             -           1,563,892         108,440            785,845            121,046       2,579,223      	   (79,520)      2,499,703
    Intragovernmental Earned Revenue              	           -    	             -       	 (233,519)       	         -        	 (35,776)         	 (85,029)         (354,324)         79,520          (274,804)
    Earned Revenue From the Public                	           -    	             -       	 (15,873)        	         -        	 (10,895)         	        -          (26,768)     	         -          (26,768)
        Total Earned Revenue                      	           -    	             -       	 (249,392)       	         -        	 (46,671)         	 (85,029)         (381,092)         79,520          (301,572)
    Net Program Costs                             	           -    	             -       1,314,500         108,440                739,174            36,017        2,198,131      	         -      2,198,131
Strategic Goal 2: Promote U.S. Innovation and
Industrial Competitiveness
    Intragovernmental Gross Costs                 	           -          359,059         	           -         151,201              35,895            74,640         620,795      	   (89,058)         531,737
    Gross Costs With the Public                   	           -        1,533,531         	           -         679,436            703,318             46,406       2,962,691      	         -       2,962,691
        Total Gross Costs                         	           -        1,892,590         	           -         830,637            739,213            121,046       3,583,486      	   (89,058)     	 3,494,428
    Intragovernmental Earned Revenue              	           -            (7,428)       	           -      (137,089)         	 (33,798)         	 (85,029)         (263,344)         89,058          (174,286)
    Earned Revenue From the Public                	           -        (1,854,746)       	           -         (42,330)       	       (303)      	        -        (1,897,379)    	         -       (1,897,379)
        Total Earned Revenue                      	           -        (1,862,174)       	           -      (179,419)         	 (34,101)         	 (85,029)        (2,160,723)        89,058        (2,071,665)
    Net Program Costs                             	           -    	      30,416         	           -      651,218               705,112            36,017        1,422,763      	         -      1,422,763
Strategic Goal 3: Promote Environmental                            	
Stewardship
    Intragovernmental Gross Costs                 	 673,505        	             -       	           -     	         -        	            -          74,663         748,168      	   (77,638)         670,530
    Gross Costs With the Public                   	 3,619,018      	             -       	           -     	         -        	            -          46,419       3,665,437      	         -       3,665,437
        Total Gross Costs                             4,292,523    	             -       	           -     	         -        	            -         121,082       4,413,605      	   (77,638)      4,335,967
    Intragovernmental Earned Revenue              	 (173,045)      	             -       	           -     	         -        	            -     	 (85,055)         (258,100)         77,638          (180,462)
    Earned Revenue From the Public                	     (77,586)   	             -       	           -     	         -        	            -     	        -          (77,586)     	         -          (77,586)
        Total Earned Revenue                      	 (250,631)      	             -       	           -     	         -        	            -     	 (85,055)         (335,686)         77,638          (258,048)
	   Net Program Costs                             4,041,892        	             -       	           -     	         -        	            -         36,027        4,077,919      	         -      4,077,919
NET COST OF OPERATIONS                          $ 4,041,892 $             30,416     $ 1,314,500 $ 759,658                $ 1,444,286 $ 108,061 $ 7,698,813 $ 	                             -    $ 7,698,813




           202
                                                                                F Y   2 0 0 9            P E R F O R M A N C E                  A N D          A C C O U N T A B I L I T Y          R E P O R T
                                                                                NOTES TO THE FINANCIAL STATE M ENTS




Major Programs: The following tables illustrate major programs of the Department. “Other Programs” refers to the other programs
within each strategic goal. The “Others” column refers to the Department’s reporting entities that are not listed. The Others
column data and the Other Programs data are presented solely to reconcile these tables to the Combining Total columns on the
Consolidating Statements of Net Cost.

FY 2009 Statement of Net Cost by Major Program (Combining Basis):

                                                                       Census                                                           Combining
                Program Costs                           NOAA           Bureau             NIST            USPTO            Others         Total
Strategic Goal 1: Maximize U.S. Competitiveness and Enable
Economic Growth for American Industries, Workers, and
Consumers
Decennial and Periodic Censuses                                                                                                                 	
	 Gross Costs                                   $	         -          $ 2,015,059    $	          -   $	           -   $	            -   $        2,015,059
	 Less: Earned Revenue                           	         -           	        -     	          -    	           -    	            -                     -
	 Net Program Costs                              	         -           2,015,059      	          -    	           -    	            -           2,015,059
Other Programs
	 Gross Costs                                       	            -        911,079          121,311    	           -     1,111,909                   2,144,299
	 Less: Earned Revenue                              	            -     	 (238,281)    	          -    	           -    	 (126,663)          	        (364,944)
	 Net Program Costs                                 	            -       672,798          121,311     	           -         985,246             1,779,355
Net Program Costs for Strategic Goal 1              	            -     2,687,857          121,311     	           -         985,246             3,794,414

Strategic Goal 2: Promote U.S. Innovation and Industrial
Competitiveness
Measurement and Standards Laboratories
	 Gross Costs                                     	              -     	        -        689,751      	           -    	            -                689,751
	 Less: Earned Revenue                            	              -     	        -     	 (170,517)     	           -    	            -       	       (170,517)
	 Net Program Costs                               	              -     	        -       519,234       	           -    	            -               519,234
Patents
	 Gross Costs                                       	            -     	        -     	          -      1,744,676      	            -          1,744,676
	 Less: Earned Revenue                              	            -     	        -     	          -    	(1,697,432)     	            -       	 (1,697,432)
	 Net Program Costs                                 	            -     	        -     	          -        47,244       	            -            47,244
Trademarks
	 Gross Costs                                       	            -     	        -     	          -       193,187       	            -                193,187
	 Less: Earned Revenue                              	            -     	        -     	          -    	 (229,698)                           	       (229,698)
	   Net Program Costs                               	            -     	        -     	          -    	 (36,511)       	            -       	        (36,511)
Other Programs
	 Gross Costs                                       	            -     	        -       134,526             44,077       1,339,315               1,517,918
	 Less: Earned Revenue                              	            -     	        -     	 (27,774)      	          -     	 (140,110)          	     (167,884)
	 Net Program Costs                                 	            -     	        -      106,752             44,077       1,199,205               1,350,034
Net Program Costs for Strategic Goal 2              	            -     	        -      625,986             54,810       1,199,205               1,880,001

Strategic Goal 3: Promote Environmental Stewardship
Ecosystems
	 Gross Costs                                      1,701,525           	        -     	          -    	           -    	            -            1,701,525
	 Less: Earned Revenue                           	 (135,569)           	        -     	          -    	           -    	            -       	     (135,569)
	 Net Program Costs                               1,565,956            	        -     	          -    	           -    	            -           1,565,956
Other Programs
	 Gross Costs                                            2,686,768     	        -     	          -    	           -         112,313              2,799,081
	 Less: Earned Revenue                              	     (131,075)    	        -     	          -    	           -    	    (81,638)        	     (212,713)
	 Net Program Costs                                     2,555,693      	        -     	          -    	           -         30,675              2,586,368
Net Program Costs for Strategic Goal 3                  4,121,649      	        -     	          -    	           -          30,675             4,152,324
NET COST OF OPERATIONS                            $ 4,121,649         $ 2,687,857    $ 747,297       $     54,810     $ 2,215,126       $ 9,826,739




                                                                                                                                                      203
F Y   2 0 0 9   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y    R E P O R T
  NOTES TO THE FINANCIAL STATE M ENTS




FY 2008 Statement of Net Cost by Major Program (Combining Basis):

                                                                    Census                                                             Combining
               Program Costs                           NOAA         Bureau          NIST                  USPTO         Others           Total
Strategic Goal 1: Maximize U.S. Competitiveness and Enable
Economic Growth for American Industries, Workers, and
Consumers
Decennial and Periodic Censuses                                                                                                            	
	 Gross Costs                                   $	         -       $ 585,247      $ 	       -     $	              -   $	          -    $        585,247
	 Less: Earned Revenue                            	        -        	      -        	       -      	              -    	          -        	          -
	 Net Program Costs                               	        -         585,247        	       -      	              -    	          -            585,247
Other Programs
	 Gross Costs                                      	          -        888,587      	108,440          	           -       996,949           1,993,976
	 Less: Earned Revenue                             	          -      	(243,930)     	       -         	           -     	(137,162)         	 (381,092)
	 Net Program Costs                                	          -       644,657       	108,440          	           -      859,787           1,612,884
Net Program Costs for Strategic Goal 1             	          -      1,229,904       	108,440         	           -      859,787           2,198,131

Strategic Goal 2: Promote U.S. Innovation and Industrial
Competitiveness
Measurement and Standards Laboratories
	 Gross Costs                                     	           -      	       -       671,829          	           -     	         -           671,829
	 Less: Earned Revenue                            	           -      	       -      (115,746)         	           -     	         -        	 (115,746)
	 Net Program Costs                               	           -      	       -      556,083           	           -     	         -          556,083
Patents
	 Gross Costs                                      	          -      	       -      	       -          1,655,656        	         -          1,655,656
	 Less: Earned Revenue                             	          -      	       -      	       -         (	 1,624,993)     	         -        (	 1,624,993)
	 Net Program Costs                                	          -      	       -      	       -              30,663       	         -             30,663
Trademarks
	 Gross Costs                                      	          -      	       -      	       -            192,587        	         -           192,587
	 Less: Earned Revenue                             	          -      	       -      	       -         	(237,181)        	         -        	 (237,181)
	 Net Program Costs                                	          -      	       -      	       -         	 (44,594)        	         -        	 (44,594)
Other Programs
	 Gross Costs                                      	          -      	       -       133,714                44,347        885,353           1,063,414
	 Less: Earned Revenue                             	          -      	       -      	(41,210)       	            -      	(141,593)         	 (182,803)
	 Net Program Costs                                	          -      	       -       92,504                44,347        743,760             880,611
Net Program Costs for Strategic Goal 2             	          -      	       -      648,587                30,416        743,760           1,422,763

Strategic Goal 3: Promote Environmental Stewardship
Ecosystems
	 Gross Costs                                     1,645,797          	       -      	       -         	           -     	         -        1,645,797
	 Less: Earned Revenue                              (67,201)         	       -      	       -         	           -     	         -           (67,201)
	 Net Program Costs                              1,578,596           	       -      	       -         	           -     	         -        1,578,596
Other Programs
	 Gross Costs                                       2,646,726        	       -      	       -         	           -         121,082        2,767,808
	 Less: Earned Revenue                               (183,430)       	       -      	       -         	           -         (85,055)        (268,485)
	 Net Program Costs                                2,463,296         	       -      	       -         	           -         36,027         2,499,323
Net Program Costs for Strategic Goal 3             4,041,892         	       -      	       -         	           -         36,027         4,077,919
NET COST OF OPERATIONS                           $ 4,041,892       $ 1,229,904    $ 757,027       $        30,416     $ 1,639,574      $ 7,698,813




    204
                                                   F Y   2 0 0 9    P E R F O R M A N C E       A N D      A C C O U N T A B I L I T Y         R E P O R T
                                                                               NOTES TO THE FINANCIAL STATE M ENTS




   Note 18. Combined Statements of Budgetary Resources

The amount of Budget Authority, Appropriations, on the Combined Statements of Budgetary Resources (SBR) reconciles to the
amount of Budgetary Financing Sources, Appropriations Received, reported on the Consolidated Statements of Changes in Net
Position (SCNP) as follows:

                                                                                                     FY 2009               FY 2008
           Budget Authority, Appropriations (SBR)                                            $       34,069,220    $       9,551,340
           Less:
                Appropriated Receipts for NOAA and DM/G&B, Classified as
                  Exchange Revenue                                                                      (17,306)       	     (20,824)
                Appropriated Receipts for NTIA’s Digital Television Transition
                  and Public Safety Fund, Classified as Transfers In of Spectrum
                  Auction Proceeds from Federal Communications Commission                        (16,689,557)          	(1,778,983)
                Other                                                                            	             2       	      (1,585)
           Budgetary Financing Sources, Appropriations Received (SCNP)                       $       17,362,359    $       7,749,948


Budget Authority, Appropriations, included on the SBR has increased significantly from FY 2008 to FY 2009 primarily due to
the large increase of $14.91 billion in appropriated receipts for NTIA’s Digital Television Transition and Public Safety Fund and
appropriations of $7.92 billion received in FY 2009 under the American Recovery and Reinvestment Act of 2009 (Public Law 111-5).
Additional information on the above noted appropriations is included in this note.

Total borrowing authority available for NOAA’s loan programs amounted to $260.5 million and $214.9 million at September 30,
2009 and 2008, respectively, while total borrowing authority available for NTIA’s Digital Television Transition and Public Safety
Fund amounted to $914.9 million at September 30, 2008. During FY 2009, the Digital Television Transition and Public Safety Fund’s
borrowing authority was decreased by $914.9 million; this decrease is included as a reduction of budgetary resources on the SBR
for FY 2009 on the line Permanently Not Available. The Borrowing Authority amounts reported in the SBR Budgetary Resources
section represent only borrowing authority realized during the fiscal year being reported. See Note 1M, Debt to Treasury, for debt
repayment requirements, financing sources for repayments, and other terms of borrowing authority used.

Ninety-five percent of the Department’s reporting entities have one or more permanent no-year appropriations to finance
operations.

Reductions to the Department’s appropriations under Public Law 111-8 amounted to $25.6 million for FY 2009, while reductions
for FY 2008 under Public Law 110-161 amounted to $36.7 million. These reductions are included in the SBR Budgetary Resources
line Permanently Not Available. These reductions are also part of the amounts reported on the line Other Adjustments in the
Unexpended Appropriations section, Budgetary Financing Sources subsection of the SCNP.

Legal arrangements affecting the Department’s use of Unobligated Balances of Budget Authority and/or Fund Balance with
Treasury during FY 2009 and FY 2008 include the following:

      l	   The Department’s Deposit Funds, reported in Note 2, Fund Balance with Treasury, are not available to finance operating
           activities. These funds are also included in Note 2 on the line Non-budgetary (breakdown by status).




                                                                                                                                     205
F Y   2 0 0 9    P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




       l	   The Department’s Fund Balance with Treasury as of September 30, 2009 and 2008 includes $528.7 million of USPTO
            offsetting collections exceeding prior years’ appropriations. USPTO may use these funds only as authorized by the U.S.
            Congress, and only as made available by the issuance of a Treasury warrant. These funds are included in Note 2 on the
            lines General Funds (breakdown by type), and Temporarily Precluded From Obligation (breakdown by status).
       l	   The Omnibus Budget Reconciliation Act of 1990 established surcharges on certain statutory patent fees collected by
            USPTO. Subsequent legislation extended the surcharges through the end of FY 1998. These surcharges were deposited
            into the Patent and Trademark Surcharge Fund, a Special Fund Receipt Account at Treasury. USPTO may use monies from
            this account only as authorized by Congress and made available by the issuance of a Treasury warrant. At September 30,
            2009 and 2008, $233.5 million is held in the Patent and Trademark Surcharge Fund. These funds are included in Note 2
            on the lines Special Fund (Patent and Trademark Surcharge Fund) (breakdown by type), and Non-budgetary (breakdown
            by status).
       l	   The Department’s Fund Balance with Treasury as of September 30, 2009 includes $8.29 billion of funds temporarily
            not available for the Digital Television and Transition Public Safety Fund. These funds are included in Note 2 on the
            lines Digital Television and Transition Public Safety Fund - Special Funds section (breakdown by type), and Unobligated
            Balance - Unavailable (breakdown by status). On the SBR for FY 2009, these funds are included on the line Unobligated
            Balance Not Available.
       l	   The Department’s Fund Balance with Treasury as of September 30, 2009 and 2008 includes $23.1 and $25.3 million,
            respectively, of funds temporarily not available for the Coastal Zone Management Fund, which accounts for the Coastal
            Energy Impact Program direct loans. These funds are included in Note 2 on the lines Revolving Funds (breakdown by
            type), and Temporarily Precluded From Obligation (breakdown by status).
       l	   For loan programs prior to the Federal Credit Reform Act of 1990 (pre-FY 1992 loans), most or all liquidating fund
            unobligated balances in excess of working capital needs are required to be transferred to Treasury as soon as practicable
            during the following fiscal year.
       l	   For direct loan programs under the Federal Credit Reform Act of 1990 (post-FY 1991 loans) that have outstanding debt
            to Treasury, regulations require that most unobligated balances be returned to Treasury on September 30, or require that
            the borrowing authority be cancelled on September 30.
       l	   For loan guarantee programs under the Federal Credit Reform Act of 1990 that have outstanding debt to Treasury,
            regulations require that unobligated balances in excess of the outstanding guaranteed loans’ principal and interest be
            returned to Treasury on September 30.

There are no material differences between the amounts reported in the FY 2008 Combined Statement of Budgetary Resources and
the actual FY 2008 amounts reported in the FY 2010 budget of the U.S. government.




 206
                                                 F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                               NOTES TO THE FINANCIAL STATE M ENTS




Apportionment Categories of Obligations Incurred:

The amounts of direct and reimbursable obligations incurred against amounts apportioned under Category A, Category B, and
Exempt from Apportionment are as follows:

                                                                                               FY 2009
                                                                   Direct                    Reimbursable        Total
         Category A                                       $ 	      5,638,199          $        2,273,490    $    7,911,689
         Category B                                           	    6,395,748                      77,395         6,473,143
         Exempt from Apportionment                            	     172,688                      852,294         1,024,982
         Total                                            $       12,206,635          $        3,203,179    $   15,409,814

                                                                                               FY 2008
                                                                   Direct                    Reimbursable        Total
         Category A                                       $ 	      2,988,891          $         2,237,810   $    5,226,701
         Category B                                           	    5,433,981                       48,247        5,482,228
         Exempt from Apportionment                            	     173,309                      779,337           952,646
         Total                                            $        8,596,181          $         3,065,394   $   11,661,575

Category A apportionments distribute budgetary resources by fiscal quarters, whereas Category B apportionments typically
distribute budgetary resources by activities, projects, objects, or a combination of these categories.

Undelivered Orders:

Undelivered orders were $7.87 billion and $6.64 billion at September 30, 2009 and 2008, respectively.

American Recovery and Reinvestment Act of 2009:

The Department received Appropriations of $7.92 billion in FY 2009 under the American Recovery and Reinvestment Act of
2009, including $4.70 billion for NTIA’s Broadband Technology Opportunities Program; $1.00 billion for Census Bureau’s Periodic
Censuses and Programs; $650.0 million for NTIA’s Digital-to-Analog Converter Box Program; and $600.0 million for NOAA’s
Procurement, Acquisition, and Construction.

Digital Television Transition and Public Safety Fund:

The Digital Television Transition and Public Safety Fund (Fund) was created by the Digital Television Transition and Public Safety
Act of 2005. This NTIA fund receives proceeds from the auction of licenses for recovered analog spectrum from discontinued
analog television signals, and provides funding for several programs from these receipts. Funding for these programs, prior to the
availability of auction receipts, was provided by Treasury borrowings, as discussed in Note 1, Summary of Significant Accounting
Policies.




                                                                                                                             207
F Y   2 0 0 9    P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




The Federal Communications Commission (FCC) completed the auction of licenses for recovered analog spectrum in March 2008.
The auction resulted in proceeds of $18.96 billion, which were deposited to the Fund by FCC on June 30, 2008. A net auction
proceed (auction proceed less any FCC administrative fees due to FCC) becomes a budgetary resource on the SBR when FCC grants
the license and the net auction proceed is provided as a budgetary resource by OMB. Net auction proceeds for which licenses have
been granted, totaling $16.69 billion and $1.78 billion for FY 2009 and FY 2008, respectively, are included as a budgetary resource
on the SBR (Budget Authority, Appropriations), and as a budgetary financing source on the SCNP. Auction proceeds for which
licenses have not yet been granted, totaling $400.5 million and $17.18 billion as of September 30, 2009 and 2008, respectively,
are considered a non-budgetary financing source (unavailable for use), and, accordingly, are not included in the SBR and are
recorded as a liability to FCC on the Consolidated Balance Sheet. For the proprietary financial statements, an auction proceed is
considered a liability to FCC until FCC grants the license. When the license is granted, a financing source (Transfers In of Spectrum
Auction Proceeds from FCC) is recognized on the SCNP for the earned net auction proceeds, and the liability is reduced by the
dollar amount of the license granted.

As of September 30, 2009, payments for the programs under the Fund may not exceed $2.82 billion. On September 30, 2009, the
Fund transferred $7.36 billion to the General Fund of the Treasury. This transfer is included as a reduction of budgetary resources
on the SBR for FY 2009 on the line Permanently Not Available, and is reported on the SCNP for FY 2009 as a negative budgetary
financing source. The Department understands that Congress’ intent is for the Fund to further transfer funds beyond the needs
of its programs to the General Fund of the Treasury. At September 30, 2009, the Fund has a Net Position, Cumulative Results of
Operations balance of $9.62 billion.

Below is a brief summary of the three largest programs under this Fund, and significant financial activity recorded for the FY 2009
and FY 2008 SBR under this Fund for each program:

Public Safety Interoperable Communications (PSIC): This is a grant program to assist public safety agencies in the acquisition of,
deployment of, or training for the use of interoperable communications systems that can utilize reallocated public safety spectrum
for radio communication. The Fund may make payments not to exceed $1.00 billion for this program. The Department has in place
a Memorandum of Understanding with the Federal Emergency Management Agency (FEMA), in which FEMA administers the PSIC
grant program. NTIA provides FEMA with funds for the grants under the program, and for the charges for FEMA’s management and
administrative services. NTIA records budgetary obligations with FEMA, while FEMA records the grants activity under the program.
Budgetary obligations for FY 2009 and FY 2008 under the PSIC program amounted to $5.6 million and $6.7 million, respectively.
Budgetary Obligations through September 30, 2007 under the PSIC program amounted to $974.7 million.

Digital-to-Analog Converter Box Program: This program is to provide eligible households in the U.S. and territories with forty-dollar
coupons (two per household maximum) that can be applied toward the purchase of digital-to-analog converter boxes. The Fund
may make payments not to exceed $1.52 billion for this program. Budgetary obligations for FY 2009 and FY 2008 under this fund
for this program amounted to $535.1 million and $840.8 million, respectively.

National Alert and Tsunami Warning Program: This program is to implement a unified national alert system capable of alerting
the public, on a national, regional, or local basis to emergency situations by using a variety of communications technologies. The
Fund may make payments not to exceed $156.0 million for this program. The Department shall use $50.0 million of such amounts
to implement a tsunami warning and coastal vulnerability program. Budgetary obligations for FY 2009 and FY 2008 amounted to
$49.8 million and $14.7 million, respectively.




 208
                                                F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                               NOTES TO THE FINANCIAL STATE M ENTS




   Note 19. Custodial Nonexchange Activity

NOAA receives interest, penalties, and fines primarily related to its past due Accounts Receivable, while BIS receives civil monetary
penalties from private entities that violate the Export Administration Act. These collections are required to be transferred to Treasury.
For FY 2009, the Department had custodial nonexchange revenue of $9.9 million; custodial nonexchange revenue of $706 thousand was
payable to Treasury at September 30, 2009. For FY 2008, the Department had custodial nonexchange revenue of $3.9 million; custodial
nonexchange revenue of $486 thousand was payable to Treasury.



   Note 20. Fiduciary Activities

Schedule of Fiduciary Activities for the Year Ended September 30, 2009

                                                                                                   FY 2009
                                                                            Patent
                                                                          Cooperation               Madrid
                                                                            Treaty                 Protocol             Total
          Fiduciary Net Assets, Beginning Balance                      $	 11,598              $	       311        $	 11,909
          Contributions                                               	     116,818          	       8,618       	     125,436
          Disbursements to and on Behalf of Beneficiaries             	 (119,282)            	      (8,477)      	 (127,759)
          Increase/(Decrease) in Fiduciary Net Assets                 	       (2,464)        	         141       	      (2,323)
          Fiduciary Net Assets, Ending Balance                         $	     9,134           $	       452        $	     9,586



Fiduciary Net Assets as of September 30, 2009

                                                                                                   FY 2009
                                                                            Patent
                                                                          Cooperation               Madrid
                                                                            Treaty                 Protocol             Total
          Fund Balance with Treasury                                   $	     9,134           $	       452        $	     9,586




         The reporting of fiduciary activities is a new federal reporting requirement effective FY 2009.




                                                                                                                                 209
F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y    R E P O R T
      NOTES TO THE FINANCIAL STATE M ENTS




  Note 21. Earmarked Funds

The following tables depict major earmarked funds separately chosen based on their significant financial activity and importance to
taxpayers. All other earmarked funds not shown are aggregated as “Other Earmarked Funds.”
United States Department of Commerce Consolidated Balance Sheet
As of September 30, 2009

                                                                                Digital-                        Damage
                                                   NTIA Digital   Broadband    to-Analog                      Assessment
                                                    Television    Technology   Converter                          and
                                  USPTO           Transition and Opportunities    Box      Coastal Zone NTIS  Restoration Other                                                   Total
                                Earmarked          Public Safety   Program -   Program - Management Revolving Revolving Earmarked                                              Earmarked
                                  Funds                Fund      Recovery Act Recovery Act    Fund      Fund     Fund     Funds                                                  Funds

ASSETS
	 Fund Balance with Treasury    $ 1,212,683       $ 9,230,126           $ 4,597,413        $ 262,443        $ 23,155       $ 22,699      $ 37,168         $ 90,557         $ 15,476,244
	 Cash                                2,278        	        -            	        -         	      -         	     -        	     -       	     -          	     -                2,278
	 Accounts Receivable, Net              438        	        -                   235         	      -         	     -          2,391           165              184                3,413
	 Direct Loans and Loan	
  	 Guarantees, Net              	            -    	              -      	            -     	           -         6,537     	        -       	        -       	        -            6,537
	 Inventory, Materials, and 	
  	 Supplies, Net                   	         -       	           -         	         -        	        -    	        -            38        	        -       	        -                38
	 General Property, Plant, 	
  	 and Equipment, Net                  205,802       	           -         	        -         	        -    	        -          1,930       	        -       	       -            207,732
	 Other                                  13,062             396,640             61,217         	        -    	        -          6,456       	        -             155            477,530
	 TOTAL ASSETS                  $ 1,434,263       $ 9,626,766           $ 4,658,865        $ 262,443        $ 29,692      $ 33,514       $ 37,333         $ 90,896         $ 16,173,772

LIABILITIES
	 Accounts Payable              $        90,026   $          1,375      $         941      $        8,034   $	        -    $ 9,623       $         583    $         304    $      110,886
	 Debt to Treasury               	            -    	             -       	          -       	           -    	        -     	    -           	       -        	       -     	           -
	 Federal Employee Benefits               8,097    	             -       	          -       	           -    	        -        993           	       -        	       -             9,090
	 Other
    	 Accrued Payroll and               144,270                146                247       	           -    	        -          1,546              50              135           146,394
  		       Annual Leave
    	 Accrued Grants             	            -    	         8,333       	            -     	        615     	        -     	        -       	        -            3,099           12,047
		 Accrued Coupons for
  		 Digital-to-Analog
  		 Converter Box 	
  		 Program                     	            -    	              -      	            -            25,533    	        -     	        -       	       -        	        -            25,533
    	 Unearned Revenue                  800,256    	              -      	            -     	           -    	        -          7,950       	       -        	        -           808,206
    	 Other                              15,820    	              -      	            -     	           -    	        -            287              51        	        -            16,158
	 TOTAL LIABILITIES             $ 1,058,469       $          9,854      $       1,188      $ 34,182         $	        -   $ 20,399       $         684    $ 3,538          $ 1,128,314

 NET POSITION
	 Unexpended Appropriations     $	            -   $	              -     $ 4,657,677        $ 228,261        $	        -    $	        -   $	           -   $        4,479   $     4,890,417
	 Cumulative Results of 	
  	 Operations                          375,794           9,616,912      	            -     	           -        29,692         13,115           36,649           82,879        10,155,041
	 TOTAL NET POSITION            $ 375,794         $ 9,616,912           $ 4,657,677        $ 228,261        $ 29,692      $ 13,115       $ 36,649         $ 87,358         $ 15,045,458
	 TOTAL LIABILITIES AND
  NET POSITION                  $ 1,434,263       $ 9,626,766           $ 4,658,865        $ 262,443        $ 29,692      $ 33,514       $ 37,333         $ 90,896         $ 16,173,772




        210
                                                                      F Y   2 0 0 9       P E R F O R M A N C E           A N D     A C C O U N T A B I L I T Y                 R E P O R T
                                                                                 NOTES TO THE FINANCIAL STATE M ENTS




United States Department of Commerce Consolidated Balance Sheet
As of September 30, 2008
                                                                                                               Damage
                                                        NTIA Digital                                         Assessment
                                                         Television                                              and
                                           USPTO         Transition     Coastal Zone               NTIS      Restoration              Other               Total
                                         Earmarked       and Public     Management               Revolving    Revolving            Earmarked           Earmarked
                                           Funds        Safety Fund        Fund                    Fund         Fund                 Funds               Funds
 ASSETS
 	 Fund Balance with Treasury           $	1,318,817    $ 1,204,539      $       25,268       $     23,919    $       41,737    $       60,627      $	 2,674,907
 	 Cash                                       3,399     	        -          	            -    	         -        	        -        	        -             3,399
 	 Accounts Receivable, Net                     517     	      124          	            -    	     1,218        	       11                 3             1,873
 	 Direct Loans and Loan
 		 Guarantees, Net                      	         -       	        -            8,426        	          -       	         -       	           -                 8,426
 	 Inventory, Materials, and                                                                                     	                 	
 		 Supplies, Net                        	         -       	        -       	            -            120        	         -       	           -                  120
 	 General Property, Plant, 		
   	 and Equipment, Net                     204,184        	      -         	        -                583        	        -        	        -           204,767
 	 Other                                      7,989          55,309         	        -              5,995        	        -               161            69,454
 	 TOTAL ASSETS                         $ 1,534,906    $ 1,259,972      $       33,694       $     31,835    $       41,748    $       60,791      $ 2,962,946

 LIABILITIES
 	 Accounts Payable                     $    96,693    $       20,493   $	               -   $      7,580    $	       3,753    $	         185      $         128,704
 	 Debt to Treasury                       	       -             4,727    	               -    	         -     	           -     	           -                  4,727
 	 Federal Employee Benefits              	   8,318        	        -    	               -            655     	           -     	           -                  8,973
 	 Other                                                                                                                                               	
     	 Accrued Payroll and Annual Leave     136,111           149           	        -        	 1,376            	       75        	      123          137,834
     	 Accrued Grants                     	       -     	       -           	        -        	     -            	        -        	      932       	       932
     	 Unearned Revenue                     848,505     	       -           	        -          7,806            	        -        	        -           856,311
     	 Other                                 12,675     	 165,534           	        -        	   186            	       51        	        -          178,446
 	 TOTAL LIABILITIES                    $ 1,102,302    $ 190,903        $ 	          -       $ 17,603        $ 	      3,879    $        1,240      $ 1,315,927

  NET POSITION
 	 Unexpended Appropriations            $	       -     $	       (27) $ 	       -             $ 	      -      $ 	           -   $ 	         489     $	      462
 	 Cumulative Results of Operations       432,604         1,069,096       33,694              	 14,232                37,869            59,062       1,646,557
 	 TOTAL NET POSITION                   $ 432,604      $ 1,069,069 $     33,694              $ 	 14,232      $       37,869    $       59,551      $ 1,647,019
 	 TOTAL LIABILITIES AND
   NET POSITION                         $ 1,534,906    $ 1,259,972      $       33,694       $     31,835    $       41,748    $       60,791      $ 2,962,946




                                                                                                                                                           211
F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y      R E P O R T
        NOTES TO THE FINANCIAL STATE M ENTS




United States Department of Commerce Consolidated Statement of Net Cost
For the Year Ended September 30, 2009

                                         NTIA Digital Broadband         Digital-                                                  Damage
                                          Television    Technology     to-Analog                                                Assessment
                             USPTO      Transition and Opportunities Converter Box Coastal Zone             NTIS                    and       Other                       Total
                           Earmarked     Public Safety Program -       Program - Management               Revolving             Restoration Earmarked                  Earmarked
                             Funds           Fund      Recovery Act Recovery Act      Fund                  Fund               Revolving Fund Funds                      Funds

Strategic Goal 1: Maximize U.S. Competitiveness and Enable Economic
Growth for American Industries, Workers, and Consumers
     Gross Costs           $	        - $	         - $ 	        - $	                -       $ 	       -    $	           -       $	            -       $        1,343    $       1,343
     Less: Earned Revenue   	        -     	      -     	      -    	              -         	       -     	           -        	            -           	        -        	       -
     Net Program Costs      	        -     	      -     	      -    	              -         	       -     	           -        	            -                1,343            1,343

Strategic Goal 2: Promote U.S. Innovation and Industrial Competitiveness
     Gross Costs              1,981,940     763,565        12,503     351,135                  	     -         28,173            	           -           	         -        3,137,316
     Less: Earned Revenue   	(1,927,130)        122          (235)   	      -                  	     -        (26,075)           	           -           	         -       (1,953,318)
     Net Program Costs           54,810    763,687        12,268     351,135                   	     -          2,098            	           -           	         -       1,183,998

Strategic Goal 3: Promote Environmental Stewardship
     Gross Costs            	        -    	       -      	    -           	     -             1,400  	   -                        12,285                21,789      35,474
     Less: Earned Revenue   	        -    	       -      	    -           	     -            	 (398) 	   -                       	     -                 	   -        (398)
     Net Program Costs      	        -    	      -       	    -           	     -             1,002  	   -                       12,285                21,789      35,076
NET COST OF OPERATIONS $        54,810 $ 763,687       $ 12,268         $ 351,135          $ 1,002 $ 2,098                     $ 12,285              $ 23,132 $ 1,220,417


United States Department of Commerce Consolidated Statement of Net Cost
For the Year Ended September 30, 2008
                                                                                                            Damage
                                                  NTIA Digital                                            Assessment
                                                   Television       Coastal                                   and
                                     USPTO         Transition        Zone                    NTIS         Restoration                   Other                    Total
                                   Earmarked       and Public     Management               Revolving       Revolving                 Earmarked                Earmarked
                                     Funds        Safety Fund        Fund                    Fund            Fund                      Funds                    Funds
Strategic Goal 1: Maximize U.S. Competitiveness and Enable Economic
Growth for American Industries, Workers, and Consumers
     Gross Costs                  $	         - $ 	         -   $ 	            -        $ 	           -    $ 	              -         $ 	 4,843               $	   4,843
     Less: Earned Revenue          	         -     	       -     	            -          	           -      	              -           	     -                	       -
     Net Program Costs             	         -     	       -     	            -          	           -      	              -           	 4,843                	   4,843

Strategic Goal 2: Promote U.S. Innovation and Industrial Competitiveness
     Gross Costs                     1,892,590        663,648      	     -                      24,565         	           -          	          -             2,580,803
     Less: Earned Revenue           (1,862,174)    	     (123)     	     -                     (22,340)        	           -          	          -            (1,884,637)
     Net Program Costs                 30,416        663,525       	     -                       2,225         	           -          	          -              696,166

Strategic Goal 3: Promote Environmental Stewardship
     Gross Costs                    	       -     	  -              	       (32)           	        -               16,751                 17,871            34,590
     Less: Earned Revenue           	       -     	  -                     (200)           	        -          	         -            	         -              (200)
     Net Program Costs              	       -     	  -                    (232)            	        -              16,751                 17,871            34,390
NET COST OF OPERATIONS            $   30,416 $ 663,525            $ 	     (232)        $        2,225     $        16,751        $        22,714         $ 735,399




          212
                                                          F Y   2 0 0 9     P E R F O R M A N C E                  A N D       A C C O U N T A B I L I T Y                 R E P O R T
                                                                                             NOTES TO THE FINANCIAL STATE M ENTS




United States Department of Commerce Consolidated Statement of Changes in Net Position
For the Year Ended September 30, 2009

                                                                                                                Damage
                                                 NTIA Digital   Broadband       Digital-                      Assessment
                                                  Television    Technology     to-Analog                          and
                                  USPTO         Transition and Opportunities Converter Box Coastal Zone NTIS  Restoration Other                                 Total
                                Earmarked        Public Safety   Program -     Program - Management Revolving Revolving Earmarked                            Earmarked
                                  Funds              Fund      Recovery Act Recovery Act      Fund      Fund     Fund     Funds                                Funds

 Cumulative Results of
 Operations:
 	 Beginning Balance            $ 432,604       $       1,069,096    $	           -    $	         -   $ 33,694      $ 14,232    $ 37,869      $ 59,062      $       1,646,557

 Budgetary Financing Sources:
 	 Appropriations Used           	         -        	         (27)          12,268          351,135    	        -    	     -     	        -         1,342             364,718
 	 Non-exchange Revenue          	         -        	           -     	          -      	         -    	        -    	     -          5,335        16,097              21,432
 	 Transfers In of Spectrum
    	 Auction Proceeds from
    	 Federal Communications
    	 Commission                 	         -        	 16,689,557      	           -     	         -    	        -    	     -     	        -    	        -       	 16,689,557
 	 Transfer Out of Spectrum
    	 Auction Proceeds to
    	 Treasury General Fund      	         -        	 (7,363,000)     	           -     	         -    	        -    	     -     	        -    	        -       	 (7,363,000)
 	 Transfers In/(Out) Without
    	 Reimbursement, Net         	    (2,000)       	     (15,000)    	           -     	         -    	 (3,000)     	     -          5,730        29,510              15,240

 Other Financing Sources
 (Non-exchange):
 	 Imputed Financing Sources
    	 from Cost Absorbed by
    	 Others                     	         -        	           -     	           -     	         -    	        -        981     	        -    	        -                981
 	 Other Financing Sources/
    	 (Uses), Net                	         -        	         (27)    	           -     	         -    	        -    	     -     	        -    	        -       	         (27)
 Total Financing Sources         	 (2,000)            9,311,503          12,268           351,135      	 (3,000)         981       11,065        46,949           9,728,901
 Net Cost of Operations          	 (54,810)         	 (763,687)       	 (12,268)        	(351,135)     	 (1,002)     	(2,098)    	(12,285)     	(23,132)        	(1,220,417)
 Net Change                      	 (56,810)             8,547,816     	           -     	         -    	 (4,002)     	(1,117)    	 (1,220)         23,817           8,508,484
 Cumulative Results of
 Operations                          375,794            9,616,912     	           -     	         -        29,692    13,115          36,649        82,879       10,155,041

 Unexpended Appropriations:
 	 Beginning Balance             	         -        	         (27)    	           -     	         -    	        -    	     -     	        -           489                462

 Budgetary Financing Sources:
 	 Appropriations Received       	         -        	           -         4,700,000         650,000    	        -    	     -     	        -    	        -           5,350,000
 	 Appropriations Transferred
    	 In/(Out), Net              	         -        	          -      	     (30,055)    	 (70,604)     	        -    	     -     	        -       5,331         	     (95,328)
 	 Other Adjustments             	         -        	          -      	           -     	        -     	        -    	     -     	        -    	      1         	           1
 	 Appropriations Used           	         -                  27      	     (12,268)    	 (351,135)    	        -    	     -     	        -    	 (1,342)        	    (364,718)
 Total Budgetary Financing
 Sources                         	         -                  27          4,657,677         228,261    	        -    	     -     	        -         3,990           4,889,955
 Unexpended Appropriations       	         -        	           -     4,657,677             228,261    	        -    	     -     	        -         4,479           4,890,417
 NET POSITION                   $ 375,794       $ 9,616,912          $ 4,657,677       $ 228,261      $ 29,692      $ 13,115    $ 36,649      $ 87,358      $ 15,045,458




                                                                                                                                                            213
F Y   2 0 0 9   P E R F O R M A N C E     A N D         A C C O U N T A B I L I T Y          R E P O R T
    NOTES TO THE FINANCIAL STATE M ENTS




 United States Department of Commerce Consolidated Statement of Changes in Net Position
 For the Year Ended September 30, 2008
                                                                                                           Damage
                                                           NTIA Digital                                  Assessment
                                                            Television       Coastal                         and
                                                USPTO       Transition        Zone          NTIS         Restoration         Other         Total
                                              Earmarked     and Public     Management     Revolving       Revolving       Earmarked     Earmarked
                                                Funds      Safety Fund        Fund          Fund            Fund            Funds         Funds

 Cumulative Results of Operations:
 	 Beginning Balance                          $ 464,020    $	   (46,389)   $ 	 36,461    $ 	 15,535      $       33,042   $ 	 49,678    $        552,347
 Budgetary Financing Sources:
 	 Appropriations Used                         	      -     	         27     	      -      	        -        	        -         4,843              4,870
 	 Non-exchange Revenue                        	      -     	          -     	      -      	        -            14,780         9,391             24,171
 	 Transfers In of Spectrum Auction
    	 Proceeds from Federal
    	 Communications Commission                	      -     	 1,778,983     	      -       	        -        	        -     	       -       	1,778,983
 	 Transfers In/(Out) Without
    	 Reimbursement, Net                       	 (1,000)    	          -    	 (2,999)      	        -             6,798     	   7,595             10,394
 Other Financing Sources (Non-exchange):
 	 Imputed Financing Sources from Cost
     	 Absorbed by Others                      	      -     	        -      	       -             922        	     -        	      -              922
 	 Other Financing Sources/(Uses), Net         	      -     	        -      	       -      	        -        	     -          10,269           10,269
  Total Financing Sources                      	 (1,000)    	1,779,010       	 (2,999)            922         21,578         32,098         1,829,609
  Net Cost of Operations                       (30,416)     	 (663,525)           232          (2,225)       (16,751)       (22,714)        (735,399)
  Net Change                                   (31,416)      1,115,485         (2,767)         (1,303)         4,827           9,384        1,094,210
  Cumulative Results of Operations             432,604       1,069,096         33,694          14,232         37,869         59,062         1,646,557

 Unexpended Appropriations:
 	 Beginning Balance                           	      -     	          -     	      -      	        -        	        -     	       -        	         -

 Budgetary Financing Sources:
 	 Appropriations Transferred In/(Out), Net     	     -      	        -      	    -        	      -          	  -          	 5,332        	   5,332
 	 Appropriations Used                          	     -      	      (27)     	    -        	      -          	  -          	 (4,843)      	 (4,870)
  Total Budgetary Financing Sources             	     -      	      (27)     	    -        	      -          	  -          	    489       	     462
  Unexpended Appropriations                     	     -      	     (27)      	    -        	      -          	  -          	   489        	     462
  NET POSITION                                $ 432,604    $ 1,069,069     $ 33,694      $ 	 14,232      $ 37,869         $ 59,551      $ 1,647,019


Below is a description of major earmarked funds shown in the above tables.

The USPTO Earmarked Funds consist of its Salaries and Expenses Fund, and the Patent and Trademark Surcharge Fund.

The Salaries and Expenses Fund contains monies used for the administering of the laws relevant to patents and trademarks and
advising the Secretary of Commerce, the President of the United States, and the Administration on patent, trademark, and copyright
protection, and trade-related aspects of intellectual property. This fund is used for USPTO’s two core business activities—granting
patents and registering trademarks—that promote the use of intellectual property rights as a means of achieving economic prosperity.
These activities give innovators, businesses, and entrepreneurs the protection and encouragement they need to turn their creative
ideas into tangible products, and also provide protection for their inventions and trademarks. Since FY 1993, the Salaries and Expenses
Fund has been funded primarily by the collection of fees for patent and trademark services. The USPTO may use monies from this fund
only as authorized by Congress via appropriations.

The Patent and Trademark Surcharge Fund, a Special Fund Receipt Account at Treasury, is discussed in Note 18, Combined Statements
of Budgetary Resources. The USPTO may use monies from this account only as authorized by Congress and made available by the
issuance of a Treasury warrant. As of September 30, 2009, $233.5 million is held in this fund.

      214
                                                      F Y   2 0 0 9   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y        R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




The NTIA Digital Television Transition and Public Safety Fund makes digital television available to every home in America, improves
communications between local, state, and federal agencies, allows smaller television stations to broadcast digital television, and
improves how warnings are received when disasters occur. NTIA received funding from borrowings from the Bureau of Public Debt,
and repaid the Bureau of Public Debt from the proceeds of the auction of recovered analog spectrum which was completed in
March 2008. The proceeds from the auction provide funding for several programs, and has been and is expected to be further used
to reduce the National Deficit. The law establishing this program can be found in the Deficit Reduction Act of 2005, P.L. 109-171
Section 3001-3014.

The Broadband Technology Opportunities Program - Recovery Act includes funds from the American Recovery and Reinvestment Act
of 2009 (Recovery Act) that provides awards to eligible entities to develop and expand broadband services to rural and underserved
areas and improve access to broadband by public safety agencies. Specifically, funds will be used for innovative programs that
encourage sustainable adoption of broadband services, to upgrade technology and capacity at public computing centers, including
community colleges and public libraries, and for the development and maintenance of statewide broadband inventory maps.

The Digital-to-Analog Converter Box Program - Recovery Act includes funds from the Recovery Act that allowed NTIA to issue
coupons to households to ensure vulnerable populations were prepared for the transition from analog-to-digital television
transmission.

The Coastal Zone Management Fund, operated by NOAA, is primarily used for interstate projects, demonstration projects for improving
coastal zone management, and emergency grants to state coastal zone management agencies to address unforeseen or disaster-
related circumstances. The law establishing the Coastal Zone Management Fund can be found in 16 USC Section 1456a.

The NTIS Revolving Fund is used to collect, process, market, and disseminate government-sponsored and foreign scientific,
technical, and business information, and to assist other agencies with their information programs. Activities funded by the NTIS
Revolving Fund allow customers, both public and private, access to scientific and technical information produced by and for the
federal government. All receipts from the sale of products and services are deposited in this fund, and all expenses, including
capital expenditures, are paid from it.

The Damage Assessment and Restoration Revolving Fund receives monies for the reimbursement of expenses related to oil or
hazardous substance spill response activities, or natural resource damages assessment, restoration, rehabilitation, replacement, or
acquisition activities conducted by NOAA. The recovered sums by a federal, state, indian, or foreign trustee for natural resource
damages is retained by the trustee and is only used to reimburse or pay costs incurred by the trustee for the damaged natural
resources. The law establishing the Damage Assessment and Restoration Revolving Fund can be found in 33 USC Section 2706.
Natural Resources.



   Note 22. Reconciliation of Net Cost of Operations to Budget

The Reconciliation of Net Cost of Operations to Budget reconciles the Department’s Resources Used to Finance Activities
(first section), which consists of the budgetary basis of accounting Net Obligations plus the proprietary basis of accounting Other
Resources, to the proprietary basis of accounting Net Cost of Operations. The second section, Resources Used to Finance Items Not
Part of Net Cost of Operations, reverses out items included in the first section that are not included in Net Cost of Operations. The
third section, Components of Net Cost of Operations that Will Not Require or Generate Resources in the Current Period, adds items
included in Net Cost of Operations that are not included in the first section.




                                                                                                                               215
F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS



The third section’s subsection, Components Requiring or Generating Resources in Future Periods, includes costs reported in the
current period that are included in the Liabilities Not Covered by Budgetary Resources reported in Note 15. This subsection does
not include costs reported in prior fiscal years that are also included in Liabilities Not Covered by Budgetary Resources.

The reconciliations of Net Cost of Operations to Budget for FY 2009 and FY 2008 are as follows:
                                                                                                                            FY 2009               FY 2008
Resources Used to Finance Activities:
Budgetary Resources Obligated
Obligations Incurred                                                                                               $    15,409,814       $    11,661,575
Less: Spending Authority From Offsetting Collections and Recoveries                                                    	 (3,795,302)         	 (3,527,208)
Obligations Net of Offsetting Collections and Recoveries                                                                11,614,512              8,134,367
Less: Distributed Offsetting (Receipts)/Outlays, Net                                                                   	 (101,324)           	 (20,397)
Net Obligations                                                                                                         11,513,188              8,113,970
Other Resources
Donations and Forfeitures of Property                                                                                             55                   228
Transfers In/(Out) Without Reimbursement, Net                                                                          	       4,254         	       3,301
Imputed Financing From Cost Absorbed by Others                                                                               235,744               214,243
Downward Subsidy Reestimates Payable to Treasury                                                                       	      (3,509)        	     (68,379)
Other Financing Sources/(Uses), Net                                                                                            1,365                20,193
Net Other Resources Used to Finance Activities                                                                               237,909               169,586
Total Resources Used to Finance Activities                                                                             11,751,097                8,283,556

Resources Used to Finance Items Not Part of Net Cost of Operations:
Change in Budgetary Resources Obligated for Goods, Services, and Benefits Ordered but Not Yet Provided                     (1,225,950)            (230,158)
Resources that Fund Expenses Recognized in Prior Periods                                                               	      (67,368)       	     (29,815)
Budgetary Obligation for Downward Subsidy Reestimates Payable to Treasury                                              	      (20,653)       	     (21,700)
Budgetary Offsetting Collections and Receipts that Do Not Affect Net Cost of Operations:
	 Distributed Offsetting (Receipts)/Outlays, Net (excludes Clearing Accounts’ Gross Costs)                                  101,324                20,397
   Credit Program Collections which Increase Loan Guarantee Liabilities or Allowance for Subsidy Cost                        26,908                49,630
   Budgetary Financing Sources/(Uses), Net                                                                                    8,695                18,449
Resources that Finance the Acquisition of Assets                                                                       	 (1,087,927)         	 (1,009,263)
Other Resources or Adjustments to Net Obligated Resources that Do Not Affect Net Cost of Operations:
   Change in Unfilled Customer Orders                                                                                       (129,746)                1,645
   Donations and Forfeitures of Property                                                                                         (55)                 (228)
   Transfers In/(Out) Without Reimbursement, Net                                                                       	      (4,254)        	      (3,301)
	 Downward Subsidy Reestimates Payable to Treasury                                                                     	       3,509         	      68,379
   Other Financing Sources/(Uses), Net                                                                                 	      (1,365)              (20,193)
	 Other                                                                                                                	     (15,002)        	        (389)
Total Resources Used to Finance Items Not Part of Net Cost of Operations                                               (2,411,884)           (1,156,547)
Total Resources Used to Finance Net Cost of Operations                                                                     9,339,213             7,127,009
Components of Net Cost of Operations that Will Not Require or Generate Resources in the Current Period:
Components Requiring or Generating Resources in Future Periods
Increase in Accrued Annual Leave Liability                                                                                    19,665                19,267
Increases in NOAA Corps Retirement System Liability and NOAA Corps Post-retirement Health Benefits Liability                  19,100                35,700
Increase (Decrease) in Contingent Liabilities                                                                          	     (15,267)        	      20,512
Reestimates of Credit Subsidy Expense                                                                                          2,045               (58,038)
Other                                                                                                                          7,134                14,452
Total Components of Net Cost of Operations that Will Require or Generate Resources in Future Periods                          32,677                31,893

Components Not Requiring or Generating Resources
Depreciation and Amortization                                                                                                400,474               503,524
NOAA Issuances of Materials and Supplies                                                                                      22,768                19,336
Revaluation of Assets or Liabilities                                                                                   	      27,062         	      16,676
Other                                                                                                                  	       4,545         	         375
Total Components of Net Cost of Operations that Will Not Require or Generate Resources                                       454,849               539,911
Total Components of Net Cost of Operations that Will Not Require or Generate Resources in the Current Period                487,526               571,804

NET COST OF OPERATIONS                                                                                             $       9,826,739     $       7,698,813


  216
                                                        F Y   2 0 0 9    P E R F O R M A N C E         A N D   A C C O U N T A B I L I T Y        R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




   Note 23. Stewardship PROPERTY, PLANT, AND EQUIPMENT

This note provides information on certain resources entrusted to the Department and certain stewardship responsibilities assumed
by the Department. The physical properties of stewardship property, plant, and equipment (Stewardship PP&E) resemble those
of the General PP&E that is capitalized traditionally in the financial statements of federal entities. Due to the nature of these
assets, however, valuation would be difficult and matching costs with specific periods would not be meaningful. Therefore, federal
accounting standards require the disclosure of the nature and quantity of these assets. NOAA, NIST, and the Census Bureau are the
only entities within the Department that have Stewardship PP&E. Additional information on Stewardship PP&E is presented in the
Required Supplementary Information section.

Stewardship Marine Sanctuaries, Marine National Monuments, and Conservation Area:

NOAA maintains the following Stewardship PP&E, which are similar in nature to stewardship land:

National Marine Sanctuaries: In 1972, Congress passed the Marine Protection, Research, and Sanctuaries Act (Act) in response
to a growing awareness of the intrinsic environmental and cultural value of coastal waters. The Act authorized the Secretary of
Commerce to designate discrete areas as National Marine Sanctuaries. These protected waters provide a secure habitat for species
close to extinction, and also protect historically significant shipwrecks and prehistoric artifacts. The sanctuaries are also used
for recreational diving and sport fishing, and support valuable commercial industries such as fishing and kelp harvesting. As of
September 30, 2009, 13 National Marine Sanctuaries, which include near-shore coral reefs and open ocean, have been designated,
covering a total area of nearly 19,000 square miles. Each individual sanctuary site (Monterey Bay, the Florida Keys, the Olympic
Coast, and Channel Island are the largest four) conducts research and monitoring activities to characterize existing resources and
document changes.

Papahãnaumokuãkea Marine National Monument: The majority of all coral reef habitats located in U.S. waters surround the
Northwestern Hawaiian Islands (NWHI). The NWHI Coral Reef Ecosystem Reserve is the nation’s largest marine protected area, and
was established by Executive Orders in December 2000 and January 2001, in accordance with the National Marine Sanctuaries
Amendments Act of 2000. On June 15, 2006, the President created the world’s second largest marine conservation area off
the coast of the northern Hawaiian Islands. This conservation area, designated the Northwestern Papahãnaumokuãkea Marine
National Monument, encompasses nearly 140,000 square miles of U.S. waters, including approximately 5,200 square miles of
relatively undisturbed coral reef habitat that is home to more than 7,000 species. The Monument is managed by NOAA, with the
Department of the Interior, and the State of Hawaii.

Rose Atoll Marine National Monument: On January 6, 2009, President Bush designated Rose Atoll in American Samoa a Marine
National Monument. The atoll includes the Rose Atoll National Wildlife Refuge. It also includes about 20 acres of land and 1,600
acres of lagoon and is one of the most pristine atolls in the world. The areas around the atoll support a dynamic reef ecosystem
that is home to many land and marine species, many of which are threatened or endangered. The Department of the Interior has
primary management responsibility of the atoll while NOAA has primary management responsibility for the marine areas of the
monument seaward of mean low water, with respect to fishery-related activities regulated pursuant to the Magnuson-Stevens
Fishery Conservation and Management Act (16 U.S.C. 1801 et seq. ) and any other applicable authorities. Management strategies
will be developed in coming years.

Marianas Trench Marine National Monument: On January 6, 2009, President Bush designated the Marianas Trench Marine National
Monument. The Monument consists of approximately 95,000 square miles of submerged lands and waters of the Mariana
Archipelago. It includes three units: the Islands Unit, the waters and submerged lands of the three northernmost Mariana Islands;
the Volcanic Unit, the submerged lands within 1 nautical mile of 21 designated volcanic sites; and the Trench Unit, the submerged
lands extending from the northern limit of the Exclusive Economic Zone of the United States in the Commonwealth of the



                                                                                                                            217
F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




Northern Mariana Islands (CNMI) to the southern limit of the Exclusive Economic Zone of the United States in the Territory of
Guam. No waters are included in the Volcanic and Trench Units, and CNMI maintains all authority for managing the three islands
within the Islands Unit (Farallon de Pajaros or Uracas, Maug, and Asuncion) above the mean low water line. The Department of
the Interior has primary management responsibility for the monument while NOAA has primary management responsibility with
respect to fishery-regulated activities regulated pursuant to the Magnuson-Stevens Fishery Conservation and Management Act
and any other applicable authorities. NOAA will develop a management plan, and, with the Department of the Interior, establish
an advisory council for the Monument. These actions will require the preparation of associated National Environmental Policy Act
documentation.

Pacific Remote Islands Marine National Monument: On January 6, 2009, President Bush designated the Pacific Remote Islands
Marine National Monument. The Pacific Remote Islands area consists of Wake, Baker, Howland, and Jarvis Islands, Johnston Atoll,
Kingman Reef, and Palmyra Atoll, which lie to the south and west of Hawaii. With the exception of Wake Island, these islands
are administered as National Wildlife Refuges by the U.S. Fish and Wildlife Service of the Department of the Interior. They sustain
many endemic species including corals, fish, shellfish, marine mammals, seabirds, water birds, land birds, insects, and vegetation
not found elsewhere.

NOAA has primary responsibility for management of the monument seaward of the area 12 nautical miles of the mean low water
lines of Wake, Baker, Howland, and Jarvis Islands, Johnston Atoll, Kingman Reef, and Palmyra Atoll, with respect to fishery-related
activities regulated pursuant to the Magnuson-Stevens Fishery Conservation and Management Act and any other applicable legal
authorities. Management strategies will be developed in coming years.

Aleutian Islands Habitat Conservation Area: On July 28, 2006, NOAA Fisheries Service formally established the Aleutian Islands
Habitat Conservation Area in Alaska, which covers nearly 370,000 square miles and may harbor among the highest diversity of
deep-water corals in the world. The conservation area established a network of fishing closures in the Aleutian Islands and Gulf of
Alaska, and protects habitat for deep water corals and other sensitive features that are slow to recover once disturbed by fishing
gear or other activities. Six small areas that include fragile coral gardens discovered by NOAA Fisheries Service scientists are
closed to all bottom-contact fishing gear. This effort is part of a network of new marine protected areas in Alaskan waters designed
to protect essential fish habitat and prevent any further damage of the area.

Written policy statements or permit guidelines for the National Marine Sanctuaries and Monuments have been developed for
the areas of acoustic impacts, artificial reefs, climate change, invasive species, marine debris, and submarine cables. The Office
of Marine National Sanctuaries answers the most frequently asked questions related to alternative energy and oil and gas policy
decisions for national marine sanctuaries.

Heritage Assets:

Heritage assets are unique for their historical or natural significance, for their cultural, educational, or artistic importance, or for
their significant architectural characteristics. The Department generally expects that these assets will be preserved indefinitely.

In cases where a heritage asset also has a practical and predominant use for general government operations, the asset is considered
a multi-use heritage asset. The cost of a multi-use heritage asset is capitalized as General PP&E and is depreciated over the useful
life of the asset.

NOAA has established policies for heritage assets to ensure the proper care and handling of these assets under its control or
jurisdiction. The Deputy Under Secretary of NOAA has established the Heritage Assets Working Committee to administer NOAA’s
stewardship policies and procedures. In carrying out these policies and procedures, the Working Committee:



  218
                                                 F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




   l	   Maintains a nationwide inventory of heritage assets, ensuring that they are identified and recorded in the Personal Property
        Heritage Asset Accountability System;
   l	   Establishes nationwide NOAA policies, procedures, and standards for the preservation, security, handling, storage, and display
        of NOAA heritage assets;
   l	   Tracks and updates each loan of NOAA heritage assets, including assigning current values and inventory numbers, and
        reporting the current conditions of heritage assets;
   l	   Determines the feasibility of new asset loans, such as meters, standard tide gauges, portraits, and books for exhibit loans;
   l	   Collects heritage assets and properties of historic, cultural, artistic, or educational significance to NOAA.

NOAA maintains the following Heritage Assets:

Galveston Laboratory: Galveston Laboratory is comprised of seven buildings that were originally part of Fort Crockett, Texas, an
army coastal defense facility built shortly after 1900. These buildings are eligible for placement on the National Register. Due to
their historic significance, exterior architectural features, and predominant use in government operations, the Galveston Laboratory
is considered a multi-use heritage asset. This facility underwent renovation in three phases and the renovation was completed in
September 2008. After the renovation was complete, two incidents have occurred to the laboratory requiring repair work.

The first incident was a fire in building 303 due to a lightning strike. The overall fire repair of building 303 was completed as of
March 2009. The second incident resulted in damage due to Hurricane Ike and will be completed in two phases. The emergency
repair work for the Galveston campus buildings is 85 percent complete as of September 2009. The estimated completion month
for this project is October 2009. In addition, the new turtle sick bay, lightning protection, surge suppression, fire alarm for small
buildings, sea water tanks, walk-in freezer, and hazmat building is 50 percent complete as of September 2009. This phase has an
estimated completion month of February 2010.

National Marine Fisheries Service (NMFS) St. George Sealing Plant: On St. George Island, in the Pribilof Islands group, Alaska, is the
only remaining northern fur seal pelt processing building in the world. In 1986, the building was listed on the National Register
of Historic Properties, within the Seal Islands National Historic Landmark. The Pribilof Island commercial fur seal harvest was an
extremely profitable business for the U.S. government, and, by the early 1900s, had covered the purchase price of Alaska. The
building is the largest on the island, and is comprised of four distinct work areas from the seal pelt processing area. In 1950, the
original wood-framed pelt processing plant was destroyed in a fire and rebuilt in 1951 with concrete walls on remnants of the
original foundation. Harsh weather and a lack of maintenance funding after the expiration of the Northern Fur Seal Convention in
1985 resulted in significant deterioration of the building by the early 1990s.

In November 1999, after numerous site surveys and assessments, the building’s crumbling foundation was stabilized and the
building’s exterior was painted. This effort allowed for NOAA’s continued, but limited, use of the building by the NMFS Alaska
Region and Alaska Fisheries Science Center to achieve NOAA’s mission on St. George Island. In addition, the U.S. Fish and Wildlife
Service (USFWS) Alaska Maritime National Wildlife Refuge used the building as a bunkhouse until 2006 when NOAA’s Safety
Officer and the USFWS Safety Officer both determined the bunkhouse portion of the building lacked sufficient means of egress in
the event of fire and deemed it to be unsafe for habitation. It was determined by USFWS that the cost of making the necessary
modifications to the space was not fiscally justifiable. NOAA’s Preserve America program funded an interpretive display project in
the Seal Plant to promote public outreach and education for the modest tourism program on St. George.




                                                                                                                                219
F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




NMFS Cottage M, St. George: The last remnants of the U.S. commercial harvest of northern fur seals can be found on St. George
Island, in the Pribilof Islands group, Alaska. In 1986, Cottage M (locally known as Cottage C), was listed on the National Register
of Historic Places within the Seal Islands National Historic Landmark. This building was constructed in the 1930s and was the
residence of the island doctor and hospital through 1955, when the current clinic/hospital was built. Later, the construction of a
health clinic on St. George Cottage M provided housing for government scientists and managers. In recent years, USFWS Alaska
Maritime National Wildlife Refuge staff have also used the building. NMFS Cottage M is considered a multi-use heritage asset
because of the critical housing for NOAA’s research and management staff, along with USFWS staff.

NMFS St. Paul Old Clinic/Hospital: On St. Paul Island, in the Pribilof Islands group, Alaska, fewer historic structures remain
than on St. George Island. In 1986, the clinic/hospital was listed on the National Register of Historic Places within the Seal
Islands National Historic Landmark. The old clinic/hospital is the combination of three historic buildings (physician’s house, 1929;
dispensary, 1929; and hospital, 1934) connected in 1974 with an addition. The building was used as a clinic/hospital through
2006 under a Memorandum of Agreement between NMFS and the Department of Health, Education and Welfare, and later, the
Indian Health Service/Bureau of Indian Affairs. Since August 2007, NMFS has maintained the facility. While the facility remains
largely unused at this time, except for occasional storage needs, NMFS will continue to maintain the facility, and plans to retain
it to accommodate its expanding mission needs on St. Paul Island.

NMFS Aquarium: In Woods Hole, Massachusetts, this aquarium was established in 1875 by Spencer Baird, the originator of NMFS.
In addition to being part of the first laboratory of today’s NMFS, this aquarium is the oldest marine research display aquarium
in the world. It is used to educate the public, raise public awareness of NMFS activities, and accommodate in-house research
for the Northeast Fisheries Science Center, part of NOAA’s mission. The aquarium houses 16 permanent exhibition tanks and
approximately 12 freestanding aquaria and touch tanks holding more than 140 species of fish and invertebrates. The tanks range
in size from 75 to 2,800 gallons. The aquarium’s outdoor habitat for resident seals was completely replaced in 2008, and was
re-opened to the public in July 2008. NMFS Aquarium is considered a multi-use heritage asset because it is also used for NOAA’s
scientific research, which is part of its mission.

Office of Atmospheric Research (OAR) Great Lakes Environmental Research Laboratory (GLERL), Lake Michigan Field Station (LMFS):
In Muskegon, Michigan, the GLERL main building, constructed in 1904 by the U.S. Life Saving Service, is eligible for National Register
designation and has been recognized by state and local historical societies for its maritime significance. With the creation of the
U.S. Coast Guard in 1915, the facility was transferred and served as a base for search and rescue operations for 75 years. In 2004, a
renovation project was completed that restored the exterior to its original architecture and color scheme - a style that is considered
rare. Today, GLERL carries out research and provides scientific products, expertise, and services required for effective management
and protection of Great Lakes and coastal ecosystems. GLERL/LMFS includes three buildings and a research vessel dockage. The
function of the field station is to provide a base of operations for GLERL’s primary research vessel, which is presently the Research
Vessel Laurentian, and to provide a focal point for GLERL’s research on Lake Michigan. Due to its historic significance, exterior
architectural features, and predominant use in government operations, GLERL/LMFS is considered a multi-use heritage asset.

NOAA’s collection-type heritage assets are comprised primarily of books, journels, publications, photographs and motion pictures,
manuscripts, records, nautical chart plates, and artifacts. Many of these heritage assets are maintained by the NOAA Central Library
(Library). As evidenced by a search of international catalogs, 35 to 50 percent of the Library’s collection is unique. Historically, 40 percent
of the items catalogued are not found anywhere else. Many older books cannot be replaced. The works include 17th century works of
Francis Bacon and Robert Boyle, 18th century works of Daniel Bernouilli, Daniel Defoe, and Pierre Bougher, and 19th and 20th century
works of Benjamin Franklin and George Washington Carver. The Library has an extensive collection of historical Coast and Geodetic
Survey materials (from 1807) and Weather Bureau materials (from the 1830s), including foreign and historical meteorological data,
information on instruments, and metadata.




  220
                                                   F Y   2 0 0 9   P E R F O R M A N C E    A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




NOAA’s collection-type heritage assets include items in the Thunder Bay Sanctuary Research Collection (Collection). In 2004, the Thunder
Bay National Marine Sanctuary (jointly managed by NOAA and the State of Michigan to protect and interpret a nationally significant
collection of shipwrecks and other maritime heritage resources) established an agreement with the Alpena County George N. Fletcher
Public Library to jointly manage this Collection. Amassed over a period of more than 40 years by historian C. Patrick Labadie, the
Collection includes information about such diverse subjects as Great Lakes ports and waterways, docks, cargoes, ships, shipbuilders,
owners and fleets, machinery and rigging, notable maritime personalities, and shipwrecks. Special features of the Collection are extensive
collections of a) data cards listing most of the ships on the Great Lakes before year 1900, a roster of some 15,000 vessels complete with
descriptive data and highlights of the ships’ careers and their ultimate losses; and b) ship photograph negatives of 19th and 20th century
Great Lakes ships. Heritage assets also include copies of vessel ownership documents, contemporary ship photographs, books, and other
items documenting the Great Lakes history.

NOAA’s collection-type heritage assets also include items in the National Climatic Data Center Library. Heritage assets include a) books,
manuals, and slides; b) thermometers, gauges, and radiosondes; and c) laboratory equipment.

Historical artifacts are designated collection-type heritage assets if they help illustrate the social, educational, and cultural
heritage of NOAA and its predecessor agencies (Coast and Geodetic Survey, U.S. Fish Commission, the Weather Bureau, the
Institutes for Environmental Research, the Environmental Science Services Administration, etc.). These include, but are not limited
to, bells, gyrocompasses, brass citations, flags, pennants, chronometers, ship seals, clocks, compasses, fittings, miscellaneous ship
fragments, lithographic plates, barometers, rain gauges, and any items that represent the uniqueness of the mission of NOAA and
its predecessor agencies.

The NOAA Logistics Office conducted a review during FY 2009 of the collection-type heritage assets reported for the NOAA Central
Library and concluded that many items do not qualify as heritage assets. This resulted in a decrease in the number of individual heritage
asset items, primarily for the Circulating Collection. Because the Central Library has several distinct collections that include numerous
heritage asset items, it was decided in FY 2009 that it would be more appropriate to report heritage assets for these distinct collections
as individual collections of one each, rather than reporting each individual heritage asset item in each collection. This change in the
reporting methodology of heritage assets took place in FY 2009 for the Circulating Collection, the Rare Book Room, the Weather Bureau
Collection, the publications acquired or issued by the Coast and Geodetic Survey from 1807 to 1970, and the collection of photographs
and motion pictures. The Heritage Assets Working Committee continues to work with the respective NOAA line offices to ensure all
heritage assets are properly defined and catalogued.

NIST currently maintains collection-type heritage assets under its Museum and History Program, which collects, conserves,
and exhibits artifacts, such as scientific instruments, equipment, objects, and records of significance to NIST and predecessor
agencies. This program provides institutional memory and demonstrates the contributions of NIST to the development of standards
measurement, technology, and science. The Information Services Division (ISD) maintains the historical archives, rare book
collection, and oversees the oral history program. The historical archives and rare book collection contain titles that are considered
“classics” of historical scientific interest, books by prominent contemporary scientists, and books by NIST authors or about NIST
work. Titles are recommended for inclusion by ISD staff and customers. Materials are not specifically purchased for the collection
nor are funds specifically allocated for the collection. Photos and manuscripts include images of NIST staff, facilities, and artifacts
that demonstrate NIST accomplishments.

NIST’s collection-type heritage assets are maintained in a museum and historical library collection, which are considered inactive
and experienced no accretions during FY 2009. During FY 2009, NIST’s historical book collection was evaluated and it was
determined that most of the books are not heritage assets in accordance with NIST’s heritage asset policy. ISD conducted an
inventory of the NIST historical books resulting in a decrease due to reclassification. NIST’s online catalog has been updated to
reflect the difference between the collection-type heritage assets and historical books.



                                                                                                                                    221
F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




NIST’s Museum and History Program has policies in place for acquisitions and loans. Objects are either on display or in storage
and are not used by visitors. Archives, including the historical book collection, are used according to established research library
policies and procedures. When considering artifacts for accession, the following criteria are considered:

   l	   Direct connection to NIST program activity
   l	   Direct connection to a NIST prominent person
   l	   Physical size
   l	   Safety considerations

Archive material is not loaned. Artifacts are rarely loaned, but can be loaned within established policies and procedures for
educational purposes, scholarly research, and limited public exhibition to qualified institutions. The loan policy packet for these
artifacts includes an introduction to the NIST Loan Program, Borrower Checklist, Artifact Loan Request, NIST Loan Policy, Insurance
Requirements, Facilities Report, Outgoing Loan Agreement, Condition Report Form, and Outgoing Loan Process.

ISD preserves and promotes the history of NIST through a program that collects, organizes, and preserves records of enduring
value and encourages and supports their use by researchers. The policies and procedures cover such topics as submitting reference
inquiries, regulations for use of the archives collection, scope of archives collection, criteria for accepting archival material,
providing physical and bibliographic access, preservation, and reviewing the collection.

Collection-type heritage assets maintained by Census Bureau are items considered unique for their historical, cultural, educational,
technological, methodological, or artistic importance. They help illustrate the social, educational, and cultural heritage of Census
Bureau. Some items because of their age or obvious historical significance are inherently historical artifacts. Some examples of these
historical artifacts include:

1900 Hollerith Key Punch: Census Bureau clerks used the key punch during the 1900s to punch round holes into cards for tabulation
by electric tabulating machines housed at the Census Bureau. The key punch increased the speed with which clerks could transfer
data entered on census schedules to the punch cards used to tabulate census results.

Hollerith Tabulator (Dial): The Hollerith Tabulator dial was manufactured by the Tabulating Machine Company for the Census
Bureau and it has been in the agency’s possession since. The Hollerith Tabulator dial mechanically illustrated the data being read
from punched paper cards entered into the tabulator. The holes punched in cards were sensed by pins or pointers making contact
through the holes to a drum. The completion of an electric circuit through a hole advanced the counter on this dial representing
data tabulated for a specific population, economic, or agriculture inquiry on the census schedule.

Gang Punch: The Gang punch was manufactured by the Tabulating Machine Company for the Census Bureau, and it has been in
the agency’s possession since. The gang punch was used for recording facts common to a number of punch cards, such as the
month, day, year, etc. It is equipped with a number of moveable punches, which can easily be changed and set for any desired
combination. Using the gang punch, clerks could punch a number of cards at once, thus speeding the transcription of data.

Pantograph: This item was manufactured by the Tabulating Machine Company for the Census Bureau, and it has been in the
agency’s possession since. Census Bureau clerks used the pantograph, or keyboard punch, to transfer information on the census
schedule to punch cards. To operate the pantograph, the clerk guided one end of the lever over a board showing the categories
of information from the census (age, sex, place of birth, etc.) and depressed the lever at the appropriate position, punching a hole
in the punch card. With the information found on the schedule translated into punch holes on cards, the data could then be read
and the results tallied by tabulators designed to read the punch cards.


 222
                                                F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




Census Bureau Enumerators Badge: The Census Bureau provided enumerators with badges during the 1900s and later censuses,
and recipients were instructed to wear them when on duty. The 1900s instructions to enumerators noted that the badge offered
additional evidence of the bearer’s authority to ask the question required by law. Furthermore, enumerators were instructed to
wear the badge attached to the vest under the coat, and to exhibit it only when it would aid the enumerator in obtaining the
information. Upon completion of the census, the Census Bureau permitted enumerators to keep the badge as a souvenir of their
service.

Data Stewardship Button: The data stewardship button served as a visible reminder to employees that the Census Bureau complies
with all federal legal requirements affecting the collection, handling, and dissemination of personal and business information.
In addition, the Census Bureau believes that individuals and businesses have fundamental rights to be treated fairly and ethically
when asked to provide their personal information to the government for statistical purposes.

Steel Hand Bander: The steel hand bander is used to secure paper, boxes, and other goods to pallets, via ribbons of steel, for
shipment. The Census Bureau has used similar banders since the early 20th century to secure boxes of questionnaires, publications,
etc., for shipment to census offices throughout the United States, Puerto Rico, and the Island Areas.

Unisys Tape and Reel: It is assumed that Unisys Corporation manufactured this tape and reel in the 1980s, and it has been in the Census
Bureau’s possession since new. This tape technology, released in 1964, introduced what is now generally known as 9-track tape. The
magnetic tape is ½ inch wide, with eight data tracks and one parity track for a total of nine parallel tracks. Data is stored as 8-bit
characters, spanning the full width of the tape (including the parity bit). Various recording methods are used to place the data on tape,
depending on the tape speed and data density, including PE (phase encoding), GCR (group code recording), and NRZI (non-return-to-
zero, inverted).

Film Optical Sensing Device for Input to Computers (FOSDIC): This 1980s file cabinet-sized version of FOSDIC was manufactured by
the Census Bureau for the 1990 census and it has been in the agency’s possession since. During the 1950s, the Census Bureau and
the National Bureau of Standards developed a system called Film Optical Sensing Device for Input to Computers (FOSDIC), which
took census and survey questionnaires that had been photographed onto microfilm, read blackened dots opposite the appropriate
answers, and transferred that data to magnetic tape. These tapes constituted the input for the Census Bureau’s computers. One
important result of this process was the elimination of most discrepancies in data records sent for processing. First used to process
1960 census results, FOSDIC played an integral part in the Census Bureau’s data processing system into the mid-1990s.

Artwork and Gifts: Census Bureau’s artwork and gifts include items bequeathed to, given to, or commissioned by the agency, such
as posters, paintings, sculptures, postage stamps, photographs, antiques, memorial plaques, cultural artifacts from other statistical
agencies and countries, awards, time capsules, buttons and badges, and more.

Census Bureau has developed a Project Charter for heritage assets which has developed policy and procedures for the acquisition
and removal of Census Bureau heritage assets. If a Census Bureau employee receives a gift from a foreign government’s statistical
agency or any other agency while on official government travel, the Census Bureau employee will deliver the item to a member
of Census Bureau’s Heritage Assets Committee for review upon his or her return to Census Bureau, if the item is valued at more
than $25 dollars. The Committee will decide if the item meets the criteria for a heritage asset based on the uniqueness, historical
age, and/or if the item helps to illustrate Census Bureau’s historic contributions to the nation’s growth. If the item is deemed a
heritage asset, the applicable property management office will ensure the heritage asset is catalogued and stored in a safe, secure
environment, allowing for appropriate preservation and conservation. All necessary actions will be taken to reduce deterioration
of heritage assets due to environmental conditions, and to limit damage, loss, and misuse of heritage assets. The Committee meets
on a regular basis to determine if any heritage assets should be removed from the approved list, or if a newly arrived item should
be classified as a heritage asset. Once a determination has been made to no longer classify an item as a heritage asset, Census
Bureau will follow any applicable established policies and procedures for surplus property.

                                                                                                                                   223
F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




                                        Collection-type Heritage Assets
                                                                          Quantity of                                           Quantity of
                                                                           Items Held                                            Items Held
                                                                         September 30,       FY 2009            FY 2009        September 30,
 Category                       Description of Assets                         2008          Additions          Withdrawals          2009
 NOAA Central Library:
    Circulating Collection      Books, journals, and other
                                publications                                 465,528           N/A                  465,527                1
    Rare Book Room
    Collection                  Books and other publications                    8,753          N/A                    8,752                1
    Weather Bureau
    Collection                  Publications                                  57,549           N/A                   57,548                1
    Collection of Coast and   Publications acquired or issued by
    Geodetic Survey Materials the Coast and Geodetic Survey from
    from 1807 to 1970         1807 to 1970                                    22,960           N/A                   22,959                1
    Collection of photographs
    and motion pictures       Photographs and motion pictures              40000 (est.)        N/A                   39,999                1
    Other                       Artifacts, documents, and other
                                items                                           2,553           11                    2,508               56
 National Ocean Service–        Data cards, photograph negatives,
 Thunder Bay Sanctuary          document copies, photographs,
 Research Collection            books, and other items                       106,254                -          	          -           106,254
 National Climatic Data         Artifacts, books, documents, and
 Center Library                 other items                                     5,155           1                        43             5,113
 NOAA Others                    Artifacts, artwork, books, films,
                                instruments, maps, and records                  3,824          374                      466             3,732
 NIST Artifacts and             National Bureau of Standards
 Scientific Measures            (NBS)/NIST scientific instruments,
                                equipment, and objects                           343                -           	         -              343
 NIST Historical Books          Books of historical scientific
 and Manuscripts                interest, books by prominent
                                contemporary scientists, and
                                books by NBS/NIST authors and
                                manuscripts of NBS/NIST staff,
                                facilities, and artifacts                       1,527               -                 1,466               61
 Census Bureau Artwork          Artifacts, artwork, books, films,
 and Gifts                      instruments, and records                         132                -          	          -              132
 Census Bureau                  Publications, books, manuscripts,
 Collectable Assets             photographs, and maps                              19               -          	          -               19
 Total                                                                      714,597            386                  599,268       115,715
 N/A - Not applicable; effective FY 2009, this category is reported as one collection.


Additional information on the condition of the above Heritage Assets is presented in the Required Supplementary Information section.




 224
                                                  F Y   2 0 0 9     P E R F O R M A N C E   A N D       A C C O U N T A B I L I T Y    R E P O R T
C o n so l i dat i n g
B a l a n ce S h e e t
                              United States Department of Commerce Consolidating Balance Sheet
                              As of September 30, 2009 (In Thousands)
                                                                                                            Intra-
                                                                                          Consolidating Departmental                                  Census                                                                                                                        Franchise




F Y   2 0 0 9
                                                                                             Total      Eliminations              BIS                 Bureau       DM/G&B           DM/S&E           DM/WCF                   EDA                  ELGP            ESA/BEA            Fund           HCHB                 ITA               MBDA           NIPC              NIST                NOAA                 NTIA              NTIS               OIG                USPTO

                              ASSETS

                              Intragovernmental:
                              Fund Balance with Treasury                                  $ 25,671,762     $	        -    $ 19,399            $ 2,279,483          $        674    $ 26,592         $ 39,252          $ 1,481,091          $ 49,215            $ 14,307         $       4,371    $ 5,535         $ 110,970          $       12,613     $ 273         $ 1,426,790         $ 4,255,320         $ 14,587,226          $23,589         $ 25,255           $ 1,309,807
                              Accounts Receivable, Net                                           78,111     	 (16,742)              254                 12,474         	       -            9,425            1,499        	           -        	           -       	        -            545         	       -             4,251        	          -       	     -             2,237               60,897                    650        2,124                354                 143
                              Other - Advances and Prepayments                                  696,068     	 (89,685)             1,477                13,548         	       -            3,792            1,718                  859        	           -             895             785             1,610             8,982              596          	     -            18,788              269,089              459,342            240                552                3,480
                              Total Intragovernmental                                         26,445,941    	 (106,427)           21,130              2,305,505             674            39,809           42,469        1,481,950                49,215              15,202           5,701            7,145           124,203            13,209             273       1,447,815               4,585,306           15,047,218     25,953                 26,161         1,313,430

                              Cash                                                                3,572     	        -        	          -        	            -       	       -    	           -    	           -        	           -        	           -       	        -       	       -        	       -       	          -       	          -       	     -    	              -                324     	                -           17       	             -             3,231
                              Accounts Receivable, Net                                           31,429     	        -             1,954                 2,579         	       -               6                4                    18        	           -               7        	       -        	       -              128                13          	     -             5,626               20,510                     20          267                    2               295




P E R F O R M A N C E
                              Direct Loans and Loan Guarantees, Net                             511,092     	        -        	          -        	            -       	       -    	           -    	           -             20,510          	           -       	        -       	       -        	       -       	          -       	          -       	     -    	              -            490,582     	                -    	          -    	             -       	           -
                              Inventory, Materials, and Supplies, Net                           145,903     	        -        	          -              45,241         	       -    	           -              12         	           -        	           -       	        -       	       -        	       -       	          -       	          -       	     -            27,013               73,599     	                -           38       	             -       	           -
                              General Property, Plant, and Equipment, Net                      6,758,827    	        -              238                141,710             8,130             809             6,972        	           -        	           -             660            1,023        	       -             2,551        	          -       	     -           634,658             5,745,110                9,234         1,930       	             -           205,802
                              Other                                                              60,021     	        -        	         (1)              1,240                4                8     	          (2)       	          (1)       	           -       	        -       	       -        	       -             1,650                   1       	     -                  75             41,248     	                -        6,215                    2              9,582




A N D
                              TOTAL ASSETS                                                $ 33,956,785 $ 	 (106,427) $ 23,321                 $ 2,496,275 $ 8,808                  $ 40,632         $ 49,455          $ 1,502,477          $       49,215      $ 15,869         $       6,724    $       7,145   $ 128,532          $       13,223     $       273   $ 2,115,187 $ 10,956,679 $ 15,056,472 $ 34,420 $                                      26,165     $ 1,532,340



                              LIABILITIES

                              Intragovernmental:
                              Accounts Payable                                            $     134,877    $	 (16,506)    $ 3,208             $         24,694     $	          -   $        1,345   $        1,569    $             269    $              30   $        1,348   $        558     $         27    $         3,055    $         155      $	        -   $         3,098     $         96,705    $            2,505    $ 7,750         $         215      $         4,852
                              Debt to Treasury                                                  487,275     	        -        	          -        	            -       	       -       	        -       	        -        	           -        	           -       	        -       	       -        	       -       	          -       	          -       	     -       	           -            487,275        	             -    	          -       	          -       	           -
                              Other
                              	      Spectrum Auction Proceeds Liability to Federal
                                      	 Communications Commission                               400,451     	        -        	          -        	            -       	       -       	        -       	        -        	           -        	           -       	        -       	       -        	       -       	          -       	          -       	     -       	           -       	           -             400,451      	          -       	          -       	           -
                              	      Resources Payable to Treasury                               22,689     	        -        	          -        	            -       	       -       	        -       	        -             20,832          	           -       	        -       	       -        	       -       	          -       	          -       	     -       	           -              1,857        	             -    	          -       	          -       	           -
                              	      Unearned Revenue                                           337,255     	 (89,685)             2,399                82,944         	       -           10,976           32,157             70,104          	           -             129            2,271        	       -              411                73          	     -           109,581               68,615               37,488          4,373          	          -             5,419




A C C O U N T A B I L I T Y
                              	      Other                                                       77,795     	    (236)             1,591                17,407         	       -             919             1,385                  450                    1             663              13         	       -             2,239              677          	     -             5,889               31,281                    717          286                256               14,257

                              Total Intragovernmental                                          1,460,342    	 (106,427)            7,198               125,045         	       -           13,240           35,111             91,655                     31            2,140           2,842              27              5,705              905          	     -           118,568              685,733              441,161      12,409                   471               24,528

                              Accounts Payable                                                  371,067     	        -              383                102,188              194             3,180            2,840                  629                   30       	    (387)       	      (4)       	 (191)               4,687              965          	 (46)             23,383              132,114               10,731          1,873               3,324              85,174
                              Loan Guarantee Liabilities                                            589     	        -        	          -        	            -       	       -       	        -       	        -        	           -        	           -       	        -       	       -        	       -       	          -       	          -       	     -       	           -                589        	             -    	          -       	          -       	           -
                              Federal Employee Benefits                                         687,434     	        -             2,346                65,052         	       -            1,691            4,458              1,254          	           -             299             116         	       -             7,042             2,609         	     -             8,910              582,473                 1,568           993                526                8,097




R E P O R T
                              Environmental and Disposal Liabilities                             60,995     	        -        	          -        	            -       	       -       	        -       	        -        	           -        	           -       	        -       	       -        	       -       	          -       	          -       	     -            48,040               12,955        	             -    	          -       	          -       	           -
                              Other
                              	      Accrued Payroll and Annual Leave                           540,082     	        -             4,918               118,553         	       -            4,572            9,947              3,135                      3            7,104            344         	       -            29,796              937          	     -            41,936              165,903                 4,891         1,546               2,227             144,270
                              	      Accrued Grants                                             446,207     	        -        	          -        	            -       	       -       	        -       	        -            278,795          	           -       	        -       	       -        	       -             2,184             3,103         	     -            60,634               74,859               26,632      	          -       	          -       	           -
                              	      Accrued Coupons for Digital-to-Analog Converter
                                      	 Box Program                                              24,489     	        -        	          -        	            -       	       -       	        -       	        -        	           -        	           -       	        -       	       -        	       -       	          -       	          -       	     -       	           -       	           -              24,489      	          -       	          -       	           -
                              	      Capital Lease Liabilities                                   12,589     	        -        	          -        	            -       	       -       	        -       	        -        	           -        	           -       	        -       	       -        	       -       	          -       	          -       	     -                  10             12,579        	             -    	          -       	          -       	           -
                              	      Unearned Revenue                                           974,015     	        -             3,343                 2,630         	       -       	        -       	        -                    7        	           -             630        	       -        	       -            13,747        	          -       	     -            18,521               37,428                    309        4,485          	          -           892,915
                              	      Other                                                       42,956     	        -                  69              11,948                1             6,540       	        -                  913        	           -       	        -       	       -        	       -             9,696        	          -             1              438                10,744                 1,045     	      (1)         	          -             1,562

                              TOTAL LIABILITIES                                           $    4,620,765 $ 	 (106,427) $ 18,257               $        425,416 $            195    $ 29,223         $ 52,356          $       376,388      $              64   $        9,786   $       3,298    $ 	 (164) $              72,857    $        8,519     $ 	 (45) $            320,440 $ 1,715,377 $                     510,826 $ 21,305 $                   6,548     $ 1,156,546



                              NET POSITION

                              Unexpended Appropriations
                              	      Unexpended Appropriations - Earmarked Funds          $ 4,890,417      $	        -    $	             -    $	               -   $	          -   $	           -   $	           -    $	              -    $	              -   $	           -   $	          -    $	          -   $         4,479    $	             -   $	        -   $	              -   $	              -   $ 4,885,938           $	          -   $	             -   $	              -
                              	      Unexpended Appropriations - All Other Funds               8,246,105    	        -            10,705              1,730,348        	       -           18,898       	        -        1,130,165                49,151               9,405       	       -            7,309            81,584             8,428             318       1,136,171               4,006,265              37,755      	          -           19,603         	           -
                              Cumulative Results of Operations
                              	      Cumulative Results of Operations - Earmarked Funds       10,155,041    	        -        	          -        	            -       	       -       	        -       	        -        	           -        	           -       	        -       	       -        	       -       	          -       	          -       	     -       	           -            149,220             9,616,912     13,115             	          -           375,794
                              	      Cumulative Results of Operations - All Other Funds        6,044,457    	        -        	 (5,641)                340,511             8,613       	 (7,489)        	 (2,901)         	    (4,076)         	           -       	 (3,322)            3,426        	       -       	 (30,388)         	   (3,724)        	     -           658,576             5,085,817                5,041     	          -                 14       	           -

                              TOTAL NET POSITION                                          $ 29,336,020 $ 	           -    $        5,064      $ 2,070,859 $ 8,613                  $ 11,409         $ 	 (2,901) $ 1,126,089                $       49,151      $        6,083   $       3,426    $       7,309   $        55,675    $        4,704     $       318   $ 1,794,747 $ 9,241,302 $ 14,545,646 $ 13,115 $                                       19,617     $       375,794




             227
                              TOTAL LIABILITIES AND NET POSITION                          $ 33,956,785 $ 	 (106,427) $ 23,321                 $ 2,496,275 $ 8,808                  $ 40,632         $ 49,455          $ 1,502,477          $       49,215      $ 15,869         $       6,724    $       7,145   $ 128,532          $       13,223     $       273   $ 2,115,187 $ 10,956,679 $ 15,056,472 $ 34,420 $                                      26,165     $ 1,532,340
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                      CONSOLIDATING BALANCE SHEET




                              See accompanying independent auditors’ report.
CONSOLIDATING BALANCE SHEET




 228
                         F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
    R eq u i r e d
S u ppl e m e n ta r y
  I n fo r m at i o n
       (UNAUDITED)
                                                 R e q u i r e d s upp l e m e n t a r y i n f o r m a t i o n ( u n a u d i t e d )




Required Supplementary Information (unaudited)

A	 Deferred Maintenance
Deferred maintenance is maintenance that was not performed when it should have been, that was scheduled and not performed,
or that was delayed for a future period. Maintenance is the act of keeping property, plant, and equipment (PP&E) in acceptable
operating condition and includes preventive maintenance, normal repairs, replacement of parts and structural components,
and other activities needed to preserve the asset so that it can deliver acceptable performance and achieve its expected life.
Maintenance excludes activities aimed at expanding the capacity of an asset or otherwise upgrading it to serve needs different
from or significantly greater than those originally intended. Critical maintenance is defined as those projects where the required
maintenance will have a critical impact on the public access, functionality and mission support, health and safety, and life cycle
cost of a facility if the maintenance is not performed. The significant portions of Departmental deferred maintenance relate to the
PP&E of both NOAA and NIST (see below for abbreviations). These two entities represent 94 percent of the Department’s General
PP&E, Net balance as of September 30, 2009.

National Oceanic and Atmospheric Administration (NOAA):

NOAA uses the Condition Assessment Survey (CAS) method to identify and quantify deferred maintenance for assets meeting
NOAA’s $200 thousand capitalization threshold. The CAS method employs a periodic inspection of real property and heritage
assets to determine its current condition and to estimate costs to correct any deficiencies. Estimated costs reflect potential costs
variance of +/- 10 percent.

The following shows NOAA’s deferred maintenance for projects with estimated costs greater than $50 thousand, as of
September 30, 2009:

                     (In Thousands)

                                                                                    Estimated Cost to Return
                              PP&E Category              Asset Condition
                                                                                    to Acceptable Condition
                      Buildings and Structures                   4                 $    6,403   to   $    7,825
                      Heritage Assets                           4, 3                   11,760   to       14,370
                      Total                                                        $ 18,163     to   $ 22,195


NOAA has established a facility condition code to classify the condition of the Buildings and Structures. Each Building
and Structure is assessed an individual facility condition code. The average of the individual facility condition codes
determines the CAS Asset Condition. The CAS method for Buildings and Structures is based on a five-point scale, with
1 representing excellent condition; 2 – good condition; 3 – fair condition; 4 – poor condition; and 5 – very poor condition.
The amounts reported represent non-critical maintenance to bring the assets to good condition. The CAS method for
heritage assets is based on the same five-point scale as the Buildings and Structures. Acceptable condition is considered
to be those assets rated in good or excellent condition. There is an annual call each year to the NOAA components,
requesting their submissions of new projects and updates to existing unfunded projects to reflect changes in requirements
or costs.




                                                                                                                              231
F Y   2 0 0 9   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
R e q u i r e d s upp l e m e n t a r y i n f o r m a t i o n ( u n a u d i t e d )




National Institute of Standards and Technology (NIST):

NIST also uses the CAS method to estimate deferred maintenance. NIST values the condition of assets using a five-point scale,
with 1 representing excellent condition; 2 – good condition; 3 – acceptable condition; 4 – poor condition; and 5 – very poor
condition. Assets that are assessed at 4 or 5 require repairs and maintenance to increase their value to 3, or acceptable condition.
The following shows NIST’s deferred maintenance as of September 30, 2009:

                 (In Thousands)

                                                                                       Estimated Cost to Return
                             PP&E Category                   Asset Condition
                                                                                       to Acceptable Condition
                 Mechanical and Electrical Devices                   5               $ 357,400 to      $   476,900
                 Buildings (Internal Structures)                     4                     27,800 to        37,300
                 Buildings (External Structures)                     4                     52,500 to        62,500

                 Total                                                               $ 437,700 to $ 576,700



B	 Stewardship Marine Sanctuaries, Marine National Monuments, and Conservation Area
NOAA maintains the following sanctuaries, marine national monuments, and conservation area, which are similar in nature to
stewardship land and which are more fully described in Note 23, Stewardship Property, Plant, and Equipment, of the Notes to the
Financial Statements.

National Marine Sanctuaries: These protected waters provide a secure habitat for species close to extinction, and also protect
historically significant shipwrecks and prehistoric artifacts. Each of the 13 individual sanctuary sites, which include near-shore
coral reefs and open ocean, conducts research and monitoring activities to characterize existing resources and document changes.
The waters and resources of the National Marine Sanctuaries are generally in good condition, though some specific resources
(e.g. certain coral reefs, some commercial and recreational fisheries, and some benthic habitats) are threatened.

Papahãnaumokuãkea Marine National Monument: The majority of all coral reef habitats located in U.S. waters surround the
Northwestern Hawaiian Islands (NWHI). The Papahãnaumokuãkea Marine National Monument, located off the coast of the NWHI,
encompasses nearly 140,000 square miles of U.S. waters, including approximately 5,200 square miles of relatively undisturbed
coral reef habitat that is home to more than 7,000 species. The condition of the Papahãnaumokuãkea Marine National Monument
is good, but the Monument does face emerging threats.

Rose Atoll Marine National Monument: The atoll includes the Rose Atoll National Wildlife Refuge. It also includes about 20 acres
of land and 1,600 acres of lagoon and is one of the most pristine atolls in the world. The areas around the atoll support a dynamic
reef ecosystem that is home to many land and marine species, many of which are threatened or endangered. The condition of the
Rose Atoll Marine National Monument is good.

Marianas Trench Marine National Monument: The Marianas Trench Marine National Monument consists of approximately 95,000
square miles of submerged lands and waters of the Mariana Archipelago. It includes three units: the Islands Unit, the waters
and submerged lands of the three northernmost Mariana Islands; the Volcanic Unit, the submerged lands within 1 nautical mile
of 21 designated volcanic sites; and the Trench Unit, the submerged lands extending from the northern limit of the Exclusive
Economic Zone of the United States in the Commonwealth of the Northern Mariana Islands (CNMI) to the southern limit of the
Exclusive Economic Zone of the United States in the Territory of Guam. The condition of the Marianas Trench Marine National
Monument is good.


 232
                                                   F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                R e q u i r e d s upp l e m e n t a r y i n f o r m a t i o n ( u n a u d i t e d )




Pacific Remote Islands Marine National Monument: The Pacific Remote Islands area consists of Wake, Baker, Howland, and Jarvis
Islands, Johnston Atoll, Kingman Reef, and Palmyra Atoll, which lie to the south and west of Hawaii. With the exception of Wake
Island, these islands are administered as National Wildlife Refuges by the U.S. Fish and Wildlife Service of the Department of the
Interior. They sustain many endemic species including corals, fish, shellfish, marine mammals, seabirds, water birds, land birds,
insects, and vegetation not found elsewhere. The condition of the Pacific Remote Islands Marine National Monument is good.

Aleutian Islands Habitat Conservation Area: This conservation area in Alaska, which covers nearly 370,000 square miles, may harbor
among the highest diversity of deep-water corals in the world, and protects habitat for deep water corals and other sensitive
features that are slow to recover once disturbed by fishing gear or other activities. The condition of the Aleutian Islands Habitat
Conservation Area is generally good, although some specific resources are threatened. For example, the conservation area contains
six small areas of fragile coral gardens.


C	 Collection-type Heritage Assets
NOAA’s collection-type heritage assets are comprised primarily of books, journals, publications, photographs and motion pictures,
manuscripts, records, nautical chart plates, and artifacts. Many of these heritage assets are maintained by the NOAA Central Library
(Library). As evidenced by a search of international catalogs, 35 to 50 percent of the Library’s collection is unique. Historically,
40 percent of the items catalogued are not found anywhere else. The Library has an extensive collection of historical Coast
and Geodetic Survey materials (from 1807) and Weather Bureau materials (from the 1830s), including foreign and historical
meteorological data, information on instruments, and metadata.

NOAA’s collection-type heritage assets include items in the Thunder Bay Sanctuary Research Collection, composed primarily of
a) data cards listing most of the ships on the Great Lakes before 1900, a roster of some 15,000 vessels complete with descriptive
data and highlights of the ships’ careers and their ultimate losses; and b) ship photograph negatives of 19th and 20th century
Great Lakes ships.

NOAA’s collection-type heritage assets also include items in the National Climatic Data Center Library. Heritage assets include a) books,
manuals, and slides; b) thermometers, gauges, and radiosondes; and c) laboratory equipment.

NOAA uses the Condition Assessment Survey (CAS) method to describe the condition of its assets. The CAS method is based on a
five-point scale with 1 representing excellent condition; 2 – good condition; 3 – fair condition; 4 – poor condition; and 5 – very
poor condition. Assets with the condition assessment level between 1 through 3 are defined as being suitable for public display.
The books, journals, and other publications that make up the majority of the NOAA Central Library collection-type heritage assets
are in 4 – poor condition, and 5 – very poor condition. The heritage assets of the Thunder Bay Sanctuary Research Collection are
in 2 – good condition, and the heritage assets of the National Climatic Data Center Library are generally in 3 – fair condition.

NIST currently maintains the Museum and History Program, which collects, conserves, and exhibits artifacts such as scientific
instruments, equipment, objects and records of significance to NIST and the National Bureau of Standards (NBS). This program
provides institutional memory and demonstrates the contributions of NIST to the development of standards, measurement,
technology, and science. Conditions of these artifacts are listed in the Registrar’s database and are generally fair.

NIST Information Services Division (ISD) maintains the historical archives, rare book collection, and oversees the oral history
program. The historical collection contains titles that are considered “classics” of historical scientific interest, books by prominent
contemporary scientists, and books by NIST authors or about NIST work. Materials are not specifically purchased for the collection
nor are funds specifically allocated for the collection. Conditions of these books are generally fair. The photos and manuscripts




                                                                                                                                   233
F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
R e q u i r e d s upp l e m e n t a r y i n f o r m a t i o n ( u n a u d i t e d )




maintained include images of NIST staff, facilities, and artifacts that demonstrate NIST accomplishments. These images are in
good condition.

Heritage assets at the Census Bureau are items considered unique for their historical, cultural, educational, technological,
methodological, or artistic importance. These assets help illustrate the social, educational, and cultural heritage of the Census
Bureau. Some items, because of their age or obvious historical significance, are inherently historical artifacts. These historical
artifacts include but are not limited to: Hollerith Key Punch, Hollerith Tabulator, Gang Punch, Pantograph, Census Enumerators
Badge, Steel Hand Bander, Unisys Tape and Reel, Film Optical Sensing Device, and any items which represent the uniqueness of the
mission of the Census Bureau. The heritage assets at the Census Bureau are classified as generally being in good condition.


D	 Schedule of Budgetary Resources by Major Budget Account
The following table illustrates the Department’s FY 2009 budgetary resources by major budget account. The “Other Programs”
column refers to the Department’s reporting entities and their budget accounts that are not listed.




 234
                                               F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                              United States Department of Commerce Schedule of Budgetary Resources by Major Budget Account
                              For the Year Ended September 30, 2009 (In Thousands)
                                                                                                                                                                                                                                                                          NTIA      NTIA Digital-     NOAA




F Y   2 0 0 9
                                                                                                                                                              NOAA             NTIA Digital                                                             Census Bureau Broadboand     to-Analog    Procurement,
                                                                                                                    NOAA                  USPTO           Procurement,          Television        ITA       Census Bureau                                  Periodic    Technology    Converter    Acquisition,
                                                                                                                 Operations,              Salaries        Acquisition,        Transition and   Operations      Periodic                     EDA          Censuses and Opportunities     Box            and
                                                                                              Combining         Research, and               and                and             Public Safety      and        Censuses and                  Grant          Programs -    Program -    Program - Construction -                            Other
                                                                                                Total             Facilities             Expenses         Construction             Fund      Administration    Programs                    Fund          Recovery Act Recovery Act Recovery Act Recovery Act                           Programs

                              BUDGETARY RESOURCES:
                              Unobligated Balance, Brought Forward, October 1             $        2,348,933    $        324,453     $         72,079     $         36,770    $         686,703    $        17,541   $         94,892    $ 494,589      $	              -   $	              -   $ 	         -   $ 	            -   $        621,906
                              Adjustments to Unobligated Balance, Brought Forward                        466        	          -         	          -         	          -        	           -        	         -       	          -     	      -       	              -    	              -     	         -     	            -                466
                              Recoveries of Prior-years Unpaid Obligations                           367,877              21,342               30,760               12,513              196,991             10,368             15,724       31,775       	              -    	              -     	         -     	            -             48,404
                              Budget Authority                                                                                                                                                                                                                                                                                         	
                              	 Appropriations                                                    34,069,220            3,069,822        	           -            1,243,647           16,689,557           420,433           2,906,262        279,999           1,000,000           4,700,000         650,000           600,000            2,509,500
                              	 Borrowing Authority                                                   88,368        	           -        	           -        	           -       	            -       	         -       	           -    	         -       	           -       	           -     	         -       	         -               88,368




P E R F O R M A N C E
                              	 Spending Authority From Offsetting Collections                                                                                                                                                                                                                                                         	
                              		 Earned                                                                                                                                                                                                                                                                                                	
                              			 Collected                                                        3,536,190             227,279             1,927,415                  76        	           -             15,990                 61       27,325          	           -       	          -      	         -       	          -           1,338,044
                              			 Change in Receivables                                               18,868              14,832                   136        	          -        	        (123)               105       	          -     	 (7,600)         	           -                235      	         -       	          -              11,283
                              		 Change in Unfilled Customer Orders                                                                                                                                                                                                                                                                    	




A N D
                              			 Advances Received                                           	      (87,441)               6,281        	     (47,186)       	           -                 123             252          	           -    	 (5,710)         	           -       	           -     	         -       	          -       	     (41,201)
                              			 Without Advances                                            	      (42,305)       	     (18,993)       	           -        	           -       	           -        	 (7,935)         	           -    	      -          	           -       	           -     	         -       	          -       	     (15,377)
                              		 Previously Unavailable                                                2,113        	           -        	           -        	           -       	           -        	      -          	           -    	      -          	           -       	           -     	         -       	          -               2,113
                              Total Budget Authority                                          37,585,013            3,299,221            1,880,365            1,243,723           16,689,557           428,845           2,906,323        294,014           1,000,000           4,700,235         650,000               600,000        3,892,730
                              Nonexpenditure Transfers, Net                                         57,381              84,299           	   (2,000)          	   (1,250)         	          -           1,725           	        -       	 (4,350)         	       -           	 (30,055)        	 (70,605)        	      (600)           80,217
                              Permanently Not Available                                       	 (8,354,000)         	  (16,098)          	        -           	        -          	 (8,282,674)            329           	   (1,000)      	 (15,000)        	       -           	       -         	       -         	         -        	  (39,557)
                              TOTAL BUDGETARY RESOURCES                                   $ 32,005,670          $ 3,713,217          $ 1,981,204          $ 1,291,756         $ 9,290,577          $ 458,808         $ 3,015,939         $ 801,028      $ 1,000,000         $ 4,670,180         $ 579,395       $ 599,400          $ 4,604,166


                              STATUS OF BUDGETARY RESOURCES:
                              Obligations Incurred
                              	 Direct                                                    $ 12,206,635          $ 3,312,792          $	           -       $ 1,186,227         $          593,842   $    429,749      $ 2,987,043         $ 434,074      $         100,438   $          77,477   $ 418,341       $        319,201   $ 2,347,451
                              	 Reimbursable                                                 3,203,179               231,620              1,862,512        	        -             	            -         17,859       	        -             13,914         	           -       	           -     	     -           	          -      1,077,274
                              Total Obligations Incurred                                   15,409,814             3,544,412              1,862,512          1,186,227                   593,842        447,608         2,987,043           447,988               100,438              77,477      418,341               319,201      3,424,725




A C C O U N T A B I L I T Y
                              Unobligated Balance
                              	 Apportioned                                                        7,800,617              132,948           118,692                  93,075              409,666            6,017               21,954      349,971            899,562            4,592,703         161,054            280,199            734,776
                              	 Exempt From Apportionment                                            356,139        	           -        	        -           	           -       	            -       	        -        	           -    	       -         	        -          	         -       	       -         	        -            356,139
                              Total Unobligated Balance                                           8,156,756              132,948           118,692                  93,075              409,666             6,017              21,954     349,971             899,562           4,592,703         161,054             280,199          1,090,915
                              Unobligated Balance Not Available                                    8,439,100               35,857        	        -                  12,454            8,287,069            5,183                6,942        3,069         	        -          	         -       	       -         	        -             88,526
                              TOTAL STATUS OF BUDGETARY RESOURCES                         $ 32,005,670          $ 3,713,217          $ 1,981,204          $ 1,291,756         $ 9,290,577          $ 458,808         $ 3,015,939         $ 801,028      $ 1,000,000         $ 4,670,180         $ 579,395       $ 599,400          $ 4,604,166




R E P O R T
                              CHANGE IN UNPAID OBLIGATED BALANCE, NET:
                              Unpaid Obligated Balance, Net, Brought Forward, October 1
                              	 Unpaid Obligations, Brought Forward                       $      7,640,566      $ 2,098,061          $       483,860      $       980,254     $      1,432,784 $    81,356           $       307,023     $ 813,572 $ 	       - $	                           - $ 	       -       $ 	         -      $ 1,443,656
                              	 Less: Uncollected Customer Payments, Brought Forward          	   (315,802)      	 (211,136)                     661          	         -         	       (123)  	 (17,154)              	         -      	 (7,600)  	       -  	                           -   	       -         	         -       	 (80,450)
                              Total Unpaid Obligated Balance, Net, Brought Forward              7,324,764         1,886,925                 484,521              980,254            1,432,661      64,202                   307,023        805,972   	       -  	                           -   	       -         	         -        1,363,206
                              Obligations Incurred                                              15,409,814         3,544,412               1,862,512            1,186,227              593,842     447,608                 2,987,043        447,988    100,438                         77,477     418,341             319,201         3,424,725
                              Less: Gross Outlays                                             	(14,347,857)      	(3,592,306)            	(1,984,363)         	(1,042,834)        	 (1,296,243)  	(429,378)              	(2,406,176)     	(262,632) 	 (23,375) 	                     (72,532)  	(316,952)          	(142,447)      	(2,778,619)
                              Less: Actual Recoveries of Prior-years Unpaid Obligations       	 (367,877)        	 (21,342)              	 (30,760)           	 (12,513)          	 (196,991)    	 (10,368)              	 (15,724)       	 (31,775) 	       -  	                           -   	       -           	       -       	 (48,404)
                              Change in Uncollected Customer Payments                               23,437             4,161             	      (136)         	         -                  123       7,830               	         -          7,600  	       -  	                        (235)  	       -           	       -             4,094
                              Total Unpaid Obligated Balance, net, End of Period          $ 8,042,281           $ 1,821,850          $        331,774     $ 1,111,134         $         533,392    $       79,894    $        872,166    $ 967,153      $         77,063    $          4,710    $ 101,389       $ 176,754          $ 1,965,002
                              Unpaid Obligated Balance, Net, End of Period
                              	 Unpaid Obligations                                        $        8,334,646    $ 2,028,825          $        331,249     $ 1,111,134         $         533,392    $     89,218      $        872,166    $ 967,153      $         77,063    $          4,945 $ 101,389          $       176,754    $ 2,041,358
                              	 Less: Uncollected Customer Payments                           	     (292,365)    	 (206,975)                      525      	        -             	           -        	 (9,324)         	          -     	      -          	          -        	       (235)  	     -              	         -     	 (76,356)
                              TOTAL UNPAID OBLIGATED BALANCE, NET, END OF PERIOD          $ 8,042,281           $ 1,821,850          $        331,774     $ 1,111,134         $         533,392    $       79,894    $        872,166    $ 967,153      $         77,063    $          4,710    $ 101,389       $ 176,754          $ 1,965,002

                              NET OUTLAYS:
                              Gross Outlays                                               $ 14,347,857          $ 3,592,306          $ 1,984,363          $ 1,042,834         $        1,296,243 $ 429,378           $ 2,406,176         $ 262,632 $              23,375    $         72,532    $ 316,952       $       142,447    $ 2,778,619
                              Less: Offsetting Collections                                 	 (3,448,749)         	 (233,560)          	(1,880,229)         	      (76)            	         (123) 	 (16,242)          	      (61)         	 (21,615) 	                 -        	          -      	     -           	         -     	(1,296,843)
                              Less: Distributed Offsetting (Receipts)/Outlays, Net         	 (101,324)           	        -           	         -          	        -             	            -  	       -           	        -          	       -  	                 -        	          -      	     -           	         -     	 (101,324)
                              NET OUTLAYS                                                 $ 10,797,784          $ 3,358,746          $        104,134     $ 1,042,758         $ 1,296,120          $ 413,136         $ 2,406,115         $ 241,017      $         23,375    $         72,532    $ 316,952       $ 142,447          $ 1,380,452




             235
                                                                                                                                                                                                                                                                                                                                                        R e q u i r e d s upp l e m e n t a r y i n f o r m a t i o n ( u n a u d i t e d )
R e q u i r e d s upp l e m e n t a r y i n f o r m a t i o n ( u n a u d i t e d )




 236
                                              F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
    R eq u i r e d
S u ppl e m e n ta r y
 S t e wa r ds h i p
  I n fo r m at i o n
       (UNAUDITED)
                         REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




Required Supplementary Stewardship
Information (unaudited)
Stewardship Investments

Stewardship investments are substantial investments made by the federal government for the benefit of the nation, but are not
physical assets owned by the federal government. Though treated as expenses when incurred to determine the Department’s Net
Cost of Operations, these items merit special treatment so that users of federal financial reports know the extent of investments
that are made for the long-term benefit of the nation.

Investments in Non-federal Physical Property:

Non-federal physical property investments are expenses included in the Department’s Net Cost of Operations for the purchase,
construction, or major renovation of physical property owned by state and local governments. Based on a review of the Department’s
programs, NOAA and EDA have significant investments in non-federal physical property.

NOAA:

     National Estuarine Research Reserves (NERR): The NERR system consists of 27 estuarine reserves protected by federal,
     state, and local partnerships that work to preserve and protect the nation’s estuaries. The NERR system helps to fulfill
     NOAA’s stewardship mission to sustain healthy coasts by improving the nation’s understanding and stewardship of
     estuaries. Estuarine reserves are the areas where freshwater from rivers meet the ocean. These areas are known as bays,
     swamps, sloughs, and sounds. These important coastal habitats are used as spawning grounds and nurseries for the nation’s
     commercial fish and shellfish. Estuaries filter much of the polluted runoff from rivers and streams that would otherwise
     contaminate oceans. The reserves were created with the passage of the Coastal Zone Management Act of 1972, and, as of
     September 30, 2009, encompassed approximately 1.3 million acres of estuarine waters, wetlands, and uplands. The newest
     reserve, Mission-Aransas, TX, was designated on May 3, 2006. NERRs are state-operated and managed in cooperation with
     NOAA. NOAA’s investments in non-federal physical property are for the acquisition of lands and development or construction
     of facilities, auxiliary structures, and public access routes for any NERR site.

     Coastal and Estuarine Land Conservation Program: This program was established under the Commerce, Justice, and State
     Appropriations Act of 2002, “for the purpose of protecting important coastal and estuarine areas that have significant
     conservation, recreation, ecological, historical, or aesthetic values, or that are threatened by conversion from their natural
     or recreational state to other uses.” The investments in non-federal physical property include matching grants awarded to
     state and local governments for land acquisition in coastal and estuarine areas. Since FY 2002, matching grants have been
     directed to 166 such projects.

     Coastal Zone Management Fund: The Coastal Zone Management Program is authorized by the Coastal Zone Management Act
     of 1972, and administered at the federal level by NOAA’s Office of Ocean and Coastal Resource Management. The investments
     in non-federal physical property include incidental expenses of land acquisition, and low-cost construction on behalf of
     various state and local governments, for the purpose of preservation or restoration of coastal resources and habitats. NOAA’s
     financing supports various coastal states in their redevelopment of deteriorating and urbanized waterfronts and ports, as
     well as providing for public access to beaches and coastal areas. The state and local governments receive funding for these




                                                                                                                             239
F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




       investments through NOAA grant expenditures, and these grant expenditures also include funding for purposes other than the
       investments in non-federal physical property. There is currently not in place a mechanism for the state and local governments
       to determine and report to NOAA the amount of monies they expend for the investments in non-federal physical property.
       The Department, accordingly, cannot report the amount of investments in non-federal physical property for the Coastal Zone
       Management Fund.

       NOAA’s investments in non-federal physical property for FY 2005 through FY 2009 were as follows:
       (In Millions)

                            Program                          FY 2005      FY 2006     FY 2007      FY 2008      FY 2009             Total
        National Estuarine Research Reserves                 $    15.4    $    6.8    $    11.6    $    11.8    $    11.7       $      57.3
        Coastal and Estuarine Land Conservation Program           15.5        18.5         34.7         28.1         21.6             118.4
        Total                                               $     30.9    $   25.3    $   46.3     $   39.9     $   33.3        $     175.7


EDA:

       Public Works: The Public Works program promotes long-range economic development in distressed areas by providing
       investments for vital public infrastructure and development facilities. These critical investments enable communities to
       attract new, or support existing, businesses that will generate new jobs and income for unemployed and underemployed
       residents. Among the types of projects funded are water, sewer, fiber optics, access roads, and facilities such as industrial and
       business parks, business incubator and skill training facilities, and port improvements.

       Economic and Defense Adjustments: The Economic and Defense Adjustments program provides flexible investments for communities
       facing sudden or severe economic distress to diversify and stabilize its economy. Factors that seriously threaten the economic
       survival of local communities include essential plant closures, military base closures or realignments, defense laboratory or
       contractor downsizings, natural resource depletion, out-migration, under-employment, and destructive impacts of foreign trade.

       Global Climate Change Mitigation Incentive Fund (GCCMIF): The GCCMIF program was established to strengthen the linkage
       between economic development and environmental quality. The purpose and mission of the GCCMIF program is to finance
       projects that foster economic development by advancing the green economy in distressed communities. The GCCMIF
       program is the development and use of products and services that contribute to economic growth and alleviate economic
       distress by respecting and revitalizing the environment. The GCCMIF program supports projects that create jobs through, and
       increase private capital investment in, efforts to limit the nation’s dependence on fossil fuels, enhance energy efficiency, curb
       greenhouse gas emissions, and protect natural systems.

       Disaster Recovery: The Disaster Recovery program awards grants for the repair of infrastructure and economic development
       related facilities damaged by floods and other natural disasters. Funding for the Disaster Recovery program is generally
       through supplemental funding from Congress for recovery efforts to save, sustain, and preserve private enterprise and job
       creation in economically distressed communities.




 240
                                                  F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y       R E P O R T
                           REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




     EDA’s investments in non-federal physical property for FY 2005 through FY 2009 were as follows:
     (In Millions)

                            Program                          FY 2005      FY 2006      FY 2007     FY 2008   FY 2009       Total
       Public Works                                          $ 220.1      $ 180.1      $ 155.5     $ 133.5   $ 139.9   $     829.1
       Economic and Defense Adjustments                           75.4         53.1         53.5      60.0      68.6         310.6
       Global Climate Change Mitigation Incentive Fund              -             -           -         -        0.2               0.2
       Disaster Recovery                                          10.1         24.2          4.4       1.8       6.3          46.8
       Total                                                 $ 305.6      $ 257.4      $ 213.4     $ 195.3   $ 215.0   $ 1,186.7

     The above investments require matching funds by state and local governments of 20 to 50 percent.

Investments in Human Capital:

Human capital investments are expenses, included in the Department’s Net Cost of Operations, for education and training programs
that are intended to increase or maintain national economic productive capacity and produce outputs and outcomes that provide
evidence of the constant or increasing national productive capacity. These investments exclude education and training expenses
for federal civilian and military personnel. Based on a review of the Department’s programs, the most significant dollar investments
in human capital are by NOAA.

NOAA:

     National Sea Grant College Program: Sea Grant is a nationwide network, administered through NOAA, of 32 university-
     based programs that work with coastal communities. With the adoption in 1966 of the National Sea Grant College Act,
     Congress established an academic/industry/government partnership that would enhance the nation’s education, economy,
     and environment into the 21st century. The program supports activities designed to increase public awareness of coastal,
     ocean, and Great Lakes issues, to provide information to improve management decisions in coastal, ocean, and Great Lakes
     policy, and to train graduate students in marine and Great Lakes science. The Knauss Fellowship Program offers qualified
     masters and doctoral students the opportunity to spend a year working on marine and Great Lakes policy issues with
     the Executive and Legislative branches of the federal government. There is also a Graduate Fellowship Program for Ph.D.
     candidates in the specialized areas of population dynamics and marine resource economics. Participants in this program can
     receive up to three years of funding.

     National Estuarine Research Reserve Program: This program supports activities designed to increase public awareness of
     estuary issues, provide information to improve management decisions in estuarine areas, and train graduate students in
     estuarine science. The National Estuarine Research Reserve System’s Graduate Research Fellowship (GRF) Program offers
     qualified masters and doctoral students the opportunity to address scientific questions of local, regional, and national
     significance. The result is high-quality research focused on improving coastal management issues. All GRF projects must be
     conducted in a National Estuarine Research Reserve and enhance the scientific understanding of the reserve’s ecosystem.
     As of September 30, 2009, 53 Graduate Research Fellowships have been awarded.

     Educational Partnership Program: The NOAA Educational Partnership Program (EPP) with Minority Serving Institutions (MSI)
     provides financial assistance through competitive processes to minority serving institutions that support research and training
     of students in NOAA-related sciences. The program’s goal is to increase the number of educated, trained, and graduated
     students from underrepresented communities in science and technology directly related to NOAA’s mission. The EPP/MSI
     also seeks to increase collaborative research efforts between NOAA scientists and researchers at minority serving academic



                                                                                                                               241
F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




   institutions. Financial assistance is provided through four competitive program components: the Cooperative Science Centers,
   the Environmental Entrepreneurship Program, the Graduate Sciences Program, and the Undergraduate Scholars Program.

   NOAA provides funding to eligible MSIs on a competitive basis to educate, train, and graduate students in NOAA sciences,
   particularly atmospheric, oceanic, environmental, living marine resources, remote sensing, and scientific environmental
   technology. NOAA EPP Cooperative Science Centers’ goals are to:

       l	   Educate, train, and graduate students, particularly from underrepresented communities, in NOAA mission sciences;
       l	   Develop expertise in a NOAA scientific area;

            •	   Strengthen and build capacity in a NOAA scientific and management area

            •	   Build research experience in a NOAA scientific and management area
       l	   Increase graduation rates of students from underrepresented communities in NOAA mission sciences;
       l	   Impact NOAA workforce statistics by increasing representation from underrepresented communities in NOAA mission
            sciences; and
       l	   Leverage NOAA funds to build the education and research capacity at MSIs.

   The EPP/MSI Environmental Entrepreneurship Program (EEP) provides funding to eligible minority serving institutions on a
   competitive basis to engage students to pursue advanced academic study and entrepreneurship opportunities in the NOAA-
   related sciences. NOAA’s EEP supports student training and experiential learning opportunities for the purpose of stimulating
   job creation and business development, and revitalizing local communities. EEP’s objective is to increase the number of
   students at MSIs proficient in environmental business enterprises.

   The Graduate Sciences Program (GSP) is aimed primarily at increasing opportunities for students in NOAA-related fields
   to pursue research and educational training in atmospheric, environmental, remote sensing, and oceanic sciences at MSIs
   when possible. The GSP offers between two years (master’s candidates) to four years (doctoral students) of NOAA-related
   research and training opportunities. The GSP provides college graduates entry-level employment and hands-on research and
   work experience at NOAA. Nine students were selected to participate in the GSP in FY 2009. The program plans to add five
   students in FY 2010.

   The Undergraduate Scholarship Program is designed to increase the number of students who undertake course work and
   graduate with degrees in the targeted areas integral to NOAA’s mission. Appointments are for two years, and are made
   to students who have recently declared or are about to declare a major in atmospheric, oceanic, or environmental science.
   The students participate in research, training, and development activities at NOAA offices and facilities during two summer
   internships. 11 students started the program in FY 2009.

   Ernest F. Hollings Undergraduate Scholarship Program: This program was established in 2005 to (1) increase undergraduate
   training in oceanic and atmospheric science, research, technology, and education, and foster multidisciplinary training
   opportunities; (2) increase public understanding and support for stewardship of the ocean and atmosphere and improve
   environmental literacy; (3) recruit and prepare students for public service careers with NOAA and other agencies at the
   federal, state, and local levels of government; and (4) recruit and prepare students for careers as teachers and educators in
   oceanic and atmospheric science and to improve scientific and environmental education in the U.S. There were 112 students
   that started the program in 2008. 122 students started the program in FY 2009.




 242
                                                 F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                             REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




     Southeast Fisheries Science Center’s Recruiting Training Research Program: This is a joint program between NMFS and
     Virginia Tech to: (1) recruit top undergraduates into the field of fisheries population dynamics and careers with NMFS;
     (2) train graduate students; and (3) conduct population dynamics and stock assessment research in support of the NMFS
     mission. The program also offers graduate courses and workshops in computer programming, simulation modeling, and fish
     population dynamics. In 2009, 15 undergraduate students from across the country participated in a week-long undergraduate
     workshop, eight students participated in a six-week summer program, and three M.S. students were supported by the program
     at Virginia Tech. In 2010, the program is expected to operate at a similar scale.

     The following table summarizes NOAA’s investments in human capital for FY 2005 through FY 2009:

     (In Millions)

                              Program                         FY 2005       FY 2006       FY 2007         FY 2008      FY 2009     Total
       National Sea Grant College Program                     $ 	 0.7       $ 	 0.7       $ 	 0.5         $ 	 0.5      $ 	 0.7   $ 	    3.1
       National Estuarine Research Reserve Program               	 0.9           	 0.9         	 0.8        	 0.8        	 1.0     	    4.4
       Educational Partnership Program                           	 7.0           	13.9         	14.2        	12.8        	15.0     	   62.9
       Ernest F. Hollings Undergraduate Scholarship
       Program                                                   	 0.3           	 3.8         	 4.1        	 3.6        	 3.6     	   15.4
       Southeast Fisheries Science Center’s Recruiting
       Training Research Program                                 	     1         	    1        	   1        	     1      	 0.4     	    0.4
       Total                                                  $ 	 8.9       $ 	19.3       $ 	19.6         $ 	17.7      $ 	20.7   $ 	 86.2
       1	   Not applicable


     The following table further summarizes NOAA’s human capital investments for FY 2005 to FY 2009 by performance goal:

     (In Millions)

                         Performance Outcome                         FY 2005         FY 2006           FY 2007        FY 2008     FY 2009
       Protect, Restore, and Manage the Use of Coastal and
       Ocean Resources                                               $ 	   8.9       $ 	 19.3          $ 	 19.6       $ 	 17.7   $ 	 20.7


Investments in Research and Development (R&D):

Investments in R&D are expenses that are included in the Department’s Net Cost of Operations. The investments are divided into three
categories: (1) basic research, the systematic study to gain knowledge or understanding of the fundamental aspects of phenomena
and of observable facts without specific applications toward processes or products in mind; (2) applied research, the systematic study
to gain knowledge or understanding necessary for determining the means by which a recognized and specific need may be met; and
(3) development, the systematic use of the knowledge and understanding gained from research for the production of useful materials,
devices, systems, or methods, including the design and development of prototypes and processes. The investments are made with
the expectation of maintaining or increasing national economic productive capacity, or yielding other future economic or societal
benefits. Based on a review of the Department’s programs, the only significant investments in R&D are by NIST and NOAA.




                                                                                                                                        243
F Y   2 0 0 9    P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y     R E P O R T
REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




NIST:

         NIST Laboratories Program:

         NIST Laboratories have been the stewards of the nation’s measurement infrastructure since their inception in 1901 as the
         National Bureau of Standards. NIST Laboratories foster scientific and technological leadership by helping the U.S. to drive
         and take advantage of the increased pace of technological change, fostering more efficient transactions in the domestic and
         global marketplace, and addressing other critical needs assigned to NIST by the Administration and Congress. In support of
         the President’s Plan for Science and Innovation, NIST develops and disseminates measurement techniques, reference data, test
         methods, standards, and other infrastructural technologies and services required by U.S. industry, government, and academia to
         compete in the 21st century. NIST laboratories promote innovation, facilitate trade, and ensure public safety and security by
         strengthening the nation’s measurement and standards infrastructure.

         The American Recovery and Reinvestment Act of 2009 included $250 million (including transfers from the Department of Health
         and Human Services and Department of Energy) in funding for NIST laboratory research, measurements, and other services
         supporting economic growth and U.S. innovation through funding of such items as competitive grants, research fellowships,
         advanced measurement equipment and supplies, standards-related research that supports the security and interoperability of
         electronic medical records to reduce health care costs and improve the quality of care, and development of a comprehensive
         framework for a nationwide, fully interoperable smart grid for the U.S. electric power system. This funding will result in
         additional R&D investments for the NIST Laboratories Program.

         Advanced Technology Program (ATP)/Technology Innovation Program (TIP):

         ATP is a cost-shared funding program for businesses that was intended to develop new technologies for commercial use. ATP
         was abolished by the America COMPETES Act, which was signed into law by President Bush on August 9, 2007. This same Act
         established TIP, which supports, promotes, and accelerates innovation in the United States by offering cost-shared funding
         for high-risk, high-reward research in areas of critical national need.

         Critical national need areas in TIP are those for which government attention is demanded because the magnitude of the
         problem is large and the societal challenges that need to be overcome are not being addressed. TIP was explicitly established
         within NIST to assist U.S. small- and medium-size businesses, institutes of higher education, national laboratories, and non-
         profit research organizations to conduct high-risk, high-reward research that has the potential for yielding transformational
         results with wide-reaching implications, and that is within NIST’s areas of technical competence. The America COMPETES Act
         statute allows for continued support for previously awarded ATP projects and new TIP awards.

         The following table summarizes NIST’s R&D investments for FY 2005 through FY 2009 by R&D Category:

         (In Millions)

                                                                          Advanced Technology Program/
                                   NIST Laboratories                      Technology Innovation Program                                      Total

                      FY          FY        FY       FY        FY       FY        FY        FY        FY        FY        FY         FY       FY       FY       FY
  R&D Category       2005        2006      2007     2008      2009     2005      2006      2007      2008      2009      2005       2006     2007     2008     2009

 Basic Research     $     66.6 $    85.2 $ 110.7 $ 132.8 $ 144.9 $            - $       - $       - $       - $       - $    66.6 $ 85.2 $ 110.7 $ 132.8 $ 144.9

 Applied Research        325.6     345.8    345.3    381.0    378.5      96.1       58.0      31.0      23.2      25.0      421.7    403.8    376.3    404.2    403.5

 Development              14.3      16.7     15.3      14.4     15.4     96.0       58.0      30.9      23.2      25.1      110.3     74.7     46.2     37.6     40.5

 Total              $ 406.5 $ 447.7 $ 471.3 $ 528.2 $ 538.8 $ 192.1 $ 116.0 $ 61.9 $ 46.4 $ 50.1 $ 598.6 $ 563.7 $ 533.2 $ 574.6 $ 588.9




 244
                                                              F Y   2 0 0 9     P E R F O R M A N C E          A N D     A C C O U N T A B I L I T Y     R E P O R T
                           REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




     The following tables further summarize NIST’s R&D investments for FY 2005 through FY 2009 by performance outcome.

     (In Millions)

                                                                         FY 20091
                                                                                         Basic         Applied
                               Performance Outcome                                                                    Development             Total
                                                                                        Research       Research
       Promote Innovation, Facilitate Trade, and Ensure Public Safety
       and Security by Strengthening the Nation’s Measurements and                  	
       Standards Infrastructure                                                         $ 	144.9       $ 	403.5          $ 	40.5          $    588.9
       1	 The performance outcome “Accelerate Private Investment in and Development of High-risk, Broad-impact Technologies” was eliminated in FY 2009.

         Related costs are merged into the above outcome goal.



     (In Millions)

                                                                          FY 2008
                                                                                         Basic         Applied
                               Performance Outcome                                                                    Development             Total
                                                                                        Research       Research
       Promote Innovation, Facilitate Trade, and Ensure Public Safety
       and Security by Strengthening the Nation’s Measurements and                  	
       Standards Infrastructure                                                         $ 	132.8       $ 	381.0          $ 	14.4          $    528.2
       Accelerate Private Investment in and Development of 	
       High-risk, Broad-impact Technologies                                               	    -          	 23.2            	23.2               46.4
       Total                                                                            $ 	132.8       $ 	404.2          $ 	37.6          $ 574.6


     (In Millions)

                                                                          FY 2007
                                                                                         Basic         Applied
                               Performance Outcome                                                                    Development             Total
                                                                                        Research       Research
       Promote Innovation, Facilitate Trade, and Ensure Public Safety
       and Security by Strengthening the Nation’s Measurements and                  	
       Standards Infrastructure                                                         $ 	110.7       $ 	345.3          $ 	15.3          $    471.3
       Accelerate Private Investment in and Development of 	
       High-risk, Broad-impact Technologies                                               	    -          	 31.0            	30.9               61.9
       Total                                                                            $ 	110.7       $ 	376.3          $ 	46.2          $ 533.2




                                                                                                                                                  245
F Y   2 0 0 9   P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y     R E P O R T
REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




   (In Millions)

                                                                   FY 2006
                                                                                  Basic        Applied
                             Performance Outcome                                                              Development              Total
                                                                                 Research      Research
       Promote Innovation, Facilitate Trade, Ensure Public Safety and
       Security, and Help Create Jobs by Strengthening the Nation’s          	
       Measurements and Standards Infrastructure                                 $ 	 85.2      $ 	 345.8         $ 	 16.7          $     447.7
       Accelerate Private Investment in and Development of 	
       High-risk, Broad-impact Technologies                                        	    -           	 58.0          	 58.0               116.0
       Total                                                                     $ 	85.2       $ 	 403.8         $ 	 74.7          $     563.7

   (In Millions)

                                                                   FY 2005
                                                                                  Basic        Applied
                             Performance Outcome                                                              Development              Total
                                                                                 Research      Research
       Promote Innovation, Facilitate Trade, Ensure Public Safety and
       Security and Help Create Jobs by Strengthening the Nation’s           	
       Measurements and Standards Infrastructure                                 $ 	 66.6      $ 	325.6          $ 	14.3           $     406.5
       Accelerate Private Investment in and Development of
       High-risk, Broad-Impact Technologies                                        	    -           	 96.1          	96.0                192.1
       Total                                                                     $ 	 66.6      $ 	421.7          $ 	110.3          $ 598.6



NOAA:

   NOAA conducts a substantial program of environmental R&D in support of its mission, much of which is performed to improve
   the United States’ understanding of and ability to predict environmental phenomena. The scope of research includes:

       l	   Improving predictions and warnings associated with the weather, on timescales ranging from minutes to weeks;
       l	   Improving predictions of climate, on timescales ranging from months to centuries;
       l	   Improving understanding of natural relationships to better predict and manage renewable marine resources and coastal
            and ocean ecosystems.

   NOAA also conducts research that is intended to provide a solid scientific basis for environmental policy-making in government.
   Examples of this research include determining the stratospheric ozone-depleting potential of proposed substitutes for
   chlorofluorocarbons (CFCs), and identifying the causes of the episodic high rural ozone levels that significantly damage crops
   and forests.

   NOAA conducts most R&D in-house; however, contractors to NOAA undertake most systems R&D. External R&D work
   supported by NOAA includes that undertaken through federal-academic partnerships such as the National Sea Grant College
   Program, the Cooperative Institutes of the Environmental Research Laboratories, the Climate and Global Change Program,
   and the Coastal Ocean Program.




 246
                                                 F Y   2 0 0 9   P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y       R E P O R T
                         REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




     Here is a brief description of the major R&D programs of NOAA:

     Environmental and Climate: The Office of Oceanic and Atmospheric Research is NOAA’s primary research and development
     office. This office conducts research in three major areas: climate research; weather and air quality research; and ocean,
     coastal, and Great Lakes research. NOAA’s research laboratories, Climate Program Office, and research partners conduct a
     wide range of research into complex climate systems, including the exploration and investigation of ocean habitats and
     resources. NOAA’s research organizations conduct applied research on the upper and lower atmosphere as well as the space
     environment.

     Fisheries: NOAA’s NMFS is responsible for the management and stewardship of living marine resources and their habitat
     within the Nation’s Exclusive Economic Zone. NMFS manages these resources through science-based conservation and
     management, and the protection and restoration of healthy ecosystems to ensure their continuation as functioning components
     of ecosystems, while also affording economic opportunities and enhancing the quality of life for the American public. Fishery
     stocks and protected species are surveyed, catch data are collected, and research is conducted to better understand the
     variables affecting the abundance and variety of marine fishes and protected species. Protection of endangered species,
     restoration of coastal and estuarine fishery habitats, and enforcement of fishery regulations are primary NOAA activities. The
     research and management of living marine resources is conducted in partnership with states, universities, other countries,
     and international organizations.

     Marine Operations and Maintenance and Aircraft Services: These efforts support NOAA’s programs requiring operating days
     and flight hours to collect data at sea and in the air. NOAA’s Marine and Aviation Operations manage a wide variety of
     specialized aircraft and ships to complete NOAA’s environmental and scientific missions. The aircraft collect the environmental
     and geographic data essential to NOAA hurricane and other weather and atmospheric research, conduct aerial surveys for
     hydrologic research to help predict flooding potential from snowmelt, and provide support to NOAA’s fishery research and
     marine mammal assessment programs. NOAA’s ship fleet provides oceanographic and atmospheric research and fisheries
     research vessels to support NOAA’s strategic plan elements and mission.

     Weather Service: The National Weather Service conducts applied research and development, building upon research conducted
     by NOAA laboratories and the academic community. Applied meteorological and hydrological research is integral to providing
     more timely and accurate weather, water, and climate services to the public.

     Other Programs: As a national lead for coastal stewardship, National Ocean Service promotes a wide range of research
     activities to create the strong science foundation required to advance the sustainable use of precious coastal systems.
     Understanding of the coastal environment is enhanced through coastal ocean activities that support science and resource
     management programs. The National Environmental Satellite Data and Information Service, through its Office of Research
     and Applications, conducts atmospheric, climatological, and oceanic research into the use of satellite data for monitoring
     environmental characteristics and their changes. It also provides guidance for the development and evolution of spacecraft
     and sensors to meet future needs.




                                                                                                                              247
F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




   NOAA’s R&D investments by program for FY 2005 through FY 2009 were as follows:

   (In Millions)

                          Program                     FY 2005         FY 2006         FY 2007            FY 2008           FY 2009         Total
       Environmental and Climate                  $      307.8    $      324.2    $      289.3       $      331.2      $       337.0   $    1,589.5
       Fisheries                                          53.5            56.3            49.3                53.6              55.7          268.4
       Marine Operations and Maintenance and
       Aircraft Services                                  57.5            50.7            51.1                51.5              38.4          249.2
       Weather Service                                    26.9            15.1            40.8                56.7              58.4          197.9
       Others                                            124.9           124.1           120.2              111.1              103.8          584.1
       Total                                      $      570.6    $      570.4   $       550.7       $      604.1      $       593.3   $ 2,889.1



   The following table summarizes NOAA’s R&D investments for FY 2005 through FY 2009 by R&D category:

   (In Millions)

                     R&D Category                     FY 2005         FY 2006         FY 2007            FY 2008           FY 2009         Total
       Applied Research                           $      514.8    $      523.1    $      475.7       $      517.6      $       491.3   $    2,522.5
       Development                                        55.8            47.3            75.0                86.5             102.0          366.6
       Total                                      $      570.6    $      570.4   $       550.7       $      604.1      $       593.3   $ 2,889.1



   The following tables further summarize NOAA’s R.D investments for FY 2005 through FY 2009 by performance outcome.

   (In Millions)

                                                                   FY 2009
                                                                                                 Applied
                                    Performance Outcome                                                              Development           Total
                                                                                                 Research
       Protect, Restore, and Manage the Use of Coastal and Ocean Resources                       $       211.5        $ 	      8.1     $     219.6
       Advance Understanding of Climate Variability and Change                                           140.4             	 60.5            200.9
       Provide Accurate and Timely Weather and Water Information                                         138.9             	 32.7            171.6
       Support Safe, Efficient, and Environmentally Sound Commercial Navigation                            0.5             	   0.7             1.2
       Total                                                                                     $ 491.3              $ 	102.0         $     593.3




 248
                                                F Y   2 0 0 9    P E R F O R M A N C E     A N D         A C C O U N T A B I L I T Y       R E P O R T
                         REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




     (In Millions)

                                                                   FY 2008
                                                                                            Applied
                                    Performance Outcome                                                 Development       Total
                                                                                            Research
       Protect, Restore, and Manage the Use of Coastal and Ocean Resources                  $   229.8    $ 	 11.4     $     241.2
       Advance Understanding of Climate Variability and Change                                  145.9       	 35.7          181.6
       Provide Accurate and Timely Weather and Water Information                                140.3       	 39.2          179.5
       Support Safe, Efficient, and Environmentally Sound Commercial Navigation                   1.6       	 0.2             1.8
       Total                                                                                $ 517.6      $ 	86.5      $    604.1


     (In Millions)

                                                                   FY 2007
                                                                                            Applied
                                    Performance Outcome                                                 Development       Total
                                                                                            Research
       Protect, Restore, and Manage the Use of Coastal and Ocean Resources Through an
       Ecosystem Approach to Management                                                     $   225.9    $ 	 12.3     $     238.2
       Understand Climate Variability and Change to Enhance Society’s Ability to Plan
       and Respond                                                                              145.9       	 12.3          158.2
       Serve Society’s Needs for Weather and Water Information                                  101.6       	 50.2          151.8
       Support the Nation’s Commerce with Information for Safe, Efficient, and
       Environmentally Sound Transportation                                                       2.3       	 0.2             2.5
       Total                                                                                $ 475.7      $ 	75.0      $    550.7


     (In Millions)

                                                                   FY 2006
                                                                                            Applied
                                    Performance Outcome                                                 Development       Total
                                                                                            Research
       Protect, Restore, and Manage the Use of Coastal and Ocean Resources Through an
       Ecosystem-based Management                                                           $   250.7    $ 	 14.0     $     264.7
       Understand Climate Variability and Change to Enhance Society’s Ability to Plan
       and Respond                                                                              160.2       	 12.3          172.5
       Serve Society’s Needs for Weather and Water Information                                  109.0       	 20.9          129.9
       Support the Nation’s Commerce with Information for Safe, Efficient, and
       Environmentally Sound Transportation                                                       3.2       	 0.1             3.3
       Total                                                                                $ 523.1      $ 	47.3      $    570.4




                                                                                                                              249
F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




   (In Millions)

                                                                   FY 2005
                                                                                            Applied
                                    Performance Outcome                                                   Development              Total
                                                                                            Research
       Protect, Restore, and Manage the Use of Coastal and Ocean Resources Through an
       Ecosystem-based Management                                                           $    242.4       $ 	 8.6           $     251.0
       Understand Climate Variability and Change to Enhance Society’s Ability to Plan
       and Respond                                                                               157.8          	 5.3                163.1
       Serve Society’s Needs for Weather and Water Information                                   105.4          	 41.9               147.3
       Support the Nation’s Commerce with Information for Safe, Efficient, and
       Environmentally Sound Transportation                                                        9.2          	    -                 9.2
       Total                                                                                $ 514.8          $ 	55.8           $     570.6




 250
                                                 F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y       R E P O R T
    I n d e pe n d e n t
A u d i to r s ’ R e p o r t
                                                                               NOTES TO THE FINANCIAL STATE M ENTS
                                                                                   I n d e p e n d e n t Au d i t o r s ’ R e p o r t




                                                                    		 

                                                                    

	
                                                                   




            November 12, 2009


            MEMORANDUM FOR:                     The Honorable Gary Locke
                                                The Secretary of Commerce



            FROM:                               Todd J. Zinser


            SUBJECT:	                           FY 2009 Consolidated Financial Statements
                                                Final Audit Report No. FSD-19652-0-0002


            I am pleased to provide you with the attached audit report required by the Chief Financial Officers
            Act of 1990, as amended, which presents an unqualified opinion on the Department of
            Commerce’s FY 2009 consolidated financial statements. The audit results indicate that the
            Department has established an internal control structure that facilitates the preparation of reliable
            financial and performance information.

            KPMG LLP, an independent public accounting firm, performed the audit of the Department’s
            financial statements for the year ended September 30, 2009. The contract with KPMG required
            that the audit be performed in accordance with U.S. generally accepted government auditing
            standards and Office of Management and Budget Bulletin 07-04, Audit Requirements for Federal
            Financial Statements, as amended.

            In its audit of the Department, KPMG found that

            •	 the financial statements were fairly presented, in all material respects and in conformity with
               U.S. generally accepted accounting principles;

            •	 there was one significant deficiency related to weaknesses in controls over the Department’s
               financial management systems, which was not considered a material weakness in internal
               control as defined in the audit report;

            •	 there were no instances in which the Department’s financial management systems did not
               substantially comply with the requirements of the Federal Financial Management Improvement
               Act of 1996;




                                                                                                                                253
F Y   2 0 0 9   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS
I n d e p e n d e n t Au d i t o r s ’ R e p o r t




          •	 there was one instance in which the Department did not comply with other laws and
             regulations (Anti-Deficiency Act violation at the National Oceanic and Atmospheric
             Administration); and

          •	 there was one additional concern related to Anti-Deficiency Act compliance, which the
             Department’s Office of General Counsel is reviewing. However, a conclusion has not yet been
             reached.

          My office oversaw the audit performance and delivery. We reviewed KPMG’s report and related
          documentation and made inquiries of its representatives. Our review disclosed no instances where
          KPMG did not comply, in all material respects, with U.S. generally accepted government auditing
          standards. However, our review cannot be construed as an audit in accordance with U.S. generally
          accepted government auditing standards. It was not intended to enable us to express—and we do
          not express—any opinion on the Department’s consolidated financial statements, conclusions
          about the effectiveness of internal controls, or conclusions on compliance with laws, regulations,
          contracts, and grant agreements. KPMG is solely responsible for the attached audit report dated
          November 10 2009, and the conclusions expressed in the report.

          An audit action plan is not required to address the significant deficiency reported by KPMG.
          However, we ask that you provide a plan addressing the related specific recommendations
          included in the separate, limited-distribution information technology general controls report (FSD-
          19652-0-0001) in accordance with Department Administrative Order 213-5, Audit Resolution and
          Follow-up.

          If you wish to discuss the contents of this report, please call me at (202) 482-4661, or Dr. Brett M.
          Baker, assistant inspector general for audit, at (202) 482-2600.

          We appreciate the cooperation and courtesies the Department extended to both KPMG and my
          staff during the audit.


          Attachment


          cc: 	   John F. Charles
                  Acting Chief Financial Officer and Acting Assistant Secretary for Administration

                  Suzanne E. Hilding         

                  Chief Information Officer 





 254
                                            F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                         NOTES TO THE FINANCIAL STATE M ENTS
                                                                                                             I n d e p e n d e n t Au d i t o r s ’ R e p o r t




                                                   KPMG LLP
                                                   2001 M Street, NW
                                                   Washington, DC 20036




                                                INDEPENDENT AUDITORS’ REPORT



                  Inspector General, U.S. Department of Commerce and
                  Secretary, U.S. Department of Commerce:

                  We have audited the accompanying consolidated balance sheets of the U.S. Department
                  of Commerce (Department) as of September 30, 2009 and 2008, and the related
                  consolidated statements of net cost and changes in net position, and combined statements
                  of budgetary resources (hereinafter referred to as consolidated financial statements) for
                  the years then ended. The objective of our audits was to express an opinion on the fair
                  presentation of these consolidated financial statements. In connection with our fiscal year
                  2009 audit, we also considered the Department’s internal controls over financial reporting
                  and tested the Department’s compliance with certain provisions of applicable laws,
                  regulations, contracts, and grant agreements that could have a direct and material effect
                  on these consolidated financial statements.

                  Summary

                  As stated in our opinion on the consolidated financial statements, we concluded that the
                  Department’s consolidated financial statements as of and for the years ended
                  September 30, 2009 and 2008, are presented fairly, in all material respects, in conformity
                  with U.S. generally accepted accounting principles.

                  Our consideration of internal control over financial reporting resulted in one matter,
                  related to weaknesses in the Department’s general information technology controls, being
                  identified as a significant deficiency. However, this significant deficiency is not
                  considered to be a material weakness.
                  The results of our tests of compliance with certain provisions of laws, regulations,
                  contracts, and grant agreements disclosed one matter of noncompliance with the Anti-
                  Deficiency Act that is required to be reported under Government Auditing Standards,
                  issued by the Comptroller General of the United States, and Office of Management and
                  Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial
                  Statements, as amended.

                  The following sections discuss our opinion on the Department’s consolidated financial
                  statements; our consideration of the Department’s internal controls over financial
                  reporting; our tests of the Department’s compliance with certain provisions of applicable
                  laws, regulations, contracts, and grant agreements; and management’s and our
                  responsibilities.




                                                   KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                                   member firm of KPMG International, a Swiss cooperative.




                                                                                                                                                          255
F Y   2 0 0 9   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y                             R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS
I n d e p e n d e n t Au d i t o r s ’ R e p o r t




              Opinion on the Consolidated Financial Statements

              We have audited the accompanying consolidated balance sheets of the U.S. Department
              of Commerce as of September 30, 2009 and 2008, and the related consolidated
              statements of net cost and changes in net position, and the combined statements of
              budgetary resources for the years then ended.

              In our opinion, the consolidated financial statements referred to above present fairly, in
              all material respects, the financial position of the U.S. Department of Commerce as of
              September 30, 2009 and 2008, and its net costs, changes in net position, and budgetary
              resources for the years then ended, in conformity with U.S. generally accepted
              accounting principles.

              The information in the Management Discussion and Analysis, Required Supplementary
              Stewardship Information, and Required Supplementary Information sections is not a
              required part of the consolidated financial statements, but is supplementary information
              required by U.S. generally accepted accounting principles. We have applied certain
              limited procedures, which consisted principally of inquiries of management regarding the
              methods of measurement and presentation of this information. However, we did not audit
              this information and, accordingly, we express no opinion on it.

              Our audits were conducted for the purpose of forming an opinion on the consolidated
              financial statements taken as a whole. The September 30, 2009 consolidating balance
              sheet on page 227 is presented for purposes of additional analysis of the consolidated
              balance sheet rather than to present the financial position of the Department’s bureaus
              individually. The September 30, 2009 consolidating balance sheet has been subjected to
              the auditing procedures applied in the audits of the consolidated financial statements and,
              in our opinion, is fairly stated, in all material respects, in relation to the
              September 30, 2009 consolidated balance sheet taken as a whole. The information in the
              FY 2009 Performance Section, Appendices, and the information on pages VI through X
              are presented for purposes of additional analysis and are not required as part of the
              consolidated financial statements. This information has not been subjected to auditing
              procedures and, accordingly, we express no opinion on it.

              Internal Control Over Financial Reporting

              Our consideration of the internal control over financial reporting was for the limited
              purpose described in the Responsibilities section of this report and would not necessarily
              identify all deficiencies in the internal control over financial reporting that might be
              significant deficiencies or material weaknesses.

              A deficiency in internal control exists when the design or operation of a control does not
              allow management or employees, in the normal course of performing their assigned
              functions, to prevent, or detect and correct misstatements on a timely basis. A significant
              deficiency is a deficiency, or a combination of deficiencies, in internal control that is less




 256
                                           F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS
                                                                                  I n d e p e n d e n t Au d i t o r s ’ R e p o r t




                  severe than a material weakness, yet important enough to merit attention by those
                  charged with governance. A material weakness is a deficiency, or combination of
                  deficiencies, in internal control, such that there is a reasonable possibility that a material
                  misstatement of the Department’s consolidated financial statements will not be
                  prevented, or detected and corrected on a timely basis.
                  In our fiscal year 2009 audit, we identified the following matter relating to the
                  Department’s financial management systems, summarized below, and in more detail in
                  Exhibit I, that we consider to be a significant deficiency. However, we do not believe
                  this significant deficiency is a material weakness.

                      General information technology controls. We found that although the
                      Department has taken corrective actions to address certain information technology
                      (IT) control weaknesses, general IT weaknesses still exist. Despite the positive
                      efforts made by the Department in certification and accreditation, continuous
                      monitoring and training, the Department needs to make continued improvement in
                      its IT general control environment to fully ensure that financial data being
                      processed on the Department’s systems has integrity, is confidentially maintained,
                      and is available when needed.

                  Exhibit II presents the status of the prior year significant deficiencies.

                  We noted certain additional matters that we reported to management of the Department in
                  two separate documents addressing information technology and other internal control
                  matters, respectively.

                  Compliance and Other Matters

                  The results of certain of our tests of compliance as described in the Responsibilities
                  section of this report, exclusive of those referred to in the Federal Financial Management
                  Improvement Act of 1996 (FFMIA), disclosed the following instance of noncompliance
                  and other matters that is required to be reported herein under Government Auditing
                  Standards or OMB Bulletin No. 07-04, as amended.

                  •   Anti-Deficiency Act (ADA). As reported in the prior year, we were informed by the
                      National Oceanic and Atmospheric Administration (NOAA) that during fiscal year
                      2005, 82 real property agreements, with the earliest signed in 1923, included
                      indemnification clauses or provisions involving an indeterminate liability, or both.
                      The Office of General Counsel (OGC) determined that these clauses or provisions
                      were prima facie violations of the ADA, because those clauses constituted open-
                      ended obligations of the U.S. Government, even though no liability claims were filed
                      against the agreements. As of November 10, 2009, the date of our fiscal year 2009
                      Independent Auditors’ Report, 81 agreements have been amended, terminated or
                      expired, thereby eliminating future ADA concerns, and corrective actions are
                      underway on the remaining agreement, which has been awarded and awaiting final
                      approval.




                                                                                                                               257
F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS
I n d e p e n d e n t Au d i t o r s ’ R e p o r t




              Additional Concern. In fiscal year 2009, we identified a potential ADA violation at the
              National Telecommunications and Information Administration (NTIA) related to the use
              of voluntary services, that may not have been authorized by law. NTIA will refer this
              matter to the OGC to determine whether a violation of the ADA occurred. The outcome
              of this matter, and any resulting ramifications, is not presently known.

                                                      *******
              The results of our other tests of compliance as described in the Responsibilities section of
              this report, exclusive of those referred to in FFMIA, disclosed no instances of
              noncompliance or other matters that are required to be reported herein under government
              auditing standards or OMB Bulletin No. 07-04, as amended.

              The results of our tests of FFMIA disclosed no instances in which the Department’s
              financial management systems did not substantially comply with the (1) Federal financial
              management systems requirements, (2) applicable Federal accounting standards, and (3)
              the United States Government Standard General Ledger at the transaction level.

              Responsibilities

              Management’s Responsibilities. Management is responsible for the consolidated
              financial statements; establishing and maintaining effective internal control; and
              complying with laws, regulations, contracts, and grant agreements applicable to the
              Department.

              Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year
              2009 and 2008 consolidated financial statements of the Department based on our audits.
              We conducted our audits in accordance with auditing standards generally accepted in the
              United States of America; the standards applicable to financial audits contained in
              Government Auditing Standards, issued by the Comptroller General of the United States;
              and OMB Bulletin No. 07-04, as amended. Those standards and OMB Bulletin No. 07-
              04, as amended, require that we plan and perform the audits to obtain reasonable
              assurance about whether the consolidated financial statements are free of material
              misstatement. An audit includes consideration of internal control over financial reporting
              as a basis for designing audit procedures that are appropriate in the circumstances, but not
              for the purpose of expressing an opinion on the effectiveness of the Department’s internal
              control over financial reporting. Accordingly, we express no such opinion.

              An audit also includes:

              •   Examining, on a test basis, evidence supporting the amounts and disclosures in the
                  consolidated financial statements;
              •   Assessing the accounting principles used and significant estimates made by
                  management; and
              •   Evaluating the overall consolidated financial statement presentation.




 258
                                           F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS
                                                                                  I n d e p e n d e n t Au d i t o r s ’ R e p o r t




                   We believe that our audits provide a reasonable basis for our opinion.

                   In planning and performing our fiscal year 2009 audit, we considered the Department’s
                   internal control over financial reporting by obtaining an understanding of the
                   Department’s internal control, determining whether internal controls had been placed in
                   operation, assessing control risk, and performing tests of controls as a basis for designing
                   our auditing procedures for the purpose of expressing our opinion on the consolidated
                   financial statements. We did not test all internal controls relevant to operating objectives
                   as broadly defined by the Federal Managers’ Financial Integrity Act of 1982. The
                   objective of our audit was not to express an opinion on the effectiveness of the
                   Department’s internal control over financial reporting. Accordingly, we do not express an
                   opinion on the effectiveness of the Department’s internal control over financial reporting.

                   As part of obtaining reasonable assurance about whether the Department’s fiscal year
                   2009 consolidated financial statements are free of material misstatement, we performed
                   tests of the Department’s compliance with certain provisions of laws, regulations,
                   contracts, and grant agreements, noncompliance with which could have a direct and
                   material effect on the determination of the consolidated financial statement amounts, and
                   certain provisions of other laws and regulations specified in OMB Bulletin No. 07-04, as
                   amended, including the provisions referred to in Section 803(a) of FFMIA. We limited
                   our tests of compliance to the provisions described in the preceding sentence, and we did
                   not test compliance with all laws, regulations, contracts, and grant agreements applicable
                   to the Department. However, providing an opinion on compliance with laws, regulations,
                   contracts, and grant agreements was not an objective of our audit and, accordingly, we do
                   not express such an opinion.

                                                ______________________________

                   The Department’s response to the significant deficiency identified in our audit is
                   presented in Exhibit I. We did not audit the Department’s response and, accordingly, we
                   express no opinion on it.

                   This report is intended solely for the information and use of the Department’s
                   management, the Department’s Office of Inspector General, OMB, the U.S. Government
                   Accountability Office, and the U.S. Congress and is not intended to be and should not be
                   used by anyone other than these specified parties.



                   November 10, 2009




                                                                                                                               259
F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS
I n d e p e n d e n t Au d i t o r s ’ R e p o r t




                U.S. Department of Commerce
                Independent Auditors’ Report
                Exhibit I – Significant Deficiency

                Financial Management Systems Need Improvement (Repeat Condition Since 1998)

                For many years, the U.S. Department of Commerce (the Department) Office of Inspector
                General (OIG), and departmental self-assessments have identified weaknesses in the
                Department’s information technology (IT) and financial systems controls. As at many
                federal entities, information security is recognized as a top management challenge for the
                Department. During our fiscal year (FY) 2009 assessment of the Department’s IT
                general and financial systems controls, performed in support of the FY 2009 consolidated
                financial statement audit, we found that there is continued emphasis on implementing
                minimum security requirements for Federal information systems that are recommended
                by the National Institute of Standards and Technology (NIST), and strengthening the
                certification and accreditation program. We also noted that the bureaus and the
                Department took steps to implement management, operational, and technical controls to
                help establish sound information security practices and address known weaknesses.

                Despite continued progress in certification and accreditation efforts, continuous
                monitoring and training, during our FY 2009 audit, we identified weaknesses in general
                IT controls that, collectively, we consider to be a significant deficiency in internal
                control, as defined by the American Institute of Certified Public Accountants. The
                Department has indicated that it is on track to complete its system certification and
                accreditation corrective action milestones and to provide more consistent and sustainable
                security controls in FY 2010, but continues to report a significant deficiency related to
                non-financial system IT security in its FY 2009 Federal Information Security
                Management Act reporting, as well as a material weakness in Section 2, Internal
                Management Controls, of its Federal Managers’ Financial Integrity Act (FMFIA)
                assurance statement.

                Effective IT general controls add assurance that data used to prepare and report financial
                information and statements is complete, reliable, and has integrity. Our FY 2009 IT
                assessment was focused on the IT general controls over the Department’s major financial
                management systems and supporting network infrastructure, using GAO’s Federal
                Information System Controls Audit Manual (FISCAM) that was revised in
                February 2009, as a guide. The prior FISCAM version divided IT general controls into
                six control areas, whereas the revised version has organized them into five control areas.
                The five FISCAM IT general control review areas, and our related findings, are as
                follows:

                   Security management. An entity-wide security management program for security
                   planning and management is the foundation of an organization’s information security
                   control structure. The program should provide a framework and continuing cycle of
                   activity for assessing risk, developing and implementing effective security
                   procedures, assigning responsibilities, and monitoring the effectiveness of these
                   procedures.




 260
                                           F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS
                                                                                  I n d e p e n d e n t Au d i t o r s ’ R e p o r t




                    U.S. Department of Commerce
                    Independent Auditors’ Report
                    Exhibit I – Significant Deficiency, Continued

                        Although the Department has made improvements in this area, during our FY 2009
                        audit we identified that security management can still be improved at five bureaus and
                        at the Department level, primarily in the areas of: (1) updating system security plans
                        to comply with current Federal guidance, (2) recertifying and accrediting financial
                        systems in a timely manner, (3) improving incident response procedures and training,
                        (4) establishing approved interconnection sharing agreements, (5) reporting and
                        monitoring identified control weaknesses, and (6) maintaining background
                        investigation and clearance documentation.

                        Office of Management and Budget (OMB) Circular A-130, Management of Federal
                        Information Resources, provides key guidance for establishing and maintaining an
                        entity-wide information security program. Collectively, the identified security
                        management issues, in conjunction with the access control and configuration
                        management issues described below, reduce the overall effectiveness of the security
                        management programs for the individual bureaus and operating units, and the overall
                        Department. The Department of Commerce IT Security Program Policy and
                        Minimum Implementation Standards, reiterates OMB Circular A-130 guidance, and
                        implements key elements of such guidance as Department-wide policy.

                        Access controls. In close concert with an organization’s security management,
                        access controls for general support systems and financial systems should provide
                        reasonable assurance that computer resources such as data files, application programs,
                        and computer-related facilities and equipment are protected against unauthorized
                        modification, disclosure, loss, or impairment. Access controls are facilitated by an
                        organization’s entity-wide security program. Such controls include physical controls
                        and logical controls.

                        The objectives of limiting access are to ensure that users have only the access needed
                        to perform their duties; that access to very sensitive resources, such as security
                        software programs, is limited to very few individuals; and that employees are
                        restricted from performing incompatible functions or functions beyond their
                        responsibility. This is reiterated by Federal guidelines. For example, OMB Circular
                        A-130 and supporting NIST Special Publications provide guidance related to the
                        maintenance of technical access controls. In addition, the Department of Commerce
                        IT Security Program Policy and Minimum Implementation Standards contain many
                        requirements for operating Department IT devices in a secure manner.

                        During FY 2009, we noted that access controls should be improved at all bureaus and
                        at the Department level, primarily in the areas of: (1) applying consistent patch
                        management practices to protect system devices against external and internal
                        vulnerabilities, (2) managing user accounts to appropriately disable and recertify
                        network, financial system, and database accounts, (3) improving logical controls over
                        financial application, database, and network access, (4) strengthening password
                        controls, (5) restricting data center access, (6) granting system roles and privileges on
                        the principle of least privilege, (7) monitoring user actions through audit trails that are




                                                                                                                               261
F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS
I n d e p e n d e n t Au d i t o r s ’ R e p o r t




                U.S. Department of Commerce
                Independent Auditors’ Report
                Exhibit I – Significant Deficiency, Continued

                   established in compliance with established baselines, (8) enforcing multi-factor
                   authentication, (9) preventing the use of shared accounts and passwords, (10)
                   enforcing visitor access policy, and (11) strengthening remote access controls. We
                   recognize that the Department and its bureaus have certain compensating controls in
                   place to help reduce the risk of the identified vulnerabilities, and we have considered
                   such compensating controls as part of our overall consolidated financial statement
                   audit.

                   Configuration management. Configuration management involves the identification
                   and management of security features for all hardware, software, and firmware
                   components of an information system at a given point and systematically controls
                   configuration changes throughout the system’s life cycle. Establishing controls over
                   modifications to information system components and related documentation helps to
                   ensure that only authorized systems and related program modifications are
                   implemented. This is accomplished by instituting policies, procedures, and
                   techniques to help ensure that hardware, software and firmware programs and
                   program modifications are properly authorized, tested, and approved, and that access
                   to and distribution of programs is carefully controlled. Without proper controls, there
                   is a risk that security features could be inadvertently or deliberately omitted or turned
                   off, or that processing irregularities or malicious code could be introduced into the IT
                   environment.

                   Effective configuration management prevents unauthorized changes to information
                   system resources and provides reasonable assurance that systems are configured and
                   operating securely and as intended. Without effective configuration management,
                   users do not have adequate assurance that the system and network will perform as
                   intended and to the extent needed to support missions.

                   During FY 2009, we noted that configuration management controls should be
                   improved at six bureaus in the areas of: (1) incorporating formal security
                   considerations in IT acquisition decisions, (2) implementing documented and
                   approved configuration management policy and procedures, (3) ensuring database
                   changes are approved prior to implementation and related documentation is retained
                   on file, (4) testing and tracking changes to system software and network devices, (5)
                   maintaining up-to-date hardware and software libraries, and (6) installing system
                   software patches in accordance with policy.

                   Segregation of duties.      Work responsibilities should be segregated so that an
                   individual does not control more than one critical function within a process.
                   Inadequately segregated duties increase the risk that erroneous or fraudulent
                   transactions could be processed, improper program changes could be implemented,
                   and computer resources could be damaged or destroyed. Key areas of concern for
                   segregation of duties involve duties among major operating and programming
                   activities, including duties performed by users, application programmers, and data




 262
                                           F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS
                                                                                  I n d e p e n d e n t Au d i t o r s ’ R e p o r t




                    U.S. Department of Commerce
                    Independent Auditors’ Report
                    Exhibit I – Significant Deficiency, Continued

                        center staff. Policies outlining individual responsibilities should be documented,
                        communicated, and enforced. The prevention and/or detection of unauthorized or
                        erroneous actions by personnel require effective supervision and review by
                        management, as well as formal operating procedures.

                       During FY 2009, we noted weaknesses related to segregation of duties at four bureaus
                       in the areas of (1) segregating critical IT roles and duties, and (2) preventing
                       developers and programmers from inappropriately accessing the production
                       environment.

                       Contingency planning. Losing the capability to process, retrieve, and protect
                       information maintained electronically can significantly affect an agency’s ability to
                       accomplish its mission. For this reason, an agency should have: (1) procedures in
                       place to protect information resources and minimize the risk of unplanned
                       interruptions, and (2) a plan to recover critical operations should interruptions occur.

                       During FY 2009, we noted that contingency planning controls should be improved at
                       four bureaus and at the Department level, primarily in the areas of: (1) updating
                       contingency plans to include appropriate controls and reflect current processing
                       environments, (2) testing contingency plans, (3) procuring an alternate processing
                       site, (4) reviewing system back up documentation, and (5) improving data center
                       physical and environmental controls.

                    Recommendations

                    Specific recommendations are included in a separate limited distribution IT general
                    controls report, issued as part of the FY 2009 consolidated financial statement audit. The
                    Department should monitor bureau actions to ensure effective implementation of our
                    recommendations.

                    Management’s Response

                    We agree with the findings, conclusions, and recommendations related to improving the
                    Department’s financial management systems controls. The Department is in the process
                    of developing corrective action plans to address the recommendations presented in the
                    separate limited distribution IT general controls report.




                                                                                                                               263
F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS
I n d e p e n d e n t Au d i t o r s ’ R e p o r t




          U.S. Department of Commerce
          Independent Auditors’ Report
          Exhibit II – Status of Prior Year Significant Deficiencies

                    Reported                                  Prior Year                             Fiscal Year 2009
                     Issue                                 Recommendation                                 Status
          Financial Management Systems Need Improvement
          Weaknesses in general             The Department should monitor bureau actions to        Still considered a
          controls were identified in all   ensure effective implementation of our                 significant deficiency
          six FISCAM review areas.          recommendations.                                       (see comments in
                                                                                                   Exhibit I).
          Accounting for NOAA Personal Property Needs Improvement
          Internal control deficiencies     NOAA should:                                           During FY 2009,
          were identified relating to       • Effectively monitor annual personal property         NOAA implemented
          managing and accounting for         physical inventory, sufficient to ensure that all    corrective actions to
          personal property at NOAA.          inventory certifications are submitted timely,       improve controls
                                              and that all required corrections are made to the    relating to managing
                                              Sunflower system.                                    and accounting for
                                            • Emphasize with the Line or Staff Offices             personal property. This
                                              through training, procedure memos, and other         area is no longer
                                              communications, the need to use correct OCC          considered to be a
                                              codes, reconcile payments appearing on the           significant deficiency.
                                              UPR, and submit asset purchase and retirement
                                              paperwork, timely.
                                            • Research unmatched payments that appear on
                                              the UPR, review the accuracy of coding
                                              property      as    non-capitalizable,      obtain
                                              information and missing acquisition paperwork
                                              from Line or Staff Offices, and record
                                              capitalized purchases and asset retirements in
                                              Sunflower timely.
                                            • Ensure that completed CWIP projects are
                                              transferred into PP&E timely, and that
                                              sufficient resources are assigned to this task.
                                            • Perform a detailed review of all non-capitalized
                                              assets costing more than $200 thousand in
                                              Sunflower, and maintain ongoing record of all
                                              such assets with explanations and supporting
                                              documentation.
                                            • Improve record keeping of “linked assets” in
                                              Sunflower.
                                            • Complete the internal review currently
                                              underway of records remaining in the
                                              Sunflower Edit Interface file, process the
                                              backlog of required transactions in a timely
                                              manner, and monitor new transactions within
                                              this file promptly.




 264
                                               F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
A ppe n d i ces
                                                         A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                              PERFORMANCE AND RESOURCE TABLES




T
            o make the report more useful, this FY 2009 Performance and Accountability Report (PAR) reports on targets
            and measures from the FY 2010 Annual Performance Plan (APP), that more accurately reflects updated targets
            of each performance measure. Individual bureau-specific APPs can be found on the Department Web site at
http://www.osec.doc.gov/bmi/budget/budgetsub_perf_strategicplans.htm. The resource tables with the performance tables
are also combined to make the information easier to follow.

The following tables provide an array of information that previously was shown in separate tables. The information should
help the reader clearly understand the resources expended for each Strategic Goal, Objective, and Performance Outcome/
Objective.

The system of reporting does not currently allow the Department to report on resources at the performance measure
level, but it is the Department’s hope to develop this capability in the future. Unless otherwise noted, funding includes
reimbursable amounts. For a given year, it is important to note that if a performance measure has been exceeded (more
than 125 percent of target), the status box for that year will be shaded blue. If a performance measure has been met
(100 to 125 percent of target), the box is shaded green. The status box for a measure that was slightly below target
(95 to 99 percent of the target) is shaded yellow, while the box for a measure that was definitely not met is shaded red. In
addition, for FY 2009 OMB introduced a new category, “improved but not met.” In those cases, the box is shaded orange.
No targets that were in the form of text (e.g., a series of milestones met) would ever be considered exceeded since they
cannot be quantified.

The information in the tables will follow the following format:

●● Strategic  Goal and Resources
●● Objective  and Resources
●●   Performance Outcome/Objective and Resources
●●   Performance Measure

Note: Unless otherwise indicated, measures that do not have FY 2009 targets are not included in any count in this document.
FY 2009 resources for each performance outcome/objective may be estimates and may be updated in the budget for
FY 2011. FY 2008 resources may have been updated since the FY 2008 PAR.

Target and performance data are tracked back to FY 2002 where available. If a measure was developed after FY 2002, actual
performance data is shown back to the year that the measure first appeared.

FTE = Full-time equivalent employment. All dollar amounts shown are in millions, unless otherwise indicated.




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                               267
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




       STRATEGIC GOAL 1
       Maximize U.S. competitiveness and enable economic growth for American industries, workers,
       and consumers
                                                                    STRATEGIC GOAL 1 TOTAL RESOURCES1
                                                                            (Dollars in Millions)
                                       FY 2002           FY 2003           FY 2004           FY 2005          FY 2006           FY 2007           FY 2008           FY 2009
                                       Actual            Actual            Actual            Actual           Actual            Actual            Actual            Actual
        Total Funding                  $1,582.7          $1,617.0          $1,609.9           $1,770.6        $1,827.6          $1,950.7            $2,389.5        $4,555.2
        FTE                             11,916            11,265            11,475             11,953          12,223            11,635              12,111          29,266
        1	 Prior
             year amounts differ from previous PARs because in FY 2008, the Department and NIST shifted the performance outcome, “Raise the productivity and
         competitiveness of small manufacturers (NIST)” from Strategic Goal 2 to Strategic Goal 1, becoming Strategic Objective 1.4.


       STRATEGIC OBJECTIVE 1.1
       Foster domestic economic development as well as export opportunities
                                                                            OBJECTIVE 1.1 RESOURCES
                                                                               (Dollars in Millions)
                                      FY 2002            FY 2003           FY 2004           FY 2005          FY 2006           FY 2007           FY 2008           FY 2009
                                      Actual             Actual            Actual            Actual           Actual            Actual            Actual            Actual
       Total Funding                    $677.5            $645.0            $633.2            $625.6           $613.8            $646.6             $643.1           $646.4
       FTE                              1,990             2,013             1,869             1,908            1,849             1,704              1,618             1,515


       Performance OUTCOME: Promote private investment and job creation in economically distressed
       communities (EDA)

                                                                    Performance OUTCOME RESOURCES
                                                                           (Dollars in Millions)
                                      FY 2002            FY 2003           FY 2004           FY 2005          FY 2006           FY 2007           FY 2008           FY 2009
                                      Actual             Actual            Actual            Actual           Actual            Actual            Actual            Actual
       Total Funding1                   $296.6            $258.3            $254.8            $212.5           $208.3            $223.9             $229.7           $203.9
       FTE                               155               149               137               139              128               132                129              129
       1	 Actuals reflect direct obligations for economic development assistance programs (EDAP) and salaries and expenses (S&E); totals do not include one-time, disaster

         investments, or reimbursable funding.


                                                                         EDA Performance measure
                                                  MEASURE: Private investment leveraged – 9 year totals (in millions)1
           Year           Status                                       Actual                                                              Target
         FY 2009            Met                                         $2,210                                                             $2,040
         FY 2008         Exceeded                                       $4,173                                                             $2,080
         FY 2007         Exceeded                                       $1,937                                                             $1,350
         FY 2006         Exceeded                                       $2,331                                                             $1,162
        1	 EDA tracks the results of its investments and jobs created/retained at 3, 6, and 9 year periods. The FY 2009 actual is a result of investments made in FY 2000. Since
         EDA did not begin tracking results until FY 1997 in this format, 9 year results are not available for the years prior to FY 2006.




 268                                                           F Y   2 0 0 9       P E R F O R M A N C E          A N D     A C C O U N T A B I L I T Y            R E P O R T
                                                                            A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                                    EDA Performance measure
                                             MEASURE: Private investment leveraged – 6 year totals (in millions)1
   Year             Status                                        Actual                                                            Target
  FY 2009             Met                                          $855                                                              $810
  FY 2008          Exceeded                                        $1,393                                                            $970
  FY 2007          Exceeded                                        $2,118                                                           $1,200
  FY 2006             Met                                          $1,059                                                           $1,020
  FY 2005          Exceeded                                        $1,781                                                           $1,040
  FY 2004          Exceeded                                        $1,740                                                            $650
  FY 2003          Exceeded                                        $2,475                                                            $581
 1	 This is the 6 year result measure.   FY 2009 actuals are the result of investments made in FY 2003.


                                                                    EDA Performance measure
                                             MEASURE: Private investment leveraged – 3 year totals (in millions)1
   Year             Status                                        Actual                                                            Target
  FY 2009          Exceeded                                        $484                                                              $265
  FY 2008          Exceeded                                        $1,013                                                            $270
  FY 2007          Exceeded                                        $810                                                              $330
  FY 2006          Exceeded                                        $1,669                                                            $320
  FY 2005          Exceeded                                        $1,791                                                            $390
  FY 2004          Exceeded                                        $947                                                              $480
  FY 2003          Exceeded                                        $1,251                                                            $400
  FY 2002          Exceeded                                        $640                                                              $420
 1	 This is the 3 year result measure.   FY 2009 actuals are the result of investments made in FY 2006.


                                                                    EDA Performance measure
                                                         MEASURE: Jobs created/retained – 9 year totals1
   Year             Status                                        Actual                                                            Target
  FY 2009          Not Met                                         45,866                                                           56,500
  FY 2008             Met                                          57,701                                                           56,900
  FY 2007          Exceeded                                        73,559                                                           54,000
  FY 2006             Met                                          50,546                                                           50,400
 1	 EDA tracks the results of its investments and jobs created/retained at 3, 6, and 9 year periods. The FY 2009 actual is a result of investments made in FY 2000. Since
  EDA did not begin tracking results until FY 1997 in this format, 9 year results are not available for the years prior to FY 2006.




F Y   2 0 0 9       P E R F O R M A N C E             A N D     A C C O U N T A B I L I T Y            R E P O R T
                                                                                                                                                                            269
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                                          EDA Performance measure
                                                               MEASURE: Jobs created/retained – 6 year totals1
         Year             Status                                        Actual                                                     Target
        FY 2009             Met                                          24,533                                                    22,900
        FY 2008             Met                                          30,719                                                    28,900
        FY 2007          Exceeded                                        49,806                                                    36,000
        FY 2006          Exceeded                                        42,958                                                    28,200
        FY 2005          Exceeded                                        47,374                                                    28,400
        FY 2004          Exceeded                                        68,109                                                    27,000
        FY 2003          Exceeded                                        47,607                                                    25,200
       1	 This is the 6 year result measure.   FY 2009 actuals are the result of investments made in FY 2003.


                                                                          EDA Performance measure
                                                               MEASURE: Jobs created/retained – 3 year totals1
         Year             Status                                        Actual                                                     Target
        FY 2009          Exceeded                                        9,137                                                      7,019
        FY 2008          Exceeded                                        14,819                                                     7,227
        FY 2007          Exceeded                                        16,274                                                     8,999
        FY 2006          Exceeded                                        11,833                                                     9,170
        FY 2005          Exceeded                                        19,672                                                    11,500
        FY 2004          Exceeded                                        21,901                                                    14,400
        FY 2003          Exceeded                                        39,841                                                    11,300
        FY 2002          Exceeded                                        29,912                                                    11,300
       1	 This is the 3 year result measure.   FY 2009 actuals are the result of investments made in FY 2006.




 270                                                           F Y   2 0 0 9       P E R F O R M A N C E        A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                         A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




Performance OUTCOME: Improve community capacity to achieve and sustain economic growth (EDA)

                                                           Performance OUTCOME RESOURCES
                                                                  (Dollars in Millions)
                                FY 2002         FY 2003           FY 2004           FY 2005          FY 2006           FY 2007            FY 2008   FY 2009
                                Actual          Actual            Actual            Actual           Actual            Actual             Actual    Actual
 Total Funding1                  $68.8            $67.3             $67.3            $68.0             $72.1             $83.5             $82.5     $75.0
 FTE                              84               80                80               74                32                33                32        32
 1	 Actuals reflect direct obligations for EDAP and S&E; totals do not include one-time, disaster investments, or reimbursable funding.



                                                                EDA Performance measure
     MEASURE: Percentage of economic development districts (EDD) and Indian tribes implementing economic development projects
               from the comprehensive economic development strategy (CEDS) that lead to private investment and jobs
   Year            Status                                     Actual                                                              Target
  FY 2009      Slightly Below                                   93%                                                                 95%
  FY 2008      Slightly Below                                   92%                                                                 95%
  FY 2007            Met                                        95%                                                                 95%
  FY 2006            Met                                        96%                                                                 95%
  FY 2005            Met                                        97%                                                                 95%
  FY 2004            Met                                        95%                                                                 95%
  FY 2003            Met                                        99%                                                                 95%


                                                                EDA Performance measure
   MEASURE: Percentage of sub-state jurisdiction members actively participating in the economic development district (EDD) program
   Year            Status                                     Actual                                                              Target
  FY 2009            Met                                        92%                                                               89-93%
  FY 2008            Met                                        90%                                                               89-93%
  FY 2007            Met                                        92%                                                               89-93%
  FY 2006            Met                                        90%                                                               89-93%
  FY 2005            Met                                        91%                                                               89-93%
  FY 2004            Met                                        90%                                                               89-93%
  FY 2003            Met                                        97%                                                               89-93%
  FY 2002            Met                                        95%                                                                 93%


                                                                EDA Performance measure
     MEASURE: Percentage of University Center clients taking action as a result of the assistance facilitated by the University Center
   Year            Status                                     Actual                                                              Target
  FY 2009          Not Met                                      70%                                                                 75%
  FY 2008            Met                                        80%                                                                 75%
  FY 2007            Met                                        84%                                                                 75%
  FY 2006            Met                                        76%                                                                 75%
  FY 2005            Met                                        79%                                                                 75%
  FY 2004            Met                                        78%                                                                 75%
  FY 2003            Met                                        78%                                                                 75%




F Y   2 0 0 9      P E R F O R M A N C E           A N D     A C C O U N T A B I L I T Y           R E P O R T
                                                                                                                                                              271
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                         EDA Performance measure
                    MEASURE: Percentage of those actions taken by University Center clients that achieved the expected results
         Year        Status                             Actual                                                Target
        FY 2009        Met                               92%                                                   80%
        FY 2008        Met                               84%                                                   80%
        FY 2007        Met                               89%                                                   80%
        FY 2006        Met                               82%                                                   80%
        FY 2005        Met                               87%                                                   80%
        FY 2004        Met                               88%                                                   80%
        FY 2003        Met                               86%                                                   80%


                                                         EDA Performance measure
                       MEASURE: Percentage of Trade Adjustment Assistance Center (TAAC) clients taking action as a result
                                                  of the assistance facilitated by the TAACs
         Year        Status                             Actual                                                Target
        FY 2009   Slightly Below                         88%                                                   90%
        FY 2008        Met                               92%                                                   90%
        FY 2007        Met                               99%                                                   90%
        FY 2006        Met                               90%                                                   90%
        FY 2005        Met                               99%                                                   90%
        FY 2004        Met                               90%                                                   90%
        FY 2003        Met                               92%                                                   90%


                                                         EDA Performance measure
           MEASURE: Percentage of those actions taken by Trade Adjustment Assistance Center clients that achieved the expected results
         Year        Status                             Actual                                                Target
        FY 2009   Slightly Below                         93%                                                   95%
        FY 2008        Met                               95%                                                   95%
        FY 2007        Met                               95%                                                   95%
        FY 2006        Met                               96%                                                   95%
        FY 2005        Met                               97%                                                   95%
        FY 2004        Met                               98%                                                   95%
        FY 2003        Met                               98%                                                   95%




 272                                             F Y   2 0 0 9   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                        A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




Performance OUTCOME: Strengthen U.S. competitiveness in domestic and international markets (ITA)

                                                           Performance OUTCOME RESOURCES
                                                                  (Dollars in Millions)
                                FY 2002         FY 2003          FY 2004           FY 2005          FY 2006           FY 2007            FY 2008         FY 2009
                                Actual1         Actual           Actual            Actual           Actual            Actual             Actual          Actual
 Total Funding                  $208.5            $72.7            $56.0             $62.6            $52.1             $59.0             $44.8            $51.7
 FTE                            1,236              402              287               264              257               243               228              232
 1	 In FY 2005, ITA reorganized its performance structure, reducing the number of outcomes from four to two outcomes for this strategic objective. FY 2002 actuals

  shown here reflect the level for the “Strengthen U.S. industries” outcome and the two discontinued outcomes.


                                                                ITA Performance measure
  MEASURE: Annual cost savings resulting from the adoption of Manufacturing and Services (MAS) recommendations contained in MAS
                                                        studies and analysis
   Year            Status                                     Actual                                                             Target
  FY 2009        Exceeded                                     $552M                                                              $350M
  FY 2008        Exceeded                                     $455M                                                              $350M
  FY 2007        Exceeded                                     $413M                                                              $168M
  FY 2006         Not Met                                     $287M                                                              $350M


                                                                ITA Performance measure
                        MEASURE: Percent of industry-specific trade barriers addressed that were removed or prevented
   Year            Status                                     Actual                                                             Target
  FY 2009        Exceeded                                      30%                                                                20%
  FY 2008        Exceeded                                      29%                                                                15%


                                                                ITA Performance measure
                                     MEASURE: Percent of industry-specific trade barrier milestones completed
   Year            Status                                     Actual                                                             Target
  FY 2009        Exceeded                                      72%                                                                55%
  FY 2008        Exceeded                                      73%                                                                55%
  FY 2007         Not Met                                      54%                                                                85%
  FY 2006      Slightly Below                                  81%                                                                85%


                                                                ITA Performance measure
                                                 MEASURE: Percent of agreement milestones completed
   Year            Status                                     Actual                                                             Target
  FY 2009         Not Met                                      23%                                                                100%
  FY 2008         Not Met                                      70%                                                                100%
  FY 2007        Exceeded                                      100%                                                               70%
  FY 2006        Exceeded                                      100%                                                               70%




F Y   2 0 0 9     P E R F O R M A N C E           A N D     A C C O U N T A B I L I T Y           R E P O R T
                                                                                                                                                                     273
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




       Performance OUTCOME: Broaden and deepen U.S. exporter base (ITA)

                                                                Performance OUTCOME RESOURCES
                                                                       (Dollars in Millions)
                                    FY 2002          FY 2003           FY 2004          FY 2005           FY 2006          FY 2007            FY 2008         FY 2009
                                    Actual           Actual            Actual           Actual            Actual           Actual             Actual1         Actual
       Total Funding                  $75.3            $217.7           $226.4           $252.7            $251.8           $250.6             $257.9          $286.0
       FTE                             423             1,290            1,273            1,335             1,338            1,202              1,151           1,036
       1	 For FY 2008, funding includes $23.0M previously for the discontinued outcome, “Increase exports to commercially significant markets including FTA countries,

        China, and India.”


                                                                      ITA Performance measure
                                                    MEASURE: Export success firms/active client firms (annual)
         Year            Status                                    Actual                                                             Target
        FY 2009        Exceeded                                     23.3%                                                             10.50%


                                                                      ITA Performance measure
              MEASURE: US&FCS small and medium-sized enterprises (SME) new-to-export (NTE)/total change in SME exporters (annual)
         Year            Status                                    Actual                                                             Target
        FY 2009        Exceeded                                     15.22%                                                            12.37%


                                                                      ITA Performance measure
             MEASURE: Number of SME new-to-market (NTM) firms/number of SME firms exporting to two to nine foreign markets (annual)
         Year            Status                                    Actual                                                             Target
        FY 2009         Not Met                                     3.49%                                                              3.81%


                                                                      ITA Performance measure
                                                    MEASURE: Commercial diplomacy success (cases) (annual)
         Year            Status                                    Actual                                                             Target
        FY 2009              Met                                     196                                                                162
        FY 2008              Met                                     181                                                                160


                                                                      ITA Performance measure
                                         MEASURE: Increase in the percent of small and medium-sized firms that export
         Year            Status                                    Actual                                                             Target
        FY 2009        Exceeded                                     4.69%                                                              2.75%




 274                                                       F Y   2 0 0 9      P E R F O R M A N C E          A N D      A C C O U N T A B I L I T Y          R E P O R T
                                                              A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




Performance OUTCOME: Increase access to the marketplace and financing for minority-owned businesses (MBDA)

                                                   Performance OUTCOME RESOURCES
                                                          (Dollars in Millions)
                            FY 2002      FY 2003        FY 2004      FY 2005        FY 2006      FY 2007           FY 2008   FY 2009
                            Actual       Actual         Actual       Actual         Actual       Actual            Actual    Actual
 Total Funding               $28.3        $29.0          $28.7         $29.8         $29.5        $29.6             $28.2     $29.8
 FTE                          92           92             92            96            94           94                75        86


                                                     MBDA Performance measure
                                      MEASURE: Dollar value of contract awards obtained (billions)
   Year          Status                             Actual                                                 Target
 FY 2009         Exceeded                             $2.11                                                $0.90
 FY 2008           Met                                $1.03                                                $0.90
 FY 2007         Exceeded                             $1.20                                                $0.85
 FY 2006         Exceeded                             $1.17                                                $0.85
 FY 2005         Exceeded                             $1.10                                                $0.80
 FY 2004           Met                                $0.95                                                $0.80
 FY 2003         Not Met                              $0.70                                                $1.00
 FY 2002         Exceeded                             $1.30                                                $1.00


                                                     MBDA Performance measure
                                      MEASURE: Dollar value of financial awards obtained (billions)
   Year          Status                             Actual                                                 Target
 FY 2009         Exceeded                             $0.81                                                $0.50
 FY 2008         Exceeded                             $1.09                                                $0.50
 FY 2007           Met                                $0.55                                                $0.45
 FY 2006         Not Met                              $0.41                                                $0.45
 FY 2005           Met                                $0.50                                                $0.45
 FY 2004         Exceeded                             $0.60                                                $0.40
 FY 2003           Met                                $0.40                                                $0.40
 FY 2002           Met                                $0.40                                                $0.40

                                                     MBDA Performance measure
                                           MEASURE: Number of new job opportunities created
   Year          Status                             Actual                                                 Target
 FY 2009           Met                                3,024                                                3,000
 FY 2008         Exceeded                             5,316                                                3,000
 FY 2007         Exceeded                             3,506                                                2,050
 FY 2006         Exceeded                             4,254                                                1,800
 FY 2005         Exceeded                             2,270                                                1,800




F Y   2 0 0 9    P E R F O R M A N C E    A N D     A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                       275
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                                    MBDA Performance measure
                                                         MEASURE: Percent increase in client gross receipts
         Year            Status                                    Actual                                                        Target
        FY 2009           Met                                        6.0%                                                         6.0%
        FY 2008           Met                                        6.0%                                                         6.0%
        FY 2007           Met                                        5.0%                                                         5.0%
        FY 2006           Met                                        6.0%                                                         5.0%
        FY 2005        Exceeded                                     15.0%                                                         5.0%

                                                                    MBDA Performance measure
                                     MEASURE: Satisfaction rating for the American Customer Satisfaction Index (ACSI)1,2
         Year            Status                                    Actual                                                        Target
        FY 2009         Not Met                                      67%                                                          75%
        FY 2008           N/A                                        N/A                                                          N/A
        FY 2007        Exceeded                                      4.0%                                                         3.0%
        FY 2006           N/A                                        N/A                                                          N/A
        FY 2005        Exceeded                                     13.0%                                                         5.0%
       1	 The ACSI survey occurs only in odd years, so data does not appear in FY 2008 and FY 2006.
       2	 Prior to FY 2009, this measure was known as “Percent increase in the American Customer Satisfaction Index (ASCI).”




 276                                                       F Y   2 0 0 9      P E R F O R M A N C E         A N D     A C C O U N T A B I L I T Y   R E P O R T
                                                                 A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




strategic O bjective 1 . 2
Advance responsible economic growth and trade while protecting American security
                                                            OBJECTIVE 1.2 RESOURCES
                                                               (Dollars in Millions)
                             FY 2002         FY 2003       FY 2004       FY 2005        FY 2006      FY 2007            FY 2008   FY 2009
                             Actual          Actual        Actual        Actual         Actual       Actual             Actual    Actual
 Total Funding               $157.4           $164.9        $168.5        $192.6        $204.1        $197.8             $198.7   $208.2
 FTE                          929              940           975           998           986           910                841      914


Performance OUTCOME: Identify and resolve unfair trade practices (ITA)

                                                       Performance OUTCOME RESOURCES
                                                              (Dollars in Millions)
                             FY 2002         FY 2003       FY 2004       FY 2005        FY 2006      FY 2007            FY 2008   FY 2009
                             Actual          Actual        Actual        Actual         Actual       Actual             Actual    Actual
 Total Funding                $92.8            $88.1         $94.6        $115.8        $122.0        $116.9             $122.4   $123.6
 FTE                           571              574           610          638           633           544                496      588


                                                           ITA Performance measure
                                      MEASURE: Percent reduction in trade distorting foreign subsidy programs
   Year          Status                                 Actual                                                  Target
 FY 2009         Exceeded                                 1.8%                                                   > 1%
 FY 2008         Exceeded                                 1.6%                                                  >0.5%


                                                           ITA Performance measure
                      MEASURE: Percent of AD/CVD determinations issued within statutory and/or regulatory deadlines
   Year          Status                                 Actual                                                  Target
 FY 2009    Slightly Below                                86%                                                    90%
 FY 2008           Met                                    90%                                                    90%


                                                           ITA Performance measure
                               MEASURE: Percent of ministerial errors in IA’s dumping and subsidy calculations
   Year          Status                                 Actual                                                  Target
 FY 2009         Exceeded                                 8%                                                    < 11%
 FY 2008           Met                                    10%                                                   < 12%


                                                           ITA Performance measure
                             MEASURE: Percentage of market access and compliance cases resolved successfully
   Year          Status                                 Actual                                                  Target
 FY 2009         Exceeded                                 56%                                                    35%
 FY 2008           Met                                    39%                                                    35%
 FY 2007         Exceeded                                 54%                                                    25%
 FY 2006         Exceeded                                 46%                                                    25%




F Y   2 0 0 9    P E R F O R M A N C E         A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                            277
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                               ITA Performance measure
                                     MEASURE: Value of market access and compliance cases resolved successfully
         Year          Status                                Actual                                                        Target
        FY 2009        Exceeded                               $25.4B                                                       $2.0B
        FY 2008        Exceeded                               $12.3B                                                       $1.5B



       Performance OUTCOME: Maintain and strengthen an adaptable and effective U.S. export control and treaty
       compliance system (BIS)

                                                            Performance OUTCOME RESOURCES
                                                                   (Dollars in Millions)
                                  FY 2002         FY 2003       FY 2004             FY 2005      FY 2006         FY 2007           FY 2008   FY 2009
                                  Actual          Actual        Actual              Actual       Actual          Actual            Actual    Actual
       Total Funding               $58.7            $68.4            $67.7           $71.3           $73.0        $70.4             $66.1     $73.9
       FTE                          328              336              335             330             309          324               308       290


                                                               BIS Performance measure
                                   MEASURE: Percent of licenses requiring interagency referral referred within 9 days
         Year          Status                                Actual                                                        Target
        FY 2009          Met                                   98%                                                          95%
        FY 2008          Met                                   98%                                                          95%
        FY 2007          Met                                   98%                                                          95%
        FY 2006          Met                                   98%                                                          95%


                                                               BIS Performance measure
                                            MEASURE: Median processing time for new regime regulations (months)
         Year          Status                                Actual                                                        Target
        FY 2009        Exceeded                                2.0                                                          3.0
        FY 2008        Exceeded                                2.0                                                          3.0
        FY 2007        Exceeded                                2.0                                                          3.0
        FY 2006          Met                                   2.5                                                          3.0
        FY 2005        Exceeded                                1.0                                                          3.0
        FY 2004        Exceeded                                2.0                                                          3.0
        FY 2003        Not Met                                 7.0                                                          3.0


                                                               BIS Performance measure
                                                    MEASURE: Percent of attendees rating seminars highly
         Year          Status                                Actual                                                        Target
        FY 2009          Met                                   93%                                                          85%
        FY 2008          Met                                   93%                                                          85%
        FY 2007          Met                                   90%                                                          85%
        FY 2006          Met                                   90%                                                          85%




 278                                                   F Y   2 0 0 9         P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                               A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                        BIS Performance measure
   MEASURE: Percent of declarations received from U.S. industry in accordance with CWC regulations (time lines) that are processed,
             certified, and submitted to the State Department in time so the United States can meet its treaty obligations
   Year           Status                              Actual                                                 Target
 FY 2009            Met                                100%                                                   100%
 FY 2008            Met                                100%                                                   100%
 FY 2007            Met                                100%                                                   100%
 FY 2006            Met                                100%                                                   100%


                                                        BIS Performance measure
                MEASURE: Number of actions that result in a deterrence or prevention of a violation and cases which result in a
                                                  criminal and/or administrative charge
   Year           Status                              Actual                                                 Target
 FY 2009            Met                                 876                                                    850
 FY 2008         Exceeded                               881                                                    675
 FY 2007         Exceeded                               930                                                    450
 FY 2006         Exceeded                               872                                                    350
 FY 2005         Exceeded                               583                                                    275
 FY 2004            Met                                 310                                                    250
 FY 2003         Exceeded                               250                                                    85
 FY 2002            Met                                  82                                                    75


                                                        BIS Performance measure
                       MEASURE: Percent of shipped transactions in compliance with the licensing requirements of the
                                                Export Administration Regulations (EAR)
   Year           Status                              Actual                                                 Target
 FY 2009            Met                                 96%                                                   95%
 FY 2008            Met                                 87%                                                   87%


                                                        BIS Performance measure
          MEASURE: Percentage of post-shipment verifications completed and categorized above the “unfavorable” classification
   Year           Status                              Actual                                                 Target
 FY 2009            Met                             314PSVs/88%                                           260 PSVs/85%
 FY 2008            Met                             136 PSVs/93%                                          215 PSVs/80%




F Y   2 0 0 9     P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                      279
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




       Performance OUTCOME: Integrate non-U.S. actors to create a more effective global export control and treaty
       compliance system (BIS)

                                                                  Performance OUTCOME RESOURCES
                                                                         (Dollars in Millions)
                                     FY 2002           FY 2003          FY 2004            FY 2005          FY 2006          FY 2007            FY 2008          FY 2009
                                     Actual            Actual           Actual             Actual           Actual           Actual             Actual           Actual
        Total Funding                  $1.8              $4.4                $2.7            $1.8             $2.8              $4.6             $5.1              $5.1
        FTE                             13                13                  13              13               13                12               11                10


                                                                       BIS Performance measure
                                                           MEASURE: Number of end-use checks completed1
           Year          Status                                      Actual                                                             Target
         FY 2009         Not Met                                       737                                                                850
         FY 2008         Not Met                                       490                                                                850
         FY 2007           Met                                         854                                                                850
         FY 2006        Exceeded                                       942                                                                700
        1	 Prior
              to FY 2007, this measure was under the outcome “Eliminate illicit export activity outside the global export control and treaty compliance,” which was
         discontinued in FY 2007.


       Performance OUTCOME: Ensure continued U.S. technology leadership in industries that are essential to national
       security (BIS)

                                                                  Performance OUTCOME RESOURCES
                                                                         (Dollars in Millions)
                                     FY 2002           FY 2003          FY 2004            FY 2005          FY 2006          FY 2007            FY 2008          FY 2009
                                     Actual            Actual           Actual             Actual           Actual           Actual             Actual           Actual
        Total Funding                  $4.1              $4.0                $3.5            $3.7             $6.3              $5.9             $5.1              $5.6
        FTE                             17                17                  17              17               31                30               26                26


                                                                       BIS Performance measure
                       MEASURE: Percent of industry assessments resulting in BIS determination, within three months of completion,
                                                         on whether to revise export controls
           Year          Status                                      Actual                                                             Target
         FY 2009           Met                                        100%                                                               100%
         FY 2008           Met                                        100%                                                               100%
         FY 2007           Met                                        100%                                                               100%
         FY 2006           N/A                                        N/A1                                                               100%
        1	 Noassessments fell within the metric timeframe in FY 2006. BIS completed two industry assessments late in the fourth quarter of FY 2006, thus not meeting the
         three month window (before the end of the fiscal year) to make a final determination on revising export controls. This was the first year this measure was in place.
         Industry assessment data will be available in subsequent fiscal years.




 280                                                        F Y   2 0 0 9           P E R F O R M A N C E       A N D     A C C O U N T A B I L I T Y           R E P O R T
                                                                        A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




strategic O bjective 1 . 3
Advance key economic and demographic data that support effective decision-making of policymakers,
businesses, and the American public
                                                                 OBJECTIVE 1.3 RESOURCES
                                                                    (Dollars in Millions)
                              FY 2002           FY 2003          FY 2004          FY 2005           FY 2006          FY 2007            FY 2008         FY 2009
                              Actual            Actual           Actual           Actual            Actual           Actual             Actual          Actual
 Total Funding                 $866.2            $920.9          $1,008.7          $1,097.9         $1,164.5         $1,261.5           $1,709.4        $3,588.0
 FTE                           8,908             8,223            8,563             8,976            9,321            8,954              9,576           26,767


Performance OUTCOME: Provide benchmark measures of the U.S. population, economy, and governments
(ESA/CENSUS)

                                                          Performance OUTCOME RESOURCES1
                                                                 (Dollars in Millions)
                              FY 2002           FY 2003          FY 2004          FY 2005           FY 2006          FY 2007            FY 2008         FY 2009
                              Actual            Actual           Actual           Actual            Actual           Actual             Actual          Actual
 Total Funding2                $799.5            $846.9           $314.5           $340.5            $373.5           $468.7             $917.9         $2,773.4
 FTE                           8,420             7,729            8,038            8,433             8,778            8,418              3,072           20,007
 1	 In FY 2008, Census split the outcome, “Meet the needs of policymakers, businesses, non-profit organizations, and the public for current and benchmark measures

    of the U.S. population, economy and governments,” into this outcome and performance outcome, “Provide current measures of the U.S. population, economy, and
    governments.” Funds for the years prior to FY 2004 are shown in this outcome and reflect both outcomes. FTE for years prior to FY 2008 are shown in this outcome
    and reflect both outcomes.
 2	 Total obligations for performance outcome excludes the Working Capital Fund obligations financed by other Census Bureau funds and are already reflected in the

    results for the other funds and reimbursable obligations.


                                                          ESA/Census Performance measure
     MEASURE: Correct street features in TIGER (geographic) database (number of counties completed) to more effectively support:
    Census Bureau censuses and surveys, facilitate the geographic partnerships between federal, state, local and tribal governments,
                          and support the E-Government initiative in the President’s Management Agenda
   Year            Status                                    Actual                                                             Target
                                                                                                      Complete updates to eligible counties in the United States,
  FY 2009           Met                                     Completed
                                                                                                                  Puerto Rico, and Island Areas
  FY 2008           Met                                        320                                                                320
  FY 2007           Met                                        737                                                                690
  FY 2006           Met                                        700                                                                700
  FY 2005           Met                                        623                                                                610
  FY 2004           Met                                        602                                                                600
  FY 2003           Met                                        250                                                                250
  FY 2002           Met           Prepared plan and systems to measure housing unit coverage         Prepare plan and systems to measure housing unit coverage




F Y   2 0 0 9     P E R F O R M A N C E           A N D     A C C O U N T A B I L I T Y          R E P O R T
                                                                                                                                                                       281
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                                        ESA/Census Performance measure
                 MEASURE: Complete key activities for cyclical census programs on time to support effective decision-making by policymakers,
                                       businesses, and the public and meet constitutional and legislative mandates
              Year           Status                                        Actual                                                         Target
             FY 2009           Met                   At least 90% of key prep activities completed on time         At least 90% of key prep activities completed on time
             FY 2008         Not Met          Some of the planned dress rehearsal activities were cancelled        At least 90% of key prep activities completed on time
             FY 2007           Met                      >90% of key prep activities completed on time              At least 90% of key prep activities completed on time
             FY 2006           Met                           100% of activities completed on time                  At least 90% of key prep activities completed on time
             FY 2005           Met                               Activities completed on time                              Various activities with different dates


                                                                        ESA/Census Performance measure
                       MEASURE: Meet or exceed the overall federal score of customer satisfaction on the E-Government American Customer
                                                                   Satisfaction Index (ACSI)1
              Year           Status                                        Actual                                                         Target
             FY 2009         Not Met                                         68.0                                                           75.2
             FY 2008         Not Met                                         66.0                                                           73.9
             FY 2007           Met                                           74.0                                                           71.0
             FY 2006           Met                                           72.0                                                           71.3
             FY 2005           Met                                           73.0                                                           73.0
             FY 2004      Slightly Below                                     71.0                                                           72.0
            1	 This measure applies to the second outcome as well, “Provide current measures of the U.S. population, economy, and governments.”




       Performance OUTCOME: Provide current measures of the U.S. population, economy, and governments
       (ESA/CENSUS)*

                                                                        Performance OUTCOME RESOURCES1
                                                                               (Dollars in Millions)
                                           FY 2002           FY 2003           FY 2004          FY 2005       FY 2006          FY 2007             FY 2008           FY 2009
                                           Actual            Actual            Actual           Actual        Actual           Actual              Actual            Actual
            Total Funding                   N/A                 N/A             $615.6              $673.1     $705.4           $705.8             $703.1             $715.9
            FTE                             N/A                 N/A              N/A                 N/A        N/A              N/A               5,979              6,231
            1	 In FY 2008, Census split the outcome, “Meet the needs of policymakers, businesses, non-profit organizations, and the public for current and benchmark measures

             of the U.S. population, economy, and governments,” into this outcome and performance outcome, “Provide benchmark measures of the U.S. population, economy,
             and governments.” Funds for the years prior to FY 2008 are shown in the previous outcome and reflect both outcomes.




       *	    In FY 2008, Census split the outcome, “Meet the needs of policymakers, businesses, non-profit organizations, and the public for current and benchmark measures of
             the U.S. population, economy, and governments,” into this outcome and performance outcome“Provide benchmark measures of the U.S. population, economy, and
             governments.”




 282                                                               F Y   2 0 0 9      P E R F O R M A N C E      A N D     A C C O U N T A B I L I T Y               R E P O R T
                                                                     A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                     ESA/Census Performance measure
  MEASURE: Achieve pre-determined collection rates for Census Bureau censuses and surveys in order to provide statistically reliable
                      data to support effective decision-making of policymakers, businesses, and the public
   Year         Status                                  Actual                                                       Target
                                                                                             At least 90% of key censuses and surveys meet/exceed
 FY 2009          Met                               Met percentages
                                                                                                        collection rates/levels of reliability
                                                                                             At least 90% of key censuses and surveys meet/exceed
 FY 2008          Met                               Met percentages
                                                                                                        collection rates/levels of reliability
                                                                                             At least 90% of key censuses and surveys meet/exceed
 FY 2007          Met                               Met percentages
                                                                                                        collection rates/levels of reliability
                                                                                             At least 90% of key censuses and surveys meet/exceed
 FY 2006          Met                               Met percentages
                                                                                                        collection rates/levels of reliability
 FY 2005          Met                               Met percentages                                       Various %s – see FY 2006 APP
 FY 2004          Met                               Met percentages                                       Various %s – see FY 2005 APP
 FY 2003          Met                               Met percentages                                       Various %s – see FY 2004 APP


                                                     ESA/Census Performance measure
                        MEASURE: Release data products for key Census Bureau programs on time to support effective
                                      decision-making of policymakers, businesses, and the public
   Year         Status                                  Actual                                                       Target
                              1)	 100% of Economic Indicators released on time            3)	 100% of Economic Indicators released on time
 FY 2009          Met         2)	 At least 90% of other key censuses and surveys data     4)	 At least 90% of other key censuses and surveys data
                                  released on time                                            released on time
                              1)	 100% of Economic Indicators released on time            1)	 100% of Economic Indicators released on time
 FY 2008          Met         2)	 At least 90% of other key censuses and surveys data     2)	 At least 90% of other key censuses and surveys data
                                  released on time                                            released on time
                              1)	 100% of Economic Indicators released on time            1)	 100% of Economic Indicators released on time
 FY 2007          Met         2)	 At least 90% of other key censuses and surveys data     2)	 At least 90% of other key censuses and surveys data
                                  released on time                                            released on time
                                                                                          1)	 100% of Economic Indicators released on time
                              1)	 100% of Economic Indicators
 FY 2006          Met                                                                     2)	 At least 90% of other key censuses and surveys data
                              2)	 100% of other products
                                                                                              released on time
 FY 2005          Met                                  22 products                                                 22 products
 FY 2004        Exceeded                               10 products                                                 7 products
 FY 2003        Not Met                                2 products                                                  3 products




F Y   2 0 0 9   P E R F O R M A N C E        A N D     A C C O U N T A B I L I T Y      R E P O R T
                                                                                                                                                    283
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




       Performance OUTCOME: Provide timely, relevant, and accurate economic statistics (ESA/BEA)

                                                                  Performance OUTCOME RESOURCES
                                                                         (Dollars in Millions)
                                       FY 2002         FY 2003           FY 2004             FY 2005        FY 2006           FY 2007             FY 2008        FY 2009
                                       Actual          Actual            Actual              Actual         Actual            Actual              Actual         Actual
       Total Funding                    $66.7            $74.0                $78.6           $84.1           $85.6            $87.0               $88.4           $98.7
       FTE                               488              494                  525             543             543              536                 525             529


                                                                    ESA/BEA Performance measure
                           MEASURE: Timeliness: Reliability of delivery of economic data (number of scheduled releases issued on time)
          Year            Status                                     Actual                                                             Target
        FY 2009       Slightly Below                                 56 of 57                                                           57 of 57
        FY 2008             Met                                      57 of 581                                                          58 of 58
        FY 2007             Met                                      54 of 54                                                           54 of 54
        FY 2006             Met                                      54 of 54                                                           54 of 54
        FY 2005             Met                                      54 of 54                                                           54 of 54
        FY 2004             Met                                      54 of 54                                                           54 of 54
        FY 2003             Met                                      48 of 48                                                           48 of 48
        FY 2002             Met                                      50 of 50                                                           50 of 50
        1	 In FY 2008, the Annual Industry Accounts statistical release was rescheduled from December 13, 2007 to January 29, 2008, in order to include important information

         from the Census 2006 Annual Survey of Manufactures (ASM). By delaying this release, BEA was able to provide a better product for BEA’s data users, so this
         measure is considered “Met.”


                                                                    ESA/BEA Performance measure
                       MEASURE: Relevance: Customer satisfaction with quality of products and services (mean rating on a 5-point scale)
          Year            Status                                     Actual                                                             Target
        FY 2009             Met                                         4.2                                                               > 4.0
        FY 2008             Met                                         4.2                                                               > 4.0
        FY 2007             Met                                         4.3                                                               > 4.0
        FY 2006             Met                                         4.2                                                               > 4.0
        FY 2005             Met                                         4.4                                                               > 4.0
        FY 2004             Met                                         4.3                                                               > 4.0
        FY 2003             Met                                         4.4                                                               > 4.0
        FY 2002             Met                                         4.3                                                               > 4.0




 284                                                         F Y   2 0 0 9            P E R F O R M A N C E     A N D     A C C O U N T A B I L I T Y           R E P O R T
                                                                     A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                          ESA/BEA Performance measure
                                               MEASURE: Accuracy: Percent of GDP estimates correct
   Year           Status                                   Actual                                                              Target
 FY 2009            Met                                      88%                                                               > 85%
 FY 2008            Met                                      94%                                                               > 85%
 FY 2007            Met                                      93%                                                               > 85%
 FY 2006            Met                                      96%                                                               > 85%
 FY 2005            Met                                      96%                                                               > 85%
 FY 2004            Met                                      88%                                                               > 84%
 FY 2003            Met                                      88%                                                               > 84%


                                                          ESA/BEA Performance measure
                                               MEASURE: Improving GDP and the economic accounts1
   Year           Status                                   Actual                                                              Target
                                Completed all major milestones related to improving the            Completion of strategic plan milestones
 FY 2009            Met
                                economic accounts
                                Completed all major milestones related to improving the            Completion of strategic plan milestones
 FY 2008            Met
                                economic accounts
                                Completed all major milestones related to improving the            Completion of strategic plan milestones
 FY 2007            Met
                                economic accounts
                                Completed all major milestones related to improving the            Completion of strategic plan milestones
 FY 2006            Met
                                economic accounts
                                Completed all major milestones related to improving the            Completion of strategic plan milestones
 FY 2005            Met
                                economic accounts
                                Completed all major milestones related to improving the            Completion of strategic plan milestones
 FY 2004            Met
                                economic accounts
                                Completed all major milestones related to improving the            Completion of strategic plan milestones
 FY 2003            Met
                                economic accounts
                                Developed new measures to address gaps and updated BEA’s           Develop new measures to address gaps and updated BEA’s
                                accounts; designed prototype of new quarterly survey of inter-     accounts; design prototype of new quarterly survey of interna-
 FY 2002            Met
                                national services; developed new pilot estimates that provide      tional services; develop new pilot estimates that provide better
                                better integration with other accounts                             integration with other accounts
 1	 The BEA Strategic Plan and a report card of completed milestones are available in “About BEA” on www.bea.gov.




F Y   2 0 0 9     P E R F O R M A N C E         A N D     A C C O U N T A B I L I T Y            R E P O R T
                                                                                                                                                                      285
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                                 ESA/BEA Performance measure
                                                         MEASURE: Meeting U.S. international obligations1
         Year           Status                                    Actual                                                          Target
                                       Completed all major milestones related to meeting international Completion of strategic plan milestones
        FY 2009           Met
                                       obligations
                                       Completed all major milestones related to meeting international Completion of strategic plan milestones
        FY 2008           Met
                                       obligations
                                       Completed all major milestones related to meeting international Completion of strategic plan milestones
        FY 2007           Met
                                       obligations
                                       Completed all major milestones related to meeting international Completion of strategic plan milestones
        FY 2006           Met
                                       obligations
                                       Completed all major milestones related to meeting international Completion of strategic plan milestones
        FY 2005           Met
                                       obligations
                                       Completed all major milestones related to meeting international Completion of strategic plan milestones
        FY 2004           Met
                                       obligations
                                       Completed all major milestones related to meeting international Completion of strategic plan milestones
        FY 2003           Met
                                       obligations
       1	 The BEA Strategic Plan and a report card of completed milestones are available in “About BEA” on www.bea.gov.




                                                                 ESA/BEA Performance measure
                                                          MEASURE: Measuring the knowledge economy1,2
         Year           Status                                    Actual                                                          Target
                                       Completed all major milestones related to meeting international Completion of strategic plan milestones
        FY 2009           Met
                                       obligations
                                       Completed all major milestones related to meeting international Completion of strategic plan milestones
        FY 2008           Met
                                       obligations
                                       Completed all major milestones related to meeting international Completion of strategic plan milestones
        FY 2007           Met
                                       obligations
                                       Completed all major milestones related to meeting international Completion of strategic plan milestones
        FY 2006           Met
                                       obligations
       1	 Prior to FY 2009, this measure was known as “Budget Related: Preparation of Innovation Accounts.”
       2 	The BEA Strategic Plan and a report card of completed milestones are available in “About BEA” on www.bea.gov.




 286                                                      F Y   2 0 0 9      P E R F O R M A N C E            A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                               A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




strategic O bjective 1 . 4
Position manufacturers to compete in a global economy
                                                                      OBJECTIVE 1.4 RESOURCES1
                                                                         (Dollars in Millions)
                                    FY 2002         FY 2003           FY 2004          FY 2005           FY 2006           FY 2007            FY 2008           FY 2009
                                    Actual          Actual            Actual           Actual            Actual            Actual             Actual            Actual
     Total Funding2                 $108.5            $111.3               $46.9        $102.7            $111.9             $107.3             $91.2            $112.6
     FTE                              89                89                  68            71                67                 67                68                70
     1	 There is only one outcome for this objective, so a separate Performance Outcome Resources table does not appear.
     2	 Performance actuals for this outcome lagged at least six months. Therefore, beginning with the FY 2005 PAR, NIST shifted to a format in which NIST reports actuals
      one year later. This data lag, coupled with the timeline for producing the PAR, precludes the reporting of actual FY 2009 data.


Performance OUTCOME: Increase the productivity, profitability, and competitiveness of manufacturers (NIST)*,**

                                                                    NIST Performance measure
          MEASURE: Number of clients served by Hollings Manufacturing Extension Partnership (MEP) centers receiving federal funding
       Year            Status                                     Actual                                                               Target
      FY 2009         Exceeded                          31,961 from FY 2008 funding                                         14,500 from FY 2008 funding
      FY 2008         Exceeded                          28,004 from FY 2007 funding                                         21,237 from FY 2007 funding
      FY 2007         Exceeded                          24,722 from FY 2006 funding                                         16,440 from FY 2006 funding
      FY 2006      Slightly Below                       16,448 from FY 2005 funding                                         16,640 from FY 2005 funding
      FY 2005         Exceeded                          16,090 from FY 2004 funding                                          6,517 from FY 2004 funding
      FY 2004            Met                            18,422 from FY 2003 funding                                         16,684 from FY 2003 funding
      FY 2003          Not Met                          18,748 from FY 2002 funding                                         21,543 from FY 2002 funding


                                                                    NIST Performance measure
                                  MEASURE: Increased sales attributed to Hollings MEP centers receiving federal funding
       Year            Status                                     Actual                                                               Target
      FY 2009         Exceeded                         $3,300M from FY 2008 funding                                         $630M from FY 2008 funding
      FY 2008         Exceeded                         $5,600M from FY 2007 funding                                         $762M from FY 2007 funding
      FY 2007         Exceeded                         $3,100M from FY 2006 funding                                         $591M from FY 2006 funding
      FY 2006         Exceeded                         $2,842M from FY 2005 funding                                         $591M from FY 2005 funding
      FY 2005         Exceeded                         $1,889M from FY 2004 funding                                         $228M from FY 2004 funding
      FY 2004         Exceeded                         $1,483M from FY 2003 funding                                         $522M from FY 2003 funding
      FY 2003         Exceeded                          $953M from FY 2002 funding                                          $728M from FY 2002 funding
      FY 2002          Not Met                          $636M from FY 2001 funding                                          $708M from FY 2001 funding




*	  Actuals for this performance outcome lagged at least six months. Therefore, beginning with the FY 2005 PAR, NIST shifted to a format in which they report actuals
    one year later (i.e., FY 2004 actuals are reflected in the FY 2005 PAR). This data lag, coupled with the timeline for producing the PAR, precludes the reporting of actual
    FY 2009 data. With the exception of the number of clients, the data reported in the current year PAR are an estimate based on three-quarters of actual client reported
    impacts and one quarter estimated client impacts.
**	 Prior to FY 2009, this outcome was known as “Raise the productivity and competitiveness of small manufacturers.”




F Y   2 0 0 9          P E R F O R M A N C E           A N D     A C C O U N T A B I L I T Y          R E P O R T
                                                                                                                                                                                 287
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                           NIST Performance measure
                              MEASURE: Capital investment attributed to Hollings MEP centers receiving federal funding
         Year       Status                                Actual                                                Target
        FY 2009    Exceeded                     $1,400M from FY 2008 funding                           $485M from FY 2008 funding
        FY 2008    Exceeded                     $2,190M from FY 2007 funding                           $955M from FY 2007 funding
        FY 2007    Exceeded                     $1,650M from FY 2006 funding                           $740M from FY 2006 funding
        FY 2006    Exceeded                     $2,248M from FY 2005 funding                           $740M from FY 2005 funding
        FY 2005    Exceeded                      $941M from FY 2004 funding                            $285M from FY 2004 funding
        FY 2004    Exceeded                      $912M from FY 2003 funding                            $559M from FY 2003 funding
        FY 2003       Met                        $940M from FY 2002 funding                            $910M from FY 2002 funding
        FY 2002     Not Met                      $680M from FY 2001 funding                            $913M from FY 2001 funding


                                                           NIST Performance measure
                                MEASURE: Cost savings attributed to Hollings MEP centers receiving federal funding
         Year       Status                                Actual                                                Target
        FY 2009    Exceeded                     $1,200M from FY 2008 funding                           $330M from FY 2008 funding
        FY 2008    Exceeded                     $1,440M from FY 2007 funding                           $521M from FY 2007 funding
        FY 2007    Exceeded                     $1,100M from FY 2006 funding                           $405M from FY 2006 funding
        FY 2006    Exceeded                     $1,304M from FY 2005 funding                           $405M from FY 2005 funding
        FY 2005    Exceeded                      $721M from FY 2004 funding                            $156M from FY 2004 funding
        FY 2004    Exceeded                      $586M from FY 2003 funding                            $353M from FY 2003 funding
        FY 2003    Exceeded                      $681M from FY 2002 funding                            $497M from FY 2002 funding
        FY 2002     Not Met                      $442M from FY 2001 funding                            $576M from FY 2001 funding




 288                                              F Y   2 0 0 9     P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                       A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




Strategic Goal 2
Promote U.S. innovation and industrial competitiveness
                                                          STRATEGIC GOAL 2 TOTAL RESOURCES1
                                                                  (Dollars in Millions)
                              FY 2002          FY 2003          FY 2004           FY 2005         FY 2006          FY 2007          FY 2008          FY 2009
                              Actual           Actual           Actual            Actual          Actual           Actual           Actual           Actual
 Total Funding                $2,000.7         $2,130.0          $2,100.9         $2,354.1        $2,607.6         $3,698.3         $3,701.2         $3,840.9
 FTE                           9,979            9,985             10,004           9,951           10,523           11,369           12,096           12,798
 1	 Prior year amounts differ from previous PARs because the Department and NIST shifted the outcome, “Raise the productivity and competitiveness of small

  manufacturers (NIST)” from Strategic Goal 2 to Strategic Goal 1 beginning in FY 2008.


strategic O bjective 2 . 1
Advance measurement science and standards that drive technological change
                                                                 OBJECTIVE 2.1 RESOURCES
                                                                    (Dollars in Millions)
                              FY 2002          FY 2003          FY 2004           FY 2005         FY 2006          FY 2007          FY 2008          FY 2009
                              Actual           Actual           Actual            Actual          Actual           Actual           Actual           Actual
 Total Funding                 $805.0           $841.5            $783.2           $775.8          $862.3           $783.7             $836.3         $894.4
 FTE                           3,142            3,153             3,041            2,867           2,829            2,824              2,866          2,912


Performance OUTCOME: Promote innovation, facilitate trade, and ensure public safety and security by strengthening
the Nation’s measurement and standards infrastructure (NIST)

                                                          Performance OUTCOME RESOURCES
                                                                 (Dollars in Millions)
                              FY 2002          FY 2003          FY 2004           FY 2005         FY 2006          FY 2007          FY 2008          FY 2009
                              Actual           Actual           Actual            Actual          Actual           Actual           Actual           Actual
 Total Funding                 $579.2           $614.1            $576.8           $621.6          $762.4           $662.4             $759.3         $812.3
 FTE                           2,707            2,725             2,672            2,503           2,550            2,566              2,673          2,721


                                                              NIST Performance measure
                          MEASURE: Qualitative assessment and review of technical quality and merit using peer review
   Year           Status                                     Actual                                                           Target
  FY 2009           Met                                    Completed                                              Complete annual peer review
  FY 2008           Met                                    Completed                                              Complete annual peer review
  FY 2007           Met                                    Completed                                              Complete annual peer review
  FY 2006           Met                                    Completed                                              Complete annual peer review
  FY 2005           Met                                    Completed                                              Complete annual peer review
  FY 2004           Met                                    Completed                                              Complete annual peer review
  FY 2003           Met                                    Completed                                              Complete annual peer review
  FY 2002           Met                                    Completed                                              Complete annual peer review




F Y   2 0 0 9     P E R F O R M A N C E          A N D     A C C O U N T A B I L I T Y         R E P O R T
                                                                                                                                                                289
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                                       NIST Performance measure
                                                        MEASURE: Citation impact of NIST-authored publications
         Year            Status                                      Actual                                                  Target
        FY 2009            Met                                         > 1.11                                                 > 1.1
        FY 2008            Met                                         > 1.1                                                  > 1.1
        FY 2007            Met                                         >1.1                                                   >1.1
       1	 Actual for this measure lags nine months.   The actual shown here is based on FY 2008 data.


                                                                       NIST Performance measure
                                                       MEASURE: Peer-reviewed technical publications produced
         Year            Status                                      Actual                                                  Target
        FY 2009            Met                                         1,463                                                  1,275
        FY 2008            Met                                         1,271                                                  1,100
        FY 2007            Met                                         1,272                                                  1,100
        FY 2006            Met                                         1,163                                                  1,100
        FY 2005            Met                                         1,148                                                  1,100
        FY 2004          Not Met                                       1,070                                                  1,300


                                                                       NIST Performance measure
                                                           MEASURE: Standard Reference Materials (SRM) sold
         Year            Status                                      Actual                                                  Target
        FY 2009      Slightly Below                                   29,769                                                 31,000
        FY 2008            Met                                        33,373                                                 31,000
        FY 2007            Met                                        32,614                                                 30,000
        FY 2006            Met                                        31,195                                                 30,000
        FY 2005            Met                                        32,163                                                 29,500
        FY 2004            Met                                        30,490                                                 29,500


                                                                       NIST Performance measure
                                                            MEASURE: NIST-maintained datasets downloaded
         Year            Status                                      Actual                                                  Target
        FY 2009            Met                                      226,000,000                                            200,000,000
        FY 2008         Exceeded                                    195,500,000                                            130,000,000
        FY 2007         Exceeded                                    130,000,000                                             80,000,000
        FY 2006            Met                                      94,371,001                                              80,000,000
        FY 2005            Met                                      93,305,136                                              80,000,000
        FY 2004         Exceeded                                    73,601,352                                              56,000,000




 290                                                          F Y   2 0 0 9       P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                 A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                      NIST Performance measure
                                             MEASURE: Number of calibration tests performed
   Year          Status                             Actual                                                 Target
 FY 2009           Met                               18,609                                                15,000
 FY 2008         Exceeded                            25,944                                                12,000
 FY 2007         Exceeded                            27,489                                                12,000


Performance OUTCOME: Promote U.S. competitiveness by directing federal investment and R&D into areas of
critical national need that support, promote, and accelerate high-risk, high-reward research and innovation in the
United States (NIST)

                                                   Performance OUTCOME RESOURCES
                                                          (Dollars in Millions)
                            FY 2002      FY 2003        FY 2004         FY 2005      FY 2006     FY 2007         FY 2008     FY 2009
                            Actual       Actual         Actual          Actual       Actual      Actual          Actual      Actual
 Total Funding               N/A          N/A              N/A            N/A         N/A          N/A               $54.5    $50.2
 FTE                         N/A          N/A              N/A            N/A         N/A          N/A                71       72


                                                      NIST Performance measure
                                          MEASURE: Cumulative number of TIP projects funded
   Year          Status                             Actual                                                 Target
 FY 2009           Met                                 9                                                     9


Performance OUTCOME: Increase public access to worldwide scientific and technical information through improved
acquisition and dissemination activities (NTIS)

                                                   Performance OUTCOME RESOURCES
                                                          (Dollars in Millions)
                            FY 2002      FY 2003        FY 2004         FY 2005      FY 2006     FY 2007         FY 2008     FY 2009
                            Actual       Actual         Actual          Actual       Actual      Actual          Actual      Actual
 Total Funding               $27.7        $27.7            $19.2         $15.9        $27.2       $27.9              $22.5    $31.9
 FTE                          186          181              165           157          144         131                122      119


                                                      NTIS Performance measure
                                          MEASURE: Number of updated items available (annual)
   Year          Status                             Actual                                                 Target
 FY 2009           Met                               893,138                                               745,000
 FY 2008           Met                               813,775                                               725,000
 FY 2007           Met                               744,322                                               665,000
 FY 2006           Met                               673,807                                               660,000
 FY 2005           Met                               658,138                                               530,000
 FY 2004           Met                               553,235                                               525,000
 FY 2003           Met                               530,910                                               520,000
 FY 2002           Met                               514,129                                               510,000




F Y   2 0 0 9    P E R F O R M A N C E    A N D     A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                       291
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                              NTIS Performance measure
                                              MEASURE: Number of information products disseminated (annual)
          Year          Status                               Actual                                                     Target
        FY 2009         Exceeded                            49,430,840                                                 32,850,000
        FY 2008           Met                               32,267,167                                                 32,100,000
        FY 2007           Met                               32,027,113                                                 27,100,000
        FY 2006           Met                               30,616,338                                                 27,000,000
        FY 2005           Met                               26,772,015                                                 25,800,000
        FY 2004         Exceeded                            25,476,424                                                 18,000,000
        FY 2003         Exceeded                            29,134,050                                                 17,000,000
        FY 2002           Met                               16,074,862                                                 16,000,000


                                                              NTIS Performance measure
                                                              MEASURE: Customer satisfaction
          Year          Status                               Actual                                                     Target
        FY 2009           Met                                 98%                                                       95-98%
        FY 2008           Met                                 96%                                                       95-98%
        FY 2007           Met                                 98%                                                       95-98%
        FY 2006           Met                                 98%                                                       95-98%
        FY 2005           Met                                 98%                                                        98%
        FY 2004    Slightly Below                             96%                                                        98%
        FY 2003    Slightly Below                             97%                                                        98%
        FY 2002           Met                                 98%                                                        97%

       The Department discontinued the following outcome (and its corresponding measures) in FY 2007. However, since the funding
       amounts factor into the total for this objective and strategic goal, this PAR shows those amounts for informational purposes.
       Measures and targets for previous years appear in the FY 2007 PAR.


       Performance OUTCOME: Accelerate private investment in and development of high-risk, broad-impact technologies
       (NIST)

                                                           Performance OUTCOME RESOURCES
                                                                  (Dollars in Millions)
                                    FY 2002      FY 2003        FY 2004         FY 2005      FY 2006         FY 2007           FY 2008    FY 2009
                                    Actual       Actual         Actual          Actual       Actual          Actual            Actual     Actual
        Total Funding               $198.1        $199.7         $187.2          $138.3          $72.7        $93.4                 N/A     N/A
        FTE                          249           247            204             207             135          127                  N/A     N/A




 292                                                  F Y   2 0 0 9      P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




strategic O bjective 2 . 2
Protect intellectual property and improve the patent and trademark system
                                                          OBJECTIVE 2.2 RESOURCES
                                                             (Dollars in Millions)
                               FY 2002    FY 2003        FY 2004       FY 2005        FY 2006     FY 2007          FY 2008       FY 2009
                               Actual     Actual         Actual        Actual         Actual      Actual           Actual        Actual
 Total Funding                 $1,099.5   $1,190.9        $1,233.3      $1,508.4      $1,674.4     $1,766.4           $1,852.5   $1,862.5
 FTE                            6,593      6,581           6,694         6,825         7,446        8,291              8,962      9,595


Performance OUTCOME: Optimize patent quality and timeliness (USPTO)

                                                     Performance OUTCOME RESOURCES
                                                            (Dollars in Millions)
                               FY 2002    FY 2003        FY 2004       FY 2005        FY 2006     FY 2007          FY 2008       FY 2009
                               Actual     Actual         Actual        Actual         Actual      Actual           Actual        Actual
 Total Funding                 $976.6     $1,019.6        $1,059.3      $1,245.8      $1,347.9     $1,506.8           1,616.1    $1,633.4
 FTE                           5,720       5,815           5,899         6,021         5,994        7,073              7,934      8,564


                                                       USPTO Performance measure
                                                MEASURE: Patent allowance compliance rate
   Year            Status                             Actual                                                  Target
 FY 2009            Met                                96.9%                                                  96.5%
 FY 2008            Met                                96.3%                                                  96.0%
 FY 2007            Met                                96.5%                                                  96.0%
 FY 2006            Met                                96.5%                                                  96.0%
                  Improved
 FY 2005         But Not Met                           95.4%                                                  96.0%

 FY 2004          Not Met                              94.7%                                                  96.0%
 FY 2003          Not Met                              95.6%                                                  96.0%
 FY 2002            Met                                95.8%                                                  95.0%


                                                       USPTO Performance measure
                                          MEASURE: Patent in-process examination compliance rate
   Year            Status                             Actual                                                  Target
 FY 2009            Met                                93.2%                                                  93.0%
 FY 2008            Met                                92.5%                                                  92.0%
 FY 2007            Met                                92.2%                                                  90.0%
 FY 2006            Met                                90.0%                                                  86.0%
 FY 2005            Met                                86.2%                                                  84.0%




F Y   2 0 0 9     P E R F O R M A N C E     A N D     A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                            293
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                   USPTO Performance measure
                                         MEASURE: Patent average first action pendency (months)
         Year        Status                        Actual                                                  Target
        FY 2009        Met                           25.8                                                   27.5
        FY 2008        Met                           25.6                                                   26.9
        FY 2007      Not Met                         25.3                                                   23.7
        FY 2006   Slightly Below                     22.6                                                   22.0
        FY 2005        Met                           21.1                                                   21.3
        FY 2004        Met                           20.2                                                   20.2
        FY 2003        Met                           18.3                                                   18.4
        FY 2002      Not Met                         16.7                                                   14.7


                                                   USPTO Performance measure
                                            MEASURE: Patent average total pendency (months)
         Year        Status                        Actual                                                  Target
        FY 2009        Met                           34.6                                                   37.9
        FY 2008        Met                           32.2                                                   34.7
        FY 2007        Met                           31.9                                                   33.0
        FY 2006        Met                           31.1                                                   31.3
        FY 2005        Met                           29.1                                                   31.0
        FY 2004        Met                           27.6                                                   29.8
        FY 2003        Met                           26.7                                                   27.7
        FY 2002        Met                           24.0                                                   26.5


                                                   USPTO Performance measure
                                            MEASURE: Patent applications filed electronically
         Year        Status                        Actual                                                  Target
        FY 2009        Met                          82.5%                                                  80.0%
        FY 2008        Met                          71.7%                                                  69.0%
        FY 2007        Met                          49.3%                                                  40.0%
        FY 2006     Exceeded                        14.2%                                                  10.0%
                    Improved
        FY 2005    But Not Met                      2.2%                                                    4.0%

                    Improved
        FY 2004    But Not Met                      1.5%                                                    2.0%

        FY 2003      Not Met                        1.3%                                                    2.0%




 294                                         F Y   2 0 0 9   P E R F O R M A N C E   A N D      A C C O U N T A B I L I T Y   R E P O R T
                                                                       A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




Performance OUTCOME: Optimize trademark quality and timeliness (USPTO)

                                                           Performance OUTCOME RESOURCES
                                                                  (Dollars in Millions)
                              FY 2002          FY 2003           FY 2004          FY 2005          FY 2006          FY 2007             FY 2008        FY 2009
                              Actual           Actual            Actual           Actual           Actual           Actual              Actual         Actual
 Total Funding                    $122.9        $119.4            $112.0           $144.9           $149.6            $191.2              $190.7        $185.5
 FTE                               873           719               693              730              665               897                 887           892


                                                             USPTO Performance measure
                                                    MEASURE: Trademark first action compliance rate
   Year           Status                                     Actual                                                            Target
 FY 2009            Met                                       96.4%                                                             95.5%
 FY 2008            Met                                       95.8%                                                             95.5%
 FY 2007            Met                                       95.9%                                                             95.5%
 FY 2006            Met                                       95.7%                                                             93.5%
 FY 2005            Met                                       95.3%                                                             92.5%
 FY 2004            Met                                       92.1%                                                             91.7%


                                                             USPTO Performance measure
                                                         MEASURE: Trademark final compliance rate1
   Year           Status                                     Actual                                                            Target
 FY 2009            Met                                       97.6%                                                             97.0%
 1	 In FY 2009, USPTO replaced “Trademark final action compliance rate” with this measure, which is a more comprehensive measure of quality to include all actions

  that would result in an application being completed or disposed.


                                                             USPTO Performance measure
                                                  MEASURE: Trademark first action pendency (months)
   Year           Status                                     Actual                                                            Target
 FY 2009            Met                                        2.7                                                              2.5-3.5
 FY 2008            Met                                        3.0                                                              2.5-3.5
 FY 2007            Met                                        2.9                                                               3.7
 FY 2006            Met                                        4.8                                                               5.3
 FY 2005            Met                                        6.3                                                               6.4
 FY 2004          Not Met                                      6.6                                                               5.4
 FY 2003          Not Met                                      5.4                                                               3.0
 FY 2002          Not Met                                      4.3                                                               3.0


                                                             USPTO Performance measure
                  MEASURE: Trademark average total pendency excluding suspended and inter partes proceedings (months)1
   Year           Status                                     Actual                                                            Target
 FY 2009            Met                                        11.2                                                              13.0
 FY 2008            Met                                        11.8                                                              14.3
 1	 In FY 2009, USPTO replaced “Trademark average total pendency (months)” with this measure, which is a better indicator of the amount of time it takes to dispose

  of the trademark application.




F Y   2 0 0 9     P E R F O R M A N C E          A N D      A C C O U N T A B I L I T Y          R E P O R T
                                                                                                                                                                      295
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                                        USPTO Performance measure
                                                        MEASURE: Trademark applications processed electronically1
              Year           Status                                     Actual                                                            Target
            FY 2009            Met                                       62.0%                                                             62.0%
            1	 In FY 2009, USPTO replaced “Trademark applications filed electronically” with this measure, which better shows the rate at which applications that are disposed

             (abandoned or registered) are processed using automated system and transactions.


       Performance OUTCOME: Improve intellectual property and enforcement domestically and abroad (USPTO)*

                                                                     Performance OUTCOME RESOURCES
                                                                            (Dollars in Millions)
                                         FY 2002          FY 2003           FY 2004           FY 2005         FY 2006          FY 2007           FY 2008          FY 2009
                                         Actual           Actual            Actual            Actual          Actual           Actual            Actual           Actual
            Total Funding                  N/A              $51.9              $62.0           $117.7          $176.9            $68.4             $45.7            $43.6
            FTE                            N/A               47                 102              74             787               321               141              139


                                                                        USPTO Performance measure
            MEASURE: Percentage of countries on the USTR 301 list, awaiting World Trade Organization (WTO) accession, or targeted by the Office
             of Intellectual Property Policy and Enforcement (OIPPE) for improvements that have positively amended or improved their IP systems
              Year           Status                                     Actual                                                            Target
            FY 2009         Exceeded                                     54.0%                                                             40.0%
            FY 2008         Exceeded                                     74.0%                                                             35.0%
            FY 2007            Met                                       32.0%                                                             30.0%
            FY 2006          Not Met                                     26.0%                                                             50.0%
            FY 2005            Met                                       53.0%                                                             50.0%


                                                                        USPTO Performance measure
                          MEASURE: Number of countries that implement at least 75% of action steps which improve IP protections in the
                                                          joint cooperation, action, or work plans
              Year           Status                                     Actual                                                            Target
            FY 2009         Exceeded                                       5                                                                 4




       *	    In FY 2009, USPTO replaced the following three measures with the second measure listed: “Number of instances in which External Affairs (EA) experts review
             intellectual property (IP) policies/standards”; Improving worldwide IP expertise for U.S. government interests”; and “Number of Memoranda of Agreement for IP
             joint cooperation, plans of actions, mechanisms, and support programs initiated or implemented by developing countries as a result of the Office of Intellectual
             Property Policy and Enforcement (OIPPE).”




 296                                                            F Y   2 0 0 9          P E R F O R M A N C E      A N D     A C C O U N T A B I L I T Y          R E P O R T
                                                                          A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




strategic O bjective 2 . 3
Advance global e-commerce as well as telecommunications and information services
                                                                   OBJECTIVE 2.3 RESOURCES
                                                                      (Dollars in Millions)
                               FY 2002          FY 2003           FY 2004            FY 2005         FY 2006      FY 2007            FY 2008    FY 2009
                               Actual           Actual            Actual             Actual          Actual       Actual1            Actual     Actual
 Total Funding                  $96.2             $97.6               $84.4           $69.9               $70.9   $1,148.2           $1,012.4   $1,084.0
 FTE                             244               251                 269             259                 250      254                262        291
 1	 In FY 2007, $1,070.3 was provided to the newly formed Digital Television and Public Safety Program.




Performance OUTCOME: Ensure that the allocation of radio spectrum provides the greatest benefit to all people (NTIA)

                                                           Performance OUTCOME RESOURCES
                                                                  (Dollars in Millions)
                               FY 2002          FY 2003           FY 2004            FY 2005         FY 2006      FY 2007            FY 2008    FY 2009
                               Actual           Actual            Actual             Actual          Actual       Actual             Actual     Actual
 Total Funding                  $23.4             $24.5               $28.5           $30.4               $36.8    $38.9               $35.8     $37.3
 FTE                             141               147                 159             169                 164      165                 168       172


                                                                NTIA Performance measure
                                                MEASURE: Frequency assignment processing time (days)1
   Year            Status                                     Actual                                                          Target
  FY 2009            Met                                          9                                                          9 or fewer
  FY 2008            Met                                          9                                                          9 or fewer
  FY 2007            Met                                          9                                                          9 or fewer
  FY 2006            Met                                          9                                                          9 or fewer
  FY 2005            Met                                         10                                                             12
  FY 2004            Met                                        <12                                                             12
  FY 2003            Met                                         15                                                             15
 1	 Prior to FY 2008, this measure was known as “Timeliness of processing (days).”




                                                                NTIA Performance measure
                                                MEASURE: Certification request processing time (months)
   Year            Status                                     Actual                                                          Target
  FY 2009            Met                                          2                                                          2 or fewer
  FY 2008            Met                                          2                                                          2 or fewer
  FY 2007            Met                                          4                                                          4 or fewer
  FY 2006            Met                                          4                                                          4 or fewer




F Y   2 0 0 9      P E R F O R M A N C E          A N D      A C C O U N T A B I L I T Y           R E P O R T
                                                                                                                                                           297
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                         NTIA Performance measure
                                        MEASURE: Space system coordination request processing time
         Year       Status                             Actual                                                   Target
        FY 2009       Met                                98%                                            90% in 14 days or fewer
        FY 2008       Met                                95%                                            90% in 14 days or fewer
        FY 2007       Met                                97%                                            80% in 14 days or fewer
        FY 2006       Met                                95%                                            80% in 14 days or fewer


                                                         NTIA Performance measure
                                           MEASURE: Spectrum plans and policies processing time
         Year       Status                             Actual                                                   Target
        FY 2009    Exceeded                            11 days                                        Comments in 15 days or fewer
        FY 2008       Met                             13.3 days                                       Comments in 15 days or fewer
        FY 2007    Exceeded                           13.3 days                                       Comments in 15 days or fewer
        FY 2006       Met                              13 days                                        Comments in 15 days or fewer


                                                         NTIA Performance measure
                   MEASURE: Milestones completed from the implementation plan of the President’s Spectrum Policy Initiative
         Year       Status                             Actual                                                   Target
        FY 2009       Met                           14 milestones                                            14 milestones
        FY 2008       Met                           22 milestones                                            22 milestones
        FY 2007       Met                       23 out of 29 milestones                                  23 out of 29 milestones
        FY 2006       Met                       18 out of 22 milestones                                  18 out of 22 milestones




 298                                           F Y   2 0 0 9        P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y      R E P O R T
                                                                      A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




Performance OUTCOME: Promote the availability, and support new sources, of advanced telecommunications and
information services (NTIA)

                                                         Performance OUTCOME RESOURCES
                                                                (Dollars in Millions)
                             FY 2002          FY 2003          FY 2004          FY 2005          FY 2006          FY 2007          FY 2008          FY 2009
                             Actual1          Actual1          Actual1          Actual           Actual           Actual           Actual           Actual
 Total Funding                 $72.8            $73.1            $55.9            $39.5            $34.1           $1,109.3            $976.6        $1,046.7
 FTE                            103              104              110              90               86                89                 94            119
 1	 Amounts for FYs 2002-2004 include those for the discontinued outcome “Increase competition within the telecommunications sector and promote universal access

  to telecommunications services for all Americans.”


                                                             NTIA Performance measure
  MEASURE: Support new telecom and information technology by advocating Administration views in number of FCC docket filings, and
                       Congressional and other proceedings in which Administration views are advocated
   Year           Status                                    Actual                                                            Target
  FY 2009        Exceeded                         12 dockets and proceedings                                       5 dockets and proceedings
  FY 2008        Exceeded                         11 dockets and proceedings                                       5 dockets and proceedings
  FY 2007        Exceeded                         8 dockets and proceedings                                        5 dockets and proceedings
  FY 2006        Exceeded                         12 dockets and proceedings                                       5 dockets and proceedings
  FY 2005           Met                           5 dockets and proceedings                                        5 dockets and proceedings


                                                             NTIA Performance measure
                                           measure: Number of Web site views for research publications
   Year           Status                                    Actual                                                            Target
  FY 2009           Met                                  75,000/month                                                     75,000/month
  FY 2008        Exceeded                                127,000/month                                                    75,000/month
  FY 2007        Exceeded                                105,000/month                                                    75,000/month
  FY 2006        Exceeded                                94,000/month                                                     75,000/month




F Y   2 0 0 9     P E R F O R M A N C E         A N D      A C C O U N T A B I L I T Y         R E P O R T
                                                                                                                                                                   299
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




       Strategic Goal 3
       Promote environmental stewardship
                                                                STRATEGIC GOAL 3 TOTAL RESOURCES
                                                                       (Dollars in Millions)
                                      FY 2002       FY 2003          FY 2004          FY 2005          FY 2006          FY 2007             FY 2008       FY 2009
                                      Actual        Actual           Actual           Actual           Actual           Actual              Actual        Actual
       Total Funding                  $3,398.4       $3,458.6         $3,802.0         $4,064.0         $4,306.5         $4,187.8           $4,234.4      $5,094.1
       FTE                             11,585         11,898           11,868           11,918           12,896           11,933             12,637        12,031


       strategic O bjective 3 . 1
       Protect, restore, and manage the use of coastal and ocean resources
                                                                      OBJECTIVE 3.1 RESOURCES
                                                                         (Dollars in Millions)
                                      FY 2002       FY 2003          FY 2004          FY 2005          FY 2006          FY 2007             FY 2008       FY 2009
                                      Actual        Actual           Actual           Actual           Actual           Actual              Actual        Actual
       Total Funding                  $1,334.2       $1,314.9         $1,268.5         $1,379.5         $1,363.2         $1,295.1           $1,354.1      $1,545.2
       FTE                             3,042          3,361            3,611            3,479            3,670            3,029              3,068         3,426

                                                                  NOAA Performance measure
                                                         MEASURE: Fish stock sustainability index (FSSI)1
         Year            Status                                   Actual                                                            Target
        FY 2009            Met                                     565.5                                                            548.5
        FY 2008            Met                                      535                                                             530.5
        FY 2007            Met                                      524                                                              505
        FY 2006                                                     501
        FY 2005                                                     481
        FY 2004                                                     456
       1	 NOAA only recently developed the FSSI and therefore did not have any targets prior to FY 2007. NOAA did, however, have data from which they could derive the

        FSSI index for FY 2004-FY 2006. 	    	




                                                                  NOAA Performance measure
                       MEASURE: Percentage of living marine resources (LMR) with adequate population assessments and forecasts
         Year            Status                                   Actual                                                            Target
        FY 2009            Met                                     43.7%                                                            42.1%
        FY 2008      Slightly Below                                40.2%                                                            41.1%
        FY 2007            Met                                     40.6%                                                            40.0%
        FY 2006         Not Met                                    38.8%                                                            41.3%




 300                                                      F Y   2 0 0 9      P E R F O R M A N C E         A N D     A C C O U N T A B I L I T Y         R E P O R T
                                                                         A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                             NOAA Performance measure
 MEASURE: Number of protected species designated as threatened, endangered, or depleted with stable or increasing population levels
   Year           Status                                    Actual                                                               Target
 FY 2009            Met                                        25                                                                  22
 FY 2008            Met                                        24                                                                  22
 FY 2007            Met                                        26                                                                  26
 FY 2006            Met                                        26                                                                  24


                                                             NOAA Performance measure
                                          MEASURE: Number of habitat acres restored (annual/cumulative)1
   Year           Status                                    Actual                                                               Target
 FY 2009            Met                                   9,232/58,974                                                         9,000/58,742
 FY 2008         Exceeded                                 11,254/49,742                                                        9,000/47,488
 FY 2007            Met                                   5,974/38,488                                                         5,000/37,514
 FY 2006         Exceeded                                 7,598/32,514                                                         4,500/29,416
 FY 2005         Exceeded                                 8,333/24,916                                                         4,500/21,083
 FY 2004         Exceeded                                 5,563/16,583                                                         3,700/14,780
 FY 2003         Exceeded                                 5,200/11,020                                                            2,829
 1	 Determination of whether target was met or exceeded is based on annual amount, since that is what was done in that year.




                                                             NOAA Performance measure
          MEASURE: Annual number of coastal, marine, and Great Lakes ecological characterizations that meet management needs
   Year           Status                                    Actual                                                               Target
 FY 2009            Met                                        50                                                                  50
 FY 2008            Met                                        45                                                                  45
 FY 2007            Met                                        27                                                                  27
 FY 2006            Met                                        62                                                                  53


                                                             NOAA Performance measure
                            MEASURE: Cumulative number of coastal, marine, and Great Lakes issue-based forecasting
                                              capabilities developed and used for management
   Year           Status                                    Actual                                                               Target
 FY 2009            Met                                        41                                                                  41
 FY 2008            Met                                        38                                                                  38
 FY 2007            Met                                        35                                                                  35
 FY 2006            Met                                        31                                                                  31




F Y   2 0 0 9     P E R F O R M A N C E          A N D     A C C O U N T A B I L I T Y          R E P O R T
                                                                                                                                              301
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                                  NOAA Performance measure
                      MEASURE: Percentage of tools, technologies, and information services that are used by NOAA partners/customers
                                                        to improve ecosystem-based management
          Year           Status                                  Actual                                                       Target
        FY 2009            Met                                     86%                                                         86%
        FY 2008            Met                                     86%                                                         86%
        FY 2007            Met                                     85%                                                         85%


                                                                  NOAA Performance measure
              MEASURE: Annual number of coastal, marine, and Great Lakes habitat acres acquired or designated for long-term protection
          Year           Status                                  Actual                                                       Target
        FY 2009            Met                                    2,2431                                                       2,000
        FY 2008         Exceeded                                  6,219                                                        2,000
        FY 2007         Exceeded                                  3,020                                                        2,000
        FY 2006         Exceeded                               > 86,000,0002                                                  200,137
       1	 Estimate.
       2	 The large FY 2006 actual reflects the new Northwest Hawaiian Islands Marine National Monument.




 302                                                     F Y   2 0 0 9         P E R F O R M A N C E       A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                     A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




strategic O bjective 3 . 2
Advance understanding of climate variability and change
                                                               OBJECTIVE 3.2 RESOURCES
                                                                  (Dollars in Millions)
                               FY 2002       FY 2003          FY 2004       FY 2005       FY 2006     FY 2007            FY 2008   FY 2009
                               Actual        Actual           Actual        Actual        Actual      Actual             Actual    Actual
 Total Funding                 $312.0        $347.5            $239.5        $256.9       $236.1      $244.5              $271.8    $443.2
 FTE                            785           625               603           599          665         457                 523       556

                                                           NOAA Performance measure
                MEASURE: U.S. temperature forecasts (cumulative skill score computed over the regions where predictions are made)
    Year             Status                                Actual                                                Target
  FY 2009           Exceeded                                 27.5                                                   20
  FY 2008           Exceeded                                 26                                                     19
  FY 2007           Exceeded                                 29                                                     19
  FY 2006           Exceeded                                 25                                                     18
  FY 2005              Met                                   19                                                     18
  FY 2004            Not Met                                 17                                                     21
  FY 2003            Not Met                                 17                                                     20
  FY 2002            Not Met                                 18                                                     20


                                                           NOAA Performance measure
                                   MEASURE: Uncertainty in the magnitude of the North American carbon uptake
    Year             Status                                Actual                                                Target
  FY 2009              Met                              0.40 GtC/year1                                         0.40 GtC/year
  FY 2008              Met                              0.40 GtC/year                                          0.40 GtC/year
  FY 2007              Met                              0.40 GtC/year                                          0.40 GtC/year
  FY 2006              Met                              0.40 GtC/year                                          0.40 GtC/year
  FY 2005              Met                              0.40 GtC/year                                          0.48 GtC/year
  FY 2004              Met                              0.50 GtC/year                                          0.70 GtC/year
  FY 2003            Not Met                            0.80 GtC/year                                          0.50 GtC/year
 1	 Estimate.




                                                           NOAA Performance measure
                                MEASURE: Uncertainty in model simulations of the influence of aerosols on climate
    Year             Status                                Actual                                                Target
  FY 2009              Met                             20% improvement                                    20% improvement
  FY 2008              Met                             15% improvement                                    15% improvement
  FY 2007              Met                             10% improvement                                    10% improvement
  FY 2006              Met                             10% improvement                                Establish 10% improvement




F Y   2 0 0 9        P E R F O R M A N C E    A N D       A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                             303
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                               NOAA Performance measure
                    MEASURE: Determine the national explained variance (%) for temperature and precipitation for the contiguous
                                     United States using U.S. Climate Reference Network (USCRN) stations
          Year         Status                                  Actual                                                       Target
        FY 2009         Met                   Temperature – 98.3%, Precipitation – 95.1%                   Temperature – 98.0%, Precipitation – 95.0%
        FY 2008         Met                   Temperature – 97.7%, Precipitation – 93.8%                   Temperature – 96.0%, Precipitation – 95.0%
        FY 2007         Met                   Temperature – 97.7%, Precipitation – 93.8%                   Temperature – 97.2%, Precipitation – 92.6%
        FY 2006         Met                   Temperature – 97.1%, Precipitation – 91.9%                   Temperature – 97.0%, Precipitation – 91.4%
        FY 2005         Met                   Temperature – 96.9%, Precipitation – 91.4%                   Temperature – 96.7%, Precipitation – 90.0%
        FY 2004       Exceeded                Temperature – 96.0%, Precipitation – 90.0%                   Temperature – 80.0%, Precipitation – 55.0%
        FY 2003       Exceeded                Temperature – 95.0%, Precipitation – 84.0%                   Temperature – 70.0%, Precipitation – 40.0%
        FY 2002       Exceeded                Temperature – 85.0%, Precipitation – 55.0%                   Temperature – 60.0%, Precipitation – 25.0%


                                                               NOAA Performance measure
                                            MEASURE: Error in global measurement of sea surface temperature
          Year         Status                                  Actual                                                       Target
        FY 2009         Met                                     0.50ºC                                                       0.50ºC
        FY 2008         Met                                     0.50ºC                                                       0.50ºC
        FY 2007        Not Met                                  0.53ºC                                                       0.50ºC
        FY 2006        Not Met                                  0.53ºC                                                       0.50ºC


                                                               NOAA Performance measure
                       MEASURE: Regionally focused climate impacts and adaptation studies communicated to decisionmakers1
          Year         Status                                  Actual                                                       Target
        FY 2009         Met                          37 assessments/evaluations                                   37 assessments/evaluations
        FY 2008         Met                          37 assessments/evaluations                                   35 assessments/evaluations
        FY 2007         Met                          32 assessments/evaluations                                   32 assessments/evaluations
        FY 2006         Met                          33 assessments/evaluations                                   32 assessments/evaluations
       1	 Prior
              to FY 2009, this measure was known as “Ability of society to plan and respond to climate variability and change using NOAA climate products and
        information.”




 304                                                   F Y   2 0 0 9     P E R F O R M A N C E       A N D     A C C O U N T A B I L I T Y        R E P O R T
                                                                      A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




strategic O bjective 3 . 3
Provide accurate and timely weather and water information
                                                                OBJECTIVE 3.3 RESOURCES
                                                                   (Dollars in Millions)
                              FY 2002          FY 2003          FY 2004            FY 2005          FY 2006          FY 2007           FY 2008         FY 2009
                              Actual           Actual           Actual             Actual           Actual           Actual            Actual          Actual
 Total Funding                $1,188.8         $1,284.1          $883.6             $898.1           $926.8           $946.7            $927.6          $1,009.3
 FTE                           5,100            4,912            4,760              4,654            4,907            4,708             5,241            4,687


                                                             NOAA Performance measure
     MEASURE: Cumulative percentage of U.S. shoreline and inland areas that have improved ability to reduce coastal hazard impacts
   Year           Status                                    Actual                                                             Target
 FY 2009            Met                                       32%                                                                32%
 FY 2008            Met                                       32%                                                                32%
 FY 2007            Met                                       32%                                                                32%
 FY 2006            Met                                       32%                                                                32%
 FY 2005            Met                                       28%                                                                28%
 FY 2004            Met                                       17%                                                                17%
 FY 2003            Met                                       17%                                                                17%
 FY 2002          Not Met                                     8%                                                                 17%


                                                             NOAA Performance measure
                             MEASURE: Severe weather warnings for tornadoes (storm-based) – Lead time (minutes)1
   Year           Status                                    Actual                                                             Target
 FY 2009            Met                                       122                                                                 12
 FY 2008         Exceeded                                      14                                                                 11
 FY 2007            Met                                        14                                                                 13
 FY 2006            Met                                        13                                                                 13
 FY 2005            Met                                        13                                                                 13
 FY 2004            Met                                        13                                                                 12
 FY 2003            Met                                        13                                                                 12
 FY 2002            Met                                        12                                                                 11
 1	 Prior to FY 2008, these warnings were county-based rather than storm-based.   The difference is provided at www.weather.gov/sbwarnings/. Prior to FY 2007, this
    measure was known as “Tornado warnings lead time (minutes).”
 2	 Estimate.




F Y   2 0 0 9     P E R F O R M A N C E          A N D     A C C O U N T A B I L I T Y           R E P O R T
                                                                                                                                                                      305
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                                  NOAA Performance measure
                                      MEASURE: Severe weather warnings for tornadoes (storm-based) – Accuracy (%)1
         Year           Status                                    Actual                                                          Target
        FY 2009     Slightly Below                                 66%2                                                            69%
        FY 2008           Met                                      72%                                                             67%
        FY 2007           Met                                      80%                                                             76%
        FY 2006     Slightly Below                                 75%                                                             76%
        FY 2005           Met                                      76%                                                             73%
        FY 2004           Met                                      75%                                                             72%
        FY 2003           Met                                      79%                                                             72%
        FY 2002           Met                                      76%                                                             69%
       1	 Prior to FY 2008, these warnings were county-based rather than storm-based. The difference is provided at www.weather.gov/sbwarnings/.   Prior to FY 2007, this
          measure was known as “Tornado warnings accuracy (%).”
       2	 Estimate.




                                                                  NOAA Performance measure
                                  MEASURE: Severe weather warnings for tornadoes (storm-based) – False alarm rate (%)1
         Year           Status                                    Actual                                                          Target
        FY 2009         Not Met                                    77%2                                                            72%
        FY 2008           Met                                      75%                                                             74%
        FY 2007           Met                                      75%                                                             75%
        FY 2006     Slightly Below                                 79%                                                             75%
        FY 2005     Slightly Below                                 77%                                                             73%
                     Improved But
        FY 2004        Not Met                                     74%                                                             70%

        FY 2003         Not Met                                    76%                                                             72%
        FY 2002     Slightly Below                                 73%                                                             71%
       1	 Prior to FY 2008, these warnings were county-based rather than storm-based. The difference is provided at www.weather.gov/sbwarnings/.   Prior to FY 2007, this
          measure was known as “Tornado warnings false alarm rate (%).”
       2	 Estimate.




                                                                  NOAA Performance measure
                                          MEASURE: Severe weather warnings for flash floods – Lead time (minutes)
         Year           Status                                    Actual                                                          Target
        FY 2009        Exceeded                                     73                                                              49
        FY 2008        Exceeded                                     77                                                              48
        FY 2007        Exceeded                                     61                                                              48
        FY 2006           Met                                       49                                                              48
        FY 2005           Met                                       54                                                              48
                     Improved But
        FY 2004        Not Met                                      47                                                              50

        FY 2003         Not Met                                     41                                                              47
        FY 2002           Met                                       52                                                              45




 306                                                     F Y   2 0 0 9      P E R F O R M A N C E         A N D     A C C O U N T A B I L I T Y            R E P O R T
                                                                           A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                                 NOAA Performance measure
                                           MEASURE: Severe weather warnings for flash floods – Accuracy (%)
   Year            Status                                        Actual                                                        Target
  FY 2009            Met                                          91%                                                           90%
  FY 2008            Met                                          91%                                                           90%
  FY 2007            Met                                          91%                                                           89%
  FY 2006            Met                                          89%                                                           89%
  FY 2005            Met                                          89%                                                           89%
  FY 2004            Met                                          89%                                                           88%
  FY 2003            Met                                          89%                                                           87%
  FY 2002            Met                                          89%                                                           86%


                                                                 NOAA Performance measure
                                           MEASURE: Hurricane forecast track error (48 hours) (nautical miles)1
   Year            Status                                        Actual                                                        Target
  FY 2009            Met                                           862                                                           108
  FY 2008         Exceeded                                          86                                                           110
  FY 2007            Met                                            97                                                           110
  FY 2006            Met                                            97                                                           111
  FY 2005            Met                                           101                                                           128
  FY 2004         Exceeded                                          94                                                           129
  FY 2003            Met                                           107                                                           130
  FY 2002            Met                                           122                                                           142
 1	 Beginning in FY 2007, NOAA reported the previous year’s results because data is not available until February and good estimates cannot be determined.
 2	 Reflects 2008 target and actual results. 2009 results not available until February 2010.




                                                                 NOAA Performance measure
                                       MEASURE: Hurricane forecast intensity error (48 hours) (difference in knots)
   Year            Status                                        Actual                                                        Target
  FY 2009       Slightly Below                                     141                                                           13
 1	 Reflects 2008 target and actual results. 2009 results not available until February 2010.




                                                                 NOAA Performance measure
                                          MEASURE: Accuracy (%) (threat score) of day 1 precipitation forecasts
   Year            Status                                        Actual                                                        Target
  FY 2009            Met                                          30%                                                           29%
  FY 2008            Met                                          33%                                                           29%
  FY 2007            Met                                          31%                                                           29%
  FY 2006            Met                                          30%                                                           28%
  FY 2005            Met                                          29%                                                           27%
  FY 2004            Met                                          29%                                                           25%
  FY 2003            Met                                          29%                                                           25%
  FY 2002         Exceeded                                        26%                                                           17%



F Y   2 0 0 9      P E R F O R M A N C E            A N D      A C C O U N T A B I L I T Y      R E P O R T
                                                                                                                                                            307
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                    NOAA Performance measure
                                           MEASURE: Winter storm warnings – Lead time (hours)
         Year        Status                        Actual                                               Target
        FY 2009        Met                            18                                                  16
        FY 2008        Met                            17                                                  15
        FY 2007     Exceeded                          19                                                  15
        FY 2006        Met                            17                                                  15
        FY 2005        Met                            17                                                  15
        FY 2004        Met                            15                                                  14
        FY 2003        Met                            14                                                  13
        FY 2002        Met                            13                                                  13


                                                    NOAA Performance measure
                                            MEASURE: Winter storm warnings – Accuracy (%)
         Year        Status                        Actual                                               Target
        FY 2009   Slightly Below                     90%                                                 91%
        FY 2008   Slightly Below                     89%                                                 90%
        FY 2007        Met                           92%                                                 90%
        FY 2006   Slightly Below                     89%                                                 90%
        FY 2005        Met                           91%                                                 90%
        FY 2004        Met                           91%                                                 89%
        FY 2003        Met                           90%                                                 88%
        FY 2002        Met                           89%                                                 86%




 308                                         F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                     A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




strategic O bjective 3 . 4
Support safe, efficient, and environmentally sound commercial navigation
                                                               OBJECTIVE 3.4 RESOURCES
                                                                  (Dollars in Millions)
                               FY 2002        FY 2003          FY 2004          FY 2005     FY 2006     FY 2007           FY 2008   FY 2009
                               Actual         Actual           Actual           Actual      Actual      Actual            Actual    Actual
 Total Funding                 $249.9          $261.6           $192.8           $175.0     $198.7      $189.4             $195.0   $239.8
 FTE                            942            1,004             716              749        774         691                774      738


                                                            NOAA Performance measure
  MEASURE: Reduce the hydrographic survey backlog within navigationally significant areas (square nautical miles surveyed per year)
    Year          Status                                   Actual                                                 Target
  FY 2009           Met                                     3,2191                                                3,000
  FY 2008         Not Met                                    2,127                                                2,500
  FY 2007        Exceeded                                    3,198                                                1,350
  FY 2006           Met                                      2,851                                                2,500
  FY 2005           Met                                      3,079                                                2,700
                Improved But
  FY 2004         Not Met                                    2,070                                                2,290

  FY 2003         Not Met                                    1,762                                                2,100
 1	 Estimate.




                                                            NOAA Performance measure
           MEASURE: Percentage of U.S. counties rated as fully enabled or substantially enabled with accurate positioning capacity
    Year          Status                                   Actual                                                 Target
  FY 2009           Met                                     72.0%                                                 69.0%
  FY 2008           Met                                     60.2%                                                 60.0%
  FY 2007           Met                                     51.6%                                                 49.0%
  FY 2006           Met                                     43.3%                                                 39.0%
  FY 2005           Met                                     32.2%                                                 28.0%


                                                            NOAA Performance measure
                                                     MEASURE: Marine wind speed accuracy (%)1
    Year          Status                                   Actual                                                 Target
  FY 2009           Met                                      73%                                                   69%
  FY 2008           Met                                      72%                                                   68%
  FY 2007           Met                                      73%                                                   68%
  FY 2006         Not Met                                    55%                                                   58%
  FY 2005           Met                                      57%                                                   57%
  FY 2004           Met                                      57%                                                   57%
  FY 2003           Met                                      57%                                                   54%
  FY 2002           Met                                      53%                                                   53%
 1	 Prior to FY 2003, this measure was combined with “Marine wind speed accuracy.”




F Y   2 0 0 9     P E R F O R M A N C E         A N D     A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                              309
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                                   NOAA Performance measure
                                                            MEASURE: Marine wave height accuracy (%)1
         Year           Status                                     Actual                                                            Target
        FY 2009           Met                                       77%                                                                74%
        FY 2008           Met                                       77%                                                                73%
        FY 2007           Met                                       78%                                                                73%
        FY 2006           Met                                       70%                                                                68%
        FY 2005           Met                                       67%                                                                67%
        FY 2004         Not Met                                     67%                                                                69%
        FY 2003           Met                                       71%                                                                66%
       1	 Prior to FY 2003, this measure was combined with “Marine Wave height accuracy.”




                                                                   NOAA Performance measure
                                  MEASURE: Aviation forecast accuracy for ceiling/visibility (3 mile/1,000 feet or less) (%)1,2
         Year           Status                                     Actual                                                            Target
        FY 2009      Slightly Below                                 63%                                                                64%
        FY 2008      Slightly Below                                 62%                                                                63%
        FY 2007           Met                                       62%                                                                62%
        FY 2006         Not Met                                     43%                                                                47%
        FY 2005           Met                                       46%                                                                46%
        FY 2004      Slightly Below                                 45%                                                                46%
        FY 2003           Met                                       48%                                                                45%
        FY 2002         Not Met                                     13%                                                                18%
       1	 Prior to FY 2003, NOAA used a different method to calculate accuracy—targets were significantly lower than the current method.
       2	 FromFY 2007 on, the aviation measures were redefined to cover the IFR (Instrument Flight Rule) airspace instead of the limited IFR range of 5,000 feet to three
        miles. This change was to increase the usefulness of the measure to the general and commercial aviation communities. This change required the measures to be
        re-baselined. While the numbers for accuracy and FAR appear to be reversed when comparing earlier years, they are actually measuring different things.




 310                                                      F Y   2 0 0 9      P E R F O R M A N C E           A N D     A C C O U N T A B I L I T Y          R E P O R T
                                                                           A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                                  NOAA Performance measure
                                   MEASURE: Aviation forecast FAR for ceiling visibility (3 miles/1,000 feet or less) (%)1,2
       Year           Status                                     Actual                                                             Target
      FY 2009           Met                                        38%                                                               43%
      FY 2008           Met                                        39%                                                               44%
      FY 2007           Met                                        40%                                                               45%
      FY 2006           Met                                        64%                                                               65%
      FY 2005           Met                                        63%                                                               68%
      FY 2004           Met                                        65%                                                               70%
      FY 2003           Met                                        64%                                                               71%
      FY 2002           Met                                        58%                                                               52%
     1	 Prior to FY 2003, NOAA used a different method to calculate false alarm rate—targets were significantly lower than the current method.
     2	 FromFY 2007 on, the aviation measures were redefined to cover the IFR (Instrument Flight Rule) airspace instead of the limited IFR range of 5,000 feet to three
      miles. This change was to increase the usefulness of the measure to the general and commercial aviation communities. This change required the measures to be
      re-baselined. While the numbers for accuracy and FAR appear to be reversed when comparing earlier years, they are actually measuring different things.


Mission Support objective: Provide critical support for NOAA’s mission (NOAA)*

                                                              Performance OBJECTIVE RESOURCES
                                                                     (Dollars in Millions)
                                  FY 2002          FY 2003           FY 2004          FY 2005           FY 2006          FY 2007           FY 2008         FY 2009
                                  Actual           Actual            Actual           Actual            Actual           Actual            Actual          Actual
     Total Funding                 $313.5            $250.5          $1,217.6         $1,354.5          $1,581.7         $1,512.1          $1,485.9        $1,856.6
     FTE                           1,716             1,996            2,178            2,437             2,880            3,048             3,031           2,624




*	    There are no GPRA measures for the Mission Support objective, since the activities of this objective support the outcomes of the four other NOAA objectives.


F Y   2 0 0 9         P E R F O R M A N C E           A N D     A C C O U N T A B I L I T Y          R E P O R T
                                                                                                                                                                          311
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




       Management Integration Goal
       Achieve organizational and management excellence
                                                           MANAGEMENT INTEGRATION GOAL RESOURCES
                                                                    (Dollars in Millions)
                                    FY 2002           FY 2003          FY 2004          FY 2005             FY 2006           FY 2007            FY 2008         FY 2009
                                    Actual            Actual           Actual           Actual              Actual            Actual             Actual          Actual
       Total Funding                 $70.1              $71.2            $72.8              $70.9            $71.8              $72.2             $67.7            $79.3
       FTE                            319                326              309                292              315                297               291              297


       Performance outcome: Ensure effective resource stewardship in support of the Department’s programs (DM)

                                                                Performance OUTCOME RESOURCES1
                                                                       (Dollars in Millions)
                                    FY 2002           FY 2003          FY 2004          FY 2005             FY 2006           FY 2007            FY 2008         FY 2009
                                    Actual            Actual           Actual           Actual              Actual            Actual             Actual          Actual
       Total Funding                 $49.2              $49.2            $51.8              $49.5            $49.3              $40.2             $36.9            $43.1
       FTE                            183                186              181                177              177                173               178              180
       1	 In FY 2008, DM split its one performance outcome into three separate outcomes.    All funding for FY 2002-FY 2006 is shown in this outcome. FTE is not split among
        the three outcomes.


                                                                      DM Performance measure
                           MEASURE: Provide accurate and timely financial information and conform to federal standards, laws,
                                          and regulations governing accounting and financial management
         Year           Status                                      Actual                                                               Target
                                       ●●   Completed FY 2009 A-123 assessment of internal controls for     ●●   Eliminate any significant deficiency within 1 year of
        FY 2009         Not Met             financial reporting                                                  determination
                                       ●●   One significant deficiency was not eliminated                   ●●   Complete FY 2009 A-123 assessment of internal controls
                                       ●●   The Department closed 70% of prior year financial systems       ●●   Eliminate any significant deficiency within 1 year of
                                            audit findings                                                       determination
        FY 2008         Not Met        ●●   Completed FY 2008 A-123 assessment of internal controls for     ●●   Complete FY 2008 A-123 assessment of internal controls
                                            financial reporting
                                       ●●   Significant deficiency was not eliminated
                                       ●●   Completed migration of Commerce Business System                 ●●   Eliminate any significant deficiency within 1 year of
                                       ●●   Completed assessment of internal controls                            determination
                                       ●●   Significant deficiency was not eliminated                       ●●   Complete internal control and document review
        FY 2007         Not Met
                                                                                                            ●●   Complete FY 2007 A-123 assessment of internal controls
                                                                                                            ●●   Migrate Commerce Business System (CBS) to an all Web-
                                                                                                                 based architecture
                                                      Reportable condition not eliminated                   ●●   Eliminate any reportable condition within 1 year of
                                                                                                                 determination.
        FY 2006         Not Met
                                                                                                            ●●   95% of management with access to the CRS have financial
                                                                                                                 data/reports by the 15th of month
        FY 2005         Not Met                       Reportable condition not eliminated                                   Eliminate any reportable condition
        FY 2004           Met                                        100%                                                                 100%
        FY 2003           Met                                        100%                                                                 100%
        FY 2002           Met                                        100%                                                                 100%




 312                                                        F Y   2 0 0 9        P E R F O R M A N C E           A N D     A C C O U N T A B I L I T Y           R E P O R T
                                                                          A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                                  DM Performance measure
                                               MEASURE: Effectively use commercial services management1
   Year            Status                                      Actual                                                                Target
                                  Due to change in Administration, all new competitive sourcing        Use business process re-engineering or similar initiatives to
                                  comparisons have been placed on hold. The same is true for           identify operational efficiency and effectiveness opportunities
 FY 2009             Met          the Green Plan.

                                  2009 FAIR Act Inventory filed timely with OMB.
                                  Completed several feasibility studies in FY 2008 and planned Use business process reengineering, feasibility studies, and/
 FY 2008             Met          several more for FY 2009                                     or similar initiatives to identify operational efficiency and
                                                                                               effectiveness opportunities
                                  Bureaus identified FY 2008 feasibility studies which were Update and/or continue to implement FY 2006 plan to conduct
 FY 2007             Met          submitted as part of the Green Plan2                      feasibility studies of Department commercial functions to
                                                                                            determine potential new competitions/studies in the outyears
                                             Green Plan2 submitted to OMB on 9/28/2006                 Finalize new green competition plan based on 08/2005 CFO
 FY 2006             Met
                                                                                                       council outcome
                                                                                                             Complete feasibility studies for 168 FTE to determine
 FY 2005             Met                      Feasibility studies nominated for 168 FTE
                                                                                                                              2005-2006 studies
 FY 2004             Met                      New FAIR inventory guidance developed                                   Multi-year plan under development
 FY 2003           Not Met                         Completed competitions on 6.6%                                       Complete competitions on 10%
 FY 2002           Not Met                         Completed competitions on 1%                                          Complete competitions on 5%
 1	 For FY 2005 -FY 2007, this measure was known as “Effectively use competitive sourcing.”    Prior to FY 2005, this measure was known as “Expand A-76 competitions
    and more accurate FAIR Act inventories.”
 2	 Green Plan will lay out the Departmental short and long-range plans to conduct feasibility studies of all major commercial (and available) functions and will identify

    approved FY 2006-2007 competitions.


                                                                  DM Performance measure
                     MEASURE: Obligate funds through performance-based contracting (% of eligible service contracting $)
   Year            Status                                      Actual                                                                Target
                Improved But
 FY 2009          Not Met                                        45%                                                                  50%

 FY 2008           Not Met                                       28%                                                                  50%
 FY 2007           Not Met                                       28%                                                                  40%
 FY 2006           Not Met                                       30%                                                                  50%
 FY 2005           Not Met                                      < 50%                                                                 50%
 FY 2004             Met                                         42%                                                                  40%
 FY 2003           Not Met                                       24%                                                                  30%
 FY 2002             Met                                         31%                                                                  25%




F Y   2 0 0 9      P E R F O R M A N C E           A N D      A C C O U N T A B I L I T Y            R E P O R T
                                                                                                                                                                             313
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




       Performance outcome: Ensure retention of highly qualified staff in mission-critical positions (DM)

                                                                  Performance OUTCOME RESOURCES1
                                                                         (Dollars in Millions)
                                     FY 2002            FY 2003            FY 2004        FY 2005          FY 2006            FY 2007           FY 2008          FY 2009
                                     Actual             Actual             Actual         Actual           Actual             Actual            Actual           Actual
        Total Funding                  N/A                N/A                N/A            N/A                 N/A             $3.3              $2.1             $2.1
        FTE                            N/A                N/A                N/A            N/A                 N/A             N/A               N/A              N/A
        1	 In
            FY 2008, DM split its one performance outcome into three separate outcomes. All funding for FY 2002-FY 2006 is shown in the first outcome “Ensure effective
          resource stewardship in support of the Department’s programs.” All FTE is shown in the first outcome. FY 2008 actual amounts have been updated since the publi-
          cation of the FY 2008 PAR.


                                                                           DM Performance measure
                               MEASURE: Acquire and maintain diverse and highly qualified staff in mission-critical occupations
            Year          Status                                      Actual                                                             Target
                                        ●●   Competency models in place for four series including bud-     ●●   Have new competency models in place for three mission-
                                             get analyst, meteorologist, oceanographer, and hydrologist         critical occupations for use in applicant selections and
                                        ●●   Average time to fill of 31 days for non-SES vacancies              training and development decisions
         FY 2009         Exceeded       ●●   100 trainees graduated from leadership development            ●●   Meet or exceed the 45-day hiring goals mandated by OPM
                                             programs                                                      ●●   Train up to 50-60 participants on leadership development
                                        ●●   Department employees nationwide applied to ALDP                    programs via ALDP, ELDP, and APCP
                                                                                                           ●●   Open ALDP to Department employees nationwide
                                        ●●   Delivered a total of 4 competency models for the economist,   ●●   Have new competency models in place for three mission-
                                             acquisition, mathematical statistician, and chemist series         critical occupations for use in applicant selections and
         FY 2008         Exceeded
                                        ●●   Exceeded the OPM 45-day-time-to-hire standard with an              training and development decisions
                                             average fill time of 31 days for non-SES vacancies            ●●   Meet or exceed the 45-day hiring goals mandated by OPM
                                        ●●   Trained post-secondary internship program applicants to       ●●   Improve recruitment strategies via targeted activities
                                             increase applicant pools                                      ●●   Assist managers in making better selections
         FY 2007            Met         ●●   Trained managers to make better hiring decisions              ●●   Close skill gaps
                                        ●●   Trained employees in project management to close skill
                                             gaps
                                        ●●   Marketed job vacancies to organizations via automated         ●●   Improve recruitment strategies via targeted activities
                                             hiring system                                                 ●●   Assist managers in making better selections
         FY 2006            Met
                                        ●●   Participated in career fairs and special programs             ●●   Close skill gaps
                                        ●●   Conducted training of managers and employees
                                        ●●   Improved from 28 to 29%                                       ●●   Improve representation in underrepresented groups
         FY 2005            Met
                                        ●●   Maintained 30 day fill-time                                   ●●   Maintain 30 day fill-time


       Performance outcome: Acquire and manage technology resources to support program goals (DM)

                                                                  Performance OUTCOME RESOURCES1
                                                                         (Dollars in Millions)
                                     FY 2002            FY 2003            FY 2004        FY 2005          FY 2006            FY 2007           FY 2008          FY 2009
                                     Actual             Actual             Actual         Actual           Actual             Actual            Actual           Actual
        Total Funding                  N/A                N/A                N/A            N/A                 N/A             $6.1              $3.7             $7.6
        FTE                            N/A                N/A                N/A            N/A                 N/A             N/A               N/A              N/A
        1	 In
            FY 2008, DM split its one performance outcome into three separate outcomes. All funding for FY 2002-FY 2006 is shown in the first outcome “Ensure effective
          resource stewardship in support of the Department’s programs.” All FTE is shown in the first outcome. FY 2008 actual amounts have been updated since the publi-
          cation of the FY 2008 PAR.




 314                                                         F Y   2 0 0 9         P E R F O R M A N C E         A N D     A C C O U N T A B I L I T Y          R E P O R T
                                                                     A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                             DM Performance measure
                                         MEASURE: Improve the management of information technology
   Year          Status                                   Actual                                                                 Target
                            ●●   Cost/schedule overruns and performance shortfalls                ●●   Cost/schedule overruns/performance shortfalls less than
                                 averaged under 10%                                                    10%
 FY 2009          Met       ●●   CSAM C&A enhancements were deployed                              ●●   All national-critical and mission-critical systems certified
                            ●●   IT security compliance in all operating units and five FISMA          and accredited with acceptable, quality documentation in
                                 systems in CSAM were reviewed                                         place
                            ●●   Cost/schedule overruns/performance shortfalls less than          ●●   Cost/schedule overruns/performance shortfalls less than
                                 10%                                                                   10%
 FY 2008          Met       ●●   All national-critical and mission-critical systems certified     ●●   All national-critical and mission-critical systems certified
                                 and accredited with acceptable, quality documentation in              and accredited with acceptable, quality documentation in
                                 place                                                                 place
                            ●●   Cost/schedule overruns/performance shortfalls less than          ●●   Cost/schedule overruns/performance shortfalls less than
                                 10%.                                                                  10%
 FY 2007          Met
                            ●●   All national-critical and mission-critical systems certified     ●●   All national-critical and mission-critical systems certified
                                 and accredited                                                        and accredited
                            ●●   Cost overruns and performance shortfalls less than 10%           ●●   Cost/schedule overruns/performance shortfalls less than
                            ●●   All national-critical and mission-critical systems certified          10%
 FY 2006          Met
                                 and accredited                                                   ●●   All national-critical and mission-critical systems certified
                                                                                                       and accredited
 FY 2005          Met       ●●   Cost overruns and performance shortfalls less than 10%           ●●   Cost overruns and performance shortfalls less than 10%



Performance outcome: Promote improvements to Department programs and operations by identifying and completing
work that (1) promotes integrity, efficiency, and effectiveness; and (2) prevents and detects fraud, waste, and abuse (OIG)

                                                       Performance OUTCOME RESOURCES
                                                              (Dollars in Millions)
                          FY 2002           FY 2003           FY 2004            FY 2005          FY 2006            FY 2007            FY 2008           FY 2009
                          Actual            Actual            Actual             Actual           Actual             Actual             Actual            Actual
 Total Funding             $20.9              $22.0             $21.0             $21.4            $22.5               $22.6              $25.0             $26.5
 FTE                        136                140               128               115              138                 124                113               117


                                                             OIG Performance measure
                   MEASURE: Percentage of OIG recommendations accepted by Departmental and bureau management
   Year          Status                                   Actual                                                                 Target
 FY 2009          Met                                       97%                                                                   95%
 FY 2008          Met                                       100%                                                                  95%
 FY 2007          Met                                       96%                                                                   95%
 FY 2006          Met                                       96%                                                                   95%
 FY 2005          Met                                       99%                                                                   90%
 FY 2004          Met                                       98%                                                                   90%
 FY 2003          Met                                       97%                                                                   90%




F Y   2 0 0 9    P E R F O R M A N C E        A N D      A C C O U N T A B I L I T Y            R E P O R T
                                                                                                                                                                      315
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                         OIG Performance measure
                                        MEASURE: Dollar value of financial benefits identified by the OIG
         Year       Status                             Actual                                                 Target
        FY 2009    Exceeded                           $126.9M                                                 $28.0M
        FY 2008    Exceeded                           $113.0M                                                 $28.0M
        FY 2007    Exceeded                            $51.7M                                                 $29.6M
        FY 2006       Met                              $34.2M                                                 $30.0M
        FY 2005    Exceeded                            $32.0M                                                 $23.0M
        FY 2004    Exceeded                            $26.0M                                                 $20.0M
        FY 2003    Exceeded                            $43.3M                                                 $20.0M


                                                         OIG Performance measure
                              MEASURE: Percentage of criminal and civil matters that are accepted for prosecution
         Year       Status                             Actual                                                 Target
        FY 2009       Met                               78%                                                    63%
        FY 2008       Met                               73%                                                    63%
        FY 2007       Met                               73%                                                    63%
        FY 2006    Exceeded                             91%                                                    63%
        FY 2005    Exceeded                             81%                                                    62%
        FY 2004    Exceeded                             67%                                                    50%
        FY 2003       Met                               50%                                                    50%




 316                                            F Y   2 0 0 9   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                    A P P E N D I X B : S TA K E H O L D E R S A N D C R O S S C U T T I N G P R O G R A M S




                           S takeholders and crosscutting programs




T 
              he Department has numerous crosscutting programs involving multiple bureaus: other federal, state, and local agencies;

 
              foreign government; and private enterprise. Federal programs dealing with economic and technological development,
              the natural environment, international trade, and demographic and economic statistics play a major role in advancing
the welfare of all Americans. The Department continues to work with other government agencies in furthering efforts in these areas
for the American public. Examples of crosscutting programs external to the Department’s bureaus include the following federal,
state, local, and international agencies:


        DEPARTMENT OF COMMERCE                                                       OTHER FEDERAL AGENCIES
            BUREAU ACTIVITIES                                                         And organizations1

 Chemical Weapons Convention compliance                    Department of Agriculture                    National Science Foundation

 Defense industrial base activities                        Department of Defense                        Small Business Administration

 Economic development                                      Department of Education                      U.S. Postal Service

 Economic distress and recovery efforts                    Department of Energy                         Agency for Health Care Research and
                                                                                                           Quality
 Environmental programs                                    Department of Health and Human
                                                              Services                                  Customs/Border and Transportation
 Export controls
                                                                                                           Security/Homeland Security
                                                           Department of Homeland Security
 Homeland security
                                                                                                        Federal Aviation Administration
                                                           Department of Housing and Urban
 Improvements to the environment
                                                              Development                               Federal Bureau of Investigation
 Market access/improvements
                                                           Department of Justice                        Food and Drug Administration
 Measurements and standards
                                                           Department of Labor                          Bureau of Justice Statistics
 Minority-owned business development
                                                           Department of State                          National Institutes of Health
 Patents and trademarks and intellectual
                                                           Department of Transportation                 Bureau of Transportation Statistics
    property
                                                           Department of the Treasury                   U.S. Coast Guard
 Research
                                                           Agency for International Development         Delta Regional Authority
 Telecommunications
                                                           Appalachian Regional Commission              Indian Tribes
 Technology transfer
                                                           Central Intelligence Agency                  States
 Tracking the U.S. economy through GDP and
    other statistics                                       Environmental Protection Agency              Other Countries and Organizations

 Trade policies                                            Federal Communications Commission            European Patent Office

                                                           National Aeronautics and Space
                                                              Administration
 1   Note: This is not an all-inclusive listing.




F Y   2 0 0 9       P E R F O R M A N C E          A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                              317
A P P E N D I X C : T O P M anagement C hallenges F A C I N G T H E D E P A R T M E N T




                       T O P M anagement C hallenges F A C I N G T H E D E PA R T M E N T




       E
              ach year, the Department’s Office of Inspector General (OIG) reviews the Department’s and its component bureaus’
              program activities to ensure that the management, financial, and operational activities are sound and meet the
              requirements of the Chief Financial Officers (CFO) Act and the Government Performance and Results Act (GPRA).

       The emphasis by the President, the Office of Management and Budget (OMB), and Congress on improved government
       accountability underscores the Department’s resolve to enhance transparency within the Department while promoting
       improved efficiency and effectiveness. Progress in these endeavors requires strong commitment from the Department’s
       senior leadership and staff at all levels.

       The Inspector General (IG) identified the top five management challenges facing the Department along with four other
       issues requiring significant management attention in a November 2008 report entitled Top Management Challenges Facing
       the Department of Commerce. The following is the Department’s summary of these challenges and issues; along with the
       actions it has and is taking to address them. The IG’s complete text of the challenges and issues may be found on the OIG
       Web site at http://www.oig.doc.gov/oig/reports/2008/OIG-19384.pdf.

       Challenge 1: Control the Cost and Improve the Accuracy of the Decennial Census

       Overview

       The ability of the Census Bureau to successfully conduct its decennial count of U.S. residents in 2010 is at serious risk.
       After spending eight years developing a completely new approach to census-taking—one that was to automate major field
       operations—the Bureau scrapped plans for using handheld computer technology for the largest and most expensive of these
       operations—nonresponse follow-up—because of significant performance problems and the Bureau’s loss of confidence in
       the Field Data Collection Automation (FDCA) contractor. It will now conduct this operation using paper and pencil, as it has
       done in previous censuses. The inability to produce a handheld computer, combined with major flaws in the Bureau’s cost-
       estimating methods, added an estimated $2.2 billion to $3 billion to the original $11.5 billion life-cycle cost estimate for
       the 2010 Decennial Census. Despite changes made by the Department and the Census Bureau, significant risks remain for
       the 2010 Decennial Census. An inaccurate population count will have unacceptable consequences for the Nation: at stake
       is apportionment of the 435 seats in the House of Representatives and equitable distribution of billions of dollars in federal
       and state aid. Both the Government Accountability Office (GAO) and OMB have designated the 2010 Decennial Census as
       a high-risk program and it is under intense scrutiny by Congress.

       The overarching explanation for the significant problems is the failure of senior Census Bureau managers to anticipate the
       complex information technology (IT) requirements involved in automating the census. The Bureau had intended to develop
       handheld devices in-house and tested prototypes in both 2004 and 2006. The devices had serious problems in both tests.
       The Bureau decided too late in the decade to contract for automation of field operations to meet ambitious fixed deadlines




 318                                            F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                         A P P E N D I X C : T O P M anagement C hallenges F A C I N G T H E D E P A R T M E N T




for the dress rehearsal tests starting in 2007 and decennial operations starting in 2009. As late as January 2008—nearly
two years after contract award—the Bureau finally delivered a first draft of a set of requirements for the handhelds and
supporting infrastructure. It had no contingency plan in the event the handhelds proved unusable. Tremendous setbacks
occurred for several operations in addition to nonresponse follow-up such as plans for testing and enhancing the handhelds
for address canvassing—the only operation that will still use the devices. Because of the inordinate attention and resources
necessary to address field automation problems, the Bureau has not addressed the ability to enumerate traditionally
difficult groups and settings, such as the homeless, military bases, and group quarters. Furthermore, the Bureau eschews
open dialog with outside parties and even its own regional operations. As decennial census planning proceeded, the Bureau
minimized the significance of its problems, withheld information, and was not forthcoming with the Department, Congress,
the OIG, and other oversight agencies about the problems it was experiencing, allowing them to persist to the point of
crisis. Because Bureau staff view the decennial as so unique that there is little to be learned from newcomers or external
sources, this vision has left the Bureau unreceptive to new ways of doing business. It has not kept pace with private sector
advances in business process improvement and lacks insight into how advances can benefit census operations. Leadership
with private sector expertise is vital not only for improving decennial management but also for reappraising the Bureau’s
other programs and administrative operations. Although the Bureau made personnel changes after the FDCA crisis became
public, it has not yet brought in external management with expertise in successfully running complex programs and system
acquisitions or in implementing contemporary private sector management methods.

In the wake of the FDCA problems, the then Secretary of Commerce, Carlos Gutierrez, announced that management and
oversight of the 2010 census would be strengthened and deepened both at the Bureau and the Department. He assigned
several members of the Department’s senior political leadership to work with the Bureau on a recovery plan, which has given
the Secretary some measure of influence over the plan and visibility into the Bureau’s progress. However, the transition
of key departmental leadership positions due to the new administration necessarily creates the risk of disrupting existing
oversight efforts for the most critical program for which the new Secretary will initially be accountable. In addition, since
the Bureau director is a presidential appointee, there is the prospect that the director position will turn over again after
the current director has been on the job for slightly more than one year. The inevitable delay involved in nominating and
gaining confirmation of a new director means that the Bureau will begin major decennial operations without the benefit of
significant leadership continuity and management improvements. Given the major late-stage changes to 2010 operations,
having two short-time directors during the final two years of the decennial cycle, coupled with the long-term absence of
proven high-level management expertise, could create additional challenges the Bureau must be poised to address.

With the first major decennial operation (address canvassing) beginning in early 2009, Secretary Gary Locke will have little
opportunity to impact planning for the 2010 decennial, although he will have responsibility for its overall implementation.
Secretary Locke does have the opportunity to impact planning for the 2020 census. The Department believes that applying
the lessons learned from the 2010 decennial to the planning and re-engineering of the 2020 decennial should also be a
high priority for Secretary Locke.

Actions Taken by Bureaus/Operating Units

The OIG recounts in some depth the issues and problems that arose in the winter of 2007 that led to Secretary Gutierrez’s
decision in April 2008 to significantly reduce the use of automation for 2010 census field data collection. However, there
has been virtually no acknowledgement of the efforts the Bureau has made since then.




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                319
A P P E N D I X C : T O P M anagement C hallenges F A C I N G T H E D E P A R T M E N T




       The Census Bureau began implementing its decennial census “recovery plan” in April 2008, focusing on seven areas:

       1.	   Launching replan operations for paper non-response follow-up;
       2.	   Reducing risk in the FDCA contract;
       3.	   Improving program management;
       4.	   Improving risk management;
       5.	   Improving schedule management;
       6.	   Developing a program testing plan; and
       7.	   Improving internal and external communications.

       To support these areas of the recovery plan, the Census Bureau has taken a number of specific steps, including:

       1.	   Key staffing changes and Program Management Office improvements;
       2.	   Closer scrutiny of the FDCA contract and replan efforts;
       3.	   Improved technical assessments including embedding staff with the contractor, Harris Corp; and
       4.	   Working more closely with OMB, GAO, and other stakeholders to improve oversight and performance management.

       For example, in response to GAO’s designation of the 2010 census as a high-risk federal program, the Bureau has developed
       a comprehensive improvement plan. This plan encompasses four key actions: (1) develop an integrated and comprehensive
       plan to control costs and manage operations, (2) strengthen risk management activities, (3) strengthen systems testing, and
       (4) Improve management of the field data collection automation effort.

       The Census Bureau’s efforts to strengthen cost control and operational management have focused on improving
       communications, schedule management, and budget management. As one example, the “Executive [Schedule] Alert Report”
       produced weekly since July 23, 2008 focuses on the 45-50 key activities on the critical path to a successful census. The
       report itself is briefed to the Census Bureau Director and the Under Secretary weekly, and to OMB monthly.

       Strengthening risk management activities is well underway. The Bureau has identified 24 program-level risks, linked
       all project-level (operational) risks to these program-level risks, and has completed documenting formal risk mitigation
       strategies and contingency plans for all 24 risks.

       To improve the key decennial census systems and to improve the contractor-supplied systems, the Census Bureau has
       focused more on the near-term key operations than the later ones. Consequently, the Bureau devoted major attention to
       the first two (2009) operations—address canvassing and group quarters validation—both of which are needed to update
       the Master Address File (MAF) and the TIGER (Topologically Integrated Geographic Encoding and Referencing System)
       spatial database. MAF/TIGER is the foundation of the census—it creates the universe for all other operations that collect
       information from the public.

       The principle behind the development of the 2010 census has been to test thoroughly and make only minimal changes after
       that, culminating in an end-to-end test of all aspects of the decennial census in a 2008 dress rehearsal. Unfortunately, due
       to a funding delay and immature systems, the Bureau had to curtail dress rehearsal testing. To fill that gap, the Bureau is (1)
       conducting a piecewise but comprehensive end-to-end systems test, and (2) developing and testing operations de-scoped
       from the FDCA contractor. By “piecewise end-to-end” testing, the Bureau means testing every system or operation in
       isolation (or in limited sequences) and also testing all the interfaces upstream and downstream. When the Bureau completes
       these systems and field tests, it will be confident about saying all operations for the 2010 census are ready.




 320                                            F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                         A P P E N D I X C : T O P M anagement C hallenges F A C I N G T H E D E P A R T M E N T




The census testing program has begun to prove its value, as it successfully completed 99.99 percent of the operational
phase of address canvassing. Staff have been conducting field operations, successfully using handheld computers to
confirm addresses, make address and spatial corrections, and collect GPS information for nearly every residential address
in the United States. Field operations are nearing completion on schedule and the Bureau has only observed a few minor
issues, which it has quickly addressed. The successful completion of address canvassing demonstrates the validity of the
Bureau’s recovery plan and leaves it confident that, with continuing efforts, it will conduct a successful 2010 census.

Challenge 2: Strengthen Department-wide Information Security

Overview
                                                                         What is Certification and Accreditation
As in many federal agencies, putting proper information                         and Why is It Important?
security controls in place has been an intractable problem
at the Department and a long-standing item on the OIG’s                Certification a comprehensive assessment of
watch list. Despite additional expenditures to mitigate the            security controls implemented in a computer system.
problem, the Department has reported information security              It determines whether controls are implemented
as a material weakness every year since FY 2001.                       correctly, operating as intended, and meeting the
                                                                       security requirements for the system. Through the
The Federal Information Security Management Act (FISMA)                formal assessment of controls, the certifier identifies
requires agencies to certify that their systems and data               any vulnerabilities that have not been eliminated.
are protected with adequate, functioning security controls
before authorizing (accrediting) a system to operate. The              Accreditation is management’s formal authorization
reason for the material weakness at the Department has                 to allow a system to operate and its explicit
been consistently inadequate certification and accreditation           acceptance of the risks posed by remaining
(C&A): year after year the OIG’s FISMA reviews have found              vulnerabilities. Through accreditation, senior agency
ineffective C&A processes that do not adequately identify              officials take responsibility for the security of systems
and assess needed controls and ultimately fail to assure that          they manage and for any adverse impacts should a
systems and data are protected.                                        breach in security occur.


Securing systems from cyber threats is clearly the most
difficult piece of the challenge, because these threats represent a moving target: they increase in number and sophistication
almost daily. And as agencies incorporate wireless and other technologies to support their operations and workplace
flexibilities, they invite new risks that must be anticipated and mitigated.

To be effective in this environment, the Department’s IT security program must be proactive and fluid, staffed by IT
security professionals who have the appropriate skills and experience to implement required security controls, assess their
effectiveness, and anticipate and respond to emerging threats. They also need appropriate security clearances to effectively
deal with potential cyber attacks by hackers, terrorist groups, organized crime, and nation-states. The OIG has found IT
security personnel lack adequate understanding of the Department’s IT security policy, the National Institute of Standards
and Technology (NIST) standards and guidance, and security technology, and therefore cannot appropriately apply them.
The Department cites lack of resources as a major impediment to improving IT security.

The OIG has been working with the Department to eliminate the material weakness by the end of 2009 under a jointly
developed plan that incorporates realistic milestones and measurable steps for building consistent and repeatable C&A
practices. A key element of the strategy is continuous monitoring of security controls. NIST is updating its FISMA guidance




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                   321
A P P E N D I X C : T O P M anagement C hallenges F A C I N G T H E D E P A R T M E N T




       to give greater emphasis to continuous monitoring as part of C&A. Continuous monitoring requires agencies to regularly
       assess and adjust their security controls to maintain or improve protective measures on an ongoing basis.

       The OIG FY 2008 FISMA reviews noted improvements: the OIG looked at nine systems and concluded that four of them
       (44 percent) were operating in compliance with federal and Department requirements (compared with 33 percent in
       FY 2007). Only one of the four had used an acceptable C&A process at the time of the review, but the remaining three
       showed subsequent improvements because of rigorous continuous monitoring activities.

       Actions Taken by Bureaus/Operating Units

       The Department has reported IT security as a material weakness for many years. To address this issue, the Office of the
       Chief Information Officer (OCIO) and the OIG collaboratively developed a C&A improvement strategy in 2008. Since then,
       the OCIO has completed the following significant milestones:

       ●● To achieve consistency and compliance with FISMA, the OCIO collaborated with the operating units and the OIG in
          developing Department-wide IT security continuous monitoring policy and guidance in 2009. This policy ensures
          adequate technical controls in safeguarding the Department’s information resources. The OIG reviews continuous
          monitoring activities to determine whether appropriate actions were taken.

       ●● The Department has deployed the Department of Justice’s (DOJ) Cyber Security Assessment and Management (CSAM) tool
          to standardize the C&A process and documentation as well as conduct compliance reviews. In FY 2009, the Department
          successfully completed CSAM deployment and submitted its OMB FISMA reports via CSAM. The Department conducted
          a pilot that led to the completion of five C&As and identified process and applications changes necessary to deploy the
          capability enterprise-wide.

       ●● The OCIO coordinates with the Federation of Computer Incident Response Teams (CIRT) and the U.S. Computer
          Emergency Readiness Team (US-CERT) at the Department of Homeland Security (DHS) to ensure timely security alerts
          and notifications. As a result of this collaboration, the Department detected malicious cyber attacks against its network
          and has developed plans to remediate and prevent potential threats and vulnerabilities.

       ●● OMB   issued Memorandum 08-05, Trusted Internet Connection (TIC), aimed to protect agencies from malicious cyber
          attacks. As part of this effort, the Department established an internal TIC technical working group, represented by
          operating unit CIO-appointed individuals, and developed an implementation plan. The Department’s TIC approach is to
          direct all operating units’ Internet traffic through one of its authorized TIC access provider Internet portals beginning
          in FY 2010.

       ●● ITsecurity is one of the Department’s highest priorities. To ensure this effort is on track, both the OCIO and the OIG
          periodically have briefed the CIO Council regarding progress. In 2008, the Department received a satisfactory C&A
          quality evaluation from the OIG, which is a substantial improvement over previous IG assessments.



       Challenge 3: Effectively Manage the Development and Acquisition of Environmental Satellites

       Overview

       The National Oceanic and Atmospheric Administration (NOAA) is modernizing its environmental monitoring capabilities,
       spending billions of dollars on two satellite systems that provide critical data: the National Polar-Orbiting Operational




 322                                           F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                         A P P E N D I X C : T O P M anagement C hallenges F A C I N G T H E D E P A R T M E N T




Environmental Satellite System (NPOESS) and Geostationary Operational Environmental Satellite-R Series (GOES-R).
Acquisitions like NPOESS and GOES-R are highly technical and complex and have a history of cost overruns, schedule
delays, and performance failures. The costs and schedules of both of these systems have significantly increased since the
projects commenced, requiring careful oversight to minimize any further disruption and to prevent any gaps in satellite
coverage—a situation that could have serious consequences for the safety and security of the Nation.

The $12.5 billion NPOESS project will provide continuous weather and environmental data for longer term weather
forecasting and climate monitoring through the coming two decades. The initial project plan called for the purchase of six
satellites at a cost of $6.5 billion, with a first launch in 2008. But problems with a key sensor—the Visible/Infrared Imager
Radiometer Suite (VIIRS)—were a major contributor to the increase in estimated cost, even as the number of satellites was
reduced to four and the first launch pushed back to 2013. Recent analysis indicates that the $12.5 billion estimate could
substantially increase in the near future. Despite scaling back the program in 2007, NOAA reported continuing problems
with VIIRS development, among them that the subcontractor has sacrificed quality to meet the schedule, failed to follow
rigorous development and test procedures, and still does not have a permanent project team. The primary contractor for
NPOESS has been unable to correct these problems. So an integrated program office team will work on-site with the
subcontractor to help finish VIIRS development. If these problems are not resolved with some expediency, it could mean
further delay for the launch of a pilot mission to test the new VIIRS instrument and may result in gaps in data coverage.
Because NPOESS is the only source of critical weather and environmental data, it is especially important that VIIRS problems
be resolved. Reining in additional costs and delays in both programs requires very specific action and vigilant oversight. For
NPOESS, NOAA, the National Aeronautics and Space Administration (NASA), and the Department of Defense (DOD) must
control and resolve the continuing problems with VIIRS, and improve tri-agency decision-making.

The $7.7 billion GOES-R system will offer an uninterrupted flow of high-quality data for short-range weather forecasting
and warning, and climate research through 2028. An inadequate acquisition and management process contributed to
underestimated costs for GOES-R and planned satellite capabilities that were too ambitious. As a result, the projected cost
of GOES-R has increased from $6.2 billion to $7.7 billion, a major sensor has been removed, and the number of satellites
to be purchased has decreased from four to two. For GOES-R, NOAA needs to work closely with the Department to ensure
it follows best practices in overseeing the acquisition while awaiting development of formal Department oversight polices
and procedures, and work with Congress to update the baseline life-cycle cost estimate used in its annual reporting on
the satellite system. The OIG evaluation in 2007 found that significant weaknesses in oversight during earlier phases of
the program led to the cost increases and schedule delays. Because GOES-R was not using an accepted life cycle process,
oversight officials were left without sufficient decision-making information.

Actions Taken by Bureaus/Operating Units

National Polar-orbiting Operational Environmental Satellite System

Over the next five years, NOAA will spend several billion dollars in contracts for the purchase, construction, and modernization
of environmental satellites. These satellites, operated by the National Environmental Satellite, Data, and Information Service
(NESDIS), collect data to provide short and long-range weather forecasts and a variety of other critical environmental and
climate information. NPOESS will replace the current generation of civilian and military weather satellites as they reach
the end of their useful lives.

On July 30, 2007, the government’s tri-agency Integrated Program Office completed the restructure of NPOESS. Critical
development activities now form the basis for the objective schedule and technical milestones that are the basis for the




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                   323
A P P E N D I X C : T O P M anagement C hallenges F A C I N G T H E D E P A R T M E N T




       contractor’s fee management plan. The restructured contract ties corporate profit to more objective measures of cost,
       schedule, and performance while still retaining a small subjective assessment of management performance, replacing the
       previous award fee structure.

       A number of management changes and actions have recently been instituted within the program to improve the quality and
       amount of government oversight. To address ongoing technical problems in the development of VIIRS, the main imaging
       sensor for the system, in August 2008 the NPOESS executive committee agreed to have a government program manager
       with the expertise to oversee VIIRS development. Working in partnership with the existing prime contractor team from
       Northrop Grumman and Raytheon, a senior NASA engineer and manager has been installed on site at the Raytheon plant
       in El Segundo, CA.

       In the fall of 2008, the NPOESS executive committee established a Tri-Agency Joint Assessment Team to address the cost
       and schedule impacts of the ongoing development problems. The team determined that the best solution to maintain
       overall program continuity is to use the NPOESS Preparatory Project (NPP) data operationally. The team also recommended
       that the program procure an Advanced Very High Resolution Radiometer (AVHRR), the main imaging sensor on NOAA
       Polar-orbiting Operational Environmental Satellites (POES), as an option if the program is not able to deliver VIIRS.

       The NPOESS executive committee also asked a high level Independent Review Team, chaired by Tom Young and composed of
       senior independent aerospace and science experts from industry, academia, and government, to conduct a comprehensive
       review of the program in the spring of 2009. This team released a report in June 2009 containing valuable findings and
       recommendations regarding the current state of the program. NOAA, DOD, and NASA are examining three major areas of
       the report: the program’s management structure, satellite coverage and data continuity, and the program’s budget.

       To mitigate the risk of gaps in polar satellite data continuity, NPP sensors are capable of producing data that meet or exceed
       the data production from NOAA-19, NOAA’s current operational satellite and the last of the POES series. Also, to mitigate
       the potential gap in polar environmental satellite data coverage in the afternoon orbit between NOAA-19 and the first
       NPOESS satellite (C-1), NOAA plans to make operational use of the data from the NPP spacecraft and increase the number
       of products NOAA had planned to generate from the NPP system as a risk reduction mission, to minimize impacts to NOAA’s
       National Weather Service and other users. Specifically, NOAA will accelerate development of 54 NPP polar legacy products
       and enhance the NPP data processing ground system with sufficient infrastructure to support the additional products.

       In the mid-morning orbit, NOAA will continue processing and delivering environmental products to its customers of the U.S.
       and European instruments on board the European Organization for the Exploitation of Meteorological Satellites (EUMETSAT)
       Metop (meteorological/operations) series of satellites through the next decade. In addition, NOAA is pursuing discussions
       with EUMETSAT to secure Metop data directly from Svalbard, Norway, which would reduce data latency for U.S. users.

       NOAA will assess the need to use additional international and interagency assets and to develop spare satellites and
       instruments. The cost and schedule details associated with these contingency options are under review. Any alternative
       decision will be consistent with results of the VIIRS instrument testing underway.

       NOAA and NASA are also developing system architecture options, independent cost estimates of the options, and a schedule
       as part of a proposed restructuring process for the NPOESS program.




 324                                            F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                          A P P E N D I X C : T O P M anagement C hallenges F A C I N G T H E D E P A R T M E N T




Geostationary Operational Environmental Satellite-R Series

GOES-R is the next generation of geostationary satellites that will replace existing GOES satellites in the next decade. In
FY 2006, the OIG initiated a joint review of the GOES-R program with NASA’s OIG. The OIG focused on the program office’s
overall approach to procuring key satellite instruments, identifying potential risks, and implementing associated mitigation
strategies. The OIG also assessed the acquisition contracts’ award fee plans to determine whether they are structured to
promote excellent performance.

The GOES-R program is applying lessons learned from the NPOESS program and other recent reviews of space systems to
its management and acquisition strategies. There have also been significant changes to the GOES-R program management
and oversight based on direction from Congress, GAO, the Department, the NPOESS Nunn-McCurdy certification process,
Independent Review Teams, and GOES-R internal program reviews. In addition, the GOES-R Program Office has initiated
the following activities:

●● Meeting regularly with the NOAA satellite data users, who developed the initial requirements for GOES-R, to assess the
   extent to which the program remains responsive to their requirements;

          a team of independent satellite experts to conduct independent reviews and address specific concerns raised
●● Engaging
   by NOAA senior leadership;

●● Locatingthe GOES-R Program Office at NASA Goddard Space Flight Center to better leverage the full capabilities and
   processes at NASA, including access to NASA’s processes for independent technical and engineering reviews;

●● Reporting    at the NASA monthly status review chaired by the Goddard Space Flight Center Deputy Director; and

●● Increasingstaff to support robust systems engineering and oversight of the contractors. After the prime contracts are
   awarded, this will include on-site representatives at the prime contractors and at the major subcontractors.

NOAA also commissioned an Independent Cost Estimate (ICE) as a check on the Program Office Estimate (POE) and based
the GOES-R budget on the results of the ICE-to-POE reconciliation. This action ensures sufficient management reserves
to support risk mitigation activities and timely responses to development issues, thus reducing the potential impacts
associated with these issues.

These activities have put in place the framework for the GOES-R program to succeed. In the past year, NOAA has awarded
the Ground Contract, and work has begun on the contract. NASA awarded the Spacecraft Contract, but work was suspended
due to a protest of the award. Currently, NASA is working through the GAO protest process. Work on five instrument
contracts continues with the independent technical teams routinely reviewing progress and helping to resolve technical
issues.

Challenge 4: Establish a Safety Culture at NIST

Overview

A June 2008 plutonium spill at NIST’s Boulder, CO, laboratory raised serious concerns about NIST’s ability to perform
state-of-the-art research with radioactive and other dangerous materials while protecting the safety of workers and the
community at large. The plutonium spill was one of several incidents reported at NIST labs in the past few years that
have revealed management flaws and a lax safety culture at the Agency. But it was by far the most serious in terms of the
potential for widespread harm.



F Y   2 0 0 9    P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                               325
A P P E N D I X C : T O P M anagement C hallenges F A C I N G T H E D E P A R T M E N T




       The spill exposed weaknesses in NIST’s safety management that must be corrected. A review by the Department of Energy
       (DOE) found that NIST had not established a safety management system or protocols. Safety roles and responsibilities were
       poorly defined, and the labs did not have the staff expertise to understand and analyze exposures to hazardous materials.
       An independent reviewer noted that Boulder management does not consider safety to be its responsibility, but rather that
       of internal health and safety staff. In addition, the circumstances under which the spill occurred are evidence that safety
       is not a core value: a guest researcher was allowed to work alone with the plutonium after normal business hours even
       though he had no training in handling radioactive materials.

       In its FY 2006 annual report on NIST’s strategic direction, performance, and policies, the Visiting Committee on Advanced
       Technology (VCAT) noted inconsistencies in safety procedures across NIST laboratories. While in principle NIST management
       is committed to safety, as a practical matter safety has not been a clearly delineated function within its organizational
       structure, thereby contributing to the numerous lapses that occurred leading up to the spill. At the time of the spill, no
       one on-site had overall management responsibility for the safety of the work being conducted in Boulder or for managing
       the response to the incident.

       NIST Boulder had only recently received permission to work with plutonium. There was no systematic, integrated management
       process for analyzing and preparing for the risks associated with this new work, for strictly managing the material once
       it arrived, for dedicating lab space to radioactive materials research, for ensuring personnel were properly trained to work
       with the plutonium, or for responding to related emergencies. Managers and staff at Boulder were generally unfamiliar
       with safety protocol requirements, often viewing them as voluntary guidelines. The lab was even found to be potentially
       noncompliant with several required federal and industry safety standards.

       The plutonium spill and the subsequent revelations regarding NIST’s lax safety culture are particularly disturbing in light
       of the Agency’s international reputation as a world-class scientific organization. Yet rather than modeling best practices,
       NIST’s lax approach to safety increases risks to NIST and the greater community.

       NIST must make safety a primary concern at all organizational levels and strictly comply with all federal requirements and
       industry standards. It must establish and enforce stringent policies and procedures for handling hazardous materials and
       strict lines of accountability for implementing them.

       Actions Taken by Bureaus/Operating Units

       Following the plutonium incident at the NIST Boulder laboratories, NIST stopped all research involving radioactive materials
       at NIST Boulder. Since then, NIST has decided not to conduct any research using radioactive materials at NIST Boulder that
       would involve other than extremely low-risk sources. This ultimate corrective action will prevent the recurrence of serious
       incidents involving radioactive materials at NIST Boulder.

       NIST has also received internal and external input on management and safety at NIST. This input has included City of
       Boulder Input to the House Subcommittee on Technology and Innovation of the House Science and Technology Committee;
       the NIST Ionizing Radiation Safety Committee Initial Report of Plutonium Contamination at NIST Boulder, which also
       considered reports from five experts; DOE’s Office of Independent Oversight Special Review of Safety at the NIST Boulder
       laboratories; and the Report of the NIST Blue Ribbon Commission on Management and Safety, established by the Deputy
       Secretary of Commerce.




 326                                           F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                         A P P E N D I X C : T O P M anagement C hallenges F A C I N G T H E D E P A R T M E N T




NIST has worked to rebuild its relationship with the City of Boulder through regular communications of progress on the
cleanup project and in addressing the issues raised by the city. NIST has updated the inventory of chemicals at the NIST
Boulder laboratories; properly disposed of substantial quantities of unused, excess, and legacy chemicals; developed an
emergency notification checklist for reporting accidental releases to the City of Boulder and to agencies and jurisdictions
that regulate NIST Boulder’s handling and disposal of hazardous materials; developed a standard operating procedure for
reporting accidental releases of hazardous materials; and implemented a worksite training program for the NIST Boulder
staff in the prevention and reporting of accidental hazardous material releases to the environment.

To strengthen safety management at NIST, NIST has moved a NIST laboratory director position to Boulder to establish local
line-management responsibility for the safety of laboratory activities in Boulder; created a new site-manager position
in Boulder to coordinate safety, emergency preparedness, and security for the Department’s Boulder campus, including
NIST, NOAA, and the National Telecommunications and Information Administration (NTIA); created a safety executive
position reporting to the Office of the NIST Director to oversee NIST’s central safety organization; hired an experienced
safety manager to oversee the safety organization in Boulder; and increased funding significantly for the central safety
organization and associated safety-related programs and activities.

To strengthen safety at NIST more broadly, NIST is focusing on communicating individual and management responsibility
for safety, providing staff with the tools needed to understand how to protect themselves and those around them, creating
safer workplaces, and continually improving the safety culture. More specifically, NIST is articulating, communicating,
and reinforcing a clear safety goal for the organization: zero accidents, injuries, and illnesses for everyone who works
for, works at, or visits NIST; clarifying the roles, responsibilities, authorities, and accountabilities of its senior leaders,
especially with regard to Boulder; training managers on their responsibilities to provide staff with a safe and healthy
working environment and to comply with applicable regulations and standards; implementing NIST-wide requirements
for identifying and controlling hazards and authorizing work and workers, including considerations related to training;
providing researchers and managers with training on conducting hazard reviews; conducting hazard reviews; updating
safety policies, procedures, and programs; and developing and implementing consistent NIST-wide approaches to chemical
inventory and labeling and hazard signage.

Challenge 5: Ensure NTIA Effectively Carries Out Its Responsibilities under the Digital Television
Transition and Public Safety Act

Overview

The Digital Television Transition and Public Safety Act of 2005 assigned NTIA responsibility for implementing a $2.5 billion
initiative for the conversion to digital television and improvements to public safety communications. The act authorizes
NTIA to use $1.5 billion to support the Nation’s June 2009 switch to all-digital broadcasting by offering coupons toward
the purchase price of converter boxes that will enable analog television viewers to receive digital programming.

A primary purpose of the switch to digital television is to free up radio frequencies for advanced wireless emergency
communications at state and local levels, thus improving the ability of first responders to communicate with one another
during emergencies. The act authorizes NTIA to provide approximately $1 billion in grants for Public Safety Interoperable
Communications (PSIC) projects in all 50 states, the District of Columbia, and the U.S. territories—a total of 56 entities.




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                  327
A P P E N D I X C : T O P M anagement C hallenges F A C I N G T H E D E P A R T M E N T




       The Converter Box Coupon Program is progressing with few problems, but close oversight must be maintained NTIA has
       made substantial progress in helping prepare television viewers for the switch to digital broadcasting: in August 2007 it
       contracted with IBM to provide certain services to implement the $1.5 billion Converter Box Coupon Program. Maintaining
       strict accountability for funds in a program of this type and size requires careful oversight and strong internal controls to
       guard against fraud, waste, and abuse among retailers and to ensure the program is properly closed out by September 2009,
       as required by the act.

       The act also authorizes NTIA to use up to $5 million for outreach and education concerning the digital TV (DTV) transition
       and the coupons. NTIA has targeted geographic areas and demographic groups that have the highest percentage of analog-
       only households. The outreach strategy provides for intensified publicity at critical points in the conversion.

       Also of concern is the OIG’s finding that PSIC grantees may not be able to complete projects within the legislation’s
       short funding time frame The PSIC program is a one-time grant opportunity to target specific funds and resources
       toward improving the interoperability of local and state voice and data communications. But grantees are moving slowly,
       and whether they can complete their projects by the statutory deadline of September 30, 2010, is questionable. As of
       September 2008, grantees had spent less than 1.5 percent of the available $1 billion, which leaves them only two years to
       complete their projects or lose funding. But many of the projects involve activities that could take much longer. Given all
       that must follow the purchase of equipment—installation, operational testing, and training, at a minimum—grantees who
       are still in the acquisition stage as late as FY 2010 face the very real possibility of arriving at the program’s September 30
       deadline with partially completed projects but without funding to finish them out. Part of the reason for the grantees’ slow
       start is the way the PSIC awards process worked. Because of the September 30, 2007 award deadline, PSIC awards preceded
       approval of individual project plans and release of funds. As a result, many recipients spent the first year of the three-year
       grant period developing plans, obtaining their approval, and awaiting availability of funds.

       NTIA should expeditiously identify grantees that are at high risk of not meeting the statutory deadline for completing their
       projects, give them the technical assistance they need to accelerate the process, carefully monitor their progress, and keep
       Congress informed of the PSIC program’s status toward achieving its objectives. If any entities seem still unlikely to meet
       the deadline, NTIA should work with Congress to extend it.

       Actions Taken by Bureaus/Operating Units

       Congress also authorized additional resources to enable NTIA to enhance its consumer education efforts, specifically
       targeting those groups and areas most unprepared and vulnerable to a disruption in their over-the-air television service.
       Commerce Secretary Gary Locke embraced this task and took an active role in educating consumers about the transition
       and their options to prepare in the weeks leading up to June 12. The Department’s outreach and education efforts had
       several prongs. First, the Department deployed Mobile Assistance Centers to provide on-the-ground assistance in applying
       for coupons, hooking up converter boxes, and addressing technical issues. The Mobile Assistance Centers interacted with
       more than 43,000 consumers, helped consumers complete 7,120 coupon applications, and distributed more than 38,000
       pieces of informational materials. Second, the Department effectively placed public service announcements (PSA) in
       22 markets using bus advertising. These PSAs reached approximately 45 million people per day. Third, the Department
       partnered with local groups to distribute fact sheets/DTV Resource Guides and coupon applications. In total, Department
       partners distributed 244,000 fact sheets in multiple languages and 229,000 applications directly to consumers. Finally, the
       Department executed a targeted media strategy involving earned and paid media. Examples include English and Spanish
       language radio ads that reached approximately 78 million individuals, and TV ads in predominantly Asian retail outlets that
       reached approximately 6.4 million Asian Americans.




 328                                            F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                         A P P E N D I X C : T O P M anagement C hallenges F A C I N G T H E D E P A R T M E N T




The Department’s targeted outreach translated into meaningful increases in coupon program participation and DTV
readiness. Over-the-air household participation in the Department’s 28 target markets increased on average by 12 percent
between February 15 and June 12, 2009.

NTIA has sent a proposal to Congress, as part of the draft legislation submitted on July 22nd, which would permit the
Department to extend the deadline for PSIC grant performance for up to two years when required to ensure the success
of these important projects. The statute currently requires grant funding to be fully expended by September 30, 2010.
Based on an analysis of the technical and environmental factors, the Department expects that about half of the states
and territories will be challenged to complete the PSIC projects by the statutory deadline. The Department recommends
that Congress provide the flexibility for NTIA to extend the deadline for such projects to ensure better public safety
communications and best serve the public interest.




   O ther I ssues R e q uiring S ignificant M anagement A ttention


Weaknesses in the Department’s Acquisition Oversight and Acquisition Workforce

Overview

Acquisition and contract management has been a consistent watch list item for federal inspectors general and GAO, as
related government spending has ballooned in recent years. Spending on contracts government-wide, for example, has
more than doubled since 2000—from $208 billion to $538 billion in FY 2008—while the federal acquisition workforce has
remained fairly constant: roughly the same number of skilled professionals now oversee more than twice as many federal
contract dollars as they did eight years ago, and the projects they support have greatly increased in complexity and risk.
Shortfalls and failures in major systems acquisitions are all too common in federal programs. And contracts of all sizes and
complexity are at risk for fraud and waste because of poor oversight and lax controls.

The Department does not have coherent policies to guide systems acquisition or effective oversight mechanisms, and these
failings were major contributors to the problems it identified with NOAA’s GOES-R satellite program and the Census Bureau’s
FDCA contract. It also lacks a sufficient amount of skilled contracting and project management expertise—a problem with
which all federal agencies are grappling. Hiring and retaining a skilled acquisition workforce has been difficult, and the
competition stiff. The Department has a limited number of contracting specialists to meet its multibillion-dollar workload.
It has no reliable count of its program/project managers or contracting officer’s technical representatives (COTR), although
skilled professionals in these positions are also at a premium.

The Department is working to address these problems, but the process is slow and in its early stages. The Department is
strengthening acquisition and contracting by updating its antiquated policies and procedures to promote more effective
planning, implementation, and oversight. It is also taking steps to make better use of its oversight bodies—the Acquisition
Review Board and the Commerce Information Technology Review Board—and to integrate their activities, ensure acquisition
plans are appropriate, and that programs and contracts are reviewed at key decision points in their life cycle.

But success in these efforts will not be enough to improve the Department’s overall acquisition operations without
commensurate success in hiring and retaining a qualified acquisition workforce. The pool of applicants for these jobs is not
large, and the looming retirement of some 50 percent of the current federal acquisition workforce over the next 10 years




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                               329
A P P E N D I X C : T O P M anagement C hallenges F A C I N G T H E D E P A R T M E N T




       may well push shortages beyond the critical point. The Department needs a comprehensive human capital strategy that (1)
       taps into such recruiting initiatives, (2) explicitly defines what acquisition skills and competencies it needs and how they
       will evolve over the short and long term, and (3) offers professional development and other incentives to attract and keep
       qualified candidates.

       Actions Taken by Bureaus/Operating Units

       The Department has taken the following actions:

       Training

       •	   Revised the Acquisition Career Management Program to incorporate training and certification requirements of
            the Federal Acquisition Certification Program for contracting officer representatives (COR) and program/project
            managers.

       •	   Continued COR training in the four required areas of expertise: business/industry, general management, project
            management, and procurement knowledge. The Department ensured that the COR element was included in the
            performance plans of individuals who spend more than 20 percent of their time working on contracts.

       •	   Established a policy that when reviewing each acquisition plan (all of those acquisitions exceeding $10 million) or
            Programs/Projects/Acquisitions which are presented at the Investment Review Board, the Office of Acquisition
            Management (OAM) specifically determines whether or not the proposed COR or program/project manager has met the
            certification requirement. If not, the program is required to either (1) ensure certification is obtained prior to contract
            award, or (2) replace the identified COR or program/project manager with an appropriately certified individual. OAM
            has granted only one waiver to the certification requirement and that was for an individual who will be retiring at the
            end of the calendar year.

       •	   Continued training of contracting/purchasing professionals and CORs in the required competency areas in order to close
            competency gaps. The following training was completed in FY 2009 (number of students in parenthesis): Interpersonal
            Skills (30); Customer Service (30); Decision-making (30); Understanding the Marketplace (183); Project Management
            (47); Defining Government Requirements (45); and Contracting/Procurement (164).

       •	   Conducted training sessions for contract specialists to improve the quality and timeliness of Department Federal
            Procurement Data System-Next Generation (FPDS-NG) data entry.

       Hiring

       •	   All appropriate authorities (Direct Hire, Reemployed Annuitants, Veteran Rehabilitation Act, etc.) are being used to
            bring contract specialists on board. The Department continues to struggle, as do other federal agencies, to identify and
            hire qualified candidates. The Senior Procurement Executive has been participating in the Federal Acquisition Intern
            Program as an additional method of locating qualified candidates. Plans are being made to design and implement a
            formal acquisition intern program for the Department in FY 2010 using best practices.




 330                                            F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                         A P P E N D I X C : T O P M anagement C hallenges F A C I N G T H E D E P A R T M E N T




•	   Submitted the 2009 Acquisition Workforce Human Capital Succession Plan to the Office of Federal Procurement Policy
     (OFPP), which primarily focused on recruitment, retention, and development of acquisition professionals within the
     Department. As part of the succession plan, a human capital framework was established identifying key components
     to address the strategic management of the Department’s acquisition workforce.

•	   Participated in the following human capital working groups: (1) Interagency Acquisition Career Management
     Committee; (2) Marketing Acquisition Careers to Colleges and Universities; (3) Mid-Level Recruiting; (4) On-boarding;
     and (5) Acquisition Workforce Plan Advisory Team. These working groups allow interagency information-sharing that
     aids in the development of creative strategies and best practices.

Oversight

•	   OAM has actively participated in the development and codification of a formal Investment Review Board process for
     major acquisitions. This board is intended to consolidate the Acquisition Review Board and the Commerce Information
     Technology Review Board. The Departmental Administrative Order formally establishing the Investment Review Board
     and the Investment Review Board process is in the final stages of review.

•	   To address the oversight needs for acquisitions not meeting the Investment Review Board threshold ($75 million), OAM
     established a “paper review process” for all acquisitions between $10 million and $75 million. This review consists of
     a review of the acquisition plan, specific sections of the proposed solicitation, and any planned award/incentive fee
     plan. Any issues identified in that review are required to be resolved to the satisfaction of the Senior Procurement
     Executive.

•	   Revised the Commerce Acquisition Manual (CAM) chapter on the purchase card program to reflect best practices
     in oversight including limiting card maximums over the micropurchase limit to those individuals holding a Level I
     Contracting Officer warrant, establishing a formal oversight process, and utilizing the automated oversight tools
     available under the SmartPay2 contract and task order.

•	   Started revitalization of the Department’s suspension and debarment program to ensure the government’s interests are
     protected and non-performing contractors and grantees are held accountable. The Department increased the seniority
     of its interagency suspension and debarment committee representation, offered suspension and debarment training to
     all acquisition and grant personnel, and are reviewing several debarment actions.

•	   Published policy related to avoiding fraud, waste, and abuse including: Preventing and Reporting Contractor Fraud
     (Procurement Memorandum (PM) 2009-02), Excluded Parties List System (PM 2009-07), and Tracking and Oversight of
     Contracts with Award and Incentive Provisions (PM 2009-12).

•	   Published policy on the appropriate documentation and reporting of time and material/labor hour contracts for
     commercial services to ensure required determination and findings are prepared and that the use of other than fixed
     price contracts is adequately documented (PM 2009-13).

•	   Issued policy establishing in the Office of Legislative and Intergovernmental Affairs the responsibility for announcing
     contract actions in excess of $3.5 million (CAM 1305.303) to ensure maximum public visibility and transparency.




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                               331
A P P E N D I X C : T O P M anagement C hallenges F A C I N G T H E D E P A R T M E N T




       •	   Worked with the Department’s grant-making bureaus to address the delinquency of the Federal Funding Accountability
            and Transparency Act (FFATA) reporting. Issues have largely been resolved, and with the exception of the Economic
            Development Administration (EDA), all grant-making bureaus are up to date with FFATA submissions. EDA is addressing
            the backlog and making good progress in resolving the backlog.

       Regulation

       •	   Participated in the Civilian Agency Acquisition Council, which reviews and concurs in proposed changes to the federal
            acquisition regulation. Key federal acquisition regulation changes this year have included five American Recovery and
            Reinvestment Act (ARRA) of 2009 cases.

       •	   Revised the Commerce Acquisition Regulation to reflect changes in federal acquisition regulations and policies.  Final
            review of the proposed rule is pending and codification will be conducted in FY 2010. The revised Commerce Acquisition
            Regulation has been submitted to the Federal Register for publication and public input.

       •	   Participated in leading the Department in its implementation of ARRA including:  (1) providing the Department response
            to initial guidance; (2) participating in the ARRA Workgroup; (3) participating with the Department OIG in hosting
            fraud awareness training for all bureau procurement officials and grant office directors; (4) developing guidance for
            contracting officers, CORs, grants officers, and federal program officers regarding their responsibilities under ARRA;
            (5) participating with the Minority Business Development Agency (MBDA) in reaching out to minority-owned business
            enterprises to assist them in winning contract awards under ARRA; (6) participating with OFPP in the development of
            acquisition and grant guidance ; (7) reporting acquisition and grant awards on a daily basis; (8) reviewing all ARRA
            obligations reported in FPDS-NG and FedBizOps for accuracy and completeness; (9) developing and providing guidance
            for recipients (contractors and grantees) on their reporting responsibilities; and (10) working with NTIA to assist in
            emplacing grants support for the Broadband Technology Opportunities Program.

       USPTO’s Long and Growing Patent Processing Times, and Its Financing Vulnerabilities

       Overview

       The efficiency with which the U.S. Patent and Trademark Office (USPTO) processes patent applications has a direct bearing
       on how well it achieves its mission of promoting U.S. competitiveness. Meeting the demand for new patents in a timely
       manner has been a long-standing challenge for USPTO. Increases in both the volume and complexity of patent applications
       have lengthened application processing times and backlogs dramatically. In 2004, USPTO had a patent backlog of nearly a
       half million applications and average processing times of 27 months. By 2007, processing times averaged nearly 32 months,
       with wait times for communications-related patents as long as 43 months. As of September 30, 2008, USPTO reported
       a backlog of 750,596 applications and estimated that the backlog will exceed 860,000 by September 2011. The 2010
       President’s Budget reflects a backlog of 740,000 applications by the end of FY 2009, which is a decrease of approximately
       10,000 applications over end of FY 2008 numbers. USPTO needs to further decrease the backlog by continuing to
       implement measures discussed in its 2007-2012 strategic plan that have a significant impact on reducing the backlog,
       such as shortening application review times; improving examiner error rates; and continue its initiatives to improve the
       hiring, training, and retaining of skilled examiners.




 332                                           F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                         A P P E N D I X C : T O P M anagement C hallenges F A C I N G T H E D E P A R T M E N T




USPTO’s unique financing structure also presents challenges. There is a complex relationship between the number of
patent applications filed, the size of the application backlog, the number of patents issued, and the fees USPTO collects in
connection with the patent process. The Agency uses fees collected today to pay for patent applications filed and examined
in prior years. With the backlog growing, processing times increasing, and the number of patents issued flattening, this
method of financing could become increasingly risky. The current model for financing USPTO’s critical mission warrants
attention to ensure that it will continue to provide sufficient funding to process all backlogged applications as well as any
newly filed.

Actions Taken by Bureaus/Operating Units

USPTO is continuing the transformation to a performance-based organization and to its credit, the Agency reports it
accomplished 100 percent of its key performance measures in FY 2008. USPTO has also had a clean audit opinion for
16 consecutive years.

USPTO faces numerous challenges, such as continuing workload increases, hiring and training patent examiners, sustainability
of operations in times of reduction in fee collections, and continuing a transition to an electronic processing environment.
USPTO must fully utilize its expanded authority over personnel decisions and processes, procurement, and IT operations.
The OIG has assessed systemic human resources and program issues, and has examined USPTO’s computer systems security.
A recent evaluation found that while most USPTO contracts include information security clauses, important requirements
are not implemented properly or enforced. USPTO has taken corrective actions to address problems the OIG identified.

NOAA’s Ability to Conserve the Nation’s Fragile Oceans and Living Marine Resources While Ensuring
a Vital U.S. Commercial Fishing Industry

Overview

According to NOAA, 3.5 million square miles of the Nation’s coastal and deep ocean waters and the Great Lakes support
over 28 million jobs in the United States, and the value of the U.S. ocean economy tops $115 billion. But these economic
benefits come at great cost as the health of the oceans and coastal ecosystems continues to decline in the face of increasing
coastal development, pollution, overfishing, and the destructive impact of invasive species.

Charged with maintaining and improving the viability of marine and coastal ecosystems while supporting global marine
commerce and transportation, NOAA manages a significant portion of the federal government’s investment in living marine
resources. It faces difficult challenges in promoting the health of these resources while ensuring they sustain the vital
economic benefits derived from them.

In January 2007, the President signed the reauthorized Magnuson-Stevens Fishery Conservation and Management Act,
which requires annual catch limits, an end to overfishing by 2011, and better integration of fishery management planning
with national environmental review procedures to ensure the environmental impacts of any significant ocean activity
under consideration are thoroughly vetted. The challenge for NOAA will be to implement these new requirements in a
manner that improves the status of U.S. marine resources without undermining the health of the U.S. fishing industry. To
fulfill its mandates for living marine resources, NOAA also needs to take action to rebuild populations of protected species,
conserve important habitats, and undertake the science programs necessary to improve its understanding of complex
marine ecosystems.




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                333
A P P E N D I X C : T O P M anagement C hallenges F A C I N G T H E D E P A R T M E N T




       Actions Taken by Bureaus/Operating Units

       During FY 2009, NOAA advanced the preservation of fragile oceans and living marine resources through the Coastal Strategy
       to foster healthy ecosystems, protecting and sustaining them for future generations by managing and influencing the use
       of coastal resources to ensure healthy coastal ecosystems and resilient communities. NOAA analyzed climate change
       impacts on coastal habitat restoration, land acquisition, and facility construction investments; drafted an Administration
       bill for the Coastal Zone Management Act which is under review; and released the Marine Protected Areas National System
       Framework of 1,700 potential marine protected areas. In addition to the 225 engaged, 100 more are expected this fiscal
       year, possibly including fisheries and more coastal states than the current nine of 35 that are engaged. NOAA also took
       crucial steps toward the implementation of the reauthorized Magnuson-Stevens Fishery Conservation and Management
       Act in an effort to end overfishing and execute annual catch limits.

       Responding to the OIG audit of the National Marine Sanctuary Program (NMSP) mission and resource protection, NMSP held
       sanctuary superintendents accountable for completing management plan reviews on time and ensuring charter agreements
       were finalized. The Office of Law Enforcement (OLE) Director has required sanctuary liaisons to attend Sanctuary Advisory
       Council (SAC) meetings in their region. The National Marine Fisheries Service (NMFS) designated attendees to attend all
       SAC meetings. OLE required mandatory sanctuary reporting within the Law Enforcement Accessible Database System
       (LEADS).

       NOAA developed clear guidance on how NMFS and NMSP will work together on specific matters, including (1) Fishery
       Management Council (FMC) staff participation on SACs, research advisory groups, and other relevant work groups;
       (2) sanctuary staff participation on relevant NMFS working groups on habitat, coral reef, and bottom mapping; and on FMC
       advisory committees on science and statistical, habitat, and education and outreach; and (3) FMC members and NMFS staff
       participation in the early development of sanctuary management plan reviews and condition reports.

       NOAA agreed upon processes for NMSP staff and SAC members to participate in the Magnuson-Stevens Act FMC and
       fishery management plan development process and NMFS staff and FMC members to participate in the National Marine
       Sanctuaries Act process. NOAA is expanding dissemination of its successful collaborations at sanctuary sites, such as
       “Examples of Successful Collaborations between NOAA’s Office of National Marine Sanctuaries, National Marine Fisheries
       Service, and Regional Fisheries Management Councils” from May 2009.

       Working with the regional FMCs, NOAA has made significant progress on both ending overfishing and implementing annual
       catch limits. The act requires that federal fishery management plans establish mechanisms for annual catch limits and
       accountability measures to end and prevent overfishing by 2010 for stocks subject to overfishing, and by 2011 for all others.
       On January 16, 2009, NOAA published guidelines for the regional FMCs to use in implementing annual catch limits and
       accountability measures, which became effective February 17, 2009. NOAA and the eight regional FMCs are amending
       fishery management plans to implement this statutory requirement.

       Highlights of progress on other act requirements include:

       ●● NOAA published a proposed rule regarding certification procedures to address illegal, unregulated, and unreported fishing
          activities and bycatch of protected living marine resources on January 14, 2009, and accepted comments through
          May 14, 2009. A series of six public hearings have been scheduled to collect comments and discuss issues described in
          the proposed rule.




 334                                           F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                         A P P E N D I X C : T O P M anagement C hallenges F A C I N G T H E D E P A R T M E N T




●● NOAA published guidelines and procedures for referenda required to establish Limited Access Privilege Programs in the
   Northeast and Gulf of Mexico fisheries on December 15, 2008.

●● NOAA  published a notice to announce the availability of the Draft NOAA Deep-Sea Coral and Sponge Research and
   Management Strategic Plan for public comment. Comments on the draft strategic plan were accepted through
   January 15, 2009.

●● On January 15, 2009, NOAA published proposed regulations to govern the requests for determinations of fishery resource
   disasters as a basis for acquiring potential disaster assistance. Comments were accepted through April 20, 2009.

●● NOAA   has drafted a proposed rule to revise National Standard 2 guidelines regarding use of best scientific information
   available, peer review guidelines, the role of the Council’s Scientific Support Coordinator (SSC) in the review process of
   scientific information, and the scientific content of the Stock Assessment and Fishery Evaluation (SAFE) report. This draft
   rule is currently under review by the Agency and may be available for public comment later in 2009.

Overall, 51 of 79 specific tasks (65 percent) have been completed. Seventy-three percent of tasks with a specific deadline
have been completed. Twenty-two percent of tasks are in progress, nine percent have been delayed, and five percent have
had no action taken. (“Completed” means the task is done, or no further action is required; “In Progress” means the task
is currently being completed, and all milestones are being met; “Delayed” means the project has missed its statutory due
date and is behind schedule or the project is on hold; “No Action” means the task has not yet been started, often due to
lack of funding.)

BIS’s Setbacks in Modernizing Its Obsolete IT Infrastructure to Strengthen
the Dual-use Export Control System

Overview

In January 2007, GAO added the Bureau of Industry and Security’s (BIS) dual-use export control system to its government-
wide high-risk list. One of the key challenges facing BIS in ensuring that the dual-use export control system is properly
equipped to advance U.S. national security, foreign policy, and economic interests is the replacement of its obsolete Export
Control Automated Support System (ECASS). BIS’s core export administration and enforcement business processes are
directly supported by ECASS. Approximately 450 federal staff and 28,000 exporters currently use the system. However, the
database structure—originally deployed in 1984—is complex and no longer supported by the technology industry. The effort
to modernize ECASS began in 1996, but the project has been underfunded and beset by technical problems and schedule
slips that current management has been attempting to address in a budget-constrained environment.

The current projected completion date for the ECASS modernization is FY 2014. Based on Department interviews, the total
funding requirements for ECASS modernization are not clearly established. BIS must provide a comprehensive plan for
what is required to modernize ECASS, including how much it will cost and how it will avoid the management and technical
problems experienced in past modernization attempts.

Enhancing the performance of ECASS and ensuring continued operation of an effective licensing information system are
far too important to postpone any longer. BIS must demonstrate that it has a modernization strategy and plan in place
to convincingly make the case for increased funding, or develop a plan to implement its ECASS modernization effort with
existing resources (i.e., reallocate existing funding).




F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                 335
A P P E N D I X C : T O P M anagement C hallenges F A C I N G T H E D E P A R T M E N T




       Actions Taken by Bureaus/Operating Units

       Historically, BIS has suffered from a systemic lack of overall IT investment—it is the lack of investment that has constrained
       BIS progress in modernizing its export control system. The cumulative impact of the lack of funding coupled with new
       externally driven unfunded IT security requirements emerging in and after FY 2006 resulted in the higher level of required
       IT funding that is cited in the OIG report—not mismanagement of the BIS IT programs or available resources.

       The FY 2010 Budget proposes increases to address the Cyber Espionage Response, and includes ECASS-Redesign
       (ECASS-R).




 336                                            F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
         A P P E N D I x D : I mproper P a y ments I nformation A ct ( I P I A ) R eporting D etails




                I mproper pa y ments information act ( I P I A ) of 2 0 0 2

                                                 R eporting D etails




I
      PIA was enacted to provide for estimates and reports of improper payments by federal agencies. The act requires
      that federal agencies estimate improper payments and report on actions to reduce them. A review of all programs
      and activities that the Department administers is required annually to assist in identifying and reporting improper
payments. The Department has not identified any significant problems with improper payments; however, the Department
recognizes the importance of maintaining adequate internal controls to ensure proper payments, and the Department’s
commitment to continuous improvement in the overall disbursement management process remains very strong. Each of
the Department’s payment offices has implemented procedures to detect and prevent improper payments. For FY 2010 and
beyond, the Department will continue its efforts to ensure the integrity of its disbursements.

I. Briefly describe the risk assessment(s) performed subsequent to completing its full program inventory.
List the risk-susceptible programs (i.e., programs that have a significant risk of improper payments based on
Office of Management and Budget (OMB) guidance thresholds) identified through its risk assessments. Be sure
to include the programs previously identified in the former Section 57 of OMB Circular A-11, Preparation,
Submission, and Execution of the Budget (now located in OMB Circular A-123, Appendix C, Requirements
for Effective Measurement and Remediation of Improper Payments). Please highlight any changes to its risk
assessment or its risk assessment results that occurred since its last report.

The Department annually conducts an assessment of the effectiveness of internal control over financial reporting, in
compliance with OMB Circular A-123, Management’s Responsibility for Internal Control. The FY 2007 assessment included
a review of internal controls over disbursement processes, which indicated that current internal controls over disbursement
processes are sound.

Each of the Department’s bureaus/reporting entities has performed or is currently performing, over a one to three-year
period (depending on the size of the entity), improper payment risk assessments covering all of its programs/activities, as
required by OMB Circular A-123, Appendix C. For many of the reporting entities, these risk assessments were completed in
2008. These improper payment risk assessments of the entity’s programs/activities also include assessments of the corporate
control, procurement, and grants management environments. The improper payment program/activity risk assessments
performed thus far revealed no risk-susceptible programs/activities.

The results of Departmental assessments revealed no risk-susceptible programs, and demonstrated that, overall, the
Department has strong internal controls over disbursement processes, the amount of improper payments by the Department
is immaterial, and the risk of improper payments is low.


II. Briefly describe the statistical sampling process conducted to estimate the improper payment rate for each
program identified. Please highlight any changes to its statistical sampling process that have occurred since
the last report in this section.

In FY 2009, the Department conducted a sampling process to draw and review random samples of disbursements greater
than $100 thousand from a Department-wide universe of disbursements. Grants, travel payments, bankcards/purchase cards,




F Y   2 0 0 9    P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                              337
A P P E N D I x D : I mproper P a y ments I nformation A ct ( I P I A ) R eporting D etails




       all procurement vehicles with other federal agencies, government bills of lading, and gifts and bequests were excluded from
       review. Each selected sample item was then subjected to a review of original invoices and supporting documentation to
       determine that the disbursement was accurate, made only once, and that the correct vendor was compensated. The results
       of the Department’s review did not reveal any significant improper payments. The same results were achieved following a
       similar review in FY 2008. An estimated improper payment rate, accordingly, was deemed not necessary.


       III. Describe the Corrective Action Plans (CAP) for reducing the estimated rate and amount of improper
       payments for each type of root cause of error. Include in this discussion the corrective action(s) most likely
       to significantly reduce future improper payments due to each type of error an agency identifies. If efforts are
       ongoing, it is appropriate to include that information in this section, and to highlight current efforts, including
       key milestones.

       The results of Departmental assessments demonstrate that, overall, the Department has strong internal controls over
       disbursement processes, the amount of improper payments by the Department is immaterial, and the risk of improper
       payments is low. While the Department, accordingly, does not have a need for CAPs for improper payments, the Department
       has, nevertheless, further enhanced its processes and is actively working with each of the Department’s payment offices
       to identify and implement additional procedures to prevent and detect improper payments. In FY 2009, the Department
       continued with the bureaus’ quarterly reporting of any improper payments to the Deputy Chief Financial Officer (CFO),
       along with identifying the nature and magnitude of any improper payments and identifying any necessary control
       enhancements.

       The Department has additionally reviewed all financial statement audit findings/comments, and results of any other
       payment reviews, for indications of breaches of disbursement controls. None of these audit findings/comments or reviews
       have uncovered any significant problems with improper payments or the internal controls that surround disbursements.


       IV. Discuss recovery auditing effort, if applicable, including any contract types excluded from review and the
       justification for doing so; actions taken to recoup improper payments; and the business process changes and
       internal controls instituted and/or strengthened to prevent further occurrences.

       In August 2009, recovery audits were completed for the Economic Development Administration/Salaries & Expenses (EDA/
       S&E), and the International Trade Administration (ITA). Contracts/obligations closed after September 30, 2005 greater than
       $100 thousand were reviewed. Grants, travel payments, bankcards/purchase cards, all procurement vehicles with other
       federal agencies, government bills of lading, gifts and bequests, and contracts/obligations for which accounting services
       were provided by another federal agency were excluded from review. The Department determined that, for the above
       categories of closed contracts/obligations that were excluded from review, the Department’s costs for the recovery audit
       activities would likely exceed the benefits of a recovery audit. Vendor inquiries were performed for a sample of vendors to
       determine if the reporting entities had any open credits or debts with vendors. Of the $5.2 million reviewed, no amounts
       were identified for recovery. The following table presents a summary of the results of the Department’s current year (CY)
       and prior years (PY) recovery audits.




 338                                           F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
         A P P E N D I x D : I mproper P a y ments I nformation A ct ( I P I A ) R eporting D etails




(In Thousands)

                                                                                                        Cumulative
                                                                                                          Amounts
                                                   Amounts                     Amounts                   Identified Cumulative
                        Amount       Actual       Identified                  Identified                    for      Amounts
                       Subject to    Amount           for       Amounts           for        Amounts     Recovery   Recovered
                       Review for   Reviewed      Recovery     Recovered      Recovery      Recovered     (CY and    (CY and
                          CY          for CY        for CY       for CY         in PYs        in PYs        PYs        PYs
 Reporting Entity(s)   Reporting    Reporting     Reporting    Reporting      Reporting     Reporting   Reporting) Reporting)
 EDA/S&E                $	 1,898    $	 1,898      $	     -      $	     -      	    N/A       	    N/A    $	    -     $	    -
 ITA                    $	 4,677    $	 3,337      $	     -      $	     -      	    N/A       	    N/A    $	    -     $	    -
 DM/S&E                 	   N/A     	   N/A       	    N/A      	    N/A      $	     -       $	     -    $	    -     $	    -
 DM/WCF                 	   N/A     	   N/A       	    N/A      	    N/A      $	     -       $	     -    $	    -     $	    -
 ESA/BEA                	   N/A     	   N/A       	    N/A      	    N/A      $	     -       $	     -    $	    -     $	    -
 Census Bureau,         	   N/A     	   N/A       	    N/A      	    N/A      $	    96       $	    96    $	   96     $	   96
 NIST, NOAA, and
 USPTO



V. Describe the steps the agency has taken and plans to take (including time line) to ensure that agency
managers (including the agency head) are held accountable for reducing and recovering improper payments.

The Department has not identified any significant problems with improper payments; however, the Department recognizes
the importance of maintaining adequate internal controls to ensure proper payments, and its commitment to continuous
improvement in disbursement management processes remains very strong. The Department’s CFO has responsibility for
establishing policies and procedures for assessing Departmental and program risks of improper payments, taking actions
to reduce those payments, and reporting the results of the actions to Departmental management for oversight and other
actions as deemed appropriate. The CFO has designated the Deputy CFO to oversee initiatives related to reducing improper
payments within the Department, and to work closely with the bureau CFOs in this area.

In FY 2009, the Department continued its reporting procedures that required quarterly reporting to the Department
by its bureaus on any improper payments, identifying the nature and magnitude of any improper payments along with
any necessary control enhancements to prevent further occurrences of the types of improper payments identified. The
Department’s analysis of the data collected from the bureaus shows that Department-wide improper payments were below
one-tenth of one percent in FY 2009, as was the case in FY 2008. The bureau CFOs are accountable for internal controls
over improper payments, and for monitoring and minimizing improper payments.

For FY 2010 and beyond, the Department will continue its efforts to ensure the integrity of its disbursements.


VI. Describe whether the agency has the information systems and other infrastructure it needs to reduce
improper payments to the levels the agency has targeted.

The Department has ensured that internal controls, manual, as well as financial system, relating to payments are in place
throughout the Department, and has reviewed all financial statement audit findings/comments and results of any other
payment reviews for indications of breaches of disbursement controls. None of these audit findings/comments or reviews
have uncovered any significant problems with improper payments or the internal controls that surround disbursements.



F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                 339
A P P E N D I x D : I mproper P a y ments I nformation A ct ( I P I A ) R eporting D etails




       VII. Describe any statutory or regulatory barriers which may limit agency corrective actions in reducing
       improper payments and actions taken by the agency to mitigate the barriers’ effects.

       The Department has not identified any significant barriers to-date, but will notify OMB and Congress of any barriers that
       inhibit actions to reduce improper payments if they occur.


       VIII. Additional comments, if any, on overall agency efforts, specific programs, best practices, or common
       challenges identified, as a result of IPIA implementation.

       The Department’s Disbursement Best Practices. The following are some examples of internal control procedures used by the
       Department’s payment offices:

       ●●   Limited/controlled access to vendor files—access to basic vendor information (e.g., name, address, business size, etc.)
            is available to financial system users; access to banking information, however, is strictly limited by system security to
            certain Office of Finance staff.
       ●●   Controlled access to financial system accounts payable screens—authority to create, edit, approve, process, and amend
            payment records is limited to certain Office of Finance financial system users. Also, authority to add or revise records
            in the vendor database is limited to separate Office of Finance system users.
       ●●   Segregation of duties for financial system data entry and review prior to transmitting disbursement files to Treasury—
            data entry duties are assigned to technicians in the Office of Finance who do not have authority to review and process
            payments. Authority to approve and process payments is assigned to accountants in the Office of Finance. Both data
            entry and approval/processing of payments are separate functions from transmitting disbursement files to Treasury.
       ●●   Financial system edit reports highlight potential items that may result in improper payments (e.g., invoice amount and accrual
            amount are not the same). There is a daily Invoice Workload Report that displays open amounts (not closed by a payment) on
            all invoices. This report is reviewed and action is taken to resolve partially open invoices. Furthermore, system settings prevent
            a payment in excess of the amount of the invoice.

       ●●   Daily pre-payment audit of invoices for accuracy, and corrective actions prior to disbursement, thereby preventing improper
            payments from occurring.

       ●●   Financial system edit checks if the vendor’s name on the payment does not agree with that on the obligation, or if the payment
            amount is greater than the obligation or accrual amount.

       ●●   The monthly vendor statement for purchase cards is interfaced into the financial system, thereby reducing data entry error.

       ●●   An accountant or supervisor reviews individual payments before releasing for payment to help ensure that the correct banking
            information or payment addresses are used, and that the correct amount will be paid.

       ●●   Monthly post-payment random sample audits are performed for detection purposes.

       ●●   Contracts include a clause requiring the contractor to notify the contracting officer if the government overpays when making
            an invoice payment or a contract financing payment.




 340                                              F Y   2 0 0 9   P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y   R E P O R T
A P P E N D I x E : S ummar y of financial statement audit and management assurances




                             S ummar y of F inancial S tatement A udit

                                        and M anagement A ssurances




  P
            resented below is a summary of financial statement audit and management assurances for FY 2009. Table 1 relates
            to the Department’s FY 2009 financial statement audit, which resulted in an unqualified opinion with no material
            weaknesses. Table 2 presents the number of material weaknesses reported by the Department under Section 2 of the
  Federal Managers’ Financial Integrity Act (FMFIA)—either with regard to internal controls over operations or financial reporting—
  and Section 4, which relates to internal controls over financial management systems; as well as the Department’s compliance with
  the Federal Financial Management Improvement Act (FFMIA).

  The Department had one recurring material weakness under FMFIA, Section 2 relating to information technology (IT) certification
  and accreditation (C&A). Though significant progress has been made, work still remains on fully implementing corrective actions.
  Efforts to fully resolve this material weakness are being monitored by the Department’s senior management.


  Table 1. Summary of Financial Statement Audit
   ●●   Audit Opinion:                  ●●   Unqualified
   ●●   Restatement:                    ●●   No
           Material Weaknesses           Beginning Balance               New              Resolved             Consolidated    Ending Balance
   No Material Weaknesses                           0                     0                     0                   0                0
   Total Material Weaknesses                        0                     0                     0                   0                0


  Table 2. Summary of Management Assurances

   Effectiveness of Internal Control over Financial Reporting (FMFIA § 2)
   Statement of Assurance:              Unqualified
   Material Weaknesses                  Beginning Balance           New        Resolved         Consolidated      Reassessed   Ending Balance
   No Material Weaknesses                           0                0            0                  0                  0            0
   Total Material Weaknesses                        0                0            0                  0                  0            0
   Effectiveness of Internal Control over Operations (FMFIA § 2)
   Statement of Assurance:              Qualified
   Material Weaknesses                  Beginning Balance           New        Resolved         Consolidated      Reassessed   Ending Balance
   IT Certification and Accreditation               1                0            0                  0                  0            1
   Total Material Weaknesses                        1                0            0                  0                  0            1
   Conformance with Financial Management System Requirements (FMFIA § 4)
   Statement of Assurance:              Systems conform with financial management system requirements
   Non-Conformances                     Beginning Balance           New        Resolved         Consolidated      Reassessed   Ending Balance
   No Non-Conformance Issues                        0                0            0                  0                  0            0
   Total Non-Conformances                           0                0            0                  0                  0            0
   Compliance with Federal Financial Management Improvement Act (FFMIA)
                                                            Agency                                                   Auditor
   Overall Substantial Compliance                             Yes                                                       Yes
   1. System Requirements                                                                 Yes
   2. Accounting Standards                                                                Yes
   3. USSGL at Transaction Level                                                          Yes




  F Y   2 0 0 9     P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y       R E P O R T
                                                                                                                                                341
APPENDIX F: GLOSSARY OF KEY ACRONYMS




                                             GLOSSARY OF KEY ACRONYMS


       Abbreviation    Title                                               Abbreviation       Title


       A	   ACS	       American Community Survey                               CIRT	          Computer Incident Response Team

            ACSI	      American Customer Satisfaction Index                    CNST	          Center for Nanoscale Science and
                                                                                              Technology (NIST)
            AD	        Antidumping
                                                                               COOL	          Commerce Opportunities Online
            ADP	       Automated Data Processing
                                                                               COOP	          Continuity of Operations Plan
            AHS	       American Housing Survey
                                                                               COTR	          Contracting Officer Technical Representative
            AML	       Advanced Measurement Laboratory (NIST)
                                                                               CPD	           Coastal Programs Division
            APP	       Annual Performance Plan
                                                                               CPI	           Consumer Price Index
            ARRA	      American Recovery and Reinvestment Act
                       of 2009                                                 CPS	           Current Population Survey

            ASAP	      Automated Standard Application for                      CRADA	         Cooperative Research and Development
                       Payments                                                               Agreements

            ATP	       Advanced Technology Program (NIST)                      CSRS	          Civil Service Retirement System

            ATS	       Annual Trade Survey                                     CSTL	          Chemical Science and Technology
                                                                                              Laboratory (NIST)
            AWIPS	     Advanced Weather Interactive Processing
                       System                                                  CVD	           Countervailing Duty
                                                                               CWC	           Chemical Weapons Convention

       B	   BAS	       Boundary and Annexation Survey                          CWCIA	         CWC Implementation Act

            BDC	       Business Development Centers (MBDA)                     CZM	           Coastal Zone Management (NOAA)

            BEA	       Bureau of Economic Analysis                             CZMA	          CZM Act

            BIS	       Bureau of Industry and Security                         CZMP	          CZM Program

            BLS	       Bureau of Labor Statistics
            BNQP	      Baldrige National Quality Program                 D	    DFI	           Digital Freedom Initiative
                                                                               DHS	           U.S. Department of Homeland Security

       C	   CAMS	      Commerce Administrative Management                      DM	            Departmental Management
                       System                                                  DOJ	           U.S. Department of Justice
            CBP	       U.S. Customs and Border Protection                      DOL	           U.S. Department of Labor
            CCSPS	     Climate Change Science Program Strategic                DOL/OLMS	 DOL Online Labor Management System
                       Plan
                                                                               DPAS	          Defense Priorities and Allocations System
            CEDS	      Comprehensive Economic Development
                       Strategies
            CEIP	      Coastal Energy Impact Program (NOAA)              E	    EAA	           Export Administration Act

            CFO 	      Chief Financial Officer                                 EAR	           Export Administration Regulations

            CFO/ASA	   Chief Financial Officer and Assistant                   ECASS	         Export Control Automated Support System
                       Secretary for Administration (OS)                       EDA	           Economic Development Administration
            CIO	       Chief Information Officer                               EDD	           Economic Development Districts



 342                                             F Y   2 0 0 9   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                         APPENDIX F: GLOSSARY OF KEY ACRONYMS




 Abbreviation       Title                                              Abbreviation         Title


      EEEL	         Electronics and Electrical Engineering            G	    G&B	            Gifts and Bequests
                    Laboratory (NIST)                                                       (a fund that is part of DM)
      EFT	          Electronic Funds Transfer                               GAAP	           Generally Accepted Accounting Principles
      ELGP	         Emergency Oil and Gas and Steel Loan                    GAO	            U.S. Government Accountability Office
                    Guarantee Programs
                                                                            GDP	            Gross Domestic Product
      ENC	          Electronic Navigational Chart
                                                                            GFDL	           Geophysical Fluid Dynamics Laboratory
      ENSO	         El Niño/Southern Oscillation                                            (NOAA)
      EPO	          European Patent Office                                  GLERL	          Great Lakes Environmental Research
      ESA	          Economics and Statistics Administration                                 Laboratory
                                                                            GPRA	           Government Performance and Results Act of
                                                                                            1993
F	    FAIR	         Federal Activities Inventory Reform
                                                                            GPS	            Global Positioning System
      FAR	          False Alarm Rate
                                                                            GSA	            U.S. General Services Administration
      FCC	          Federal Communications Commission
                                                                            GSP	            Gross State Product
      FECA	         Federal Employees Compensation Act
                                                                            GSS	            Geographic Support System
      FEGLI	        Federal Employees Group Life Insurance
                    Program
      FEHB	         Federal Employees Health Benefit Program          H	    HR	             Human Resources

      FEMA	         Federal Emergency Management Agency                     HSS	            Heidke Skill Scores

      FERS	         Federal Employees Retirement System
      FFMIA	        Federal Financial Management Improvement          I	    IA	             Import Administration (ITA)
                    Act of 1996                                             ICANN	          Internet Corporation for Assigned Names
      FICA	         Federal Insurance Contributions Act                                     and Numbers

      FISMA	        Federal Information Security Management                 ICEP	           International Catalog Exhibition Program
                    Act                                                                     (ITA)

      FMFIA	        Federal Managers’ Financial Integrity Act of            ICT	            Information and Communication Technology
                    1982                                                    IDS	            Intrusion Detection Software
      FMP	          Fishery Management Plan                                 IFQ	            Individual Fishing Quota Direct Loans
      FR	           Field Representative                                                    (NOAA)

      FTA	          Free Trade Agreement                                    IFW	            Image File Wrapper

      FTAA	         Free Trade Area of the Americas                         IP	             Intellectual Property

      FTE	          Full-Time Equivalent                                    IP	             Internet Protocol

      FVOG	         Fishing Vessel Obligation Guarantee                     IRAC	           Interdepartmental Radio Advisory
                    Program (NOAA)                                                          Committee

      FWC	          Future Workers’ Compensation                            IRC	            Investment Review Committees

      FY	           Fiscal-year                                             IRS	            Internal Revenue Service
                                                                            ISI	            Institute for Scientific Information
                                                                            IT	             Information Technology




F Y   2 0 0 9   P E R F O R M A N C E      A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                        343
APPENDIX F: GLOSSARY OF KEY ACRONYMS




       Abbreviation   Title                                           Abbreviation      Title


            ITA	      International Trade Administration                   NIH	         National Institutes for Health
            ITL	      Information Technology Laboratory (NIST)             NIPA	        National Income and Product Accounts
            ITS	      Institute for Telecommunication Sciences             NIPC	        National Intellectual Property Law
                      (NTIA)                                                            Enforcement Coordination Council
            ITU	      International Telecommunication Union                NIST	        National Institute of Standards and
                                                                                        Technology
                                                                           NM	          Nautical Miles
                                                                           NMFS 	       National Marine Fisheries Service (NOAA)
       K	   KSA	      Knowledge, Skills, and Abilities
                                                                           NOAA	        National Oceanic and Atmospheric
                                                                                        Administration
       L	   LMS	      Learning Management System
                                                                           NOS 	        National Ocean Service (NOAA)
                                                                           NPV	         Net Present Value
       M	   MAF	      Master Address File
                                                                           NRC	         National Research Council
            MBDA	     Minority Business Development Agency
                                                                           NSRS	        National Spatial Reference System
            MBEC	     Minority Business Enterprise Centers
                      (MBDA)                                               NTIA	        National Telecommunications and
                                                                                        Information Administration
            MBE	      Minority Business Enterprise
                                                                           NTIS	        National Technical Information Service
            MBOC	     Minority Business Opportunity Center
                      (MBDA)                                               NWLON	       National Water Level Observation Network

            MDCP	     Market Development Cooperator Program
                      (ITA)                                          O	    OA	          Office of Audits (OIG)
            MED	      Minority Enterprise Development                      OAM	         Office of Acquisition Management (OS)
            MEP	      Manufacturing Extension Partnership (NIST)           OCAD	        Office of Compliance and Administration
            MOU	      Memorandum of Understanding                                       (OIG)

            MTS	      U.S. Marine Transportation System                    OCS	         Office of Computer Services (Franchise
                                                                                        Fund)
                                                                           OECD	        Organization for Economic Cooperation and
       N	   NABEC	    Native American Business Enterprise                               Development
                      Center (MBDA)
                                                                           OFM	         Office of Financial Management (OS)
            NAICS	    North American Industry Classification
                      System                                               OFPP	        Office of Federal Procurement Policy

            NAO	      North Atlantic Oscillation                           OHRM	        Office of Human Resources Management (OS)

            NAPA	     National Academy of Public Administration            OI	          Office of Investigations (OIG)

            NASA	     National Aeronautics and Space                       OIG	         Office of Inspector General (DM)
                      Administration                                       OIPE	        Office of Inspections and Program
            NBS	      National Bureau of Standards                                      Evaluations (OIG)

            NCDC	     National Climatic Data Center (NOAA)                 OMB	         Office of Management and Budget

            NCNR	     NIST Center for Neutron Research (NIST)              OPEM	        Office of Planning, Evaluation and
                                                                                        Management (BIS)
            NERR	     National Estuarine Research Reserve
                                                                           OPM	         U.S. Office of Personnel Management



 344                                         F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                         APPENDIX F: GLOSSARY OF KEY ACRONYMS




 Abbreviation       Title                                              Abbreviation         Title


      OS	           Office of the Secretary (DM)                      S	    S&E	            Salaries and Expenses
      OSDBU	        Office of Small and Disadvantaged Business              S&T	            Science and Technology
                    Utilization (OS)
                                                                            SAS	            Services Annual Survey
      OSE	          Office of Systems Evaluation (OIG)
                                                                            SAV	            Site Assistance Visits
      OSM	          Office of Spectrum Management (NTIA)
                                                                            SBA	            U.S. Small Business Administration
      OSY	          Office of Security (OS)
                                                                            SBR	            Combined Statement of Budgetary
      OTE	          Office of Technology Evaluation                                         Resources
      OTP	          Office of Technology Policy (TA)                        SCNP	           Consolidated Statement of Changes in Net
                                                                                            Position

P	    PALM	         Patent Application Location and Monitoring              SDDS	           Special Data Dissemination Standards
                    System                                                  SES	            Senior Executive Service
      PAR	          Performance and Accountability Report                   SIPP	           Survey of Income and Program Participation
      PART	         Program Assessment Rating Tool                          SME	            Small and Medium-sized Enterprise
      PBSA	         Performance-based Service Acquisitions                  SNM	            Square Nautical Miles
      PBSC	         Performance-based Service Contracting                   SPD	            Survey of Program Dynamics
      PBViews	      Panorama Business Views                                 SRD	            Standard Reference Data
      PKI	          Public Key Infrastructure                               SRM	            Standard Reference Materials
      PMA	          President’s Management Agenda                           STEP	           Standard for the Exchange of Product Model
      PNA	          Pacific North America                                                   Data

      PORTS®	       Physical Oceanographic Real-time System
      PP&E	         Property, Plant, and Equipment, Net               T	    3G	             Third Generation

      PPS	          Post-project Survey                                     TA	             Technology Administration

      PRT	          Program Review Team (NOAA)                              TAA	            Trade Adjustment Assistance Program (EDA)

      PSV	          Post-shipment Verification                              TAAC	           Trade Adjustment Assistance Center

      PTFP	         Public Telecommunications Facilities                    TABD	           Trans-Atlantic Business Dialogue
                    Program (NTIA)                                          TCC	            Trade Compliance Center (ITA)
                                                                            TECI	           Transshipment Country Export Control
Q	    QFR	          Quarterly Financial Report                                              Initiative

      QPF	          Quantitative Precipitation Forecasts                    TIC	            Trade Information Center (ITA)
                                                                            TIGER	          Topologically Integrated Geographic
                                                                                            Encoding and Referencing System
R	    R&D	          Research and Development
                                                                            TIP	            Technology Innovation Program (NIST)
      RLF	          Revolving Loan Fund (EDA)
                                                                            TIS	            Trademark Information System
      ROP	          Reserve’s Operations Plan (NOAA)
                                                                            TPA	            Trade Promotion Authority
                                                                            TPC	            Tropical Prediction Center (NOAA)
                                                                            TPCC	           Trade Promotion Coordinating Committee




F Y   2 0 0 9   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                         345
APPENDIX F: GLOSSARY OF KEY ACRONYMS




       Abbreviation     Title                                           Abbreviation      Title


            TRAM	       Trademark Reporting and Monitoring             V	    VCAT	         Visiting Committee on Advanced Technology
                        System
                                                                             VoIP	         Voice over Internet Protocol
            Treasury	   U.S. Department of the Treasury
            TROR	       Treasury Report on Receivables
                                                                       W	    WCF	          Working Capital Fund (DM)
            TRP	        Take Reduction Plan
                                                                             WMD	          Weapons of Mass Destruction
            TRT	        Take Reduction Team
                                                                             WTO	          World Trade Organization
            TSP	        Thrift Savings Plan
            TVA	        Tennessee Valley Authority


       U	   UAE	        United Arab Emirates
            UC	         University Center
            US&FCS	     U.S. and Foreign Commercial Service
            US/OTP	     Office of the Under Secretary/Office of
                        Technology Policy (TA)
            USCRN	      U.S. Climate Reference Network
            USDA	       U.S. Department of Agriculture
            USPTO	      U.S. Patent and Trademark Office
            USTR	       Office of the U.S. Trade Representative
            USWRP	      U.S. Weather Research Program
            UWB	        Ultra-wideband




 346                                           F Y   2 0 0 9   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                   OW            LEDGEM
               K N                                      EN
                                                                TS
       AC




This Performance and Accountability Report was produced with the
energies and talents of the Department of Commerce staff. To these individuals
we would like to offer our sincerest thanks and acknowledgement.


                     In particular, we would like to recognize the following
                     organizations and individuals for their contributions:


                    William Kittredge, Kerstin Millius, and Hillary Sherman
                    of EDA, Camelia Carter and Sheryl Williams of Census,
                    Joanne Buenzli of ESA, Kurt Bersani of BEA, Dondi
                    Ojeda of ITA, Brad Burke of BIS, Ron Marin and Holden
                    Hoofnagle of MBDA, Mary Choi and Heidi Keller of
NOAA, Alexandria Emgushov of USPTO, Gail
Ehrlich of NIST, Teresa Grant of NTIS, Charles
Franz of NTIA, John Webb of OIG, Karen Gard
and Quinntella Wilson of DM, Bill Tatter and Steve
Shapiro of the Office of Budget, Systems, Policy
and Performance Division, and the many other
bureau and Departmental staff, particularly of the
Office of Financial Management who contributed
to this report.


          We offer special thanks to Michael James, Sheri Beauregard, and
          Don James of The DesignPond for their outstanding contributions in
          the design and production of this report.


          To send comments or obtain additional information about this
          report, please email Bill Tatter at btatter@doc.gov.
                                        A M E R
                                B S ,           I C
                            J O                     A N
                        N
                    A                                       V
                C                                               A
            I                                                       L
        R




                                                                        U
    E




                                                                        E
M




                                                                            S
            STRATEGIC GOALS
A




                                   GOAL 1


Maximize U.S. Competitiveness and Enable Economic Growth
     for American Industries, Workers, and Consumers



                                   GOAL 2


    Promote U.S. Innovation and Industrial Competitiveness



                                   GOAL 3


                        Promote Environmental Stewardship



        MANAGEMENT INTEGRATION GOAL


        Achieve Organizational and Management Excellence
